<html>
<title> - THE ROLE OF JOHN HUANG AND THE RIADY FAMILY IN POLITICAL FUNDRAISING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 
  THE ROLE OF JOHN HUANG AND THE RIADY FAMILY IN POLITICAL FUNDRAISING

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                     DECEMBER 15, 16, AND 17, 1999

                               __________

                           Serial No. 106-142

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                               __________


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
           David A. Kass, Deputy Counsel and Parliamentarian
                  Kristi L. Remington, Senior Counsel
                         Jim Schumann, Counsel
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    December 15, 1999............................................     1
    December 16, 1999............................................   239
    December 17, 1999............................................   417
Statement of:
    Huang, John..................................................    42
Letters, statements, et cetera, submitted for the record by:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Calls and fax transmissions from Stephens, Inc...........   315
        Exhibit 4................................................   228
        Exhibit 5................................................   230
        Exhibit 6................................................   232
        Exhibit 7................................................   234
        Exhibit 11...............................................   570
        Exhibit 13...............................................   575
        Exhibit 15...............................................    54
        Exhibit 17...............................................    56
        Exhibit 18...............................................    59
        Exhibit 19...............................................    61
        Exhibit 20...............................................    64
        Exhibit 21...............................................    72
        Exhibit 22...............................................    74
        Exhibit 23...............................................    76
        Exhibit 24...............................................   116
        Exhibit 25...............................................   224
        Exhibit 64...............................................   580
        Exhibit 65...............................................   589
        Exhibit 67...............................................   593
        Exhibit 68...............................................   597
        Exhibit 109..............................................   572
        Exhibit 167..............................................   318
        Exhibit 168..............................................   320
        Exhibit 324..............................................   612
        Exhibit 328..............................................   615
        Exhibits 403-412.........................................   529
        Exhibit 439..............................................   550
        Exhibit 440..............................................   559
        Prepared statements of...................................8, 242
    Chenoweth-Hage, Hon. Helen, a Representative in Congress from 
      the State of Idaho, prepared statement of..................   237
    Huang, John, prepared statement of...........................    45
    LaTourette, Hon. Steven C., a Representative in Congress from 
      the State of Ohio:
        Exhibit 316..............................................   169
        Exhibit 317..............................................   264
        Exhibit 318..............................................   266
        Exhibit 320..............................................   268
        Exhibit 323..............................................   270
        Exhibit 337..............................................   328
        Exhibit 338..............................................   330
        Exhibit 441..............................................   375
        Exhibit 442..............................................   409
        Exhibits 446-450.........................................   440
        Exhibits 452-456.........................................   447
        Exhibit 501..............................................   352
        Exhibit 502..............................................   355
        Exhibit 513..............................................   358
        Exhibit 525..............................................   473
        Exhibit 532..............................................   475
        Exhibit 537..............................................   477
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Exhibit 31...............................................    94
        Exhibit 32...............................................   153
        Exhibit 33...............................................   151
        Exhibit 34...............................................   155
        Exhibit 35...............................................   157
        List of 122 individuals..................................    35
        Recommendation for independent counsel by Mr. LaBella and 
          Mr. Freeh..............................................    36
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut:
        Exhibit 153..............................................   489
        Exhibit 174..............................................   508
        Exhibit 192..............................................   522
        Exhibit 417..............................................   620
        Exhibit 432..............................................   622
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana:
        Articles dated July 3, 1999 and March 23, 1997...........   208
        Exhibit 97...............................................   221
        Exhibit 98...............................................   278
        Exhibits 99 and 100......................................   281
        Exhibit 101..............................................   287
        Exhibit 102..............................................   290
        Exhibit 103..............................................   292
        Exhibit 104..............................................   295
        Exhibit 105..............................................   297
        Exhibit 106..............................................   300
        Exhibit 107..............................................   302
        Exhibit 108..............................................   306
        Exhibit 207..............................................   398
        Exhibits 208 and 209.....................................   400
        Exhibit 210..............................................   390
        Exhibit 211..............................................   392
        Exhibit 212..............................................   394
        Exhibit 378..............................................   422
        Exhibits 379 and 380.....................................   429
        Expense record for John Huang............................   219
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Article dated October 14, 1996...........................    81
        Information concerning fines of $25,000 or more..........   466
        Prepared statement of....................................    29
    Wilson, James C., chief counsel, Committee on Government 
      Reform, exhibit 354........................................   636


  THE ROLE OF JOHN HUANG AND THE RIADY FAMILY IN POLITICAL FUNDRAISING

                              ----------                              


                      WEDNESDAY, DECEMBER 15, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:10 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Shays, Mica, Souder, 
LaTourette, Waxman, and Norton.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Mark Corallo, director of communications; 
Kristi Remington, senior counsel; James J. Schumann and M. 
Scott Billingsley, counsels; Kimberly A. Reed, investigative 
counsel; Renee Becker, deputy press secretary, Robert Briggs, 
editor and assistant clerk; Robin Butler, office manager; 
Michael Canty, Toni Lightle, and Maria Tamburri, staff 
assistants; Nicole Petrosino, legislative aide; Leneal Scott, 
computer systems manager; Lisa Smith Arafune, chief clerk; 
Corinne Zaccagnini, systems administrator; Phil Schiliro, 
minority staff director; Phil Barnett, minority chief counsel; 
Kenneth Ballen, minority chief investigative counsel; Kristin 
Amerling, Sarah Despres, David Sadkin, Paul Weinberger, and 
Michael Yang, minority counsels; Ellen Rayner, minority chief 
clerk; Jean Gosa, minority staff assistant; and Andrew Su, and 
Barbara Wentworth, minority research assistants.
    Also present: Ty Cobb and Jack Keeney, counsel for Mr. 
Huang.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order. You may have 
a seat right now, gentlemen.
    I ask unanimous consent that all Members' written opening 
statements be included in the record; and, without objection, 
so ordered.
    I also ask unanimous consent that all articles, exhibits 
and extraneous or tabular material referred to be included in 
the record, and without objection so ordered.
    I ask unanimous consent that questioning in the matter 
under consideration proceed under clause 2(j)(2) of House Rule 
11 and Committee Rule 14 in which the chairman and ranking 
minority member allocate time to committee counsel as they deem 
appropriate for extended questioning not to exceed 60 minutes 
divided equally between the majority and minority. Without 
objection, so ordered.
    I also ask unanimous consent that questioning in this 
matter proceed under clause 2(j)(2) of House Rule 11 and 
Committee Rule 14 in which the chairman and ranking minority 
member allocate time to members of the committee as they deem 
appropriate for extended questioning not to exceed 60 minutes 
equally divided between majority and minority. And, without 
objection, so ordered.
    Mr. Waxman. Mr. Chairman.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Now that we have agreed to some of these 
procedural matters before the committee, I read in Roll Call 
that you are planning to conduct your own Internet broadcast of 
this and future hearings, and I think this would be a positive 
development if it is done right. I am a little surprised 
because you and your staff never consulted with us about it.
    As I understand the House rules, we would need unanimous 
consent to proceed until such time as our committee rules have 
been changed to permit this in-house broadcasting of committee 
activities. I would not object today if we could commit 
together to working together, you and the minority, to amend 
the committee rules to address this coverage and to provide, 
one, that the coverage will be in compliance with rule 11, 
clause 4; two, that the coverage will be fair and nonpartisan; 
and three, that the minority will have prompt access to a copy 
of the coverage.
    If you are willing to agree to those terms, then I will not 
object to having the committee go ahead with this new Internet 
live broadcast even though the rules, until they are changed, 
won't permit it.
    Mr. Burton. We agree fully with that, Mr. Waxman, and it is 
our intent to do that. If there has been a misunderstanding we 
apologize, because we have been planning on this and working on 
this for several months. One of the reasons that we want to 
have the Internet coverage is, first of all, it will give the 
American people both the minority and the majority views on a 
number of issues. It will give them complete access to our 
hearings. Right now the media coverage of some of our very 
important hearings has been rather limited, and in some cases 
the media has interpreted things that have happened based upon 
their own philosophy.
    We think the American people deserve the unvarnished facts 
in our hearings and in our investigations, and I think they 
will get that because the Internet won't leave anything out. We 
will make sure that the minority has full access to everything, 
that there is fair distribution of the time allocated, as we 
have in the past to both the minority and majority, and we will 
have the rules amended at the first opportunity when we come 
back in January.
    Mr. Waxman. If the chairman would permit, I thank you for 
that statement and your willingness to work together. I just 
have to say for the record that it makes me nervous when any 
agency of government--and of course our committee is an agency 
of government--controls what would be sent to the media. And if 
we have Internet television coverage of our hearing, and it is 
our people or your people controlling who will be covered, what 
they say--not what they say but who the cameras will turn on 
and things along those lines--I would want us to make sure that 
the ground rules are absolutely pinned down to be fair. I sense 
from what you have said you agree with that.
    Mr. Burton. I do agree with that.
    Mr. Waxman. And on that basis, even though the Democrats on 
this committee could insist on a vote to change the rules to be 
taken before we would permit this to take place, we won't 
object for today, and we will work together for future 
hearings.
    Mr. Burton. We thank you, Mr. Waxman. We will now proceed 
with our opening statements.
    I would like to welcome everybody back this afternoon. We 
have a limited number of Members who are here. Obviously we are 
in a holiday season and a lot of the Members have other 
commitments. So we are probably going to have about five or six 
Members here for the questioning of Mr. Huang and his legal 
counsel, but I do appreciate the Members who are here being 
here, and we will try to do this as expeditiously as possible.
    Because of the tremendous number of questions we have, the 
hearing will probably take 3 days and possibly 4 days to 
complete. I know that is not good news for everybody, but we 
haven't had the opportunity to talk to Mr. Huang or his counsel 
for about 3 years now, and since we have the opportunity, we 
want to make sure we make good use of it and complete it as 
thoroughly as possible.
    I would like to thank you once again for being here. I know 
your schedules in your districts are very full with all the 
holiday celebration. So I appreciate you being here.
    For those of you who are following these hearings, this 
hearing is happening during the recess, and as I said, you 
won't see as many Members of the Congress here as you would 
when we are in session. However, I expect other Members to join 
us as we get underway, and they will be coming in and out 
because of their schedules.
    This is a very important hearing. We have been waiting for 
3 years to hear Mr. Huang's testimony. For the last 3 years Mr. 
Huang has been 1 of 122 people who have invoked the fifth 
amendment or left the country. In our interim report which we 
filed over a year ago, we noted that 17 people associated with 
Mr. Huang had either taken the fifth or left the country. The 
result has been a lot of unanswered questions. These are 
questions that the American people deserve to get answered.
    We voted to grant Mr. Huang immunity in October. He is here 
today to testify and tell his story and answer questions. In my 
view, it is better late than never. And, Mr. Huang, we welcome 
you and appreciate you being here.
    I want to say just a couple of things about how we are 
going to proceed. This is going to take some time. We are going 
to be at this for several days. We have a large amount of 
material to go through, and there just isn't any quick and easy 
way to do it. I plan to work into the evenings if necessary, 
and I plan to go into the weekend if we have to. This is 
probably the first and only time that John Huang will testify 
in public, and we have an obligation to be thorough.
    In many ways this is going to be more like a deposition 
than a hearing. Anyone who has sat through a lengthy deposition 
knows that it can be tedious at times, but I think it is 
necessary to get this information on the record.
    Normally, before we hold a hearing we have our staffs 
interview a witness. In previous sessions, our staffs had 
deposition authority. That was not extended during this 
Congress, because at the time we initiated and instituted this 
Congress we didn't think it was necessary, and when we have 
staff interviews or depositions our staff goes over all of the 
issues with a witness in advance. That way, by the time we get 
to a hearing, we can focus on the most relevant facts. We have 
not been able to do that this time.
    At the time that we voted to immunize Mr. Huang, Mr. Waxman 
asked that we do all of the questioning in public and I agreed 
to do that.
    So this is going to be a unique situation. We don't know in 
advance what the answers to many of the questions are going to 
be. We have an idea because we have received the FBI's 
interviews. However, they didn't cover all of the issues that 
we need to cover. At times I think this will be very 
interesting and at other times it is sure going to be 
monotonous. However, we have been working on this for 3 years. 
We have waited a long time, and I think we need to be as 
thorough as possible and I want to thank everyone in advance 
for bearing with us.
    Before I talk about the substance of the hearing, I want to 
talk for a moment about the scheduling problems we have had. 
They could have been avoided and what happened last week left 
me a little frustrated.
    My staff has talked for over a month with Mr. Huang's 
lawyers, and we had planned to start these hearings yesterday, 
for many weeks. It wasn't until last week after we noticed the 
hearing dates that Mr. Keeney informed us that Mr. Huang was 
scheduled to testify before a grand jury in Los Angeles 
yesterday. It was clear that this appearance had been planned 
well in advance, and I don't understand why we didn't know 
about this earlier, but nevertheless we are here today.
    Members of Congress had canceled events in their districts 
to be here yesterday. I had a subcommittee chairman who wanted 
to hold a hearing yesterday, and we had to cancel that. So we 
had that hearing delayed until next year, and unfortunately, 
because of Mr. Huang's testimony before the grand jury 
yesterday, he had to fly all night on the red eye. He looks no 
worse for wear, but it must have been a tough night for him.
    Most people think that this foreign fundraising scandal 
began in 1995 or 1996. It did not. This scandal was born in the 
summer of 1992. Bill Clinton was the Governor of Arkansas, and 
he was running for President. James Riady was a billionaire 
living in Indonesia. Mr. Riady flew from Jakarta to Los Angeles 
in August 1992. He took a limousine ride with then-Governor 
Bill Clinton. He promised to raise $1 million for Bill 
Clinton's campaign. That set in motion a pattern of illegal 
activity that was repeated over and over again in 1993, 1994, 
1995 and 1996.
    Foreign money was funneled to straw donors. Straw donors 
gave money to the DNC and other campaigns. Campaign officials 
claimed to have no idea anything suspicious was going on. It 
happened time and time again with John Huang, James Riady, 
Charlie Trie, Pauline Kanchanalak, Ted Sioeng, Johnny Chung, 
and Mark Jimenez.
    The DNC ultimately returned more than $3\1/2\ million in 
illegal money, and I noted that in the New York Times today it 
indicated that money was not illegal, but--I can't remember the 
exact word, ``improper''--those were illegal contributions. Not 
improper, they were illegal.
    John Huang's name and Charlie Trie's name were connected to 
most of it. Since then we have uncovered more illegal foreign 
money that the DNC still hasn't returned. In the fall of 1992 
Mr. Riady worked with Mr. Huang to funnel about $200,000 
through Lippo bank employees. It then went to the DNC, and it 
also went to some State Democrat parties, including California, 
Michigan, Ohio, and Missouri. Normally you wouldn't think that 
an Indonesia businessman would think of directing contributions 
to Missouri. Who was steering this money to all these States? 
That is one of the things that we want to find out.
    When we published our interim report last fall, we 
published bank records and memorabilia that showed the 
contributions were illegal. To my knowledge, not a penny of 
that money was returned by any of those campaign committees.
    More illegal money was given through the Lippo Group in 
1993 and 1994. In 1996 the DNC received $450,000 from an 
Indonesian couple named Wiriadinata. Forgive me if I don't 
pronounce all these names correctly. The money came from 
Indonesia, from a close associate of Mr. Riady. Mr. Huang was 
listed as the solicitor of these contributions. This is one of 
the many issues we will be asking him about this week.
    The big question is why? Why did James Riady want to raise 
$1 million for Bill Clinton's campaign? When you add it all up, 
the Riadys and their associates gave almost $2 million to the 
President's campaign and his other causes. Why? Did they like 
his health care plan? Did they admire his position on social 
security? I doubt it.
    There was an interesting passage in John Huang's FBI 302 
interviews. They were talking about the $100,000 that Mr. Riady 
gave to Webster Hubbell. Mr. Huang was asked if there was a 
purpose behind this money. He responded, ``everything has a 
purpose.'' I don't know exactly what he meant. That is one of 
the things we want to ask him about this week.
    I doubt that we are going to get all of the answers today. 
I don't know if Mr. Huang has all of the answers. We reviewed 
John Huang's FBI 302 interviews. If there is a reason or a 
purpose behind all this money, I didn't see it there.
    If we really want to get the answers, we need to talk to 
James Riady. He needs to testify. Mr. Riady hasn't set foot in 
this country in 3 years. I understand from media reports that 
his lawyers are trying to negotiate a plea agreement with the 
Justice Department. From what I understand, Mr. Riady wants to 
clear away his legal problems so he can come back into the 
United States. If he wants to come back to the United States, 
the first thing he should do is come forward and explain his 
role in this whole fiasco to the American people. I think they 
deserve some answers.
    It is clear to me that the Justice Department had enough 
evidence to indict Mr. Riady a long time ago. I don't know why 
he hasn't been indicted. The Attorney General made a decision 2 
years ago not to appoint an independent counsel. She invited a 
lot of scrutiny when she did that. We will be watching very 
closely to see if Mr. Riady gets a sweetheart deal.
    I know what kind of deals Republicans got from Janet Reno's 
Justice Department. There was a man named Simon Fireman. He 
funneled about $120,000 to the Bob Dole for President campaign. 
He got a $6 million fine. There is a company by the name of 
Empire Sanitary Landfill. They gave $129,000 in illegal 
contributions to Republican campaigns. They were fined $8 
million. Another Republican who was responsible for fewer 
illegal conduit contributions than Mr. Huang got a $5 million 
fine. Unlike Mr. Huang, both of the Republicans got terms of 
detention.
    We will just have to wait and see what happens with Mr. 
Riady.
    The fact that James Riady hasn't been able to come back 
into the country has not stopped him from keeping in touch with 
the President. He showed up when the President was in New 
Zealand for an economic conference in September, and the 
meeting was captured on videotape.
    Because Mr. Riady has thumbed his nose at the campaign 
finance investigation, we wondered why the President would 
greet him so warmly and how he could get a seat of honor at an 
event the President attended. We asked the White House about 
the meeting, and they were quick to supply two tapes that the 
White House photographer took, and I would like for you to see 
the tapes from the White House right now.
    [Videotape played.]
    Mr. Burton. OK. That is the end of tape one, and as you can 
see, it doesn't look like much happened. As a matter of fact, 
when the tape panned back to the President, he had just passed 
Mr. Riady, and he hadn't really--it doesn't show him making 
much contact with him, and you do see a long shot of the wall 
over there where the TV cameras were. So let us take a look at 
tape two the White House sent us.
    [Videotape played.]
    Mr. Burton. Now, you notice that the tape stopped just as 
Mr. Clinton approached Mr. Riady.
    Now, I would like for you to see tape three. This tape came 
from a source not connected with the White House.
    [Videotape played.]
    Mr. Burton. That shows a little different picture. The 
White House tapes don't show it, but President Clinton really 
did pay some special attention to Mr. Riady. This White House 
is so consumed with covering things up that their taxpayer-
funded photographer wouldn't even allow a tape to be made of 
the President shaking Mr. Riady's hand. No one minded the 
President meeting Mr. Riady. They just didn't want anyone to 
know how warmly he was greeted because of the problems 
surrounding Mr. Riady.
    Did the President ask Mr. Riady to come back and explain 
his role in this scandal? I don't think so. The White House has 
never shown an intense desire to get all the facts out. The 
President should ask Mr. Riady and all the other people who 
have stayed out of the country to come back and explain their 
actions.
    Some people say the American people don't care anymore, 
that they don't want to know the facts. Well, I don't think 
that is true, but the fact of the matter is we have a 
responsibility on this committee to get to the bottom of it, 
because illegal campaign contributions coming from foreign 
sources and foreign governments were given to influence the 
outcome of the elections in 1996 and 1992.
    I think the American people really want to know if foreign 
governments and foreign individuals are trying to influence our 
elections. I think they want to know who their government is 
beholden to. I think we have an obligation to finish what we 
started. We have an obligation to the history books to get the 
facts on the record.
    Now, Mr. Huang, I have reviewed your opening statement and 
I read part of it in the New York Times today, and I can't let 
it go by without some comment. You make it sound like people 
who are trying to get the facts out are somehow being unfair to 
Asian Americans. Nothing could be further from the truth. I 
want to make it crystal clear. Nothing in this committee's work 
should be interpreted as a slight on Asian Americans or any 
other ethnic group. There should be no roadblocks to the 
participation of any American regardless of their ethnicity in 
our political system. I am very sympathetic to innocent people 
whose lives have been hurt by the campaign finance scandal, but 
again, let me make it clear we have had to talk to a lot of 
people, and the Department of Justice has had to talk to a lot 
of people because you encouraged them to give contributions, 
which was breaking the law, because they looked up to you and 
because they trusted you.
    Mr. Huang, you were the vice chair for the finance 
committee at the Democrat National Committee. You are a very 
sophisticated player in the U.S. political system. You 
understand it. You knew the law, and when you decided to break 
the law, you caused a lot of people to be hurt, and most of 
them unfortunately were Asian Americans. I really hope you will 
not try to blame the Justice Department or the Congress for 
things that you are responsible for.
    We have a lot of work to do. There are many, many issues 
that we want to question you about, Mr. Huang. I haven't even 
touched on most of them here. In the interest of time, I won't 
now.
    Let me once again thank you for being here, Mr. Huang, and 
I want to thank members of the committee who traveled during 
the holiday to be with us here as well, and Mr. Waxman, I will 
yield to you for an opening statement.
    [Note.--The FBI interview and summary of John Huang is 
printed at the end of the hearing.]
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.001
    
    [GRAPHIC] [TIFF OMITTED] T6496.002
    
    [GRAPHIC] [TIFF OMITTED] T6496.003
    
    [GRAPHIC] [TIFF OMITTED] T6496.004
    
    [GRAPHIC] [TIFF OMITTED] T6496.005
    
    [GRAPHIC] [TIFF OMITTED] T6496.006
    
    [GRAPHIC] [TIFF OMITTED] T6496.007
    
    [GRAPHIC] [TIFF OMITTED] T6496.008
    
    [GRAPHIC] [TIFF OMITTED] T6496.009
    
    [GRAPHIC] [TIFF OMITTED] T6496.010
    
    [GRAPHIC] [TIFF OMITTED] T6496.011
    
    [GRAPHIC] [TIFF OMITTED] T6496.012
    
    [GRAPHIC] [TIFF OMITTED] T6496.013
    
    [GRAPHIC] [TIFF OMITTED] T6496.014
    
    [GRAPHIC] [TIFF OMITTED] T6496.015
    
    [GRAPHIC] [TIFF OMITTED] T6496.016
    
    Mr. Waxman. Mr. Chairman, I had intended to waive my 
statement today, but I thought more about this hearing, and I 
thought about it and I realized that it was important to make 
some facts and observations for the record and certainly part 
of the record for this hearing.
    The Burton investigation started in 1996 after the L.A. 
Times, the Wall Street Journal, the New York Times, ABC, CBS, 
NBC, CNN and other media sources broke stories about campaign 
irregularities in the 1996 Presidential campaign. In the past 
38 months, this committee has uncovered little new, but we have 
settled into a familiar and predictable pattern.
    Phase one begins with the chairman making a sensational and 
unsubstantiated allegation. After that, a newspaper headline 
follows, and then we move into phase two, when Mr. Burton 
pledges he won't rest until he gets the facts because the 
American people have a right to know.
    Phase three involves getting the facts, which invariably 
don't support the original allegations made in phase one. Now 
this is a problem.
    Phase four solves the phase three problem. That is when the 
chairman accuses the White House, the President, Janet Reno, 
the Justice Department or Democrats on this committee of 
stonewalling, obstructing justice or covering up, and Mr. 
Burton generally says he won't stop until he gets what he wants 
because the American people have a right to know.
    Phase five is always interesting because that is when the 
White House, the Justice Department or the FBI capitulates, and 
we actually receive the information, what was said to be a 
smoking gun, but just as in phase three, that material never 
seems to support the original allegations.
    At that point we enter phase six. Forget the original 
allegations, forget the facts, pretend it never happened and 
don't admit a mistake. Instead, make new, sensational and 
unsubstantiated allegations. Go back to phase one and hope no 
one ever notices.
    There has never been a congressional investigation quite 
like this one. In 3 years, Chairman Burton has unilaterally 
issued over 883 subpoenas. Now, let me repeat that because it 
is really quite unprecedented: 883 subpoenas related to the 
campaign finance investigation. To fully appreciate how 
astounding that is, consider that from 1960 to 1994, not a 
single chairman of any House committee ever issued a unilateral 
subpoena. It is simply amazing.
    Mr. Burton tries to rationalize this by claiming he has 
been blocked at every turn, but the fact is that the committee 
has received over 1.5 million pages of documents and deposed 
over 160 witnesses. Now, the chairman indicated that in the 
past he has deposed the witnesses before he ever had the 
hearing, but today we are hearing from Mr. Huang without that 
deposition preceding the hearing. Of those precisely 161 people 
who have been deposed by the committee, only 15 were ever 
brought to a public hearing. That meant the rest had to go 
behind closed doors to be questioned over and over and over 
again about every detail, some of which did not even relate to 
the campaign finance investigation.
    Could you imagine being called before a congressional 
committee and being forced to answer questions behind closed 
doors about every possible thing that the attorneys that work 
for this committee might think could be useful to try to trip 
you up or someone else up?
    Well, Mr. Burton asked this committee to immunize 12 
witnesses. Now, the committee Democrats have immunized all 12 
witnesses. The reason that is significant is that the committee 
needs a two-thirds vote, so they need our votes to immunize 
witnesses, and we have gone along in every instance, even in 
cases where it didn't make much sense. The committee has had a 
virtually unlimited budget. We have spent over $7 million in 
the last Congress alone, and we don't know the full figures for 
this one. What do we have to show for this, aside from the fact 
that we are now hearing from Mr. Huang? The Washington Post 
wrote that the investigation ``runs the risk of becoming its 
own cartoon, a joke and a deserved embarrassment.'' The New 
York Times called it ``A parody of a reputable investigation,'' 
and Norm Ornstein noted it was, ``A case study in how not to do 
a congressional investigation.''
    Reputations have been recklessly smeared. Some of those 
smeared have been public figures like Bruce Babbitt, Maggie 
Williams, Hazel O'Leary, Cheryl Mills and Janet Reno. Others 
have been ordinary citizens like Professor Chi Wang, whose bank 
records were erroneously subpoenaed, or Chief Petty Officer 
Charles McGrath, the career military officer in charge of the 
office that was falsely accused of doctoring White House 
videotapes, and Colonel Raymond Wilson, another career officer 
who was wrongly accused of witness intimidation and mob tactics 
for trying to respond to a legitimate Senate inquiry. Even 
those who have done something wrong, like Webster Hubbell and 
John Huang, end up in the strange position of being wronged 
themselves when our committee gets involved.
    On October 9, 1997, for instance, when Mr. Burton held his 
first hearing with a supposed blockbuster witness David Wang, 
the chairman promised that if Mr. Wang were granted immunity 
and permitted to testify, his testimony would show that John 
Huang, who is here today with us, illegally laundered campaign 
contributions while a DNC official. As the chairman put it, 
``This is the first time we have found an active person at the 
DNC who was involved in money laundering, and we will be able 
to prove that.''
    Once granted immunity, Mr. Wang confessed to an illegal tax 
and immigration scheme that was far more serious than his 
conduit contribution violation, but he was immunized so no 
prosecution could be taken against him. Even worse, the 
testimony he gave to the committee about John Huang was 
demonstrably false. His account was factually wrong and was 
debunked as he appeared before our committee.
    To this day, however, Mr. Burton refuses to acknowledge his 
mistake and admit that his allegations about John Huang in that 
particular instance were wrong.
    Now, if we don't have a committee owning up to correct the 
record, let's just at least look to the example set by the Wall 
Street Journal. They ran an article last week, December 9th, 
``Highly Publicized Horror Story That Led To Curbs On IRS 
Quietly Unravels in Virginia Civil Court.'' And, in this 
particular instance there was testimony in the Senate about how 
an IRS agent stormed this man's home and restaurant amid a 
misguided criminal inquiry. Well, when they finally got into a 
trial, it became clear that those inflammatory statements made 
in a Senate hearing turned out to be inaccurate.
    If this investigation has a redeeming feature, perhaps it 
is that future congressional investigations will have a model 
of what not to do.
    The Burton investigation has suffered from at least five 
fundamental flaws that future chairmen should avoid at all 
costs.
    First, tread carefully when making allegations. I just 
mentioned the David Wang fiasco, but that is not the only 
unsubstantiated allegation made about John Huang. In April 
1997, Newt Gingrich, who was Speaker of the House of 
Representatives, alleged that, ``John Huang was clearly being 
given secrets while going to the Chinese embassy.'' Mr. Burton 
suggested on national television that Mr. Huang, ``May very 
well have given information that he shouldn't to the Chinese 
and others,'' and he could be a Chinese spy. Well, 2 years have 
passed, and there is still no evidence to support these over-
the-top accusations, but they have resulted in over 7,000 news 
stories about Mr. Huang, and in a strange and unfortunate way, 
by raising the stakes, they have actually ended up minimizing 
the serious violations that Mr. Huang actually committed.
    Instead of recklessly crying treason, we could have worked 
together on a bipartisan basis to shine a spotlight on conduit 
contributions, but we didn't.
    Partisanship is the obvious second flaw of this 
investigation. Congressional investigations need to be 
bipartisan to be credible, and all wrongdoing, Democratic or 
Republican, has to be on the table. When this investigation 
began, I offered to work with the chairman in a bipartisan way 
with no holds barred. We would have looked at campaign finance 
abuses, following the facts to wherever they may lead, whether 
they be from Democrats or Republicans, let us find out how this 
system is being abused, and, from my perspective, change what I 
think is an inherently rotten campaign finance system.
    Well, the chairman rejected that offer. I mentioned earlier 
that, to date, Mr. Burton has issued 883 subpoenas. 874 of 
those subpoenas have been issued to Democratic targets, and 
only 9 have been sent to Republican targets. The fact is that 
the Burton investigation won't ask any questions about 
Republican wrongdoing.
    Last August every Democrat on this committee sent Mr. 
Burton a letter asking that we investigate a serious conduit 
contribution scheme that involved Tom DeLay, one of the most 
powerful Members of the House, No. 3 in the Republican House 
leadership. A Republican businessman, Peter Cloeren, admitted 
to participating in a conduit scheme that he said was suggested 
to him by Mr. DeLay. Mr. Cloeren provided specific and credible 
information that deserved further scrutiny. Not one subpoena 
has been issued, no documents have been requested, and no 
hearings have been scheduled. Remarkably, Mr. Burton has never 
even had the courtesy to respond to our letters.
    Now, it is important to keep in mind that the illegal 
scheme that Mr. Cloeren participated in was indistinguishable 
from the one Mr. Huang participated in. The only difference was 
that it involved Republicans.
    I know some people believe there is more than partisanship 
at work. They genuinely believe that there is a clear anti-
Asian bias and that Mr. Huang has received such extraordinary 
scrutiny and has been accused of treason without evidence to 
back it up simply because he is Asian. Those feelings only 
deepened when one Republican Senator called Charlie Trie's 
actions, ``Classic activities on the part of an Asian who comes 
out of that culture,'' and a House Republican joked that we 
found only, ``The tip of the egg roll.''
    And people are genuinely puzzled why Mr. Huang is being 
singled out to testify for an unprecedented 4 days on conduit 
contributions where the FEC has investigated literally hundreds 
of individuals for similar violations over the past several 
years. Some believe it is simply partisanship. Some see a clear 
anti-Asian bias. Whether it is partisanship or bias, it is 
wrong. A credible investigation can't be selective.
    The Burton investigation's third flaw is inexcusable--
incompetence. One Republican committee member called it 
frightening. Sometimes the mistakes, such as staking out the 
homes of innocent individuals, have been simply embarrassing. 
At other times, they are almost comical. When the chairman 
released doctored transcripts of Webb Hubbell's telephone 
conversations from prison, the doctored transcript quoted Mr. 
Hubbell as saying, ``the Riady is not just--excuse me, the 
Riady is just not easy to do business with me while I am in 
here.'' That was the quote in the transcript released by the 
committee. The actual tape, of course, was significantly 
different. What Mr. Hubbell actually said was ``the reality is 
it is just not easy to do business with me while I am here.'' 
Never mentioned Riady at all. The bottom line is that careless 
mistakes undermine credibility. Just as important, booing and 
fulminating should never replace genuine investigating.
    Our fourth mistake is that the committee has often used 
tactics intended to punish and intimidate witnesses into 
providing information. Witnesses who don't do what the chairman 
wants are routinely subpoenaed and threatened with contempt 
even if they have legitimate reasons for their actions. One 
witness who crossed the chairman was humiliated in a public 
hearing simply for asserting his fifth amendment constitutional 
rights.
    Last, future investigators should not fall in love with 
their theories of wrongdoing. The biggest problem in this 
investigation is that Chairman Burton has been convinced from 
the start that he knew what happened. As the chairman said in 
one revealing interview, ``if I could prove 10 percent of what 
I believe happened, the President would be gone. That is why I 
am after him.'' And each time the evidence hasn't panned out, 
it has only made him more sure he is right, and it seems to 
have convinced him that everyone is in a conspiracy against 
him: the White House, Janet Reno, me, other Democrats on the 
committee.
    In recent weeks it has even extended to the media. Despite 
the fact that it has been investigative reporters from the 
networks and other major newspapers that have uncovered the 
scandal, Mr. Burton doesn't think he is getting enough 
attention. He has accused the press of ignoring his work and 
keeping the facts from the American people. So now the media is 
also part of the conspiracy.
    As a result, the chairman has spent thousands of taxpayers' 
dollars installing this new camera system in this committee 
room so he can broadcast the hearings himself. His staff calls 
the expensive new system--at least they were quoted as calling 
it in the press--``Dan-SPAN.''
    Some of you who have closely followed the history of this 
investigation will remember that last year the chairman 
directed his staff to build a fake brick wall in the committee 
room. That, too, wasted taxpayers' dollars. It ended up ruining 
one of the walls in this room, and then the taxpayers had to 
foot the bill to repair the wall. I don't know if the new 
camera system will be worth the thousands of taxpayers' dollars 
we are spending on it, but it does seem to be yet another 
indication of lost perspective.
    I want to thank everyone for their patience in allowing me 
to make my observations part of the record, and I want to close 
with a final word about Mr. Huang.
    Mr. Huang, I think you owe the American people an apology 
for the conduit scheme you participated in. No matter how many 
mistakes the Burton investigation has made, nothing excuses 
your illegal conduct, and I hope you will take full 
responsibility for your actions today, and if any evidence 
surfaces that supports the most sensational charges against 
you, I won't hesitate to join Mr. Burton in condemning those 
actions. At the same time, if there is no evidence to support 
allegations of money laundering, spying and treason, all of 
which you have been accused of, I hope the chairman and others 
will acknowledge that fact and correct any false statements 
that they have made.
    I thank you for this chance to make these opening 
statements. I look forward to hearing your testimony. I am 
prepared, Mr. Chairman, to be here at these hearings as long as 
you plan to hold them.
    [The prepared statement of Hon. Henry A. Waxman follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.017
    
    [GRAPHIC] [TIFF OMITTED] T6496.018
    
    [GRAPHIC] [TIFF OMITTED] T6496.019
    
    [GRAPHIC] [TIFF OMITTED] T6496.020
    
    [GRAPHIC] [TIFF OMITTED] T6496.021
    
    Mr. Burton. Well, I am happy for that, Mr. Waxman. I just 
might say before I yield to Mr. Mica for an opening statement 
that the length of the hearings would not have been necessary 
had we had the staffs being able to interview these people, 
interview Mr. Huang. Mr. Mica.
    Mr. Mica. Mr. Chairman, could you let us know exactly how 
much time we will have? Are we going to have 5 or 10 to start?
    Mr. Burton. We are going to go on the 5-minute rule. We 
wanted to go on 10-minute rounds to be more thorough, but Mr. 
Waxman insisted on 5-minute rounds. So we will start with that.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Waxman. You are not talking about the opening 
statements, are you?
    Mr. Burton. The opening statement, we will allow some 
latitude there, but in the questioning it is 5 minutes.
    Mr. Waxman. I think the gentleman has been recognized for 
an opening statement. I assume those are generally for Members 
5 minutes.
    Mr. Burton. They generally are. Unless you object, we will 
try to give the Members a little latitude since we don't have 
as many Members here.
    Mr. Waxman. I won't object, but I think that was the answer 
to what I thought the gentleman was asking. Then when we get 
into the questioning of Mr. Huang, as I understand it, we have 
agreed to a half hour on the Republican side and a half hour on 
the Democratic side for Mr. Burton and myself, a half hour on 
the Republican side for the staff, a half hour on our side for 
the staff, and then after that we will follow the regular order 
of 5-minute questioning.
    Mr. Burton. The half hour, as far as the staff is 
concerned, does not necessarily have to follow right after 
ours. So we will go directly to the Members after the half 
hour.
    Mr. Waxman. Those are the rules. We are going to follow the 
rules.
    Mr. Burton. That is fine.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman, and thank you for 
clarifying the time allocation.
    First of all, Mr. Chairman, members of the committee, I 
would like to ask unanimous consent to insert at this point in 
the record some documents and information. First of all, just 
to clarify the record, I think it is important that we list at 
this point in the record, particularly after the remarks of the 
other side in their opening comments, the list of I believe 122 
individuals who either fled the country or pled the fifth 
amendment, and the correct number and that listing I would like 
inserted in the record.
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.022
    
    Mr. Mica. Furthermore, I would like in the record inserted, 
I heard from the opening statement of--again, the minority 
referred to 883 witnesses called by this committee in our 
investigation. From the hearing in which we had Director Freeh 
and I believe Mr. LaBella and other appearances before us, they 
told us in fact that they had subpoenaed more or as many 
witnesses as we had, and I would like that correct number from 
the record.
    Mr. Burton. Let me correct----
    Mr. Waxman. Reserving the right to object, I didn't say 883 
witnesses. I said 883 subpoenas.
    Mr. Mica. Subpoenas, I am sorry.
    Mr. Burton. I think that is what Mr. Mica is referring to, 
but we will correct that.
    Mr. Mica. They did in fact say that they issued more, if 
not as many, as we did.
    We also asked the question--I would like that made a part 
of the record--about the proportion between Republicans and 
Democrats, and I believe that is also contained in this record 
and in a statement by the FBI. I would like that entered into 
the record at this point.
    I would also like to have entered into the record the 
recommendation of both the chief investigator, Mr. LaBella, and 
the Director of FBI, their recommendation for an independent 
counsel, which is also contained in this record, Mr. Chairman.
    Mr. Burton. Without objection, so ordered.
    [Note.--The information referred to was received after the 
hearing, and is printed at the end of the hearing.]
    Mr. Mica. I would also like to have entered into the record 
the exact statement and my question in response from the FBI 
Director in hearings before this committee that never before 
had he seen anything on the scale of the activity that had 
taken place that we were investigating. The only place I 
believe--and I would like his exact response inserted in the 
record--was with his dealing in the investigation of the mob, 
and I would like those exact words put into the statement at 
this point.
    Mr. Burton. Are you talking about Louis Freeh, the FBI 
Director?
    Mr. Mica. Yes, his statement.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    Mr. Burton. Mr. Freeh, over 65 people have invoked the fifth 
amendment or fled the country in the course of the committee's 
investigation. Have you ever experienced so many unavailable witnesses 
in any matter in which you have prosecuted or on which you have been 
involved?
    Mr. Freeh. Actually, I have.
    Mr. Burton. You have. Give me a run-down on that quickly.
    Mr. Freeh. I spent about 16 years doing organized crime cases in 
New York City, and many people were frequently unavailable.
    Mr. Burton. So was that the only time you experienced something 
like that?
    Mr. Freeh. It went on for quite a while.
    Mr. Burton. So the only time that you experienced anything like 
this was when you were investigating an organized crime syndicate.
    Mr. Freeh. There have been cases, certainly. You asked me about my 
experience.

    Mr. Mica. This is an important hearing, and why are we here 
in December a few weeks before the holiday season or during the 
holiday season for, many people may wonder. The fact is that 
never before in the history of an investigation in Congress has 
there been anything of the scope of corruption of illegal 
activities of destruction and misuse of the campaign process. 
We have also been delayed by an unprecedented blocking of 
information, disappearance of witnesses, a lack of cooperation, 
again unprecedented in the history of congressional 
investigations.
    The other reason we are here is that there have been 
supposed investigations and there have been active 
investigations going on to this date and we have been kept from 
witnesses and from those we have attempted to learn the details 
of what went on until this date.
    Those are some of the reasons that we are here at this late 
juncture. I believe it is absolutely critical that we are here 
and that we continue to conduct this because never before has 
the system to elect the Chief Executive Officer of this Nation, 
has the system been so corrupted and the trail of money, 
whether it is foreign contributions or conduit payments or 
whatever, but this has really destroyed public trust and 
confidence in our electoral process and particularly for the 
highest office of the land.
    So I think it is critical that we, one, expose the holes; 
two, that we find out what were the controlling legal 
authorities and, if they aren't there, that we make certain we 
put them in place; and, three, that we disclose violations of 
law and of that process that is so sacred, that defines our 
very way of life, in having a Chief Executive Officer elected 
by the people and a Congress that holds the whole process 
accountable and a committee and subcommittee that I participate 
in that conducts investigations and oversight so that our 
system can be responsible, work and that the American people 
can have faith in that system.
    So with those comments, Mr. Chairman, I yield back the 
balance of my time.
    Mr. Burton. Thank you, Mr. Mica.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. I will open with a 
brief explanation from my standpoint of what I think we have 
seen these last frustrating 5 years. And one of the questions 
is, what is really important? What are we trying to get at?
    And sometimes when we bring a witness forward, we don't 
necessarily find what we were wondering, what might be there. 
Sometimes it seems that the administration is protecting lower-
level witnesses under the guise of ongoing investigations when 
we are looking at some really critical fundamental things.
    For example, I was one frustrated Member of Congress during 
the impeachment debate because there is redacted materials that 
had direct bearing on that impeachment debate, and we didn't 
bring them forth because our side thought that the President 
lying about sex with some little girl was more important than 
getting to some fundamental things and because there were 
ongoing investigations.
    And this type of frustration to me leads--and I think many 
American people are getting frustrated. What we know is, a fact 
is, that our national secrets went to China. We don't know how 
they got there. We know decisions were made that were 
incorrect, and we don't know how they got there. We don't know 
whether any individual did it, which individuals, which 
connections of individuals, but we know that certain things 
have happened in this country.
    And part of our responsibility is not to focus on little 
bits and pieces. And this is what some of our side does tend to 
exaggerate on individual cases or get overexcited.
    During the impeachment process, one Member of the 
Republican party said that the Freeh and LaBella memos alleged 
that it led to the President of the United States, which then 
was discredited because that's not what the Freeh and LaBella 
memos said. What the Freeh and LaBella memos said, which was 
damning enough, was that they believed that there had been a 
deliberate separation of the campaign finance investigations so 
that, just like Nixon asked the Justice Department to do under 
Watergate, there could not be an attempt to see what levels 
this went up to, and it could have lead to the Vice President 
or the President, but they didn't know because there had been a 
deliberate attempt to see how all the pieces fit together.
    That is the problem with the 122 people who fled is we 
don't know how the pieces went together. That's the problem 
with people taking the fifth amendment. The fifth amendment 
says you can't incriminate yourself. Well, if you don't have 
anything to incriminate yourself, you're not likely to plead 
the fifth amendment. Now, whether it's the matter we are asking 
is a different question. But the fact is if you take the fifth 
amendment, presumably you have got something you don't want to 
incriminate yourself.
    We have had 122 people to do that. It's been a village that 
won't talk. It has been a very frustrating process to the 
American people and to us. Quite frankly, I don't think that 
what we are likely to hear in the next few days is going to 
lead us to any sweeping conclusions about any of the major 
questions. It's just another piece.
    What I saw in reading the 120 pages that I have gone 
through so far is the seamy side of campaign finance. It is not 
like other Members of Congress, other Presidents.
    To compare what went on in this White House to other 
Presidents and what goes on day to day here, which is bad 
enough, and I was hoping that these hearings, quite frankly, 
our committee and Thompson's hearings over time would lead to 
changes in campaign finance laws, but they didn't because they 
were blocked, because instead we got into partisanship, and 
there wasn't--because people didn't want to acknowledge that 
the origination of the year-round campaign in this 
administration led to a different approach to campaign finance.
    It is like comparing the flu to cancer, because with the 
year-round campaigns, with the taking of occasional use of the 
Lincoln bedroom into a constant hotel, taking occasional 
breakfasts to constant breakfasts, taking radio broadcasts that 
occasionally brought in contributors to a cash event almost 
every time, to taking a group of people like the Asians--we are 
not the racists, it is the people who told the Asians that the 
only way they could get positions in the administration, the 
only way they could get to a radio address, the only way they 
could get to the Lincoln bedroom was to give money. That is the 
racist approach. And that we took it from what--when you can 
get it in the election year, people are focussed on the 
election, but when you go year round, the off year is when it's 
hard to raise money. And in the off year when you are raising 
money, when you don't have an election, then you have to ask 
what did the people want.
    And when we see money coming in from Chinese intelligence 
officials through some people, through the Riadys and 
Indonesian interests and other people, through other people who 
may want a change in a lower-level decision on Indian casinos, 
we have every right in the world to have investigations and say 
what is happening inside this administration; that all sorts of 
decisions seem to be being made for monetary reasons.
    And that part of my concern in pursuing this is that there 
isn't an Alex Butterfield who had a tape that was unedited 
going on. It's not clear we would ever learn what happened in 
Watergate if he hadn't popped out at a congressional hearing 
that there was a tape. It may be history will have to take 
until we hear people writing books for money and coming 
through, because we are just going at the edges.
    And I think we are going to hear a number of days of very 
disappointing testimony about how our U.S. Government works, 
and it sickens my stomach. And I hope that part of this will 
clean it up, and it will be a lesson to future Presidents. Do 
not let your administration become what this administration 
became.
    I yield back.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. I thank you, Mr. Chairman, not only for 
conducting this hearing, but also for granting me the time.
    I would tell you that, although having the opportunity to 
see you and the distinguished ranking member at yet another 
fundraising investigation right before the millennium is a 
source of great joy. My excitement is tempered, however. It is 
tempered for the reasons that have already been spoken about by 
you, Mr. Waxman, Mr. Souder, Mr. Mica, that precious little has 
been revealed in these hearings; and I think through no want of 
trying on behalf of a number of the members of the committee.
    And I would suggest that there are a number of reasons for 
that result. I think clearly the fact that there have been so 
many people who have expressed a strong desire to be a 
participant in our political process by funneling cash into 
campaigns, but have been unwilling participants in our judicial 
system and have fled the long arm of the law and have 
obfuscated, have stonewalled, have chosen to leave the country, 
or who have sought refuge under what is certainly permissible, 
the fifth amendment of the Constitution, has made this an 
exceedingly difficult and in many cases a painful process for 
people who are interested in finding out what happened in the 
last election and the election before that.
    Also the pace of the investigations and queries by the 
Department of Justice, the choices that they have made at the 
Department of Justice, the timing, the decisions or the 
nondecisions, I think, has given at least this Member the 
impression that Lady Justice is not only blind, but in some 
instances deaf and dumb as well.
    And, finally, the conduct of this committee that Mr. Waxman 
talked about. I really think that we have missed a golden 
opportunity to punish a number of people that deserve to be 
punished for blatantly, blatantly violating the campaign laws 
of this country. And I don't think it's confined to either 
side. I listened intently to Mr. Waxman, and apparently 
Republicans, and Republicans on this committee, are bad guys 
and gals because of what we have done over the last 3 or 4 
years. But I will tell you that there are some on this side 
that want to get the President at all costs. Well that's 
stupid. Likewise, there are people on his aisle that want to 
protect the President at all costs. That's likewise as stupid.
    The purpose of this investigation is to follow the money, 
and if the money goes to the President of the United States, 
then he and everybody in his wake should be punished. Likewise, 
if it stops at a certain level, it stops at a certain level.
    And I think today's hearing is a perfect example, with all 
due respect to the distinguished ranking member, of how our 
priorities are misguided.
    I think that we have a witness before us today who, 
although a number of things have been said about him, 
regardless of whether he is a good guy, bad guy, the fact of 
the matter is he has pleaded guilty to, I believe, about a 
million seven in conduit contributions improperly made to 
political campaigns in this country. He has a great deal of 
information, from reviewing his FBI testimony, about the 
enlightened way that the Democratic National Committee has 
raised money from noncitizens in the last election.
    It is my understanding that, rather than having a hearing 
where we could ask laser-like questions wherein the answers 
would be illuminating to not only the U.S. Congress but also 
the people in this country, instead we are going to have 4 days 
of a full deposition of Mr. Huang, creating great expense and 
inconvenience to not only him, but to the committee, when this 
could have been handled by a briefing by the competent staff of 
both Members.
    And then, quite frankly, Mr. Waxman, and I will be glad to 
yield to you, you made it sound as if our staff, your staff and 
the majority's staff, take these folks into a room with a bare 
light bulb and rubber hose and beat the snot out of them. That 
is not the way this thing happens.
    The fact of the matter is that the lawyers that work for 
you and Mr. Burton and the majority are competent, professional 
people, who I think have done the best that they can.
    Since I have used your name, I will be happy to yield to 
you.
    Mr. Waxman. I thank you very much for the courtesy of 
yielding to me. Let me tell you how the rules were changed in 
the depositions. The rules were changed--it used to be the 
Republicans' side would ask questions of a witness in a 
deposition for a half hour. Then the Democrats would have a 
half hour, then the Republicans a half hour. Well, the rules 
were changed, and the new rules said the Democrats have to sit 
there however long it may take until the Republicans ask every 
question they might possibly want to ask, and that amounted to 
hours. And then if we had time, Democrats were permitted to ask 
questions.
    Questions were asked to witnesses that were absolutely 
improper--about their drug use, their personal lives--that had 
nothing to do about campaign finance issues. They objected. We 
objected. And then the chairman said, well, the witness had to 
answer the question. A witness under those circumstances had to 
take his or her chance that this committee wouldn't hold them 
in contempt of Congress. It was just far easier to answer 
whatever questions were asked. People were abused.
    And, again, 161 people went in for depositions. Only 15 
ever came before the committee that had something worthwhile to 
say in open hearings.
    I think the American people, if you really want to let them 
know the truth, let's have these questions asked in public. And 
if they're abusive questions, let the public see that abusive 
questions are being asked.
    Mr. LaTourette. I thank you, and if I can take back my time 
because I only get 5 minutes unlike the other distinguished 
members of the committee, the ranking member and chairman.
    I just want to indicate there were 161 people who went in. 
They all came out, to my knowledge. None of them are missing in 
action, and all of them have survived. It is also my 
understanding that the Democratic side may not have used their 
time in the travel office investigation to ask questions.
    Last, I think the point I am trying to make is we should be 
able to do better than that on both sides of the aisle.
    The last thing I want to say, Mr. Chairman, is the notion 
which has already come up, and I think will come up rather 
early in the witness's written statement as I reviewed it, is 
that somehow the notion that investigating individuals who 
improperly channel conduit contributions illegally to political 
campaigns in this country is responsible for hate crimes in 
this country is horse dung.
    I thank you very much, and I yield back my time.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman, for holding these 
hearings.
    And, Mr. Huang, it's good to have you here.
    We had 121 witnesses who have failed to cooperate with the 
committee based on a number of reasons. They fled the country. 
They just simply didn't answer questions, and we didn't want to 
pull them before the committee. And the vast majority used 
their fifth amendment rights not to have self-incriminating 
testimony. That was 122. Now we can say we have 121 who are 
failing to cooperate, because you're here, and I think we will 
learn a lot.
    We will learn a lot about our corrupt campaign system. And 
we will also learn about how people became corrupt using that 
system, and that will be helpful. It will be helpful to hold 
people accountable if we can, but it will also be important to 
hold people accountable for changing the system that is 
corrupt.
    I think you may have brought it to a new art form. I don't 
consider you a minor player here. You were in the DNC, and you 
worked in Commerce, and Commerce became a polluted government 
agency used in many ways to raise money instead of do its job 
for the American people.
    Bottom line, it's been against the law since 1907 for 
corporate treasury money to be used in campaigns. It's been 
against the law since 1947 for union dues money to be used in 
campaigns. It's been against the law since 1974 for foreign 
governments to contribute to campaigns. And it's been against 
the law since God knows when for people to use Federal 
buildings to raise money.
    All four happened under the protection of it being called 
soft money, the unlimited sums from corporations, labor unions, 
foreign governments, and individuals. And I hope in the process 
of holding you and others accountable that we wake up and 
change this corrupt campaign system.
    Mr. Chairman, I want to thank you again for holding these 
hearings. It hasn't been easy for you to do this, and I 
appreciate that you have persevered. Thank you.
    Mr. Souder. Mr. Chairman.
    Mr. Burton. Mr. Souder.
    Mr. Souder. May I have unanimous consent to say something? 
I don't believe Mr. Waxman would object.
    Mr. Shays. I would be happy to have him use the balance of 
my time if he would like. I am happy to yield to the gentleman.
    Mr. Souder. I thank the gentleman from Connecticut.
    I think it's important for the record to show, and I think 
most of us here would agree with this, that, often, we will get 
off into arcane questions about whether money--why corporations 
can't give money. But the reason for the law is the American 
government and people were concerned that decisions could be 
compromised by having money, conduits moving in either 
unforeseen or enlarged sums. And that is why we have the 
campaign laws. This isn't just some kind of technicality. And 
it applies to both parties. And I know the gentleman from 
Connecticut has been a leader and is concerned with this.
    That is really why we are out here. We are not out here to 
catch somebody because we want to get them. What we are really 
concerned about is, OK, we saw the illegalities and what did 
they impact in our government. And that is why we have to have 
those laws.
    Mr. Shays. I yield back the balance of my time.
    Mr. Burton. The gentleman yields back the balance of his 
time.
    Mr. Huang, will you stand to be sworn?
    [Witness sworn.]
    Mr. Burton. Be seated.
    Mr. Huang. Mr. Chairman, shall I proceed with my statement, 
please?
    Mr. Burton. Yes, Mr. Huang, you can proceed with your 
opening statement.

                    STATEMENT OF JOHN HUANG

    Mr. Huang. Mr. Chairman, Congressman Waxman, members of the 
committee, thank you for this opportunity to appear and address 
whatever issues may be of interest to you and the American 
people. I have long hoped for this opportunity.
    Indeed, as you are aware, in 1997, I offered to testify at 
the commencement of the Senate hearings chaired by Senator 
Thompson. At that time, neither the Senate nor the Department 
of Justice were willing to immunize my testimony as to 
political fundraising for which I subsequently received 
probation.
    As the Department of Justice subsequently acknowledged, I 
am not and never was a spy. I was honored to serve this fine 
Nation and took my Department of Commerce duty as principal 
Deputy Assistant Secretary for International Economic Policy 
very seriously. I also took my role at the Democratic National 
Committee very seriously.
    In addition, while things might have gone easier for me 
were I able to implicate the President or Vice President in 
wrongdoing, I never had a base upon which to do so. In fact, I 
maintain very high regard for each of these dedicated men.
    The past 3 years have been a terrible ordeal for me and my 
family and for many Asian Americans. While there are legitimate 
and substantive issues to merit inquiry, such as campaign 
finance reform and ensuring effective access to the political 
process for minority groups, the focus instead has been on the 
national origin of individuals like myself and attempts to tar 
public servants that I, like other Americans, believe in and 
have served. People seeking publicity have lied about me 
repeatedly in the press and even before this committee without 
consequence.
    For example, a former Member of this body, Mr. Solomon, in 
attacking the administration, accused me of economic espionage 
on the basis of what I am advised was an anonymous source at a 
cocktail party with whom, it turned out, did not even mention 
my name or do anything other than perpetrate a rumor against an 
unidentified Asian American, a rumor which Mr. Solomon was only 
too eager to embrace and capitalize upon.
    It is my hope that in the hearings this week the 
questioning will be substantive rather than merely accusatory, 
purposeful and of assistance to the American people to the 
extent it contributes to the accountability of those who both 
raised and received funds.
    As for myself, I have made mistakes. Embarrassed and 
saddened though I am by the unfortunate attention my conduct 
and notoriety brought upon my community, the dated and isolated 
offenses, which I have openly acknowledged, will not deter me 
from my career-long efforts to promote understanding between 
the citizens of the United States and those of China, Taiwan, 
and the rest of Asia.
    While the United States is a participatory democracy, too 
few of its citizens participate, and many groups are without 
sufficient resources to ensure the fair and dispassionate 
consideration of their views, needs, and concerns.
    Indeed, as the Department of Justice has concluded, my 
motivation was not personal gain but was instead the 
integration of Asian Americans into the political process of 
their chosen country. This, of course, is merely an explanation 
and by no means excuses my conduct, which, unfortunately, 
remains largely misunderstood, except by the Department of 
Justice and the court.
    I along with my wife and two sons were deeply moved by the 
fact that, after almost 3 years of investigation by the 
Department of Justice and based upon the nature of the offenses 
and my extensive truthful and complete cooperation, the U.S. 
District Judge Richard Paez, after a thorough review of all 
relevant facts, granted me probation. He did so in conformity 
with the recommendation of the prosecutors who assured him of 
the genuine nature of my remorse.
    In addition, based upon weeks of interrogation of an army 
of law enforcement agents and the staffs of independent counsel 
offices, the Department of Justice advised the court at my 
sentencing that it considers me a man of good character and 
selfless honesty.
    Moreover, the Department of Justice not only publicly 
acknowledged my fitness to vote and wrote in support of 
restoration of my right to do so, it also commended me to the 
court as an individual uniquely qualified to serve Asian 
Americans and this great country by building on my demonstrable 
successes in weaving the Asian community into the intellectual 
and political fabric of our collective society. The court 
agreed. I am grateful for their confidence and for the 
opportunity for continued public service within my community.
    Not only am I deeply appreciative of the opportunity 
provided by Judge Paez for community service, but, after 
enduring years of scurrilous, ill-motivated, and false 
allegations, I am eager to proceed both with my service and my 
life. Those who know me well have honored me with their 
continued respect and support. Some who view me only as a means 
to a questionable end do both themselves and the Nation a 
disservice and persist in unjustifiably demonizing me and other 
Asian Americans.
    While I am due criticism and am working at atonement, 
character assassination alone, divorced from legitimate ends, 
degrades not me but those who promote themselves not by deeds 
but by resorting to demagoguery and vitriol.
    Americans have nothing to fear from me, but they do have 
much to fear from within. Hatemongers, bigots, and, 
regretfully, even some of our elected officials continue to 
tear at America's greatest strength, its diversity, in an 
alarming and escalating pace.
    The politics of pitting religious, ethnic, and racial 
groups against one another threaten to harm this great country 
at its foundation, as evidenced by the recent and unbearable 
series of hate crimes resulting in the death or injury of a 
Jewish American, African Americans, and Asian Americans in Los 
Angeles, Chicago, and Bloomington, IN. Only through the 
practice of compassionate, inclusive policies can communities 
and the Nation overcome those who preach fear and exclusion. 
And while I am by no means a perfect servant, it is to this end 
that I devote my future.
    In that effort, I am sustained by my family and friends, 
whose love and support have enabled me to survive this 3-year 
ordeal during which we have been largely defenseless in the 
face of an onslaught of unfounded allegations. As a result, and 
tired as I am after arriving in D.C. this morning after a long 
day yesterday of cooperation with the Department of Justice in 
Los Angeles, I am pleased by this opportunity to assist the 
committee. I am looking forward over the next few days to 
purging the misinformation which currently taints the public's 
understanding of my efforts over time and to the creation of a 
credible, factual foundation from which the committee, the 
American people, and I and my family can move forward, ideally 
with dignity.
    Thank you, sir.
    Mr. Burton. Thank you, Mr. Huang.
    [The prepared statement of Mr. Huang follows:]

    [GRAPHIC] [TIFF OMITTED] T6496.148
    
    [GRAPHIC] [TIFF OMITTED] T6496.149
    
    [GRAPHIC] [TIFF OMITTED] T6496.150
    
    [GRAPHIC] [TIFF OMITTED] T6496.151
    
    Mr. Burton. Before I start the questioning, I would like to 
make--go ahead and start the clock so this will be on my time. 
I would like to respond just briefly to Mr. Waxman's comments, 
first of all, regarding the new system we have here so that, 
through the Internet, the American people can watch the 
proceedings from gavel to gavel. We are not the first committee 
to do this. We won't be the last. The International Operations 
Committee is installing a system like this right now. The 
Transportation Committee has had one for some time. And we 
believe that the American people's right to know is extremely 
important.
    One of the great strengths of our society is the openness 
of our government and to eliminate the doubt about various 
things that happened in committee hearings, we thought it would 
be a good idea and a relatively inexpensive idea to make sure 
that the American people got unvarnished facts from our 
hearings.
    And as I said to Mr. Waxman at the outset, we are going to 
make absolutely sure that there is fairness on both sides. His 
statement today, which was pretty much an attack on me and the 
way we have conducted our hearings, the American people saw 
today unvarnished. You have a right to say those things. And I, 
as the chairman of this committee, have a right to refute those 
if I can.
    And one of the things that I want to say is you made some 
comments about Mr. Hubbell. I would like to refresh your memory 
and tell you that, after the accusations were made, the next 
day we released all 16 hours of the Hubbell tapes without any 
change whatsoever. So within 24 hours of the accusations, all 
Hubbell tapes were released to the American press and to the 
American people.
    Regarding the bias that we have and the bias that our 
government has toward people on the Democrat side and people 
involved in this campaign finance scandal, Mr. Huang really was 
not fined any financial penalty whatsoever, although Mr. Huang 
and Mr. Trie were involved in over $2 million, we believe, from 
illegal conduit contributions that came from foreign sources. 
And much of this money, probably 90 percent of it, has been 
returned. So they were directly involved, and there is no 
question about it or else the DNC would not have returned that.
    While, at the same time, the Dole for President Committee 
got $120,000, much less than the $2 million, from a man named 
Simon Fireman. He was fined $6 million. The Empire Sanitary 
Landfill, they gave $129,000. They were fined $8 million. 
Another Republican who was responsible for much fewer illegal 
conduit contributions than Mr. Huang had a $5 million fine. And 
both of the Republicans got terms of detention.
    Now, none of that has happened to any of the Democrat 
conduit contributors that we know of--a $5 million fine, $8 
million fine, $6 million fine. And so as far as the equal 
application of justice, it doesn't appear to me that there has 
been an equal application of justice by this Justice 
Department. And I have talked about that a number of times.
    And I said that I thought the Attorney General was showing 
a bias, was blocking our investigations, wasn't cooperating 
with this committee. And I said the same things with the White 
House.
    Now, I stand by what I said in the past. I understand--and 
much of what you said today, Mr. Waxman, you have said time and 
time again. You tried to make a comedy out of our hearings. You 
tried to denigrate our hearings. You tried to say we have been 
on a witch-hunt. You tried to say all kinds of things, and you 
said it again today. And you have a right to say those things. 
But the fact of the matter is we are determined, if it's at all 
possible, to get to the bottom there of campaign finance 
scandal, and we are going to be vigilant, and we are going to 
continue.
    And I fully expect at future hearings you will say the same 
things over and over again. You will attack me over and over 
again. But I want you to know, Mr. Waxman, I and this committee 
will not be deterred, and now the American people can watch 
gavel to gavel and judge for themselves from the questions and 
answers of the witnesses whether or not we are being fair. And 
I think that they are going to be pretty fair when they judge 
what we do.
    Let me start with the questions, Mr. Huang.
    When was the last time that you spoke to James Riady?
    Mr. Huang. I think around May or June this year.
    Mr. Burton. May or June of this year.
    Mr. Huang. Yes, sir.
    Mr. Burton. And when was the last time you spoke to Mochtar 
Riady?
    Mr. Huang. It was about the same time, sir.
    Mr. Burton. About the same time.
    Mr. Huang. Yes, sir.
    Mr. Burton. Was that on a long distance call or in person?
    Mr. Huang. No. I was visiting Jakarta.
    Mr. Burton. You were in Jakarta?
    Mr. Huang. Yes, sir.
    Mr. Burton. OK. Did you speak to any other individuals from 
the Lippo Group at that time?
    Mr. Huang. There were some Lippo employees at that time. 
And because it was Mr. Mochtar Riady's 70 years birthday, I was 
invited to attend.
    Mr. Burton. OK. How much were you in contact with James 
Riady during 1997 and 1998?
    Mr. Huang. I'm sorry, sir?
    Mr. Burton. How much were you in contact? How many times, 
do you recall? Were you in contact with him a lot during 1997?
    Mr. Huang. No. There was only one occasion I traveled in 
Asia in 1987.
    Mr. Burton. 1997.
    Mr. Huang. 1997. I'm sorry. I did visit around August 1997. 
I had occasion to meet with Mr. Riady in Singapore.
    Mr. Burton. And in 1998.
    Mr. Huang. That was 199--that was 1998, I'm sorry. 1999, 
this year, I went to Jakarta.
    Mr. Burton. Uh-huh. Do you know--do you recall the 
substance of the communications you had with Mr. Riady during 
those visits?
    Mr. Huang. OK. In 1998, that was the first meeting I had 
after all these campaign finance matter erupt. So for the last 
previous few years, I never had an opportunity. Apparently he 
read of a lot of articles and news account, watching on TVs. He 
expressed some concern to see how I could hold on on this 
matter. So, more or less, it was a concern about me.
    Mr. Burton. Did you talk to them on the telephone in 
addition to those meetings?
    Mr. Huang. There was a couple phone calls like at Christmas 
time, the New Year's, just saying Happy New Year. That's about 
all.
    Mr. Chairman, let me correct my statement and add a little 
point in. Both of my trips I went to Asia in 1998 and 1999 were 
approved by the Department of Justice.
    Mr. Burton. OK. Did you receive any money from the Riady 
family since September 1996?
    Mr. Huang. Yes, I did. Some gift money.
    Mr. Burton. Some gift money?
    Mr. Huang. Gift money, yes.
    Mr. Burton. How much money was that?
    Mr. Huang. The first time in--I believe is in the Christmas 
time around 1997 was around $18,000. The second time during the 
trips in 1998, I received $20,000.
    Mr. Burton. So you received $18,000 in 1997 and $20,000 in 
1998. And you say that was a Christmas gift?
    Mr. Huang. No, it was gift money.
    Mr. Burton. What was it given for?
    Mr. Huang. As a gift. Because I have not been working for 
all these years, you know. I was a friend, so probably he was 
just showing a concern about me.
    Mr. Burton. This was during the height of our campaign 
finance investigation that they gave you these gifts?
    Mr. Huang. I think that the investigation was still going 
on, yes. I don't know whether it was the height or not, sir.
    Mr. Burton. Were there any stipulations, or did they just 
give these to you because they felt like you needed the money?
    Mr. Huang. There is no stipulation, no.
    Mr. Burton. Have you gotten any more money since the 
$20,000 you received in 1999?
    Mr. Huang. As I indicated, I made a trip in 1999 this year. 
There was just a few thousand dollars to cover my travel 
expenses.
    Mr. Burton. So they paid your travel expenses over there 
and back?
    Mr. Huang. That's right.
    Mr. Burton. But in addition to the $18,000 in 1997 and 
$20,000 in 1998--or 1998 and 1999, you have received no other 
funds?
    Mr. Huang. No, sir.
    Mr. Burton. Have you read any of the campaign finance 
depositions?
    Mr. Huang. About myself, or about the others?
    Mr. Burton. Have you read any of the campaign finance 
depositions of yourself or anyone else?
    Mr. Huang. I did not.
    Mr. Burton. Are you aware of any of the statements from any 
of the witnesses regarding the campaign finance investigation?
    Mr. Huang. I do not.
    Mr. Burton. Have you watched any of the campaign finance 
hearings or read any of the transcripts from any of our 
hearings? Have you had an opportunity to do that?
    Mr. Huang. With all due respect, I don't have a cable. I 
really didn't have a chance to do that.
    Mr. Burton. So you haven't heard or read anything of the 
statements of the witnesses?
    Mr. Huang. No. I read a newspaper occasionally, but I don't 
even subscribe regularly to a newspaper on that, sir.
    Mr. Burton. Have you had any contact with Charlie Trie 
since the investigation began?
    Mr. Huang. Yes. On one or two occasions very briefly, 
because, sir, his wife was very ill. I believe she was 
suffering from cancer while I was traveling in Asia, and people 
told me about his wife's situation. I expressed a concern so I 
called him just to express my sympathy on that.
    Mr. Burton. But that is the only contact during the 
investigation?
    Mr. Huang. That is the only other contact, sir.
    Mr. Burton. How about Maria Hsia?
    Mr. Huang. She did call my home before. My wife answered 
the phone, but I did not really speak directly to her.
    Mr. Burton. And when was this?
    Mr. Huang. This was I believe the one time this year. Now 
there was some--one occasion at the beginning of the 
investigation right after the 1996 matters came out, there were 
some conversations, but it was not really detail. That was a 
little bit--a few more minutes. It was a little bit longer 
conversation.
    Mr. Burton. Did the conversation relate in any way to the 
campaign finance problems or investigation?
    Mr. Huang. If I remember vaguely, there was--I am trying to 
identify whether there was a copy--copy of checks which some of 
her contributors have made, whether I have a copy for that or 
not.
    Mr. Burton. She wanted to know if you had a copy of the 
check.
    Mr. Huang. A copy of the check.
    Mr. Burton. Did you have a copy?
    Mr. Huang. Well, I was still at the DNC, though, sir.
    Mr. Burton. You were still at the DNC?
    Mr. Huang. Yeah. But, afterwards, I remember there was also 
one conversation. But I cannot recall very extensive what the 
detail was about.
    Mr. Burton. Have you talked to Pauline Kanchanalak?
    Mr. Huang. Not with her at all.
    Mr. Burton. And Ted Sioeng and his family?
    Mr. Huang. I had only one meeting with Ted Sioeng at the 
beginning. It was in 1996. Why my--when my matter erupts, his 
matter was not coming out yet.
    Mr. Burton. You said when you would talk to Mr. Riady, he 
said, how could you hold on or----
    Mr. Huang. No. He was trying to see how I had held on.
    Mr. Burton. How are you holding up, is that what he meant?
    Mr. Huang. That's right. That's right.
    Mr. Burton. So he wasn't asking any question about whether 
you could keep quiet about something?
    Mr. Huang. Oh, no, not in that nature, sir.
    Mr. Burton. All right. Did James Riady fly from Indonesia 
to the United States to attend the fundraiser with Governor 
Clinton on August 14, 1992 in California?
    Mr. Huang. I think 1986 you're talking about, right?
    Mr. Burton. No, I'm talking about 1992 where James Riady--
did he fly from Indonesia to the United States to attend a 
fundraiser for Governor Clinton in California on August 14, 
1992?
    Mr. Huang. Yes, he did.
    Mr. Burton. James Riady entered the country with $24,400 in 
cash. Do you remember what he did with that money?
    Mr. Huang. That I don't know.
    Mr. Burton. You don't know.
    Mr. Huang. I don't know with the cash, no.
    Mr. Burton. Exhibit 15, and do we have that to put up or is 
it in the book? I think you have a book, exhibit 15, if you 
could refer to that. It is an August 12th, 1992 memo from 
Melinda Yee to Annette Castro, providing information about Mr. 
Riady so he could attend an Asian Pacific American Roundtable 
discussion. Do you recall if James Riady attended the APA 
Roundtable discussion on August 12, 1992?
    [Exhibit 15 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.152
    
    Mr. Huang. I do not recall there was any roundtable 
discussion in August 1992, no.
    Mr. Burton. You don't recall being at a meeting like that 
on August 12th?
    Mr. Huang. No. There was only the fundraising, the event on 
August 6, 1992.
    Mr. Burton. So you don't recall James Riady being at that 
meeting?
    Mr. Huang. I did not even know there was such a roundtable.
    Mr. Burton. OK.
    Mr. Huang. Yes.
    Mr. Burton. On exhibit 17, there is a memo from Melinda Yee 
to Governor Clinton. It has talking points for Governor Clinton 
for the August 14, 1992 fundraiser. At the top, it says, the 
event is hosted by Fong Eu and John Huang. Did you host that 
fundraiser along with Fong Eu?
    [Exhibit 17 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.153
    
    [GRAPHIC] [TIFF OMITTED] T6496.154
    
    Mr. Huang. I hope the date of the memo is correct. We did 
have a fundraising event I was hosting with March Fong Eu in 
honor of then-Governor Clinton, Candidate Clinton at that time 
in San Gabriel, CA. That was a luncheon, fundraising.
    Mr. Burton. And how did you become the host or co-host of 
that event?
    Mr. Huang. I was very much involved in the community 
affairs, and also I was helping out the political causes 
before.
    Mr. Burton. That was with the Asian Pacific American 
organization.
    Mr. Huang. Yeah, called Pacific Leadership specifically, 
yes.
    Mr. Burton. Did you pledge to raise or contribute a certain 
amount of money to become the host of that hearing or that 
meeting?
    Mr. Huang. Essentially, yes. It's about $100,000.
    Mr. Burton. You pledged to raise $100,000?
    Mr. Huang. That's correct.
    Mr. Burton. Exhibit 18 is a schedule for Governor Clinton 
for the August 14, 1992 fundraiser. That is exhibit 18.
    [Exhibit 18 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.155
    
    Mr. Huang. Yes.
    Mr. Burton. Did Mr. Riady, in fact, greet Governor Clinton 
at the elevator prior to that event?
    Mr. Huang. With the other people as well, like the Madam 
March Fong Eu, the other community leaders, at the same time.
    Mr. Burton. So there was a group of people?
    Mr. Huang. There was a group of people.
    Mr. Burton. So there was nothing specific about the Riady 
meeting with him at that point?
    Mr. Huang. No, sir.
    Mr. Burton. OK. Were there any discussions at that 
elevator, anything of substance, or just a greeting?
    Mr. Huang. It was just a greeting, and then Governor 
Clinton was escorted to the main dining room.
    Mr. Burton. OK. On exhibit 19, if you could turn to that, 
is a memo from Melinda Yee to Governor Clinton regarding a 
limousine ride that Mr. Riady was supposed to take with 
Governor Clinton on August 14th. Where did Melinda Yee get that 
information about the limousine ride that was to take place 
with Governor Clinton?
    [Exhibit 19 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.156
    
    Mr. Huang. OK. May I read this first, please, sir?
    Mr. Burton. Sure.
    Mr. Huang. That was through the request of Mr. James Riady 
through me.
    Mr. Burton. So you were requested by James Riady to set up 
a limousine ride where he could talk to Governor Clinton?
    Mr. Huang. That's correct.
    Mr. Burton. Privately.
    Mr. Huang. Right. Mr. Chairman, I might have made a mistake 
on the date. If that August 14 is similar to the date I was 
thinking about the fundraising event, then August 14 is 
probably the correct date, sir.
    Mr. Burton. OK. How much did the Riadys give for that event 
on August 14th; do you recall?
    Mr. Huang. Well, as I mentioned to you, I committed for 
$100,000. That is about all we did.
    Mr. Burton. The Riadys gave $90,000 of that; is that 
correct?
    Mr. Huang. With all the companies all together, 
approximately that amount, yes.
    Mr. Burton. So it was from the Riady Group?
    Mr. Huang. The group, yes.
    Mr. Burton. And why did Mrs. Yee say that the Riadys gave 
$100,000 when they gave $90,000?
    Mr. Huang. I believe probably the other $10,000 is probably 
coming from me and my wife.
    Mr. Burton. So your wife gave $10,000. Was that her own 
money?
    Mr. Huang. Myself and my wife.
    Mr. Burton. It was your own personal funds?
    Mr. Huang. At that time, it was.
    Mr. Burton. Would Melinda Yee have thought that this 
$10,000 was going to be coming ultimately from the Riadys 
through you?
    Mr. Huang. No. No, sir, Mr. Chairman.
    Mr. Burton. Since Mr. Riady was not a United States citizen 
and since he then permanently resided in Indonesia, did anyone 
express to him any concerns that it was illegal for him to 
contribute money to the--to a U.S. political campaign?
    Mr. Huang. No, sir. If I--if I remember correctly, Mr. 
Riady at that time still had the green card status, sir.
    Mr. Burton. Was he living in the United States?
    Mr. Huang. No, he was traveling back to Indonesia. But he 
still had the green card status. He maintained a home in the 
United States.
    Mr. Burton. But he was living in Indonesia.
    Mr. Huang. He spent a lot of time over there at that time, 
yes.
    Mr. Burton. All right. How did Melinda Yee know that James 
Riady had the potential to give much more? That is a quotation 
she used.
    Mr. Huang. I can't speculate. Maybe just all the impression 
she had on the group, the size of the group, the business the 
Riady family had.
    Mr. Burton. Did you indicate in any way to her that the 
Riadys were capable and willing to give much more?
    Mr. Huang. If I did give that impression, I don't remember 
at this time, Mr. Chairman.
    Mr. Burton. Was Melinda Yee aware, to your knowledge, that 
Mr. Riady was going to give much more by funneling it through 
his companies and employees?
    Mr. Huang. The detailed parts, no. No. How the money is 
going to be funded, no, was not known to any of the other 
people, Mr. Chairman.
    Mr. Burton. Well, before the limousine ride took place, did 
you know that Mr. Riady was going to tell the then-Governor 
Clinton that he was going to raise $1 million for him?
    Mr. Huang. I did not, no.
    Mr. Burton. Until after then--right.
    Mr. Huang. But, however, I do know the fact that he did 
indicate he really wanted to give something; he ought to give 
more instead of less.
    Mr. Burton. I'm not sure I understand. He would give less 
because he was concerned----
    Mr. Huang. In other words, he would give a large amount and 
have a greater impact that way.
    Mr. Burton. I see. Apart from the information in Mrs. Yee's 
memo, did Governor Clinton have any other information to 
believe that James Riady lived in Indonesia at that time? I 
mean, he knew he flew in from Indonesia to meet at this 
fundraiser. Did he know, aside from flying in for the 
fundraiser, that he was living in Indonesia?
    Mr. Huang. No. I don't know what Mr. Clinton knows about 
that. But I suspect Mr. Clinton would know because the Lippo 
Group is quite extensive. They have a position in different 
parts of the world.
    Mr. Burton. If you could look at exhibit 20, now, it is a 
chart of Lippo-related contributions that were given prior to--
before the August 14, 1992, fundraiser. Were David Yeh's 
contributions given for the August 14, 1992, fundraiser?
    [Exhibit 20 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.157
    
    [GRAPHIC] [TIFF OMITTED] T6496.158
    
    [GRAPHIC] [TIFF OMITTED] T6496.159
    
    [GRAPHIC] [TIFF OMITTED] T6496.160
    
    [GRAPHIC] [TIFF OMITTED] T6496.161
    
    [GRAPHIC] [TIFF OMITTED] T6496.162
    
    Mr. Huang. I could not really tie that in it at this point. 
It could be at this time, sir.
    Mr. Burton. Are all of these contributions that you see 
illegal? And if not, can you identify the ones that are legal 
and explain why they are legal?
    Mr. Huang. I am not a lawyer at this time to judge about 
that, whether they are legal or not on the surface on that, 
sir.
    Mr. Burton. Well, as you can see, you have got David Yeh. 
You have got Jane Huang. You have got Hip Hing Holdings and the 
Riadys, both James and Aileen.
    Mr. Huang. Mr. Chairman, yeah, let me consult with my 
lawyers a little bit, sir.
    Mr. Burton. Sure.
    Mr. Huang. At that particular moment, Mr. Dave Yeh was a 
green card holder. At that time, I believe he was legal. He 
could legally give. For instance, my wife is an American 
citizen. She could give. And the Hip Hing Holdings was the U.S. 
entity at that time and also had a U.S. revenue, and I believe 
at that time they could give. James Riady and Aileen Riady were 
green card holders, so at that time I believe they could give.
    But later on when things developed and some of the money, I 
believe, they were somehow being reimbursed or taken care of.
    Mr. Burton. They were being reimbursed from the Lippo Group 
in Indonesia?
    Mr. Huang. Except the Riadys' money, which I certainly have 
no doubt that they were being reimbursed. They were very rich 
themselves already.
    Mr. Burton. I understand. But the others there, you or your 
wife, David Yeh and the others were--to your knowledge, were 
they reimbursed by the Lippo Group in Indonesia?
    Mr. Huang. I did not check for sure, but I believe they 
were probably taken care of like Mr. David Yeh.
    Mr. Burton. In Indonesia.
    Mr. Huang. No, he was not in Indonesia. He was in Hong 
Kong, Mr. Dave Yeh.
    Mr. Burton. But the money was coming from over there, and 
he was being reimbursed.
    Mr. Huang. It could be there from there, yeah.
    Mr. Burton. Who was David Yeh?
    Mr. Huang. Mr. David Yeh was the president of the Lippo 
Bank California, later on was transferred to Hong Kong as the 
managing director of one of the group companies that handled 
real estate in Hong Kong.
    Mr. Burton. Where was he living at the time?
    Mr. Huang. At the time, I believe he was just being 
transferred to Hong Kong.
    Mr. Burton. So he was living in Hong Kong?
    Mr. Huang. Yes, sir.
    Mr. Burton. Was David Yeh--well, you said you believe he 
probably was reimbursed for his contributions.
    Mr. Huang. I don't know for sure. The reason I speculate 
there is because the matter relating to me, I was taken care 
of. I believe some of the executives who made a contribution 
were also being taken care of.
    Mr. Burton. Now, were you and your wife reimbursed for that 
$10,000 that you contributed through your bonus in 1992.
    Mr. Huang. Yes, sir.
    Mr. Burton. And that was from the Lippo Group in Indonesia.
    Mr. Huang. Yes. From the Lippo entity somewhere, yes.
    Mr. Burton. Who was the DNC or Clinton-Gore contact for 
these contributions?
    Mr. Huang. In 1992, I believe, was Mary Leslie.
    Mr. Burton. Mary Leslie.
    Can you look at exhibit 21 now? It is a DNC donor card for 
James Riady's $5,000 contribution to the California Democrat 
party on August 13, 1992. Do you know who filled out that donor 
card for Mr. Riady? Do you know who filled it out?
    [Exhibit 21 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.163
    
    Mr. Huang. The donor card's handwriting I don't know.
    Mr. Burton. It was not your writing?
    Mr. Huang. That was not my handwriting. Excuse me, it does 
not appear to me to be Mr. Riady's handwriting either.
    Mr. Burton. Did anyone tell Mr. Riady to put Lippo Bank 
U.S. as his business address even though he lived in Indonesia?
    Mr. Huang. I don't know. I don't know what happened there. 
Apparently people might have the impression that he was over 
there.
    Mr. Burton. Now, the Hip Hing Holdings $50,000 
contributions for August 14, 1992, if you could look at exhibit 
22, there is a--it's an August 17, 1992, memo from you and Agus 
Setiawan--I hope I pronounced that correctly--to Mrs. Ong Bwee 
Eng. Did you request a $50,000 Hip Hing Holdings contribution 
to be reimbursed?
    [Exhibit 22 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.164
    
    Mr. Huang. That memo has my name, but I believe that was 
sent by Mr. Agus Setiawan.
    Mr. Burton. Well, now, did he--are you saying that he asked 
that the Hip Hing Holdings contribution be reimbursed?
    Mr. Huang. That item was listed there. Mr. Chairman, let me 
explain to you, routinely on a very regular basis whatever 
expenses incurred in Hip Hing Holdings, the comptroller of the 
company, meaning Agus Setiawan, and my colleague at that time, 
would send a report back to Indonesia to indicate how much was 
spent during that period of time and would request for 
replenishment of the money coming back.
    Mr. Burton. So even though your name is on there, you are 
saying that Mr. Setiawan is the one who initiated that?
    Mr. Huang. Mr. Chairman, by no means I shirk my 
responsibility on this part, because my name was there. And 
also I was more or less had senior position in that operation. 
So I take responsibility of that part, sir.
    Mr. Burton. Exhibit 23, if you can take a look at that, 
it's a wire transfer from the LippoBank Limited to Hip Hing 
Holdings. Where is LippoBank Limited located?
    [Exhibit 23 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.165
    
    Mr. Huang. It is not really readable on my copy here.
    Mr. Burton. Where is LippoBank Limited located?
    Mr. Huang. That was located in Jakarta, Indonesia.
    Mr. Burton. Jakarta.
    Does that $146,500 wire from LippoBank, does that include 
reimbursement for the $50,000 Hip Hing Holdings contribution?
    Mr. Huang. Yes, it is.
    Mr. Burton. It does?
    Mr. Huang. Uh-huh.
    Mr. Burton. Were you and Mr. Setiawan aware that it was 
illegal to reimburse a political contribution?
    Mr. Huang. At that time probably it is totally--I did not 
really think about that issue at that moment, at that moment.
    Mr. Burton. You did not know it was illegal at that time?
    Mr. Huang. Did not think of it as this was done.
    Mr. Burton. How many times prior to the limousine ride did 
you or James Riady speak to Governor Clinton on--in August 
1992?
    Mr. Huang. I don't believe in that year Mr. Riady had ever 
spoken to Mr. Clinton then. But I did have one or two 
occasions, because, during the campaign trail, I met with then 
Governor Clinton. One time I believe is in February, the other 
time was probably March. If I am not mistaken, I also had 
arranged a get-together session for him to meet with some 
Chinese-American or Asian-American community leaders in 
Chinatown, Los Angeles in April.
    Mr. Burton. In April of that year?
    Mr. Huang. In that year, yes.
    Mr. Burton. Was the purpose of the limousine ride solely so 
Mr. Riady could tell Governor Clinton about his plan to raise 
$1 million for his campaign?
    Mr. Huang. I don't know that that was our original 
intention for him to tell Mr. Clinton personally that or not. 
But that was the occasion--because it was a long time since 
they both had met after Mr. Riady left Little Rock, AR. So it 
more or less just get acquaintance on that issue.
    Mr. Burton. Do you know if Mr. Riady wanted to discuss 
banking issues or international business with Governor Clinton 
during that ride in the limousine?
    Mr. Huang. I didn't think those issues came about, Mr. 
Chairman. The ride was very, very short. It was virtually from 
point of the restaurant in San Gabriel to go to another 
location in the same town, in San Gabriel, probably no more 
than 5 minutes or 10 minutes ride, sir.
    Mr. Burton. Why would Mr. Riady want to give $1 million to 
then Governor Clinton's campaign for the President? That is 
quite a bit of money. I know they are very wealthy people, but 
why would they want to give $1 million? Would they expect 
anything in return for that, or what did they want for that?
    Mr. Huang. I really could not really speak of--speak of Mr. 
Riady's mind, but if you want me to speculate, I can do that.
    Mr. Burton. Go ahead.
    Mr. Huang. As I indicated to you earlier, you know if we 
really want to contribute, even contribute $10,000 
contribution, but may not create a big impact. If you really 
want to make an impact, you want to make a very large amount of 
contribution. It's a better impression that way.
    Mr. Burton. OK. But if you want to make an impact, for what 
reason do you want to make the impact?
    Mr. Huang. So people would notice of you, you know, on that 
basis.
    Mr. Burton. They would notice you, so you would have 
influence and be able to get things done; is that correct?
    Mr. Huang. You would get attention, more or less, I think.
    Mr. Burton. From whom?
    Mr. Huang. From the candidate or from campaign or other 
people. You know, you have a different status. The larger 
donors definitely have the better status. Definitely.
    Mr. Burton. So they have more access?
    Mr. Huang. That's correct.
    Mr. Burton. OK. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman. You started off your 
half hour time period for asking questions by reacting to some 
of the criticisms that you heard in my opening statement, and I 
want to point out that if you read the statement over 
carefully, you will find the harshest of the comments were not 
mine, but attributed to reputable news sources and even 
Republican staff people and Members.
    And I also want people who may be watching this hearing to 
know that notwithstanding the fact that the chairman said we 
are going to have free and open coverage of what goes on in 
these hearings, they are on C-SPAN coverage, gavel-to-gavel 
complete. In a sense there is a redundancy to have a committee 
control its own gavel-to-gavel coverage.
    I just want to point out that we have gavel-to-gavel media 
coverage, so everyone can see everything that is said at this 
hearing. But what the American people won't see is what is not 
called before the members of this committee: serious campaign 
finance violations and allegations of violations that have been 
ignored by this committee. The chairman alone has issued 
subpoenas. So Members on our side have asked him to pursue an 
investigation into various allegations that have come up over 
the last several years about serious Republican fundraising 
abuses.
    For example, there is a Republican National Committee 
chairman, Haley Barbour, who worked with a group called the 
National Policy Forum, and he got millions of dollars into this 
National Policy Forum from a noncitizen in Hong Kong named 
Ambrose Young, and then he used that money to help Republicans. 
It appears from what I have heard of it to be illegal. We asked 
that it be investigated, and it wasn't.
    There is a group called the Triad Management Services. This 
is a group that advised Republicans on how to launder campaign 
money and avoid the limits under the law.
    There were allegations as well about Republican fundraising 
on Federal property. For example, there was a Republican party 
to come and meet Senator Dole when he was a Senator for $15,000 
in the Senate Caucus Room; or for $45,000, you could have met 
and had lunch with then Speaker Newt Gingrich. And we will go 
into it again now and then later.
    The most serious of the allegations is the one made by a 
fellow named Peter Cloeren, who said that he was asked by the 
Majority Whip Tom DeLay to make a conduit contribution to a 
Republican House candidate. Here is the fellow who made the 
contribution saying how he was told and asked by a Republican 
leader, a Republican leader, to make this illegal contribution 
and we can't get the chairman to even respond to a letter of 
the Democrats asking to investigate it.
    We asked at one time that this committee in looking at 
campaign finance violations try to find out why the Republican 
leadership in 1997 wanted to give a $50 billion tax break to 
the tobacco industry. And, of course, it followed the 
Republican National Committee receiving $8.8 million from the 
tobacco industry.
    So you who are watching this hearing will see what goes on 
today. But what you won't see is what the chairman doesn't want 
you to know about, and those are serious violations by 
Republicans. That is why this whole investigation is not 
credible. I am not saying there have not been serious 
violations of the campaign laws by Democrats and by Mr. Huang. 
But if this were a legitimate investigation, we wouldn't be so 
limited in our ability today to present--or not just today, at 
any other time--to get to the bottom of things, to get the 
facts wherever they may lead us.
    Mr. Huang, you have admitted that from 1992 to 1994, while 
working for the Lippo Group headquartered in Indonesia, you 
took part in a scheme to make illegal conduit campaign 
contributions. These are serious offenses. They are felonies. 
And you have pled guilty to a felony violation of the campaign 
finance laws for making these conduit contributions. No one 
should minimize these or tolerate these violations. They are 
serious and deserve punishment. Do you agree with that?
    Mr. Huang. Yes, I do, Mr. Waxman.
    Mr. Waxman. These are the kinds of things that 
unfortunately have happened too much in the abuses of our 
campaign laws. Congressman Shays, as a member of this 
committee, introduced a bill which I supported to try to plug 
up the complete abuse of the campaign finance system. The 
reality is that all those limits and restrictions, whether they 
be on corporation contributions or labor union money, or all 
these phony organizations that are set up to receive the money 
and then spend more than individual candidates can spend, these 
are tolerated now and acceptable and have become par for the 
course.
    I think what you did, Mr. Huang, was scandalous, but I 
think what is being done every single campaign--and now this 
coming year will probably be done in a greater magnitude than 
what we saw even in 1996 and 1998--it is just quite scandalous 
and needs to be repaired.
    You are the central figure in the allegations of campaign 
finance abuse during the 1996 Presidential election because of 
conduit contributions. That is what you pleaded guilty to.
    My staff has done a LEXIS-NEXIS search of media records 
that mention your name. Since October 1996, there have been 
over 7,000 articles that mention your name in newspapers around 
the country. The reason you have been the center of so much 
attention is that Republicans in Congress have repeatedly 
alleged that you were part of a Chinese conspiracy to influence 
the United States elections, that you gave national secrets to 
the Chinese, and that you were part of a scheme involving 
President Clinton and the DNC to knowingly solicit illegal 
foreign campaign contributions.
    We even heard some of these allegations and innuendo in the 
opening statements of some of my colleagues today. These 
allegations of conspiracy and espionage are extraordinarily 
serious, extraordinarily serious. And I voted for immunity so 
that you would testify today because I wanted to learn whether 
they were true and to find out what really did and did not 
happen during the 1996 Presidential election.
    My approach to questioning you is different than the 
chairman's. The chairman has scheduled your testimony for 4 
days of hearings because he wants to conduct this hearing like 
a deposition. He apparently wants to ask you about virtually 
everything that you have done since 1992.
    In fact, I was told that he has over 100 pages of questions 
that he is intending to ask you. He has told us to be ready to 
meet here until late tonight, tomorrow, the next day, maybe the 
day after.
    Three years ago, when we began this investigation, that 
might have been appropriate and might have made some sense. But 
today we know what the central issues are, and those are what 
we should be asking you about. So I am going to ask you about 
the major allegations that have been made in this 
investigation, and let's get those statements on the record.
    You are under oath. You are testifying before us under a 
grant of immunity, so you can tell us the truth without fear of 
prosecution. And you are under oath, and if you do not tell us 
the truth, you will be guilty of perjury.
    Mr. Huang, do you have any knowledge that would implicate 
the President of the United States in any illegal activity?
    Mr. Huang. No, sir, Mr. Waxman.
    Mr. Waxman. Do you have any knowledge that would implicate 
the Vice President of the United States in any illegal 
activity?
    Mr. Huang. No, Mr. Waxman.
    Mr. Waxman. Do you have any knowledge that would implicate 
the First Lady in any illegal activity?
    Mr. Huang. No, Mr. Waxman.
    Mr. Waxman. Do you have any knowledge that would implicate 
the Democratic National Committee in any illegal activity?
    Mr. Huang. No, Mr. Waxman.
    Mr. Waxman. One of the first allegations about your conduct 
was made by former House Speaker Newt Gingrich in the Wall 
Street Journal in October 1996.
    According to Speaker Gingrich, the Riady contribution which 
you arranged ``makes Watergate look trivial.'' He went on to 
allege that ``we have never in American history had an American 
President selling pieces of this country to foreigners.''
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.166
    
    [GRAPHIC] [TIFF OMITTED] T6496.167
    
    [GRAPHIC] [TIFF OMITTED] T6496.168
    
    Mr. Waxman. In essence, Speaker Gingrich was alleging that 
President Clinton was selling U.S. foreign policy in exchange 
for campaign contributions that you helped to arrange. That is 
treason.
    Is it true, were you involved in a scheme to buy favorable 
policy decisions for foreigners with campaign contributions?
    Mr. Huang. No, sir.
    Mr. Waxman. Did you ever have any conversation with the 
President or any of his advisors in which the President or his 
advisors discussed making a policy decision in order to benefit 
campaign contributors?
    Mr. Huang. No, sir.
    Mr. Waxman. Are you aware of any evidence of any kind that 
supports Speaker Gingrich's allegation that the President was 
selling pieces of this country to foreigners?
    Mr. Huang. No, sir.
    Mr. Waxman. One of the major allegations that has been made 
is that you were part of a conspiracy involving Charlie Trie 
and Johnny Chung to funnel illegal campaign contributions from 
the Chinese Government to the President with the President's 
knowledge.
    Senator James Inhofe from Oklahoma was one of the many who 
made this allegation, and I want to quote what he said on the 
Senate floor earlier this year.
    ``John Huang, Charlie Trie, Johnny Chung, James Riady and 
others with strong ties to China were deeply involved with the 
President's knowledge in raising Chinese-tainted cash for the 
Clinton campaign.''
    I want to ask you about the assertions made in this 
allegation. Were you part of a fundraising conspiracy involving 
Charlie Trie and Johnny Chung, as Senator Inhofe and others 
have alleged?
    Mr. Huang. No, sir.
    Mr. Waxman. Were you part of a conspiracy to raise campaign 
contributions from the Chinese Government?
    Mr. Huang. No, sir.
    Mr. Waxman. Do you have any knowledge about any efforts by 
the Chinese Government to make illegal campaign contributions 
to President Clinton?
    Mr. Huang. No, sir.
    Mr. Waxman. Part of Senator Inhofe's allegation is that 
President Clinton knew that you and others were raising 
Chinese-tainted cash. Chairman Burton has made similar 
allegations about the President's knowledge. Is this true?
    Mr. Huang. No, sir.
    Mr. Waxman. Did President Clinton participate in or have 
any knowledge of efforts to raise illegal foreign campaign 
contributions as far as you know?
    Mr. Huang. No, sir.
    Mr. Waxman. Did you ever have any discussions with the 
President about who you were raising campaign contributions 
from?
    Mr. Huang. No, sir.
    Mr. Waxman. Another major allegation is that you were a 
Chinese spy. Let's get that on the table. Speaker Gingrich, for 
example, went on national television in April 1997, to allege 
that ``John Huang was clearly being given secrets while going 
to the Chinese embassy.''
    Chairman Burton made a similar accusation on national 
television in February 1997 when he said that ``Mr. Huang may 
very well have given information that he shouldn't have to the 
Chinese and others.''
    In fact, when Chairman Burton was asked on national 
television whether you were a Chinese spy, he alleged, ``that's 
a possibility.''
    Let me ask you about this well-publicized possibility. Are 
you now or were you ever a Chinese spy?
    Mr. Huang. No, sir.
    Mr. Waxman. Have you at any time ever given any classified 
information, directly or indirectly to the Chinese Government?
    Mr. Huang. No, sir.
    Mr. Waxman. Did anyone ever ask or suggest that you pass 
classified information or any other information to which they 
were not entitled, to the Chinese Government?
    Mr. Huang. No, sir.
    Mr. Waxman. Another accusation is that if you were not a 
Chinese spy, you were in effect a spy for the Lippo Group.
    Former Congressman Jerry Solomon, who was the chairman of 
the House Rules Committee and a Member of the Republican 
leadership, repeatedly made this allegation. For example, he 
alleged on national television in June 1997, that you gave 
national secrets to the Lippo Group. Specifically, he stated, 
``Mr. Huang was passing on classified information both dealing 
with economic espionage and breaches of national security to a 
foreign corporation with connections to the Chinese 
Government.''
    These allegations made front-page news, and they were 
treated very seriously. Are Mr. Solomon's allegations true?
    Mr. Huang. No, sir.
    Mr. Waxman. Are any part of them true?
    Mr. Huang. No, sir.
    Mr. Waxman. When you were at the Department of Commerce, 
were you an agent of the Lippo Group, as Mr. Solomon has 
alleged?
    Mr. Huang. Would you repeat the question again?
    Mr. Waxman. When you were at the Department of Commerce, 
were you an agent of the Lippo Group, as Mr. Solomon has 
alleged?
    Mr. Huang. I missed the agent's name. I was not, no. 
Definitely not.
    Mr. Waxman. Well, you have immunity. Did you do anything 
for the Lippo Group while you were at the Department of 
Commerce?
    Mr. Huang. No, sir, no.
    Mr. Waxman. Have you at any time ever given classified 
information to the Lippo Group?
    Mr. Huang. No.
    Mr. Waxman. Did anyone ever ask you to give classified 
information to the Riadys or Lippo Group?
    Mr. Huang. No, sir.
    Mr. Waxman. Did you ever use your position at the Commerce 
Department to help the Riadys or the Lippo Group?
    Mr. Huang. No, sir.
    Mr. Waxman. Another major allegation is that you were 
illegally laundering campaign contributions while you were 
employed at the DNC. Here is what the chairman said about these 
activities in September 1997, to the Associated Press, ``there 
is no question that Mr. Huang did this. This is the first time 
we have found an active person at the DNC who was involved in 
money laundering. Mr. Huang, while he was an executive at the 
DNC in the finance area, was laundering money, and we will be 
able to prove that.''
    Was Mr. Burton right? Did you launder campaign 
contributions while at the DNC?
    Mr. Huang. No, sir.
    Mr. Waxman. Mr. Chairman, let me point out that you 
requested the Justice Department to provide this committee with 
the notes from a number of FBI interviews. Mr. Chairman, may I 
have your attention? You asked for the Justice Department to 
give our committee a number of FBI interviews related to Mr. 
Huang and the campaign finance investigation. And I understand 
the Justice Department agreed to provide these notes, they are 
called 302s, to the committee this afternoon. I think we have 
received some of them.
    I would like to request at this time that you also ask the 
Justice Department to provide the committee with the notes from 
the FBI interview of former Representative Jerry Solomon. 
Chairman Solomon told the media that he knew of evidence that 
John Huang committed economic espionage and breached our 
national security by passing classified information to his 
former employer, the Lippo Group.
    I believe the American people have the right to know what 
the evidence was that Mr. Solomon had, if any such evidence 
actually existed. And, Mr. Chairman, I would like to see if you 
will agree to ask the Justice Department to provide Mr. 
Solomon's 302 along with all the other 302s to this committee 
this afternoon.
    Mr. Burton. I have no problem with that. We will request 
that from the Justice Department.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Mr. Huang, you have said that you facilitated a number of 
conduit contributions between 1992 and June 1994. In some 
instances you identified Lippo employees who could legally make 
contributions and solicited contributions from them with the 
understanding they would be, ``taken care of'' by James Riady.
    In other instances, you made the contributions yourself and 
expected to be reimbursed in your annual bonus. And you also 
prepared memos to get reimbursements from overseas for 
corporate contributions made by Lippo's U.S. entities.
    This sounds to me like a pretty elaborate plan. It was 
blatantly illegal. Didn't you know that this plan was illegal?
    Mr. Huang. I knew that it was not proper. I was sorry for 
that, Mr. Waxman.
    Mr. Burton. Would the gentleman yield briefly?
    Mr. Waxman. Yes.
    Mr. Burton. Senator Lieberman said in the hearings that 
were held in the Senate, ``Non-public evidence presented to the 
committee demonstrates a continuing business intelligence 
relationship between the Riadys and the People's Republic of 
China Intelligence Service.''
    Now, that is classified information which we cannot bring 
out in this committee. But I suggest that you and I and the 
committee probably ought to check with the intelligence 
agencies to take a look at that because Mr. Lieberman probably 
had that information. He is a Democrat Senator.
    Mr. Waxman. Well, Mr. Chairman, I would be happy to join 
with you in getting that information. But we have Mr. Huang 
here and he is under oath and he is under immunity.
    What do you say to the chairman's quote from Senator 
Lieberman?
    Mr. Huang. Mr. Chairman, would you repeat? I'm sorry about 
that.
    Mr. Burton. If the gentleman would yield.
    Mr. Waxman. Sure.
    Mr. Burton. Senator Lieberman said, ``Non-public 
evidence,'' he is talking about intelligence evidence from FBI 
or from CIA, ``presented to the committee demonstrates a 
continuing business intelligence relationship between the 
Riadys and the People's Republic of China Intelligence 
Service.''
    Mr. Waxman. Do you know anything about that?
    Mr. Huang. I don't know whether it is the intelligence 
service or not, but the Riady group does have some business 
partnership with some Chinese corporations in Hong Kong. I 
don't know if that's what he related to or not. I don't know 
that entity in Hong Kong or entities in Hong Kong where is the 
arm of the Chinese, you know, espionage units or not. At that 
time, I certainly did not know. At this moment, I don't even 
know.
    Mr. Waxman. And this scheme that you did know about, 
because you engineered it, did you at any time question whether 
it was proper to make these conduit contributions?
    Mr. Huang. No, I did not.
    Mr. Waxman. You felt that it might not be proper or legal. 
Why did you decide to break the law?
    Mr. Huang. Mr. Waxman, in the human life, sometimes you 
have to make decisions in a crossroad and sometimes, you know, 
you have to make decision. By not making decision is also a 
decision. By that time I made a decision to continue that. And 
I certainly regret those things that happened at the time. 
Maybe it was anticipation probably it would not be found out.
    Mr. Waxman. That is usually what people think when they 
break the law.
    Mr. Huang. That's correct, sir. I definitely regret that.
    Mr. Waxman. But what you did was a serious violation of the 
law, and I think you owe the American people an apology.
    Mr. Huang. Yeah, I do, Mr. Chairman--Mr. Waxman.
    Mr. Waxman. In August of this year, you reached a plea 
bargain with Justice; and I understand that you pleaded guilty 
to making illegal conduit contributions. According to the 
Justice Department's announcement of your plea, you were 
``responsible for arranging approximately $156,000 in illegal 
campaign contributions from Lippo Group overseas to various 
Democratic and Republican political committees ``between 1992 
and June 1994.''
    So I want to ask you about these activities in some detail.
    I understand that the individuals who were involved in 
these conduit contributions were primarily James Riady and 
other Lippo executives. Is that right?
    Mr. Huang. That is correct, sir.
    Mr. Waxman. Was the DNC aware that these contributions were 
illegal conduit contributions?
    Mr. Huang. No, sir.
    Mr. Waxman. Was the President or Vice President aware that 
these contributions were illegal conduit contributions?
    Mr. Huang. No, sir.
    Mr. Waxman. In your statement to the FBI, you indicated 
that James Riady told you about a limousine ride he took with 
then-Governor Clinton in August 1992 in which Mr. Riady told 
Mr. Clinton that he would like to raise $1 million for his 
Presidential campaign. Chairman Burton has said that this 
conversation proves that the President was a knowing 
participant in the illegal conduit contribution schemes.
    Here is what the chairman said on national television on 
November 2nd of this year. ``Huang said that James Riady told 
the President he would raise $1 million from foreign sources 
for his campaign. The President knew that James Riady was doing 
it. He knew that it was foreign money coming in from the Lippo 
Group in Jakarta, Indonesia, and he didn't decline it. He 
accepted it.''
    Is the chairman correct? Did the President know that these 
contributions were illegal?
    Mr. Huang. No, I have no knowledge that the President knows 
about it. I don't believe that the President knew about this.
    Mr. Waxman. To the best of your knowledge, in their 
conversation did Mr. Riady in any way indicate to the President 
the source of the money that he was going to raise?
    Mr. Huang. No, I have no indication that way.
    Mr. Waxman. At the time Mr. Riady had the conversation with 
the President, he was a legal permanent resident of the United 
States. As such, he was legally entitled to make campaign 
contributions or to raise contributions from others; is that 
right?
    Mr. Huang. That is correct.
    Mr. Waxman. Let me ask you the bottom-line question. Did 
you ever at any point in time have any conversation with 
President Clinton where you indicated to him that any foreign 
or illegal contributions were being made, or did he ever 
indicate to you that he had any knowledge of foreign 
contributions?
    Mr. Huang. No, sir.
    Mr. Waxman. Mr. Huang, you've been accused of soliciting 
illegal foreign contributions while working at the DNC in 1996. 
Let me ask you a series of questions that cover the entire time 
period that you worked at the DNC as a fundraiser. That was 
from December 1995, to October 1996.
    While at the DNC, did you ever knowingly solicit or accept 
any foreign political contributions?
    Mr. Huang. No, sir.
    Mr. Waxman. While at the DNC, did you ever knowingly assist 
any foreign government or company to funnel money in any form 
into the U.S. political system?
    Mr. Huang. No, sir.
    Mr. Waxman. Did anyone at the DNC or at the White House 
ever ask you or suggest to you that you solicit illegal 
contributions of any kind?
    Mr. Huang. No, sir.
    Mr. Waxman. Did you ever talk to the President or Vice 
President about the source of any political contributions you 
solicited?
    Mr. Huang. No, sir.
    Mr. Waxman. Did anyone at the DNC know that foreign 
contributions were being made?
    Mr. Huang. No, sir.
    Mr. Waxman. Mr. Huang, you are here under oath. You are 
also here with a vote for immunity so you cannot be held 
criminally liable for your conduct except if you lie to us. And 
if it turns out that you did lie to this committee, while Mr. 
Burton and I don't see eye to eye on many things, he and I will 
be working together to ask that there be a prosecution for 
perjury against you.
    I've asked you a series of questions that go to the most 
serious allegations that have been made against you for the 
last 3 years. I want you to take a moment and reflect on your 
answers and tell us if there is anything else you think we 
ought to know about relating to those questions that I asked 
you.
    Mr. Huang. Mr. Waxman, I'm sorry, I don't have any reason 
to have any knowledge that I answered your questions 
incorrectly at this time, sir.
    Mr. Waxman, also, I don't know what the report is about. I 
did not have any benefit----
    Mr. Waxman. You do not have any benefit of----
    Mr. Huang. No. You have the benefit of reading whatever 
report is being supplied by----
    Mr. Waxman. You know the truth of what you know.
    Mr. Huang. I answered the questions truthfully to all those 
interrogations or investigations.
    Mr. Waxman. And my questions to you today, you have 
answered truthfully?
    Mr. Huang. That's correct, yes.
    Mr. Waxman. Mr. Huang, our committee has had its share of 
blunders and mistakes. In fact, we have been called a parody of 
reputable investigations and a case study on how not to do an 
investigation. And I want to ask you about one of our true 
lows.
    In 1997, we had a hearing we held with a fellow named David 
Wang. This hearing was held in October 1997. Prior to the 
hearing, the chairman told the Associated Press that the 
hearing was going to prove that John Huang laundered illegal 
campaign contributions while at the DNC. He said this was, 
``the first time in my memory we have seen evidence of such 
blatantly illegal activity by a senior national party member.''
    In the hearing, David Wang testified before this committee 
under oath that you, Mr. Huang, came to his place of business 
in Los Angeles in August 1996 and gave him cash in return for a 
campaign contribution. I introduced evidence that showed that 
this could not have happened. This evidence included hotel 
receipts and affidavits to show that you were in New York, not 
Los Angeles, on the day in question.
    The Democratic members also suggested that perhaps this was 
a case of mistaken identity. In fact, Representative Kanjorski 
said that perhaps the person that Mr. Wang met was Charlie 
Trie, not John Huang.
    Now, we had all the receipts showing you were in New York. 
We had clear evidence that show that you were in New York on 
the day that Mr. Wang said that you went to his place of 
business in Los Angeles. And in light of that evidence, I asked 
the chairman to retract his allegation. And to this day, 
however, the chairman has refused to correct the record.
    I'd like to now ask you about what really happened. Mr. 
Huang, was David Wang telling the truth when he said that you 
met with him in August 1996 while you were at the DNC and gave 
him cash to make an illegal conduit contribution?
    Mr. Huang. No, sir, Mr. Wang was not telling the truth.
    Mr. Waxman. Mr. Chairman, I have additional proof that Mr. 
Huang is telling the truth here today. The committee recently 
received the FBI notes of the FBI interviews with Charlie Trie. 
In these notes, Mr. Trie says that it was he, not Mr. Huang, 
who met with David Wang. I ask unanimous consent to introduce 
these FBI interview notes into the hearing record at this 
point.
    Mr. Burton. Without objection.
    Just 1 second. Pardon me.
    The FBI has asked us not to release those or put those in 
the record yet because there is information they would still 
like to redact, and I have told the FBI Director and the FBI 
that we would honor that. So I don't think we should put it in 
the record at this time until they have made the redactions 
that they think are necessary.
    Mr. Waxman. Mr. Chairman, I think they should be in the 
record. I think you are mistaken. But I will withdraw my 
request, and we will talk further about it.
    Mr. Burton. Once the redactions are made, we will check 
with the FBI. I have no objection once that happens.
    Mr. Waxman. But I think once this information comes out, 
and I know you share my view, the American people ought to have 
all the truth, it will be clear that you were mistaken, we all 
make mistakes, and you were mistaken about Mr. Wang's 
accusation that Mr. Huang came to his place of business. And if 
that is true that you were mistaken, I hope, Mr. Chairman, that 
you will admit that there was a mistake and that was an 
allegation, the allegation you made based on that, that was 
based on incorrect facts.
    Mr. Burton. If there is a mistake in the record, we will 
correct that.
    Mr. Shays.
    Mr. Shays. Mr. Chairman, before I start my 5 minutes, I 
would just like to ask a question. We have had 30 minutes from 
the chairman and the ranking member, and then from this point 
on we're going to be going in 5-minute segments and then 
continuing to come back. So we'll do 5 minutes, the next 
person, and just keep going down and doing that; is that 
correct?
    Mr. Burton. That's correct, until we are ready to finalize; 
and then we will have 30 minutes for staff.
    Mr. Shays. Thank you.
    Mr. Burton. Would you like a break, Mr. Huang?
    Mr. Huang. Please, Mr. Chairman. Thank you.
    Mr. Burton. We'll take about a 10-minute break. We stand in 
recess until the call of the gavel.
    [Recess.]
    Mr. Burton. Mr. Huang, what we were discussing was nothing 
of major significance. Since you and your legal counsel flew on 
the red eye, we assume that you are kind of tired. So what we 
are going to do is go until 6 o'clock today and then we will 
recess until tomorrow morning at 10 o'clock rather than go to 
later in the evening.
    Mr. Huang. Mr. Chairman, I am supposed to tell the truth. I 
did not fly red eye. I did arrive at 1 o'clock. So it is not 
considered red eye fully on that basis. But my eyes are red.
    Mr. Shays. Mr. Huang, it is good to have you here.
    Mr. Huang. Thank you, Mr. Shays.
    Mr. Shays. And I am going to take your statement as I think 
you mean it. It seems somewhat conciliatory. It seems somewhat 
regretful. But I also want to take what you say to coincide 
with your statement. I need to first ask you what you mean by 
saying, ``I've made some mistakes.'' What are the mistakes 
you've made?
    Mr. Huang. As far as the illegality, you know, funneling 
the funds, campaign contributions.
    Mr. Shays. So what are the mistakes?
    Mr. Huang. The campaign contributions. Talking about during 
1992 through 1994, that period of time when I was with Lippo, 
there was a lot of money being handled through me and funneled 
through me. Essentially, I meant that, sir.
    Mr. Shays. You are 1 of 79 people who have exercised their 
right to use their fifth amendment privileges for self-
incrimination, and it is a right that is available to all 
Americans and you had that right and you exercised it. But you 
were one of so many. And being the non-lawyer that I am, you 
begin to get a feeling when there are so many that there is 
something here that people do not want us to know.
    I am going to focus in eventually on security issues 
because that is an area that my subcommittee is responsible 
for. But my understanding is, since 1985 through July 1994, you 
worked for the Riadys in various capacities. You worked for 
them, the Lippo Group, and so on. You worked for the Riadys. Is 
that correct?
    Mr. Huang. That is correct, Mr. Shays.
    Mr. Shays. And then my understanding is that from July 1994 
to December 1995 you worked for the Commerce Department.
    Mr. Huang. Yes, sir.
    Mr. Shays. And then since then, excuse me, from December 
1995 to October-November 1996, you worked for the Democrat 
National Committee.
    Mr. Huang. That's correct, sir.
    Mr. Shays. And you raised money from the Riadys when you 
worked for the DNC.
    Mr. Huang. I did not raise from the Riadys, though.
    Mr. Shays. From someone who gave to the Riadys? I mean, 
were the Riadys not involved in any of your campaign 
fundraising efforts?
    Mr. Huang. Somebody----
    Mr. Shays. I don't want to split hairs here. I want you to 
be accurate.
    Mr. Huang. Yes, somebody's family had partnership with 
Riady's family business.
    Mr. Shays. So you raised money from the businesses of the 
Riadys?
    Mr. Huang. No. No. No. Individuals.
    Mr. Shays. Individuals who worked for the businesses.
    Mr. Huang. Whose family had partnership with Riady's family 
business.
    Mr. Shays. Fair enough.
    Mr. Huang. But to my knowledge they are green card holders.
    Mr. Shays. Would it have been illegal for you to raise 
money from the Riadys when you worked for the DNC?
    Mr. Huang. I'm sorry, sir?
    Mr. Shays. Would it have been illegal for you to have 
raised money from the Riadys? You seem to want to make clear to 
me that somehow during that time while you worked at the DNC 
you did not raise money from the Riadys but you raised money 
from people who had business acquaintances and agreements with 
the Riadys.
    Mr. Huang. Because I had the knowledge at that time Mr. 
Riady has relinquished his green card status back to the United 
States and he was no longer holding the PR, so-called permanent 
resident status in the United States, he was not eligible to 
take care of any further.
    Mr. Shays. Well, you could have raised soft money from 
them. That is not a campaign contribution.
    Mr. Huang. But he did not have the status, though.
    Mr. Shays. The bottom line is you chose not to raise money 
from the Riadys but from people who worked for the Riadys in 
that business relationship.
    In 1997 you had a gift of $18,000 from the Riady family; 
and in 1998, $20,000 from the Riady family; and in 1999 they 
paid your travel expenses to go to Jakarta, correct?
    Mr. Huang. I paid before. They gave me back the money, yes.
    Mr. Shays. Now, so the picture I see is a relationship from 
1985 to really now, a relationship with the Riady family.
    Mr. Huang. Yes. Yes.
    Mr. Shays. And the one distinction you want me to be clear 
on is that when you worked at the DNC you chose not to raise 
any money from the Riadys?
    Mr. Huang. They could not give either in my mind, yes.
    Mr. Shays. And when you say, ``mistakes,'' would you define 
any of those mistakes as illegal?
    Mr. Huang. Yes, it is.
    Mr. Shays. Now, tell me the illegal things you did.
    Mr. Huang. The reimbursement part. In other words, although 
I was legally able to give money, but I was reimbursed later on 
by the Riadys.
    Mr. Shays. And is that the extent of your testimony before 
this committee? That is the extent of your illegal activities?
    Mr. Huang. That's one part.
    Mr. Shays. OK. Give me the other parts.
    Mr. Huang. Because I have knowledge about at least some of 
the----
    Mr. Shays. Let me just say something to you. I'm not going 
to be satisfied if you tell me that you didn't have knowledge 
at the time that this was illegal. Let's just agree that if it 
was illegal, whether or not you knew it, it is illegal.
    Mr. Huang. Mr. Shays, please clarify the times you you're 
talking about.
    Mr. Shays. I do not want to clarify times. I want to know 
what illegal acts you have done. And you regret all of them and 
you have immunity for all these illegal acts. I do not want to 
know the ones I know. I want to know the ones you know, too.
    Mr. Huang. OK. I was not supposed to be reimbursed for all 
the campaign contributions that I made, but somehow I did, or 
reimbursed through those money.
    Mr. Shays. And that is your testimony before us? That that 
is the extent of any of the illegal acts that you have done?
    My time is up. I will come back. Is the answer to the 
question yes? Is that the extent of all your illegal acts?
    Mr. Huang. I also knew the other people being reimbursed as 
well, that was not proper--that was not illegal--that was 
illegal, I'm sorry.
    Mr. Shays. And that's the extent of all the illegal acts 
you have done?
    Mr. Huang. To the best I can comprehend, yes.
    Mr. Shays. We will talk some more. Thank you.
    Mr. Huang. Yes, please. Thank you.
    Mr. Burton. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Huang, I wanted to discuss with you some of your 
participation and some of the events surrounding the 
Presidential debate which took place in East Lansing, MI, 
October 19, 1992. I am going to be referring first to exhibit 
31. And if you have that there, if you might pull that up and 
we can put that on the screen.
    On a document for the Presidential debate in East Lansing, 
MI, on that date, October 19, 1992, James and Aileen Riady are 
listed as guests along with Melinda Yee's name. Again, their 
names are listed as guests along with Melinda Yee's name next 
to theirs.
    By the time of the debate on October 1, 1992, Lippo related 
contributions topped some $570,000. Is that figure 
approximately correct to your knowledge?
    [Exhibit 31 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.169
    
    [GRAPHIC] [TIFF OMITTED] T6496.170
    
    Mr. Huang. I don't know for sure, but it's definitely over 
a few hundred thousand dollars, yes.
    Mr. Mica. And the Riadys personally contributed--we have 
$410,000 of that total. They also contributed hundreds of 
thousands of dollars at that point?
    Mr. Huang. I don't know exactly the date, but they did make 
quite a few hundred thousand dollar contributions approximately 
that time, yes.
    Mr. Mica. The document listing the guests for the East 
Lansing debate lists a James and Aileen Riady. Next to their 
names is the name of Melinda Yee, apparently signifying that 
Yee, a DNC employee detailed to the Clinton-Gore campaign, was 
the person who arranged for their invitation. Melinda Yee was 
also the individual who informed Governor Clinton about the 
limousine ride and James Riady's $100,000 contribution to the 
August 14, 1992, fundraiser.
    The questions that I have are as follows: The list that is 
on exhibit 31 is a guest list to the October 19, 1992, 
Presidential debates in East Lansing, MI. On the second page it 
lists James and Aileen Riady. Did Mr. and Mrs. Riady attend the 
Presidential debate in East Lansing to your knowledge?
    Mr. Huang. Mr. Mica, they did not attend, to the best of my 
knowledge.
    Mr. Mica. They did not. Did the Riadys fly in from 
Indonesia with the intent of intending to attend the debate?
    Mr. Huang. I don't know if they were in Indonesia or not. 
But I do know they did not attend, because I attended it.
    Mr. Mica. Did Melinda Yee arrange--was she making 
arrangements for the Riadys to attend, and then were you 
substituted in their place?
    Mr. Huang. I couldn't quite recall right now for sure, but 
I did not know exactly. But I do know that I did attend and my 
wife did attend.
    Mr. Mica. Well, did you work with Mr. Riady to arrange the 
contributions so that someone could attend the event? And I 
guess originally it had been Mr. Riady who was going to attend.
    Mr. Huang. I was not sure whether it was related to the 
contribution or not. Apparently, during that period of time, 
there were guests on the list by DNC, you know, being 
recommended to be invited.
    Mr. Mica. But did you get there through Mr. Riady's 
contribution or through contributions that you personally had 
made?
    Mr. Huang. Well, I was actually raising the money at that 
time from various people in the group, Lippo Group, so I don't 
know the determination on the invitation list was because the 
money being raised was a key factor or not.
    Mr. Mica. But, again, I am trying to find out at this 
juncture in October, were you the recipient of money that was 
given for you to participate in the event or was the money 
given from the Riadys for the Riadys to participate in the 
event?
    Mr. Huang. You know, at that period of time, to my best 
recollection, I was giving the money, my wife was giving the 
money, and certainly at that time part of the money was given 
by the Riady family, as well.
    Mr. Mica. What were you doing at that time?
    Mr. Huang. In 1992, I was still working for Lippo Group in 
California.
    Mr. Mica. And what was your approximate income at that 
time?
    Mr. Huang. At that time----
    Mr. Mica. 1992.
    Mr. Huang. Probably $150,000 in that range.
    Mr. Mica. And how much did you give in 1992 to the either 
the campaign or the inaugural committee?
    Mr. Huang. Solid campaign, I could not really recall 
exactly. Probably over $30,000 or $40,000 at least.
    Mr. Mica. Were you reimbursed by Mr. Riady or the Lippo 
Group for those funds?
    Mr. Huang. Later on, yes.
    Mr. Mica. What about the funds that were--now, I see some 
funds in your name and is it Jane? Is that your wife?
    Mr. Huang. That's my wife, yes.
    Mr. Mica. And she was also contributing funds I guess in 
her name also?
    Mr. Huang. Yes, when I talk about the total amount, it was 
including my wife's contribution also.
    Mr. Mica. And was she also reimbursed for those 
contributions?
    Mr. Huang. I was handling, Mr. Mica.
    Mr. Mica. The money came to you and the checks were 
written.
    Mr. Huang. Yes.
    Mr. Mica. Mr. Chairman, are we doing double----
    Mr. Burton. We are doing 5-minute rounds right now. So if 
you like, we will be back to you.
    Mr. Mica. Thank you.
    Mr. Burton. Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    I want to apologize, Mr. Huang, for the fact that each of 
us are taking kind of different lines of questioning and 
because we could not get in the rules 10 minutes where you can 
kind of get an order to it. You will see I am going to be 
asking a series of questions regarding Mr. Hubbell, and I'll 
come back to that every so often. So you will kind of see a 
pattern here, but your mind is going to be pretty tired because 
you are going to be moving between different scenarios because 
we could not get a longer questioning period.
    The first question I would like to ask is, when did you 
first learn that Webb Hubbell needed financial help?
    Mr. Huang. Probably in spring of 1994.
    Mr. Souder. Was this at a reception? I believe your FBI 
deposition said it was at a reception in the spring.
    Mr. Huang. Mr. Souder, can you hold on just a second?
    Essentially, the news I've learned I believe from Mr. Doug 
Buford of the law firm from Little Rock, AR; and, basically, I 
believe he mentioned to me I was told he was indicating Mr. 
Hubbell needs some help, financial help.
    Mr. Souder. Was that at the reception where you first heard 
it?
    Mr. Huang. No. That was a phone call separate.
    Mr. Souder. So you first heard it at a reception. And then 
Mr. Buford, was he talking about Mr. Hubbell's children?
    Mr. Huang. No. I believe I heard that through phone call 
ahead of time from Mr. Buford. The reception was in Washington, 
DC, and I was given a business card later on from Mr. Hubbell.
    Mr. Souder. I want to go back to the reception where it 
first started. Was it at the White House, at the DNC? What kind 
of reception was it?
    Mr. Huang. I cannot remember the location of the reception. 
I do not believe it was in the White House, though.
    Mr. Souder. Do you believe it was a political reception, or 
you don't remember?
    Mr. Huang. I do not remember.
    Mr. Souder. You have said before and here on the record 
that it was in the spring. Mr. Hubbell called Lippo Bank twice 
on May 19, 1994. Do you think that was approximately the time 
that the reception?
    Mr. Huang. I would believe, if your records indicating the 
phone call is made in May, probably that reception was 
happening before that already.
    Mr. Souder. Because it also shows up a little bit later in 
June that you have said that Mr. Riady asked you to set up a 
meeting. So probably the order here was that you heard at a 
reception that he needed help, and clearly he made some calls 
on May 19 to the Lippo Bank. And then do you know approximately 
the date when Doug Buford would have called you?
    Mr. Huang. I cannot really speculate. I do know for sure it 
is prior to that.
    Mr. Souder, in terms of the sequencing on that, the best I 
can recollect is I learned this information from Mr. Buford 
through phone call indicating he was needing the help and also 
learned somebody was trying to set up a trust fund for the 
children. And then, over time, I had a conversation with Mr. 
Riady about the fact and that Mr. Hubbell needed help. And then 
the reception, probably there was a chance I met with Mr. 
Hubbell and there was an indication to Mr. Hubbell saying Mr. 
Riady might be coming back to the United States in June 
sometime.
    So I'm pretty sure the main call was pursuing for when 
might be the appointment for exactly the time they might be 
able to meet. I was trying to arrange the meeting at that time.
    Mr. Souder. Could you explain for the record who Doug 
Buford is?
    Mr. Huang. Mr. Buford is an attorney with Wright, Lindsey 
and Jennings. It is a law firm in Little Rock, AR. He's also a 
friend of mine and also to the Riady family.
    Mr. Souder. So it is Bruce Lindsey's law firm?
    Mr. Huang. Former law firm yes, sir.
    Mr. Souder. And he was a friend of yours when you were 
previously with the Bank of Arkansas and others?
    Mr. Huang. I know him not that early.
    Mr. Souder. Did you know him in Arkansas, or did you know 
him only once you came to Washington?
    Mr. Huang. I knew him when I was still with the Lippo Group 
in California then.
    Mr. Souder. When there was any of these contacts to you, 
when you first heard he was needing help in or the trust and/or 
the trust fund regarding the children, was there any mention in 
the same discussions about the independent counsel 
investigation or his cooperation?
    Mr. Huang. No, I did not know that.
    Mr. Souder. In other words, it was not even discussed not 
necessarily in toto?
    Mr. Huang. No, sir.
    Mr. Souder. I mean, it seems just to a casual observer that 
there have been a lot of concern and a lot of discussion 
anytime Webb Hubbell would have been around about what is 
happening in the counsel's office. So you did not hear any kind 
of concern about Mr. Hubbell and him feeling persecuted or what 
these crazy Republicans in the House are going to do next?
    Mr. Huang. To the best of my knowledge, I did not. It did 
not register in my mind at that time.
    Mr. Souder. After you heard that Mr. Hubbell needed help, 
did you discuss it with Mr. Riady?
    Mr. Huang. Yes, I did.
    Mr. Souder. And when approximately would that have been?
    Mr. Huang. Again during that springtime. Probably April, 
May, around that time.
    Mr. Souder. But before the visit in June?
    Mr. Huang. Definitely, yes, sir.
    Mr. Souder. Multiple times?
    Mr. Huang. Occasionally Mr. Riady will call and continue on 
average, like once a week, or checking in what's going on in 
our operation in the United States. So we talked about various 
things.
    Mr. Souder. Did you ever discuss with Mr. Riady about Mr. 
Hubbell's problems and why he was having problems, that he was 
being investigated and because of that reason he would need 
money?
    Mr. Huang. Not in detail.
    Mr. Souder. What does ``not in detail'' mean?
    Mr. Huang. My hunch is Mr. Riady probably has the CNN and 
overseas he would know about that. I just mention to him he's 
really in trouble and he needs help, information to him about 
somebody trying to set up a trust fund on that basis. The trust 
fund's only limit--I believe a person can only give up to 
$15,000 maximum. I passed those information to Mr. Riady.
    Mr. Souder. Thank you. I will return later.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Huang, I want to go back to your opening statement for 
just a second; and then I want to talk to you about some 
Presidential fundraising events that happened back in 1996.
    One of the things that struck me in the first paragraph of 
your opening is you said, ``in addition, while things might 
have gone easier for me and were I able to implicate the 
President and the Vice President in wrongdoing, I never had any 
basis to do so.'' And that is what you answered in a question 
from Mr. Waxman. But I think that you stand convicted, do you 
not, of conspiracy to defraud the United States of America that 
stems from the illegal political contributions that you made 
and Lippo Group entities made between 1992 and 1994? That's the 
crime, basically, that you stand convicted of, is it not?
    Mr. Huang. That is correct, sir.
    Mr. LaTourette. And the sentence that you received was 1 
year of probation and a $10,000 fine; is that right, too?
    Mr. Huang. And also 500 hours community service.
    Mr. LaTourette. I was just struck when you said that things 
might have gone easier for you. I think, I was a prosecutor for 
6 years, and the only thing that could have gone easier is if 
they had given you nothing. That is a pretty good sentence. I 
do not know if Mr. Cobb and Mr. Keeney were your lawyers, but 
if they were, they are excellent lawyers and they are to be 
commended for negotiating that agreement.
    But then when you were talking to Mr. Waxman, and I want to 
be real clear about this, that crime to which you stand 
convicted today was for activities that occurred between 1992 
and 1994; is that right?
    Mr. Huang. That's correct.
    Mr. LaTourette. Specifically in response to Mr. Waxman's 
series of questions, you indicated that while at the DNC, the 
Democratic National Committee, that you engaged in no illegal 
activities and, likewise, that you are not aware and that you 
did not participate in the making of any illegal contribution 
either to the Democratic National Committee or President 
Clinton's re-election campaign in 1996. Is that right?
    Mr. Huang. That is correct.
    Mr. LaTourette. There was just a television program on 
recently where they would ask a series of questions and they 
had lifelines where you could phone a friend or 50/50. And I 
would ask you, is that your final answer, that you did not 
commit the same type of conduit scheme to defraud the United 
States of America in 1996 that you engaged in between 1992 and 
1994?
    Mr. Huang. To the best of my knowledge, yes.
    Mr. LaTourette. OK. Let's talk, then, about some 
fundraising events that took place in 1996. And I want to turn 
your attention first to one that occurred on February 19, 1996. 
You are familiar with that fundraising event?
    Mr. Huang. Yes, Congressman.
    Mr. LaTourette. And it is my understanding that that was 
the first major fundraising event that you might have been 
involved in after you went to the DNC; is that correct, also?
    Mr. Huang. That is correct, sir.
    Mr. LaTourette. OK. Do you remember what the goal of that 
fundraiser was?
    Mr. Huang. Actually, I tried to set $1 million, sir.
    Mr. LaTourette. And is that a figure you established for 
the fundraising event? Was that a figure given to you by the 
DNC, the Presidential campaign? How did you come at $1 million?
    Mr. Huang. I set the goal for $1 million, sir.
    Mr. LaTourette. And do you recall--if this was on February 
19th, do you recall when you would have started beginning the 
planning for that event?
    Mr. Huang. Yes, ever since I joined in the DNC, starting 
from December 1995.
    Mr. LaTourette. Do you recall communicating to anyone else 
that you needed to raise $1 million at that February 19th event 
in order to get the President's attendance at that fundraiser?
    Mr. Huang. Maybe, yeah.
    Mr. LaTourette. And, in fact, do you recall such a 
conversation with Charlie Trie----
    Mr. Huang. Yes, I do.
    Mr. LaTourette [continuing]. That the $1 million would be 
required to secure the President of the United States's 
attendance at this fundraising event?
    Mr. Huang. I really cannot, Congressman, equate million 
dollars to get the President coming here. Probably lesser 
amount you can get the President coming here. So I set my goal, 
hopefully I can raise $1 million. That would be the first time 
the Asian American community raise that kind of money on 
record.
    Mr. LaTourette. You just mentioned ``Asian American 
community.'' Was there a target audience or group that you 
hoped to solicit to attend this event on February 19th, or was 
it anybody that was inclined to give President Clinton money to 
run for re-election?
    Mr. Huang. Primarily the Asian American community, sir.
    Mr. LaTourette. And the price for this event, my 
understanding, was $12,500 was the cost of a ticket to attend 
this event; is that right?
    Mr. Huang. That is correct.
    Mr. LaTourette. And that included not only the dinner on 
the 19th but also a breakfast the next morning with the Vice 
President of the United States, Mr. Gore?
    Mr. Huang. That is correct, sir.
    Mr. LaTourette. Was there another requirement as to a 
different contribution level to be entitled to sit at the head 
table at that event?
    Mr. Huang. I did not set that level, but people--some of 
the people might have given more money. Some of the people 
might have historically made supporting Democratic party, which 
is known to everybody, and also because of diversity, for the 
diversity basis, I try to have a different Asian American 
community to be represented on the head table as well, sir.
    Mr. LaTourette. Did you select the composition of the head 
table at that event?
    Mr. Huang. Primarily yes, yes, myself, yes.
    Mr. LaTourette. Did you, as you sit here today, and maybe 
we can go in the next 5 minutes if you don't remember, do you 
remember what the head table was comprised of at the February 
19th fundraiser?
    Mr. Huang. I can remember some of them.
    Mr. LaTourette. Can you just name them for us?
    Mr. Huang. Pauline Kanchanalak.
    Mr. LaTourette. Pauline Kanchanalak?
    Mr. Huang. Yes.
    I think either Mr. Ted Sioeng or Mr. Ted Sioeng's guests. I 
just need to go back to the list to know.
    Mr. LaTourette. That is fine. We can talk about that in a 
little bit. I am not trying to stump you, but we will go over 
some names maybe in my next 5 minutes.
    But specifically, Charlie Trie, and maybe the chairman 
asked you, when did you meet Charlie Trie?
    Mr. Huang. The first time probably in the summer of 1994. I 
heard of him much earlier, but the first time I met with him 
was in summer of 1994.
    Mr. LaTourette. According to the information that I've 
reviewed, Charlie Trie was a very active donor to the 
Democratic National Committee, but he was not an active 
fundraiser, if you understand the distinction, in that he would 
contribute money on his own, but until you got to the DNC, 
based upon what I've reviewed, is the first time he became a 
solicitor of others. Would you agree with that observation?
    Mr. Huang. That I would not know, but he was--he was a 
donor at that time, already established record in front of DNC 
before I arrived at the DNC.
    Mr. LaTourette. Did you have conversations with him to 
encourage him to become not only--continue as a donor, but also 
be a solicitor of others?
    Mr. Huang. I did. I did encourage him to do that.
    Mr. LaTourette. After he got to the DNC?
    Mr. Huang. That is right, because I was trying to set a 
goal for $1 million. I need everybody's help. That's why I 
asked him.
    Mr. LaTourette. Thank you, Mr. Huang.
    Thank you, Mr. Chairman.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Thank you, Mr. Chairman.
    I have got 5 minutes now. I basically covered, I think, the 
essential important questions in this whole investigation, and 
I appreciate your answers to them, but I'd like to ask some 
clean-up questions if I might.
    Mr. Huang, there have been a lot of allegations about the 
relationship between the Lippo Group and Webster Hubbell. 
William Safire, for example, wrote in July of this year, ``we 
will never know if the $100,000 that the Riady family paid 
Hubbell was, in Thomas Jefferson's phrase, `hush money' to keep 
him from telling prosecutors about the part played by his Rose 
Law Firm `billing partner' Hillary Clinton in his sham deal.'' 
Mr. Huang, that is what Mr. Safire had to say. You had a role 
in the payment to Mr. Hubbell. Was the money paid by the Lippo 
Group to Mr. Hubbell hush money?
    Mr. Huang. To the best of my knowledge, it was not.
    Mr. Waxman. What do you know about the money Mr. Hubbell 
received from the Lippo Group?
    Mr. Huang. Basically was a help from a friend, a friend 
that's in trouble.
    Mr. Waxman. Why do you think Mr. Hubbell was paid this 
money?
    Mr. Huang. Mr. Riady was just trying to--based on the 
friendship, would just like to help him.
    Mr. Waxman. To your knowledge, was the President involved 
in any way in the decision of the Riadys to hire Mr. Hubbell?
    Mr. Huang. No, I don't know about that.
    Mr. Waxman. Mr. Huang, while working for the DNC, you 
played a role in organizing an event at the Hsi Lai Temple in 
California in April 1996. The event was attended by members of 
the local Asian American community, along with Vice President 
Gore. Since then there have been allegations that members of 
the temple made illegal contributions to the DNC. In fact, one 
woman, Maria Hsia, faces trial next year for conspiring with 
temple leaders to make conduit contributions.
    Now, let me ask you, Mr. Huang, did you know anything about 
these alleged conduit contributions?
    Mr. Huang. I did not know.
    Mr. Souder. Parliamentary inquiry. May I make a 
parliamentary--at that time, did Mr. Waxman----
    Mr. Burton. Gentleman may state his parliamentary inquiry.
    Mr. Souder. We have a lot of redacted material related to 
that particular fundraiser. Are we going to be allowed to ask 
questions about that? What is the standard going to be in these 
hearings?
    Mr. Burton. We can ask questions as far as the redacted 
material is concerned. That has been redacted by the Justice 
Department and the FBI. But questions can be asked of Mr. 
Huang.
    Mr. Souder. Continuing my parliamentary inquiry, then 
people should realize that when we get answers, that he may not 
be able to say certain things, and we may not be able to put 
certain things in the record that would clarify those questions 
because we are restricted as to what we can talk about.
    Mr. Burton. Yes, I think that's correct. I think you can 
stipulate that in your questions.
    Mr. Souder. I thank the chairman and the gentleman for 
yielding, and he should get the time. I apologize.
    Mr. Cobb. May I ask a question in response to Congressman 
Souder's question?
    Mr. Burton. Well, we normally don't allow counsel to ask 
questions.
    Mr. Cobb. I just want to make sure that my client 
understands the ground rules because he indicated that Mr. 
Huang may be under some restriction as to what he can answer, 
and I don't--that's not my understanding.
    Mr. Burton. There is no restriction whatsoever on questions 
that he may want to answer, and I apologize, but the counsels 
are not allowed to answer questions. That's a very strict rule.
    Mr. Waxman, we are going to give you additional time.
    Mr. Waxman. Thank you, Mr. Chairman.
    I appreciate Mr. Souder's point because I think the 
essential thing with redacted information is that if we had 
that information, we are not permitted to make it public, but 
we are certainly permitted to ask you questions about what you 
know about matters that we may have had some information about, 
and I asked you whether you knew anything about these alleged 
conduit informations at the Hsi Lai Temple.
    Mr. Huang. I do not, I do not know.
    Mr. Waxman. And did the Vice President know anything about 
these alleged conduit contributions, to your knowledge?
    Mr. Huang. I don't think so. I don't believe he did.
    Mr. Waxman. Were you at that event?
    Mr. Huang. I was at that event.
    Mr. Waxman. Was it a Democratic party event, or was it a 
community event?
    Mr. Huang. I have a misgiving in explaining those things. I 
don't know I should at this particular time or not. Originally, 
there was a fundraising event supposed to be in a different 
location, and there was supposed to be a community event in the 
Hsi Lai Temple, but later on the scheduling problems and 
everything was planned, so we had to combine everything 
together. So, so I don't know how to answer that. Basically 
it's a lot of community people coming in.
    Mr. Waxman. A lot of community people from the Asian 
American community were at this event?
    Mr. Huang. A lot of community people came into the event, 
yes.
    Mr. Waxman. And the Vice President was there, but were 
there other officerholders there?
    Mr. Huang. Some. I think one of the supervisors in L.A. 
County, Don Knabe, he was invited as a guest.
    Mr. Waxman. I think he's a Republican, the last time I 
checked.
    Mr. Huang. That's correct.
    Mr. Waxman. You have admitted soliciting contributions for 
Bill Clinton and the DNC in 1992 and 1993, but you also 
solicited and contributed money for a variety of national and 
local candidates, including Republican Senators such as Al 
D'Amato, Mitch McConnell and Larry Pressler. I'd like to ask 
you about those contributions. Did you contribute money to 
Mitch McConnell, the Republican Senator from Kentucky?
    Mr. Huang. Yes, I did.
    Mr. Waxman. How much money did you contribute?
    Mr. Huang. I don't know if it was $1,000 for myself and 
another thousand for my wife or not. It could be only $1,000 at 
this time.
    Mr. Waxman. Why did you make this contribution?
    Mr. Huang. The reasoning is at that particular moment we 
were trying to push the immigration bill. So we can, we can 
do--get help from the Democratic side, so we thought we need to 
get the help from the Republican side as well. I--so I think 
that was conscious decision from then in the PLC, Pacific 
Leadership Council's member, we need to do something for the 
Republican Senators as well.
    Mr. Waxman. And was that your reasoning in giving to 
Senator Pressler and Senator d'Amato as well?
    Mr. Huang. The other minor reason was Elaine Chou Lin was 
also introducing Senator--not Senator d'Amato--I am talking 
about Mitch McConnell again. She was also there.
    Mr. Waxman. She was. Was that his wife at the time?
    Mr. Huang. Not then. She was a very distinguished, you 
know, Chinese American community leader then. Now, she's his 
wife. For Mr. D'Amato was a--was a different reason. There were 
more reasons, because I receive a call from Mrs. Elaine Chou 
because I was a banker then, was in the banking business, and 
she was asking would I support Mr. D'Amato because Mr. D'Amato 
was coming in town, indicating Mr. D'Amato was in the Banking 
Committee. So with his recommendation I did support Mr. 
D'Amato.
    Mr. Waxman. I'm out of time, but these don't seem like 
they're significant to me. Do they have any significance to you 
and to the reason we are holding this hearing? Do you have 
anything to tell us about it that might show some significance 
in regard to these contributions?
    Mr. Huang. The only thing is that these funds were 
reimbursed later on.
    Mr. Waxman. They were reimbursed?
    Mr. Huang. They were reimbursed later on, into one lump sum 
group basically, whatever the contribution I made, and I 
totaled it up, and in a future date I got reimbursed. So this 
is a part of that.
    Mr. Waxman. So these are part of the conduit contributions?
    Mr. Huang. That is correct, sir.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Burton. Were the individuals like Senator McConnell 
ever made aware of that money being conduit contributions?
    Mr. Huang. No, sir.
    Mr. Burton. Well, we probably ought to tell them about it. 
They may want to send some of that back.
    Let me ask you about the temple. You had 11 nuns who have 
taken a vow of poverty that each gave $5,000. To whom did they 
give that money?
    Mr. Huang. I believe the check was made out to DNC, if I'm 
not mistaken.
    Mr. Burton. Who took the money? Did you take it?
    Mr. Huang. I did not.
    Mr. Burton. Who did?
    Mr. Huang. A stack of checks was handed to me on my way 
from Los Angeles to----
    Mr. Burton. So you had the stack of checks in your 
possession?
    Mr. Huang. No. Through--in an envelope through Maria Hsia.
    Mr. Burton. But you saw the checks?
    Mr. Huang. I did not really examine the checks.
    Mr. Burton. You didn't look at the checks?
    Mr. Huang. Until I get back to----
    Mr. Burton. When you came back to Washington, did you look 
at the checks?
    Mr. Huang. I did.
    Mr. Burton. Did you see that they came from the nuns?
    Mr. Huang. Yes, I knew they came from nuns, yes.
    Mr. Burton. Where did you think the nuns got that money?
    Mr. Huang. All right. Here's the understanding, Mr. 
Chairman. In our culture, in our society, some nuns or even 
individual, they made a lot of money. They may decide--feel 
their life is still empty, they gave the money.
    Mr. Burton. You thought the nuns actually gave the money 
themselves?
    Mr. Huang. No. They gave the money to the temple, for 
instance. They gave every property to the temple. Basically 
they're very wealthy themselves. There are quite a lot of 
people like that.
    Mr. Burton. I know, but where do you think the nuns got the 
$5,000 that they gave to the DNC?
    Mr. Huang. I was told some of these nuns were very wealthy, 
it was their money.
    Mr. Burton. So you believed that the 11 nuns gave the 
$5,000 themselves?
    Mr. Huang. Yes, I did.
    Mr. Burton. You had no doubt about that?
    Mr. Huang. I did not at the time.
    Mr. Burton. Let me go back to my original line of 
questioning. Why did Mr. Riady need to tell President Clinton 
in the back of the limousine that he was going to give him $1 
million for his campaign?
    Mr. Huang. I do not know.
    Mr. Burton. Who proposed that he ride in that limousine 
with President Clinton? Did you have anything to do with that?
    Mr. Huang. I had something to do with that.
    Mr. Burton. Why did you arrange for Mr. Riady to ride in 
the back of the limousine?
    Mr. Huang. Mr. Riady would like to have chance to have a 
little moment with Mr. Clinton.
    Mr. Burton. But you didn't know anything about the million 
dollars he was going to talk about?
    Mr. Huang. At that moment, no, in terms of how much amount 
he was trying to do.
    Mr. Burton. Were there other people that were involved in 
asking that Mr. Clinton ride in the limousine, like Melinda Yee 
or Bruce Lindsey or Governor Clinton or Rahm Emanuel or Melissa 
Moss?
    Mr. Huang. I would not know about that.
    Mr. Burton. But you arranged for him to ride in the back?
    Mr. Huang. The primary persons that I was contacting was 
Melinda Yee, because Melinda Yee at that time was working with 
the DNC.
    Mr. Burton. But she didn't say anything about anybody else 
asking her about meeting with Mr. Riady in the limousine?
    Mr. Huang. I did not recall there was any other persons 
were involved.
    Mr. Burton. When were you told that he was going to be 
taking that ride, was it just before, or was it some time 
before?
    Mr. Huang. It was before.
    Mr. Burton. Just recently or some time before? Was it a day 
before, a week before?
    Mr. Huang. Very close to the event, because they could not 
really find out what would be the format for them to meet.
    Mr. Burton. Who told you that?
    Mr. Huang. I don't know if that was Melinda Yee or not. I 
tend to think it was Melinda Yee.
    Mr. Burton. It wasn't Bruce Lindsey or Rahm Emanuel or 
Melissa Moss?
    Mr. Huang. No, I did not know Bruce Lindsey then.
    Mr. Burton. OK. When did James Riady conceive the plan, or 
do you know when he conceived the plan to give $1 million to 
the President's campaign?
    Mr. Huang. Probably a few weeks before that.
    Mr. Burton. But you didn't know about it until the 
limousine ride?
    Mr. Huang. No, I did not know about the limousine ride.
    Mr. Burton. Did you know about the million dollars that was 
going to be offered to him before the ride?
    Mr. Huang. I was trying to explain to him, Mr. Chairman, 
remember when I testified to you, originally tried to mention 
he was friends, we need to support him, and I was suggesting 
something like that much less amount, if we need to support, 
maybe we should support like $100,000. He was thinking about 
the concept if he really want to support, why not support a 
much larger amount.
    Mr. Burton. So you suggested to Mr. Riady a $100,000 
contribution before the limousine ride?
    Mr. Huang. That was way back, a few weeks back already.
    Mr. Burton. But it was well before then?
    Mr. Huang. Right.
    Mr. Burton. Who else besides Mr. Riady knew about this plan 
of giving a large amount of money to the President before the 
limousine ride? Did you convey that to anybody else besides Mr. 
Riady?
    Mr. Huang. Oh, no, no.
    Mr. Burton. You didn't tell anybody else that?
    Mr. Huang. No.
    Mr. Burton. How long did that limousine ride last?
    Mr. Huang. Probably about 5, no more than 10 minutes, if 
it's--the driver drive slowly. As I testified to you earlier, 
Mr. Chairman, the two locations was already in the same city, 
in San Gabriel.
    Mr. Burton. Who was in the car besides the President and 
Mr. Riady?
    Mr. Huang. I don't know because everything is under 
security. So they all went into the elevator, go all the way 
downstairs to the parking lot.
    Mr. Burton. So you don't know if Bruce Lindsey was in the 
car with him?
    Mr. Huang. I would not know, sir.
    Mr. Burton. Were any notes taken of the conversation that 
you know of between the President and Mr. Riady?
    Mr. Huang. I would not know, sir.
    Mr. Burton. Following the limousine ride, did you and Mr. 
Riady discuss what happened?
    Mr. Huang. Yes.
    Mr. Burton. And can you tell me what he told you?
    Mr. Huang. He said he mentioned to--I could not say the 
exactly words, but I can paraphrase as close as possible, sir. 
He said he would like to help Mr. Clinton for his campaign or 
fundraising, whatever, raise $1 million and Mr. Clinton's--Mr. 
Riady showed me the response of Mr. Clinton was very surprised 
suggestion.
    Mr. Burton. Did Mr. Riady indicate that he wanted anything 
in return for the million dollars?
    Mr. Huang. Oh, no, no, sir.
    Mr. Burton. He just wanted to give it out of the goodness 
of his heart?
    Mr. Huang. Right. Mr. Chairman, he likes to help friends. 
They knew each other.
    Mr. Burton. Well----
    Mr. Huang. And also----
    Mr. Burton [continuing]. I wish I knew some friends like 
that. Just give him $1 million for his campaign out of the 
goodness of his heart.
    Mr. Huang. To give a political contribution, certainly you 
will get some recognition on political fronts. Mr. Riady 
probably has multiple purposes in doing so, you know, for his 
business and also----
    Mr. Burton. So you believe he had some multiple purposes, 
but you don't know what they were at the time?
    Mr. Huang. I can speculate for you right now.
    Mr. Burton. You cannot speculate?
    Mr. Huang. I can.
    Mr. Burton. Can you speculate right now?
    Mr. Huang. For the status, as I mentioned already, you 
know, the standing, and also the benefit for the business, 
later on he would get recognition, and also can tell the people 
in Asia he knows Mr. Clinton, and all these things probably 
would be part of the benefits that I think he might be able to 
get.
    Mr. Burton. But you don't know whether or not he discussed 
anything in particular with Mr. Clinton?
    Mr. Huang. Oh, no, no, sir.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Mr. Huang, given the 5-minute process, we are--
keep doing 5 minutes, going to the next, so I am just going to 
review where you are with me. Where you are with me is that you 
made a statement that said you regretted your mistakes. You 
didn't call them illegal actions, so it is illegal actions plus 
mistakes. Where you are with me is basically that--the 
recognition that you worked for the Riadys from 1985 to July 
1994; you worked for Commerce from July 1994 to December 1995; 
and you worked at DNC, Democrat National Committee, from 
December 1995 to October/November 1996 where you raised money. 
And where you are with me is that afterwards your relationship 
continued with the Riadys. They gave you a $18,000 gift in 
1997, $20,000 gift in 1998, and they paid for your travel to 
Jakarta in 1999. So that's kind of where we are at.
    You then acknowledged that you regretted illegal acts that 
took place in 1992. I want you to spell out what those illegal 
acts were. What did you plead guilty to?
    Mr. Huang. I get reimbursement for my contributions. I knew 
some of my colleagues who were reimbursed, and I also--I forgot 
to mention to you in the last round, I just thought of that--
and also I gave some of my colleagues money for them to write 
checks, but that was a relative small amount.
    Mr. Shays. That was money that wasn't necessarily yours 
that you gave to others to write out?
    Mr. Huang. That is correct, yeah.
    Mr. Shays. That was money from whom?
    Mr. Huang. From me first, and later on I also reported that 
back to Mr. Riady.
    Mr. Shays. Not from you first. It was--OK, I am sorry, 
sorry. Then you were reimbursed later?
    Mr. Huang. That's correct.
    Mr. Shays. From whom?
    Mr. Huang. From Mr. Riady.
    Mr. Shays. What was the amount, total amount, of these 
transactions during the 1992 cycle?
    Mr. Huang. Directly related to me was--I can only go by the 
report that the government has investigated on that.
    Mr. Shays. No, you can go by what you did. You'd know what 
you did.
    Mr. Huang. I really don't have exact records right at this 
moment. Probably I can only think about is based on records, 
about $150,000 something.
    Mr. Shays. OK. Well, here is what we are going to do. 
Tomorrow when you come back, I want the real number, not the 
record number. I want to know all of those transactions, not 
the ones you necessarily pleaded guilty to. So that's the 
difference here. The difference is you pleaded guilty to 
something, you have an agreement, and that's what you were 
guilty of according to the court. But I want to know what you 
did that extended beyond that that you didn't plead guilty to, 
and you can provide that information to me tomorrow.
    Mr. Huang. OK, sir.
    Mr. Shays. Thank you. Thank you.
    Now, my understanding is that you didn't plead guilty to 
these actions, and you may not feel you are guilty, but these 
are mistakes as well. According to our information, you raised 
$3.4 million when you were at the DNC, and that so far $1.6 
million had to be returned. They had to be returned because 
they were illegal contributions.
    Mr. Huang. I still do not know the real reason behind this, 
behind the returning of that $1.6 million. I did not really 
have the privilege of knowing that. DNC did not really tell me 
about that. I don't know what the true reason on that, but at 
the time when I collect those money, I did not have any of 
those information, whether it was a decoy or not.
    Mr. Shays. It would be helpful for you to be prepared 
tomorrow when we go through that number, and we will go through 
each of the numbers and why they were returned. They were 
returned because they were illegal contributions. Believe me, 
the DNC or the RNC is not going to return money if they, in 
fact, were raised legally, and with all the ways you can get 
around the law and be legal, it's really significant when you 
have to return the money because you can raise money from 
corporations and labor unions and from foreign governments and 
have it not be illegal technically under the law if it's soft 
money. So this is money I would like to have you explain.
    Mr. Waxman. Would the gentleman yield to me?
    Mr. Shays. Yes, I'd be happy to.
    Mr. Waxman. I would just like to make a point. He may or 
may not know about the source or reason for the return of the 
contributions by the DNC, but as I understand it, in some cases 
the DNC returned money if they did not have sufficient 
information to know whether it was a legal contribution, as 
well as contributions they knew to be illegal.
    Mr. Shays. Maybe what you could do is you could come 
tomorrow and provide us the information on why they took the 
$1.6 million and gave it back because they wouldn't have done 
it unless they felt they needed to.
    Mr. Waxman. Thank you for giving me the homework 
assignment. I am simply informing you from the press reports 
that I have read that they gave some back and for reasons, but 
you can ask the DNC. I have no knowledge myself.
    Mr. Shays. Reclaiming my time, it is just since I yielded 
to you and you seem to have an opinion about it, maybe I think 
then you can share the information. The bottom line is the DNC, 
the DNC returned $1.6 million, and I'd like to know why they 
returned $1.6 million that you raised, and we will go through 
that, but I suspect that's also a mistake, and you did it while 
you were at the DNC. You raised this money while you were at 
the DNC, correct?
    Mr. Huang. Mr. Shays, I really did not know why we returned 
that now.
    Mr. Shays. Did you raise this money while you were at the 
DNC?
    Mr. Huang. That is correct.
    Mr. Shays. It is money returned, some of it illegal, and 
yet in response to Mr. Waxman's question, you said the DNC did 
not do anything illegal. You were an employee of the DNC. I 
want to make sure that you aren't splitting hairs here. If you 
raised money as an employee of the DNC, the DNC did something 
illegal.
    Mr. Huang. No. At the time when I raised the money, DNC did 
not know those things were illegal.
    Mr. Shays. Right. And your testimony is that you didn't 
know any of that money was illegal?
    Mr. Huang. That is correct, at the time when I raised it.
    Mr. Shays. Now--but it is also a fact that just because you 
didn't know it doesn't make it illegal, I mean, we don't have 
that convenience, and to be able to say, since I didn't know it 
was illegal, therefore it is not illegal--it was illegal, and I 
wonder if your answer to Mr. Waxman was as candid as it needed 
to be. Thank you.
    Mr. Waxman. Mr. Chairman, I want to seek my 5-minute round 
now.
    Mr. Burton. You had 5 minutes.
    Mr. Waxman. That was in the last round. If the gentleman 
would permit, because I would like to be able to respond to 
some of the points that were just made.
    Mr. Burton. The reason we have a limitation of 5 minutes, 
and we are just going right down the line, and we'll come back 
to you.
    Mr. Waxman. But point of order, Mr. Chairman. We are in the 
second 5-minute round. I have not had a chance to do that. We 
did the round, you concluded the first 5-minute round, and then 
we started the second 5-minute round, and we are going to Mr. 
Shays.
    Mr. Burton. We are going in order. Go ahead. Go ahead.
    Mr. Shays. May I be clear on one thing. I make an 
assumption that you said 30 minutes each. So, Mr. Burton, you 
used your 30 minutes, and you used your 30, so the same thing 
would apply to you, I guess, as well.
    Mr. Burton. It would, but we'll go ahead and let Mr. Waxman 
go now. Mr. Waxman.
    Mr. Waxman. Before you all applaud yourselves for being so 
generous, the rules are that when you have a 5-minute round, 
each Member gets 5 minutes, and it goes back and forth, and you 
will hear only from Republicans from here on out in asking 
questions.
    If you receive--if you solicit a contribution working for 
the DNC, and you don't know that it is illegal, and you receive 
it, and the DNC doesn't know it's illegal, that doesn't mean 
you committed any illegal act or the DNC committed any illegal 
act; is that correct?
    Mr. Huang. That's correct.
    Mr. Waxman. But Mr. Shays is correct, it is an illegal 
contribution because the person who gave it might have given it 
improperly or illegally.
    Mr. Huang. That's after the fact.
    Mr. Waxman. Is that your understanding? So I have heard--
and I don't know what the DNC records are, but I am sure this 
committee has asked for it, and so some way or another maybe we 
can get that information out--the DNC after the Presidential 
election in 1996 found out that some of the contributions that 
they had received thinking they were legal turned out to have 
been improperly made to them, and they gave some of them back. 
Is that your understanding as well?
    Mr. Huang. That is correct.
    Mr. Waxman. Now, I also understand that some of the 
contributions they received, they couldn't figure out whether 
they were legal or not, and because they didn't have sufficient 
information, it didn't make it illegal, they just--because all 
this turmoil was going on in the press, and the Republicans 
were screaming and yelling, they just returned the money to the 
contributor and for no particular reason, except the 
appearance. Is that your understanding?
    Mr. Huang. That is best I can understand, yes.
    Mr. Waxman. So before Mr. Shays gives you a homework 
assignment and gives me a homework assignment, he ought to ask 
the members of the staff of this committee that subpoenaed over 
a million documents from the White House and the DNC and 
everybody else in sight to give us this information, because I 
don't know if you are going to be able to answer questions you 
don't know anything about, and I am certainly not going to be 
able to answer questions that I don't know anything about.
    So I want to put that on the record, and have people 
understand, it is the same if Mr. Shays receives a campaign 
contribution or Mr. Burton or I, and we don't know that it came 
from somebody that was not entitled to give us a contribution. 
We try before we receive it or when we disclose it to make sure 
that it wasn't a corporate contribution, which would be 
illegal. If we find it is corporate, we return it. If it were a 
corporate contribution, it is not illegal unless the person 
making the contribution knew that it was illegal to give it.
    Sometimes people give a contribution, they write a check 
out of their corporate account, and then we draw their 
attention to the matter and return the contribution and say we 
can't accept it. If we knew it were corporate and accepted it 
and used it, then that's a different story.
    I wanted also, just because I have the time and a few 
minutes--Mr. Burton seemed shocked that anybody would give a 
million-dollar contribution out of the goodness of their heart. 
Well, people don't give contributions out of the goodness of 
their heart. Maybe Mr. Riady was doing it because he wanted to 
impress upon President Clinton that he was giving him or going 
to raise for him $1 million, and as you indicated, he had a 
multiplicity of motives; isn't that right?
    Mr. Huang. That's correct.
    Mr. Waxman. He wasn't doing it just out of the goodness of 
his heart. I am conjecturing, but he wanted the status of 
riding in the limo with the President?
    Mr. Huang. Right.
    Mr. Waxman. Being able to be someone who could call on the 
President as one of his major supporters and friends? There are 
a lot of friends people have in politics, and friendships 
defined under our crummy campaign finance system as people who 
give us money--they become our friends. They're the ones that 
get access to us. They are the ones that are meeting in the 
congressional offices all the time.
    The tobacco industry happens to be a very close friend of 
the Republican party. They gave $8.8 million to the RNC. Now, 
they got a tax break, which they couldn't hold onto when it 
became public, of $50 billion, and there is an organization 
called Amway. Their founder, Richard DeVos, and his wife gave 
$1 million to the RNC in April 1997. During the 1997 budget, 
Speaker Gingrich worked to secure tax breaks worth more than 
$200 million for Amway. Well, I don't know Mr. DeVos, but I 
know he's a very devoted Republican. He probably idealogically 
likes the Republicans and wants to help them succeed, but it 
doesn't mean that he wouldn't come and ask for some assistance 
from them.
    There is a Texas businessman by the name of Harold Simmons, 
and his family, they gave $1.5 million to Republican candidates 
since 1980. The 1997 budget gave them a $60 million tax break.
    Now, are these quid pro quos? They didn't maybe say, ``I 
will give you this money and you give me a tax break.'' They 
suddenly became friends of the people who were able to write 
the tax laws because they control the Congress. So, if 
anything, Mr. Shays ought to understand, because he said it 
over and over again, this campaign finance system is 
disgustingly corrupting because people are out raising money 
all the time, and the limits that we used to have, that try to 
bring some sense to the laws, are out the window. It used to be 
when we ran for Congress, we can get no more than $1,000 
contribution per person. Well, sure, but you can give $10,000 
of corporate money to the Republican or the Democratic party 
building organizations, and then they run the commercials.
    The American people know this system stinks. Some people 
have tried to change it like Mr. Shays, but if you go down the 
list of the members on this committee, I don't know, most of 
them probably voted against Mr. Shays' bill. I voted for it, 
and the purpose of this investigation should have been to 
change the campaign finance system. Instead, as I have said 
over and over and over again, and will continue to say, the 
purpose of this hearing, since it is only looking at campaign 
issues relating to Democrats, is to use the taxpayers' money, 
$7 million in the last Congress, to try to figure out ways to 
make the Democrats and President Clinton look bad while we all 
look bad when we have a campaign finance system that we have at 
the present time where people are out raising money. Even the 
chairman is raising money, I am raising money, everybody is 
raising money. And then our friends who give us money want to 
come in and talk to us about things of mutual interest.
    My time, I see, is up, but I felt that I really ought to 
throw this information out there. Let's not kid anybody about 
what's going on. We have got a system where everybody is out 
raising money, and it invites corruption on the part of people 
involved in it.
    Mr. Burton. I will take my 5 minutes real quickly here. As 
time goes on, we will get back into the Riadys and the Lippo 
Group ties to the PRC intelligence agencies. We know through 
Johnny Chung that $300,000 was given to him to be given to the 
President's reelection committee. He testified under oath about 
the head of the Peoples Liberation Army's intelligence agency, 
and Mr. Chung, Johnny Chung, knew that he was subject to 
perjury charges as well if he lied. So the People's Liberation 
Army intelligence agencies, during the time that espionage was 
taking place at Los Alamos and they were given nuclear secrets, 
were giving money to the President's reelection committee, and 
that's a fact.
    Now, Senator Lieberman said, and I said this earlier, 
quote, nonpublic evidence presented to the committee, that's 
intelligence information, demonstrates a continuing business-
intelligence relationship between the Riadys, the Lippo Group, 
and the PRC intelligence service. So once again you have got 
the People's Liberation Army in Communist China tied to the 
Riadys because of our intelligence services stating that. Now, 
we can't go into details, but that's fact.
    Now, Mr. Riady, a member of that group, gave $1 million to 
the President's campaign. He knew it was illegal. Now, that's 
different than somebody doing something even though it might be 
illegal here in the United States, because we are talking about 
a foreign government or a foreign entity that has ties to the 
People's Liberation Army and their intelligence apparatus 
giving $1 million, and we don't know what the reason for that 
was. So there is an awful lot of things here that we ought to 
be concerned about.
    In addition to that, let me talk about what we were talking 
about earlier and what Mr. Shays was talking about. You knew 
that you had given or raised money illegally, you have already 
admitted that.
    Mr. Huang. Right.
    Mr. Burton. When did you know that that money was illegally 
raised?
    Mr. Huang. It was starting from 1992.
    Mr. Burton. From 1992. So you went to the DNC as one of the 
financial fundraising leaders over there after you knew you had 
broken the law, and you had raised money illegally, you knew 
that. Now, after you went over there, you raised $3 million, 
and $1.6 million was returned because it was illegal. Now, you 
have sworn under oath here to tell us the truth, and you said 
that you didn't know that money was illegal, but you know it 
has to raise a question in some of our minds. You knew you were 
raising money illegally back in 1992, 1993 and 1994, but when 
you went to the DNC, you raised $3 million, $1.6 million of 
which was returned, and you are saying you did not know that 
was illegal money?
    Mr. Huang. That is correct. At the time when I raised the 
money, I did not think the money I raised was illegal, when I 
was in DNC.
    Mr. Burton. When you were at the DNC, you did not think it 
was illegal?
    Mr. Huang. Right.
    Mr. Burton. But the money you raised prior to that, back in 
1992 and 1993 and 1994, you knew that there was illegality 
involved then?
    Mr. Huang. That is correct.
    Mr. Burton. So when you went to the DNC and you raised this 
$3 million, you didn't continue the practice of raising the 
money illegally?
    Mr. Huang. No.
    Mr. Burton. And yet $1.6 million was returned because it 
was illegal?
    Mr. Huang. I did not know again, Mr. Chairman.
    Mr. Burton. I know, but the point is you can understand why 
we might be a little bit concerned because you raised money 
illegally knowing it, and then you come to the DNC and you 
raised $3 million plus, and $1.6 million is returned, just like 
the other was illegal money, and you are saying you didn't know 
that when you were at the DNC.
    Mr. Huang. The matter, it was illegal during 1992 and 1994, 
Mr. Chairman, was related to a very close group which is within 
the Lippo Group executive. It was not going outside that group, 
as you probably know from the--from the records, but when I was 
in the DNC, I did not really go into the practice. I didn't go 
to the--you know, the general public's basically and----
    Mr. Burton. I think you can see, Mr. Huang, how we have 
some concerns and maybe some doubts in the back of our mind, 
because if it was illegal here, and you were raising money and 
you knew it, and then you go to the DNC and you raise $3 
million, and $1.6 million is returned because it is illegal, 
you would think that you might have known that because you were 
doing it previously, it was a previous mode of operation.
    Let me go back to some other questions because I want to 
stay on this one theme that--or one issue that we were looking 
at regarding the limousine ride, because there are a lot of 
things that we are going to try to get to regarding that. Did 
anyone suggest that Mr. Riady should not give $1 million in 
contributions to the President's committee or to the DNC?
    Mr. Huang. You talking about raise $1 million?
    Mr. Burton. Yes.
    Mr. Huang. No.
    Mr. Burton. Did anyone say he should not do that, raising 
it from the Lippo?
    Mr. Huang. I have no knowledge on that.
    Mr. Burton. When he told you that, did you say anything to 
him about, hey, that might not be the right thing to do because 
it is money coming from a foreign corporation?
    Mr. Huang. I did not.
    Mr. Burton. You didn't say anything?
    Mr. Huang. I did not say anything.
    Mr. Burton. Are James Riady and President Clinton the only 
two people who can say what actually happened in that 
limousine? To your knowledge, was there anybody else in the 
limousine who could say what happened?
    Mr. Huang. The obvious two person, I don't know anyone else 
who might know.
    Mr. Burton. Maybe you can look at exhibit 24 in your book 
there. It is a chart of the Lippo-related contributions after 
Mr. Riady made his $1 million promise to President Clinton, if 
you can look at that. Were all of these people either Lippo 
employees or spouses of Lippo employees?
    [Exhibit 24 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.171
    
    [GRAPHIC] [TIFF OMITTED] T6496.172
    
    [GRAPHIC] [TIFF OMITTED] T6496.173
    
    [GRAPHIC] [TIFF OMITTED] T6496.174
    
    [GRAPHIC] [TIFF OMITTED] T6496.175
    
    [GRAPHIC] [TIFF OMITTED] T6496.176
    
    [GRAPHIC] [TIFF OMITTED] T6496.177
    
    [GRAPHIC] [TIFF OMITTED] T6496.178
    
    [GRAPHIC] [TIFF OMITTED] T6496.179
    
    [GRAPHIC] [TIFF OMITTED] T6496.180
    
    [GRAPHIC] [TIFF OMITTED] T6496.181
    
    [GRAPHIC] [TIFF OMITTED] T6496.182
    
    [GRAPHIC] [TIFF OMITTED] T6496.183
    
    [GRAPHIC] [TIFF OMITTED] T6496.184
    
    [GRAPHIC] [TIFF OMITTED] T6496.185
    
    [GRAPHIC] [TIFF OMITTED] T6496.186
    
    [GRAPHIC] [TIFF OMITTED] T6496.187
    
    [GRAPHIC] [TIFF OMITTED] T6496.188
    
    [GRAPHIC] [TIFF OMITTED] T6496.189
    
    [GRAPHIC] [TIFF OMITTED] T6496.190
    
    [GRAPHIC] [TIFF OMITTED] T6496.191
    
    [GRAPHIC] [TIFF OMITTED] T6496.192
    
    [GRAPHIC] [TIFF OMITTED] T6496.193
    
    [GRAPHIC] [TIFF OMITTED] T6496.194
    
    [GRAPHIC] [TIFF OMITTED] T6496.195
    
    [GRAPHIC] [TIFF OMITTED] T6496.196
    
    [GRAPHIC] [TIFF OMITTED] T6496.197
    
    [GRAPHIC] [TIFF OMITTED] T6496.198
    
    [GRAPHIC] [TIFF OMITTED] T6496.199
    
    [GRAPHIC] [TIFF OMITTED] T6496.200
    
    [GRAPHIC] [TIFF OMITTED] T6496.201
    
    [GRAPHIC] [TIFF OMITTED] T6496.202
    
    [GRAPHIC] [TIFF OMITTED] T6496.203
    
    Mr. Huang. Yes, Mr. Chairman.
    Mr. Burton. They were.
    Were all of these contributions made to fulfil Mr. Riady's 
promise to raise $1 million?
    Mr. Huang. That would be part of the plan, yes.
    Mr. Burton. Do you recall any more contributions toward Mr. 
Riady's goal that are not listed there? Do you recall any other 
contributions toward Mr. Riady's goal that are not listed in 
that list?
    Mr. Huang. Now, this list, Mr. Chairman, was during the 
1992, that period of time. Later on there was some more names.
    Mr. Burton. Those--that list is from 1992?
    Mr. Huang. 1992 and 1993, around that period of time. All 
these things were handled through the hands of--through my 
hands.
    Mr. Burton. Yes, I understand that.
    Were any other contributions that you know of given based 
upon the commitment that Mr. Riady made in addition to those? I 
mean, is that the only group of people that gave money?
    Mr. Huang. There will be more than that.
    Mr. Burton. There would be more than that?
    Mr. Huang. There would not be too many more on that.
    Mr. Burton. And you were the one that was in charge of 
soliciting this money for the Riady Group?
    Mr. Huang. That is correct.
    Mr. Burton. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    In my first part of questioning, Mr. Huang, I went over the 
contributions prior to the Presidential debate and leading up 
to the debate, and I think you testified that there were 
hundreds of thousands of dollars that, before that, went to the 
Riadys, and then you said you had also contributed tens of 
thousands at that point in 1992, and you also received conduit 
payments and also said your wife had participated. Actually you 
had performed that activity for your wife.
    What I'd like to do is to move now into the Asian Pacific 
Advisory Council [APAC], which was set up by Nora and Gene Lum 
in California, and its inaugural event was October 27, 1992, in 
Los Angeles. Did you attend that event?
    Mr. Huang. I did attend.
    Mr. Mica. In her deposition--and you see, you fit into the 
bigger picture of how things took place and who did what in 
this, and again, different parts of this scheme to funnel huge 
amounts of money into the Presidential campaign and other 
activities, some of it, again, from foreign sources. In her 
deposition, congressional deposition, Melinda Yee denied any 
involvement with APAC or APAC Vote apart from the fact that she 
said she attended the APAC Vote's award ceremony in 1992 along 
with Maria Haley as staffers from the Clinton-Gore campaign, 
although Melinda Yee was being paid by the DNC at that time. 
Are you aware of that, and she was at the event?
    Mr. Huang. Melinda Yee was at the event, yes.
    Mr. Mica. Yee said that APAC Vote was not affiliated with 
the DNC in any way. However, their--in their proffer to the 
committee, the Lums state they opened an office for an 
organization affiliated with DNC, and that exhibit 33 is dated 
October 12, 1992. It says, I authorize Nora Lum, and it's 
signed Melinda Yee, director of constituencies, and she's 
setting up that vote project. Is that correct?
    [Exhibit 33 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.204
    
    Mr. Huang. I have no knowledge about this arrangement.
    Mr. Mica. You have no knowledge, but she was at the 
organizational thing, and I'd point out for the committee that 
this is contrary to the information given in her deposition.
    Exhibit 32, just before that, is a letter to your wife, I 
believe, thanking her for a contribution to this Asian Pacific 
Advisory Council [APAC], and it's signed by Nora Lum. Is that 
correct?
    [Exhibit 32 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.205
    
    Mr. Huang. That is correct, yes.
    Mr. Mica. Further, documenting the involvement of Melinda 
Yee for the benefit of the committee and the record, I refer to 
exhibit 34, which shows extensive involvement in a memo from 
Melinda Yee to Nora Lum discussing all of the details relating 
to this fund. Do you have any knowledge of this particular memo 
dated September 2, 1992?
    [Exhibit 34 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.206
    
    Mr. Huang. Congressman Mica, I do not.
    Mr. Mica. You do not?
    Mr. Huang. No.
    Mr. Mica. Now, another document here is exhibit 35, which 
lists those who would be present on election night produced by 
Melinda Yee, and it does list--that's exhibit 35. It does list, 
I think, you on the second page and also the Riadys on the 
second page. Were you aware of Melinda Yee's involvement in 
preparing this list?
    [Exhibit 35 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.207
    
    [GRAPHIC] [TIFF OMITTED] T6496.208
    
    [GRAPHIC] [TIFF OMITTED] T6496.209
    
    Mr. Huang. I don't know she actually prepared the list or 
not, but I was in Little Rock that night, the election night.
    Mr. Mica. There is a--now you were involved in the DNC, and 
we have had testimony in deposition that--that there was no 
affiliation between APAC, this Asian Pacific Council, and the 
DNC. Did you know if there was a relationship between the two?
    Mr. Huang. At the time I did not know because I--the only 
knowledge I knew is that Ms. Lum--Gene Lum was trying to 
organize something and trying to drum up the vote, you know, 
from the Asian community and set up organization like that, and 
I did attend the kick-off function.
    Mr. Mica. And did you or the Lippo Group provide funds to 
this organization, and in what amount?
    Mr. Huang. I probably did make contribution to that event, 
maybe very small amount, either $1,500 or $2,000. That 
including my wife, though.
    Mr. Mica. Was any of that money reimbursed to you, or were 
those personal funds?
    Mr. Huang. I believe it did get reimbursed later on.
    Mr. Mica. You were reimbursed for that.
    Let me ask you, too, in closing, and my time is running 
out, we have records and the committee has exhibits of showing 
money from bank accounts during different periods. Some of 
that, I guess, was wire-transferred or entered into the Lippo 
accounts, and there was some cash that was brought into the 
United States and some cash you received. Did you receive all 
of your money through checks or through wire accounts, or did 
you also receive cash?
    Mr. Huang. In?
    Mr. Mica. For reimbursement.
    Mr. Huang. In some period of time in 1992, I did receive 
some in cash.
    Mr. Mica. In 19----
    Mr. Huang. 1992.
    Mr. Mica. Was that given--who gave you that cash?
    Mr. Huang. The cash is the--I believe in final terms as 
handed to me through other Lippo coworkers.
    Mr. Mica. I am sorry?
    Mr. Huang. Other Lippo coworker who was working closely 
with Mr. Riady.
    Mr. Mica. Did Mr. Riady give you any cash directly, or this 
was from Mr. Riady through one of his employees or workers?
    Mr. Huang. A few incidents. Some of the cases like that I 
just explained to you, but some--one case he gave me the cash 
or traveler's cash.
    Mr. Mica. In what amount?
    Mr. Huang. About $10,000 in aggregate.
    Mr. Mica. Thank you, Mr. Chairman. My time has expired.
    Mr. Burton. Mr. Souder.
    Mr. Souder. To briefly review, I am back to Webb Hubbell, 
that you saw him at a reception, that you have got a call from 
Doug Buford about raising--him needing help; you believed that 
the phone call from Webb Hubbell to LippoBank were probably to 
set up an appointment time. I have a couple of other questions. 
Did Joe Giroir also contact you about helping or making you 
aware of Webb Hubbell's situation?
    Mr. Huang. I couldn't quite recall Joe Giroir was involved 
in that, in that instance though.
    Mr. Souder. So Doug Buford was your main contact?
    Mr. Huang. Yes.
    Mr. Souder. He was with Bruce Lindsey's former law firm?
    Mr. Huang. That is correct.
    Mr. Souder. That--when did you first meet Webb Hubbell? Was 
that reception the first time?
    Mr. Huang. No. The first time I met Mr. Hubbell was in 
Inauguration in 1993, Inauguration night or whatever.
    Mr. Souder. You didn't know him when he was back in 
Arkansas?
    Mr. Huang. I knew of his name, but I don't believe I met 
him before.
    Mr. Souder. How would you have known of his name? Just for 
the record, you did Asian bank things related to the Worthen 
Bank out of Arkansas. He was with the Rose Law Firm at that 
time. Did you know him in any way regarding Arkansas business?
    Mr. Huang. No. My role was basically in Asia first time 
when I know joined the Lippo Group in Hong Kong, but Lippo at 
that time already took some major interest in Worthen Bank, and 
I believe Mr. Hubbell was working for the Rose Law Firm, and 
Rose Law Firm had some client--business client relationship 
with either Worthen or Mr. Riady at that time.
    Mr. Souder. So you at least knew his name, although you did 
not know him?
    Mr. Huang. No, that's correct.
    Mr. Souder. And did you know him very well? Would you call 
Mr. Hubbell a friend, or would you have called him a friend at 
the time they first contacted you in regard to money?
    Mr. Huang. Well, I considered him as a friend since he's a 
friend of my--my employer, yes.
    Mr. Souder. When did Mr.--now, you said that Mr. Riady, he 
may have, when he was at Rose Law Firm, been working with Mr. 
Riady way back in Arkansas. Do you know that for a fact?
    Mr. Huang. I don't know for a fact because I do recall 
there is conversation that Mr. Riady mentioned to me how he 
knew Mr. Webb Hubbell.
    Mr. Souder. Do you know what he would have done with Mr. 
Riady at that time?
    Mr. Huang. I didn't quite understand, Mr. Souder.
    Mr. Souder. In other words, what I am trying to establish 
is the--did Mr. Riady consider Mr. Hubbell personally a friend?
    Mr. Huang. That's correct. According to Mr. Riady to me, 
mentioned to me about that.
    Mr. Souder. Did he refer to him as a longtime friend, or do 
you think this was more--in other words, you said you 
considered Webb Hubbell a friend in kind of a second degree; he 
was a friend of your friend. Did Mr. Riady--business 
acquaintance, longtime friend. Or was this because--you made 
the statements that you believed that he did this, and you felt 
he should help with the funding, and you would help because of 
friendship. What did friendship mean?
    Mr. Huang. Because he's been knowing him for a long time.
    Mr. Souder. And you also said that you had discussed with 
Mr. Riady regarding Mr. Hubbell's pride. So the money was going 
for friendship and not for a job, or in other words, the job 
merely came because it was less embarrassing for Mr. Hubbell?
    Mr. Huang. To the latter was the answer for that, sir.
    Mr. Souder. You said earlier in response to a question that 
you weren't sure, but you wondered whether the two phone calls 
to Lippo Bank on May 19th may have been to set up an 
appointment with Mr. Riady. Did Mr. Riady ask you to set up an 
appointment for the June meeting?
    Mr. Huang. Yes, he did.
    Mr. Burton. So, to your knowledge, he hadn't set one up by 
phone because you were the person who actually executed the 
appointment?
    Mr. Huang. That is correct.
    Mr. Souder. Could there have been another meeting that we 
don't know about here between Mr. Riady and Mr. Hubbell?
    Mr. Huang. Prior to June?
    Mr. Souder. Yes.
    Mr. Huang. No. Mr. Riady at that time, I believe, was 
overseas, was not in the States.
    Mr. Souder. Do you believe that Mr. Riady had any contacts 
with Mr. Hubbell separate from any contacts through you?
    Mr. Huang. That I would not know, but I don't believe so, 
though.
    Mr. Souder. Because generally you were considered the point 
person in this?
    Mr. Huang. That is correct, sir.
    Mr. Souder. When Mr. Riady came in in June, he brought 
$32,000; $17,500 in traveler's checks, and, as I also recall 
from your other Justice Department testimony, his expenses were 
largely covered. So what did he do with the money he brought 
over?
    Mr. Huang. I would not know, I would not know because he 
had a whole family coming over in the summer, generally also in 
the wintertime for vacations. It is not unusual for him to 
bring that kind of sums of money with them.
    Mr. Souder. To your knowledge, none of that went to Mr. 
Hubbell?
    Mr. Huang. No, I don't think so, no, no.
    Mr. Souder. Could it have gone to Mr. Hubbell?
    Mr. Huang. I don't think so.
    Mr. Souder. Why don't you think so?
    Mr. Huang. I believe that would be their personal spending 
money. You know, there was arrangement for later on the 
$100,000. That was a very good sum of money already.
    Mr. Souder. Did you travel to Little Rock, AR, with Mr. 
Riady in June?
    Mr. Huang. I didn't quite recall, Mr. Souder, that there 
was a trip to Little Rock in June, though.
    Mr. Souder. What--originally Mr. Riady had appointments in 
Washington for the 21st and 22nd. It was then changed, and he 
was here longer, through the 21st and 25th, but he made a trip 
into Little Rock, but you don't recall whether you were 
involved with that. And could----
    Mr. Huang. Mr. Souder, I really don't have any 
recollection. He left town for Little Rock during that week, 
though. I don't know.
    Mr. Souder. Did you travel with Mr. Riady to Washington in 
June 1994?
    Mr. Huang. Yeah, yes.
    Mr. Souder. You didn't go to Little Rock from Washington, 
to your recollection?
    Mr. Huang. I personally, from my recollection, did not 
leave town.
    Mr. Souder. I may try to followup with that tomorrow with 
some more documentation.
    Do you know why Mr. Riady would have changed from staying 
the first 2 days to staying longer? Originally I think the 
Presidential gala fundraiser was the 22nd, but then additional 
meetings were set up. Is that why he lengthened his stay? Was 
that a surprise?
    Mr. Huang. I don't know if there's any reason why he 
changed that. He did not mention to me he was originally 
staying there for 2 weeks. He would be available for the whole 
week there, that's my knowledge.
    Mr. Souder. Did the Justice Department ask you anything 
about telephone calls between you and Mr. Riady that week?
    Mr. Huang. In June, the 20ths, in that week?
    Mr. Souder. June 21 to 25 did the Justice Department ask 
you about any telephone calls to Mr. Riady or visits to the 
White House with Mr. Riady?
    Mr. Huang. Yes. I was with him in Washington, DC. With Mr. 
Riady, I mean.
    Mr. Souder. I am going to ask more questions. What my 
question is, did the Justice Department in their depositions, 
because we don't see that, did they ask you about your visits 
to the White House with Mr. Riady, I believe there were several 
in the week of June 21 to 25, and the telephone calls made by 
you or Mr. Riady?
    Mr. Huang. I believe so, yeah.
    Mr. Souder. You believe the Justice Department asked you 
those questions.
    Mr. Huang. Right.
    Mr. Souder. Thank you.
    Mr. Burton. Ms. Norton, did you have any questions?
    Ms. Norton. No questions, Mr. Chairman.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Huang, I want to go back to what you and the chairman 
were talking about, and I know that it is going to, sadly, 
consume a lot of my 5 minutes, but the great thing about this 
hearing is I have got 3 more days to go back to the February 
19th fundraiser.
    I think where you got sideways with the chairman and what 
does trouble some Members on this side of the aisle, and I know 
you can clear it up, is that when I asked you before what you 
have pleaded guilty to is this conspiracy to defraud the United 
States of America based upon illegal campaign contributions. 
And the way that a conduit scheme works, and I want to make 
sure it is included in the record for people who are reading 
this later or someone who is watching it on the Internet or C-
SPAN, so that they understand, if I take $20 and I give it to 
Mr. Shays, and I say, give that $20 to Mr. Burton, the 
contribution came from me. It didn't come from Mr. Shays. I 
have used Mr. Shays as a strawman.
    What makes it illegal? Well, there are a couple things that 
make it illegal. But if I have already given Mr. Burton more 
money than the law allows me to give, then that makes it 
illegal because it is really my money. Or if I am a person that 
can't contribute or participate in giving money, that can be 
another example.
    And that is the crime of which you stand accused and 
convicted, is it not? You were donating money, others were 
donating money, and then they were being paid back, so the 
money wasn't really coming from you.
    Mr. Huang. Yes.
    Mr. LaTourette. Because the Riadys were paying for it. That 
is the crime to which you pled guilty, right?
    Mr. Huang. That is correct.
    Mr. LaTourette. OK. When the chairman was talking to you 
about the Vice President's fundraiser at the Buddhist temple, 
the same scheme was going on. The nuns, whether you know about 
it or not, the nuns who have taken a vow of poverty have 
written checks for $5,000, but you know today that it was not 
their money. They were straw people for other people that 
wanted to make a donation to the Vice President or the 
President's campaign. It's the same scheme, you grant me that, 
do you not?
    Mr. Huang. I read out of the newspaper. I do not know the 
details for a fact, though, sir.
    Mr. LaTourette. OK. Let's go to the fundraiser that we were 
talking about, then, on February 19th, because we now know 
today that at that fundraiser, through the help of Charlie 
Trie, there were a number of illegal contributions made using 
this same scheme. And in particular, I am talking about 
contributions made by Davidson Wu, Ernie Green, Lei Chu, Keshi 
Zhan, Manlin Foung, Joe Landon, Yue Chu, Ming Cheng, Charles 
Chiang, Zhengwei Cheng, Daihatsu International, and Jack Ho.
    As I understand it, you are testifying before this 
committee that you did not know when you accepted the money for 
this February 19th that they were illegal. But we now know 
today because of the investigation, because of the testimony of 
Charlie Trie, because of things that you know, because the DNC 
has turned the money back, that the same thing was happening; 
that is, that people were making donations to the campaign to 
reelect the President, but it wasn't their money. It was money 
that maybe it wasn't given to them up front, but somebody said 
to them, if you write a check of $12,500 to the Committee to 
Reelect President Clinton, I will give you the $12,500. It's 
the same scheme for which you stand convicted from 1992 to 
1994. Do you grant me that?
    Mr. Huang. That's right.
    Mr. LaTourette. Do you see that's what makes us suspicious 
over here? I don't know anybody that thinks that you're a bad 
guy. I think that what you have done is not so good. But the 
fact of the matter is you stand convicted of this setting up a 
strawman between you and a campaign. The nuns who took the vow 
of poverty are straw people between whoever really wants the 
President to have the money and the President's campaign and 
this list of people to a fundraiser that you were in charge of 
on February 19, 1996, have done the same thing.
    Now, it is--I mean, people say, well, what a coincidence. I 
mean, you seem to be around all this same sort of scandal. 
That's what makes it suspicious. I hope you understand, as we 
ask you questions, that's what raises our curiosity. I hope you 
understand that.
    We were talking about this fundraiser, and now I probably 
have about 30 seconds left, but did you at any time discuss 
with Mr. Riady, James Riady, the event that you were putting 
together on February 19, 1996, about their help?
    Mr. Huang. I might have mentioned to him I did an event for 
$1 million probably afterwards on some occasion I saw him or--I 
saw him, yes.
    Mr. LaTourette. But specifically requesting his help or 
anyone from the Lippo Group to help with that event prior to 
the event?
    Mr. Huang. Oh, no. No.
    Mr. LaTourette. OK. And what was your understanding, going 
back to Charlie Trie, that he did for a living in 1996? Do you 
know what he did for a living?
    Mr. Huang. I think he was in the trading business, I think.
    Mr. LaTourette. Right. And were you----
    Mr. Huang. Excuse me, or some real estate investments. The 
way I understood it, he might have made some money in the real 
estate investments in Asia, some very good sum of money. I 
might be wrong on that, though.
    Mr. LaTourette. Did you have a chance to meet his Macao-
based partner, a fellow by the name of Ng Lap Seng?
    Mr. Huang. During that fundraiser period of time, you know, 
on February 19th, around that period of time, I did meet with 
him.
    Mr. LaTourette. And what did you understand that Mr. Ng's 
business was? What business did you think that he was in?
    Mr. Huang. He was in the real estate investment or also in 
the trading business.
    Mr. LaTourette. Did you ever have a conversation or 
discussion with Mr. Ng as to whether or not he had a 
relationship with the Communist Chinese Government?
    Mr. Huang. No, I did not.
    Mr. LaTourette. Did Mr. Ng ever indicate to you that he had 
ever received money from the Chinese Government?
    Mr. Huang. No, sir.
    Mr. LaTourette. Before you went to work at the DNC, had you 
ever had any direct fundraising--done any direct fundraising 
work with Charlie Trie before you went to the DNC?
    Mr. Huang. No, sir. As I reported to you earlier, I--the 
first time I met with Charlie Trie was June or in the summer of 
1994.
    Mr. LaTourette. And when do you think that--again, the 
planning for this February 19th event, when do you think your 
best recollection was that you would have first discussed Mr. 
Trie participating or helping you with this February 19, 1996, 
fundraiser?
    Mr. Huang. It must have been probably in January 1996.
    Mr. LaTourette. And, in that vein, did you ask him to 
contribute to the event?
    Mr. Huang. No. I said I am doing something for the event, 
it is for Asian community, and I would like him to help me.
    Mr. LaTourette. And did that--did that in your mind mean 
that he should write a check and contribute to it, or did it 
mean that he should contribute to it and help you identify 
other donors to contribute to the event as well?
    Mr. Huang. I did not really discuss about it in detail. And 
basically as long as he can raise the money or he can give the 
money, it doesn't really make any difference to me at that 
time.
    Mr. LaTourette. But, again, the money, were you only 
looking for $12,500 from him, or were you looking to him to 
attract more money than that?
    Mr. Huang. Basically through his connections, you know, and 
he can raise more money for my event.
    Mr. LaTourette. OK. That is what--so you saw him not only 
as a person that could write a check but you were hoping he 
could get other people to write checks as well.
    Mr. Huang. Congressman, if it is soft money, the person can 
write a check for $100,000 himself. It is also OK.
    Mr. LaTourette. Right. And I am not trying to trick you 
even though I say that. I am just asking, were you saying 
``Charlie Trie, write me the biggest check you can write?'' Or 
when you said will you help with the event, were you hoping 
that he would not only make whatever, 12, 5, 100 whatever he 
wanted to write, but that he would get others to write checks 
to participate in the event? That's what I wanted to know. Did 
you see him as one guy to give money no matter what the amount 
was, or did you hope that he would be a guy to give money and 
get other people to give money?
    Mr. Huang. I did not really discuss one form or the other. 
Basically, I felt he was a source of help to me. Whatever the 
format it ends up is OK to me.
    Mr. LaTourette. I thank you, sir.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. I'll defer to others.
    Mr. Burton. Mr. Shays, did you have questions now or do you 
want to pass?
    Henry, do you want to----
    Mr. Waxman. I am entitled to 5 minutes, but I will defer it 
now and let others ask questions.
    Mr. Burton. We are getting to the point where we probably 
want to end around 6 o'clock.
    Mr. Waxman. I'm ready to end now.
    Mr. Burton. Well, then, you don't have any more questions?
    Mr. Waxman. We are coming back tomorrow.
    Mr. Burton. You don't have any more questions tonight, 
then?
    Mr. Waxman. I'm not giving up my 5-minute round, but I 
don't want to pursue it right now.
    Mr. Burton. Instead of having 5 minutes, you can have 10 
this time.
    Mr. Waxman. That's going to take unanimous consent.
    Mr. Burton. He's getting his extra 5 is what I'm saying.
    Mr. LaTourette. This is the next round, is my 
understanding. I am happy to participate in the next round as a 
courtesy to the other Members that may want to wait until 
later.
    Did you, as you were talking to Charlie Trie about this 
event on February 19, 1996, discuss or ever have a discussion 
with him as to what the rules for--in other words, you 
indicated to me in the other question that someone can give up 
to $100,000 in soft money and it's OK. Did you ever have a 
conversation with Charlie Trie as to what the rules were for 
donating to an event such as yours?
    Mr. Huang. Congressman, I did not. The reason is, he was 
quite established in front of the DNC. He wasn't the major 
donor. I would assume he knew about the rules.
    Mr. LaTourette. OK. Likewise, I guess I would receive the 
same answer if I asked you if you ever discussed the currency 
transaction reporting requirements with the DNC. I assume you 
did not do that either?
    Mr. Huang. I did not do that either.
    Mr. LaTourette. I want to talk to you next about a fellow 
by the name of Antonio Pan. Are you acquainted of this person?
    Mr. Huang. I knew of this person, yes.
    Mr. LaTourette. And I would ask you when you first knew of 
Antonio Pan and what you knew about his professional 
background.
    Mr. Huang. Antonio Pan used to work for Lippo Group. He had 
a background in the trading business. He might have joined the 
Lippo Group back in probably the beginning of the 1990's and 
later on the--he was not working for me or directly related to 
me. I mean, he was working with the projects in Asia is why he 
was joining the group. Probably he had some responsibility 
related to the real estate portion in China related to Lippo at 
that time.
    Mr. LaTourette. It's my understanding that at one time you 
worked for a subsidiary of Lippo called T-A-T-I, TATI. Is that 
the correct pronunciation?
    Mr. Huang. That is involving the real estate development in 
Fujian Province, far as I know.
    Mr. LaTourette. So that is a real estate concern of the 
Lippo Group?
    Mr. Huang. No, TATI was a specific project to develop a 
whole bay area and industrial complex out of the--Mr. Riady's, 
you know, hometown, original ancestor's town from China.
    Mr. LaTourette. So, again, the answer to my question is 
that this particular project, however, is located within the 
People's Republic of China?
    Mr. Huang. That is correct, sir.
    Mr. LaTourette. OK. And that is what Mr. Pan did at one 
point in time is head it up?
    Mr. Huang. As far as I know, yes.
    Mr. LaTourette. Are you aware at any time that Antonio Pan 
then came to work for Charlie Trie?
    Mr. Huang. Yes. For whatever reason, the project was 
under--the whole project in China was under the reducing scale. 
Maybe he was no longer working for the Lippo, and he left.
    Mr. LaTourette. And do you have any understanding of what 
he did for Mr. Trie, what work he did for him after he left and 
went into Mr. Trie's employment?
    Mr. Huang. The best I can recollect at this time is trying 
to--organizing things for Mr. Trie.
    Mr. LaTourette. Do what? I'm sorry.
    Mr. Huang. Organizing things for Mr. Trie.
    Mr. LaTourette. What sort of things?
    Mr. Huang. You know, the detail parts. You know, Mr. Trie, 
he basically--I don't know him very well. I have to speculate 
he was not really organizing. He is a businessman, run around, 
did not pay attention to the detail. He needed somebody to help 
him on that. More like a personal assistant.
    Mr. LaTourette. Like a right-hand man?
    Mr. Huang. That's right.
    Mr. LaTourette. I don't know if we can--I certainly don't 
want to catch the staff by surprise--but I would like to refer 
you to something known as 316. And exhibit 316 is a series of 
$1,000 travelers checks from the Bank of Central Asia in 
Jakarta.
    Mr. Trie, to our knowledge, used 200 of these travelers 
checks for a variety of purposes in 1996, including the 
reimbursement of political contributions made by Manlin Foung, 
Joseph Landon, and Jack Ho.
    I think when I was talking to you in my last 5 minutes, I 
was indicating that some of the people that Mr. Trie solicited 
for the event that you were in charge of on February 19th were 
determined to be illegal, and they have been determined to be 
conduit contributions wherein they made the contribution, but 
then somebody gave them the money to cover the cost.
    Specifically, exhibit 316 represents $1,000 travelers 
checks that were used by Mr. Trie to pay back these three 
individuals for contributions that they made to the February 
19th event that you were in charge of for the Democratic 
National Committee. And I would ask you, prior to them, you are 
now looking at them and we're looking at them on the screen, 
are you familiar at all with these travelers checks?
    [Exhibit 316 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.210
    
    [GRAPHIC] [TIFF OMITTED] T6496.211
    
    [GRAPHIC] [TIFF OMITTED] T6496.212
    
    [GRAPHIC] [TIFF OMITTED] T6496.213
    
    [GRAPHIC] [TIFF OMITTED] T6496.214
    
    [GRAPHIC] [TIFF OMITTED] T6496.215
    
    [GRAPHIC] [TIFF OMITTED] T6496.216
    
    [GRAPHIC] [TIFF OMITTED] T6496.217
    
    [GRAPHIC] [TIFF OMITTED] T6496.218
    
    [GRAPHIC] [TIFF OMITTED] T6496.219
    
    [GRAPHIC] [TIFF OMITTED] T6496.220
    
    [GRAPHIC] [TIFF OMITTED] T6496.221
    
    [GRAPHIC] [TIFF OMITTED] T6496.222
    
    [GRAPHIC] [TIFF OMITTED] T6496.223
    
    [GRAPHIC] [TIFF OMITTED] T6496.224
    
    [GRAPHIC] [TIFF OMITTED] T6496.225
    
    [GRAPHIC] [TIFF OMITTED] T6496.226
    
    [GRAPHIC] [TIFF OMITTED] T6496.227
    
    [GRAPHIC] [TIFF OMITTED] T6496.228
    
    [GRAPHIC] [TIFF OMITTED] T6496.229
    
    [GRAPHIC] [TIFF OMITTED] T6496.230
    
    [GRAPHIC] [TIFF OMITTED] T6496.231
    
    [GRAPHIC] [TIFF OMITTED] T6496.232
    
    [GRAPHIC] [TIFF OMITTED] T6496.233
    
    [GRAPHIC] [TIFF OMITTED] T6496.234
    
    [GRAPHIC] [TIFF OMITTED] T6496.235
    
    [GRAPHIC] [TIFF OMITTED] T6496.236
    
    [GRAPHIC] [TIFF OMITTED] T6496.237
    
    [GRAPHIC] [TIFF OMITTED] T6496.238
    
    [GRAPHIC] [TIFF OMITTED] T6496.239
    
    [GRAPHIC] [TIFF OMITTED] T6496.240
    
    [GRAPHIC] [TIFF OMITTED] T6496.241
    
    [GRAPHIC] [TIFF OMITTED] T6496.242
    
    [GRAPHIC] [TIFF OMITTED] T6496.243
    
    [GRAPHIC] [TIFF OMITTED] T6496.244
    
    Mr. Huang. No, sir.
    Mr. LaTourette. Did you ever discuss the idea of travelers 
checks with Charlie Trie relative to this event?
    Mr. Huang. No, sir.
    Mr. LaTourette. Did you ever discuss the travelers checks 
with Antonio Pan?
    Mr. Huang. No, sir.
    Mr. LaTourette. Do you have any knowledge as to the source 
of these particular travelers checks?
    Mr. Huang. No, sir.
    Mr. LaTourette. So, specifically, you have no idea as to 
whether or not Mr. Trie received these from the Lippo Group or 
the Riady family?
    Mr. Huang. That is correct.
    Mr. LaTourette. Are you able to make out the signature on 
the travelers check?
    Mr. Huang. On exhibit 316?
    Mr. LaTourette. Yes, sir.
    Mr. Huang. I don't know the signature appearing. There's a 
last name called Ho, H-O.
    Mr. LaTourette. OK. And during the time that you were 
debriefed by the Justice Department, did they ever inquire or 
ask you about these travelers checks and their connection with 
the February 19, 1996, fundraiser?
    Mr. Huang. No. No, sir. No.
    Mr. LaTourette. At any time during your acquaintance with 
Charlie Trie, did you ever discuss with him any travel that he 
might have made to Jakarta?
    Mr. Huang. He had some business contact in Jakarta.
    Mr. LaTourette. And was that the subject of conversations 
that you and he might have had?
    Mr. Huang. Oh, he was talking about business contacts, 
businessmen he knew in Indonesia.
    Mr. LaTourette. Specifically, are you aware of any 
relationship between the Trie family and the Riady family?
    Mr. Huang. No. He had--to the best of my knowledge, he had 
no relationship with the Riady family.
    Mr. LaTourette. I thank you. And I thank Mr. Burton. I 
yield back my few seconds.
    Mr. Burton. Would the gentleman yield to me for one 
question?
    Mr. LaTourette. Sure. I would be happy to.
    Mr. Burton. You indicated that Antonio Pan worked for the 
Riadys and that the Riadys--there was no connection between the 
Riady family and Charlie Trie. So how did Antonio Pan come to 
work for Charlie Trie if there was no connection? Who 
introduced them to each other? I mean, how did Antonio Pan 
start working for Charlie Trie if he didn't know him and if the 
only connection Antonio Pan had with Charlie Trie would have 
been through the Riadys?
    Mr. Huang. The best I can know, Mr. Chairman, there was 
another person who used to be Antonio Pan's boss, happens to be 
a--I don't know if it's a real brother-in-law to Charlie Trie 
or not. So that is how the connection between them to know each 
other, I believe.
    Mr. Burton. Well, that's quite a coincidence.
    Mr. Waxman.
    Mr. Waxman. I'll pass.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman.
    Mr. Huang, I want to be clear on how you define your terms 
a bit just so I make sure that we are both talking the same way 
here. And I want to clarify some points.
    You pleaded guilty to conspiracy in terms of certain 
fundraising activities, and basically you were the conduit for 
other people's money, whether they gave it to you at first and 
you paid it or whether you paid it and then they paid you. 
Bottom line, that was a major part. And you were also aware of 
other people who were doing that as well, and that was part of 
the conspiracy. Others were being a conduit for funds; is that 
correct?
    Mr. Huang. That is correct, sir.
    Mr. Shays. OK. Now, I'm not clear as to the amount in which 
you pleaded guilty to. How much of this kind of activity--what 
did it add up to in dollars?
    [Discussion off the record.]
    Mr. Huang. Sorry about that, sir.
    Mr. Shays. I'm not in a rush. We have time. I'd rather just 
get an accurate answer.
    Mr. Huang. During the--Congressman, sorry for the delay.
    Mr. Shays. You don't need to apologize.
    Mr. Huang. Right. During the plea agreement, let me explain 
that the argument--the government argued for--the amount was 
$150 some thousand. And in addition to that----
    Mr. Shays. $150 or----
    Mr. Huang. $150 some thousand, $156,000 to be exact. But in 
addition to that, because of the nature of the conduit of the 
money, it probably involved another $700,000 or $800,000 all 
together.
    Mr. Shays. OK. Now, let me explore the $700,000 to 
$800,000. Is this money that you did that you did not have to 
plead guilty to? In other words, you were the conduit for 
$700,000 to $800,000 more, but it wasn't part of the specific 
charge?
    Mr. Huang. I need a little time on that.
    Mr. Burton. Can I interrupt for just 1 second? We 
understand that the lawyers' conversations with their client 
may be going across the television airways so you should be--if 
you want to keep it confidential between you and your client, I 
am just telling you this because you have that privilege.
    Mr. Shays. And I would also like to say I'm sure the 
chairman will give me the time requisite. There is no problem 
with you taking as much time as we need to answer these 
questions. Because this is not just an hour's hearings. We have 
time, and we want to be thoughtful.
    Mr. Cobb. I just want the Congressman to understand there 
is a couple of legal issues that make answering this difficult, 
but I think we are almost there.
    Mr. Cobb. Congressman Shays, if I might.
    Mr. Burton. You have to forgive me, only your client can 
respond. That is the rules of the committee. But if you want to 
have him respond.
    Mr. Cobb. He doesn't know the answer. That is why I was 
trying to be helpful and explain the legal point.
    Mr. Burton. What was the question, Mr. Shays?
    Mr. Shays. The question is, Mr. Huang is acknowledging that 
he has $150,000 that bears directly with conspiracy and 
laundering the money. And I asked him is that the full extent 
of it. And then I was hearing a number of $700,000 to $800,000, 
and we need that defined. I don't know, if he can't, if Mr. 
Huang can't define it, then I think we need the lawyer to, with 
unanimous consent----
    Mr. Burton. Is there a unanimous consent to allow the 
counsel to----
    Mr. Waxman. I have no objection.
    Mr. Burton. OK. Go ahead.
    Mr. Cobb. My only purpose is to be responsive, Congressman. 
Under the law that governs what a prosecutor can do, a 
prosecutor under these circumstances with a cooperating 
witness, particularly one that has cooperated this extensively, 
can only argue at sentencing for the amount that he could prove 
independent of the cooperation. So the independent proof was 
for $156,000. Mr. Huang advised him of another approximately 
$800,000. I hope that clarifies this.
    Mr. Shays. That clarifies it.
    Would you define that other $700,000 to $800,000, what kind 
of contributions they were, and were they the same type of 
contributions?
    Mr. Huang. Yes. During that period of time, involving all 
the executives of the Lippo Group.
    Mr. Shays. So the Lippo Group, various people contributed, 
and we can assume that they were paid back, and that wasn't 
actually their money; is that correct?
    Mr. Huang. That is how I would answer the question, 
although I did not directly go to verify whether you received 
the money from somebody or not.
    Mr. Shays. It was your sense, and that is why it is 
responsive, it was your sense that that was in fact the case, 
that this ultimately wasn't their money.
    Mr. Huang. Yes, sir. That's correct.
    Mr. Shays. So that is a sizable amount of money. And let me 
ask you this before I--just learn a little more about that. Is 
there any other money in addition to this--since you have 
immunity--during any time from 1990 to the present that you 
were a conduit for or knew others were conduits for, that you 
had some involvement in?
    Mr. Huang. I cannot quite recall at this particular moment, 
sir. I don't think so.
    Mr. Shays. Do I have a few more minutes?
    Mr. Burton. Because of the legal counseling, if there is no 
objection, we will let you have another minute.
    Mr. Shays. You made it clear to me that--it is not clear to 
me. But you said that when you were at the Commerce Department, 
you had interactions with--you did not have interactions with 
the Riadys; is that correct, you did not?
    Mr. Huang. I should not say that, because sometimes they 
visit towns, and as a friend, I just say hello.
    Mr. Shays. So is it your testimony under oath that it was 
purely and totally personal and it did not relate to any of 
their business activities?
    Mr. Huang. That is basically correct, sir.
    Mr. Shays. But then you said, then you----
    Mr. Huang. I'm sorry.
    Mr. Shays. But then you said you had business dealings 
with--business associates of the Riadys, partners of the 
Riadys, is that correct, while you were at Commerce? You 
mentioned--excuse me, while you were at the DNC. You didn't say 
that, but let me ask you this: While you were at Commerce, 
you--your only dealings--it is your testimony under oath your 
only dealings with the Riadys was personal in nature and did 
not involve any business activities. You did not try to help 
them financially, you did not try to help them in their 
business dealings while you worked at Commerce; is that your 
testimony?
    Mr. Huang. The only exception, Mr. Shays, was I introduced 
Mr. Joe Gerard to my senior in the Commerce Department, David 
Rothcopf, basically just introduced him, that's all, in the 
early--probably around August 1994 when I just joined the 
Commerce Department.
    Mr. Shays. Thank you, Mr. Burton. I will continue when my 
time is returned. Thank you.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. I'll pass.
    Mr. Burton. Mr. Souder.
    Mr. Souder. Mr. Chairman, I would like unanimous consent to 
put into the record--Mr. Waxman had referred to comments by 
William Safire. I think it is only fair that the full article 
be inserted into the record and also a Washington Post article 
on the Hubbell meetings.
    Mr. Burton. Without objection, so ordered.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.245
    
    [GRAPHIC] [TIFF OMITTED] T6496.246
    
    [GRAPHIC] [TIFF OMITTED] T6496.247
    
    [GRAPHIC] [TIFF OMITTED] T6496.248
    
    [GRAPHIC] [TIFF OMITTED] T6496.249
    
    [GRAPHIC] [TIFF OMITTED] T6496.250
    
    [GRAPHIC] [TIFF OMITTED] T6496.251
    
    [GRAPHIC] [TIFF OMITTED] T6496.252
    
    [GRAPHIC] [TIFF OMITTED] T6496.253
    
    Mr. Souder. I wanted to come back to my Hubbell questioning 
again. A couple of things to clarify. My last question to you 
was, did the Justice Department ask you about visits to the 
White House by you and James Riady during the week of June 21st 
to 25th? You and Mr. Riady, according to records, visited the 
White House six times. And your answer to me was that the 
Justice Department had asked you questions.
    Mr. Huang. Yes.
    Mr. Souder. What did you tell them about the visits? The 
reason I ask you that is that the 302s that we have show no 
questions from the Justice Department. It could be redacted 
materials, and that is why I would like to know what they were 
asking you about.
    Mr. Huang. If I can recall correctly, the question was 
relating to my--the activities when I was--we were in 
Washington, DC, during that week. I might have it confused that 
that was the independent counsel's office.
    Mr. Souder. OK. So let me then ask the question a different 
way. In any of those six visits to the White House that week, 
in response to a question from Mr. Waxman, you said Mr. Riady 
had a multiplicity of interests. Did he talk about any of those 
multiplicity of interests in any of those visits to the White 
House when you were present?
    Mr. Huang. Not that I know of, sir.
    Mr. Souder. So you went to the White House six times, 
mainly for social and pictures and so on; or were there any 
policy discussions?
    Mr. Huang. Sorry for the delay, Mr. Souder. The activities 
over the years are not always five to six times to see the 
President. Also there was some activity meeting with some of 
the acquaintances, you know, the other people. Some of the 
meetings, I did not even attend myself.
    Mr. Souder. OK. I'll have further questions about that 
probably into tomorrow morning. The problem with this is we are 
having to do deposition-type things. Many of these questions 
may not yield much information because we didn't get any pre-
screening, so I am doing the best I can to get to some points, 
but I have some followups with that.
    Mr. Huang. Mr. Souder, before you followup with that, I can 
tell you there is one event he did meet with the President, 
which is on the radio address on Saturday I believe on that 
week.
    Mr. Souder. And in the--I'm going to followup. I want to 
come back to June, to early June. I mentioned about you going 
to Little Rock around--with Mr. Riady earlier than that. If we 
could put this--we have redacted the numbers and so on. But 
your American Express, I believe it is, or it is a credit card, 
I don't know what it is, shows that you rented a car and were 
in Little Rock the 19th through the 21st. But you don't 
remember anything about that visit being in Little Rock? It 
does not show----
    Mr. Cobb. Is there an exhibit number?
    Mr. Souder. No, this was not an exhibit. What happened, I 
had a question that asked about you being in Little Rock. Then 
I asked staff, why would you have thought he was in Little 
Rock? And so they said, well, from the expense records--which 
was not an exhibit. I was just trying to establish whether you 
remember being in Little Rock that time.
    Mr. Cobb. We can't see it from the monitors.
    Mr. Burton. Can we make a copy and give it to Mr. Huang?
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.254
    
    Mr. Huang. Can you give me a time, and maybe I can try to 
help out.
    Mr. Souder. The car rental shows 19th through the 21st. And 
Mr. Riady is coming--you head back to Washington the same time 
Mr. Riady does. That also shows plane tickets from Mr. Riady 
coming in from New Orleans. And since you and he arrived at the 
same time in Washington, the question is, since you got a 
rental car, were you together in that period?
    Mr. Huang. No. He came from different direction. I don't 
think he was in Little Rock. This expense report--no, this 
American Express charges is my name. Definitely I was in Little 
Rock. But I didn't believe Mr. Riady was in Little Rock at that 
time.
    Mr. Souder. When you were in Little Rock at that time? Did 
you do anything at that point with Webb Hubbell's funds?
    Mr. Huang. I don't remember exactly what I do, but I do 
remember I did not meet with Mr. Webb Hubbell. In Little Rock 
I'm talking about.
    Mr. Souder. And you don't recall being with Mr. Riady until 
you got to Washington?
    Mr. Huang. That is correct, sir.
    Mr. Souder. OK. In the period in Washington, in exhibit 97, 
if exhibit 97 could go up on the screen, it says that John 
Huang called at 9:10, wants to arrange a meeting with you 
tomorrow with Mark Middleton. Why did you call him for a 
meeting?
    [Exhibit 97 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.255
    
    Mr. Huang. Oh, Mark Middleton was an acquaintance of myself 
and also with Mr. Riady. His age group is closer to ours and 
also his position is a little junior, so we normally work with 
him. We go to see him also first.
    Mr. Burton. See him about what, just do a social call? Or I 
mean, presumably Mr. Riady wants to come in and wants to talk 
about business, too. I mean was it about Webb Hubbell, was it 
about other interests of Mr. Riady?
    Mr. Huang. No, for Mr. Riady's discussion, I do not know. I 
do remember there was a luncheon in the White House that Mr. 
Riady had with Mark Middleton which I did not have privilege to 
attend. I was sitting in the reception room waiting for them.
    Mr. Souder. Do you know where you were when you called Mark 
Middleton that day?
    Mr. Huang. I would assume it was probably in the hotel, in 
Hay Adams probably.
    Mr. Souder. The reason I wonder is, your rental car is in 
Little Rock that day you called Mark Middleton. And the reason, 
when you try to put this together--and what is confusing, and 
we don't know and that is why I'm asking you the questions--but 
it appears you're in Little Rock, you call for a meeting with 
Mark Middleton, you are not with Mr. Riady, so you must be 
doing some sort of scheduling for Mr. Riady. And the logical 
question is, since you're in Little Rock, does this have 
anything to do with Mr. Hubbell? Because you just had a meeting 
with Mr. Hubbell. You are trying to set up meetings with Mr. 
Hubbell. It is a time you are talking to Mr. Riady about the 
money with Mr. Hubbell. So we are trying to establish here what 
points of contact were made. And could this have been partly as 
part of the effort to find out what Mr. Hubbell needs?
    Mr. Huang. That--to answer that question, it is not. At 
this moment, I could not really trace my memory what I was 
doing in Little Rock during that period of time. I was trying 
to arrange the various schedule for Mr. Riady when he comes to 
town during that week. Maybe one of the meetings was for Mr. 
Riady to meet with Mark Middleton and along with the others.
    Mr. Souder. What other reason would you have to be in 
Little Rock at that time?
    Mr. Huang. I cannot.
    Mr. Souder. Did you go to Little Rock very often?
    Mr. Huang. Occasionally, I do. I do.
    Mr. Souder. Did you have business interests there?
    Mr. Huang. I did not personally have any business interests 
over there.
    Mr. Souder. Relatives?
    Mr. Huang. No, no.
    Mr. Souder. I mean, not to say anything negative about 
Little Rock, but it is not a place that you probably went to 
vacation.
    Mr. Huang. It was not a vacation.
    Mr. Souder. Arkansas is, but not Little Rock. It seems like 
an odd place and odd time to suddenly pop in there in between 
the meetings. Mr. Riady is in Washington the 13th, he's in 
Washington the 21st. You don't have business interests, you 
don't have relatives, and all of a sudden you're going into 
Little Rock.
    Mr. Huang. You know, I have to speculate. I don't know at 
this moment. Whether I was seeing Doug Buford or whoever, Joe 
Giroir at that time, I don't know.
    Mr. Souder. Of course if it was Doug Buford, he had called 
you about that money. I know you're speculating. If you can 
think about that a little bit tonight.
    Mr. Huang. Sure. Let me spend some efforts in doing that, 
sir, please.
    Mr. Souder. I yield back.
    Mr. Burton. We're about to wrap up because I said we would 
be out of here at 6 o'clock. Mr. Waxman has passed on his 
round, and so I will be the last questioner and then we will 
start off tomorrow morning at 10 o'clock. We will try to do it 
as sharply as possible.
    Let me ask just a few questions here, Mr. Huang.
    Mr. Huang. Yes, sir.
    Mr. Burton. Exhibit 25, if you can look at that real 
quickly, it is a memo of October 20, 1993, from Mary Leslie to 
Mark Middleton, and it is regarding early California business 
support for President Clinton. And the memo says, ``Lippo gave 
one of the most significant single contributions throughout the 
campaign.''
    Do you know what Ms. Leslie was talking about?
    [Exhibit 25 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.256
    
    [GRAPHIC] [TIFF OMITTED] T6496.257
    
    [GRAPHIC] [TIFF OMITTED] T6496.258
    
    Mr. Huang. I'm still trying to find exhibit 25, sir.
    Mr. Burton. It's exhibit No. 25. It's at the very end of 
the tabbed section.
    She says Lippo gave one of the most significant 
contributions throughout the campaign. Do you know what she's 
talking about? She wrote that memo to Mark Middleton.
    Mr. Huang. I don't exactly know what she's talking about. I 
can think because--chairman, you referred me to check with the 
previous exhibits, there is a list of the Lippo executives 
making all the contributions during 1992, that period of time. 
Maybe they are talking about that.
    Mr. Burton. What I am trying to find out is was Ms. Leslie 
or Mark Middleton aware that this money was being laundered 
through conduits?
    Mr. Huang. They did not know.
    Mr. Burton. They did not know.
    Mr. Huang. They did not know.
    Mr. Burton. You're absolutely certain about that?
    Mr. Huang. I'm absolutely certain.
    Mr. Burton. Let me ask you about your situation. What was 
your salary at the LippoBank?
    Mr. Huang. It was about--during that period of time, on the 
average, probably around 120. That is without bonus.
    Mr. Burton. Exhibit No. 4 is a journal entry for Hip Hing 
Holdings for June 1994. Are these checks to you, which are 
around $2,200 twice a month, was that your salary checks from 
the LippoBank?
    [Exhibit 4 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.259
    
    Mr. Huang. Yes. At that point, with Hip Hing Holdings, that 
was my net, after-tax salary at that time. That gross is around 
$75,000. As I also reported, I also received a separate income 
around $2,500 a month separately. That went into my Hong Kong, 
Chinese bank accounts.
    Mr. Burton. What was your bonus for 1992 from Lippo? Do you 
recall?
    Mr. Huang. The reporting on taxes, I think it was $100,000 
at that time.
    Mr. Burton. You received a $100,000 bonus.
    Mr. Huang. That is including that, you know, reimbursement 
for covering the campaign contributions.
    Mr. Burton. So they did give you reimbursement for the 
campaign contributions?
    Mr. Huang. Within that $100,000.
    Mr. Burton. So that was the money that you and your wife 
gave to the DNC and the DSCC?
    Mr. Huang. That's correct.
    Mr. Burton. Now what was your bonus for 1993, and did that 
include also money like that?
    Mr. Huang. That is correct.
    Mr. Burton. OK. Well, then we don't need to have the exact 
amount.
    Exhibit No. 5 is a June 27, 1994, letter to Roy Tirtadji, 
Managing Director of Lippo Group, to John Huang. Does this 
accurately state the amount of your severance package from 
Lippo?
    [Exhibit 5 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.260
    
    Mr. Huang. That is correct, sir.
    Mr. Burton. Exhibit 6 is a Hip Hing Holdings check to you 
for $284,798 on July 15th. Is this the severance check you 
received from Lippo in July 1994?
    [Exhibit 6 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.261
    
    Mr. Huang. That is the net amount after the exhibit 5, the 
figure you were talking about, Mr. Chairman.
    Mr. Burton. So you had both of those?
    Mr. Huang. Not both, just one.
    Mr. Burton. Just the one. OK.
    Mr. Huang. Because this is net after taxes.
    Mr. Burton. OK. Exhibit No. 7 is a September 1994 ledger 
entry from Hip Hing Holdings. What does that amount listed 
``tie bonus to gross'' represent?
    [Exhibit 7 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.262
    
    [GRAPHIC] [TIFF OMITTED] T6496.263
    
    Mr. Huang. I have no idea on that.
    Mr. Burton. Well, this prior balance of $230,000, does that 
represent part of the money that you received from Lippo for 
reimbursement for contributions, that $230,000? It says prior 
balance of $230,000.
    Mr. Huang. Are you talking about----
    Mr. Burton. Is that a prior balance in his account?
    Mr. Huang. Oh, you are talking about the following page 
right now.
    Mr. Burton. Yes. It says, prior balance $230,000. Is that a 
balance that is left in your account there?
    Mr. Huang. That is not my account, though. That is a Hip 
Hing account, right? Am I correct? From the list here, it is a 
Hip Hing Holdings account?
    Mr. Burton. Do you know what the $230,000 was?
    Mr. Huang. It could be related to the bonus for the prior 
year, sir.
    Mr. Burton. I see. OK. And the $673,125, what does that 
represent?
    Mr. Huang. I don't know about that, sir.
    Mr. Burton. Did your severance package cover all political 
contributions by you and your wife for 1994?
    Mr. Huang. It did. It did.
    Mr. Burton. Do all departing employees at Lippo receive a 
severance package?
    Mr. Huang. I would not know what the other people's 
arrangements----
    Mr. Burton. You don't have any idea.
    Mr. Huang. Right.
    Mr. Burton. How much did it cost a year to maintain your 
two homes in California?
    Mr. Huang. Quite a lot.
    Mr. Burton. I know. I understand that. But do you have any 
idea how much? I'll tell you what. Let's just stop right there, 
and we'll start tomorrow morning and talk about your income and 
that sort of thing.
    With that, gentlemen I appreciate your tolerance, and I 
appreciate your staying awake so long, and we will see you 
tomorrow morning at 10 o'clock a.m.
    [The prepared statement of Hon. Helen Chenoweth-Hage 
follows:]
[GRAPHIC] [TIFF OMITTED] T6496.264

    Mr. Burton. The committee stands in recess.
    Mr. Huang. Thank you.
    [Whereupon, at 5:51 p.m., the committee was adjourned.]


  THE ROLE OF JOHN HUANG AND THE RIADY FAMILY IN POLITICAL FUNDRAISING

                              ----------                              


                      THURSDAY, DECEMBER 16, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Shays, Souder, LaTourette, 
Waxman, and Norton.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Mark Corallo, director of communications; 
Kristi Remington, senior counsel; James J. Schumann and Scott 
Billingsley, counsels, Kimberly A. Reed, investigative counsel; 
Renee Becker, deputy press secretary; Robert Briggs, assistant 
clerk; Robin Butler, office manager; Michael Canty and Toni 
Lightle, staff assistants; Nicole Petrosino, legislative aide; 
Leneal Scott, computer systems manager; Lisa Smith Arafune, 
chief clerk; Maria Tamburri, assistant to the chief counsel; 
Corinne Zaccagnini, systems administrator; Phil Schiliro, 
minority staff director; Phil Barnett, minority chief counsel; 
Kenneth Ballen, minority chief investigative counsel; David 
Sadkin and Paul Weinberger, minority counsels; Ellen Rayner, 
minority chief clerk; Jean Gosa, minority staff assistant; and 
Andrew Su, minority research assistant.
    Also present: Ty Cobb and Jack Keeney, counsel to Mr. 
Huang.
    Mr. Burton. Good morning. A quorum being present, the 
Committee on Government Reform will come to order.
    Mr. Huang, I want to welcome you back, and your counsel. I 
want to remind you that you are still under oath and we will 
resume questioning of Mr. Huang in 5-minute rounds by members 
of the committee.
    Let me start off by saying that we originally planned to 
start out this morning by questioning a witness from the 
Justice Department. The reason was that they had not complied 
with our subpoena. Yesterday, they complied with our subpoena, 
so I excused the witness. However, I would like to tell you 
what we discovered from the Justice Department, and the reason 
why they didn't want to agree to our subpoena. It is very 
troubling, and I want to take time to talk about it.
    We asked the Justice Department to provide us with copies 
of the FBI's interview summaries. Over the years, they 
routinely have given them to congressional committees. We asked 
for John Huang's summaries. They gave them to us. We asked for 
Charlie Trie's summaries. They gave them to us. They sent us 
the Johnny Chung summaries and we didn't even ask for those.
    Then we asked them to send us the interview summaries of 
the President and the Vice President. The Justice Department 
was required to produce them under our subpoena. That is when 
the trouble started. We were met with excuse after excuse, 
delay after delay.
    Suddenly, they came up with a new policy. They weren't 
going to give FBI interview summaries, the 302s, to Congress 
anymore. They said we would have to come to the Department and 
read them, but we couldn't have copies.
    So I sent my staff over to read the interviews. It became 
very clear why they didn't want us to have those 302s. They 
interviewed the President twice, once in 1997 and once in 1998, 
and I hope you will understand this, this is very important.
    They never asked the President one single question about 
John Huang.
    They never asked the President a single question about 
James Riady.
    They never asked the President one single question about 
Charlie Trie.
    How can that be? What kind of an investigation is this? 
There aren't many people in this town who have been tougher 
critics of Janet Reno than I have, but I am even stunned by 
this.
    It doesn't stop there. They interviewed Vice President Gore 
three times.
    They didn't ask him a single question about the Hsi Lai 
Temple fundraiser.
    They didn't ask him a single question about John Huang or 
Maria Hsia.
    What is going on here? How could they not ask the President 
and the Vice President about John Huang or James Riady? Did 
they forget? Did they think it wasn't important? Did someone 
tell them not to?
    I am so disillusioned, I don't have the words to describe 
my feelings. We asked the Attorney General time and time again 
to appoint an independent counsel, but she said, ``No. I am the 
Attorney General; you can trust me. I will conduct a thorough 
and vigorous investigation.''
    I am going to read you what the Attorney General said when 
she testified before our committee in 1997, ``In this 
particular campaign finance investigation, as in all others 
entrusted to the Department of Justice, we are going to follow 
every lead wherever it goes.''
    Well, it is pretty obvious that she has not done that. We 
have seen the evidence over and over. Documents were being 
destroyed at Charlie Trie's house. The FBI was watching his 
house. They asked for a search warrant. They couldn't get a 
search warrant because Janet Reno said they did not have enough 
probable cause.
    Liu Chao-Ying of China Aerospace wired Johnny Chung 
$300,000. The Justice Department never even bothered to check 
her bank records.
    Johnny Chung was being harassed and threatened. The FBI 
even put him in protective custody while he was testifying. 
They had it all on tape by the man who was doing the 
threatening and he was never even indicted.
    Charles Intriago was caught red-handed making illegal 
contributions to the DNC. The case was gift-wrapped for them, 
and the Justice Department let the statute of limitations 
expire.
    It is pretty obvious to me that she is blocking for her 
boss, the President. We have said that over and over.
    I have written a letter to the Attorney General. I have 
asked her to explain why this happened. And I have said in the 
letter that if she does not give us a satisfactory answer, we 
will subpoena her and have her answer the questions before the 
American people in this committee room.
    I have written a letter to the Attorney General, as I have 
said, and I ask unanimous consent to include my letter in the 
record at the conclusion of my remarks.
    I also intend to ask unanimous consent to release copies of 
all the President's FBI 302s and the Vice President's 302s. The 
FBI has told us that personal information has been redacted, 
has been crossed out. I think the American people deserve to 
see firsthand how this investigation is being conducted, and 
how the Attorney General is being so partisan.
    This is a travesty. I don't know how the American people 
can have any confidence in their government when they find 
these facts out, when important people like the President and 
Vice President are given a free ride when the Justice 
Department questions them. They don't even ask questions about 
very important figures connected to the President. It only 
reinforces my determination that this committee--this 
committee, be as thorough as possible.
    [The prepared statement of Hon. Dan Burton and the 
information referred to follow:]
[GRAPHIC] [TIFF OMITTED] T6496.265

[GRAPHIC] [TIFF OMITTED] T6496.266

[GRAPHIC] [TIFF OMITTED] T6496.267

[GRAPHIC] [TIFF OMITTED] T6496.268

[GRAPHIC] [TIFF OMITTED] T6496.269

[GRAPHIC] [TIFF OMITTED] T6496.270

[GRAPHIC] [TIFF OMITTED] T6496.271

[GRAPHIC] [TIFF OMITTED] T6496.272

[GRAPHIC] [TIFF OMITTED] T6496.273

[GRAPHIC] [TIFF OMITTED] T6496.274

    Mr. Burton. With that, Mr. Waxman, do you want to take your 
5 minutes?
    Mr. Waxman. Yesterday I pointed out how this committee has 
settled into a very familiar pattern: Very strong accusations 
are made and then when the facts come in that don't corroborate 
those accusations, rather than acknowledge the situation, the 
chairman has come back consistently with more inflammatory 
remarks describing how people are not giving him what he wants.
    I assume my time is not up, Mr. Chairman.
    Yesterday, we spent the whole day with Mr. Huang. Nothing 
came out of that testimony to, in any way, come close to 
substantiate the inflammatory charges that have been made by 
Chairman Burton and other Republican leaders over the past 
year. So what we are seeing is that phase one, phase two, phase 
three, phase four scenario that I described yesterday being 
played out. If you don't have the facts to back up your 
accusations, you quickly move on to another inflammatory 
accusation and hope that people won't pay attention to the fact 
that what you said earlier doesn't hold up.
    The other point I would make is the chairman's challenging 
the integrity of the FBI. These were interviews conducted by 
FBI agents, and it is a huge leap to attack Janet Reno, the 
Attorney General, for interviews by the FBI.
    So I don't know what else to say about the whole matter 
except that it is clear that again the chairman is frustrated 
by not finding information that he would like to have, not 
finding the smoking gun he believes should be there to 
substantiate all of the accusations that he has already made 
that haven't held up in light of facts that have come out over 
these last 3 years, and particularly yesterday, with a very 
long day of grilling Mr. Huang, who was supposed to be the 
crucial witness that would show how there was a conspiracy to 
bring in contributions from China to influence the Presidential 
elections in exchange for selling out the national security of 
this Nation.
    I yield back the balance of my time. Let's go on to the 
questions of Mr. Huang.
    Mr. Burton. Would the gentleman yield?
    Mr. Waxman. Yes.
    Mr. Burton. Let me say that I am going to ask unanimous 
consent that the 302s, which I believe will speak for 
themselves, be put in the record and released; and we do not 
have a quorum here, so unless the gentleman is prepared to 
object to the release of these 302s, I will ask unanimous 
consent.
    Mr. Waxman. Reserving the right to object, I am not going 
to object to anything going into the record, except I asked 
yesterday that the 302s about Congressman Solomon be given to 
this committee, and I will only agree to your unanimous consent 
if we expand it to put his 302 statements in the record as 
well.
    Mr. Burton. I think I said yesterday I have no problem with 
that, No. 1. And No. 2, Charlie Trie, you also asked that 
Charlie Trie's information be put in the record; and I said 
once the FBI has gone through the redaction process, which I 
think they are entitled to, we have no problem with that.
    So with that, I will agree----
    Mr. Waxman. To be clear then, the unanimous consent is to 
put into the record all of the 302s, including Congressman 
Solomon's 302s, Mr. Trie's, and the other 302s relating to Mr. 
Huang.
    Mr. Burton. With the proviso that the FBI has the right to 
redact.
    Mr. Waxman. And furthermore, reserving the right to object, 
has the FBI made redactions in these 302s so that we are we are 
not in any way----
    Mr. Burton. Any reference to any personal issues regarding 
the President have been redacted by the FBI, right.
    Mr. Waxman. So these 302s have redactions that the FBI has 
put into place?
    Mr. Burton. Other than Charlie Trie. Charlie Trie's have 
not been redacted, but they are going to be.
    Mr. Waxman. In other words, you will put them in the record 
after the redactions; is that correct?
    Mr. Burton. That is correct.
    Mr. Waxman. I withdraw my reservation.
    Mr. Burton. Without objection, the 302s will be put into 
the record and released.
    Mr. Shays.
    [Note.--The information referred to is printed at the end 
of the hearing.]
    Mr. Shays. Mr. Chairman, before my time, if we could just 
clarify the process. My understanding is that we have a round 
of 5 minutes. I would like to ask unanimous consent that 
Members be given 10 minutes rather than 5, and I would make 
that request.
    Mr. Burton. Without objection, I think since we have so few 
Members here, that might be easier.
    Mr. Waxman. Reserving the right to object.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. I don't have extensive questioning because I 
have asked Mr. Huang most of what I thought was pertinent to 
the investigation yesterday, but the rules do provide 5-minute 
rounds, and I think we ought to stick with the rules and not 
change the rules.
    Mr. Shays. Would the gentleman yield?
    Mr. Waxman. If the gentleman from Connecticut is in the 
middle of some line of questioning at the end of 5 minutes, I 
wouldn't have an objection at that point, but I don't want to 
concede that on the Republican side, each Member gets 10 
minutes and then on the Democratic side, where I am all alone 
at this point, we only get--we have to wait 10, 20, 30, 40, 50 
minutes before we get a chance to correct the record.
    So the rules provide for 5-minute rounds, and I am going to 
stay with that, but I will be liberal in giving people 
additional time when appropriate.
    Mr. Shays. Thank you.
    My understanding is as well, Mr. Chairman, that we will 
have a set of rounds and if someone passes and they don't take 
their time during that round, we start the next round. They 
can't accumulate passes.
    Mr. Burton. Yes. The 5 minutes is not a cumulative thing. 
If you don't use your 5 minutes during that round, then you 
have 5 minutes in the next round.
    What I would suggest to the Members, since we are going to 
have a limited number here, if one Member wants to yield to 
another, we will try to give you 10 minutes if it is necessary 
for you to have a continuation and a constancy in your 
questions.
    Mr. Shays. I am prepared to yield to other Members under 
that basis.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you. Good morning.
    Mr. Huang. Good morning, Mr. Shays.
    Mr. Shays. Mr. Huang, it is nice to have you here.
    Mr. Huang. Thank you very much, sir.
    Mr. Shays. I do want to say to start with that both your 
attorney and you need to be careful when you are talking with 
each other. I want to say from the outset that I don't mind 
waiting, since I know that we have unlimited rounds, so you 
shouldn't feel rushed, that we want the accurate questions; 
since your attorney really isn't welcome to speak, we want to 
make sure that you clearly understand the terms we are using, 
so you should never be hesitant to ask him questions.
    I also would suggest that you literally turn the mic away 
from you because it is a very sensitive mic that picks up 
conversations and we don't want to pick up those conversations.
    Mr. Huang. Thank you very much, sir.
    Mr. Shays. Thank you.
    Mr. Huang, I had asked you yesterday--and I am just going 
to summarize, even if I use my 5 minutes now for the summary; 
and I want to just verify, and then during the course of the 
day I won't have to keep coming back to it--but you started 
working for the Lippo Bank entities from 1985 until July 1994, 
and your answer was yes to that?
    Mr. Huang. Lippo Group, though. Group entities, yes.
    Mr. Shays. OK. And that from July 1994 to December 1995, 
you worked at the Commerce Department? And we will get into 
what you did at the Commerce Department today.
    Mr. Huang. Yes, sir.
    Mr. Shays. And that from December 1995 to October and 
November 1996, you worked at the DNC and your responsibilities 
primarily, almost solely, were to raise money; is that correct?
    Mr. Huang. That is correct, sir.
    Mr. Shays. It is my understanding that you pleaded guilty 
to conspiracy to defraud. You acknowledge raising approximately 
$150,000 illegally. You were the conduit for contributions; you 
were aware of other people making contributions that wasn't 
really their money; is that correct?
    Mr. Huang. That is correct, sir.
    Mr. Shays. While you acknowledged $150,000 of illegal 
activity, you also made the Justice Department aware that 
potentially another $800,000 of laundered money was contributed 
to whom and from whom?
    Mr. Huang. It is actually to Democratic party of various 
candidates, Senatorial candidates or congressional candidates, 
I believe.
    Mr. Shays. So some went to the DNC, some might have gone to 
State parties, some might have gone to candidates, a variety of 
candidates primarily on the Democratic side of the aisle, or 
exclusively?
    Mr. Huang. Primarily on the Democratic side, yes.
    Mr. Shays. Now, those illegal activities took place in 
1992, as well as 1993 and 1994; or were they limited just to 
1992?
    Mr. Huang. 1992, 1993, and 1994.
    Mr. Shays. OK. And they stopped in 1994?
    Mr. Huang. Stopped in 1994, I believe.
    Mr. Shays. They ended in 1994, all of those illegal 
activities that you made reference to, to the Justice 
Department, that you were aware of?
    Mr. Huang. Excuse me 1 second.
    Mr. Shays. Sure. Turn the mic away, please.
    [Discussion off the record.]
    Mr. Huang. I am sorry for the interruption.
    Mr. Shays. Please, no apologies during the course this 
time.
    Mr. Huang. OK.
    There is one more case I am aware of in 1995, but I have no 
knowledge, it did not really verify, it could be on that basis.
    Mr. Shays. And how much did the 1995 case, how much money 
are we talking about in 1995?
    Mr. Huang. Probably $12,000.
    Mr. Shays. OK. Now, it is my understanding that--I would 
like to just have you----
    Mr. Huang. But, however, all the illegal, so-called illegal 
activity was basically stopped in 1994.
    Mr. Shays. OK.
    Now, the $800,000 that you make reference to, was that 
money that ultimately, it is your understanding, the Riadys 
covered? In other words, it was their employees and they 
basically covered this money? They were the contributors, 
ultimately? It was their money?
    Mr. Huang. Yes, through Lippo, Lippo entities.
    Mr. Shays. Through their Lippo entities, and their entities 
being ultimately employees who worked for the Lippo entities?
    Mr. Huang. That is correct, yes.
    Mr. Shays. Does that also include the money from business 
partners of Mr. Riady, the father, James's father, Hashim Ning? 
Does it include the money that he contributed, or is that in 
addition?
    Mr. Huang. No, that is not included. I don't know, any 
knowledge--I don't have any knowledge on their part, sir.
    Mr. Shays. You haven't even read anything? You have no 
knowledge, or you have some knowledge?
    Mr. Huang. No, I don't have knowledge to say where the 
money was coming into that, Hashim Ning on that.
    Mr. Shays. So you had no involvement with Hashim Ning and 
any contributions he might have made in the late 1980's, 1990, 
or any of the 1990's?
    Mr. Huang. I have no knowledge of that, sir.
    Mr. Shays. In addition to the $150,000 and the $800,000, 
there were also sums of money that you raised while you were at 
the DNC--my time has expired.
    Mr. Waxman. Mr. Chairman, it would be my time, but I will 
pass at this point.
    Mr. Shays. Could I clarify, neither of you used your 
opening 5 minutes?
    Mr. Burton. We both used our opening 5 minutes.
    Mr. Shays. So I just appreciate the magnanimous effort, but 
you really have no time this round to yield to me.
    Mr. Waxman. Mr. Chairman, I ask unanimous consent that the 
gentleman from Connecticut be given an additional 5 minutes.
    Mr. Burton. Without objection.
    Mr. Shays. I thank the gentleman for doing that.
    I would like you to start to explain to me how you raised 
money for the DNC; and if you were raising money for the RNC, I 
would be asking you the same questions.
    How much money did you raise for the DNC?
    Mr. Huang. I really don't have an exact figure. 
Approximately--anywhere from $3 million to $5 million, I think.
    Mr. Shays. $3 million to $5 million?
    Mr. Huang. When I was there.
    Mr. Shays. That is a pretty broad range. I would think 
intuitively that if you were raising this money, you would know 
every penny, because frankly, it is to your credit. If you 
raise money, if you thought you raised it legally, it is to 
your credit.
    Mr. Huang. The reason I have the broad range is, I try to 
include all the Asian communities, whoever gave money. I lump 
it all together, may or may not be through my efforts.
    Mr. Shays. I want to know what you raised through your 
efforts.
    Mr. Huang. Anywhere between $2.5 to $3 million, sir.
    Mr. Shays. OK. So we have basically a sense that you raised 
$3.4 million that we know of, and our sense is that $1.6--that 
you raised 424 contributions, and that 88 were basically 
returned, for a total of $1,623,350,000.
    Now, that money was returned for a variety of reasons, but 
the bottom line was, the judgment was, if it was accepted, it 
would have been illegal and, therefore, it needed to be 
returned.
    I need to know how you raised your money.
    Mr. Huang. Essentially I raise money through the contact of 
the people I know or somebody would refer me, some people might 
be of interest in making contributions through the network and 
through the contacts which I--all the friends I made over the 
period of time, in New York, in San Francisco or Los Angeles, 
primarily.
    Mr. Shays. And when you raised money, you understood there 
were certain legal requirements. What are the legal 
requirements that you understood to be true?
    Mr. Huang. The No. 1 is the party has to have at least 
permanent resident status or green card holder, American 
citizens. That is for individual contributions.
    Mr. Shays. OK.
    Mr. Huang. Now, in the event it is beyond that amount, 
beyond the hard money basis, then the money can come from a 
corporation and become soft money; and an individual can also 
give unlimited amount of money which can be categorized as soft 
money, sir.
    Mr. Shays. So if it is hard money, there are certain limits 
to what they can contribute, correct?
    Mr. Shays. That is correct.
    Mr. Shays. And soft money, there is no limit?
    Mr. Huang. There is no limit, yes.
    Mr. Shays. Do you need to know other things? What?
    You need to know their occupation, correct?
    Mr. Huang. The record sheets, you had to fill out the 
party's name and address, phone number--phone number, the 
contact numbers.
    Mr. Shays. Who they are employed by?
    Mr. Huang. We have that information, yes.
    Mr. Shays. That is required, isn't it?
    Mr. Huang. I am not sure. I strictly, you know, adhere to 
that rules.
    Mr. Shays. Well, I want to know if you knew it.
    Mr. Huang. I am not sure I did that, sir.
    Mr. Shays. I don't want to split hairs here, and I am not 
trying to trick you.
    Mr. Huang. I know you are not, Mr. Shays.
    Mr. Shays. Don't assume that during the course of the day I 
won't, but I am not trying to now. I just want to know what you 
knew you were supposed to do, and it seems to be a fairly 
simple question.
    You were employed by the DNC. They are not going to be 
stupid enough not to tell you what the rules are, so you were 
told the rules. You were a fundraiser. You need to know the 
rules. That is kind of basic.
    I want you to explain to me what the rules are.
    Mr. Huang. I just went through, very practical matters. If 
it is individual contribution, I did not really figure out what 
the employment is. I did not even ask for it.
    Mr. Shays. The fact that you didn't do it doesn't make it 
right. It also doesn't mean that you didn't know you shouldn't 
have done it. The fact that you didn't do it isn't the worst 
crime in the world, but you were supposed to do it. And you 
knew that; isn't that correct?
    Mr. Huang. I am supposed to figure out as much information 
as possible about an individual.
    Mr. Shays. The bottom line is, it is required information, 
isn't it? I mean--and you knew that? You knew--I am not going 
to let off this point until I get a definitive answer.
    Mr. Huang. OK.
    Mr. Shays. It is true that you knew that this information 
is required in order to be legal; isn't that true?
    Mr. Huang. That's true.
    Mr. Shays. And so we want to know if they are a U.S. 
citizen. We want to know if they are not a U.S. citizen, if 
they have a green card, that they have the right to work here, 
because if they are not here legally, if they are here 
illegally or they are overseas, they don't have a right to 
contribute. And it is not an ethnic thing, and it is not a 
discrimination thing, it is the law. You have to be a U.S. 
citizen.
    Mr. Huang. Mr. Shays, this is not the understanding I have 
even at this point. The only understanding I have is a person 
can work overseas, but has a green card status, has American 
citizen status, the person can still make contributions.
    Mr. Shays. Right. If they have U.S. status, if they have a 
green card; but if they don't, if they don't have working 
status in the United States, they can't contribute, if they are 
not a U.S. citizen.
    Mr. Huang. That is correct.
    Mr. Burton. I would like to clarify one thing, if the 
gentleman would yield to me.
    Mr. Shays. Happy to yield.
    Mr. Burton. If they have a green card, but they are living 
overseas, even if they have a green card, I believe the statute 
is very clear that they can't make contributions. They can only 
make contributions if they have a green card if they are 
working and residing in the United States.
    Mr. Shays. Thank you.
    So you need to be a citizen, you need to have a green card, 
you need to be in the United States.
    My time has elapsed. It is Mr. Souder's time.
    Mr. Souder. I thank the gentleman for yielding.
    Mr. Burton. Mr. Souder.
    Mr. Waxman. Mr. Chairman, before Mr. Souder proceeds, just 
a housekeeping matter that I want to raise with you.
    Yesterday you agreed to request from the Justice Department 
the 302s regarding Mr. Solomon's testimony. This morning we had 
a unanimous consent agreement that that would be in the record.
    I understand from the Justice Department that they say that 
your staff hasn't made the request. I wonder if we could just 
get that request made. I think they are here right now. You can 
make an oral request.
    Mr. Burton. As you speak, it has been done.
    Mr. Waxman. OK. I appreciate that. Thank you.
    Mr. Souder. I yield my 5 minutes to Mr. Shays.
    Mr. Shays. So you have to be a U.S. citizen, you have to 
have a green card, you have to be living in the United States 
if you don't, and----
    Mr. Huang. Excuse me. I think the last sentence might not 
be correct, versus to my understanding.
    Mr. Shays. OK. We will leave that as your understanding.
    The contributions are limited. In other words, they can't 
give over a certain amount. Why don't you describe to me some 
of the limits that people have when they contribute?
    Mr. Huang. For the Federal campaign for the candidate 
itself, for a Senatorial campaign, individually, there is a 
$1,000 limit for the general elections and--the primary, and 
also another $1,000 for the general. So that would be it.
    Mr. Shays. OK. How about for the DNC?
    Mr. Huang. If it is for a party, the hard money, the 
Federal limit is $20,000. And in the aggregate for the total 
amount, total contribution to all the candidates, all the 
committees for the hard money is $25,000, if I believe--I 
believe that is correct, that is it.
    Mr. Shays. You also need to know the mailing address of the 
individual, you need to know their occupation, you need to know 
who they are employed by. The reason we want to know who they 
are employed by is that we want to be able at the end to be 
able to say that I received so much from the insurance industry 
or so much from another organization. It is information that we 
deem should be in the public domain, and that is what we 
require. If you don't have that information, then you have 
gotten this money and not followed the law. And I would concur 
that there are obviously different degrees of not following--
not getting an employer, sometimes that happens and all of us 
go back and find out who the employer is; but ultimately if you 
don't have all of this required information, you have to send 
it back.
    Mr. Huang. Mr. Shays, the way I understood is that to the 
best of my efforts, I should get those information, all right? 
And then whatever the forms was required, I filled out, I just 
pass along. And basically, that was it, you know.
    Mr. Shays. But we get to the challenge. I mean, Mr. Waxman 
made a point that is so valid. I mean there are going to be 
some times that people contribute to your campaign and they 
didn't do it legally and they are ultimately held liable. But 
it reflects on our campaigns. I don't think there is a Member 
who has run for public office that hasn't had a contribution 
that we find embarrassing or that, in fact, may not have been 
done properly; and when that is found out boy, you just do your 
best to get it taken care of.
    But in your case, we are not talking about, you know, an 
occasional mistake. We are talking about $3.4 million that we 
know you raised and $1.6 million of it had to actually be 
returned.
    I want you to explain to me why some of that money was 
returned.
    Mr. Huang. Mr. Shays, I am quite handicapped in a detailed 
list of the returning stuff. I did read occasionally from the 
papers the amount of total you referred to was returned versus 
the amount of money I raised.
    Now, based on that, I can give you the best of my account 
on these things.
    Mr. Shays. Give me the best of your account.
    Mr. Huang. OK. The two individual checks over $12,500.
    Mr. Shays. Each?
    Mr. Huang. $12,000 each, yes, which I raised in a Hay Adams 
event that Mr. LaTourette was mentioning yesterday about that 
event. I was told at the beginning when I received the check, 
the party had been approved for the green card. In other words, 
the party had green card status. But later on I found out that 
it was just being approved with a number, but actually did not 
receive the physical green cards. So subsequently I find out, I 
return the checks. I was involved in that one.
    The second one was involving Choeng Am, which is a Korean 
entity. I was involved in that. That was involving about 
$250,000.
    Mr. Shays. How much was that?
    Mr. Huang. $250,000 for the checks.
    Mr. Shays. OK. My time is up. Thank you.
    Mr. Waxman. Mr. Chairman, I ask unanimous consent that the 
gentleman from Connecticut be given 5 additional minutes.
    Mr. Burton. Without objection.
    Mr. Huang. Could I complete the answer, please?
    Mr. Shays. Sure.
    Mr. Huang. The reason I was involved in the Chong Ann case 
later on in September 1996, I virtually answer the question 
whether the company had the revenue in the United States and 
the answer was not. To the contrary. From the time when I 
receive check was the understanding I had.
    The third one would be involving a Mr. Gandhi's check.
    Mr. Shays. And how much was that for?
    Mr. Huang. That was $325,000. Now, that was not my 
solicitation on that in the first place. I don't know whether 
that was in that category you are talking about, the $1.6 
million, or not.
    Mr. Shays. OK. We will check that out. And that was illegal 
because? Why was that illegal?
    Mr. Huang. The way I understood is that--again, this 
knowledge is coming from a newspaper account, it is not coming 
from the original knowledge that I have, because at the time my 
information that it was his one money, Mr. Gandhi's own money.
    Mr. Shays. Now explain to me if it was his own money versus 
the company's money, why would that make a difference?
    Mr. Huang. No, no. That was an individual check.
    Mr. Shays. You mean it was a hard money contribution?
    Mr. Huang. No. You see, an individual can give both hard 
money contribution and also soft money contribution, if the 
amount was going over----
    Mr. Shays. Let me just say something. I am not a fan of 
newspaper reports in a hearing like this, but what I am 
interested in is to try to understand why you think something 
may be illegal or not. That interests me. So I need to 
understand why you think that may have been illegal.
    Mr. Huang. The understanding when I receive the check that 
was his money, but later on, the information evolved from the 
news account that the DNC determined through their 
investigation the money he contributed was not really his 
money. That is why it was returned.
    Mr. Shays. Thank you.
    Mr. Huang. Now, the fourth one.
    Mr. Shays. Yes, sir.
    Mr. Huang. The fourth one probably was related to 
Wiriadinata's money, which is around $400 some thousand.
    Mr. Shays. Riady's money?
    Mr. Huang. No, no. Wiriadinata. It is a long name.
    Mr. Shays. How much are we talking about?
    Mr. Huang. That is probably $450,000, I believe, all 
together.
    Mr. Shays. And why was that returned?
    Mr. Huang. I couldn't find any reason that it was returned. 
The only way I can think of--the decision was not made by me.
    Mr. Shays. OK. But it was money raised by you?
    Mr. Huang. It was raised by me, yes.
    Mr. Shays. And it was your understanding that this was 
their personal money?
    Mr. Huang. I have no reason to doubt that, sir.
    Mr. Shays. They had the resources?
    Mr. Huang. Yes.
    Mr. Shays. This is a male?
    Mr. Huang. No, husband and wife. In aggregate, $450,000.
    Mr. Shays. You had every reason to believe they had the 
resources?
    Mr. Huang. That's correct.
    Mr. Shays. They were U.S. citizens and so on; they met all 
the requirements.
    Mr. Huang. No. The Wiriadinatas were permanent residents.
    Mr. Shays. OK. Permanent residents.
    Mr. Huang. Right.
    Now, the fifth one probably is related to the Miss 
Kanchanalak, Pauline Kanchanalak. That was involving a few 
hundred thousand dollars. I don't know whether it is in this 
category or not.
    Mr. Shays. And why do you think that was returned?
    Mr. Huang. Again, that was through the news account that I 
learned about this matter. I still at this moment do not know 
in real, real detail why the money was returned.
    Mr. Shays. This was money you raised, though?
    Mr. Huang. Yes.
    Mr. Shays. The only amount you say you didn't raise was the 
amount of $325,000?
    Mr. Huang. That is correct.
    Mr. Shays. Who raised that?
    Mr. Huang. I believe through Mr. Charlie Trie.
    Mr. Shays. But Charlie Trie gave it to you?
    Mr. Huang. I was handling the main fundraisers.
    Mr. Shays. Let's be clear. Charlie Trie didn't work for 
DNC. Correct?
    Mr. Huang. No, no.
    Mr. Shays. You did.
    Mr. Huang. Yes.
    Mr. Shays. So you raised it for the DNC. Correct? I mean, 
it was given to you.
    Why don't you talk to your counsel.
    Mr. Huang. No. I was responsible for the DNC, but the 
solicitor was Charlie Trie. That is what I am saying.
    Mr. Shays. Yes, but you are told that when the money is 
raised and it is given to you, you then assume a 
responsibility. Clearly, the DNC would have made that clear to 
you. Your employer would have made that clear to you. Correct? 
You are not going to take the position that any time someone 
else gave you money from someone else, this isn't your money. 
Are you going to take that position, or are you going to take 
accountable----
    Mr. Huang. I am taking accountable. I am trying to explain 
to you the source.
    Mr. Shays. Fair enough. Bottom line, it was your money 
raised by Charlie Trie?
    Mr. Huang. That is correct.
    Mr. Shays. Fine. I yield back.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. Good morning, Mr. 
Huang. We were talking about this February 19th fundraiser, and 
if we can go back to that and sort of keep our eyes on that 
ball for just 5 minutes, I guess.
    We were talking yesterday about the head table and I think 
that I asked you how the head table got to be the head table, 
who got to sit with the President of the United States at that 
particular function and from my review of things last night--I 
didn't get a homework assignment from Mr. Shays like you did 
and Mr. Waxman did, but I did some reading anyway, and it looks 
like there were tables of 12. Does that sound about right to 
you?
    Mr. Huang. That is correct, sir.
    Mr. LaTourette. Let me just run through who I think was at 
that head table, and you can tell me whether I am right or not. 
Nina Wang, Ted Sioeng, Kwai Fai Li, Pauline Kanchanalak, 
Richard Park, Sant Chatwal, Kazuhiro Nakagawa, Tju Jin Tan, 
Andrew Cherng, Ng Lap Seng, and Charlie Trie, and the President 
of the United States. Does that sound about right?
    Mr. Huang. It sounds right, yes.
    Mr. LaTourette. Now, I think you told me that the way 
nobody was required to pay more than $12,500, but you had a 
hand in and selected who got to sit with the President of the 
United States; it was a place of honor at this particular 
fundraiser and it was based upon what their prominence, or how 
much they had contributed in the past, or how much you thought 
they could contribute to the President's events?
    Mr. Huang. And also the ethnicity of the person.
    Mr. LaTourette. Am I not--am I correct in saying that of 
those 11 names, because the 12th seat I guess was sort of 
reserved for the President himself, of those 11 names, 5 of 
them could never contribute to the President's campaign because 
they were noncitizens?
    Mr. Huang. They were the guests of the other country 
leaders publicly on that.
    Mr. LaTourette. But am I right about that, that Nina Wang, 
Ted Sioeng, Kwai Fai Li, Pauline Kanchanalak, and Ng Lap Seng 
are all noncitizens and they are all seated at the President of 
the United States's table and they can't make a contribution?
    Mr. Huang. I will argue with some of them.
    Mr. LaTourette. OK. Tell me. I don't want incorrect 
information.
    Mr. Huang. Pauline's situation, to my total surprise, later 
on I find out she was not, and because she has been with this 
political fundraising matter for a long, long time, I was 
really surprised that she was not.
    Mr. LaTourette. As a matter of fact, at the time I believe 
that Pauline Kanchanalak was a managing trustee of the 
Democratic National Committee, was she not?
    Mr. Huang. That's right.
    Mr. LaTourette. That is probably how you knew her. She is a 
Thai citizen, a citizen of Thailand, and she is not a citizen, 
permanent resident, or green card holder at this time, of the 
United States of America; is that right?
    Mr. Huang. Unfortunately, that is what I later on find out.
    Mr. LaTourette. So at the head table at this event on 
February 19th, out of 11 guests, 5 of them are not even 
eligible to make legal contributions to the campaign of the DNC 
or the President of the United States. I am right about that. 
Right?
    Mr. Huang. Yes, that's correct.
    Mr. LaTourette. OK. Then let's go back then to that 
fundraiser if I can, and I want to sort of pick up where I left 
off yesterday. We were talking about Charlie Trie, Antonio Pan 
and others. Did Charlie Trie request that certain people be 
permitted to sit at that head table?
    Mr. Huang. That is correct.
    Mr. LaTourette. And who did he ask to sit at the table?
    Mr. Huang. I think Mr. Ng.
    Mr. LaTourette. Mr. Ng?
    Mr. Huang. Yes.
    Mr. LaTourette. Who was his business partner from Macao in 
the trading business who we were talking about.
    Mr. Huang. That is correct, yes.
    Mr. LaTourette. Did he make a request that any of the other 
four noncitizens that I just mentioned sit at the head table?
    Mr. Huang. The other four partners not related to him at 
that time.
    Mr. LaTourette. Now, Mr. Trie at that fundraiser, he also 
made a contribution of $12,500, did he not?
    Mr. Huang. I believe so, yes.
    Mr. LaTourette. And that contribution has subsequently been 
termed to be not appropriate, illegal, and returned by the 
Democratic National Committee; is that right?
    Mr. Huang. Later I learned that, yes.
    Mr. LaTourette. If we could have exhibit No. 317, his 
contribution was on a check from Daihatsu International, which 
is the business that he shares with Mr. Ng, is that right?
    [Exhibit 317 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.275
    
    Mr. Huang. That is correct, yes.
    Mr. LaTourette. And that check didn't come to, even though 
we are talking about a fundraiser that is on February 19, 1996, 
that check is dated February 29, 1996. Is that not right?
    Mr. Huang. Yes, on the check, it is.
    Mr. LaTourette. And do you know why? Is this money that he 
gave to you after the event?
    Mr. Huang. It is not unusual for people to give me money 
later, as long as they have already established as ongoing 
persons.
    Mr. LaTourette. But do you have any specific recollection 
as to how this check came into your possession and then on to 
the DNC? Was this check given to you?
    Mr. Huang. I believe it came to me, but I don't remember 
the exact time when I receive, from the check date, probably 
around that time, sir.
    Mr. LaTourette. Did Mr. Trie give you any indication when 
he gave you that check as to the origin of the funds used, or 
that backed up this check?
    Mr. Huang. No.
    Mr. LaTourette. You know today, do you not that those funds 
came from Mr. Ng who was a noncitizen and hence unable to 
contribute to a campaign in this country.
    Mr. Huang. Still I don't know.
    Mr. LaTourette. You don't know that.
    Mr. Huang. Right.
    Mr. LaTourette. Did Mr. Trie request that he be seated at 
the head table himself, aside from the question that Mr. Ng be 
seated at the head table?
    Mr. Huang. To me, Mr. Trie should have been, but Mr. Trie 
will make that room to Mr. Ng, he request it.
    Mr. LaTourette. Did you have any idea as to how many guests 
Mr. Trie invited or brought to the event on February 19th?
    Mr. Huang. I have to give you a roughly number, maybe 
around between 15 to 20 or something like that.
    Mr. LaTourette. And all of them paying $12,500?
    Mr. Huang. May or may not. Might or might not, I am sorry.
    Mr. Waxman. Mr. Chairman, his time is about to expire and I 
want to ask unanimous consent that the gentleman be given 5 
additional minutes.
    Mr. Burton. Without objection, so ordered.
    Mr. LaTourette. I appreciate very much your courtesy, Mr. 
Waxman.
    I want to go through some of Mr. Trie's guests with you now 
and I really appreciate Mr. Waxman's courtesy because it let's 
me have a little continuity in talking about that subject, 
because you get questions from all over and then come back to 
me on this February 19th business.
    I want to show you some photographs that now are exhibits, 
the first one is exhibit No. 318 and it is a photograph request 
of an individual with the President of the United States and a 
gentleman by the name of Peter Chen. Do you know Mr. Chen?
    [Exhibit 318 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.411
    
    Mr. Huang. Yes, I do.
    Mr. LaTourette. Can you describe for the committee what the 
relationship is, if any, between Charlie Trie and Peter Chen?
    Mr. Huang. Yes. Mr. Chairman, I reported to you yesterday, 
Mr. Chairman, I have some so-called brother-in-law situation 
with Mr. Trie. This is the person.
    Mr. LaTourette. Does Mr. Chen----
    Mr. Huang. I cannot verify that though. I am sorry.
    Mr. LaTourette. Does Mr. Chen to your knowledge or has Mr. 
Chen worked for the Lippo Group?
    Mr. Huang. He did.
    Mr. LaTourette. And do you know when?
    Mr. Huang. Starting from--my best recollection, probably 
early 1980's.
    Mr. LaTourette. Mr. Chen, to my information, owns a company 
called the Sun Union Group. Do you know that to be true? Do you 
know that?
    Mr. Huang. I vaguely remember there is some company like 
that, yes.
    Mr. LaTourette. Are there any ties between Sun Union and 
the Lippo Group to your knowledge?
    Mr. Huang. I don't know about that.
    Mr. LaTourette. And what contact, if any, are you aware of 
between Mr. Chen and the Riady family, aside from----
    Mr. Huang. He was employed by Lippo Group before.
    Mr. LaTourette. Any connection other than being an employee 
of the Lippo Group that you are aware of?
    Mr. Huang. I was aware of later on he left the Lippo Group 
but remained to be a partner of--with the Riady family, 
especially Mochtar Riady particularly.
    Mr. LaTourette. Next I want to show you exhibit No. 319, 
which is another photograph, and this depicts to my 
understanding another one of Mr. Trie's guests, a fellow by the 
name of Santoso Gunara. Are you familiar with this individual?
    Mr. Huang. I am not familiar with this individual.
    Mr. LaTourette. OK. Another one of Mr. Trie's guests at the 
event was Dr. Tju Jin Tan, excuse me, which is exhibit No. 320. 
Are you familiar with Dr. Tan?
    [Exhibit 320 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.277
    
    Mr. Huang. I am not.
    Mr. LaTourette. OK. Dr. Tan, according to the records that 
we have reviewed from the February 19th fundraising event, did 
not contribute to the event. Are you aware as to how he came to 
be in attendance?
    Mr. Huang. He is a guest of Mr. Trie. Whatever money Mr. 
Trie raised, he can designate a guest he would like to invite.
    Mr. LaTourette. Dr. Tan, I think as I went through the list 
with you before at the head table, Dr. Tan was seated at the 
head table at that event. Can you tell me, since you were in 
charge of arranging who was at the head table how it is that 
Mr.--Dr. Tan became at the head table with the President of the 
United States?
    Mr. Huang. If he was, probably on the recommendation by Mr. 
Trie.
    Mr. LaTourette. OK. Many of Charlie Trie's guests, and we 
went over this list yesterday, like Peter Chen, William Peh, 
Santosa Gunara did not pay to attend. In other words, if you 
match up who was there, they were there, but there is no check 
from them.
    Mr. Huang. That is correct.
    Mr. LaTourette. Conversely, many people who gave to the 
event, Manlin Foung, Joseph Landon, Zie Pan Huang and others 
did not attend, but contributed. Now, that is not unusual.
    Mr. Huang. That is correct, sir.
    Mr. LaTourette. I think in the fundraising business as 
Members, politicians, we are always happy when people send in 
the checks but don't show because we don't have to pay for the 
hor d'oeurves, they are not going to eat them at the event. But 
did you ever become concerned, based on this reserves scenario, 
that you had people at your fundraising event that you were in 
charge of in attendance that weren't contributing and were 
invited guests, and then you had a large list of people that 
paid but didn't show up?
    Did you ever become concerned and, again, concerned because 
you are an individual who is knowledgeable about what a conduit 
contribution is. You know from the activities to which you pled 
guilty in 1992, 1993 and the other times that one, it is 
illegal to give money that is not your money; it is illegal for 
a noncitizen to contribute.
    Did you ever become concerned that Mr. Trie's guests--that 
Mr. Trie was using conduit contributions to pay for the 
attendance of all of these nonpaying guests at the fundraiser 
on the 19th? And just while you are thinking about that, if we 
could put up exhibit No. 323, which is a chart of the nonpaying 
guests and nonattending contributors, just to refresh your 
memory.
    [Exhibit 323 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.278
    
    Mr. Huang. Congressman LaTourette, I have been interviewed 
by so many people over periods of times and each time I gain 
certain knowledge about certain things. The best I can think of 
right now, at the time I was concentrating on raising money. 
You know, the guests were being invited by people, and then I 
thought it was general practice people doing that. I did not 
really pay attention to that.
    Mr. LaTourette. I remember in your opening statement you 
said that you were dedicated to the Democratic National 
Committee and you took that job seriously, and I know you did. 
You were very successful.
    But my specific question--and I guess you are saying no, 
but I would like you to say no if that is your answer that you 
were not concerned in 1996 that Charlie Trie was using the same 
sort of scheme that you used in 1992 and 1993, that is, conduit 
contributions to get to the Democratic National Committee. Are 
you telling me you were not concerned about that?
    Mr. Huang. In that time the things did not come to my mind, 
yes, sir.
    Mr. LaTourette. OK. When I come back during the next round, 
I want to talk to you about specific guests of Mr. Trie's, 
people that gave $12,500 to that event, but whose annual 
salaries were $20,000 and we will just go through some of 
those. Because I think again as I was talking to you yesterday, 
it begins to stretch credulity that a clerk who works at the 
clerk of the court's office in Maryland making $25,000 a year 
can give $12,500 to the Democratic National Committee of their 
own money and for you to be familiar with the idea of conduit 
contributions as a vice-chair of the Democratic National 
Committee, to not have red flags going off or sky rockets or 
whatever the alarm bells would need to be, is unusual to me, 
and I hope we can talk about it and explain it.
    Again, Mr. Waxman, I thank you for your courtesy.
    Mr. Waxman. Well, if the gentleman would permit, you are in 
the middle of asking questions and I certainly would have no 
objection if you want to continue and have another 5-minute 
round.
    Mr. LaTourette. If my colleagues on this side don't----
    Mr. Waxman. I will ask unanimous consent, and if they 
object, they can object; but I will ask unanimous consent that 
you be given 5 additional minutes to pursue questions.
    Mr. Burton. Without objection, so ordered.
    Mr. Waxman. Would you yield to me just to ask a question at 
this point?
    What I am trying to understand, Mr. Huang, is that there 
was a dinner; people were sitting at the President's table who 
did not give money. The money was given by Mr. Trie as far as 
you were concerned.
    Mr. Huang. Or raised by Mr. Trie.
    Mr. Waxman. Or raised by Mr. Trie. Is there any way you 
would have known that those people that were sitting there--you 
didn't care whether they gave the money or not; you knew that 
the money was paid for by their attendance.
    Mr. Huang. That is correct. The guest list of Mr. Trie's, 
yes.
    Mr. Waxman. And would you be suspicious that there was a 
conduit contribution because they were sitting there?
    Mr. Huang. Not at the time, no.
    Mr. Waxman. Thank you.
    Mr. LaTourette. Thank you, Mr. Waxman. I think that the 
only observation I would make is that is pretty bad luck, if 
you have a head table of 11 and half of them are illegal 
individuals in terms of giving contributions to the President's 
campaign, that is 500----
    Mr. Waxman. Will the gentleman yield? They didn't give 
contributions to the President's campaign. They were not legal 
residents or citizens, but no one has claimed they gave a 
contribution to the President of the United States. Someone 
else gave a contribution who presumably was legally able to 
give a contribution and invited these people to be, in effect, 
at his table, but his table turned out to be with the President 
of the United States.
    Mr. LaTourette. I appreciate that point, and I think we 
will find out that Pauline Kanchanalak, in fact, made 
substantial contributions through this period of time to the 
DNC and the course of money from Mr. Ng Lap Seng that Charlie 
Trie actually wrote on February 29th was Mr. Seng's money. But 
I appreciate your remarks.
    Mr. Waxman. You may very well be right, but the question is 
whether Mr. Huang should have been alert to that at that time.
    Mr. LaTourette. Right. OK.
    I appreciate the distinction. I want to talk about two 
individuals who were at the event, guests of Mr. Trie, and I 
think demonstrate that even if you were not aware as a vice 
chair of the Democratic National Committee in 1996 that conduit 
contributions were taking place at the fundraiser that you 
organized on February 19th, that in fact the pattern does I 
think really, if it's circumstantial it's probably the best 
circumstantial evidence I could think of that it was going on. 
And I want to talk to you about a woman by the name of Lei Chu. 
Do you know a woman by the name of Lei Chu?
    Mr. Huang. I do not know her.
    Mr. LaTourette. As we reviewed the records from your 
fundraiser on the 19th, Lei Chu made a $12,500 contribution the 
day after the event. Also, bank records indicated she deposited 
a check for $12,500 into a new account. The check was written 
the day after the event to the DNC, was written on a starter 
check. On the tracking form that was submitted, Charlie Trie is 
listed as the solicitor and you are listed as the DNC contact.
    Now, again, does it concern you that an individual who is 
contributing $12,500 is doing so on a starter check? Does that 
raise any red flags or concerns to you as a fundraiser for a 
major political party?
    Mr. Huang. It did not. Did not.
    Mr. LaTourette. OK. Did you have the occasion to speak with 
Lei Chu either at this event, or she also attended the 
breakfast with Vice President Gore the next morning--did you 
talk to her at all, have any recollection of talking to her?
    Mr. Huang. I don't have any recollection of talking to her, 
no.
    Mr. LaTourette. OK. Did you ever have a conversation with 
Charlie Trie that would--wherein he indicated that he had 
provided Lei Chu with the funds necessary to make the $12,500 
contribution?
    Mr. Huang. I did not either.
    Mr. LaTourette. Next, another individual who attended, 
Keshi Zhan, also was an attendant and a contributor of $12,500, 
dated February 19, 1996. It lists you as the contact and no 
solicitor is mentioned on the reporting form. Do you know Keshi 
Zhan?
    Mr. Huang. I met with her before, yes.
    Mr. LaTourette. And would you have met with her about the 
time of this particular fundraiser?
    Mr. Huang. No. Around that period of time, because she was 
also working for Mr. Charlie Trie.
    Mr. LaTourette. And did you have any idea what it was that 
she did employment-wise at that time?
    Mr. Huang. She had a job in some way in Virginia, but I did 
not ask the detail as to what she was doing.
    Mr. LaTourette. OK. Well, in fact, Ms. Zhan had a job as a 
clerk for the Arlington County in Virginia and it paid her less 
than $25,000 a year. Again, it's a fundraiser for the 
Democratic National Committee. Would it surprise you, unless 
she had a trust fund or came from a very wealthy family, 
wouldn't it--I guess would that fact pattern surprise you, that 
someone making less than $25,000 writes a check for $12,500 to 
a major--unless she really loves the Democrats and is willing 
to give half of the money that she would make in a year to her 
cause, but don't you find that to be unusual?
    Mr. Huang. Congressman, I'm not trying to be argumentative. 
There are some--a lot of people appear don't have any money, 
but they have a lot of savings in my community. So I did not 
really ask this question.
    Mr. LaTourette. Well, we know today what you may not have 
known in 1996, and that is on the same day that she contributed 
$12,500 to your fundraiser, she wrote a check to herself from 
Charlie Trie's bank account reimbursing herself for the 
contribution. Now, have you been told that today? Do you know 
that to be so today?
    Mr. Huang. I'm sorry I was disturbed right here.
    Mr. LaTourette. That's OK.
    [Discussion off the record.]
    Mr. Huang. Congressman, I did not know that. If that was 
the case, that was wrong to do that.
    Mr. LaTourette. I know it's wrong. I'm asking you if--you 
say you didn't know it in February 1996 and have you been told 
that since? I mean, am I telling you that for the first time?
    Mr. Huang. Oh, I read it from the news account to indicate 
that, yes.
    Mr. LaTourette. And two others, Manlin Foung and Joseph 
Landon also wrote checks at that event for $12,500. And I would 
ask you--we were talking about Antonio Pan yesterday--are you 
aware that shortly after their contributions, Antonio Pan sent 
Foung and Landon cashier checks totaling $25,000 to reimburse 
them? Do you know that?
    Mr. Huang. I did not know that at that time, no.
    Mr. LaTourette. The fact of the matter is all those facts 
which I believe to be true, and I understand you say you didn't 
know them in 1996, that's exactly the way that you used to 
raise money illegally in 1992 and 1993. You see the problem, 
right?
    Mr. Huang. Excuse me.
    [Discussion off the record.]
    Mr. Huang. To the extent of the conduit money, that's 
correct. But the process was not exactly the same on that, as 
you know very well, on that. You know what I'm trying to say.
    Mr. LaTourette. I do know what you're trying to say. I'll 
come back and we'll talk some more later. I thank everybody for 
their courtesy.
    Mr. Burton. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. I would like to yield my 
time to Mr. Souder.
    Mr. Souder. I thank the gentleman from California. I 
appreciate that. Good to see you again, Mr. Huang. We're going 
to----
    Mr. Huang. Morning.
    Mr. Souder [continuing]. Now go back to some of the Mr. 
Hubbell discussions that we had yesterday. And I wanted to 
first review--yesterday I asked you about a Little Rock visit 
and where you had a car, and you couldn't at that time 
recollect why you were in Little Rock. You said that you didn't 
have business interests there, personal or family, and probably 
weren't vacationing.
    I wondered if overnight, I know it's a number of years ago, 
whether you had a chance to review.
    Mr. Huang. I still cannot recall I went to Little Rock. I 
might have. All right. From this American Express charge 
records there are two car registrations.
    Mr. Souder. I notice that, too.
    Mr. Huang. The few possibilities there, since I cannot 
really recall for sure, the family was there, the--James Riady, 
the whole family including the children and, I believe, the 
maid.
    Mr. Souder. Now, wait. Yesterday we talked about airline 
flight records showing that Mr. Riady was in New Orleans, and 
you didn't think that he was in Little Rock.
    Mr. Huang. It was not a case of in New Orleans, sir.
    Mr. Souder. The flight ticket on the bottom.
    Mr. Huang. The flight ticket on the date on the charges on 
June 25th. So I believe--after they finish all the Washington 
event, they went to Orlando and New Orleans. This is probably 
visiting Little Rock was prior to the visit of Washington, DC.
    Mr. Souder. So let me see if I've got this straight. 
Because yesterday I had asked you whether you were with Mr. 
Riady in Little Rock and you couldn't recall being in Little 
Rock, but your car registration showed that, but you didn't 
think Mr. Riady was. Now, today Mr. Riady and his family, and/
or his family, you believe were in Little Rock and they could 
have used your credit card; is that what you're saying?
    Mr. Huang. The credit card made--I may have made a 
reservation and reserved the car for them. Now, if I were in 
Little Rock, I--one of the car I was using--there are two cars. 
One of the better cars was using for the family, the other one 
was used by me.
    Mr. Souder. So one car could have been used by you, you 
say.
    Mr. Huang. Yeah.
    Mr. Souder. And one by the Riadys.
    Mr. Huang. By the Riadys. There's a better one, a larger 
charge bill of $223.65, that represent a longer period of time 
and also a better selection of a car that the other one was----
    [Discussion off the record.]
    Mr. Huang. That was basically I used my credit card to make 
a reservation or travel arrangement for the family.
    Mr. Souder. So as I understand what you're saying, the 
better car was for Mr. Riady and his family most likely.
    Mr. Huang. I'm speculating on that.
    Mr. Souder. But it is your credit card.
    Mr. Huang. That was my credit card, yes.
    Mr. Souder. And there was a second car and you're 
speculating that you were in the second car.
    Mr. Huang. If I----
    Mr. Souder. If you were there.
    Mr. Huang. If I was there. Because----
    Mr. Souder. Did you go to Little Rock often?
    Mr. Huang. In that year I visited Little Rock every now and 
then, but it's not very often. Few times, I think, in the 1993, 
1994.
    Mr. Souder. I mean, a few times is two.
    Mr. Huang. Oh, it's more than two, sir.
    Mr. Souder. More than two.
    Mr. Huang. Yeah. About three to five times, yes.
    Mr. Souder. And I mean, did you travel lots of other 
places, too, in your job?
    Mr. Huang. Yes, some places; yes, I do.
    Mr. Souder. Let me--here's why I keep asking you this 
question because I have a series of questions to follow. This 
is a very critical time period and something that's been very 
much examined around the United States. Because yesterday--and 
you correct me if I'm misstating this, but I think what we 
established that what you said was that you met Mr. Hubbell at 
a reception in the spring. You didn't have the precise date. 
We----
    Mr. Huang. No, did I say the Inauguration of 1993?
    Mr. Souder. In 1993 you met him at the----
    Mr. Huang. That was the first I met him.
    Mr. Souder. First you met him.
    Mr. Huang. Right.
    Mr. Souder. But you saw him at a reception in the spring of 
1994.
    Mr. Huang. That's correct.
    Mr. Souder. And he gave you a card.
    Mr. Huang. Right.
    Mr. Souder. And then on May 19th, which may or may not have 
been approximately the time of the reception, but he called--
what we know from the records is he called Lippo Bank twice. 
Yesterday you speculated that those two phone calls may have 
been about an appointment.
    Mr. Huang. No, the appointment----
    Mr. Souder. Of Mr. Riady.
    Mr. Huang. Right.
    Mr. Souder. And then on June 11th, Mr. Riady comes to 
Washington.
    Mr. Huang. June.
    Mr. Souder. 11th--he comes to Washington. That's when I 
asked you about the travelers checks. He brought $32,000 
including $17,500 travelers--when he came to the United States, 
excuse me, he came to the United States on June 11th.
    Mr. Huang. I'm not sure to Washington, though.
    Mr. Souder. I take that back. He came to the United States 
on June 11th. That in the--so he came to--he came to the United 
States on June 11th. Then you also said during that time period 
you talked to Mr. Riady about the support, the help for a 
friend. So we're in this period of time between where Mr. 
Hubbell has called the Lippo Bank, you received a card. You 
also said yesterday that you talked to Doug Buford, who was 
with Bruce Lindsey's law firm, former law firm, and he talked 
to you about the need for money for Mr. Hubbell. That's where 
you first learned about the money. So we have you getting a 
card from Mr. Hubbell, you talking to Mr. Buford.
    Mr. Cobb. The Buford conversation was first.
    Mr. Souder. The Buford conversation was first. You heard 
about----
    Mr. Waxman. Mr. Chairman, let me ask unanimous consent, I 
notice that Mr. Shays had 15 minutes, Mr. LaTourette had 15 
minutes, and Mr. Souder yielded 5 minutes of his time to Mr. 
Shays. I ask unanimous consent that Mr. Souder be given 10 
additional minutes so he will also have 15 minutes.
    Mr. Burton. Without objection.
    Mr. Ose. Reclaiming my time, I thank the gentleman from 
California. This is my yield to him.
    Mr. Souder. California is a great State.
    So you first got a call from Doug Buford, then you got a 
card from Webb Hubbell. Then Mr. Hubbell called to Lippo Bank. 
But as I understood you to say that while you thought it might 
have been an appointment, the appointment was going to be set 
up through you because, generally speaking, Mr. Riady didn't 
meet with Mr. Hubbell except through you, to your knowledge.
    Mr. Huang. Right.
    Mr. Souder. Then you talked with Mr. Riady about the money. 
And all this was occurring in this period of time somewhere 
between May 19th where we have the documented phone calls and 
the--and where the money actually went, which was June 24th. In 
that period of time it appears, at least from the credit cards, 
that you were in Little Rock with the Riadys. At least there's 
two cars rented in Little Rock.
    Mr. Huang. As I----
    Mr. Souder. In your name.
    [Discussion off the record.]
    Mr. Huang. Congressman, it is not--it was my duty to make 
travel arrangements, very frequently travel arrangements for 
Mr. Riady or Mr. Riady and his family. It's been the practice 
for me, anyway, as reflected by this American Express charge 
card slips on that. And as I indicated to you, I do not recall 
at that time I was in Little Rock by my own in this political 
occasion.
    Mr. Souder. I just--I have to say that even though it's a 
number of years ago, because of the nature of this controversy 
and the type of issues that we're dealing with, I find it 
extraordinary that you can't remember whether you were in 
Little Rock. It is so much a part of what we're doing here, 
because you need to understand the gravity of this, that you 
also said yesterday, as I understood this, that Mr. Riady knew 
Mr. Hubbell back way before they went to Washington because--is 
that because Mr. Hubbell did work for the Riadys?
    Mr. Huang. Either Riady or Worthen at that time. Mr. Riady 
had--Lippo had an interest in the Worthen Bank during the mid-
eighties.
    Mr. Souder. And that in itself is a sordid tale that most 
people will not understand we don't have a chance to get into 
with the Worthen Bank, and it leads us into Stevens and a 
number of other things. But you see what a tangled web we weave 
here. Because one of the difficulties--and there are many, many 
millions of Americans who believe that silence was purchased--
and that when you see the tangled web of relationships and the 
types of discussions here, it's disconcerting. But let me move 
on. Because if you don't remember, I'm not going to, by 
repeating the question, continue to find that.
    So now what we do, I think, agree that by the time we get 
to the 21st, they're both in Washington.
    Mr. Huang. Right.
    Mr. Souder. Now, on June 23rd,--on June--I asked you about 
the phone log call on June 20th exhibit 97 yesterday to Mark 
Middleton, and the meeting was set up and we didn't establish 
where you were because you thought maybe the Hay-Adams, but you 
could have been in Little Rock.
    Now on June 21st, the call schedule for Bruce Lindsey 
refers to, if you can look at exhibit 98 if we could put that 
up, it refers to a call schedule for Bruce Lindsey. Did you and 
Mr. Riady meet with Mr. Mark Middleton on June 21st?
    [Exhibit 98 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.279
    
    Mr. Huang. I don't know exactly time. We did meet in that 
week with Mr. Middleton, yeah.
    Mr. Souder. Do you know who was at that meeting?
    Mr. Huang. Do I----
    Mr. Souder. Do you know who was at the meeting with Mr. 
Middleton besides you and Mr. Riady?
    Mr. Huang. I do know one occasion just myself and Mr. Riady 
and Mr. Middleton alone.
    Mr. Souder. And what would the purpose of that meeting have 
been?
    Mr. Huang. Because we are all acquaintances, you know, just 
friendly chat, because Mr. Riady has not seen Mr. Middleton for 
awhile. Just to more a courtesy basis.
    Mr. Souder. Did--what might you have chatted about? I mean, 
the weather or----
    Mr. Huang. I really don't have any recollection of exactly 
account, Congressman.
    Mr. Souder. But since Mr. Riady has just been asked to give 
a substantial contribution to Mr. Hubbell by another longtime 
Arkansas person, and Mark Middleton is a longtime political 
director of this administration also from Arkansas, you don't 
think it would have come up in the discussion with Hubbell?
    [Discussion off the record.]
    Mr. Huang. The chronological thing is, Mr. Souder, as you 
know very well, that Mr. Buford was the first one. That was 
quite an early time on that basis. And the visit with 
Middleton, I have no knowledge of what was--I cannot remember 
what was talked about. But I do remember it was not--he and I 
never talk with Mr. Hubbell about it.
    Mr. Souder. So your testimony was that, to your knowledge, 
Mr. Middleton didn't know Webb Hubbell needed help, to your 
knowledge.
    Mr. Huang. To my knowledge, who?
    Mr. Souder. You have not discussed with Mr. Middleton that 
Webb Hubbell needed help.
    Mr. Huang. That is correct.
    Mr. Souder. And that--who suggested that Bruce Lindsey be 
called that shows up in that document that you wanted to meet 
with Bruce Lindsey?
    [Discussion off the record.]
    Mr. Huang. I really don't know. I really don't know at this 
point.
    Mr. Souder. What's troubling about this is that in that 
memo or the White House notation, they'd--you'd like to see--
you're going to see Middleton, that you would like to see 
Lindsey. Doug Buford, you've testified, is the person who 
notified you that they needed help. Yesterday you said that 
that help was basically not really a job, it was more out of 
friendship and the need that Mr. Hubbell had; that, and that 
Doug Buford is a senior partner in Bruce Lindsey's former law 
firm, which is named Lindsey. Do you think that Bruce Lindsey 
was aware that Mr. Riady was going to give this $100,000 check 
to Mr. Hubbell?
    Mr. Huang. I do not know.
    Mr. Souder. So, to your knowledge, you never talked with 
Bruce Lindsey about whether or not Mr. Riady was going to aid 
Mr. Hubbell?
    Mr. Huang. I did not, sir; no.
    Mr. Souder. Did Mr. Riady ever say to you whether he had 
talked to Bruce Lindsey or to Mark Middleton about Mr. Hubbell?
    Mr. Huang. No, he did not.
    Mr. Souder. Would it seem logical to you that Mr. Riady 
might have wanted to check out with some of the people he had 
worked with in Arkansas about whether to give the money to Mr. 
Hubbell?
    Mr. Huang. The conversation never occurred on that in the 
line you are suggesting, sir. No.
    Mr. Souder. Exhibit 99 as well as exhibit 100 shows a 
series of meetings that I will ask you about, where you and Mr. 
Riady visited different people from the administration. Did you 
return to the White House on June 21st to attend a Business 
Leadership Forum, to your recollection?
    [Exhibits 99 and 100 follow:]
    [GRAPHIC] [TIFF OMITTED] T6496.280
    
    [GRAPHIC] [TIFF OMITTED] T6496.281
    
    Mr. Huang. I believe there was--there was functions in the 
White House during that period of time. I believe we left and 
we went back to the function in the evening.
    Mr. Souder. Because if--as you can see from this exhibit, 
there were a series of meetings that I want to ask you about; 
and in fact, three--looks like three with Mr. Middleton. And 
your testimony is that in none of those meetings you talked 
about Webb Hubbell.
    Mr. Huang. Not with me, no.
    Mr. Souder. Did you discuss any of these meetings with--I'm 
going to--my time is about to run out. I will not startup on 
another round. I just find it very difficult because what we're 
going to see at the end of this is that Mr. Riady writes a 
check for $100,000. You've had basically six visits to the 
White House in a period of 4 days when this is a pending 
matter. And it's just hard to believe there was not a 
discussion about the Hubbell matter.
    [Discussion off the record.]
    Mr. Huang. You know, the matters during the week, we did 
meet with Mr. Hubbell himself, at least on two occasions we met 
with him. And also some of the visit went in, I believe I took 
the Riadys to--wife and also children to visit to tour the 
White House. Maybe the name who clear us in is Middleton, but 
actually it was probably Middleton was not involved. It could 
be someone else who cleared us in. So we did visit White House 
quite a few times, but my best recollection was I've never been 
aware of there's any issues related to Hubbell that I was 
involved. Because we had a meeting with Mr. Hubbell personally 
already; one was in the hotel, one was in his office at that 
time.
    Mr. Souder. OK. My followup questions are going to relate 
to the meeting with Alexis Herman, the meeting with Webb 
Hubbell, as well as some others. Thank you.
    Mr. Waxman. Mr. Chairman.
    Mr. Burton. I think it's my time now. But do you have 
something you want to ask?
    Mr. Waxman. I thought Mr. Ose was going to go. Are you 
going to take your time now?
    Mr. Burton. I think Mr. Ose yielded.
    I would like to go over the chronology real quickly and 
followup on what Mr. Souder was talking about.
    May 19th, Hubbell calls John Huang at Lippo Bank, 1994. 
That's at 12:25. He called again a minute later at the Lippo 
Bank.
    May 23rd, Huang calls Doug Buford, Buford asks Huang to 
contribute to the Hubbell children's education trust fund. That 
was at 7:03 a.m.
    June 7, 1994, 4:17 p.m., Hubbell calls John Huang at the 
Lippo Bank.
    June 19th through--and Tuesday June 20th, John Huang and 
James Riady are in Little Rock. Monday, June 20th, John Huang 
calls Mark Middleton. He wants to arrange a meeting with 
Middleton for June 21st at 3 p.m. That's the time that's 
written in.
    Tuesday, June 21st, 3:17 p.m., Huang and Riady call Bruce 
Lindsey at the White House and tell him they're meeting with 
Mark Middleton at 4:30 p.m., and ask if they could see him for 
a minute either today or sometime this week. Lindsey claims he 
did not meet with Huang or Riady, but nevertheless that meeting 
was set up for 4:30 that day. 4:45 that day, Tuesday June 21st, 
Huang and Riady enter the White House for a meeting with Mark 
Middleton. 6:51, Huang, Riady and his wife Aileen enter the 
White House for a Business Leadership Forum. That was later on. 
Evidently he went back that day.
    June 22nd, 12 noon, John Huang's expense sheet shows a 
lunch at the Mayflower for $61.69. 2:37 p.m., John Huang enters 
the White House for a meeting with Mark Middleton. 2:57, James 
Riady enters the White House for a meeting with Mark Middleton. 
6.30 p.m., the Presidential Gala took place, and of course many 
of the people were there to visit with President Clinton.
    Thursday, June 23rd, Hubbell has James Riady on his 
schedule. That's 2 days later or the next day. 10.10 a.m., Mark 
Grobmyer enters the White House to see Alexis Herman. Huang and 
Riady enter the White House at 10:26 to meet Alexis Herman. 
10:32, Huang exits the White House. Unknown when Riady left. 
11:05, call to the White House chief of staff's office from 
James Riady's room at the Hay-Adams. 11:10, call to the 
Democrat Leadership Council from James Riady's room at the Hay-
Adams. Noon, Hubbell has James Riady, H. Adams, 12, on his 
schedule. 2 p.m., call to an unknown White House number from 
James Riady's room at the Hay-Adams.
    Friday, June 24th, Middleton schedule reads lunch with 
James Riady, Aileen Riady, and children. 12:05, John Huang 
enters the White House to see Middleton. This is on the 24th. 
John and Carolyn Riady, James' children enter the White House 
to see Middleton. James Riady enters the White House to see 
Middleton. Call to Debbie Shoen at 2:11 at the OEOB from James 
Riady's room at the Hay-Adams. 2:16, call to unknown White 
House number from James Riady's room at the Hay-Adams. 5, 
Hubbell schedule says meet with James Riady. 8:04, call to the 
residence of the Indonesian ambassador to the United States 
from James Riady's room at the Hay-Adams. 9:50, call to unknown 
White House number from James Riady's room at the Hay-Adams. 
10:10, call to the residence of the Indonesian ambassador to 
the United States from James Riady's room at the Hay-Adams.
    Saturday, June 5th, John Huang, James and Aileen Riady with 
the four children go to the White House for the President's 
radio address. At 3:45 they check out on June 26th at 3:45 p.m. 
That's on Sunday.
    The next day, the next day $99,985, $100,000 minus the $15 
transfer fee from the Hong Kong Bank, was sent to Webb Hubbell.
    June 30th, Hubbell calls the Lippo Bank in Los Angeles, 
Huang was in China. 3:17, he calls, same day. Huang was in 
China.
    July 5th, Huang enters the United States.
    July 8th, Huang--or Hubbell calls Lippo Bank in Los 
Angeles; 2:20 Hubbell calls Lippo Bank in Los Angeles.
    July 12th, Hubbell calls Lippo Bank in Los Angeles.
    July 13th, Hubbell calls the Lippo Bank, and at 2:23 he 
calls the Lippo Bank.
    When were you appointed to the Department of Commerce, 
after that?
    To refresh your memory I think it was July 18th.
    Mr. Huang. Oh, I'm sorry, yes.
    Mr. Burton. So you were appointed by the President to the 
Commerce Department on July 18th?
    Mr. Huang. Monday, right.
    Mr. Burton. I presume you're going to answer this question 
in the negative, but I would like to ask you for the record, 
all of this took place between you and the Riadys and all these 
meetings at the White House with Middleton; and I don't know if 
you met with the President, but you were in the White House 
many, many times with the Riadys.
    Does any of that and the $100,000 contribution that Webb 
Hubbell got from the Riadys have anything to do with you going 
over to the Commerce Department being appointed by the 
President?
    Mr. Huang. No. I was appointed already. I had knowledge 
way--you know, at least a month or two ahead of time. That has 
nothing to do with this money thing with Mr. Hubbell.
    Mr. Burton. So the $100,000 that was given by the Riadys 
just because they liked Mr. Hubbell had nothing to do with all 
these meetings at the White House and your appointment to the 
Commerce?
    Mr. Huang. It's nothing to do with my appointment, no.
    Mr. Waxman. Mr. Chairman, I would like to ask unanimous 
consent that you be given an additional 10 minutes so you can 
have as much time as each of the Republican Members have had.
    Mr. Burton. I appreciate that Mr. Waxman, but I will take a 
different line of questioning at a subsequent time so I will go 
ahead and yield.
    Mr. Waxman. Maybe we could inquire--maybe Mr. Huang wants a 
short break.
    Mr. Burton. Yes. Mr. Huang, would you like a short break 
right now, and if so, would you like to have included in that a 
time to get a sandwich for lunch since it's almost noon?
    Mr. Huang. Better ask my counsel. I normally don't take 
lunch, Mr. Chairman.
    Mr. Burton. Well, I'll let you ask your counsel if you guys 
would like to take 30 minutes or 40 minutes we can do that.
    Mr. Waxman. Mr. Chairman, may I make a suggestion to the 
counsel? It's just so--I would certainly prefer that we just 
move on and let's get this questioning so that we can hopefully 
finish it at some reasonable point. But there's no guarantee 
that if we continue without lunch that we will finish the 
questioning.
    Mr. Cobb. If we could have a 10-minute break.
    Mr. Burton. Ten minutes would be fine. Is that OK with 
everybody? If your stomach starts growling, holler and we 
will----
    Mr. Burton. Did you have a comment before we break Mr. 
Huang?
    Mr. Huang. Mr. Chairman, he just rattled a list of the 
chronology of events.
    Mr. Burton. Yes.
    Mr. Huang. I just want to make sure that May 23, that event 
related to Mr. Buford's call, which is not related to what Mr. 
Souder is referring, that there is no relations on that.
    Mr. Burton. On the May 23rd call that Huang called--you 
called Doug Buford.
    Mr. Huang. I don't recall. But I know for sure this thing 
says it's not related to what Mr. Souder was talking about.
    Mr. Burton. It says here that Buford asked Huang to 
contribute to the Hubbell's children's education fund at 7:03 
that morning; is that correct?
    Mr. Huang. I don't recall on that.
    Mr. Souder. Will the chairman yield?
    Mr. Burton. Yes, I'll yield.
    Mr. Souder. My understanding from the questioning is, while 
our notes have suggested it was May 23rd, he suggested that 
date was earlier before the reception that he had heard from 
Mr. Buford.
    Mr. Burton. We'll double-check our records on that. We'll 
stand in recess for 10, 15 minutes. Then we'll be right back. 
Let's make it 15, 15 minutes. We'll be back at 5 till 11.
    [Recess.]
    Mr. Burton. In order to expedite things, Mr. Huang, we'll 
go ahead and get started with Mr. Souder.
    Mr. Shays. Mr. Chairman, I'm sorry. I'm here. I want to 
yield my time to Mr. Souder.
    Mr. Burton. We'll recognize you, Mr. Shays, and you yield 
to Mr. Souder then.
    Mr. Souder. I thank you.
    Mr. Huang, I wanted to ask you about the meeting with Mr. 
Hubbell and Mr. Riady. The records seem to show it was at 7 
a.m., on June 23rd. Do you recall that meeting? That's exhibit 
101.
    [Exhibit 101 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.282
    
    Mr. Huang. My recollection was not really--let me see the 
exhibits. Personally, I do not have a recollection if there was 
a morning meeting, but I do remember the afternoon meeting.
    Mr. Souder. I think in the 302s that you told the Justice 
Department that Mr. Riady met Mr. Hubbell at a breakfast 
meeting at Mr. Hubbell's temporary office.
    Mr. Huang. Mr. Souder, as I reported earlier, there were 
two meetings between Mr. Riady and Mr. Hubbell. And to a 
certain degree I was also present. Not all the time. The one 
was related to a luncheon, and I did not join the luncheon 
meeting until, at the tail end, I joined in. I thought the 
meeting was over between them. I just barged into that room. 
The luncheon meeting was at Hay-Adams in Mr. Riady's room. The 
other one would be in Mr. Hubbell's office, or temporary 
office, or wherever Mr. Miller--in Mr. Miller's firm.
    Mr. Souder. So you don't recall whether the June 23rd 
meeting on Mr. Hubbell's schedule here, exhibit 101, is in fact 
the breakfast meeting?
    Mr. Huang. My recollection was that the lunch meeting was 
the first in the afternoon.
    Mr. Souder. OK. So let's go to the lunch meeting. Is--let 
me--I've--I've got these questions in a different order. When 
we changed the date, it confused me a little bit.
    At what point--let me ask this question. At what point did 
Mr. Riady--was it after the lunch meeting he asked you to check 
on the bank account information for Mr. Hubbell? Did he ask you 
after a meeting with Mr. Riady?
    Mr. Huang. I believe it was all after the whole thing is 
over.
    Mr. Souder. After, so this like June 25th?
    Mr. Huang. The week it's over, yes.
    Mr. Souder. So he didn't walk out of any meeting and ask 
you about that, that was a separate conversation at the end of 
the week?
    Mr. Huang. That's a separate conversation, right.
    Mr. Souder. So in--what the record shows is that on June 
23rd there was a meeting with Mr. Hubbell and Mr. Riady in Mr. 
Hubbell's log, then--but you don't--you believe the luncheon 
meeting was first. Do you know who was at the breakfast 
meeting?
    Mr. Huang. My recollection, there wasn't a breakfast 
meeting.
    Mr. Souder. Let me move to, also on June 23rd on exhibits 
99 and 100, which we showed earlier, there was a meeting there 
with Mr. Riady and you with Alexis Herman, the Labor Secretary. 
Who was at that meeting?
    Mr. Huang. I cannot really recall on that incidence. 
However, the records indicate there was a meeting with Ms. 
Herman, probably just as a courtesy visit to Ms. Herman, very 
simple like that.
    Mr. Souder. Was this Mark Grobmyer was also shown as being 
at that meeting. Was this the only meeting with Mark Grobmyer 
that week.
    Mr. Huang. At that period of time, yes.
    Mr. Souder. For the record could you explain who--Mr. 
Grobmyer is--did he do work for Lippo?
    Mr. Huang. He was, he was--at least he was hired as a 
consultant for Lippo. Probably by that time he was no longer--
I'm talking about that time around June 1994--was no longer the 
consultant any further.
    Mr. Souder. He's another attorney from Little Rock?
    Mr. Huang. That is correct.
    Mr. Souder. Sometimes you wonder if there are any attorneys 
left in Little Rock. But that's another--they seem to mostly be 
here.
    Why would he have been at the meeting?
    Mr. Huang. Maybe he was trying to introduce, you know--he 
might have known Alexis Herman better than Mr. Riady did at 
that time.
    By the way, Congressman Souder, the records indicate the 
meeting was very, very short though. It was just a few minutes 
that we were seeing Mrs. Herman.
    Mr. Souder. What would be the point of seeing the Labor 
Secretary?
    Mr. Huang. She was not Labor Secretary then.
    Mr. Souder. What was she doing at that point?
    Mr. Huang. I believe she was Director of Public Liaison at 
that time for the White House, during that period of time, Mr. 
Souder.
    Mr. Souder. Exhibit 102 shows a telephone call, a receipt 
to the White House chief of staff office at 11:05, also on June 
23rd.
    [Exhibit 102 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.283
    
    Mr. Huang. The item No. 32 you are talking about sir?
    Mr. Souder. Yes.
    Mr. Burton. We'll now yield to Mr. Souder for his 5 
minutes.
    Mr. Souder. Item No. 32 is the White House call. Yeah, it's 
the 11:05 call.
    Yes, so the item No. 32, do you know why you would have 
called the White House chief of staff office that morning?
    Mr. Huang. I wouldn't know. I would not know. Definitely 
there were some calls being made from Mr. Riady's room to the 
White House, and I do not know.
    Mr. Souder. So you don't know whether it was--it was to Mr. 
Middleton, who was assistant chief of staff?
    Mr. Huang. I do not know.
    Mr. Souder. Exhibit 103 shows that at 11:10, which would be 
the item 35, there's a telephone call to the Democratic 
Leadership Council. Do you know who made that call or for what 
purpose?
    [Exhibit 103 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.284
    
    Mr. Huang. I don't know what--I cannot recall on that. But 
if anybody would call, it would be--I had a relationship with 
the DLC, Democratic Leadership Council, with Mr. Al From. I 
believe he was executive director for the DLC and more or less 
it's just a courtesy visit to visit Al From. That's about all, 
if that was the situation like that.
    Mr. Burton. Would the gentleman yield real briefly?
    Mr. Souder asked why a call from Mr. Riady's room would go 
to the chief of staff's office and you said you didn't know. 
And then just now there was a call to the Democratic Leadership 
Council from James Riady's room, and you said that you probably 
would have made that call; is that correct?
    Mr. Huang. No. The only thing is, Mr. Riady did not have 
any connections with the DLC.
    Mr. Burton. So there was a call to the Democratic 
Leadership Council's office. Would that have been your call?
    Mr. Huang. The only way--that would be me, yes, maybe me.
    Mr. Burton. So you were in the room at the same time that 
he called the chief of staff's office because that was only 5 
minutes before.
    Mr. Huang. Mr. Chairman----
    Mr. Burton. Let me just finish.
    If you were in the room 5 minutes before you called the 
Democratic Leadership Council for some reason, why wouldn't you 
have known why he was calling the chief of staff at the White 
House?
    Mr. Huang. That's a very good question, Mr. Chairman. I was 
really trying to say I did not really remember what was the 
content about why he called. I did also some support, and there 
were quite a lot of calls being made between Mr. Riady's hotel 
room and the White House, sir.
    Mr. Burton. I thank the gentleman for yielding.
    Mr. Souder. Then at 12 I think the records show in exhibit 
101 that you had a meeting with a Mr. Hubbell at the Hay-Adams. 
That was the lunch you were referring to earlier at 12 on 
exhibit 101?
    Mr. Huang. That is luncheon I was referring to that I 
recalled to, right.
    Mr. Souder. So--and what was the purpose of this meeting?
    Mr. Huang. Basically that Mr. Riady wanted to chat with Mr. 
Hubbell, and I was not, you know, involving in the luncheon, 
until the tail end I came back from outside.
    Mr. Souder. Yesterday you told me that to your knowledge 
that whenever there were meetings between Mr. Riady and Mr. 
Hubbell that you set them up. Had they met a number of times 
before? Had you set up other meetings?
    Mr. Huang. Prior to this?
    Mr. Souder. Yes.
    Mr. Huang. I didn't believe so, sir.
    Mr. Souder. So to your knowledge this, at least in this 
time period, was the only meeting between----
    Mr. Huang. I believe that was the first meeting, Mr. 
Souder.
    Mr. Souder. And you don't know what they chatted about?
    Mr. Huang. I don't know the detail.
    Mr. Souder. What would be some nondetail, kind of general 
feeling?
    Mr. Huang. Mr. Souder, let me offer this way to you. Mr. 
Riady did previously have conversation with me, and I did 
convey the information to him previously about people would 
like to, you know, suggest or help Mr. Hubbell. And I remember 
I mentioned to you yesterday about the set-up-a-trust-fund 
situation, the limit was the $15,000 limit. That was over the 
phone. He did not really give me any response about that. All 
right?
    And later on he came over here he asked me the opinion, I 
said if you really want to help a person, you want to help 
people you need. That's all I offered on that basis. And I was 
sort of left everything for him.
    Now, if you want me to say what was involved in meeting, I 
believe that was related to, you know, anything related to 
this.
    Mr. Souder. So did Mr. Riady tell you after he came out any 
comment that Mr. Hubbell might have made or any impressions? 
Did you talk about the meeting with him?
    Mr. Huang. No, I did not even ask about that.
    Mr. Souder. The exhibit 104 shows that then at 2 another 
phone call over to the White House. Do you know what the 
purpose of that phone call would have been? It was the officer 
for the number of White House personnel that's 456-7510 in the 
log there.
    [Exhibit 104 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.285
    
    Mr. Huang. I cannot recall specifically.
    Mr. Souder. Right after the lunch was completed.
    Mr. Huang. Mr. Souder, did you mention that was related to 
the White House personnel?
    Mr. Souder. Yes.
    Mr. Huang. OK.
    Mr. Souder. Do you know why you would have called White 
House personnel during that time?
    Mr. Huang. Maybe during the slack time and want to go over 
the visit with some of the friends.
    Mr. Waxman. Mr. Chairman, I ask unanimous consent Mr. 
Souder be given an additional 5 minutes.
    Mr. Burton. Without objection.
    Mr. Souder. Then the next day, exhibit 105, shows that 
there was a lunch at the White House mess with Mr. Riady, his 
family and Mark Middleton. Do you recall that?
    [Exhibit 105 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.286
    
    Mr. Huang. I remember there was a luncheon involved, but I 
was not attending.
    Mr. Souder. So you did not attend this lunch?
    Mr. Huang. Right. But I was there though. I was outside 
waiting in the reception room, as I reported to you yesterday.
    Mr. Souder. Was there anyone there besides--it says on the 
schedule Mr. and Mrs. Riady and their children, and it's on 
Mark Middleton's schedule; was anyone else at the luncheon that 
you know of or might have stopped by?
    Mr. Huang. Let me retract a little bit. There might be two 
luncheons involved. One luncheon was involving just Mrs. Riady 
and the children and myself in the White House mess. There was 
a separate luncheon, which I did not attend--I was waiting 
outside in the reception room--that involved Mr. Riady and Mr. 
Middleton, that in terms of who went to that luncheon I do not 
know for sure on that.
    Mr. Souder. Do you have any idea of what the purpose of 
this luncheon was at 12 on June 24th?
    Mr. Huang. Now, if this is the day referring to with the 
families, the children, just an experiencing thing for Mrs. 
Aileen Riady and the children to be having the opportunity of 
dining in the mess.
    Mr. Souder. Just as a casual observer, we're having a lot 
of experiential time with Mr. Middleton's schedule here. I 
think there are three different appointments. There's a lunch. 
Presumably he has something--the reason it's hard not to 
believe there wasn't any substantive discussion is that it 
isn't as though they didn't already see him a couple of times 
earlier and seeing him more, and it's hard to believe there 
weren't any substantive discussions because there's only so 
much socializing you do. It's not like they were real buddy-
buddy here.
    Mr. Huang. Mr. Souder, I can offer this way because he was 
the only person that would know better to get us in. So we 
always call on the same person to get--let him clear us in on 
that basis.
    Mr. Souder. So you don't think he stayed at the lunch?
    Mr. Huang. Are you talking about staying--in my luncheon, I 
didn't believe, with the children.
    Mr. Souder. And Mr. Middleton.
    Mr. Huang. Mr. Middleton. In my luncheon, he did not.
    Mr. Souder. He just----
    Mr. Huang. He just book us in, I didn't believe he was at a 
luncheon with us.
    But he had a luncheon with Riady on the other luncheon I 
was talking about.
    Mr. Souder. And do you know what was discussed at that 
luncheon?
    Mr. Huang. No, I don't know.
    Mr. Souder. And Mr. Riady didn't discuss anything with you 
about that?
    Mr. Huang. He did not.
    Mr. Souder. So, in effect, what you were saying is there 
were a lot of social calls, but there was one very substantive 
luncheon most likely because it was done without you or the 
children present.
    Mr. Huang. I don't know whether it was substantive or not, 
yeah.
    Mr. Souder. They had already done their social calls. I 
mean, in effect, you testified you have had multiple social 
calls with him, he did a social call to get you into the 
luncheon. So the social call part is kind of done; then they 
have another luncheon.
    [Discussion off the record.]
    Mr. Huang. I really don't know about that, yeah.
    Mr. Souder. And I know you weren't present. On exhibit 106, 
there's a receipt, another phone call over to Debbi Shon at the 
Executive Office Building--Shon, is it Shon?
    [Exhibit 106 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.287
    
    Mr. Huang. Shon.
    Mr. Souder. Do you know what that purpose would have been?
    Mr. Huang. Just a courtesy. Shon is coming from our 
community. She's a Korean American, and we knew her before.
    Mr. Souder. So it was a courtesy call?
    Mr. Huang. It's basically make a round, yeah.
    Mr. Souder. Do you know who called 456-7510 at 2:16, which 
is in exhibit 106 as well?
    Mr. Huang. Mr. Souder, you have to help me. What is 7510's 
department? Is it personnel?
    Mr. Souder. Personnel.
    Mr. Huang. Probably that's--I do remember we met with Maria 
Haley, I believe she was also at that time working in the 
Personnel Department as also old friends from Arkansas time. 
You know, just went over to say hello.
    Mr. Burton. Would the gentleman yield?
    Mr. Souder. I would be happy to yield.
    Mr. Burton. Did you discuss with her your future position 
at the Department of Commerce when you were in there?
    Mr. Huang. I might have. My position was determined I 
believe.
    Mr. Burton. I know you said that. But we're looking at the 
sequence of events here that led up to Webb Hubbell getting 
$100,000 from the Riadys and then a short time later you were 
appointed to an important position at the Department of 
Commerce. On this list, it shows that you met with a lot of 
people and then you met with the personnel director there at 
the White House. Did you discuss with her your position at the 
Department of Commerce that was coming up, or the possibility 
you would be getting that job?
    Mr. Huang. I have already got offered it. At that time I 
mentioned to her that I would be coming to Commerce Department.
    Mr. Burton. So you did talk to her about the job at the 
Commerce Department?
    Mr. Huang. That is correct.
    Mr. Burton. Thank you.
    Mr. Souder. In exhibit 107, if we could go to 107, once 
again where--I think this is Mr. Hubbell's schedule again. It 
shows June 24th at 5 that Mr. Riady met with Mr. Hubbell. Do 
you remember that meeting?
    [Exhibit 107 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.288
    
    Mr. Huang. Yes, I do.
    Mr. Souder. And who was at that meeting?
    Mr. Huang. Mr. Riady and I went over there. Mr. Riady and 
Mr. Hubbell went into the room to discuss. I was sitting 
outside in a small conference room.
    Mr. Souder. Where did it take place, did you say?
    Mr. Huang. I think it's Mr. Miller's office on 19th or 20th 
and M Street in that corner.
    Mr. Souder. Who is he?
    Mr. Huang. Mr. Miller I believe used to be the Treasury 
Secretary. I think he was officially in a previous rank in the 
administration.
    Mr. Waxman. Would the gentleman yield to me for a quick 
question?
    You mentioned $100,000 that Mr. Riady gave to Webb Hubbell, 
you said because of friendship. But was he expecting some work 
in exchange for that or was he simply giving a gift?
    Mr. Huang. I do know some basically trying to answer and do 
certain thing, but I don't know the specific things at that 
time. You know, hire him as a consultant type of things.
    Mr. Waxman. But he was planning to hire him to do something 
in exchange for the $100,000, you don't know whether the work 
was done; but did you know he was being hired or just given a 
gift?
    Mr. Huang. No, in other words, we'll hire him to do 
whatever the work he can to help the Lippo situation. More 
specifically, I did not know at that time.
    Mr. Waxman. There was $100,000 to hire him?
    Mr. Huang. That is correct.
    Mr. Waxman. Thank you. I thank the gentleman for yielding.
    Mr. Huang. Mr. Waxman, I'm not very clear what I knew at 
that time, that the $100,000 was mentioned or not. Normally 
that would be an amount of money in practice that Mr. Riady 
would do. For instance, on Mark Grobmyer situation was start at 
like $100,000. So you could get another consultant probably be 
logical amount. I would have to venture to guess on that.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman and I would like to 
yield to Mr. Souder.
    Mr. Souder. I think it's important to point out for the 
record that yesterday, under oath, when I asked you the 
question, was this predominantly a job or was this 
predominantly out of friendship, you said that it was 
predominantly out of friendship. And when you raised it to Mr. 
Riady you raised that we should help him out of friendship.
    So to the degree it was a job, there might have been tasks 
given, but you do not recall the specifics of the tasks. In 
fact, you stated again today earlier that you felt that this 
was predominantly to help out a friend who is in need, not a 
job.
    Mr. Huang. That's correct.
    Mr. Souder. I wanted to followup. You do not recall the 
breakfast meeting, but Mr. Hubbell had a breakfast meeting. We 
have discussed the earlier luncheon meeting, and then there was 
another meeting at 5 with Mr. Hubbell. Why do you believe there 
were at least two and possibly three meetings needed?
    Mr. Huang. The reason I remember those two is because I was 
there.
    Mr. Souder. Yes. But why do you think they needed so much 
time together? Because it is clearly beyond courtesy. It is 
clearly now beyond the point of even saying, hey, I am in real 
trouble. I need the money. These are pretty lengthy time 
periods now, all in 1 day.
    Mr. Huang. That was different dates.
    Mr. Souder. The breakfast was on the 23rd, but you did not 
recall that. You are right. Two were on the 23rd and one was on 
the 24th.
    Mr. Huang. Mr. Souder, I really deep down in my heart did 
not think this was a breakfast meeting.
    Mr. Souder. Let's say there were two meetings. Why would 
two meal meetings be needed here?
    Mr. Huang. As I also mentioned to you, the logical thing is 
they had not seen each other for a while and really sit down to 
chat. The first one was basis of warming up and chatting. The 
following meeting was talking about more detail in his office.
    Mr. Souder. At what point did Mr. Riady ask you to check 
into his bank account?
    Mr. Huang. After those two meetings. Apparently the meeting 
was over. Mr. Riady thought there was one item missing maybe 
out of his bank account. So I don't now exactly the date I 
believe I called Mr. Hubbell to find out what his bank account 
was, you know, to have the accounts being wired. So I passed 
the number back to either Lippo or back to Mr. Riady; I don't 
remember exactly whom I did.
    Mr. Souder. Could you precisely explain to me what ``in his 
bank account means?'' You said you called Mr. Hubbell. Did you 
ask him what his assets were, his current cash-flow?
    Mr. Huang. Oh, no. To do that I knew probably the decision 
was already being made to offer help to him. The money has to 
be coming in----
    Mr. Souder. So you just wanted a number where to send the 
money?
    Mr. Huang. That's correct, to facilitate the wire for 
sending the money.
    Mr. Souder. In the 302 from the Justice Department, on page 
42, the recollection--and it is DOJ H000065--it says, according 
to FBI's recounting of your conversation, ``During the last 
week of June 1994, Hubbell and J. Riady had a breakfast meeting 
in Hubbell's temporary office at 19th and M in Washington, DC. 
Huang was outside the door during the meeting pursuant to 
Riady's.''
    Now, you are saying that was actually a lunch?
    Mr. Huang. I think I was referring there was a meeting in 
Mr. Miller's office, I was waiting outside the room.
    Mr. Souder. But according to this deposition, it starts out 
by saying that you recall a breakfast meeting, then you also 
recall that they had a lunch meeting. And the breakfast 
meeting, by the way, is on Mr. Hubbell's schedule. And then in 
the evening, they had another meeting. And I am confused as to 
why the FBI is reporting that you said, in effect, three and 
the records show three and what the discrepancy is.
    Mr. Huang. Congressman, No. 1, that was not really a FBI 
deposition at the time. All right? And I never review about 
302. I want to testify to you on that. I assume FBI might 
probably be confused by Mr. Hubbell's diary for that. I always 
asserted that it was two meetings, for sure that in my mind.
    Mr. Souder. I mean, is it possible there was a meeting you 
were not aware of that shows up in Mr. Hubbell's diary?
    Mr. Huang. Everything is possible, though. You know, it is 
very unlikely at that period of time it is just something I was 
not aware of.
    Mr. Souder. If I could ask for 5 additional minutes, I 
think I could finish up with my Hubbell questioning. Is that 
acceptable?
    Mr. Burton. Without objection.
    Mr. Souder. It also shows that on the evening of June 24th 
there was a call made to the Indonesian ambassador at 8:04. 
That's on exhibit 108.
    [Exhibit 108 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.289
    
    Mr. Huang. I can generally talk about that. Whenever Mr. 
Riady is in town, he tries to make a round to pay a courtesy 
visit to various people and, you know, renew the friendship. He 
and the Indonesian ambassador were friends back in Indonesia.
    Mr. Souder. And then at 9:50 there was a call once again 
over to White House personnel.
    Mr. Huang. In the evening?
    Mr. Souder. Yes. That also shows up in exhibit 108. 
Presumably that was not a courtesy call. It is the same number 
as earlier we determined was 456-7510 was White House 
personnel. There was a call to that same number on June 23rd 
and there was a call in the afternoon on June 24th and then 
another call in the night of June 24th to the same number.
    Mr. Huang. I could not explain to you on that, no.
    Mr. Souder. Then after that call----
    Mr. Burton. Would the gentleman yield real briefly? We will 
get you some more time.
    Were you in the Riadys' room when he made that call at 9:50 
that night?
    Mr. Huang. I cannot recall, Mr. Chairman.
    Mr. Hubbell. You said when you had gone to the White House 
personnel office earlier that you had discussed your potential 
job over at the Department of Commerce. Now we have a call just 
a day or so before Mr. Hubbell gets the $100,000 at 9:50 at 
night, again to the personnel office. This obviously was not a 
courtesy call. So was Mr. Riady talking to them about your job 
to make sure you were getting that job at the Department of 
Commerce or was this just another courtesy call?
    Mr. Huang. Mr. Chairman, I really don't know about that. As 
I stated to you before, my appointment has nothing to do with 
Mr. Hubbell's--the money to Mr. Hubbell.
    Mr. Burton. I thank the gentleman for yielding.
    Mr. Souder. There was another call, by the way, to the 
Indonesian ambassador that night at 10:10. But was that 
another--you don't know any particular business?
    Mr. Huang. I don't. I don't.
    Mr. Souder. Now I'd like to talk a little bit about on June 
25th, did you and Mr. Riady and his family attend the 
President's radio address?
    Mr. Huang. Yes.
    Mr. Souder. The White House records do not show an entry 
time. Do you know how you got into the White House that day? It 
is possible you drove into the White House complex? But, if so, 
it would have had to have been specially arranged.
    Mr. Huang. No. I think we went in as routine, went through 
security, if I remember correctly, just like everyone else was 
going in.
    Mr. Souder. Well, that usually would be logged.
    Mr. Huang. It's very strange. I didn't recall there was any 
special arrangement for us to be in there for the radio 
address, sir.
    Mr. Souder. I would like to show the videotape on the radio 
address. If we could show that at this point.
    [Videotape played.]
    Mr. Souder. My question is going to be when the camera goes 
off, were you and the Riadys the only ones left with the 
President?
    Mr. Huang. That is correct. Mr. Souder, we were probably 
the last. If it is not the last one, it will be the next to the 
last ones.
    Mr. Souder. Was it arranged beforehand that that would be 
the case?
    Mr. Huang. No. We just purposely stayed late to be the 
last.
    Mr. Souder. How long did you stay?
    Mr. Huang. Not very long. But the reason for that is that 
the family with the kids were there, they were trying to get a 
family photo with the President.
    Mr. Souder. So there were not any substantive discussions. 
You were just posing for photos?
    Mr. Huang. I didn't spot anything on that, sir.
    Mr. Souder. And to your knowledge, there was--you say there 
might have been one other person left?
    Mr. Huang. I don't know. But we were very nearly the last, 
almost the last, yeah.
    Mr. Souder. And it is your testimony that this was not any 
special arrangement for private time or anything regarding 
that?
    Mr. Huang. No, sir. No, sir.
    Mr. Souder. Were there any other kids there? I mean, 
wouldn't other people want to hang around, too?
    Mr. Huang. I didn't recall.
    Mr. Souder. Because usually nobody clears out of the room 
until there is a forced clearing out of the room. I hate to 
admit this, but I was at a radio address. It was not a radio 
address here in Washington, but it was at the Summit of the 
Americas. There was a large group like that. Nobody really 
wants to leave. I mean, I might have but that was beside the 
point. But most people wanted to stay. Then they clear them 
out.
    I was not the only Member of Congress present. For example, 
now-Speaker Hastert was there, as well. Then there was time 
before he had the next appointment with which to have a 
substantive discussion. That is fairly standard that everybody 
leaves at the same time. Or I assume that is what generally 
happens at events.
    But your testimony is that there was no private discussion 
to your knowledge; there was no prearranged time after the 
radio address, that after the camera went off, everybody else 
cleared out except maybe one but you and the family?
    Mr. Huang. No. No. Actually I was taking a photo, as well. 
No special arrangement. No, sir.
    Mr. Souder. OK. I may have some closing comments, but I 
thank you for your patience and your willingness to try to 
address these questions.
    Mr. Waxman. Would the gentleman want to finish up? If he 
wants more time, I would certainly be willing to agree to it.
    Mr. Burton. The gentleman is recognized for 5 more minutes 
then.
    Mr. Souder. Thank you. My concern is that what we have seen 
is that, in a period of the 21st to the 25th, that you and Mr. 
Riady went to the White House six times, saw the President 
three times, you called the White House four times, that we are 
debating whether there was a meeting with Mr. Riady and Mr. 
Hubbell two or three times; and after all this happened in 1 
week, which is a lot of courtesy calls and in fact repeated 
courtesy calls, Mr. Riady gave Mr. Hubbell $100,000 not for a 
particular job, although there might have been some work with 
it, but to help a friend. And your testimony here at this 
hearing yesterday and today is that, in all those meetings, 
other than directly with Mr. Riady and Mr. Hubbell, there was 
no discussions about support for Mr. Hubbell?
    Mr. Huang. I wasn't aware of, no.
    Mr. Souder. You are aware of none. Your testimony is not 
that there were none, but that you are aware of none; is that 
precise?
    Mr. Huang. That is correct.
    Mr. Souder. But your testimony is that it is possible that 
Mr. Riady in a number of these meetings could have been talking 
about the need to support Mr. Hubbell, but he would not have 
necessarily told you?
    Mr. Huang. I could not speculate on that, Mr. Congressman.
    Mr. Souder. In fact, you did speculate earlier because you 
said you--you didn't speculate. You said you didn't even ask 
any questions.
    Mr. Huang. I did not.
    Mr. Souder. So the fact is that there could have been 
discussions and you wouldn't have known because you did not ask 
any questions.
    Even though you were the point person who was asking Mr. 
Riady to give the money to Mr. Hubbell and you were the person 
who was setting up these meetings and making a lot of these 
phone calls and setting up the radio address, you did not even 
ask Mr. Riady whether or not he talked with anybody about it?
    Mr. Huang. Whatever you suggest, Mr. Congressman, it was 
possible. But, in my mind, it was not likely. The reason is, 
the $100,000 was really not as large amount of money, you know, 
so I never really, you know, think that will be, you know, any 
special thing he would have to do.
    Mr. Souder. Well, let me ask you a question about that. I 
mean, to me $100,000 is a lot of money and I think to most 
people. But it certainly was a lot of money to Mr. Hubbell. 
Right?
    Mr. Huang. That is correct.
    Mr. Souder. And that it was certainly important to Mr. 
Hubbell's friends because they had the law partner, former law 
partner of Bruce Lindsey call you and say, look, our friend is 
in trouble. He needs some help. His kids need it. It was 
important to people who were associated with the White House 
that there was support.
    It is just hard to imagine that there would not have been 
people saying, hey, we really hope you will help our friend, he 
is really in trouble, that no discussions occurred in all these 
phone conversations, all these meetings, all these meetings of 
Mark Middleton. I mean, these people are friends from Little 
Rock.
    What we have heard is we ran into a whole series of 
attorneys from Little Rock, friends of Webb Hubbell, Webb 
Hubbell is in trouble. This is a man who comes into town, has a 
series of meetings, and at the end gives him $100,000 to help 
him. It is just hard to imagine there were not discussions, I 
mean the average person watching this. You may not know. You 
did not ask any questions about it. But I think that the 
evidence kind of suggests that we do not know the extent of the 
discussions, whether they were casual or in depth.
    But it certainly, without people willing to come forth who 
were in the meetings and talk to us, a lot of Americans are 
looking at this and saying, boy, this sure looks like hush 
money. And your testimony today did not really do anything to 
prove that, but it did not do anything to really disprove it 
either. In fact, I think it would be a legitimate question to 
ask those people.
    Mr. Huang. Mr. Souder, you know, I am trying to be helpful 
as much as I can, but I'm limited to the fact I can only 
testify what I know, what I really know about that.
    Mr. Souder. And I absolutely agree with that. And you 
should not, while I might ask you your opinion, that is still 
different than a fact and nobody is convicted until there is a 
fact. But part of our problem here is a lot of people will not 
talk to us. And I realize you are at one level and some people 
have implied that you are at a higher level than you probably 
are because in fact if you don't know the answers to some of 
these questions you cannot be at the center of a conspiracy, if 
there is a conspiracy, which has not been proven. But if there 
is one, you are clearly at a level that is moving up here. But 
you can see, I would hope, at least why we are asking the 
questions. Because to the average observer looking at this, 
this was a very questionable active week.
    I appreciate that you have tried to answer the questions, 
and I thank you for your patience.
    Mr. Waxman. Will the gentleman yield?
    Mr. Souder. I will be happy to yield.
    Mr. Waxman. Just so I understand where things are. You knew 
that people wanted to help Webb Hubbell and that you even said 
to Mr. Riady, Mr. Hubbell is in trouble. So Mr. Riady gave 
Hubbell $100,000.
    Is there anything that you know of that would indicate that 
it was given as hush money to keep Mr. Hubbell from not saying 
something? Or just that they wanted to help him out when he was 
down?
    Mr. Huang. The term of ``hush'' never came to my mind at 
that time and at a later date. I always felt it was a 
friendship, you know, to help a friend.
    Mr. Waxman. I thank the gentleman for yielding to me.
    Mr. Souder. Of course that is partly what hush money is. In 
other words, friends usually do not go and turn in other 
friends and they support one another in a network. And while it 
might not be the case in this case, it could be. And our 
dilemma in a lot of these kind of things is that it could be or 
could not. Our job is to continue to try to prove that. But we 
moved along and laid out a series of events that I think most 
Americans would have serious doubts about.
    Mr. Waxman. If the gentleman would yield further, I do not 
know why you see your job as trying to prove that. It seems to 
me our job is trying to find out what the facts are. And some 
people speculate and maybe would like to think there was hush 
money involved and maybe would like you to prove there was hush 
money involved, but all we can do is find the evidence that we 
have before us. And the witness, who had some knowledge of 
things that were going on, can tell us what he knew. And to 
this point there is no evidence of any hush money.
    Mr. Souder. Reclaiming my time, it is clear that Webb 
Hubbell has not talked. It is clear that we have 120-some 
witnesses who have either taken the fifth or fled the country 
to this committee. I believe that that is what has been proven 
is that there is obstruction of justice. We do not know what 
justice has been obstructed, whether it was secrets of the 
United States, whether it was political compromises, whether it 
was multiplicity of interests of Mr. Riady. There is lots of 
possibilities. But the goal here was not to prove that this was 
hush money.
    What we know is that he has been hushed. What we do not 
know whether there was any payoffs that did that, whether it 
was choice because he is a friend of the President. We do not 
know what he is hushed about. But we know they are not talking.
    Mr. Waxman. Will the gentleman yield? We know that Mr. 
Hubbell testified before the grand jury; he cooperated with the 
independent counsel, not to the independent counsel's 
satisfaction, obviously. And maybe the problem is he is not 
saying, not because of hush money, but he is just not saying 
what people want him to say because that is not what he 
believes.
    Maybe people want Webb Hubbell to say what they want him to 
say. But he has testified over and over again, and he has not 
said what they want him to say. Now that could be for whatever 
reason, but it could be also because it is the truth.
    Mr. Souder. And this will be hopefully the final comment 
with this extended red light is that, while I agree that that 
is possible, I do not think it is probable because there have 
been so many--I don't remember what we discussed at that 
meeting, I can't quite recall, that it stretches plausibility 
to believe it has been completely open. But I agree that that 
is a possibility and that, in this country, you are innocent 
until proven guilty. Any suggestion that I have had that it has 
been proven I try to say over and over, it has not been proven. 
But that is why many of us think it is there even if it has not 
been proven and nobody is guilty until it is proven.
    Mr. Burton. The gentleman's time has expired. I would like 
to take some time now.
    Mr. Huang, you went into the White House to the personnel 
office a short time before Mr. Hubbell got the $100,000. You 
said that you talked to the personnel people in passing about 
you were going to be working over at the Department of Commerce 
and you said that that was already a done deal before any of 
this happened. But then that night there was another call to 
the personnel director at 9:50, I believe it was, and you do 
not know what that call was about. It was from Riady's room at 
the Hay-Adams Hotel, and you do not remember whether or not you 
were present.
    Do you have any idea why Mr. Riady would be calling the 
personnel office at the White House just before the $100,000 
was given to Mr. Hubbell?
    Mr. Huang. I have no idea. I don't have any clue.
    Mr. Burton. You do not know that he was trying to help 
anybody get a job or anything?
    Mr. Huang. It would be really unlikely, Mr. Chairman.
    Mr. Burton. So you would have no idea why he would call the 
personnel office?
    Mr. Huang. That's correct, sir.
    Mr. Burton. Now, you went to the Commerce Department and 
you started working there. During the time that you were at the 
Commerce Department, from your home, from your office, and 
across the street at the Stephens Co., you made or received 232 
contacts from the Lippo Group in Indonesia and here in the 
United States and in Hong Kong.
    Why did you make calls from the Stephens office across the 
street, and why did you send faxes from the Stephens office 
across the street to the Lippo Group? Why didn't you do that 
either from your home or from the Commerce Department? Why did 
you feel it was necessary to go to an outside office to do 
that?
    Mr. Huang. Excuse me 1 second.
    Mr. Chairman, there are quite a few questions there. I am 
trying to answer portion by portion.
    Mr. Burton. Let's narrow it down to one.
    Why did you go across the street to the Stephens office to 
contact the Lippo Group with faxes and phone calls when you had 
a phone in your office?
    Mr. Huang. I'm not even sure those faxes were sent to Lippo 
by me through the Stephens office across the street. I did use 
the Stephens financial office. Sometimes I made some personal 
calls which I did not feel it was proper to use the office 
phone.
    Mr. Burton. Did you call the Lippo Group or send any faxes 
from the Stephens office?
    Mr. Huang. I certainly do not recall. But I do Stephens 
finance--Stephens office did send some fax to the Lippo Group. 
That's their only business, though.
    Mr. Burton. You did not send any faxes from Stephens office 
to the Lippo Group. Is that what you are saying?
    Mr. Huang. I do not recall.
    Mr. Burton. You do not recall.
    Mr. Huang. Right.
    Mr. Burton. You do not remember going across the street to 
that office?
    Mr. Huang. I believe I did not.
    Mr. Burton. Did you make any phone calls from across the 
street to the Lippo Group from the Stephens office?
    Mr. Huang. You confine Lippo Group is----
    Mr. Burton. Any calls. To Indonesia, to the offices here in 
the United States, to Hong Kong.
    Mr. Huang. I really don't remember I called overseas to 
Lippo.
    Mr. Burton. So you do not remember?
    Mr. Huang. That's correct.
    Mr. Burton. Yeah. Why would you go over there and call the 
Lippo Group in the United States?
    Mr. Huang. I don't believe I used the Stephens finance 
primarily for----
    Mr. Burton. I want you to think hard about this because you 
have your counsel there. You are under oath and we're going to 
check this out very thoroughly.
    Do you recall or did you make any phone calls to the Lippo 
Group here in the United States or overseas that you recall? 
Did you send any faxes from the Stephens office to any Lippo 
entity while you were at the Department of Commerce?
    Mr. Huang. I did not recall, sir.
    Mr. Burton. You don't recall?
    Mr. Huang. I do not recall.
    Mr. Burton. Do you recall going over to their office?
    Mr. Huang. I did.
    Mr. Burton. What did you do when you went to their office.
    Mr. Huang. There are some personal things. For instance, I 
can raise the example to you. I was still the member of the 
Committee of 100. I used the office sometimes, and I asked them 
to send faxes over there.
    Mr. Burton. Well, let's pursue that. Do you remember the 
Committee 100? Committee 100 was a financial-raising 
organization, wasn't it? Did they raise money?
    Mr. Huang. No. No. I didn't think so.
    Mr. Burton. What was the purpose of that organization?
    Mr. Huang. It is organization to just basically promote the 
mutual understanding, you know, between the Chinese people and 
also the American people. That's one of them as far as I know.
    Mr. Burton. Before you went to the Department of Commerce, 
did you ever work with any of them to raise money?
    Mr. Huang. Now, in terms of raising money for the 
organization or raising money for other?
    Mr. Burton. For campaigns. Did you ever work with any of 
these people in those organizations to raise money?
    Mr. Huang. To the best of my knowledge, I did not.
    Mr. Burton. None of those people were contributors to the 
DNC?
    Mr. Huang. No, I don't know for fact. But not for me 
definitely true.
    Mr. Burton. When you went to the DNC, did any of those 
people contribute? I mean, pretty large contributions?
    Mr. Huang. Mr. Chairman, I take it back. Excuse me. I have 
to tell the truth. The one member--that was before I became a 
member of the Committee of 100 one member, Dr. Ky, did make 
contribution in August 1992 event.
    Mr. Burton. Well, while you were at the Department of 
Commerce and you went over to the Stephens office, did you ever 
ask anybody for money in phone calls from the Stephens office?
    Mr. Huang. No, sir.
    Mr. Burton. You're sure?
    Mr. Huang. I'm sure.
    Mr. Burton. OK. So you never made any calls that you 
recall. You don't recall calling the Lippo Group from the 
Stephens office, and you don't recall calling the Lippo Group 
or sending them faxes from the Stephens office?
    Mr. Huang. I do not recall.
    Mr. Burton. So if we find that there were phone calls--what 
is this here? Can we put this up on the board. Can I ask for 5 
additional minutes? Without objection, so ordered. We do not 
have this to put it up on the board.
    We have here from July 19, 1994, through January 30, 1995, 
there must be 30 or 40 faxes going to the Lippo in Hong Kong, 
director of the Lippo Bank, Lippo Hong Kong, Lippo Pacific, 
director of the Lippo Bank, Lippo Asia, Ltd., Lippo Pacific.
    You don't recall having any involvement with any of these?
    Mr. Huang. I do not recall. Let me stress that Stephens 
group has some business. They used to be a partner between 
Lippo and Stephens. They might have some business to do.
    Mr. Burton. The man in charge was a man named Vernon 
Weaver?
    Mr. Huang. That's correct.
    Mr. Burton. I intend to bring Mr. Weaver before the 
committee and put him under oath. Now, Mr. Weaver was there 
when you were there, was he not?
    Mr. Huang. That's correct.
    Mr. Burton. If I ask him if all of these faxes and phone 
calls were from him to the Lippo Group, do you think he is 
going to say that they were from him or somebody on his staff?
    Mr. Huang. I believe he would tell the truth, yeah.
    Mr. Burton. OK. Well, we'll find out. We will get in touch 
with him. I would like to make a copy of this and have it put 
on the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.409
    
    [GRAPHIC] [TIFF OMITTED] T6496.410
    
    Mr. Burton. Now let me ask you a couple of other questions. 
You met a number of times with people from the People's 
Republic of China, the Communist Chinese Government, while you 
were at the Department of Commerce, did you not? Did you have 
lunch with them or dinner with any of them?
    Mr. Huang. I have lunch with some of the Embassy personnel, 
yes.
    Mr. Burton. Do you remember how many times?
    Mr. Huang. I can't recall. Probably it was not too many, 
no.
    Mr. Burton. Did you go to the Chinese Embassy?
    Mr. Huang. I did.
    Mr. Burton. How many times?
    Mr. Huang. Not too many. Probably on invitation basis for 
whatever event they had.
    Mr. Burton. Was it one time, five times?
    Mr. Huang. It is definitely more than one time, Mr. 
Chairman.
    Mr. Burton. Do you remember what you talked about?
    Mr. Huang. No. It was a big gathering. Probably just saying 
hello, that's all. Meeting with various people. A lot of people 
were there. It was big function.
    Mr. Burton. And you were at the Department of Commerce at 
the time?
    Mr. Huang. That is correct.
    Mr. Burton. On January 19, 1995, your calendar reflects 
that you met with the PRC Ambassador, Li Zhaoxing, for dinner. 
Do you recall that?
    Mr. Huang. Can I read that, please?
    Mr. Burton. Yes, sure. Do we have that in his book? Where 
is that? 167.
    Mr. Cobb. Mr. Chairman, is that exhibit 167?
    [Exhibit 167 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.290
    
    Mr. Burton. Exhibit 167, page 17.
    Mr. Huang. Mr. Chairman, as you indicated list on my 
calendar, the secretary kept my calendars. There was a dinner 
over there.
    Mr. Burton. Do you know what you talked about on January 
19, 1995, with the PRC Ambassador, Li Zhaoxing?
    Mr. Huang. If I remember correctly, there was an invitation 
working through another Chinese-American community member, who 
invited some of the Chinese American government officials to 
have a dinner with Mr. Ambassador Li.
    Mr. Burton. Did you go?
    Mr. Huang. I did not go.
    Mr. Burton. You did not go?
    Mr. Huang. I did not go.
    Mr. Burton. On February 14, 1995, did you have a reception 
with the People's Republic of China Minister Counselor named 
Ming? Did you go to that?
    Mr. Huang. This is on exhibit----
    Mr. Burton. Exhibit 168. It is February the 15th.
    [Exhibit 168 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.291
    
    Mr. Huang. I believe down below it says Wisconsin Avenue 
maybe is the address?
    Mr. Burton. It says reception with the PRC Minister 
Counselor Ming. Where was that located?
    Mr. Huang. Counselor Ming just opened up a separate office. 
It was opening invitation to have a lot of people going over 
there.
    Mr. Burton. Do you recall what you talked about or 
anything, or was it just a social event?
    Mr. Huang. It was a social event.
    Mr. Burton. On April 5th at 10 a.m., your calendar reflects 
Ms. Zhu Yang, PRC Deputy Director for UI. I believe that is Far 
East relation.
    Did you go to that?
    Mr. Huang. I did not go to that. They came to me.
    Mr. Burton. What did you talk about?
    Mr. Huang. No, that was arranged, Mr. Chairman, by, I 
think, AID. Some of the people from China, there was touring 
the United States, that meeting was arranged by AID to come to 
visit me. It was not my initiative, sir.
    Mr. Burton. Well, I see my time has expired. I will come 
back to this later.
    Mr. Waxman. Mr. Chairman, I want you to have the continuity 
if you want to continue on. But if you wouldn't mind, would you 
yield to me just for a second or two to make some points for 
the record?
    Mr. Burton. Sure.
    Mr. Waxman. I don't want to take my 5 minutes, which I'll 
do later.
    But the question of this Committee of 100, what is this 
group again, Mr. Huang?
    Mr. Huang. It is Committee of 100. The basis is leading 
distinguished Chinese-Americans who form the groups after the 
Tiananmen Square event in 1989, I think.
    Mr. Waxman. The chairman said that this group is under some 
suspicion. But I do want to point out in the Congressional 
Record of March 22, 1994, Senator McCain said, and I am quoting 
from Senator McCain's record statement, ``I have long admired 
the work of the Committee of 100 and the very distinguished 
members that represent it. The members of the Committee 
represent Chinese-Americans from all over the Nation and across 
a wide range of political opinions and professions. To give my 
colleagues an idea of the caliber of people making up the 
organization, I commend to them the biographies of three 
members who recently visited my office, one of whom, Ms. Ming 
Shin Chu, is an Arizona resident. The biographies are somewhat 
dated but I think they illustrate well the competence of the 
Committee of 100 delegation.''
    The second point I want to make is that the chairman said 
that he was going to bring Mr. Weaver in to question whether 
you had made those calls or not. As I recall, we deposed Mr. 
Weaver in the last Congress, and I think we have asked those 
questions. So we are checking to see whether we already know 
whether Mr. Weaver has testified so we do not have to bring him 
in if he has already testified on this subject. We will find 
out soon what he had to say, and we will put that in the 
record. And, without objection, may I ask we put his testimony 
in the record on those points if you think it is appropriate.
    Mr. Burton. We may bring Mr. Weaver. In fact, I plan to 
bring Mr. Weaver in again because, according to my staff, the 
information that we have now we did not have at that time and 
those questions were not presented to him, especially on these 
lists of phone calls and list of faxes that were sent. So we 
may have to talk to him again. But I have no objection to 
putting it in the record.
    Mr. Waxman. Let's just withhold it and see what comes up 
within the transcript.
    Mr. Burton. That will be fine.
    Mr. Waxman. Let me ask unanimous consent that the chairman 
be given 10 minutes.
    Mr. Burton. Without objection.
    Let me just say that, the Committee of 100, I do not want 
it to appear as though we have cast aspersions on that 
organization. What I was asking was whether or not any of those 
people, while you were at the Department of Commerce were 
solicited and gave money to the DNC or when you were at the 
DNC. And I believe your answer was there was one individual but 
you did not solicit any of them. Is that correct?
    Mr. Huang. Mr. Chairman, I believe what I was saying is 
back in 1992 there was one individual, maybe even more than one 
individual, at that time I was not even a Committee of 100 
member then, made a contribution to the candidate Clinton 
campaign at that time.
    Mr. Burton. While you were at the Department of Commerce?
    Mr. Huang. While I was in Commerce, no. And while I was in 
DNC, the answer is yes.
    Mr. Burton. You did?
    Mr. Huang. In DNC the answer is yes, probably about in one 
event, maybe around few checks.
    Mr. Burton. Do you have any idea who those people were, how 
many there were?
    Mr. Huang. Yes, I can give you at least at this time what I 
remember.
    Mr. Burton. What I would like to do is for the record if 
you could give us the names and the amounts if you could 
recollect those for us.
    Mr. Huang. Right now I can off my head give you one right 
now. The lady Chen did give some money. The amount I don't 
remember. That was September 1996 event in L.A.
    Mr. Burton. And you were with the DNC?
    Mr. Huang. I was with the DNC at that time.
    Mr. Burton. In any event, if you could give us those from 
the 100 group.
    I want to followup and ask a question about that.
    Mr. Huang. Sure.
    Mr. Burton. Did you have any responsibility for China 
issues when you were at Commerce? I mean, did you have any 
responsibility or were you charged with the responsibility of 
dealing with China on commerce issues, issues of that type?
    Mr. Huang. No.
    Mr. Burton. Why not?
    Mr. Huang. Basically the territory was taken away and was 
under the umbrella of Mr. Rothkopf, who was the deputy 
undersecretary.
    Mr. Burton. So they did not want you to be involved in 
commerce issues with China at that time?
    That was not your responsibility, right?
    Mr. Huang. That was not my responsibility, that's correct.
    Mr. Burton. So you had a number of meetings, and I will go 
through these meetings again chronologically, but you had a 
number of meetings with people from the Chinese Embassy, with 
people coming in and out from China. You had those meetings at 
the Department of Commerce, at the Chinese Embassy and other 
places. Why were you meeting with those people?
    Mr. Huang. It was by invitation. Whenever there is a 
function or event, I was invited to go, like other officials 
also receiving invitation as well. I just went.
    Mr. Burton. Well, let's go through these because some of 
these I do not think they were widely attended events. Some of 
these were just lunch or dinner with one or two people. Let's 
go through these.
    Mr. Huang. OK.
    Mr. Burton. You reflected a meeting with Ambassador 
designate to China, Jim Sasser. Do you remember what that 
meeting was about?
    Mr. Huang. Yes.
    Mr. Burton. What was that about?
    Mr. Huang. The meeting--at that time it was a designate 
Ambassador, it was not confirmed.
    Mr. Burton. That's right.
    Mr. Huang. I had a few of the Committee of 100 members to 
visit his temporary office at that time.
    Mr. Burton. So you took them over there?
    Mr. Huang. No, I did not. I came with the other members of 
the Committee of 100 to go to see Mr. Sasser.
    Mr. Burton. OK. On May 10, 1995, at 7 p.m., your calendar 
reflects you will had a meeting with Ambassador Li, China 
meeting. Do you recall what that one was about?
    Mr. Huang. That is the same name, Ambassador Li, as the 
then-Ambassador Li for the United States from People's Republic 
of China. That is a different Ambassador Li.
    Mr. Burton. OK. But do you know what that meeting was 
about?
    Mr. Huang. Yes, I was advised by Committee of 100, 
Ambassador Li used to be the Ambassador for China to Nepal but 
temporary at that time was visiting the United States and 
various countries. Since he was coming over to Washington they 
asked me whether I could just extend the courtesy to meet with 
him and have dinner with him.
    Mr. Burton. On September 21st, at 9:30 a.m., your calendar 
reflects Chinese delegation, Chinese State Planning Commission. 
What was that meeting?
    Chinese delegation, Chinese State Planning Commission.
    Mr. Huang. I could not explain for sure right now. I did 
meet with some of the Chinese delegations. People made 
arrangement to come over to see me, I offered to meet with 
them.
    Mr. Burton. I know. But the point is you had no 
responsibilities to deal with the Chinese Government or the 
Chinese people and here you have an official delegation coming 
over and you met with them and you do not recall what it was 
about?
    Mr. Huang. It was not really an official delegation 
probably at that time. Oh, say that again. I'm sorry. Sorry, 
one more time. Excuse me, I remember now. I'm sorry.
    Apparently there was a delegation visit Commerce 
Department. They would like to know how the Commerce 
Department's organization is. I was not the only one being 
asked to meet with them. I believe there was a deputy 
undersecretary for the economic and statistics also was there 
trying to introduce the organization of the Commerce 
Department. And it was done in the Commerce large conference 
hall and I was there.
    Mr. Burton. On October 12th you took a taxicab to the 
residence of the Chinese Ambassador. Do you know what you went 
over there for?
    Mr. Huang. I was invited by a friend of mine who is the 
head of the United States institute--not United States 
institute--Asian Institute to go over there and see what he was 
doing and he was inviting a lot of American businessmen to go 
there to the Ambassador, that Ambassador was actually the 
deputy of the mission, was not really the chief at that time, 
and just had a breakfast there.
    Mr. Burton. Do you know what you talked about?
    Mr. Huang. Yes, I do.
    Mr. Burton. What did you talk about?
    Mr. Huang. I did not really say very much. I was asked 
questions at that time. Apparently the Ex-Im Bank at that 
particular moment disapproved the loan, the financing of the 
Three Gorge project in China and I was asked, you know, whether 
I have any opinion on that.
    Mr. Burton. And what did you say?
    Mr. Huang. They said off record basis, Mr. Huang, can you 
express your thoughts on that.
    Mr. Burton. Uh-huh. But you had nothing to do with that 
issue at the Commerce Department?
    Mr. Huang. No, I did not.
    Mr. Burton. But they were asking your opinion nevertheless?
    Mr. Huang. That's correct.
    Mr. Burton. While you were at Commerce, you met with Tin 
Ming Wang, minister of counselor commercial affairs. Wang 
stated that he had known the PRC Minister Wang since 1972. 
``Wang sought out Huang for personal advice, he says. He was 
retiring and wanted to know if Huang could give him a job in 
the private sector.''
    Do you recall that meeting?
    Mr. Huang. Yes, I do.
    Mr. Burton. What was that about?
    Mr. Huang. Basically, he was facing retirement age and he 
asked me since I came from the private sector and also I know 
some of the groups in Asia whether I have any idea for him to 
continue his, you know, career. It's a personal basis.
    Mr. Burton. At any of these receptions or dinners or 
anything did you discuss anything of an official nature at all?
    Mr. Huang. No, except I was, you know, it's not on official 
capacity, not a government business.
    Mr. Burton. I am not asking that. Did you discuss anything 
of an official nature at all?
    Mr. Huang. No, sir.
    Mr. Burton. Were you ever told specifically that you were 
to be walled off from any China issues at the Department of 
Commerce?
    Mr. Huang. I did not know. I learned later on. I found out 
from news account.
    Mr. Burton. Well, Undersecretary Garten stated, ``Well, 
generally I didn't want Huang working on anything regarding 
China, and since China was such a high priority there was no 
chance that with my knowledge he would have gotten close to 
it.''
    So they expected you to stay away from the Chinese issues 
at the Department of Commerce, and yet you met on a regular 
basis or frequently with people from the Chinese Government and 
the Chinese Embassy. Why was that?
    Mr. Huang. No, I visit the Chinese Embassy based on by 
invitation. OK? The reason I did not have the territory is Mr. 
Garten came into the Department of Commerce much earlier and 
already took all those functions from Mr. Chuck Meissner, who 
was my assistant secretary for my unit.
    Mr. Burton. You went to the International Trade 
Administration. Did you notify anyone at ITA that you would be 
attending this event? Let's see which event we are talking 
about.
    Did you notify anybody at the ITA that you were going do 
any of these events?
    Mr. Huang. You're talking about all the events you were 
talking about?
    Mr. Burton. Any of those events, the International Trade 
Administration. Did you tell them that you were going to these 
events over at the Chinese Embassy and meeting with these 
people?
    Mr. Huang. I didn't believe so.
    Mr. Burton. Weren't you supposed to do that? Weren't you 
required to do that?
    Mr. Huang. I thought many of them was a social invitation. 
Every now and then when we would receive those invitation we 
were going.
    Mr. Burton. Were you authorized in any way to discuss any 
commerce policies relating to China?
    Mr. Huang. I did not discuss any policy with China.
    Mr. Burton. Well, we have a whole list of meetings here 
with Ambassador Li and a whole host of people. I have pages and 
pages and pages of them. And it appears as though they were not 
all social events, some of them were lunches or dinners with 
individuals. And these were all social?
    Mr. Huang. Principally those are, what you pointed out to 
me just now.
    Mr. Burton. You had an interview with the task force you 
described in May 1995, breakfast with Zhou Wen Jong. Mr. Zhou 
was an official at the Chinese Embassy; isn't that right?
    Mr. Huang. Yes. That's the one you were referring on the 
taxi fare?
    Mr. Burton. Uh-huh.
    Mr. Huang. I believe that was related to that.
    Mr. Burton. Did you talk about anything officially at that?
    Mr. Huang. No, except I just reported to you, you know, 
asked my comment.
    Mr. Burton. About that project in China?
    Mr. Huang. Yeah, Three Gorge project.
    Mr. Burton. How was that project funded?
    Mr. Huang. I don't know.
    Mr. Burton. Did the Department of Commerce have anything to 
do with that project?
    Mr. Huang. I don't think so.
    Mr. Burton. Did Lippo Group companies or partners have any 
interest in the Three Gorge project?
    Mr. Huang. No, sir. Not that I know of, sir. I don't 
believe so, either.
    Mr. Burton. Did you have any other meetings that you have 
not reported with Chinese officials other than what we have 
gone into here?
    Mr. Huang. Sorry, I don't recall. If I recall any, I'll 
definitely report to you, Mr. Chairman.
    Mr. Burton. I would like to have a list of those if we can 
get those.
    Mr. Huang. If I remember.
    Mr. Burton. Mr. Shays.
    Mr. Shays [presiding]. I yield my time to Mr. LaTourette.
    Mr. LaTourette. Thank you very much.
    Mr. Huang, there was a movie a couple years ago called 
``Groundhog's Day'' and there was an actor Bill Murray and I 
think Andie McDowell and they kept coming back to this day in 
February and revisiting it. And I apologize to you, but we're 
just going to finish this business on February 19, 1996, if I 
can.
    I was interested, just as an aside, about what a small 
world it is. I had a chance to be in China a few years ago with 
the Transportation Committee in a visit to the Three Gorges 
project because it is an amazing thing not only in what it is 
going to represent for hydroelectricity for China, but I was 
also fascinated with the fact that a government could forcibly 
move a million people from one place to another. But the former 
Speaker of the House had just been over in that part of the 
world and he had made some remarks that were interpreted to be 
supportive of Taiwan, and so the Chinese Government canceled 
our plane from Beijing to Xian, where I understand we would 
have seen the project. But I'm sure that it is coming along 
nicely and the people have been relocated and it is going to be 
a really nice dam some day.
    Going back to February 19th, I have two more contributions 
I want to talk to you about and then I want to sort of wrap up 
what happened on the 19th.
    There was a $12,500 contribution by an individual by the 
name of Charles Chiang again. If we could put up exhibit 337, 
maybe if you could refer to that and if we can put it on the 
screen. I would ask you first of all are you acquainted with an 
individual by the name of Charles Chiang?
    [Exhibit 337 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.292
    
    Mr. Huang. May I take a look at it?
    Mr. LaTourette. Sure.
    Mr. Huang. Congressman, if this is the same Charlie Chiang 
I know, then I know him. I'm going to say the Charlie Chiang of 
the Chinese restaurant owner?
    Mr. LaTourette. I believe he is associated with Mr. Trie is 
the best connection. Do you know of Charles Chiang that is 
connected with Mr. Trie?
    Mr. Huang. The only Charles Chiang there is quite a few 
Chinese restaurant called Charlie Chiang's restaurant.
    Mr. LaTourette. Well, in this particular instance, this 
$12,500 check that was given for the event of February 19th, 
Mr. Chiang has indicated to us that he received $6,500 directly 
back in a check from Mr. Trie and then $6,000 in those 
travelers checks that I showed you the other day.
    Were you aware of that before I just said that?
    Mr. Huang. I was not aware of that, sir.
    Mr. LaTourette. Likewise, the next exhibit, it would be the 
page after, No. 338, is a $25,000 contribution from an 
individual by the name of Jack Ho. Were you acquainted with Mr. 
Ho before this event?
    [Exhibit 338 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.293
    
    Mr. Huang. I was not.
    Mr. LaTourette. And the contribution actually is from a 
business called J&M International. Did you know anything about 
that business, J&M International, before that day?
    Mr. Huang. No, sir.
    Mr. LaTourette. We have--again the information is that 
$25,000 contribution was returned to Mr. Ho in these travelers 
checks that came from Jakarta. Were you aware of that at any 
time before I just said it?
    Mr. Huang. No, sir.
    Mr. LaTourette. To wrap up, then, I haven't been keeping a 
running total, but I think that we have talked about the fact 
that included in the money, did you raise $1 million on 
February 19th?
    Mr. Huang. No.
    Mr. LaTourette. How much did you raise, do you remember?
    Mr. Huang. My recollection is probably $800 and some 
thousand at that time.
    Mr. LaTourette. OK. Of the $800 some thousand, I think that 
you and I have gone through over the last couple of days close 
to $200,000 of money that is interesting, to say the least, and 
interesting in its connection to Mr. Charlie Trie. We talked 
about the fact that a woman who makes $25,000 gave $12,500; we 
have talked about a woman who wrote a check on a starter check. 
We have talked about a couple of checks that were drawn on 
foreign businesses to the tune of $12,500 in one case and 
$25,000 in another case.
    And I guess at the end of it we know today in the list of 
names that I went over with you earlier in the hearing, we know 
today that a number of illegal contributions were received for 
the benefit of the Democratic National Committee as a result of 
that February 19, 1996, fundraiser, do we not? Not that you 
knew that they were illegal when you accepted them. But I think 
it's safe to say, and we can quibble about whether it is 
$190,000 or $200,000, but close to $200,000 of that money, at 
least, from just what we have been talking about, were illegal 
contributions, right?
    Mr. Huang. That's correct.
    Mr. LaTourette. OK. Now I'm curious as to what sort of 
debriefing, then, takes place after one of these events you did 
in 1996. And I want to ask you if you had a meeting after the 
event with a fellow by the name of Joe Sandler?
    Mr. Huang. Yes.
    Mr. LaTourette. Who, for the record, is Joe Sandler?
    Mr. Huang. He was general counsel for DNC.
    Mr. LaTourette. What was the purpose of the meeting?
    Mr. Huang. As you indicated, that was my first fundraising 
event and I was told by then the financial director Mr. 
Sullivan, Richard Sullivan, to go over and see Mr. Joe Sandler 
and Mr. Sandler actually wanted me to bring all the checks I 
collected and let him review it.
    Mr. LaTourette. And did you do that?
    Mr. Huang. Yes.
    Mr. LaTourette. At that meeting did Mr. Sandler ask any 
questions about the checks?
    Mr. Huang. He asked me about individual checks, whether you 
know about these people, if he has any questions. For instance, 
the question in general, is he a U.S. citizen that you know of? 
He has a permanent residency? If it is a corporate check, he 
says, is it a U.S. company, has U.S. revenue? Things like that. 
In many some instances I did not know and I go back to find 
out.
    Mr. LaTourette. How many checks roughly would you say you 
collected for this event?
    Mr. Huang. I don't know the exact numbers right now.
    Mr. LaTourette. It would be less than 1,000, wouldn't it?
    Mr. Huang. Definitely less than 1,000.
    Mr. LaTourette. And he went through, as I understand what 
you just said, he would go through this pile of checks and if 
he had a question he would ask you a question or if you had 
something to say you would say something about it?
    Mr. Huang. That's correct.
    Mr. LaTourette. And the question was focused on whether or 
not the contributor was a U.S. citizen or a legal resident?
    Mr. Huang. That's correct.
    Mr. LaTourette. And also if it was a corporate contributor 
that had an address outside of the United States, whether or 
not this business had sufficient U.S. profits to cover the cost 
of the donation? Those would be typical of the questions that 
were asked?
    Mr. Huang. I don't specifically recall that he asked the 
company has a foreign address on the check.
    Mr. LaTourette. I never knew the word ``vetting'' until I 
came to Washington, DC, but I think we call that vetting 
checks. During this vetting process that you had with Mr. 
Sandler, were any of the illegal contributions close to 
$200,000 in contributions, illegally obtained or given at that 
event, were any of those identified during this meeting with 
you and Mr. Sandler?
    Mr. Huang. No, sir, not in that event.
    Mr. LaTourette. In response to his questions that he would 
ask you, for instance, is this person a U.S. citizen, and you 
did not know the answer, what process or steps did you go 
through to get the information to get back to him?
    Mr. Huang. If there was a question being asked, if I know 
for sure about the contributor, then I would answer directly. 
If not, I would find out who actually is the solicitor and I 
would go to ask them.
    Mr. LaTourette. Mr. Chairman, I see that my yielding time 
has expired.
    Mr. Shays [presiding]. Mr. Souder, you have the floor.
    Mr. Souder. I yield my time to Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Souder.
    I just want to finish this line of questioning, because I 
have heard you say over the last couple of days that you didn't 
know that certain contributions were illegal. I think when Mr. 
Waxman was saying what is suspected and what is proven, what is 
proven today is that a number of these contributions at this 
event were illegal. They were given by people that weren't 
qualified to make contributions to political parties in this 
country for a variety of reasons.
    So that, I think, is proven, and if anybody disagrees with 
me, they can take it up with us a little bit later.
    But this process, there are two ways that you can approach 
that. I mean, you can say, I didn't know, which you have said. 
You can also say, nobody ever did anything to try and find out, 
sort of the political contributing equivalent of don't ask, 
don't tell. I mean, I have a check; yep, it looks like a 
starter check; yep, I know it came from a woman who only makes 
$25,000, but if I only ask the questions as to whether or not 
this person is a U.S. citizen or a corporation or a person that 
has sufficient U.S. property, then I guess we will never know 
whether or not contributions are obtained illegally.
    Earlier, when somebody was asking you about, you have to 
fill out on some of these FEC forms where a person works, and 
if you can't find it out, for instance, you put--``best 
efforts'' is I think what your lawyer told you, we put best 
efforts in that instance.
    Can you describe to the committee what the best efforts 
were by you? And you were what, a vice chair of the finance 
department of the Democratic National Committee? What best 
efforts did you put forth in vetting these checks from the 
February 19, 1996, fundraiser as to whether or not these were 
contributions that could be legally obtained by a major 
political party in this country?
    Mr. Huang. I recall that in the event I don't have any 
address, I try to find out the address, because most of these 
people were individual. That was the information I try to 
complete, as much as I could, on a check-tracking form.
    Mr. LaTourette. OK. But aside from the address--where these 
people lived isn't the problem; the problem with these 
contributions is that they were conduit contributions, they 
were made by people that couldn't make them lawfully. They were 
made with money that came from foreign countries in violation 
of our laws.
    What best efforts did you use to determine--today we know 
that one-quarter of the money that you raised at least, and 
maybe I don't quite have the stuff down, but just from the 
questions you and I have talked about over the last 2 days, 25 
percent of the money that you raised at this event was illegal, 
couldn't have been given. I am interested to know what you did, 
as a high-ranking official in the Democratic National 
Committee, to vet these checks, to determine whether or not 
what we know today you could have decided back in 1996 and 
given the money back.
    Just so you don't think I am picking on the Democratic 
National Committee, I think this is an important thing because 
there needs to be, as Mr. Shays and Mr. Waxman and the rest of 
the Congress looks at our campaign finance laws, obviously we 
have to punish and prosecute people, as you have been punished 
and prosecuted for violating the laws we have today. But I 
can't believe that we can just have a system in this country 
where you say, well, we are going to rake in a bunch of cash at 
a fundraiser, and if we don't ask the right questions, then 
come catch us to figure out if they were legal contributions or 
illegal contributions.
    So what responsibility did you take and did this Joe 
Sandler take to determine as to one out of every four checks 
you got was bad. What did you do about it? What did you try to 
do about it to find out if people could give money?
    [Discussion off the record.]
    Mr. Huang. Congressman, as I reported to you, I did later 
on spot two of the checks, as I reported to you, which I find 
out was not proper; and I also vetted those checks with the 
general counsel, Joe Sandler, you know, whatever the checks I 
had at the time and given to me. And I filled out a check-
tracking form to the best I can. I could--afterwards, whatever 
process I did not know, I did not really do personally, you 
know, on that.
    Mr. LaTourette. Well, one of the checks we talked about 
that came from the partnership that Mr. Trie was involved in 
with Mr. Ng came in on the 29th, 10 days after the event.
    Mr. Huang. You are talking about the Daihatsu----
    Mr. LaTourette. I am. Was that particular check, was that 
given to you before or after your meeting with Mr. Sandler?
    Mr. Huang. I believe that was after.
    Mr. LaTourette. There is an example of--I mean, today we 
know that Charlie Trie got that money from Mr. Ng. That, again, 
is one of those proven things, it is not one of those out there 
in the air. It could be; we know that based upon the bank 
records. We know that that is an illegal contribution.
    I am interested to know, since that came after the vetting 
meeting that you had with the general counsel of the Democratic 
National Committee, what did you do, as a vice chair of the 
DNC, to check that check out? What did you do?
    Mr. Huang. I did not check out. The Daihatsu was Mr. 
Charlie Trie's business and Mr. Charlie Trie is very 
established that DNC was fundraiser before. I did not really do 
any further checking on that.
    Mr. LaTourette. Thank you very much. I appreciate the 
yielding of time.
    Mr. Shays. The gentleman has his own time now, if he would 
like to use it.
    Mr. LaTourette. I would be happy to claim my own time and 
yield it to my good friend, Mr. Ose.
    Mr. Ose. I thank the gentleman.
    Mr. Huang, I am particularly interested in the events 
surrounding two particular fundraisers, the first being on 
November 2, 1995 and the second being--pardon me while I turn 
my page here--the events surrounding a fundraiser for 
Congressman Jackson.
    The questions I have deal--I just want to run through a 
couple of questions I have.
    Do you recall the event of November 2, 1995? It is an Asian 
Pacific American event at the Mayflower Hotel with Vice 
President Gore?
    Mr. Huang. Yes, I do, sir.
    Mr. Ose. Who was the first person to tell you about that 
event?
    Mr. Huang. I believe was director of the DNC for Asian 
Pacific American Affairs of DNC, I think it is Mona Pasquil.
    Mr. Ose. And when did that--do you recall when that 
conversation took place--with you and Ms. Pasquil?
    Mr. Huang. It could be over the phone and also--we also had 
a meeting and also had lunch together later on.
    Mr. Ose. Generally, would that have been in September 1995?
    Mr. Huang. I would tend to think probably even early 
September or could be late September. Most likely it would be 
early October, I think.
    Mr. Ose. The Asian Pacific American event, what was the 
format or the context of that event?
    Mr. Huang. Essentially trying to form, if I could best 
understand it, is the Asian American community would like--
under the DNC would formalize such a council, so hopefully we 
can begin working on Asian Pacific American issues and raising 
money through the Asian American community.
    Mr. Ose. Was this a lunch and a dinner, or just a lunch or 
just a dinner?
    Mr. Huang. I believe that event, Congressman, was a dinner.
    Mr. Ose. And the solicitation that was made for attending 
the dinner was X number of dollars, or what?
    Mr. Huang. My best recollection was $10,000 a head. At 
least a target on that basis, sir.
    Mr. Ose. So that the approach was that if you wanted to 
join the Asian Pacific Council and attend this dinner, you had 
to write a check for $10,000?
    Mr. Huang. That is correct, basically.
    Mr. Ose. And the beneficiary of the $10,000 contribution 
was?
    Mr. Huang. I believe was the DNC.
    Mr. Ose. OK. And you told me that--well, you suggested and 
I want to make sure I understood, who was organizing the event 
for the DNC? Was that Mona Pasquil?
    Mr. Huang. She was at least one of them. There were some 
other people as well in helping out.
    Mr. Ose. Do you recall who they were?
    Mr. Huang. It could be Sam Newman was another one. I think 
Mr. Mercer also was helping out.
    Mr. Ose. Now, you are familiar with the event. Did you help 
Ms. Pasquil at the event in terms of setting it up?
    Mr. Huang. Oh, no, not in terms of setting up. She and I 
had lunch and tried to give my opinion how she might be able to 
work on that.
    Mr. Ose. And what kind of questions was she asking?
    Mr. Huang. She had--that was her first position in doing 
this. This was going to be the first event for Asian Pacific 
Americans at that time, and I did not want personally--as a 
member of the Asian American community, I did not want to see 
that thing fail and look very bad; and politically I did not 
want to see our congressional leader, which is Mr. Matsui, look 
bad either on that part.
    Mr. Ose. What kind of suggestions did you make? I mean, I 
can understand the advice that she was seeking from you. I 
mean, that is perfectly logical. What type of help did she ask 
you for?
    Mr. Huang. First, most specifically refer some names to 
her, you know, she might be able to contact.
    Mr. Ose. Identifying people that she could contact to 
either attend and/or contribute money to the cause?
    Mr. Huang. That is correct, sir.
    Mr. Ose. OK. Was anyone else at the lunch?
    Mr. Huang. No. That was still Mr.----
    Mr. Ose. Excuse me. That was lunch or dinner?
    Mr. Huang. Sam Newman was there too.
    Mr. Ose. Sam Newman was there. And is Mr. Newman a 
fundraiser for the DNC?
    Mr. Huang. I believe he was at that time, yes.
    Mr. Ose. OK. And this is late September or early October 
1995?
    Mr. Huang. That is correct.
    Mr. Ose. OK. Did you have a private conversation with Ms. 
Pasquil at that luncheon where you asked Mr. Newman to excuse 
himself?
    Mr. Huang. I did.
    Mr. Ose. Why was that?
    Mr. Huang. Ms. Pasquil apparently had some difficulty in 
working around the Asian Pacific American communities, so that 
is why I encourage her, more or less, giving her some general 
advice in working with the community.
    Mr. Ose. For what purpose was Mr. Newman asked to leave 
that particular portion of the conversation?
    Mr. Huang. That was basically very personal matter. That 
was also the first--I believe it was the first time that Ms. 
Pasquil was able to--was working at the DNC for this political 
event--political role, rather.
    Mr. Ose. After Mr. Newman left, what did you and she 
discuss?
    Mr. Huang. I don't know specifically, but basically trying 
to encourage her, you know, to work around--it is very hard to 
work around our community. You know, you lump Asian Pacific 
American community as one. Actually, there are Japanese; 
Korean; Chinese, even among Chinese there are different groups, 
Indo-Chinese; and Indians--all of these things, getting very 
complicated.
    Mr. Ose. Mr. Chairman, I see that the time that Mr. 
LaTourette yielded----
    Mr. Waxman. Mr. Chairman, I would like to ask unanimous 
consent that the gentleman be given 5 additional minutes. I 
don't want him to be interrupted in the middle of his 
questioning.
    Mr. Ose. That would be Mr. LaTourette getting the 
additional 5 minutes? I haven't yet claimed my own time. Are we 
on my time right now?
    Mr. Burton [presiding]. Do you need 5 more minutes right 
now?
    Mr. Waxman. Whoever's time it is, I am asking that you be 
given an additional 5 minutes.
    Mr. Ose. All right. I appreciate that. Thank you, Mr. 
Waxman.
    After Mr. Newman left, you talked with Ms. Pasquil about a 
number of things. Did you talk about fundraising specifically?
    Mr. Huang. No. I don't recall specifically, except I 
mentioned to you, you know, along the line I refer some names. 
But essentially, Ms. Pasquil was encountering some difficulty 
in doing the job and she was at the point of tears. Most of the 
time I offer some encouragement, you know, to her.
    Mr. Ose. Were you in--I am a little bit curious about this. 
Did you kind of play a mentor role there with Ms. Pasquil?
    Mr. Huang. I would never take that role, sir. I am 
unworthy. I would not claim to be a mentor for anybody. I am 
learning things every day, sir.
    Mr. Ose. Did David Mercer ask you to help out for this 
event on November 2nd?
    Mr. Huang. Not at that particular time.
    Are you talking about that meeting?
    Mr. Ose. Yes.
    Mr. Huang. No.
    Mr. Ose. He was not at the lunch with Ms. Pasquil or Mr. 
Newman?
    Mr. Huang. No, sir.
    Mr. Ose. OK. But at that time he had not asked you to help 
with the event scheduled for November 2nd?
    Mr. Huang. No. At that period of time, no.
    Mr. Ose. You suggest that he subsequently did contact you 
about it?
    Mr. Huang. When the event is getting very close, the number 
did not come with the expectation. I did receive a call from 
Mr. Mercer. He said, John, you've got to come out and help a 
little bit, meaning help out giving some more names or 
something, give more encouragement to some of the people I 
know.
    Mr. Ose. OK. So Mercer calls you and says, we need your 
particular expertise here within the Asian Pacific community, 
further than what we have to date; and part of that role was to 
identify other individuals, for instance, who might be able to 
attend the dinner and contribute the money. Is that correct?
    Mr. Huang. That is basically correct. However, the names 
already being known to the DNC, is already there. It is just 
the responses did not come. The positive responses did not come 
yet.
    Mr. Ose. That really leaves--I mean, I found that if you 
have the right person asking the right question at the right 
time, you get a different answer than having the wrong person 
asking the right question at the right time.
    And what I am curious about is, from a comparative sense, 
relative to Ms. Pasquil asking individuals to contribute, was 
she the wrong person asking the right question at the right 
time compared with you asking the same question of the right 
person at the right time, or were you closing these deals, so 
to speak?
    Mr. Huang. No. That was not the situation, to close deals. 
She had made some success already. You know, just need more 
numbers.
    Mr. Ose. And you were brought in to help increase the 
numbers?
    Mr. Huang. Well, increase the encouragement to more people 
to fill up.
    Mr. Ose. If I understand correctly, Mr. Mercer--Mr. Newman 
concluded separately that Ms. Pasquil's efforts, however 
noteworthy, were just not sufficient for this particular event, 
and then they approached you for additional assistance?
    Mr. Huang. Yes. I was getting call from him, yes, for this.
    Mr. Ose. Did anyone else from the DNC contact you about 
this event?
    Mr. Huang. I could not recall right now, Congressman, 
except to say Newman, you know, the person I mentioned earlier.
    Mr. Ose. Who was at the lunch with Ms. Pasquil?
    Mr. Huang. That is correct, sir.
    Mr. Ose. Did you contact anyone about this event?
    Mr. Huang. I did.
    Mr. Ose. And who might that have been?
    Mr. Huang. The one I can remember more clearly was the lady 
called Chong Lo. I believe she was in San Francisco at that 
time.
    Mr. Ose. She is an American citizen?
    Mr. Huang. I believe she was, yes, sir.
    Mr. Ose. I mean if she was, I hope she still is, so----
    Mr. Huang. Yes, she is.
    Mr. Ose. Did you talk to Charlie Trie about this?
    Mr. Huang. I did, also.
    Mr. Ose. And what did you ask Charlie Trie, if anything, to 
do regarding this November 2nd----
    Mr. Huang. This is the first one and, hopefully, everybody 
can help out, you know.
    Mr. Ose. Did you ask Mr. Trie to contact some others 
regarding this event? Specific people?
    Mr. Huang. Not specific. Probably--if there were any 
specific people I mentioned about, probably would be Charlie 
Chiang, you know, the man that was mentioned, the restaurateur, 
whom I happened to know him because Charlie also graduate from 
the same high school as I am, but he was much closer to Charlie 
Trie. You know, they have refer to bring some people like 
Charlie, some other people to come in.
    Mr. Ose. Did you speak with, or did you contact Pauline 
Kanchanalak?
    Mr. Huang. I did also.
    Mr. Ose. Regarding this event?
    Mr. Huang. Yes.
    Congressman, let me clarify certain things. The event they 
want did not really come out with a lot of numbers, but 
somehow, around the oval table in the rooms, I recommend to 
invite some of the people who already made contribution to DNC 
in the past to join for the dinner. And Pauline Kanchanalak was 
one of them. I believe Charlie was also one of them.
    Mr. Ose. And Mr. Trie did attend the dinner?
    Mr. Huang. I believe he did, yes.
    Mr. Ose. OK. Going back to Chong Lo, what did you ask her 
to do for the event?
    Mr. Huang. I asked her to support. She was already known as 
a good fundraising among Democratic circle in the past.
    Mr. Ose. Mr. Chairman, I see my time has expired.
    Mr. Waxman. I ask unanimous consent if the gentleman wishes 
additional time to pursue his inquiry that he get another 5 
minutes.
    Mr. Ose. I again thank my good friend from California.
    What did you ask Pauline Kanchanalak to do? Just to attend 
the dinner?
    Mr. Huang. Just asked her to attend, yes.
    Mr. Ose. Did she attend the dinner?
    Mr. Huang. She did.
    Mr. Ose. Did she do anything else besides? Did she sell 
tickets? Did she identify additional people?
    Mr. Huang. No. For that particular event, she did not. I 
don't know that she did. I don't think so, no.
    Mr. Ose. All right.
    Do you know Ramesh Kapur?
    Mr. Huang. I know the person is from the Indian community.
    Mr. Ose. Regarding this November 2nd event, did you contact 
him regarding the event?
    Mr. Huang. I don't believe so, no, sir.
    Mr. Ose. How about George Chiang?
    Mr. Huang. George Chiang is--the one from the Taiwanese 
community in Virginia is the one we are talking about, sir? If 
that same one, I did not. He has been--if I can recollect, he 
had been active in the circle also.
    Mr. Ose. How about George Chaudry?
    Mr. Huang. George----
    Mr. Ose. Dr. and Mrs. George Chaudry, I should say. Were 
they part of the people that you talked with about this event?
    Mr. Huang. Someone from New York from the Indian community 
as well?
    Mr. Ose. It is clearly Indian, yes.
    Mr. Huang. No.
    Mr. Ose. How about Paresh Shah?
    Mr. Huang. No.
    Mr. Ose. Asha Putli?
    Mr. Huang. No.
    Mr. Ose. Teddy Chan, was she on her list?
    Mr. Huang. Is last name C-H-A-N?
    Mr. Ose. Yes.
    Mr. Huang. No. Not from me, no.
    Mr. Ose. Maeley Tom?
    Mr. Huang. Yes.
    Mr. Ose. Ashok Bhatt?
    Mr. Huang. No.
    Mr. Ose. David Kim?
    Mr. Huang. No.
    Mr. Ose. Sant Chatwal.
    Mr. Huang. No.
    Mr. Ose. Kaz Nakagawa?
    Mr. Huang. I don't think so, no. No.
    Mr. Ose. How about Howard Hom?
    Mr. Huang. Not from me, although I know Howard, yes.
    Mr. Ose. How about Gelli Borromeo?
    Mr. Huang. I know her, but not from me, no.
    Mr. Ose. Sharon Singh?
    Mr. Huang. Not from me, no.
    Mr. Ose. OK. I want to--I would like to go in a little bit 
of a different direction. You were at this point--you were in 
the Department of Commerce for--when did you--I know someone 
asked you this question earlier.
    You actually started your employment at the Department of 
Commerce when?
    Mr. Huang. July 18, 1994.
    Mr. Ose. When I came to Congress, I had a number of 
briefings about what I could or couldn't do as a Member of 
Congress. Does the Department of Commerce offer that to their 
employees relative to either the Hatch Act, political behavior, 
or ethics?
    Mr. Huang. There were some memo coming to me for that, yes.
    Mr. Ose. So you did receive some advisement from the 
Department of Commerce as to what you could or couldn't do?
    Mr. Huang. That is correct.
    Mr. Ose. Now, I notice that you had a meeting with Harold 
Ickes regarding the November 2nd event, is that correct, or am 
I remembering incorrectly?
    Mr. Huang. I am sorry. Congressman, can you repeat that 
again, please, sir?
    Mr. Ose. I stand corrected. Let me rephrase my question.
    Did you have a discussion with Harold Ickes during the time 
of your employment at the Department of Commerce regarding a 
campaign by Jesse Jackson, Jr.?
    Mr. Huang. Yes, I did.
    Mr. Ose. What was the substance of that conversation with 
Mr. Ickes?
    Mr. Huang. The key thing, Congressman, the conversation was 
purpose for other matter, these things came about during our 
phone conversation. I cannot really repeat exact words, but I 
can give you the general gist of that.
    Mr. Ose. What was the substance of that telephone 
conversation?
    Mr. Huang. He say, can you--to see if I could do something 
in the Asian American community to come up with $10,000 or 
$15,000 for Mr. Jackson's campaign.
    Mr. Ose. At this time--was Mr. Ickes at the DNC at this 
time?
    Mr. Huang. No. I believe he was at the White House, the 
deputy chief of staff.
    Mr. Ose. So the deputy chief of staff--well, let me ask the 
question differently.
    Did you call Mr. Ickes or did Mr. Ickes call you?
    [Discussion off the record.]
    Mr. Huang. That is a call, as I said, that the subject 
was--the original purpose was for something else, but this came 
about during the conversation. I did not call him, but he 
called me on that.
    Mr. Ose. He called you?
    Mr. Huang. That's right.
    Mr. Ose. OK. The thing that I am curious about is that the 
deputy chief of staff--well, where did he call you from? He 
called you from the White House? Is that what I heard you say a 
few moments ago?
    Mr. Huang. I don't know where he exactly call me from. I 
assume he call me from the White House.
    Mr. Ose. Well, I am not going to make that assumption. I am 
kind of curious.
    So the deputy chief of staff at the White House calls you 
during the term of your employment at the Department of 
Commerce--did he call you at your Commerce office?
    Mr. Huang. That is correct.
    Mr. Ose. So you were in a Federal position at that time and 
he asked you to assist with fundraising in a congressional 
campaign? That is a question, I should say. That is not a 
statement; it is a question.
    Did he ask you to assist at that time with fundraising?
    Mr. Huang. Excuse me 1 second.
    [Discussion off the record.]
    Mr. Waxman. Mr. Chairman, I notice the gentleman's time has 
expired, and I would like to ask unanimous consent that he be 
given an additional 5 minutes to continue his inquiry.
    Mr. Burton. Without objection.
    Mr. Ose. Thank you, Mr. Waxman.
    Mr. Huang. Congressman, to answer your question, yes, he 
did.
    Mr. Ose. From your understanding of the briefing when you 
first went to work at the Department of Commerce or the ethics 
memos that might have otherwise come, is that an allowed 
activity?
    Mr. Huang. He--my understanding was he was not asking me to 
give contribution, he ask me, you know, to find out whether 
Asian community can do that. I was willing to help at that 
time.
    Mr. Ose. So he called to ask you to solicit support within 
the Asian American community, rather than asked you for a 
contribution directly?
    Mr. Huang. Not solicit, to find out from the community 
whether they can come up with something, because I am from 
Asian American community. The perception was, I might have 
known somebody, might be able to do something.
    Mr. Ose. I am a little confused now. Let me back up a 
little bit.
    The deputy chief of staff calls you in your Department of 
Commerce office and asks you to identify, talk to, visit with 
members of the Asian Pacific community about fundraising? I 
mean, I am unclear on the concept here about what this 
particular portion of the discussion was about.
    Mr. Huang. Congressman, let me put down to the point where 
I did not feel comfortable. I probably know it is wrong to do 
that. OK? That is the nutshell for that. I was not sure on 
that.
    Mr. Ose. I appreciate your saying that because I do have a 
copy of the Hatch Act here, and unfortunately, I am not going 
to be able to ask Mr. Ickes this same question. But I am just 
trying to understand. I mean, at the congressional level, the 
sanctions are pretty severe as to someone in my office or me 
engaging in that kind of an activity, which you might say has a 
rather significantly high smudge factor; it is kind of 
indeterminate to do that out of my congressional office.
    I am trying to understand how it is that in your case, in 
this conversation with Mr. Ickes, that you could ever have 
gotten this far on the telephone or in person sitting in your 
Department of Commerce office, especially having had the 
training from the memos and the--and what have you from your 
personal testimony, and certainly Mr. Ickes having enjoyed the 
same benefit.
    Mr. Huang. I did not understand you. Could you repeat the 
question? I am sorry about that.
    Mr. Ose. If somebody calls me up and says, I want you to do 
this, that, or the other thing, and it is vague--I mean, I 
understand what they are asking me to do, but they are 
purposely vague about the specifics; well, frankly, I 
understand the law from the briefings and memorandums that have 
been given to me as a Member of Congress what I can and can't 
do, and clearly, you at least now understand the import of 
those things.
    I am just trying to understand where Mr. Ickes was coming 
from and what light you can shed on what his perspective was 
regarding that same activity. Because if it is not appropriate 
for you to do it from your Department of Commerce office, it 
certainly seems inappropriate for the deputy chief of staff at 
the White House to ask you to do something inappropriate.
    Mr. Huang. I express my feeling that it was not proper. I 
don't know what Mr. Ickes was feeling at that time.
    Mr. Ose. After the conversation, did you followup on what 
Mr. Ickes asked you to do?
    Mr. Huang. I did. I did not really do it immediately, 
though. Later on, it did come through, I did do something.
    Mr. Ose. And the result of the--we are not going to use the 
word ``solicitation,'' because you are not comfortable with 
that. I might use that, but you are not comfortable with it.
    But the contacts that you made subsequent to that call 
resulted in some benefit to Congressman--then Candidate 
Jackson's campaign?
    Mr. Huang. That is correct.
    Mr. Ose. I have to think about this, Mr. Chairman. Can we 
come back on a next round? I yield back.
    Mr. Burton. Well, before you yield back, if you would yield 
to me quickly.
    Mr. Ose. Certainly.
    Mr. Burton. How much money did you raise for Mr. Jackson's 
campaign?
    Mr. Huang. Mr. Chairman, if I remember correctly, the total 
amount, including the money from me personally and my wife, is 
about $7,000.
    Mr. Burton. $7,000?
    Mr. Huang. Yes, sir.
    Mr. Burton. How much was from you and your wife?
    Mr. Huang. In total, about $1,000; $500 each.
    Mr. Burton. About $3,000. So you raised----
    Mr. Huang. No. $1,000, in total. $500 each.
    Mr. Burton. About $1,000. So you raised $6,000 from other 
sources?
    Mr. Huang. That is correct.
    Mr. Burton. Did you collect that money yourself? Did you 
get the checks?
    Mr. Huang. Yes, I did.
    Mr. Burton. Did you turn them over to the DNC or to Mr. 
Jackson's campaign?
    Mr. Huang. I deliver to the office on K Street somewhere. I 
believe that was related to Mr. Jackson's.
    Mr. Burton. When you did that, were you aware that you were 
violating the Hatch Act or possibly violating the Hatch Act?
    [Discussion off the record.]
    Mr. Huang. Mr. Chairman, I certainly did not feel very 
comfortable in doing that, but I did not know for sure in that.
    Mr. Burton. When you talked to Mr. Ickes, did you tell Mr. 
Ickes that you thought that this was something you should not 
do?
    Mr. Huang. I did not.
    Mr. Burton. What did Mr. Ickes say to you?
    Mr. Huang. He basically, as I said----
    Mr. Burton. I know, but I want you to be a little bit more 
specific. What did he say, do you recall?
    Mr. Huang. He basically say, can you run up, you know, 
$10,000 or $15,000 for the Asian community for Mr. Jackson's 
campaign; and he say, you need to be careful about this--
something in that language, ``careful.''
    Mr. Burton. He said be careful about it?
    Mr. Huang. Be sensitive about it.
    Mr. Burton. What do you think he meant by ``be sensitive 
about it?''
    Mr. Huang. The reason there was a primary election, you 
know, there was different candidates running for that seat. I 
can sense that probably he didn't want people to know somebody 
is siding one against another among the Democratic candidates.
    Mr. Burton. You don't think he meant you are treading on 
the law and maybe you shouldn't be doing this?
    Mr. Huang. At least I did not think of it that way.
    Mr. Burton. But he could have meant that, couldn't he?
    Mr. Huang. I have no reason to believe that was the case 
though, sir, no.
    Mr. Burton. OK. The gentleman can continue the next round, 
I guess.
    Mr. Waxman. Well, Mr. Chairman, if the Members won't mind, 
I would like to take some of my 5-minute round.
    Mr. Ose. I would yield to the gentleman from California.
    Mr. Burton. The gentleman is entitled to his 5-minute 
round, and if he needs extra time, we can accommodate him.
    Mr. Waxman. Thank you very much, Mr. Chairman.
    Yesterday I talked about the issue of David Wang. David 
Wang was the gentleman to whom we gave immunity. He testified, 
and he said after we gave him immunity that Mr. Huang had come 
and given him money to pay for a contribution he had given to 
the Democrats, and then we at that time established that Mr. 
Huang was not in Los Angeles, but in New York. We established 
it seems to me, very, very clearly that Mr. Wang was not 
accurate in his statement; yet, even though this accusation has 
turned out to be false that Mr. Wang made against Mr. Huang, no 
one seems to be willing to admit that there was a mistake, that 
there was an accusation that turned out to be unsubstantiated.
    Well, I want to show a video, if I might, from CBS 
Television. It was a news show.
    [Video shown.]
    Mr. Waxman. Mr. Chairman and my colleagues, that was from 
April 1997. Here it is December 1999. We now have the 302s, 
which are the interviews by the FBI checking into some of these 
allegations, and I would like to have distributed to other 
Members the FBI interview notes with Representative Solomon, 
who made these accusations. I think that is going to be 
distributed.
    I want to read from this interview with Mr. Solomon, 
because the FBI wanted to find out what Mr. Solomon knew.
    He

    Began the interview by stating that at no time has he ever 
been the recipient of classified information from the 
Department of Commerce. He tries to avoid receiving any type of 
classified information so that he is not hindered when speaking 
by a fear of revealing information that is classified. All 
classified documents received by the House are directed to the 
House Committee on Intelligence. If there was something that he 
believed that he needed to review, he would go to that 
committee and review the information there.

    Then the FBI report said,

    At this point, Congressman Solomon advised that he did not 
have a copy of the article in question. Therefore, the relevant 
portion of the article was read to him as follows,

and then they read back to him:

    I have received reports from government sources that say 
there are electronic intercepts, electronic intercepts which 
provide evidence confirming what I suspected all along, that 
John Huang committed economic espionage and breached our 
national security bypassing classified information to his 
former employer, the Lippo Group.
    Congressman Solomon recalled that a Senate staffer at 
either a Senate or a House reception told him that he (the 
staffer) had received confirmation that a Department of 
Commerce employee had passed classified information to a 
foreign government. It was Congressman Solomon's understanding 
that the staffer meant John Huang and that the information went 
to China. However, the staffer did not say that.

    Then--that was what he said on August 28, 1997. He also 
said that he ``could not recall the staffer's name, but he 
might recognize him if he saw him again.''
    Well, then on February 25, 1998, the FBI further asked Mr. 
Solomon about this, and Congressman Solomon advised,

    He does not know this individual's name and he has not seen 
him again. He advised that the statement made by this Senate 
staffer was something to the effect that, ``Congressman, you 
might like to know that you were right, there was someone at 
Commerce giving out information.''
    Congressman Solomon described this staffer as a male in his 
30's or early 40's, approximately 5 foot, 10 inches tall with 
brownish hair. This occurred in the hallway of the Rayburn 
Building while Congressman Solomon was either going to or 
returning from a reception.

    Now, I know Jerry Solomon and consider him a friend, and I 
don't think he meant to hurt anybody particularly, but when you 
have an accusation like this made--it was on national 
television, the accusation was on the front page of the L.A. 
Times--and what is the basis for this accusation?
    The basis appears to be some unidentified person saying 
something to him at a reception, in or out of a reception in 
the Capitol. He doesn't remember the staffer and he doesn't 
have anything specific that ties Mr. Huang into anything along 
the lines of giving information from the Department of Commerce 
to China.
    I just want to raise this to illustrate the fact that 
Members of Congress particularly, and everyone, should feel 
some restraint in making allegations that are so inflammatory. 
The truth never quite catches up with the headlines.
    Mr. Huang has admitted yesterday and today that he 
committed what amounted to a felony in terms of giving a 
conduit campaign contribution, but he has denied all of these 
other accusations that have had such widespread reporting in 
the major media for the last 3 years.
    Where do you go to ever correct the record? Where do you go 
to point out that the accusations that were made just turned 
out not to have been true, not to have been substantiated? And 
it just seems to me that when accusations are made by Members 
of Congress for whatever reasons--including the fact that they 
may benefit a particular party politically by attacking 
President Clinton and his administration--that when you find 
out that the allegations have no substantiation, people ought 
to be willing to say they were wrong.
    I said yesterday if some of these accusations turn out to 
be true and we have evidence for them, I will admit that I was 
wrong, but I haven't heard anybody, the chairman or anybody 
else who has made these inflammatory accusations, ever admit 
their error. Mr. Solomon maybe will want to do something about 
this now, although he is not in Congress anymore, but he did 
talk to the FBI on two separate occasions, and despite his 
inflammatory accusations of what hints at treason by Mr. Huang, 
pretty serious stuff, it turned out that it was gossip from 
somebody he didn't really know about somebody that wasn't 
clearly identified, from an individual who was in his 30's or 
40's that he saw outside going in or out of a cocktail party.
    I raise that point, and I think we ought to try to learn 
from it, because we are supposed to be responsible people in 
the Congress of the United States, and I hope we would 
recognize our responsibility and take it seriously.
    I yield back the balance of my time.
    Mr. LaTourette. Will the gentleman yield to me for just a 
second?
    Mr. Waxman. Yes, I would be happy to yield.
    Mr. LaTourette. Thank you very much. In the spirit of what 
you are saying, I would like to ask a question. Maybe you know 
and maybe the chairman knows. I have read the 302 that you are 
referring to, Congressman Solomon or Chairman Solomon in the 
hallway with a staffer, but in his 302 he talks about the fact 
that his information may have also come from an NBC Worldwide 
broadcast alert, and then I had the chance to read that while 
you were talking.
    The thing that is of interest to me is that the allegation 
I saw Congressman Solomon make on television was that this was 
information that was collected by U.S. listening stations. 
According to this NBC article, at least, a staffer, again 
familiar with intelligence matters, indicates that it was 
picked up at U.S. electronic eavesdropping sites targeted on 
trans-Pacific communications.
    I remember yesterday when the chairman was making 
observations about Senator Lieberman as well, who had made some 
observations about classified information being passed on, 
concerning intelligence matters that were collected by these 
listening stations. I am wondering, were those the same things, 
or something else?
    Mr. Waxman. Well, I don't know. We have seen already in the 
press, statements that there were intelligence intercepts of 
discussions by people in the People's Republic of China talking 
about how to try to influence the Congress and get more 
involved in lobbying and whatever. We know about that report. 
But Mr. Solomon said that he had information from an intercept. 
That was where his statements on television came from, from an 
intercept, an electronic intercept.
    Now, Mr. Solomon, he has knowledge that if he were in 
receipt of electronic intercepts, it would be a violation of 
national security laws to release that information to the 
press. And he said in this interview that he didn't have any 
classified information from the Department of Commerce; and 
then he proudly told the FBI, I don't--I try ``to avoid 
receiving any type of classified information so that he is not 
hindered when speaking by a fear of revealing information that 
is classified.'' He said, if he were going to get classified 
information, he would go to the intelligence community.
    But the key point here is that Mr. Solomon, who made this 
allegation, might have been sincere in making it, but he 
apparently had no information. He was basing his allegation on 
gossip, and that is what is so disturbing to me.
    Mr. LaTourette. Will the gentleman yield further? I would 
just like to make a request of you as the ranking member and 
also the chairman.
    I think that--I have heard Mr. Huang over the last couple 
of days indicate that this didn't happen. I think it is a very 
serious allegation. If there is, in fact, evidence in the 
control of the U.S. Government that information was--and it has 
been picked up by listening stations or intelligence services 
or anybody else--that an official within the Commerce 
Department was transferring classified information to a foreign 
entity, I think that is treason, and I would hope that 
understanding the issues of national security--but for crying 
out loud, if this was in fact happening, as Senator Lieberman 
apparently had some observations to make about it, Congressman 
Solomon has had some observations about it, I think that Mr. 
Huang should either be cleared or not cleared. And I think that 
if we have the information, we have the tools and the ability 
and the power to get to the bottom of this.
    Mr. Waxman. If I can just respond to the gentleman, we have 
had briefings by the FBI, and they have checked into all of 
these allegations, and there is not any evidence that the FBI 
has reported to us to indicate that these accusations have any 
basis in truth. And if there were a basis in truth, if we could 
establish these facts, then I would join with you in condemning 
them and expressing outrage.
    But what I am expressing is outrage about the allegations 
that are made where there is no basis for those allegations, 
that take a man's reputation--that is not sterling obviously, 
because he has committed a campaign finance violation and 
admitted guilt to a felony--but that doesn't justify accusing 
him, based on gossip, of treason, selling out the interests of 
the United States to the Chinese Government.
    Mr. Burton. If the gentleman would yield briefly?
    Mr. Waxman. Yes, be happy to yield.
    Mr. Burton. Let me just say that we quoted Senator 
Lieberman yesterday, and I would like to refresh everybody's 
memory, ``Nonpublic evidence presented to the committee 
demonstrates a continuing business-intelligence relationship 
between the Riadys and the People's Republic of China 
Intelligence Service.'' That does not mean Mr. Huang 
necessarily. But the fact is, there may be other intelligence-
gathering agencies that have some information that we could 
take a look at.
    I will ask the staff to assist me in checking into this to 
see if there is any verification. If there isn't, I agree with 
you that we ought to make sure that the record states that 
there is no evidence that Mr. Huang did that. But in the 
meantime, before we take that step, I will see if we can't 
contact the intelligence agencies to see if there is any 
verification of what Mr. Solomon or what Mr. Lieberman said.
    Mr. Waxman. If you will yield to me, I appreciate what you 
are saying, and I think--and I will be glad to work with you 
and have our staff work with your staff to find out the truth.
    Mr. Burton. Sure.
    Mr. Waxman. But if there were a connection between Mr. 
Riady, who has business in Indonesia and China and I don't know 
where else; and in his business activities over there, he has 
any contact with the People's Republic of China and their 
intelligence agencies or anything along those lines, what does 
that have to do with Mr. Huang?
    Mr. Burton. Well----
    Mr. Waxman. Unless you can show that Mr. Huang had some 
connection to it, it seems to me grossly unfair to accuse him 
of treason based on gossip and connections between people he 
worked for at one time and other activities that they might 
have had, which haven't been established, but might be in terms 
of some connection to the People's Republic of China and their 
intelligence agencies.
    Mr. Burton. If the gentleman will yield, we will check that 
out, and I will look forward to working with you and our staff 
to see if we can't clarify that as quickly as possible.
    Mr. Waxman. If you are willing to at that point admit the 
error of some of the statements that have been made, I think 
that is only fair. And I would hope you would keep in mind the 
fact that we did an injustice to Mr. Huang when we had Mr. 
Wang's statement that Mr. Huang went into his office and gave 
him a conduit contribution, and it turned out that Mr. Huang 
was in New York and it was someone else. Mr. Wang was wrong and 
the accusations we made based on Mr. Wang's incorrect testimony 
should be withdrawn as well. I hope you would take that to 
heart.
    Mr. Burton. Well, I don't think Mr. Wang's testimony should 
be withdrawn in toto. If there was a mistake, that mistake 
should be corrected. But he was a conduit for at least $10,000, 
as you know, in illegal campaign contributions.
    Mr. Waxman. He, meaning who?
    Mr. Burton. Mr. Wang.
    Mr. Waxman. Mr. Wang was a conduit, but he said he was a 
conduit for Mr. Huang.
    Mr. Burton. And the information that you have just stated 
to the committee, and I have not yet checked that out, was that 
instead of it being Mr. Huang, it was Charlie Trie; and you 
have stated--and I have not checked it, but we will--that 
Charlie Trie has said in his 302s to the FBI that he was the 
one that laundered that money through Mr. Wang.
    Now, if you want to set the record straight, you will also 
recall that your staff tried to get Mr. Wang's father to say 
things that were untrue and that became a fiasco in the 
investigation as well.
    So I don't know that we want to go through that whole 
rigmarole again. All I can say is that we will check that out 
as well. If Charlie Trie was the one, as we have heard that it 
is from 302s, we will set that record straight as well.
    Mr. Waxman. You have made some allusion to my staff and I 
have checked out that accusation, and that is absolutely 
untrue.
    Mr. Burton. Well, not according to the attorney for Mr. 
Wang and from Mr. Wang's father.
    Mr. Waxman. I will just tell you that it is untrue.
    But let us check the record on Mr. Wang. Mr. Huang has 
denied that he was there giving Mr. Wang the money. Charlie 
Trie has said that he is the one who has done it, so it is 
clear that Mr. Wang was mistaken and that mistaken testimony by 
Mr. Wang became the basis for a very serious accusation by you, 
Mr. Chairman, against Mr. Huang that should be admitted as 
incorrect now that we have further information.
    Mr. Souder. Mr. Chairman.
    Mr. Burton. Mr. Souder.
    Mr. Souder. Given the nature of this debate, I have an 
article I would like to submit into the record that relates to 
this general point.
    Mr. Solomon is not a member of this committee. I am sorry 
for any wrong that was done to Mr. Huang from that. If, indeed, 
the evidence holds that up, he deserves an apology from Mr. 
Solomon and anybody else.
    One of the unfortunate by-products of this investigation, 
because millions of Americans are enraged that our secrets got 
to China. We don't know who and how; and it is wrong for 
anybody, which Mr. Waxman is warning us, to jump to conclusions 
and say that about individuals until it is proven.
    At the same time, there is kind of an implication here that 
everybody involved in this has been jumping to conclusions, and 
the article I want to insert in the record, merely because it 
makes this point is by James Adams in the American Spectator, 
not necessarily known as the most cautious publication in 
America, in December 1996 that says John Huang was the fall guy 
in the Indonesian scandal and was merely the errand boy of 
billionaire Asian interests with long-standing ties to the 
Clinton crowd; and it also says he was more of an errand boy 
than a prime mover.
    It says that he is being punished more than the politicians 
who received his illegal money, my point being that even those 
who have been very critical of this whole scandal since 1996 
have not all maintained that John Huang was at the center of 
the universe with this.
    I think it is important for the record to show that people 
have been all over the place. What we are trying to do with 
these hearings today is to find out actual facts.
    Mr. Burton. The purpose of the hearing is to get the facts 
out and the truth out to the American people, and we will try 
to do that. If the record is incorrect, we will correct it.
    Who do we have next on the schedule?
    It is the chairman. All right. We will go on to another--
Mr. LaTourette, are you prepared? I understand that you wanted 
me to yield to you right now. I can get to my stuff afterwards.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Huang, I want to go into another fundraising event that 
occurred on September 26, 1996.
    But before I do that, I was just--this discussion that we 
have just been having with Mr. Waxman sort of jogged a memory, 
and that is, during your opening statement, you indicated--you 
made reference to Mr. Solomon's interview. I don't know if it 
was the one that we just saw on CBS, but it said you had been 
advised from an anonymous source at a cocktail party, who 
turned out to be the source of Mr. Solomon's statements.
    I didn't see, Mr. Chairman, Mr. Solomon's 302s from the FBI 
until they were just distributed, and I guess I am wondering 
how you came to be in possession of that information.
    How did you know that Mr. Solomon said to the FBI that it 
was a person at the cocktail party?
    Mr. Huang. I was advised by my attorney.
    Mr. LaTourette. Sometime I will ask your lawyer, I guess.
    I want to turn to September 26th.
    Mr. Burton. I think that is pretty important, because we 
have an FBI 302 that was not yet made public, and if the 
counsel for Mr. Huang was giving him information from an FBI 
302 that was not made public, I think it is important to find 
out how he knew that.
    So with unanimous consent, I would like to ask the counsel, 
Mr. Cobb, how he knew about that 302. Is there objection? 
Objection not heard.
    Mr. Cobb.
    Mr. Cobb. Mr. Chairman, I would be happy to answer that 
question. I did not get the information from the 302.
    Mr. Burton. From where did you get it?
    Mr. Cobb. I got it from the Campaign Finance Task Force.
    Mr. Burton. The Campaign----
    Mr. Cobb. During the course of Mr. Huang's interviews, the 
confusion about Mr. Solomon's statement was cleared up for us.
    Mr. Burton. In the hearing with the Campaign Finance Task 
Force? Is that what you are saying?
    Mr. Cobb. Yes, in the 20 days of interviews.
    Mr. Burton. So they gave you that information during the 
interviews?
    Mr. Cobb. Not in the detail as reflected in the 302.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Thank you, Mr. Cobb.
    The other day I was wondering whether you gentlemen 
represented Mr. Huang in this other stuff, and I saw you on TV, 
so you must have. You again are excellent lawyers and you are 
to be commended. If I ever get involved in this sort of thing, 
I will call you.
    On September 26, 1996, Mr. Huang, were you involved in that 
event?
    Mr. Huang. Was that referring to the Central City in Los 
Angeles?
    Mr. LaTourette. The Sheraton Carlton Hotel in Washington. 
There was a fundraiser at the Sheraton Carlton Hotel on 
September 26, 1996. You attended that, did you not?
    Mr. Huang. I think the date is not correct, if you are 
talking about Sheraton Carlton. It was not September 26th.
    Mr. LaTourette. What day do you think it was?
    Mr. Huang. Are you talking about in May, maybe?
    Mr. LaTourette. July 13th?
    Mr. Huang. I think it is May 13.
    Mr. LaTourette. May 13th. Well, anyway, you know what, 
there was a fundraiser at the Sheraton Carlton sometime in 
1996; is that correct?
    Mr. Huang. That is correct, yes.
    Mr. LaTourette. And you attended that event. Did you do 
work for that event, help raise money for that event?
    Mr. Huang. Yes, I helped organize it.
    Mr. LaTourette. Did Mr. Riady, James Riady, attend that 
event?
    Mr. Huang. Not that event, no.
    Mr. LaTourette. OK.
    Mr. Huang. Congressman, trying to help you, I am supposed 
to help you in any way to the committee.
    Mr. LaTourette. I appreciate it.
    Mr. Huang. Sheraton Carlton asked me to host quite a lot of 
events for fundraising. It could be really referring to one 
event probably in Sheraton Carlton, and Mr. James Riady did 
attend, and probably not the May 13th one, it could be later 
on. It could be the one you are talking about, the July, there 
is one on that.
    Mr. LaTourette. Specifically, the month of September, do 
you recall an event at the Sheraton Carlton in Washington where 
you were in attendance and Mr. Riady was also in attendance? 
The reason I ask you is that David Mercer of the DNC indicates 
that one of the last times that he saw Mr. Riady was at this 
event with you.
    Mr. Huang. OK.
    Mr. LaTourette. So I am going to try and help you too with 
your memory.
    Mr. Huang. Thank you. We are really in line with talking 
about specific right now.
    Yeah, Mr. Mercer organized and hosted that event that was 
basically for the African American community.
    Mr. LaTourette. And that was on September 26, 1996?
    Mr. Huang. That's correct, right. At the Sheraton Carlton 
Hotel, yes.
    Mr. LaTourette. That took me about 4 minutes to get where 
we were going originally.
    Mr. Waxman. Mr. Chairman, the gentleman is still in the 
middle of his interrogation. I want to give him by unanimous 
consent additional time. How about 10 minutes?
    I ask unanimous consent that the gentleman proceed for 
another 10 minutes, but Mr. Huang ought to be given an 
opportunity if he needs a break to take it now; otherwise, we 
can keep going.
    Mr. Huang. Personally, I don't have any objection to 
continue.
    Mr. Souder [presiding]. We will continue for these 10 
minutes, and then if you would like, we will take a break then, 
so you can have a few minutes just to rest up and then we will 
come back.
    Mr. Huang. Thank you very much, Congressman.
    Mr. LaTourette. Are you sure, Mr. Huang? I am known for my 
withering examinations. If you want to take a break ahead of 
time, go ahead.
    Mr. Huang. I am totally surrendering to all the lawyers. I 
am not a lawyer. As Congressman Shays said, I am really at a 
disadvantaged position.
    Mr. LaTourette. We're at September 26, 1996, we are at the 
Sheraton Carlton in Washington, DC. It's a fundraiser organized 
by David Mercer, primarily you said was an African American 
event was the target audience, and you are there with Mr. 
Riady.
    Mr. Huang. That is correct.
    Mr. LaTourette. Was Mr. Trie, Charlie Trie, also in 
attendance at this event?
    Mr. Huang. I couldn't quite recall but I don't believe he 
was there, though.
    Mr. LaTourette. OK.
    Mr. Huang. I could not quite recall.
    Mr. LaTourette. That's OK. All I want is your best memory 
and no guesses. I want to turn to the exhibit book if you can. 
In exhibit 501--and maybe if we could put 501 up on the screen 
as well for the benefit of everybody else. Exhibit--while it's 
being gotten out, 501 is a ticket from the Carey Limousine Co. 
While I--how I suspected you were in Washington on that day is 
that it indicates that you arranged for a limousine on that day 
to go from the Democratic National Committee Headquarters to 
Dulles Airport, then to the Watergate South Apartment. From 
there the limousine, according to the ticket, went on to the 
Sheraton Carlton, then back to the Watergate South.
    Do you see all that and agree that I have the itinerary 
right for where that limousine went on that particular 
occasion?
    [Exhibit 501 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.301
    
    Mr. Huang. Yes, yes.
    Mr. LaTourette. Are you able to explain to us--well let me 
ask you a series of questions. Did you go in that limousine to 
pick up James Riady?
    Mr. Huang. I believe I did.
    Mr. LaTourette. Would that be the stop at Dulles Airport?
    Mr. Huang. I don't know--wait a minute. Yes, I did.
    Mr. LaTourette. At Dulles. The Dulles stop on the ticket 
would be picking up Mr. Riady.
    Mr. Huang. That's right.
    Mr. LaTourette. It then went to the Watergate South and the 
Watergate South is where Mr. Trie lived, is that correct; 
Charlie Trie lived at the Watergate, stayed at the Watergate?
    Mr. Huang. That is correct.
    Mr. LaTourette. Was the purpose of the limousine on 
September 26th to go pick up Mr. Trie next?
    Mr. Huang. No.
    Mr. LaTourette. Do you recall why it is you went--you 
directed the limousine to go to the Watergate South on that 
day?
    Mr. Huang. I think Mr. Riady was the guest, you know, to be 
invited to stay there, and stayed in the hotel by Mr. Trie.
    Mr. LaTourette. Well, OK. But the--according to the ticket, 
it leaves the Watergate, goes to the Sheraton Carlton. So if 
you picked up Mr. Riady at the Dulles Airport, you then go to 
the Watergate South. I think that you picked up Mr. Trie and he 
got in the car then you all went to the Sheraton Carlton. Is 
that what happened, or did somebody--why would you--if he's 
going to----
    Mr. Huang. I did not quite recall Mr. Trie went for that 
evening's event or he came along with a limousine directly go 
to that event, though. If he did go, probably he went 
separately by himself, yeah.
    Mr. LaTourette. But it was your recollection that Mr. Riady 
had been invited to stay with Mr. Trie at the Watergate?
    Mr. Huang. That is correct.
    Mr. LaTourette. OK. So the stop at the Watergate could have 
been for Mr. Riady to drop off luggage or freshen up or 
whatever before you headed over to the Sheraton Carlton?
    Mr. Huang. If I am not mistaken Mr. Riady also stay 
overnight.
    Mr. LaTourette. At the Trie's apartment?
    Mr. Huang. At Trie's apartment, yes.
    Mr. LaTourette. Did you stay there as well that evening at 
the Sheraton Carlton?
    Mr. Huang. I might have, yes. I might have.
    Mr. LaTourette. You might have but you don't recall 
specifically?
    Mr. Huang. I don't recall specifically.
    Mr. LaTourette. That same exhibit indicates that the 
following morning you arranged for a limousine to pick someone 
up at the Watergate South at 7:15 but there was no response. Do 
you recall why it is that you made that arrangement; who it was 
supposed to pick up, where it was supposed to go?
    Mr. Huang. Are we on the right-hand side of the lower 
bottom, sir?
    Mr. LaTourette. Uh-huh.
    [Discussion off the record.]
    Mr. LaTourette. I'm at the lower right-hand side; 
Watergate, time arrived.
    Mr. Huang. The best recollection, probably everybody 
overslept.
    Mr. LaTourette. One more--everybody was gone already.
    Mr. Huang. No, overslept.
    Mr. LaTourette. OK. Now that we have talked about and you 
think that people had overslept, did you have a recollection of 
spending the night at the Watergate with Mr. Riady and Mr. Trie 
now? I mean, is this refreshing your memory that that's where 
you were?
    Mr. Huang. Yes. Yes, I do.
    Mr. LaTourette. The three of you spent the evening at Mr. 
Trie's place at the Watergate South Apartments.
    Mr. Huang. Right.
    Mr. LaTourette. OK. This visit--well, hang on a minute. I 
want to go to exhibit No. 502 next, if you look at the next 
page. It's another limousine ticket for the 27th. It indicates 
that someone was taken from the Watergate to 14th and 
Pennsylvania Avenue, then to the Democratic National Committee, 
then to Connecticut and I Street, then back to 14th and 
Pennsylvania Avenue. Are you able to give us a reason as to why 
you hired a car for this purpose, who was in it and what was 
going on?
    [Exhibit 502 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.302
    
    Mr. Huang. At this moment I could not.
    Mr. LaTourette. Let me ask you this: Do you know whether or 
not that limousine that we're now talking about in exhibit 502 
picked up anyone other than Charlie Trie at the Watergate?
    Mr. Huang. Mr. Riady came in with another executive from 
the Lippo as well. So there is only two persons involved in the 
limo as best I can recollect.
    Mr. LaTourette. Did you know why it went to 14th and 
Pennsylvania Avenue, and specifically the why; was it to pick 
up Mark Middleton?
    [Discussion off the record.]
    Mr. Huang. No, although that I can really not recollect 
exactly, you know, it might be to visit Mr. Middleton. Mr. 
Middleton at that time already, I think--this is 1996, right?
    Mr. LaTourette. September 26th.
    Mr. Huang. Right. Mr. Middleton has already left the 
government. He was a consultant for himself at that time. And--
--
    Mr. LaTourette. You mentioned that there was another Lippo 
executive besides Mr. Riady. Do you recall who that was?
    Mr. Huang. No, I cannot recall. I never saw him before. But 
he came along with Mr. Riady.
    Mr. LaTourette. Did this particular visit that we're 
talking about--September 26, 1996 was after the first news 
stories about the campaign finance scandal had broken on 
television. Do you recall when you and Mr. Trie and Mr. Riady 
are spending the night at Mr. Trie's place at the Watergate 
South, whether or not those news stories were the subject of 
any discussion among the three of you or among two other people 
in your presence?
    Mr. Huang. I don't recall specifically on that. No.
    Mr. LaTourette. OK. And do you recall in all of the 20 days 
of interviewing that you had with the Department of Justice, 
did they ever talk to you about this series of limousine rides, 
that you can recall?
    Mr. Huang. No.
    Mr. LaTourette. At any time on the two receipts that I have 
shown you, the 502 and 501, was the President of the United 
States, Mr. Clinton, either before or after the event that 
occurred at the Sheraton Carlton on September 26th, involved 
with Mr. Riady on any of these trips that this limousine was 
taking?
    Mr. Huang. Mr. Clinton, you say? No. No, he was not 
involved.
    Mr. LaTourette. Are you aware of any ride, limousine ride 
taken by the President of the United States with Mr. Riady 
during this visit by Mr. Riady to Washington DC; that is, the 
day either before or after the September 26th African American 
event at the Sheraton Carlton in Washington DC?
    Mr. Huang. No, sir.
    Mr. LaTourette. You were there.
    Mr. Huang. No, sir.
    Mr. LaTourette. Do you know how much time I have left, Mr. 
Souder? Is there a clock? I don't want to start a new area. I 
can stop here. Why don't I stop? I tell you what. I yield back 
my time and I'll come back.
    Mr. Waxman. If you want to go now and want another 10 
minutes it's OK with me. I will give Mr. Huang a break.
    Mr. LaTourette. Mr. Shays would like to ask a few. I'll 
yield back at this moment.
    Mr. Souder. The committee will stand in recess for 10 
minutes.
    Mr. Huang. Thank you, Congressman. Thank you.
    [Recess.]
    Mr. Burton [presiding]. The committee will reconvene. Mr. 
LaTourette, I think you have the floor.
    Mr. Shays. If I could ask unanimous consent that he could 
have the 10 minutes that Mr. Waxman suggested.
    Mr. Burton. Without objection, so ordered.
    Mr. LaTourette. I thank everyone for their courtesy. I also 
appreciate the break.
    I want to talk next, Mr. Huang, about a document that 
appears in your book as exhibit No. 513. And this is a document 
that was taken from Charlie Trie by the Federal Bureau of 
Investigation. And the title of the document is Cooperation 
Opportunities with James Riady. The original document, I just 
want to get it here real quick, was in Chinese, and it's been 
translated and as it appears now in exhibit 513. And I just 
want to read it for the benefit of the record, although it will 
be submitted into the record.
    The text that we received is a translation as follows:

    No. 1, Wal-Mart in Shanghai opens a store--and just an 
editorial comment is where haven't they opened a store? Because 
Lippo has a successful cooperation experience at Lippo Village 
and received sweet reward at Shenzhen. Actively urged Lippo to 
work with them in opening stores in Shanghai and Beijing.
    Must obtain retail license and buy local product and 
imports to sell before we can consider. Local government may 
join in but maximum 10 percent. Wal-Mart takes 50 percent. 
Remaining may be divided by you.
    The needed land must be not less than 10,000 square meters. 
Hopefully it will be a clear-cut deal. Distance from medium and 
high-income area cannot exceed 20 minutes driving time.
    Buy a hospital in Shanghai and modernize it. The Lippo 
Village already has gained high-level hospital experience. 
Plus, James is a trustee of the Arkansas Medical School. His 
father is a trustee of USC. They may invite foreign doctors to 
be visiting doctors as Shanghai and can send Shanghai doctors 
for advanced training in foreign countries. The targets are 
foreign businessmen and high-income people.
    Buy a school in Shanghai or work out a joint venture for an 
international school. Lippo Village's international school may 
be used as a model for planning.
    No. 4 there's a hotel in San Francisco--the stock should be 
bought in total or in part. This hotel is owned by the bank and 
is worth $7 million. It has a good record and may get a 60 
percent loan. Suggest that you find 6 Chinese accounts to 
invest $1 million each. Lippo will retain one-seventh of the 
stock. These investors instantly become a partner of Lippo. 
They can use that to request immigration.
    L.A. Bank Stocks: Maybe a part of the L.A. bank stock can 
be sold to Wang Jun. Knowing you have good relations with Wang 
Jun, hoping you can be an intermediary. Proposing that Wang 
Jung buy the Lippo bank stocks with money as reenforcement to 
enter the U.S. market. You may also plan to get a part of the 
stocks and a director position. James is a fair person. He 
knows especially the long-term strategy and advantage of using 
business partners. He knows you have good relations with China. 
Hope you may be able to realize the above suggestions. He 
agrees with my proposal and is willing to work with you on the 
above items.
    If you are going to Jakarta in October, he may send his 
helicopter so you can visit Lippo Village. Thus you may have a 
clearer picture to push for the above items in China.
    He may wait until you finish meeting on October 9 and hold 
a detailed talk with John Huang in New York on October the 
10th.''

    First, have you ever seen this document before Mr. Huang?
    [Exhibit 513 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.303
    
    Mr. Huang. No, sir.
    Mr. LaTourette. Either in its original form or in its 
translated form?
    Mr. Huang. No, sir.
    Mr. LaTourette. At any time did either Charlie Trie or Ng 
Lap Seng ask you for a business help or introductions?
    Mr. Huang. No.
    Mr. LaTourette. Do you know if Charlie Trie ever had a 
relationship, a business relationship with the Lippo Group?
    Mr. Huang. Not prior to that, no.
    Mr. LaTourette. Prior to what?
    Mr. Huang. Up here what you are saying on this--the memo or 
whatever the translation, anything prior to that--this 
indication looks like they're going to go through some 
business, you know.
    Mr. LaTourette. You would----
    Mr. Huang. I was not aware of that.
    Mr. LaTourette. You would agree with me that exhibit 513 
appears to be a recitation or a proposal that there be further 
discussions for business between Mr. Trie and the Lippo Group; 
that's what it appears to be?
    Mr. Huang. That's right.
    Mr. LaTourette. Do you have any independent knowledge that 
any of the items mentioned there in that document 513 actually 
came to pass or are coming to pass? For instance, the first 
item on the list is a venture with Wal-Mart in Shanghai. Did 
you ever discuss that with Charlie Trie.
    Mr. Huang. I did not----
    [Discussion off the record.]
    Mr. Huang. Congressman, I know about--around that period of 
time I know about some of the matters like Wal-Mart situation. 
For instance Wal-Mart had the joint venture with the Lippo in 
Jakarta, in Lippo Village.
    Mr. LaTourette. Are you aware that Charlie Trie has 
anything to do with that?
    Mr. Huang. For that Jakarta joint venture between Lippo and 
Wal-Mart?
    Mr. LaTourette. Right.
    Mr. Huang. He might have know about it; he had nothing to 
do with it as far as I know.
    Mr. LaTourette. Do you know anything--let me go back to my 
original broad question. Do you know anything about a business 
relationship between Charlie Trie, whether it's the items on 
this memo that we're talking about, and the Lippo group?
    Mr. Huang. The only information I had, I believe Mr. Riady 
had a conversation with me, maybe around the period of time 
indicating Charlie Trie visited Mr. James Riady in Jakarta. Mr. 
Charlie Trie apparently is looking for business opportunity as 
well. So it leads me to believe that's probably after that, 
that kind of meeting.
    Mr. LaTourette. Let me specifically run through the items 
on the memo, just so we're clear. I have understood your answer 
to the broad question. But I have asked you about Wal-Mart. The 
second item is modernizing a hospital in Shanghai. Have you 
ever had a discussion concerning this project with either 
Charlie Trie or James Riady or anyone else at Lippo?
    Mr. Huang. No, sir.
    Mr. LaTourette. The third project is a school in Shanghai. 
Have you ever had a discussion, again, Trie, Riady, or anyone 
else at Lippo?
    Mr. Huang. Before you proceed on this, I don't know if it 
will be helpful or not. It was understood Charlie Trie was 
going over to Asia quite a bit, particularly in China. That was 
known. Apparently he had established some contacts over there. 
OK. So in the broader sense, things he knew, China, just in 
case he want to have some help, or Charlie Trie might be a 
help, and probably that would be subjects of discussion. So 
what I was trying to answer is that on specific items, I did 
not know about it, what you have read. But on the broader 
basis, maybe he might be helpful about Chinese ventures in the 
future. That I have heard.
    Mr. LaTourette. Well, again going back to when we were 
talking in the previous 10 minutes about the night of September 
26, 1996, after the Sheraton Carlton event, apparently Mr. Trie 
and Mr. Riady knew each other well enough that Mr. Trie was 
comfortable having Mr. Riady be a guest in his home on that 
particular evening. Is that right?
    Mr. Huang. At that point, yeah.
    Mr. LaTourette. And at that point--and I think that this 
memo talks about a trip to Jakarta on October 9th. I guess I'm 
thinking it's October 9, 1996?
    Mr. Huang. 1996, yes.
    Mr. LaTourette. Which is right after, within 10, 12 days of 
this event at the Sheraton Carlton; is that a fair observation?
    Mr. Huang. That's right.
    Mr. LaTourette. The fifth one then, and again I'm not 
trying to trip you up, I understood you said you don't have any 
knowledge of the specifics. But the fifth one specifically 
refers to L.A. bank stocks. And it says that it may be a part 
of the L.A. bank stock can be sold to Wang Jun. Wang Jun, do 
you know who he is?
    Mr. Huang. I know of this person but I never met with him 
in person.
    Mr. LaTourette. What does he do for a living, do you know?
    Mr. Huang. I'm sorry; what was he doing?
    Mr. LaTourette. Do you know what he does for a living?
    Mr. Huang. I think he was a chairman of CITIC, or China 
International Trust and Investment Corp. at that time.
    Mr. LaTourette. Do you know if he has any business dealings 
that have to do with the selling of arms, firearms? Is he in 
the gun business?
    Mr. Huang. At that time I did not know.
    Mr. LaTourette. Do you know that today?
    Mr. Huang. Because the news accounts indicated that, yes.
    Mr. LaTourette. Do you believe the news accounts? Do you 
think he is an arms dealer or you just think like that business 
that Mr. Waxman was talking about Mr. Solomon, that they made 
that up about him? Do you have reason to believe that he is an 
arms dealer?
    Mr. Huang. Again, I don't know. I never verified that, 
yeah.
    Mr. LaTourette. OK. Do you know, as you look at that 
paragraph, what the paragraph refers to, what bank it's 
referring to?
    Mr. Huang. The bank is Lippo Bank of California he was 
referring to.
    Mr. LaTourette. Located in Los Angeles?
    Mr. Huang. Head office at that time was in Los Angeles, 
yes.
    Mr. LaTourette. Did you ever have a discussion concerning 
this paragraph, the L.A. bank stock and Wang Jun, with either 
Charlie Trie, James Riady or anyone else at Lippo?
    Mr. Huang. No, sir.
    Mr. LaTourette. OK. To your knowledge did Charlie Trie ever 
visit with James Riady or other member of the Riady family in 
Jakarta?
    Mr. Huang. As I indicated to you earlier, they had a 
meeting when Mr. Trie visited Indonesia.
    Mr. LaTourette. And do you believe that to have been on 
October 9, 1996?
    Mr. Huang. I don't know exactly, but probably around that 
period of time probably.
    Mr. LaTourette. Is it fair that it was in 1996, is that 
your recollection?
    Mr. Huang. Yes. Yes.
    Mr. LaTourette. Did you--again, you said that you've never 
seen this document before now, so I assume that the items 
contained in this document never were the subject of 
conversations between you, your lawyers and the Justice 
Department.
    [Discussion off the record.]
    Mr. Huang. Not in the specific sense as----
    Mr. LaTourette. Go ahead.
    Mr. Huang. Not in the specific sense as you indicated on 
this memo. But I believe the Justice Department would like to 
know at the time of the relationship between the Tries and 
Riadys.
    Mr. LaTourette. And then the last question I have is, as 
the yellow light brightens our hallway, phone records indicate 
that between September 23, 1996 and October 11, 1996, Charlie 
Trie placed calls to James Riady eight times. Are you familiar 
with the content of any of those telephone calls? And 
specifically, since I believe that during some of this time you 
were actually staying at Mr. Trie's home, were you present for 
any of those telephone calls?
    Mr. Huang. No, sir. I was not even aware he was making a 
call to Indonesia at that time.
    Mr. Burton. Would the gentleman yield real briefly?
    Mr. LaTourette. Be happy to.
    Mr. Burton. Did the Department of Justice, when you were 
being interviewed by them, did they ever ask you about this 
document?
    Mr. Huang. Not specifically about this document. This is a 
translation of that.
    Mr. Burton. What do you mean not specifically about this 
document. Did they ask you about the contents of the document?
    Mr. Huang. No. They were interested in knowing about the 
relationship between Riady and Trie, Mr. Riady and Mr. Trie, or 
Lippo and Mr. Trie. But----
    Mr. Burton. Did they ask about Wang Jun at all?
    [Discussion off the record.]
    Mr. Huang. I think so. What I knew in the whole thing is, 
you know, what was his role, as Congressman was raising a 
similar questions today.
    Mr. Burton. But you didn't have any close dealings with 
Wang Jun?
    Mr. Huang. Definitely. I never met with him.
    Mr. Burton. And you didn't know anything more than what you 
said about the relationship between Riadys and Charlie Trie.
    Mr. Huang. That is correct.
    Mr. Burton. Thank you. Mr. Shays.
    Mr. Shays. Thank you, Mr. Chairman. Mr. Huang, I try to 
remember that I have an advantage that you don't. I can ask 
questions. You're put in a difficult situation, and I sometimes 
look back when I have asked a question, regretted the question, 
because I think I have misused the power I have. But I want to 
ask you some very blunt questions and I also am going to ask 
you some questions about salary, which I want you to know I 
would have asked or wanted asked by the committee behind closed 
doors, but we weren't given that opportunity. So I'm going to 
ask you some questions that I would have preferred not to have 
to ask you in public, because they may be important or they may 
not. I am just in some cases going to be checking.
    But first, and I don't mean to keep bringing it up but it's 
the point of this question, you pleaded guilty to conspiracy to 
defraud the U.S. Government for $150,000; then you said there 
was about $800,000 that you were aware of that was basically 
from the Lippo Group, from the Riadys or their related 
companies, by employees that ultimately you suspect was paid by 
the Riadys. I want to know if this was your scheme or their 
scheme.
    Mr. Huang. Mr. Riady--well, let me track back. Mr. Riady 
has made the commitment to raise the million dollars. That 
commitment is made.
    Mr. Shays. He told this to the President, that he would get 
$1 million to the----
    Mr. Huang. To help raise or whatever, to give, whatever. 
The end result is the same anyway.
    Mr. Shays. You need to get $1 million.
    Mr. Huang. Right. And then the--I was in the United States, 
I was the point person to put everything into execution and 
work with him and get everything facilitated.
    Mr. Shays. And you knew this was illegal?
    Mr. Huang. Yes.
    Mr. Shays. OK. But was it your idea to him that he should 
do this, or was this his idea to you or was it a team effort?
    Mr. Huang. The thought process is coming on a joint basis, 
but I implement the whole thing.
    Mr. Shays. So both of you were involved in this conspiracy 
to defraud the government and to ignore campaign law. Now, 
frankly you probably could have done it by a soft money 
contribution, because who knows whether that's illegal since 
it's not called campaign money. But at any rate, you went this 
route. It was clearly illegal. And I would have said if you did 
the soft money, it was wrong but it may not have been illegal.
    And what I want to know is why would I have confidence that 
you were qualified now to work for Commerce, given that you 
were involved in a very serious scheme of close to $1 million?
    [Discussion off the record.]
    Mr. Huang. As I reported to Congressman Waxman's question 
yesterday, you know I would have hope nobody would have caught 
up, for longest time had nobody caught up on this matter. So 
nobody knew about this matter. If anybody knew about it in the 
processing in my appointment, probably I would not be 
qualified.
    Mr. Shays. But the challenge--thank you. The challenge, 
though, the question I'm also asking, is why should I have any 
confidence that when you basically raised $2 to $5 million, 
that you weren't involved in the same stuff? Why did you all of 
a sudden decide to be honest when you worked for the DNC?
    [Discussion off the record.]
    Mr. Huang. Congressman, I knew I did wrong during that 1992 
and 1994 period of time. I tried very best not to do the same 
thing again. When this campaign finance matter erupt in 1996, I 
think the Justice Department has made an extensive 
investigation, and I have been trying very hard to cooperate 
with them completely on that.
    Mr. Shays. The question mark I have for you is you made 
$60,000, well less than you were qualified in the DNC, and you 
had a very unique arrangement. You had a bonus arrangement. And 
the bonus arrangement was based on what?
    Mr. Huang. Based on the--hopefully based on the 
performance, how much I can raise. I was leaving that to the 
DNC meeting, the chairman of the Finance Committee, to make a 
decision later on.
    Mr. Shays. Could I ask unanimous consent, Mr. Waxman, that 
I have 10 more minutes?
    Mr. Waxman. Do 5 and let's see what happens after that.
    Mr. Shays. I'll need 10, so I'll come back afterwards.
    Mr. Burton. Mr. Waxman, did you have some questions?
    Mr. Waxman. Yeah, let me take a round of questions.
    Mr. Burton. The gentleman is recognized.
    Mr. Waxman. Mr. Huang, I want to ask you about your 
cooperation with the Department of Justice. I think this 
follows after what Mr. Shays was questioning you about. Prior 
to pleading guilty to campaign finance violation, you had been 
cooperating with the Justice Department's Campaign Finance Task 
Force; isn't that correct?
    Mr. Huang. That is correct.
    Mr. Waxman. And according to the Justice Department, the 
Department contacted your attorney in August 1998 about a 
possible preindictment plea agreement; is that correct?
    Mr. Huang. That is correct.
    Mr. Waxman. And were you willing to talk to them?
    Mr. Huang. Yes.
    Mr. Waxman. In fact, according to the brief filed with the 
sentencing court by the prosecutors, ``From the outset of these 
discussions, Defendant Huang indicated a desire to cooperate 
with the government's investigation.'' They went on to state, 
that, ``Defendant Huang never adopted a confrontational posture 
with respect to the negotiations.''
    I understand that you met with the prosecutors and 
investigators approximately 20 times between January and April 
of this year. Is that right?
    Mr. Huang. At least. Probably even started earlier than 
that, sir.
    Mr. Waxman. Do you believe that you provided useful 
information to the Department of Justice?
    Mr. Huang. Yes.
    Mr. Waxman. According to the prosecutor's brief submitted 
to the sentencing court, the prosecutor said,

    Defendant Huang was deemed to be credible throughout the 
proffer sessions. His cooperation was substantial in that it 
answered many questions which would otherwise remain mysteries 
and provided incriminating evidence pertinent to numerous 
ongoing investigations. Moreover, defendant Huang admitted to 
wrongful conduct beyond that which the government would 
otherwise have been able to prove.

    Mr. Huang do you feel badly about your involvement in 
making illegal conduit contributions?
    Mr. Huang. Yes, very much sir.
    Mr. Waxman. The Department of Justice had the same opinion. 
According to the prosecutors, Mr. Huang, ``always exhibited 
bona fide remorse for his actions.''
    I would like to read for the record what the Justice 
Department said about your character.

    Defendant Huang appears to have lived an upright life. 
Moreover, his reputation in the community and observed behavior 
have demonstrated to the government that he is generally a 
self-effacing and kind individual. During the course of the 
investigation, the government has interviewed numerous credible 
witnesses who, without exception, speak to defendant Huang's 
integrity.

    These are not my words because I wouldn't know whether to 
say it or not, but these are the prosecutors that you talked to 
for over 20 separate times. Today is Thursday. You were in this 
hearing all day yesterday. I think we started at 1 o'clock. We 
went until close to 6. We started at 10, it's almost 3. So 
you've been here, you alone as the witness for this hearing. 
And the day before you came here, you testified in California, 
what was the----
    Mr. Huang. The grand jury, yes. In Los Angeles.
    Mr. Waxman. How long did that grand jury testimony go?
    Mr. Huang. That started something like 10 o'clock through 
2:30, and I'm going again next week I believe.
    Mr. Waxman. So you go next week again to the grand jury.
    Mr. Huang. Right.
    Mr. Waxman. You flew a red-eye flight to be here with us, 
not last night but the night before, to be here with us 
yesterday.
    Mr. Huang. Not quite. I arrived at 1 o'clock, as I told 
chairman and also the committee, not quite exactly the red eye, 
but I did arrive like 1 o'clock a.m.
    Mr. Waxman. I see. I was feeling sorry for you because I've 
taken that red eye. I know how grueling it can be. I know that 
flight that gets here at 1 o'clock is also grueling but not 
quite as grueling.
    Mr. Huang. Congressman, I saw you in the flight before. I 
used to commute quite a bit before, myself, because my home was 
in Los Angeles. I apologize I didn't come over to speak to you 
at that time.
    Mr. Souder. Would the gentleman yield? What conversations 
did you have with Mr. Huang on your airplane flights?
    Mr. Waxman. I don't recall that I have ever met Mr. Huang 
before today. I might have met him at some party or other. 
Maybe going in or out of a cocktail party he might have passed 
on some word about somebody's reputation, but of course I 
wouldn't have repeated it.
    I just want to put this on the record because, Mr. Shays, 
you're asking why you should believe him. I don't know if you 
want to believe him or not. The only way you can see whether a 
witness is telling the truth is to get all the facts, ask him 
the questions, look at him, look at his demeanor and then rely 
on other people. And this is what the Justice Department has 
said about him. He certainly did a wrong thing. And it was a 
seriously wrong thing that he did. It was a felony. It amounted 
to a felony violation. But there are times when even though 
somebody has done something wrong that they're not--everything 
they do can't be assumed to be duplicitous or wrong-headed.
    Thank you. I yield back the balance of my time.
    Mr. Burton. Let me just take a couple minutes, then I'll 
yield the balance of my time to you.
    At the beginning of our meeting today, I read some 
information from the 302's of the President and the Vice 
President. And the Justice Department did not ask any questions 
of the President or the Vice President about John Huang, 
Charlie Trie, Maria Hsia, Pauline Kanchanalak or anybody 
involved in the finance scandal. The Justice Department did 
fine Mr. Huang. Charlie Trie was not fined by the Justice 
Department, but the judge in the case was so upset, or upset 
enough, because the Justice Department was just giving Charlie 
Trie a slap on the wrist, that he himself imposed a $5,000 fine 
on Mr. Trie.
    Now, the reason I bring that up is you're using the 
statements from the Justice Department as a reason for us to 
show credence to the witness and possibly to others. The 
Justice Department has been totally uncooperative with us for 
the last 3 years. They've kept documents from us. We had to 
subpoena them. We weren't going to get the 302s from the 
President and the Vice President until I threatened to 
subpoena--in fact I did subpoena the Assistant U.S. Attorney 
from the Justice Department, and he was going to have to come 
over here. When they found out he was going to have to come 
over here and tell us why he wouldn't give us the 302s, they 
finally coughed those things up.
    So, I just want to point out that the Justice Department 
has been anything but upfront and cooperative with our 
investigation for the past 3 years. And for that reason--and 
regarding Mr. Trie and Mr. Huang, even the judge in the Trie 
case was concerned about the way they handled that. So I don't 
think just because people in the Justice Department make some 
positive comments about any person, not in particular Mr. 
Huang, that we should take that as gospel.
    And with that, I'll yield to my colleague.
    Mr. Waxman. Would you yield to me, Mr. Chairman?
    Mr. Burton. I know what you're going to do. You're going to 
respond to what I said.
    Mr. Waxman. What's wrong with giving me a chance to 
respond?
    Mr. Burton. Well, you'll have--all right. Respond.
    Mr. Waxman. I just want to point out that I know that no 
one can say anything to you in the defense of the Justice 
Department.
    Mr. Burton. Not much.
    Mr. Waxman. But I will say this: that the Justice 
Department was acting at the request of the FBI, because these 
302s were the FBI's interrogations of the different witnesses. 
The FBI asked the Justice Department not to make certain things 
public. And then again I talked yesterday about the phases, and 
phase 5 is whether the White House, Justice Department, or FBI 
capitulates and we usually receive the information.
    Well, we did receive the information. In fact, you 
described yesterday how our staffs had to go and look at the 
President and Vice President's 302s because they wouldn't 
release it. Well, now that they've released it, we have it, 
we've agreed to your request that we make it public, and the 
people can see what the interview consisted of, by the FBI, 
not----
    Mr. Burton. I don't believe the FBI was the ones that was 
asking those questions, at least in that one interview. They 
were just people from the Justice Department.
    Mr. Waxman. That ought to be on the record, so we'll see.
    Mr. Burton. It's in the 302s.
    Mr. Waxman. We'll see what the 302s say. The only other 
thing I point out is whether it's FBI or anyone else asking 
questions of the President of the United States, they had two 
specific issues that they were asking him about. Unlike this 
committee, I don't think they thought they should go on a long 
fishing expedition and ask the President of the United States 
every possible thing that they might ask him about. There has 
been no evidence that the President of the United States ever 
knew that any of these contributions were illegal, that they 
were foreign sources----
    Mr. Burton. Let me reclaim my time.
    Mr. Waxman [continuing]. And therefore pursue those 
questions----
    Mr. Burton. Let me reclaim my time and just say this: 
You're not going to find out what the President knew or when he 
knew it unless you ask the questions. They asked absolutely no 
questions about John Huang, Charlie Trie, Pauline Kanchanalak, 
any of those people when they went over there. And the people 
that went over there, some of them felt like they were not 
supposed to ask those questions because they might have a 
problem.
    Mr. Shays.
    Mr. Shays. Could I renew my request for unanimous consent 
for 10 minutes?
    Mr. Burton. Without objection.
    Mr. Shays. Thank you. My question was, given that you had 
done these, I had asked why should I have faith that you 
wouldn't continue them. Because you hadn't yet been caught. You 
gave me an answer that you regretted it, and you said you 
didn't want to do it again. But I guess the next question is 
why should I have any sense of confidence that the Riadys and 
their organizations would want to function in a way that would 
be honest? What was--what made them want to change? Should I 
assume that they have changed or that they're continuing to be 
manipulating the system and defrauding and so on? Why should I 
have any confidence that they are like you, have seen the 
light?
    [Discussion off the record.]
    Mr. Huang. Congressman, I agree you'll be concerned based 
on the past records, but at that period of time when I when 
with the DNC, I didn't have any reason to believe that they 
were going to do those things.
    Mr. Shays. Now, it's your testimony that when you were at 
the DNC you did not have--make any effort to raise money from 
the Riadys; is that correct?
    Mr. Huang. That is correct.
    Mr. Shays. Did you make an effort to raise money from 
people who worked with the Riadys, had business deals with the 
Riadys?
    Mr. Huang. The reason I pause, I have been trying to think, 
you know, to the best of my knowledge I did not.
    Mr. Shays. None of their business partners you didn't raise 
any money from?
    [Discussion off the record.]
    Mr. Huang. Congressman, the reason I paused a little bit, 
because there are instances that could draw some dot-dot line 
there. Wiriadinata, the contributions----
    Mr. Shays. You were what? I'm sorry.
    Mr. Huang. Wiriadinata's contribution.
    Mr. Shays. And what about that?
    Mr. Huang. Because the Wiriadinatas, Mrs. Wiriadinata's 
father, Hashim Ning was a partner with the Lippo.
    Mr. Shays. And your reason for not raising money for the 
Riadys was that they no longer had green cards? And no longer 
worked--why wouldn't----
    Mr. Huang. Mr. Riady had already at that point had 
already----
    Mr. Shays. I mean, there is no logic why you wouldn't have 
asked him for contributions.
    Mr. Huang. He gave up the green card already. He did not 
have the status to give any more money.
    Mr. Shays. Because he no longer had a green card, that was 
the reason why you didn't seek to raise money from him. But he 
still had business associates in the United States. Why 
wouldn't you raise money from them?
    Mr. Huang. Well, the only person--that's what I'm trying to 
say. The only person he's trying to help me is the--on the 
Wiriadinata, who he know, you know, that was only links we can 
control right now.
    Mr. Shays. How much money was that?
    Mr. Huang. As I reported to you, the couple made about 
$450,000.
    Mr. Shays. And I should have confidence that that was their 
money?
    Mr. Huang. I have no reason to believe it not. They come 
from a very substantial family.
    Mr. Shays. Now, should I feel comfortable that in 1997 and 
1998 you received $18,000 from the Riadys and 1997 and 1998 you 
received $20,000. Why should I feel comfortable about that?
    Mr. Huang. Despite the fact all these things happened in 
the Riady family--I worked for Riady family for a period of 
time. There was still some friendship there. And you know, I 
was definitely--functionally I was not employable. I'm pretty 
sure as a friend, or any friend of any person probably feel 
concerned about the financial situation, I guess that at the 
time he was trying to help me out on that.
    Mr. Shays. And I understand they were trying to help you 
out, Mr. Huang. And this is a difficult kind of question to 
raise. But it's not unlike trying to help Mr. Hubbell out. You 
are a key witness and now we have to determine whether your 
vulnerability financially doesn't put you at risk.
    [Discussion off the record.]
    Mr. Huang. Mr. Shays, in the event what you're suggesting 
is going to play any role, I probably would not implicate the 
Riady family. As I reported to you in whatever they've done in 
the past, you know, that was involving, you know, $800 some 
thousand in the past. And I was, you know, cooperating fully 
with the Justice Department.
    Mr. Shays. You see, the challenge that we have, and it is 
really part of the public record, and that is that the Riadys 
have deals in China.
    Mr. Huang. Um-hmm.
    Mr. Shays. And it is inevitable, frankly, when you have 
dealings with the Chinese, that you are going to be dealing 
with the military and their intelligence community. That's a 
reality. And for me to make a claim like the Senate report 
does, that they had these contacts, is really almost a 
nonstatement. You're not going to have that kind of dealing 
unless you have that kind of communication with the businesses 
that are run by the military and the businesses that are run by 
the Intelligence Committee, which gets us into this next 
question. And that is why would you--what did you do for the 
Commerce Department? What was your responsibility there?
    Mr. Huang. The title is the Deputy Assistant Secretary for 
International Economic Policy. Actually my role in the end 
was--when I joined in, was assisting Assistant Secretary Chuck 
Meissner. The primary role in my function is to--mostly will be 
on the organization side, did not have any territorial 
functions. As the IEP, the international economic policy was--
say something was in charge of Japan and somebody in charge of 
the Asia Pacific, some people in charge of the Middle East or 
Europe, I did not have those kind of role.
    Mr. Shays. Then why would you have been--why did you need 
top security clearance?
    Mr. Huang. The best I can answer that is Mr. Meissner and I 
went in Commerce late. In fact, Mr. Meissner went in even 
earlier than I am. That historically functions and duty were 
taken away from him. I'm pretty sure he was trying to make 
every effort to reclaim his responsibility back.
    Mr. Shays. So you had top security clearance and you were 
provided information on a weekly basis, on a daily basis? And 
what kind of information would you have generally been 
provided? Not the specifics.
    Mr. Huang. The most of the information given to me, it's 
not on the, as you say, the daily basis. There's some material 
coming in. There will be security briefing by the--I believe 
the CIA's person stationed in the Commerce Department on the 
more regular basis.
    Mr. Shays. In a lot of cases this was raw data, correct; 
this was not--this was pretty raw data that you were given, 
very sensitive data, it also gives you sources of where this 
information came from.
    Mr. Huang. Mr. Shays, I will be very honest with you, I 
don't know how to define what is raw data and not raw data. I 
never work in the government before.
    Mr. Shays. But you were provided not only information as to 
economic secrets, but also potential sources for this 
information; is that not correct?
    Mr. Huang. I think you're correct on that, yeah.
    Mr. Shays. And I'm still not clear why you needed that 
information.
    Mr. Huang. That was given to me by Mr. Meissner.
    Mr. Shays. But why?
    Mr. Huang. I can't answer that for Mr. Meissner on that.
    Mr. Shays. Thank you.
    Mr. Burton. Would the gentleman yield real quick? As I 
understand it, it didn't take you long to get your security 
clearance. In other words, I was told the process was speeded 
up. How long from the time you went to the Department of 
Commerce until you got your security clearance?
    Mr. Huang. I did not know for sure, Mr. Chairman, at the 
time, but the news accounts indicating that I even got that in 
January that year, or the end of January or early February that 
year.
    Mr. Burton. When did you go to work for them?
    Mr. Huang. Before I went to work for Commerce Department. I 
did not even request for----
    Mr. Burton. No. No. Before you went to work for the 
Commerce Department, you had a security clearance.
    Mr. Huang. According to the news account. I did not know.
    Mr. Burton. You don't know when?
    Mr. Huang. I do not know for sure, yeah.
    Mr. Burton. I just want you to know that for us to get 
security clearance for our staff, sometimes it takes 3, 4, 5, 6 
months, and they do a very thorough FBI background check. To 
your knowledge, did they do any kind of background check or FBI 
check on you?
    Mr. Huang. Again, I have to say I never work in the 
government before. They did ask me to fill out all kind of 
form. I assume they will check all my data. It's very thick 
forms I had to fill out.
    Mr. Burton. But to your knowledge, you had your security 
clearance before you even went over to Commerce?
    Mr. Huang. I did not know that part.
    Mr. Burton. But from what you heard, and we'll check on 
that, you had your security clearance when you went to 
Commerce.
    Mr. Huang. No I did not. I have some clearance on that 
because somebody had to check my background. I thought that was 
all about.
    Mr. Burton. Did anybody ever interview you at the FBI or 
anybody else about your background or your connections or 
whether you beat your wife or anything?
    Mr. Huang. I don't beat my wife, by the way.
    Mr. Burton. I know you don't beat your wife. But what I'm 
saying is did anybody ever interview you about anything 
regarding security interviews with the FBI?
    Mr. Huang. No, not from the FBI, no.
    Mr. Burton. And you got a security clearance. That's 
something we're going to have to look into.
    Mr. Souder.
    Mr. Souder. I have a new category of questions that I would 
like to discuss. And I'm a member of the Natural Resources 
Committee, relatively new member. I would like to ask you a few 
questions about the Riadys and their coal interests.
    Mr. Huang. Coal interests, OK.
    Mr. Souder. Could you explain a little bit of what your 
understanding is of what the Riadys own in Indonesia related to 
the coal industry?
    Mr. Huang. That was long, long before. I didn't even know 
what, whether he really had any substantial interest in coal. I 
think they have some coal mines way early back into late 
seventies or early sixties. I know for fact probably they don't 
own any coal mine at the time when this issue was--you know, 
occurred.
    Mr. Souder. Do you know anything about the P.T. Kitadin 
Mining Co?
    Mr. Huang. Yes, there was a company under Lippo Group in 
early stage. That was--I think that might be related to the 
coal mine, coal mining interest that they own.
    Mr. Souder. You say it was at the early stages of Lippo. 
And to your knowledge, at wasn't functioning during this 
period, or that was----
    Mr. Huang. My best guess is that during that period we're 
talking about this event in 1996, I don't--because in the group 
literature is never mentioned about the company's name any 
further.
    Mr. Souder. Do you know where its mines were located or 
anything about the value of their deposits?
    Mr. Huang. I don't know about those, no.
    Mr. Souder. Do you know anything about the Lippo Group 
whether they owned the P.T. Adaro Mining Co?
    Mr. Huang. That I don't know.
    Mr. Souder. In your interview with the Justice Department 
or the FBI, you stated that Mr. Riady's coal interests were 
minimal and that Indonesia had significant infrastructure 
problems that prohibited the development of the country's coal 
resources.
    Mr. Huang. Yes, I did say that. Yeah. I will explain to you 
further why I thought that. Because Mr. Riady, Sr., in the 
early stages he mentioned that the coal mining they did could 
not even come out to the big ship. So the ship would have to 
dock in the deep water ocean area. They would have to have some 
kind of barge, a small boat, and load it back and forth. That's 
what I meant that the facility was not that well.
    Mr. Souder. Are there other companies in Indonesia that are 
a lot bigger than the Riadys' coal holdings, than P.T. Kitadin 
or P.T. Adaro?
    Mr. Huang. I don't know about that. I don't know about 
that.
    Mr. Souder. The reason is, were you aware that Indonesia is 
the fourth largest exporter of coal in the world?
    Mr. Huang. I'm aware they're large. I don't know their 
ranking though, yeah.
    Mr. Souder. And the problem that we're trying to work 
through here is to try to reconcile--yes, they have 
infrastructure problems, which of course can be fixed over 
time, but already they're the fourth largest coal exporter in 
the world; in fact, of low sulfur coal. That's its most 
environmentally, what, appropriate, sensitive. They're the 
second largest holder in the world of this low sulfur coal. 
Were you aware of that?
    Mr. Huang. I was not aware of that.
    Mr. Souder. Your testimony is that you do not know this. 
But P.T. Kitadin and P.T. Adaro were two companies that owned 
and we are trying to figure out how much of that they own 
because it is the second largest resources in the world. And 
the political problem here and what there has been a lot of 
debate about is that the largest resources in the world in Utah 
were pulled off during this time period.
    I would like to, at least, put in the record some of our 
concern and then ask followup. And there is not really any 
short way to do it. I would just like to put this in the 
record. And that is, September 18, 1996, the President 
unilaterally established a 1.7 million acre Grand Staircase 
Escalante National Monument in southern Utah.
    Now, we have battled with whether or not this is an 
appropriate use of the national monument. The area is a 
beautiful area. And you could argue either way whether this 
should be part of our national monument park wilderness system. 
And quite frankly, this President has shown a willingness to 
take almost any park or area and turn it into a wilderness 
area. And furthermore, they had a great picture that ran in the 
front page in color in my home newspaper of Vice President Gore 
doing a signing with the Grand Canyon in the background, so 
they got a good political hit.
    But it appears there was more to it than that. Because a 
1997 congressional investigation learned that, for example, 
Kathleen McGinty, in correspondence, the chair of the Council 
on Environmental Quality, stated, ``I am increasingly of the 
view that we should just drop these Utah ideas. These lands are 
not really in danger because they are under the Federal 
Government control. They were not in danger. So why did they 
need to be a national monument.''
    Then further investigation revealed that it was to protect 
the land from coal mining. In fact, at the signing ceremony, 
the President said it was to protect this from Dutch coal 
companies. The mining was conducted by a Dutch coal company, 
Andalex, and was strictly of the areas of vast reserve of 
clean-burning, low sulfur coal, some of the most 
environmentally sensitive.
    Then, furthermore, this is what ties in because he did not 
have a traditional national monument justification. Even his 
own administration in correspondence said they did not do it. 
Then he actually went at the signing ceremony and said this is 
because of the coal and what in effect he did was pull the 
largest resource of this coal mining off the market, which 
could have been for a number of reasons, which I grant, but 
happened to then make the Indonesian holdings the largest 
holdings in the world of this low sulfur coal.
    This happens to coincide is, after $2.5 million had gone in 
from related organizations into the campaign from 1992 to 1996, 
$450,000 was given to Clinton immediately after the creation of 
the monument. And furthermore, on top of that, we had the money 
that we were talking about earlier that went to Webb Hubbell. 
So it is at least something that many people wonder about 
because it was such an unusual, extraordinary, and not really 
defensible position and in the normal course of things of why 
he did it. Although, it could have been for campaign reasons. I 
grant it, it could be others. But it looks very suspicious.
    Now, what I would like to know is that, at any time with 
your work with the Lippo Group, did you hear this type of thing 
discussed? Was this part of the multiplicity of interests? 
Earlier you testified that Mr. Riady had a multiplicity of 
interests in getting involved in campaigns and trying to get 
influence with the government. Was coal mining one of those 
interests?
    Mr. Huang. No, that subject never came up, sir.
    Mr. Waxman. Will the gentleman yield to me for 10 seconds?
    Mr. Souder. Yes, I yield to you.
    Mr. Waxman. I just want to report to you that on July 24, 
1997, according to the Washington Times, certainly a 
conservative newspaper, it says, ``Congress checks Lippo link 
to clean coal.'' And they said, after receiving hundreds of 
pages of administration documents turned over to congressional 
investigators, the Washington Times said they saw no Lippo 
connection.
    Thank you for yielding to me. I just wanted to put that on 
the record.
    Mr. Huang. I'm sorry.
    Mr. Souder. Did you have any further comments on that?
    Mr. Huang. No, coal issue never came up.
    Mr. Souder. Did you have any discussions at any time about 
the Escalante National Monument?
    Mr. Huang. No.
    Mr. Souder. Were you familiar that that was occurring?
    Mr. Huang. No, I don't.
    Mr. Souder. When you were a representative in Asia for, as 
I understand the historic record, the Worthen Bank that became 
part of the Lippo organizations----
    Mr. Huang. Lippo had some investment interests in the 
Worthen Bank jointly with the Stephens, Inc.
    Mr. Souder. And that Lippo had interests with Stephens. Let 
me not get diverted in Stephens for a second. But you represent 
their Asian interests.
    Did that include Indonesia?
    Mr. Huang. No. I represent for the Worthen Bank as a Far 
East representative when I was in Hong Kong.
    Mr. Souder. Did that include Indonesia?
    Mr. Huang. No.
    Mr. Souder. Far East. When you say ``Far East'' in Hong 
Kong.
    Mr. Huang. I was the representative in the Worthen Bank for 
Far East area.
    Mr. Souder. And by Far East, in definition, it would have 
included Indonesia?
    Mr. Huang. That's right. Indonesia, Hong Kong, China, 
whatever.
    Mr. Souder. And in those Far Eastern interests, at any time 
was that related to coal?
    Mr. Huang. No.
    Mr. Souder. So coal never came up as an interest to any of 
the people?
    Mr. Huang. No, sir.
    Mr. Souder. Did you know or did you ever hear that Mr. 
Hubbell, who worked at the Rose law firm at that time, and you 
said he represented some of Lippo interests, whether he ever 
had anything to do with the Lippo interests in coal? Because as 
Mr. Waxman pointed out and you said earlier, it does not appear 
there were active coal mining interests at the time of the 
Escalante decision but that Lippo had interests that were 
relevantly, we do not know whether they were dormant, in other 
words, they could not get access to their land and they were 
just a holding company at this point, or whether they had sold 
them off it would be interesting to know.
    But what we do know is that in this earlier period when you 
worked with Worthen Bank and when Mr. Hubbell did, that there 
were interests in coal.
    Do you know whether Mr. Hubbell had anything to do with 
those interests?
    Mr. Huang. I do not know.
    Mr. Souder. So this is something that I still find 
disturbing, but I appreciated your answering those questions 
because many Americans were trying and still are trying to 
figure out how all of a sudden we wind up with this huge 
national monument, much of which is clearly environmentally 
precious area that would be protected, but a lot of it was 
pretty marginal and when, in fact, we had major United States 
resources pulled off the market and the primary beneficiary is 
Indonesia. And we would still like to figure out how that 
happened. Whether or not it was Mr. Riady, it may have been 
other interests, as well. So thank you for your responses.
    Mr. Huang. Thank you, Mr. Souder.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman.
    Mr. Huang, I have some questions about Pauline Kanchanalak. 
Before I ask those questions, I want to report to my friend, 
Mr. Waxman, that during one of the breaks I called my office 
about Mr. Solomon's 302s and when I told them staff reception 
Rayburn, mid-thirties, dark hair, they said that if he was also 
wearing a Navy blue suit they think they know who he is.
    I have a couple of observations that I would make about 
Pauline Kanchanalak. She was at, as we already established, at 
the head table at the event on February 19 that we have talked 
a lot about. I want to focus on another date, June 18, 1996, a 
coffee, one of the infamous coffees at the White House. And 
Pauline Kanchanalak was in fact involved with the coffee on 
June 18, 1996, at the White House, was she not?
    Mr. Huang. That's correct, sir.
    Mr. LaTourette. And did you arrange and work with her on 
June 18th in preparation for that coffee fundraising event?
    Mr. Huang. I did work with her, yes.
    Mr. LaTourette. Exhibit 441, if you could flip in your 
programs to 441, is a briefing paper for the President of the 
United States prepared, by I suppose, the Democratic National 
Committee. It is dated June 6, 1996. I would ask if you helped 
prepare this briefing paper as part of your role at the 
Democratic National Committee?
    [Exhibit 441 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.304
    
    [GRAPHIC] [TIFF OMITTED] T6496.305
    
    Mr. Huang. Exhibit 441, sir?
    Mr. LaTourette. Exhibit 441, right. I think I have the 
number right.
    Mr. Huang. Yes, I'm looking at it right now.
    Mr. LaTourette. That's fine. Take your time. Did you help 
prepare that document?
    Mr. Huang. No.
    Mr. LaTourette. Do you know who did prepare it?
    Mr. Huang. Excuse me, Congressman. Are you talking about 
exhibit 441, the following page of 441, the chart, right?
    Mr. LaTourette. The chart.
    Mr. Huang. I did not prepare 441.
    Mr. LaTourette. The document 441, regardless of who 
prepared it, projects that the coffee to be held on June 18, 
1996, would bring in an estimated $400,000. Do you see that?
    Mr. Huang. That's correct.
    Mr. LaTourette. Do you know how that projected figure was 
determined?
    Mr. Huang. This is not the first coffee event that the DNC 
had. DNC had quite a few--I shouldn't say many--quite a few 
coffees previously. Essentially, through those events, they 
were trying to inspire some people to come in and have a chance 
to have a meeting with the Chief Executive of the country or 
Vice President and hopefully we can inspire these people to 
later on make contribution. But generally for those kind of 
events they would target--the target, hopefully, after these 
coffees they can raise approximately $500,000.
    Mr. LaTourette. But in particular, when they were talking 
about this, and I understand the purpose behind the coffees, 
but somebody said, you know, like any fundraising event they 
say, we hope to raise $1,000 or $5,000. Somebody thought that 
you could raise $400,000 at the June 18th coffee or the 
$400,000 could be realized for the campaign as a result of the 
contacts made at the coffee. I am asking you how that figure 
was determined. Do you know?
    Mr. Huang. Yes, I do.
    Mr. LaTourette. Why don't you tell us.
    Mr. Huang. This was Ms. Kanchanalak, she would like to have 
a coffee. She said she would like to, you know, raise this 
amount of money.
    Mr. LaTourette. And then so that figure came from Pauline 
Kanchanalak?
    Mr. Huang. It is her idea she wanted to have coffee and 
somehow she knew about roughly doing coffees how much she was 
willing to raise that kind of money.
    Mr. LaTourette. As we already established, as a result of 
her attendance at the event in February, you had a 
misimpression as to her immigration status or citizen status at 
this period of time, right?
    Mr. Huang. In fact, the impression was way earlier back in 
1992 when first time I met with her.
    Mr. LaTourette. Today, as we sit here in Washington, you 
know that in 1996 she was not a citizen of the United States?
    Mr. Huang. That's correct.
    Mr. LaTourette. Nor a green card recipient?
    Mr. Huang. That is correct.
    Mr. LaTourette. Now, Richard Sullivan already testified and 
he testified that originally at this coffee there were only 
eight invitees or eight people to be in attendance at this 
coffee on June 18th: President Clinton; yourself; Donald 
Fowler, who is the chairman of the Democratic National 
Committee; Marvin Rosen, who was the finance chairman; Pauline 
Kanchanalak; and then three additional individuals, Khun 
Dhanin, Khun Sumet, and Khun Sarasin I believe.
    Does that fit with your recollection? Is that true?
    Mr. Huang. That is correct.
    Mr. LaTourette. That is a pretty small group. That was the 
original group that was to be present?
    Mr. Huang. That was not original group to be present.
    Mr. LaTourette. That was?
    Mr. Huang. Was not.
    Mr. LaTourette. Who else was going to come?
    Mr. Huang. Apparently when we planned this kind of event 
you supposedly have a target, potential guest list being 
presented. So originally I think few weeks, maybe a couple 
weeks earlier, maybe even 3 weeks earlier there was a list. I 
request Pauline to come up. I believe she faxed to me. That 
list of the names is different from the final names on the list 
who actually attended that coffee event.
    Mr. LaTourette. Right, more people eventually attended than 
I just read to you. But my question was, Mr. Sullivan testified 
that, and we are going to get into why more people eventually 
showed up, but it was his recollection that this was the group 
that was originally going to be there and then some people had 
some questions and concerns about it when they said, yikes, 
other than DNC officials, there is not a U.S. citizen in the 
batch. And so I am asking you if that is true or not. Is Mr. 
Sullivan's recollection correct based upon your own?
    Mr. Huang. He did not really express that to me. I am going 
to go back to why I am saying original list is important. 
Original list was involving quite a lot of American 
businessmen. Ms. Kanchanalak was also involved in United 
States-Thai and business counsel so we had a lot of members 
coming from American side. Apparently she had the intention to 
invite some of those members on American side to attend. The 
lists were coming down, some of the guests you just mentioned, 
the names are very long, I could not even pronounced them right 
at this time.
    Mr. LaTourette. Again, going to Mr. Sullivan, and for the 
record, who is Richard Sullivan?
    Mr. Huang. He was the director of finance at DNC.
    Mr. LaTourette. According to Mr. Sullivan's deposition that 
he delivered over to the Senate, he stated that he grew 
concerned that the Kanchanalak coffee, and apparently was it 
ever known as the Kanchanalak coffee this June 18th event? Did 
people start calling it the Kanchanalak coffee as opposed to 
the coffee at the White House?
    Mr. Huang. This is the first time I heard that it called 
Kanchanalak coffee.
    Mr. LaTourette. OK. Well, he indicated in his deposition 
that he was concerned, he grew concerned that Kanchanalak 
intended to invite only her foreign clients to the June 18 
coffee.
    Did anyone mention that concern to you?
    Mr. Huang. I don't recall that, no.
    Mr. LaTourette. He also indicated to you that he expressed 
concern to you, this is Mr. Sullivan talking again, about 
Kanchanalak using the coffee for an improper purpose by 
inviting only foreign businessmen.
    Do you recall Mr. Sullivan telling you that?
    Mr. Huang. I do not recall that, no.
    Mr. LaTourette. Is it true, based upon your remembrance of 
this particular fundraising event, that Kanchanalak was in fact 
using the coffee for an improper purpose?
    Mr. Huang. At the time, no.
    Mr. LaTourette. Do you believe so today based upon what you 
know? Or what are you telling, at the time you did not think so 
but maybe you do now?
    Mr. Huang. At the time I did not think so.
    Mr. LaTourette. How do you feel about it today?
    Mr. Huang. The reason, she was not eligible to give, so 
that's not proper already.
    Mr. LaTourette. Mr. Sullivan testified also and I want to 
read you part of his deposition,

    When John came up with a preliminary list of who she was 
going to bring, it included--the list was her and the three--
the three people from Thailand. I said, John that's not--I 
recall saying, John, that's not what we're looking for. I don't 
want to get--I said, I would prefer, you know--I was thinking 
she was bringing in some people, fellow people, that she would 
be working with in fundraising, some people that might be 
potential donors, American citizens. We wanted potential donors 
and to tell her to at least to get some more American citizens, 
more potential donors, more people who are of greater use to us 
down the road.

    Did he say that to you?
    Mr. Huang. If he did say that, I could not recall that, 
sir.
    Mr. LaTourette. Mr. Sullivan indicated that not only did he 
say that to you but you said that the coffee was very, very 
important to Pauline Kanchanalak and that you and Kanchanalak 
were adamant about having the coffee and insisted that the CP 
group businesspersons be permitted to attend.
    Is this true?
    Mr. Huang. Part of the statement what you are saying, the 
point you raised is like this, it is important to Pauline. 
Pauline did indicate to me this is going to be very important 
to her. But culturewise, I would not really, you know, go in 
the confrontational basis to anybody on that. Especially 
Pauline, you know, has records at that time to, you know, what 
was giving a lot of money in the past before.
    Mr. LaTourette. Then that goes to the next point. Again Mr. 
Sullivan's deposition indicated that it is the only time that 
he can recall that you expressed some emotion about a 
particular event. And according to him you said something about 
the effect of,

    You know, you know, Richard, Pauline has been a big 
contributor, a big supporter, and it goes back to Vick Rasier 
and Ron Brown and she is very high maintenance. She has been 
good to us and she is making--she is going to be good to us and 
help us in the fall. This is important to her and I feel 
strongly about it.

    Does that pretty much fit with what you were just saying?
    Mr. Huang. May not be the exact language, but the meaning 
probably is that I did indicate the importance of Pauline.
    Now, what I would like to supplement to the committee is, 
Pauline has been quoted by the DNC, other members of the 
finance committee, to come up with money, without much success. 
Pauline to me personally said, these people always want to give 
money and I don't get any benefit on that. So, therefore, 
that's how I was approached, she said, John, I want to work 
with you on that basis. This is how that happened.
    That's why I was sort of advocating certain points on her 
behalf.
    Mr. Shays [presiding]. The gentleman's time has expired.
    Ms. Norton, it is nice to have you here. And you have 5 
minutes and probably more if you would ask for it.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Huang, in the press--there have been indications made 
in the press about whether you had any agreement with people to 
violate or circumvent campaign rules and regulations. I am not 
sure I have seen that in any previous statements, so let me ask 
you straightforwardly.
    Did you, in fact, have any conversation or meeting with Mr. 
Riady where the two of you discussed violating or circumventing 
campaign rules and regulations?
    Mr. Huang. Congresswoman, just a second, please.
    Congresswoman, there was no specific discussion in that 
kind of language to say we're going to violate the rules or 
not.
    Ms. Norton. Or circumvent the rules?
    Mr. Huang. Or circumvent the rules.
    Mr. Shays. Would the gentlelady yield just for the benefit 
of the gentleman, not to interrupt you.
    But given your testimony so far, I just wondered if you 
want to reconsider your answer. Do you want time to just talk 
to your counsel on this issue? I just think it might give the 
wrong impression.
    Ms. Norton. If I could clarify my own question. Because 
much of what we believe we know about this matter comes from 
the press, and I am specifically concerned about whether you 
had any agreement with people to violate or circumvent campaign 
rules or regulations, as the press has implied.
    I have looked at Mr. Huang's prior statements and I have 
not found that, and I want to know whether I have missed it or 
whether there was indeed any conversation or any meeting where 
there was a discussion of circumventing campaign rules and 
regulations.
    You have been admonished to be careful. I am looking to see 
whether there was any such agreement between the two of you.
    Mr. Huang. Congresswoman----
    Ms. Norton. Let me make sure you understand. I am aware of 
what you have pleaded to. I am aware of your actions. We are 
trying to ascertain the extent to which Mr. Riady was involved 
in an agreement to circumvent campaign rules and regulations.
    Mr. Huang. To answer your question, Congresswoman, I plead 
guilty to agreeing to violating the rules. And also, I can do 
it, you know, it is about $800 some thousand, maybe around that 
figure. But there was never explicit use of the terms of what 
you have mentioned.
    Ms. Norton. If one looks at the Senate testimony from July 
1997, a former Lippo Bank official testified that the Lippo 
Bank did not receive any benefits either financially or in the 
form of regulatory assistance.
    Now, when you made political contributions, did you do so 
with the intention that the Lippo Bank or any other Lippo 
entity would receive favors or benefits as a result?
    Mr. Huang. Congresswoman, the contribution would benefit 
Lippo Group in general. Since Lippo Bank California is one of 
the units of the Lippo Group, certainly Lippo Bank get some 
sort of benefit. But I don't know. I can't specifically mention 
anything at this point, you know, what the bank was benefited 
right now.
    Ms. Norton. Thank you, Mr. Chairman.
    Mr. Burton [presiding]. Let me just take a couple minutes 
here for some questions.
    You told us that you identified an additional $700,000 or 
$800,000 in illegal contributions to the Justice Department 
between 1992 and 1994; is that correct? I think you said it was 
in addition to the $156,000 that you pled to, $700,000 to 
$800,00. Is that correct?
    Mr. Huang. That is correct, sir.
    Mr. Burton. Do you include in that total the $450,000 that 
James and Aileen Riady gave to State parties in 1992?
    Mr. Huang. That is not.
    Mr. Burton. So in addition to $700,000 to $800,000, there 
is another $450,000 that they gave to State parties?
    Mr. Huang. That's correct, yes.
    Mr. Burton. Those were illegal contributions, as well?
    Mr. Huang. At the time, Mr. Chairman, Mr. James Riady had 
the legal status in the United States as a PR, a green card, 
and so does Aileen Riady at that time.
    Mr. Burton. It is my information that Mr. Riady had not 
been a permanent resident of the United States for a couple of 
years in 1992, he had abandoned his residence, he was outside 
the country for at least 2 years or about 2 years.
    Mr. Huang. The only thing I can report, Mr. Chairman, is 
the knowledge I know is that Mr. Riady in 1992 he had a green 
card with him.
    Mr. Burton. Was he living in the United States?
    Mr. Huang. He had a residence.
    Mr. Burton. Was he living in the United States? According 
to the information we have, he had been living in Indonesia for 
about 2 years and had abandoned his residence by 1992 and was 
not living in the United States.
    You were working for him. You must have known where he 
lived. He was not living in the United States.
    Mr. Huang. He was traveling back and forth. When he was in 
the United States, he would use his residence, though. That's 
the only thing I can answer to you.
    Mr. Burton. Where was his family?
    Mr. Huang. His family was traveling with him.
    Mr. Burton. So everybody lived on an airplane.
    Mr. Huang. No.
    Mr. Burton. Where did he spend most of his time?
    Mr. Huang. At that period of time he spent more time in 
Indonesia.
    Mr. Burton. So he was living in Indonesia, but when he came 
here, he was staying at a residence here?
    Mr. Huang. That is correct. But he also had a green card 
with him.
    Mr. Burton. I think we are splitting hairs here. The fact 
is that he was not a permanent resident of the United States.
    Did the Justice Department tell you that they considered 
this $450,000 in contributions he made to the State parties 
illegal?
    Mr. Huang. Mr. Chairman, to answer your question, they did 
ask about it, you know, and we also explained to them. I didn't 
believe they expressed an opinion on that.
    Mr. Burton. They did not express an opinion about whether 
or not it was illegal or not for him to give them money?
    Mr. Huang. That's right.
    Mr. Burton. Earlier you said that James Riady could not 
make contributions when you were at the DNC because he had 
abandoned his permanent residence, is that right, here in the 
United States?
    Mr. Huang. I did not ask him. He did not have any legal 
status, so there is no point.
    Mr. Burton. Did he still have that place he visited and 
stayed at when he came to the United States?
    Mr. Huang. I think the residence was still maintained, yes.
    Mr. Burton. So he still had the residence just like he did 
back in 1990 and 1991 and so forth when he flew back and forth. 
But now, once you are at the DNC, you are saying he did not 
have legal status?
    Mr. Huang. He did not have the green card.
    Mr. Burton. He gave his green card back?
    Mr. Huang. I believe so.
    Mr. Burton. I see. So that is the difference, he gave his 
green card back. But the fact is he has lived as a permanent 
resident since about 1990 in Indonesia, he just traveled back 
and forth.
    Mr. Huang. That's correct.
    Mr. Burton. So the $450,000 that he gave to State parties 
was given when he had a green card but he was living in 
Indonesia?
    Mr. Huang. Most of the time, yes.
    Mr. Burton. I want to go into a number of questions, but I 
think what I will do now is yield to Mr. Shays because I want 
to get into the Hsi Lai Temple and the contributions that took 
place and that is going to be quite lengthy. And so I will go 
to Mr. Shays now.
    Mr. Shays. Mr. Huang, I just want to clarify something I 
did not think we needed to go over but I want to be somewhat 
specific. I mean, the sense I had with you, without going into 
every bloody detail, was that you had decided to find a way to 
have Mr. Riady carry out on his million dollar contribution 
effort to the President. So now I want to ask you some specific 
questions. Because my view to the questions I asked was I asked 
was this a team effort and you said yes.
    Did you inform James Riady of every contribution made on 
behalf of the Lippo Group?
    Mr. Huang. During 1992----
    Mr. Shays. 1993 and 1994, yeah.
    Mr. Huang. I'm trying to answer. 1994, for instance, there 
is a Lippo executive who made a contribution, or I solicited 
from them to give a check to me. I did have on occasion to 
mention to him, say each and every individual.
    Mr. Shays. How did you do this?
    Mr. Huang. Through phone.
    Mr. Shays. Did you provide Mr. Riady with precise 
information on each contributor?
    Mr. Huang. Yes, I did.
    Mr. Shays. Did you tell the Justice Department that James 
Riady had enough time to write down all of the information on 
each contribution?
    Mr. Huang. Yes, I did.
    Mr. Shays. Did Mr. Riady record all the information you 
gave him?
    Mr. Huang. As far as I understand. But he was on the other 
side of the phone and I did not see him.
    Mr. Shays. Does this apply to all Lippo-related 
contributions in 1992, 1993, and 1994?
    Mr. Huang. Basically, you're correct on that, sir.
    Mr. Shays. So the bottom line is both of you were working 
together to find a way to have them carry out this pledge and 
you worked hand-in-hand in this effort. That is true, isn't it?
    Mr. Huang. Yes. He was aware of what I was doing, yes.
    Mr. Shays. And he had to implement what you were doing and 
he had to make sure those individuals were reimbursed; isn't 
that correct?
    Mr. Huang. To affirmatively answer to some of the people, I 
know they were reimbursed. But some of the people I did not 
know, but I assumed they were.
    Mr. Shays. You assumed they were and that was the basis. I 
thank you.
    Mr. Chairman, I yield back.
    Mr. Burton. Let me ask a couple of questions here, unless 
are you ready for more questioning, Mr. Souder?
    Mr. Souder. Yes. But you can go ahead.
    Mr. Waxman. Mr. Chairman, you indicated you had questions 
that were going to be somewhat lengthy on the Hsi Lai Temple.
    Mr. Burton. Yes. I think I'll defer on those until 
tomorrow.
    Mr. Waxman. I was going to suggest that if you could ask 
those questions now, we can get those questions on the record. 
Mr. Huang has been here, I think it has been 11 hours, maybe 12 
by the time you are finished with those questions; and I think 
he answered almost everything that anybody could think to ask 
him. But I am sure there are other questions. Maybe we could 
then submit questions in writing and have him respond for the 
record. He did say he is testifying next week again in Los 
Angeles on this matter.
    Mr. Burton. No.
    Mr. Waxman. But it seems to me that----
    Mr. Burton. We have waited 3 years for Mr. Huang and we are 
going to complete the questioning tomorrow or Saturday. We are 
going to try to get it all done. We need these questions 
answered as thoroughly as possible for the record. And then 
after we get these answers for the record, we are going to go 
over them with a fine-tooth comb and check them against other 
things. So we do not want to do it in writing. We want to do it 
in a very thorough and meticulous way. So we are going to 
proceed.
    Let me take 5 minutes now, unless there is objection.
    Mr. Huang, we were talking about your severance package 
some time ago. Did that cover all your political contributions 
for you and your wife in 1994? I believe you said yes.
    Mr. Huang. I did say yes.
    Mr. Burton. How much did it cost you to maintain your two 
homes in California?
    Mr. Huang. It varies because I had variable mortgage rates.
    Mr. Burton. I know. But give me a rough idea each year how 
much you had to pay to maintain those homes in California.
    Mr. Huang. Anywhere from, monthly, probably between $8,000 
and $10,000.
    Mr. Burton. Well, the records we have say you said it cost 
$137,000 per year to maintain the homes. Is that about right?
    Mr. Huang. Including other maintenance and expenses, 
probably that's correct, yes.
    Mr. Burton. Your salary was $127,000 a year. How did you do 
that?
    Mr. Huang. To answer the question, you have to give me a 
little time to give you some background on this. If you allow 
me to do that.
    Mr. Burton. Yes, go ahead.
    Mr. Huang. The two houses actually I had the chance to own 
in the concurrent time did not start until the latter part of 
1989 and forwards until last year. To understand that, we have 
to go back to how I got involved in those two houses in the 
first place.
    As I reported to the committee, I was working in Hong Kong 
between 1983, and actually my family stayed all the way through 
1987, although in 1986 I was working in the United States. 
Being No. 1, being in the United States for all these years, I 
really appreciate the country offering me the opportunities. I 
got married and worked and also had to save some money and also 
invest some money in the stock market, have a little savings 
there before I went to Hong Kong.
    Now, the law allow, if I understand correctly, when people 
working overseas the income up to, say, $70,000 or $75,000 
would be totally tax exempt. So I enjoyed that kind of benefit. 
Working during that period of time, virtually the rent for the 
apartment in Hong Kong was paid for by the corporate entity and 
the school expenses for the children also being paid by the 
corporate entity. And also there is a car involved. And even 
that, my wife and I did not really chose to hire maid, we were 
working for ourselves.
    So, basically, in that period of time, most of the income 
was captured as a saving basis, did not really go to a lot of 
expenses, like most of the time like when we living in the 
United States, you know, pay a lot of things.
    Mr. Burton. So how much did you save?
    Mr. Huang. Between $70,000 and $75,000. Very easily that 
amount was paid during that period of time probably go over 
$200 some thousand. Now, in 1987 when I brought my family back 
here, that was the tail end in California of the real estate 
boom. We have a Congressman here from California who can 
probably testify to that as well. I took the opportunity to 
take some risks at that time.
    For instance, the first home we got was in Cerritos in 
1987. I believe I put in something like $70,000 or maybe even 
$90,000 as a down, and I borrowed the money for the remaining 
of the house of $393,000 plus some closing cost expenses. 
That's small relatively.
    And in the meantime we found out in the Cerritos area where 
we lived, although very nice, but I was working basically in 
Chinatown, downtown in Los Angeles, and the commuting time was 
quite horrendous. So we were looking for someplace a little bit 
closer to where I was working at that time. So we had to have a 
place to live. So we liked Cerritos, the environment was good, 
so we bought a home.
    At the same time, my wife and I was using the remaining of 
the savings or at least a part of the savings to find out that 
in the Glendale location there was a new development over 
there. We were talking to the sales agent at one time, and next 
thing we know the price had gone up $20,000 or $30,000. So we 
got a message on that. So we took a very big gamble and say we 
probably like to live in the Glendale area because from there 
to downtown is only about 15 minutes driving and the area is 
very near, it is a mountain area. So we used the money to put a 
contract to construct two homes in the concurrent time.
    One was the city view, the much better. The other one was 
with a mountain view. Because we did not know which one in the 
end we were going to live in. So by the time the house was 
finished, we decided we would put our Cerritos home, which I 
bought at about $393,000, on the market and I sold for over 
$555,000 in less than 1 year time.
    And in the meantime, the two contracts I did put in those 
two houses being constructed in Glendale, the contract price, 
one was $595,000 and the other one was $599,000. And finally we 
decide to sell one of the house and we decide to live in one. 
And we put that house on the market. I believe we sold in a few 
months for about $840 some thousand.
    So through this combination of things, there would be money 
stashed away for us and I was very fortunate at the time on 
that.
    Mr. Burton. So when you went to the Department of Commerce 
and you were making around, what, $60,000 or $70,000, how much 
were you making at the Department of Commerce?
    Mr. Huang. In the Commerce Department I was making close to 
$110,000, $120,000.
    Mr. Burton. $120,000.
    Mr. Huang. Right.
    Mr. Chairman, I did not really finish what I was trying to 
say.
    Mr. Burton. I think we have the general idea. But go ahead 
if you would like to finish.
    Mr. Huang. Yeah. And I also call the sort of the human 
nature, I thought this was going to continue moving forward. I 
sold one house already. I had more money. They were selling the 
last lot in the development area. So my wife said, Why don't we 
get that one? Hopefully, by the time we are finished with that 
one, we can decide. That one has larger, city view. Also 
smaller one is city view was $800 some thousand already. So I 
want to get into that one. I will hope when I finish we can 
sell one of them and get more profit on that basis.
    Then we got caught and the boom ended. With all the 
intention of only own one house, but at that time we ended up 
with two houses. Now you go into the weakness of human nature. 
You say, well next year it is going to be better. Next year it 
is going to be better. But next year never came for a period of 
time.
    Yet I was traveling, doing all different things. When I got 
the final home when I was working in New York, was traveling 
back and forth, I never had time to take care of that. In the 
meantime, you always hope the best, next year is going to come 
better.
    So, basically, from that time, all the money I was making I 
decide to get it back because you have to carry those two 
houses. As you mentioned, it is not really cheap to maintain 
those two houses.
    Mr. Burton. So when you went to the DNC, you were making, 
what, about $60,000 a year?
    Mr. Huang. That's correct.
    Mr. Burton. You went from $110,000 down to $60,000. And you 
have been maintaining two homes at about $137,000 a year. Now 
you're living off the money you made from those previously; is 
that what you're saying?
    Mr. Huang. This is not true. Part of the moneys are being 
used, maybe still have residual moneys. But the key point is 
the help came in from the severance pay, remember, in 1994 I 
got from the Lippo Group?
    Mr. Burton. Yes.
    Mr. Huang. That was about another $240,000 or $250,000 
coming in. That gave me the breathing room for the following 
few years. So that carried on for a few more years until 1996. 
Because I think the campaign at the DNC is only for a short 
period of time. Afterwards I either going to find another job 
or go back to the government or whatever it is. Then my 
financial condition will be restored on the normal basis and I 
can carry on on a normal basis.
    But this thing erupt, so I was functionally unemployable 
during the past few years. The crunch time really came in 1998. 
And I have to be very truthful to you, I virtually had to 
borrow money from people. And then when you really made a 
determination, luckily the real estate market start gradually 
turning around a little bit.
    So in 1998, exactly about a year and month ago, we sold the 
house and did not lose money. We were able to get all of our 
equity back. And also I sold another investment which my wife 
and I were carrying when we were living in D.C. area back in 
the seventies, sold one of the rental homes as well. We were 
using those kind of money to pay off the debts and pay off my 
living expenses, legal expenses. That's how it become.
    Mr. Burton. All of the bonuses that you received, the 
$20,000 this year or the money--you got $20,000 from the 
Riadys, I guess this year in 1999, and $18,000 last year; is 
that correct?
    Mr. Huang. That is not a bonus. That is a gift.
    Mr. Burton. Did you get any other gifts or bonuses like 
that?
    Mr. Huang. During this couple years, sir?
    Mr. Burton. Well, in the last several years.
    Mr. Huang. I didn't recall anyone else giving money.
    Mr. Burton. On the bonuses you received from the Lippo 
Group, the Riadys, you said sometimes you got money in cash 
from some people, the $18,000, $20,000, did you report all of 
that on your income taxes?
    Mr. Huang. No, that was a gift. It was not a bonus, sir. In 
other words, the gifts to--in other words, as far as I learn, 
you know, I am entitled to receive gifts of less than $10,000 
without even reporting anything.
    Mr. Burton. And you do not pay taxes on that?
    Mr. Huang. That is correct.
    Mr. Burton. Did you borrow any money from Mr. Riady?
    Mr. Huang. No, I did not borrow from him.
    Mr. Burton. Those gifts were $20,000, you said, and 
$18,000?
    Mr. Huang. In different years.
    Mr. Burton. In different years. And you said if it is under 
$10,000 you don't have to report it?
    Mr. Huang. For two persons, one for my wife, for each 
person. Actually, the money went to my wife did not come to me, 
but I am reporting it because I consider my wife is part of me, 
and so I just mention to you, sir.
    Mr. Burton. Mr. Souder.
    Mr. Souder. As is always true, when people abuse power 
higher up and people along the road wind up abusing power, too, 
there is really sad family tragedies.
    I think one of the things that touched me most in all these 
hearings, I was talking 1 day to Johnny Chung in between some 
meetings and he told how he would go down to the pier in San 
Diego and always loved to fish there with his son, but after 
this broke, he could not go there because the media was there; 
and one of the things that he missed most was being able to 
fish with his son.
    He also said that all the people that used to welcome him 
over at the White House and Mrs. Clinton's office and other 
places, he said, they don't consider me a friend anymore.
    Those are tough times. It happened in Watergate, too, when 
there were tons of people who lost everything they had, some of 
whom were marginal players, some of whom were bigger players, 
and some of whom really deserved what happened to them.
    I do not know for sure where all you fall, but I am sorry 
for your personal struggles.
    Mr. Huang. Well, I thank you for bringing up, Mr. Souder. 
In fact, my lawyer didn't even know when this so-called treason 
thing came up. And my son received a call. Somebody called and 
said something, that apparently treason is death by hanging, 
you know, just openly spoke through the phone. And my son told 
me very nervously on that basis.
    Certain thing it did happen. If I'm allowed to make a few 
points here, more personal things, I never proclaimed that life 
is going to be fair and people are going to be fair, all life 
is going to be smooth.
    If I did not come to work in the government and did not 
come to work for DNC, probably I working for other profession. 
I will meet other challenges, as well. The key when we face the 
challenges, we have to honestly to the best of ourselves to 
face the challenge and then get it over with. That would be one 
event in your life. Because the event is not going to last you 
for life because you have many more years to go in your life. 
Hopefully you can get it over with as quickly as possible.
    This is the thing, that's the attitude I'm taking. 
Certainly I was sorry. I made a mistake. I create a lot of 
notoriety. I caused a lot of pain for a lot of people. But I 
did it, so I'm trying to correct it as much as I can on that 
basis.
    Mr. Souder. One of the things that I hope you understand, 
too, is that it is not always comfortable being in our position 
in trying to get to this. But there are a number of issues that 
we are at the edges of here. The most probably significant 
thing to the United States of America is the fact that, for 
whatever reason, incompetence, virtual slobbering over 
increased trade to China, and possible decisions that were made 
inside this administration that may have been influenced by 
money, have potentially lost every nuclear secret we have in 
this country; and my son and my children could die because of 
that.
    So in addition to whatever problems you have and the 
individuals that get involved in these investigations, in fact, 
somewhere along the line all of our families have been put at 
risk.
    Furthermore, when decisions are unilaterally made by an 
administration regarding coal policy, and they take other 
people's assets who invested much money in these companies and 
hoped to do that; in addition there are many people involved 
who were following laws on political campaigns and they try to 
run campaigns and that leads to employment for different people 
and they may have lost their jobs.
    There are lots of different stories. But I think, I myself 
am a Christian, and I think anybody whose heart does not go out 
to you as an individual is insensitive. But there are, I think, 
larger questions that we need to pursue.
    Mr. Huang. Right. I fully agree with you, you know, 
Congressman. That's why I'm here and hopefully can make a 
satisfactory conclusion afterwards.
    Mr. Souder. Well, thank you.
    I now have another series of questions and they relate to 
what we referred to a couple of times as the Wiriadinata 
contributions. And I apologize if I mispronounce it. But I get 
called at least half the time Sooder rather than Souder. My 
name is not as complicated, but we all do that. I will do the 
best I can. If I make any errors, please forgive me.
    Could you explain how you met them?
    Mr. Huang. I met the--let me call the first name, probably 
be easier because the last name is very long. Would you agree? 
Would that be OK with you?
    I think the man's name is Arief and the wife's name is 
Soraya. So it is much shorter and easier.
    The first time I met with the couple was in the summer of 
1994, not too far after I joined the Commerce Department.
    Soraya's father is Mr. Hasjim Ning, as you know very well 
already. Apparently he travel around the world very, very 
regularly. And he has got daughters here in Virginia in 
addition to Soraya. I have learned other daughters are coming 
from different mother from the other two sisters living in this 
neighborhood.
    The summer Mr. Hasjim Ning suffered a heart attack. So he 
immediately went to the hospital. So out of that kind of 
concern, and I happened to be here in Washington, and so I was 
contacted indirectly or directly by Mr. Riady, indicating would 
I could extend some courtesy to visit to Mr. Hasjim Ning on 
that basis. Besides, I met Mr. Hasjim Ning during some kind of 
group kind of meeting back in Indonesia.
    So in the hospital, that was the first time I met with the 
couple.
    Mr. Waxman. Mr. Chairman, I would like to give the 
gentleman an additional 5 minutes to pursue his investigation.
    Mr. Burton. Without objection.
    Mr. Souder. Could you look at exhibit No. 210? This is a 
letter from President Clinton to Dr. Ning. Did you request that 
letter?
    [Exhibit 210 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.306
    
    Mr. Huang. I did not request that letter.
    Mr. Souder. Did Mr. Riady request the letter? Do you know 
who requested the letter?
    Mr. Huang. I don't know whether that was Mr. Riady's 
suggestion, let me go straightforward--straight suggestion to 
Mr. Mark Middleton. Hopefully he might be able to get something 
like this to show some gesture to make him feel better on that.
    Mr. Souder. So you were approached by Mr. Middleton.
    On exhibit 211 there is a letter from Dr. Ning to President 
Clinton. This is dated September 5th.
    Do you know how long Dr. Ning took in recovering?
    [Exhibit 211 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.307
    
    Mr. Huang. I am not sure he really recovered. He was 
constantly a little bit better and then worse, that kind of 
situation. But he was here for quite a few months.
    Mr. Souder. And in the letter it says it thanked the 
President for Mr. Middleton's visit.
    Were you with Mr. Middleton when he visited the hospital?
    Mr. Huang. Yes, we did.
    Mr. Souder. Anyone else with the two of you?
    Mr. Huang. No, just Middleton and himself and myself.
    Mr. Souder. Do you know whether the President requested Mr. 
Middleton to go?
    Mr. Huang. I didn't believe that was the case; no, sir.
    Mr. Souder. Did you or anyone else make an effort to have 
Vice President Gore visit the hospital?
    Mr. Huang. No.
    Mr. Souder. In exhibit 212, it is a November 8, 1995 letter 
from President Clinton to Dr. Ning sent to Mark Middleton--do 
you know why it was sent to Mr. Middleton?
    [Exhibit 212 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.308
    
    Mr. Huang. I do not know. This is the first time I have 
seen this letter, though.
    Mr. Souder. How often did you see Soraya and Arief in 
between the time Dr. Ning fell ill and the November 2nd 
fundraising event? Did you see them very often?
    Mr. Huang. No, I did not. But we met a few times, yes. And 
occasionally, Congressman, as I mentioned to you, my home was 
in L.A., there is a large Indonesian community over there as 
well. Occasionally I brought in for them some Indonesian food. 
Because the family member was here, they flew in, I think wife 
of Mr. Ning was here.
    Mr. Souder. Had you visited their home before?
    Mr. Huang. No, I did not.
    Mr. Souder. Did you know what their careers were or what 
their jobs were?
    Mr. Huang. You are talking about Arief? I did not know for 
sure his exact job. But he received a master's degree from the 
University of Pennsylvania and he was planning to set up a 
business in California.
    Mr. Souder. Did they seem very wealthy?
    Mr. Huang. Yes.
    Mr. Souder. Or just kind of more middle class?
    Mr. Huang. No, for themself it is not, you can't really 
judge from the outside. But I do know deep down in back of my 
head the family is very, very wealthy.
    Mr. Souder. Because of Soraya's parents, or how would you 
know that?
    Mr. Huang. Soraya's parents, yes.
    Mr. Souder. But you did not know whether they actually had 
that money, you just knew that she was potentially going to 
inherit that money?
    Mr. Huang. Sort of over your life you sort of develop some 
kind of judgment. Now the real judgment is correct or not 
correct, that's another story. But the impression, the family 
is very well off. The kids always have money.
    Mr. Souder. By ``very well off,'' do you mean like 
millionaires?
    Mr. Huang. Definitely in that range, yes.
    Mr. Souder. But then they were living in a townhouse at the 
time. Do you know why they had been living in a townhouse if 
they were millionaires?
    Mr. Huang. I don't know. I don't know. You know, by where 
they are living and what kind of car they are driving, really 
sometimes it is not much barrier to the wealth of the person, 
though.
    Mr. Souder. Because--this is important--because they put a 
lot of money into the campaign; and the question was, was that 
their money or not their money? And that is kind of where I am 
headed with some of my questions. So I am trying to establish 
what you knew and what you suspect.
    Mr. Huang. Sure.
    Mr. Souder. Are you aware of the statements that they made 
in the Senate reports on campaign finance?
    Mr. Huang. I am not aware of that, no.
    Mr. Souder. That they made it clear that you directed all 
of their political contributions, and that they--Arief 
acknowledged that your solicitations began in 1995 when you 
were still a Commerce official. It goes on to state, ``Arief 
acknowledged that your solicitations began in 1995, when you 
were still a Commerce official.'' It goes on to state, ``Arief 
recounted that long-solicited November 9, 1995 contributions in 
connection with the Washington, DC, fundraising event.'' Do you 
believe those are accurate statements?
    Mr. Huang. That is correct, starting from that time.
    Mr. Souder. Were you aware that they were given a large 
amount of money in early 1995 by Dr. Ning?
    Mr. Huang. By Dr. Ning?
    Mr. Souder. Yes.
    Mr. Huang. I was not aware of Dr. Ning ever give money, no.
    Mr. Souder. No, that the Wiriadinatas were given a large 
amount of money from Dr. Ning? You were not aware of that?
    Mr. Huang. I was not aware of that, no.
    Mr. Souder. Mr. Chairman, may I have additional time to 
finish?
    Mr. Burton. Without objection. He wants 5 more minutes.
    Mr. Waxman. OK.
    Mr. Burton. Without objection, so ordered.
    Mr. Souder. On November 2, 1995, the day of Vice President 
Gore's fundraiser, they opened up a bank account, and Dr. Ning 
wired each of them $250,000 that day for that bank account. 
Then they wrote their checks to the Democratic National 
Committee 6 days later, the day after the wire transfer came 
in.
    So, in other words, he wired them each $250,000, they 
opened up a bank account on November 7th. The transfer of 
$250,000 each came in on November 7th. On November 8th, they 
wrote the fundraising check.
    Were you aware that they needed to get the funds to 
contribute from Mr. Ning?
    [Discussion off the record.]
    Mr. Huang. Congressman Souder, I have seen some of these 
records that you mentioned about, but in my mind, you know, I 
never had a thought that it was Dr. Ning's money, you know. I 
always felt that was their resources.
    Mr. Souder. Because what they did wasn't legal.
    Did you ever speak to Mr. Riady about their contributions? 
Did you ever have any discussions about what the Wiriadinatas 
were doing?
    Mr. Huang. Excuse me a second.
    [Discussion off the record.]
    Mr. Huang. Congressman, first of all, I did nothing that 
was illegal for their contribution on that. They were coming to 
me the through the recommendation of Mr. Riady on that.
    Mr. Souder. So after they gave the money, did you ever talk 
to him about the contributions? Did you ever discuss how they 
were helping and where the money--not necessarily where the 
money came from, but just about the contributions?
    Mr. Huang. I believe Mr. Riady knew about--knew that you 
know, they were making contributions, so I did not report it 
and say well, has made how many thousand-dollar contribution 
today, the next day is $25,000. It was not under that kind of a 
situation.
    Mr. Souder. I probably should have asked this earlier for 
the record. Could you explain the relationship between Dr. Ning 
and Mr. Riady?
    Mr. Huang. They were--now, first of all, Dr. Ning was 
supposed to be categorized with Ford of Indonesia, just like 
our Ford Motor Co. here, meaning he is in the automotive 
business. I think he is probably a billionaire in my 
recollection on that. They have a bank, but I believe they have 
joint interest in the Lippo Bank in Jakarta. That is to the 
extent I know for a fact. For other interests, they might have 
other joint interests which I don't know.
    Mr. Souder. So at a minimum, they had a joint interest in 
the Lippo Bank in that Dr. Ning and Mr. Riady were interrelated 
in Lippo?
    Mr. Huang. That is correct.
    Mr. Souder. The Wiriadinatas were not on the list for 
attend Vice President Gore's fundraiser, yet it appears they 
did attend. Do you recollect that?
    Mr. Huang. They did attend, yes.
    Mr. Souder. Could you look at exhibit 207, which is a 
photograph taken at the event, and that is them in the 
photograph, correct?
    [Exhibit 207 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.309
    
    Mr. Huang. Yes.
    Mr. Souder. Did you introduce them to the Vice President?
    Mr. Huang. I did. I was standing right next to the Vice 
President.
    Mr. Souder. And you said earlier you contacted them about 
this event? You made the contact to them?
    Mr. Huang. To Arief and Soraya, yes, I did.
    Mr. Souder. To this event. And you solicited them. So it 
was through you that they found out about the event.
    In exhibits 208 and 209, the solicitor of the $15,000 
checks is your wife, is that correct? Because you were at the 
Department of Commerce at this time.
    [Exhibits 208 and 209 follow:]
    [GRAPHIC] [TIFF OMITTED] T6496.310
    
    [GRAPHIC] [TIFF OMITTED] T6496.311
    
    Mr. Huang. Yes. They listed--my wife's name is on there, 
yes.
    Mr. Souder. Did she ever talk to them about attending that 
event?
    Mr. Souder. No.
    Mr. Souder. Were you aware that--why did she get listed 
then?
    Mr. Huang. I did not--I do not know, but this issue is 
being discussed so many times over the last few years with 
various investigations. I did not know at that time.
    Mr. Souder. The DNC contact is Mercer, correct?
    Mr. Huang. Yes. This says Mercer, yes.
    Mr. Souder. OK. That is all the questions I have on that 
particular fundraiser. I have questions on the coffee 
fundraiser that will take some time. So at this point I will 
yield back unless you want me to continue on this.
    Mr. Waxman. Mr. Chairman.
    Mr. Ose [presiding]. Yes, sir.
    Mr. Waxman. If I might be recognized.
    Mr. Ose. The Chair recognizes the ranking member.
    Mr. Waxman. Thank you. I haven't asked too many questions 
today because this is an opportunity for people to go into all 
of the issues in the campaign finance investigation. Mr. Burton 
indicated that he has been waiting for 3 years to have you here 
and he wants to pursue all of these things, and I think it is 
appropriate to pursue it. So I haven't really asked a lot of 
questions, and I thought that Mr. Souder's questions were very 
pertinent to the investigation.
    But just sitting here, I just want to make an observation 
that is on my mind. Mr. Souder said, I don't want to be 
critical of him, but he said he is frustrated because the 
Chinese seem to have all of our nuclear secrets. There is just 
no information at all that links you in any way to the Chinese 
having nuclear secrets, and I asked you about those questions 
yesterday. You have said you have nothing to do with any of 
that. I know of no evidence that indicates that. We are looking 
at campaign finance violations that involve conduit 
contributions. A very serious matter, but I hate to say it, not 
a very unusual kind of practice among Democrats and 
Republicans. I wish we could put a stop to it and prosecute 
people who have violated the law as you have now had to own up 
to your violation of the law. That bothered me.
    The second thing that sort of bothered me and I just want 
to say it is that I don't think it is the business of anybody 
to go into your real estate transactions and your personal 
life. I just don't see the relevance of that to anything. You 
have been here now almost close to 12 hours of questioning, and 
Mr. Burton says he still wants to continue on, and I gather we 
are scheduled tomorrow to ask more questions and you are going 
to testify next week in Los Angeles. I am not going to take my 
full time here; I just want to make these comments and express 
my feeling that I am troubled, I am just troubled to have to 
hear about things that I just don't think have anything to do 
with anything, whether it be your personal financial matters, 
those are personal. That is why they are called personal 
financial matters. If there is anything else that anybody has 
to say about matters that really genuinely concern the 
committee, then we ought to pursue those, and I think Members 
have generally done that and you have responded well to those 
questions. But I am just troubled and wanted to share my 
feelings about it.
    Mr. Shays. Will the gentleman yield?
    Mr. Waxman. Sure.
    Mr. Shays. I know you say it sincerely, but I just want to 
say to you that the reason why we are asking questions publicly 
is that you felt that it should be done publicly rather than by 
the committee in private, and then we would focus only on those 
areas that seemed the most pertinent. And the reason to check 
on houses or anything else is to understand the financial 
circumstances that makes this witness a credible witness or 
not. Is he vulnerable to gifts? Is he vulnerable to people who 
then make his testimony more questionable, and that is the 
purpose of it.
    But in your letter you said, as you know in the past, many 
Members of our committee have expressed concerns about the 
practice of extensive questioning of witnesses in closed 
sessions. This is a letter you wrote to Mr. Burton. I share 
that concern and continue to believe that the committee and the 
American people will best be served by having Mr. Huang appear 
at a public hearing with no restrictions to the amount of 
questions he would face. Yet, you keep bringing up the number 
of hours we have been here. We are going to be here tomorrow. 
The bottom line is, we are going to fulfill the request of your 
letter. We might have had this hearing done in a day, if we 
could have had the committee be able to do some of the ground 
work first. So, we are here.
    Mr. Waxman. Let me just comment, because this is on my 
time.
    I wouldn't want this session to be behind closed doors in a 
deposition. I don't want Mr. Huang subjected to all of the 
hours that he has had to put himself through here to answer 
questions without the public having a chance to see the kinds 
of questions that are asked, and that is why I objected to the 
abuse that I thought has taken place by this committee in these 
closed-door depositions.
    So we have him here, people can ask him questions, let the 
public, if they want to watch all of this, it is on C-SPAN, it 
is on the Internet, it is all public, and if I don't see the 
relevancy of Mr. Huang's real estate transactions, but if 
people do, they have a right to ask exactly those points. I 
just think that from my observation of having sat here all day 
and yesterday as well, and I will be here as long as we go with 
this event tomorrow, people have to ask--stick to what is 
really at issue. And I think most of the Members have, and I 
appreciate that. That is why I have not interrupted people and 
given unanimous consents for additional time for Members to 
pursue every possible lead that might be of some relevancy. But 
I just think that--I just think there is such a thing as 
government intruding in people's lives, and we are government. 
And we are sitting up here on the rafters of a committee room 
looking down at Mr. Huang. That is the way we structure the way 
Congress works. I think we have to be mindful of the fact that 
he is an individual whose personal life ought to be respected, 
unless it has some real, clear relevancy. Also, even if we are 
all concerned, as we are, about China having nuclear secrets, I 
don't think we ought to look at Mr. Huang and assume that he 
has something to do with it, just by looking at Mr. Huang.
    Mr. Souder. Will the gentleman yield?
    Mr. Waxman. I am going to yield back my time.
    I will yield to you, sure.
    Mr. Souder. Before you referred to something that I said 
earlier, and I want to make it clear, I am uncomfortable first 
getting into some of the financial questions as well, although 
whenever you have these kinds of investigations, I mean there 
was certainly no reluctance, and I am not known as big defender 
of our former speaker, but I tell you, you talk about getting 
into finances and ripping somebody's personal record apart and 
then having it basically not be true, it has certainly 
happened. I am not saying the gentleman from California did, 
but partly, to get to truth, we had to see what kind of 
documents his firms were doing and got into his personal life 
and on the loans and so on, and that is part of what happens in 
an investigation, whether it is fair or not.
    The second thing is that I have been very careful in what I 
have said today regarding Mr. Huang's involvement in China, 
because I don't think--we are in the process right now of 
trying to establish what he knew, what he heard at different 
meetings, and where it might have been, because it is clear 
that Chinese military money got to the United States. We don't 
know what that accomplished. And I just--I think it is 
important to point out, I am not--I don't believe we are at the 
point yet, and we may never get to the point, because it 
doesn't sound like he may have had the knowledge, but this is 
the fact. The Congress report, which was a unanimous report of 
Republicans and Democrats, has four pages with a picture of Mr. 
Huang referring to the Lippo Group in other things. It is a--I 
have not referred to it and others haven't, and quite frankly, 
we are not necessarily even rising to that level; we are trying 
to get to lower building blocks, but it is clear that it does 
have potential relevance to this, that according to this 
report, which was unanimous, there was classified information 
that was gone and that the concern is not so much what Mr. 
Huang necessarily did, but what others who he worked with, 
Charlie Trie, Mr. Riady and others who may, in fact, have been 
conduits with that.
    So it isn't just some kind of a wild-eyed allegation that I 
made; I just said as a broad nature, this report, unanimous 
from both parties, raises that question.
    Mr. Waxman. I have the highest regard for you, Mr. Souder, 
and I think the questions you have been asking are right on 
target. These are the kinds of questions that this kind of a 
hearing ought to go into in terms of the campaign finance 
issues, and I want to yield back my time to have Members 
continue their inquiry, although I think at some point we ought 
to let Mr. Huang have some time off and maybe, if we are coming 
back tomorrow--I would have hoped we would have finished 
today--we ought to end for the day at some point and in the 
not-too-distant timeframe so that we can give him a break. I 
think it is the humanitarian thing to do, and give ourselves a 
break too.
    Mr. Ose. The Chair recognizes Mr. LaTourette.
    Mr. Shays. Will the gentleman yield?
    Mr. LaTourette. I will yield.
    Mr. Shays. We planned to end at 5 at your request, so we 
are endings at 5, and I would just make a second point. I do 
have some gigantic disappointment that tomorrow, Mr. Huang, I 
am going to have to ask you questions on security issues that I 
would rather have had to ask you privately, because I think 
some of it is unfair to have to ask you publicly. But this is 
the only way I am going to do it. And then I take some 
exception to then having my ranking member suggest that maybe 
this is inappropriate. This is campaign finance, and it is the 
question of security of our country. And you have been linked 
to it, and we should ask you questions about it, and you should 
answer questions about it, and we should give you every 
opportunity to respond to them. I suspect that maybe at the end 
of the day we will find our concerns were misplaced, and for 
you and our country, I hope that is the case. But we are going 
to get into that tomorrow. I am just going to say to you up 
front, I am sorry that we had to do it publicly, because I 
would have preferred to ask some of these questions privately 
because then I may have determined I didn't need to ask any of 
them.
    Mr. Waxman. Will the gentleman yield to me?
    Mr. Shays. No. I don't have the time. I yield back.
    Mr. LaTourette. I am happy to yield.
    Mr. Waxman. The fact is that Mr. Huang is answering these 
questions and he would have been posed these questions over the 
same length of time, because that is the intention of this 
committee, the majority of this committee, and if he is going 
to be subjected to that--it is my view, and we have a 
disagreement--let's let the American people see what kinds of 
questions he is going to be subjected to and let Members sit 
here.
    You know, I showed up at some of those depositions. Most 
Members weren't there at those depositions. It was staff 
attorneys hour after hour after hour asking questions. And I 
pointed this out earlier, in those depositions, the Democrats 
weren't even allowed to ask any question whatsoever, our 
lawyers weren't allowed to ask any questions whatsoever because 
the Republican majority, which included Mr. Shays, voted to 
change the rules. They used to say there would be a half-hour 
on one side and then a half-hour on the other. They changed the 
rules to say that the Republicans could ask questions for 10 
hours, and then if there is time left over, the Democrats could 
ask. So the rules of the depositions were unfair.
    It strikes me that it is also unfair to subject people to 
almost a star chamber process where no one really knows what is 
being asked of them. Later, some time later depositions are 
released. But I think--I have been very impressed by your 
forthrightness and your demeanor, and no one would have been 
able to see that if it had been in a deposition. Most of the 
people who have been deposed by our committee lawyers never 
came before a committee for a public hearing, yet they went in 
one case 20 hours. Maybe you are going to match that, 20 hours 
of questioning.
    Well, I want people who are watching this, and I don't know 
who would watch this long meeting, to think about having the 
Congress of the United States bring them in a room and make 
them answer questions about their real estate transactions, or 
their personal lives, or their drug use at different times in 
their lives, looking for something that might be related to an 
investigation on money that was given improperly. I don't want 
to minimize the business of abuse of the campaign laws, but I 
do think that at some point individual Americans can be abused. 
You are here with two lawyers, you are paying for two lawyers. 
People who were very minor figures--you were a major figure in 
the conduit schemes involving the Democratic party, but I have 
seen people who had almost nothing to do with anything have to 
sit through 5 or 10 hours of questioning in a closed room, 
taking time off from work, paying for lawyers, and the public 
wouldn't even have the ability to know what was going on.
    So maybe we have a disagreement, and obviously we do, but I 
think there is some value in letting the public see--whatever 
public may be watching this--this kind of proceeding.
    Mr. LaTourette. I thank both Mr. Waxman and Mr. Shays for 
their observations on why we are here. Again, of the 161 people 
that were deposed, and as I said yesterday, it is my 
understanding none of them were part of the freeway in New 
Jersey or anything, they are all still with us.
    So Mr. Huang, I would like to go back to asking questions--
--
    Mr. Waxman. I ask unanimous consent that you be given the 
full time to ask questions, because you were so kind to both 
Mr. Shays and myself.
    Mr. LaTourette. I thank you very much.
    Mr. Waxman. Does the gentleman want 10 minutes?
    Mr. LaTourette. Ten minutes would be a wonderful thing.
    Mr. Ose [presiding]. Actually, Mr. Waxman, I think we only 
have 9 minutes. Is that agreeable?
    Mr. LaTourette. You know what? I will take whatever you all 
want to give me.
    Mr. Ose. The gentleman from Ohio is recognized for 9 
minutes.
    Mr. LaTourette. This is going to be great. Let's move back 
to some real estate that is within the public domain, and 
that's the White House. We were talking about a coffee that 
occurred there on June 18, 1996, and I asked you if it was 
referred to as the Kanchanalak coffee and you said you never 
heard it referred to as that. I was looking through some 
exhibits, and it was actually referred to as the John Huang 
coffee of June 18, 1996, in DNC documents, and so I guess I 
will call it the Huang coffee.
    We were talking about Richard Sullivan from the DNC and the 
fact that he had at least indicated to the Senate and expressed 
some concerns that there weren't any U.S. citizens on the list 
coming to this original coffee. I read you some things that he 
said and asked you for reactions to things that he said you 
said. He indicated to, again, to the Senate that Pauline 
Kanchanalak reacted to his concerns that there weren't any U.S. 
citizens coming to this coffee by inviting two U.S. citizens to 
the coffee, Dr. Karl Jackson and Clarke Wallace.
    Were you involved in the extending of an invitation to 
either of those gentlemen?
    Mr. Huang. No. That was totally as far as I know through 
Ms. Kanchanalak's initiation.
    Mr. LaTourette. According to Mr. Wallace, he testified that 
a day or two before the coffee, you visited Ms. Kanchanalak at 
her office and after that meeting, Kanchanalak asked him, 
Clarke Wallace, to attend the coffee and told Wallace to inform 
Karl Jackson also of the U.S. TBC that he was invited to 
attend.
    Were either of these individuals expected to make a 
contribution at the coffee, the June 18th coffee?
    Mr. Huang. In my mind, no.
    Mr. LaTourette. As a matter of fact, Mr. Sullivan said he 
was concerned about the propriety, still concerned about the 
propriety of the Kanchanalak-Huang coffee, suspecting, 
correctly, as it turned out, that neither Karl Jackson nor 
Clarke Wallace would contribute to the DNC.
    Mr. Sullivan further stated that he was so concerned about 
the appearance of this coffee that he invited three additional 
people to attend, a Beth Dozoretz, Robert Belfer and Renee 
Belfer. Were you aware of or part of this decision?
    Mr. Huang. No. In fact, when the other people show up, Ms. 
Kanchanalak said, what happened to them? Who invited them?
    Mr. LaTourette. And that was Mr. Sullivan as it turns out 
who I guess wanted more people who could actually give money to 
the DNC there.
    At the event itself, according to Karl Jackson and Clarke 
Wallace, the late invitees to the dance, they indicated that a 
couple of people spoke at the coffee. One of them was Mr. 
Fowler, chairman of the DNC, and they remember him saying 
something to the effect of: It is a pleasure to welcome all of 
you here to this coffee on behalf of the Democratic National 
Committee, and these coffees are important so that the 
President can maintain contact with people. Particularly this 
is important because it is particularly important in an 
election year, and this is an election year, arguably the most 
important since the one that brought Abraham Lincoln to this 
house.
    It is interesting that Mr. Fowler would invoke the name of 
Abraham Lincoln and it might explain why they used his bedroom 
so many times during the course of the campaign season if they 
thought it was such an important coffee.
    How long did the coffee last?
    Mr. Huang. I don't know for sure. Less than 1 hour. 
Probably around 40 minutes or so.
    Mr. LaTourette. And aside from Mr. Fowler speaking, who 
else did some speaking that you recall to the assembled group?
    Mr. Huang. I don't recall. I don't know whether Mr. Rosen 
spoke or not. He was there. And the rest----
    Mr. LaTourette. Did you speak?
    Mr. Huang. I did not. There was no place for me to speak in 
that kind of function.
    Mr. LaTourette. OK. Again, going to Mr. Jackson and Mr. 
Wallace, they recall, and I will ask you about this either in 
my remaining time today or maybe we can pick it up tomorrow, 
but they recall that you did make some observations about how 
expensive elections were in front of the assembled group. Do 
you recall that at all?
    [Discussion off the record.]
    Mr. Huang. I was aware of the testimony from Mr. Karl 
Jackson. I was not aware of it--you know, I disagree, I 
disagree with what he said.
    Mr. LaTourette. OK. That is fine. I want to turn your 
attention to exhibit 442, and maybe this is where I can stop 
today if I can cram this in. Exhibit 442 is 6 pages of notes 
taken from your diary that appeared to have been taken at the 
coffee on June 18th. The second page of the exhibit has the 
following notes: China needs U.S. high-tech auto 
telecommunications. U.S. should be there.
    Are those, first of all, your notes from your diary, and if 
so, what were those notes made in reference to, sir?
    [Exhibit 442 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.312
    
    [GRAPHIC] [TIFF OMITTED] T6496.313
    
    [GRAPHIC] [TIFF OMITTED] T6496.314
    
    [GRAPHIC] [TIFF OMITTED] T6496.315
    
    [GRAPHIC] [TIFF OMITTED] T6496.316
    
    [GRAPHIC] [TIFF OMITTED] T6496.317
    
    Mr. Huang. First of all, Congressman, these were my notes; 
it was my handwriting. Basically, notes--more or less jotted 
down notes of the guests that Ms. Kanchanalak was making some 
points, so I took down those notes.
    Mr. LaTourette. So you believe that those notes were made 
simultaneous or contemporaneous with observations that Ms. 
Kanchanalak was making at the coffee?
    Mr. Huang. Not her. Her guests.
    Mr. LaTourette. The foreign nationals that I indicated to 
you were----
    Mr. Huang. The head of the CP group.
    Mr. LaTourette. Who were Taiwanese citizens. Excuse me, 
Thai citizens.
    Mr. Huang. Very long Thai names. Skip my mind. Very well-
known person.
    Mr. LaTourette. Khun Dhanin, Khun Sumet and Khun Sarasin. 
Those are the three individuals?
    Mr. Huang. Khun Dhanin made the points in--I don't know if 
it is in Thai or not, but it was translated by the other 
gentleman.
    Mr. LaTourette. OK. The second page also contains a 
discussion of the poultry industry and there are a number of 
references to the Tyson companies. Were those notes also made 
in reference to something that Mr. Dhanin, remarks that he 
might have made at the coffee?
    Mr. Huang. Yes, sir.
    Mr. LaTourette. The bottom of the third page and the fourth 
page contain several mentions of the relationship with Taiwan. 
There are statements referring to a leadership change and a 
political change in Taiwan. Were those also notes taken 
contemporaneous to observations that Mr. Dhanin might have been 
making?
    Mr. Huang. I believe so.
    Mr. LaTourette. At the bottom of the page is marked COM 204 
and 205. They are mentions of the World Trade Organization, 
which we have had a rather interesting meeting recently in 
Seattle; and China. Who brought that issue up, and if you can 
recall, what was said? Was that also Mr. Dhanin?
    Mr. Huang. I believe so.
    Mr. LaTourette. And last, I guess for today's purposes, yet 
again, you are aware that the committee, the Congress, the 
Senate has had testimony from other individuals that you 
discussed the need for election funds at this coffee, and I 
would ask you as my last question of today, are you absolutely 
certain, sir, under oath, under penalty of perjury that you did 
not discuss the need for election funds to reelect the 
President of the United States at this coffee on June 18, 1996.
    Mr. Huang. During the coffee you are talking about?
    Mr. LaTourette. I am talking about at the coffee in the 
White House.
    Mr. Huang. I did not.
    Mr. LaTourette. I thank you, and I yield to the chairman.
    Mr. Burton. Did you discuss with anybody during, before, or 
after the coffee any of the people in attendance, during, 
before or after the coffee, campaign----
    Mr. Huang. I cannot recall on that, sir.
    Mr. Burton. Well, you were pretty definitive when you said 
no, you didn't do it at the coffee, but now you are saying you 
don't recall.
    Mr. Huang. The reason I----
    [Discussion off the record.]
    Mr. Huang. I did not say in the coffee, period. Your 
question is before or after.
    Mr. Burton. Did you say it before or after the coffee? Did 
you ask for any money or indicate?
    Mr. Huang. I have to tell the truth. The only time--the 
reason I am hesitating a little bit, Mr. Chairman, was the 
chance during the beginning of the coffee--not beginning of the 
coffee, before we even went in the White House; remember, we 
all have to sign at the security gate, they have to check it 
out, how you are going to get in. There might be a very small 
moment there was a conversation talking about I might have 
mentioned the campaign, you know, touch upon campaign saying we 
spent a lot of money, it is a very costly campaign. That was 
the only, only thing you can link to, any inkling to touch upon 
this issue. That was the only time that it was mentioned. But 
definitely was not very bluntly stood up on the table and say 
we want everybody to give money and so on and so on. No.
    Mr. LaTourette. Mr. Chairman, is the green light really 
still on? Because I just want to make one more observation.
    Mr. Burton. It is still on.
    Mr. LaTourette. I just want to tell you, Mr. Huang, as you 
go from here tonight, that there is a very specific 
recollection that you indicated elections cost money, lots and 
lots of money, and I am sure that every person in this room 
will want to support the reelection of President Clinton. That 
comes from Karl Jackson, Clarke Wallace and also two other 
individuals, R. Roderick Porter and John Taylor.
    So it is not--I think that either these four gentlemen are 
sadly, sadly mistaken in what occurred, but we do have a big 
conflict, and I think you need to know about it, between their 
recollection of that day and your testimony under oath before 
us today.
    With that, if there is anything else you would like to add 
to it, fine. Otherwise, I am done and I am happy to be done.
    Mr. Huang. Congressman, when this account came out through 
news media, I have been aware of this. This is probably one of 
the like the other few events that I have been accused of to 
say really, deep down in my heart, I did not make any comment 
in that event, sir.
    Mr. LaTourette. I thank you for your answer, and I thank 
you, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Huang.
    Mr. Huang. Thank you, Mr. Chairman.
    Mr. Burton. I think we have exhausted this day. I will see 
everybody at 9 a.m. tomorrow morning. We stand in recess.
    [Whereupon, at 5:05 p.m., the committee was adjourned, to 
reconvene at 9 a.m., Friday, December 17, 1999.]

 
  THE ROLE OF JOHN HUANG AND THE RIADY FAMILY IN POLITICAL FUNDRAISING

                              ----------                              


                       FRIDAY, DECEMBER 17, 1999

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. Dan Burton 
(chairman of the committee) presiding.
    Present: Representatives Burton, Shays, Souder, LaTourette, 
Waxman, Norton, and Cummings.
    Staff present: Kevin Binger, staff director; James C. 
Wilson, chief counsel; David A. Kass, deputy counsel and 
parliamentarian; Mark Corallo, director of communications; 
Kristi Remington, senior counsel; James J. Schumann and M. 
Scott Billingsley, counsels; Kimberly A. Reed, investigative 
counsel; Nat Weinecke, professional staff member; Renee Becker, 
deputy press secretary; Robert Briggs, assistant clerk; Robin 
Butler, office manager; Michael Canty and Toni Lightle, staff 
assistants; Nicole Petrosino, legislative aide; Maria Tamburri, 
assistant to chief counsel; Corinne Zaccagnini, systems 
administrator; Phil Schiliro, minority staff director; Phil 
Barnett, minority chief counsel; Kenneth Ballen, minority chief 
investigative counsel; David Sadkin and Paul Weinberger, 
minority counsels; Ellen Rayner, minority chief clerk; Jean 
Gosa, minority staff assistant; and Andrew Su, minority 
research assistant.
    Also present: Ty Cobb and Jack Keeney, counsel to Mr. 
Huang.
    Mr. Burton. A quorum being present, the Committee on 
Government Reform will come to order.
    Mr. Huang, we want to once again remind you, you are still 
under oath.
    We will now resume questioning with Mr. Souder.
    Mr. Souder. I thank the chairman and welcome you again this 
morning.
    Mr. Huang. Thank you, Congressman.
    Mr. Souder. Yesterday, in my last round of questioning, I 
was talking about the Wiriadinatas, Arief and Soraya, and we 
had discussed some the evening event that they attended and 
established that your testimony is that you didn't--you thought 
that they had a large degree of personal money based presumably 
on your knowledge that Soraya's father was Dr. Ning and Dr. 
Ning was a partner, is that correct, of Dr.--or Mr. Riady----
    Mr. Huang. Right.
    Mr. Souder [continuing]. In Lippo, and possibly other 
ventures?
    Mr. Huang. That's right.
    Mr. Souder. And that you were not aware that right before 
they attended the fundraiser that Dr. Ning had wired each of 
them $250,000?
    Mr. Huang. That is correct.
    Mr. Souder. And then they contributed $15,000 each the day 
after they received the $250,000 each, but you weren't aware of 
that?
    Mr. Huang. I was not really aware. I was aware of the 
$15,000 contribution.
    Mr. Souder. Not the $250,000?
    Mr. Huang. That's right.
    Mr. Souder. Now, that was on November 8th, that evening.
    On December 15th, there was a coffee, and did you--were you 
involved in arranging their attendance at the coffee?
    Mr. Huang. Yes, I did.
    Mr. Souder. What was the purpose of their going to the 
coffee? They had just been a month ago to a dinner.
    Mr. Huang. See, they were--they were going to help me 
anyway from the very outset. So that would be an event they 
could help me for that event.
    Mr. Souder. Help you solicit other contributors?
    Mr. Huang. No, no. Further contributions.
    Mr. Souder. In other words, they were going to give you 
multiple contributions?
    Mr. Huang. That's right.
    Mr. Souder. Why wouldn't they have just done that at one 
time?
    Mr. Huang. Because that coffee event did not require for 
the--all the money, more than the--what's required.
    Mr. Souder. And then the records indicate that on December 
11th and December 13th, December 15th and December 18th they 
each gave $25,000, for a total of $200,000.
    Mr. Huang. Congressman, from the very outset I believe the 
couples were willing to help me for a large sum of money in 
aggregate. So subsequent with various events--so the different 
amounts of money coming in--but they were willing to help me 
for all the--much aggregate, higher amount for that.
    Mr. Souder. But why would you have had a pattern--in other 
words, since they were giving on December 11th, December 13th, 
December 15th, December 18th, $25,000, four different times, 
why just not give $100,000? Was there a reason for that?
    Mr. Huang. I could not answer that.
    Mr. Souder. And just for the record, that total is 
$200,000, and they'd earlier given, as we had established, 
$30,000, so that at this point the total is $115,000 each. Now, 
did you have any discussion with them about why they were 
willing to put this much money in? This is pretty extraordinary 
given their fairly middle-class means at this point.
    Mr. Huang. Again, with the assumption they were quite well 
off from my point of view, at very outset they were willing to 
come up with--up to $500,000 for my effort, for my new job. I 
really need that kind of help as well.
    Mr. Souder. Had they ever given contributions like this 
before?
    Mr. Huang. Oh, no.
    Mr. Souder. What made you think that they would in this 
election?
    Mr. Huang. They offered to me.
    Mr. Souder. And they didn't tell you any reason why they 
said they would at this time--we have never given any money 
before but this year we are going to give hundreds of 
thousands?
    Mr. Huang. Well, the reasons--remember, Dr. Hashim Ning was 
ill, in hospital for quite a few months, and then we also 
learned my new job is going to be in DNC as a fundraiser, and 
they more or less, sort of a kind of appreciation from their 
own heart. The type of money they were giving from ordinary 
purpose, a citizen basis, that's quite a lot, but the way I 
understood the people with some means, that really was not 
really that much, in my point of view.
    Mr. Souder. Well, there aren't a lot of $200,000 givers, 
and how many givers did you have that gave $200,000?
    Mr. Huang. Five, roughly, I think.
    Mr. Cobb. Him personally?
    Mr. Souder. Yeah, that you raised.
    Mr. Huang. About four or five.
    Mr. Souder. So that's pretty rare, and what you're in 
essence telling me, as I understand this, that because her 
father was ill and because they had a visit from Mark Middleton 
and a thank you card and because you were now over at the 
Department of Commerce and a friend, they suddenly decided, 
after having never been in politics before, to put hundreds of 
thousands of dollars each in. That's basically what you're 
stating.
    Mr. Huang. That's right.
    Mr. Souder. May I ask----
    Mr. Burton. Without objection, so ordered.
    Mr. Souder [continuing]. To finish this round of 
questioning?
    My concern here is that we find out from the records, which 
you apparently did not know at the time, was that in fact it 
wasn't their money. They received $250,000 from Dr. Ning to do 
these contributions. Because the pattern was that each received 
$250,000, then the contributions started the day after that and 
were moving then for a month or two which is illegal, but 
you're saying you weren't aware of that, which I understand.
    Mr. Huang. Well, the way I understand our culture, some of 
the money might be kept by the head of the family but being 
allocated to the various children. Dr. Ning, I venture to say 
right now, since I said it before, has a few wives, so have 
different children. I think being head of a family probably 
have something planned for themselves as being allocated for 
their money, but this is not unusual in our culture.
    Mr. Souder. I understand what you're trying to say, and I 
even understood yesterday or whatever or day before with Maria 
Hsia when you said people at the temple have a communal pool of 
money, they took the money in. But the fact is when you're 
operating in an American political system, there are laws that 
have to be followed. Because, while that sounds somewhat 
reasonable on the surface, the fact is this is a way that 
billionaires and millionaires can alter the face of American 
politics by having large funds that they suddenly pass through 
to their kids when they want to run for office or for a 
candidate they want to do, they can give it to their children 
in large sums. It's a way to distort our entire political 
process.
    So I'm not arguing that it's not cultural. What I'm arguing 
is that it is illegal because it didn't come from a trust fund 
that was operated by them individually which meant they had 
control over the money. It meant that Dr. Ning had the control 
over the money because he had the right to check, which 
therefore becomes his money, not their money, regardless of 
whether he intended it for them at some point or not. This is a 
fairly standard money laundering thing that happens in 
congressional races, Senate races, Presidential races long 
before you got involved and will probably attempt to be done in 
the future. But these are not small items, and it's hundreds of 
thousands of dollars.
    Now, what--so did you discuss Arief's and Soraya's 
contributions with Mr. Riady at all? Do you know?
    Mr. Huang. About their contribution?
    Mr. Souder. Yes.
    Mr. Huang. At that time or now?
    Mr. Souder. Well, at that time. Because of the size of 
these contributions coming regularly, I think yesterday you 
said that in general you had, but I wanted to get that 
clarified. At this point, rather than just the $15,000 now 
they've each given $115,000. Have you discussed it after the 
coffee with Mr. Riady?
    Mr. Huang. On the event-by-event basis, no.
    Mr. Souder. We are going to--I would like to show a 
videotape of the December 15th coffee, if we could.
    [Videotape played.]
    Mr. Souder. This is the December 15th coffee, and we're 
going to have to get the sound up because you should be able to 
hear Mr. Wiridinata says James Riady sent me.
    Mr. Burton. Can you run the tape back and turn the sound 
up?
    Mr. Souder. And then so at one point Mr. Wiriadinata says 
James Riady sent me, and then if you keep listening to the 
tape, as he speaks to the President, a voice can be heard 
saying we should show tapes of the advertisements to Mr. Riady. 
This sounds like Vice President Gore.
    [Videotape played.]
    Mr. Souder. I will turn off the tape.
    I heard at the end there we should show tapes of the 
advertisements. A lot of the voices were blended, but it's 
clear if you sort the voices out that Mr. Wiriadinata says 
James Riady sent me. Why would he say that?
    Mr. Huang. I don't know. I thought it just one type of 
connections he has. He knows James Riady. Maybe referred, yeah.
    Mr. Souder. Why would then----
    Mr. Burton. You need 5 additional minutes?
    Mr. Souder. Yes.
    Mr. Burton. Without objection, so ordered.
    Mr. Souder. Thanks. Why would the Vice President have said 
we should show tapes of the advertisements to Mr. Riady?
    Mr. Huang. I really don't know, Congressman, no.
    Mr. Souder. Do you think it would be logical and do you 
think that the President and/or the Vice President knew that 
Mr. Ning was a partner of Mr. Riady?
    Mr. Huang. Again, I don't know about that.
    Mr. Souder. Would it seem--did you ever discuss with Mr. 
Lindsey, Mr. Middleton or other key friends of the President 
that Soraya was the daughter of Dr. Ning who's a partner in 
Lippo?
    Mr. Huang. I don't recall I personally did. Definitely not 
Mr. Lindsey.
    Mr. Souder. Would it be very hard for them to learn of 
that? In other words, I know, for example, when I get large 
contributions, which I have never gotten a $200,000 because 
that would be illegal, but $1,000, I would try to find out 
what's this person do? What's their background? Would it not 
seem logical if there aren't that many $200,000 contributions 
that you might try to ask something about them?
    Mr. Huang. Yes.
    Mr. Souder. And why would the Wiriadinatas want to 
establish a connection with Mr. Riady? In other words, in the 
President's eyes, were they in a sense saying we are part of a 
group that's behind Mr. Riady?
    Mr. Huang. That I don't know, Congressman.
    Mr. Souder. Did you counsel them to make any of those kind 
of ties to Mr. Riady?
    Mr. Huang. Counsel them? Them being?
    Mr. Souder. Meaning that, in effect, it strengthens the 
influence of Indonesians because they were Indonesian?
    Mr. Huang. No, I did not, no.
    Mr. Burton. Because you have testified multiple times that 
part of the goal of this was to try to increase Asian American 
influence and the influence of the multiplicity of interest 
because you felt that their voices weren't being heard and this 
was one way for the voices to be heard. It would seem logical 
then to try tie up together that you're part of a group 
together.
    Mr. Huang. No. If that was--No. 1, what you stated that 
that was my purpose, if we cannot achieve that, we can use 
different ways through the different channels to elevate the 
Asian American status and identify the community had raised X 
number of dollars. That's sort of a help to the party or the 
campaign, and the political side can exercise that kind of way 
to do that.
    Mr. Souder. On March 9th in San Francisco there was another 
fundraiser, and were you involved in that at the McFarland home 
in Hillsborough?
    Mr. Huang. I was asked to join in the last probably a few 
days.
    Mr. Souder. Exhibit 378 in our briefing notes has a guest 
list, and page 1 indicates that it's supposed to raise 
$500,000. Did you get involved in the amount that was committed 
for that?
    [Exhibit 378 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.318
    
    [GRAPHIC] [TIFF OMITTED] T6496.319
    
    [GRAPHIC] [TIFF OMITTED] T6496.320
    
    [GRAPHIC] [TIFF OMITTED] T6496.321
    
    [GRAPHIC] [TIFF OMITTED] T6496.322
    
    [GRAPHIC] [TIFF OMITTED] T6496.323
    
    Mr. Huang. Not for that event, Congressman.
    Mr. Souder. In exhibits 379 and 380, there're two more 
contributions from Arief and Soraya dated February 18. Did you 
solicit those contributions for this event?
    [Exhibits 379 and 380 follow:]
    [GRAPHIC] [TIFF OMITTED] T6496.324
    
    [GRAPHIC] [TIFF OMITTED] T6496.325
    
    Mr. Huang. Yes, I did.
    Mr. Souder. How did you receive those checks?
    Mr. Huang. In fact, those checks were in my control, 
Congressman.
    Mr. Souder. Meaning they had given them to you earlier?
    Mr. Huang. Earlier, yes.
    Mr. Souder. Were they dated earlier?
    Mr. Huang. No, much earlier. As you know very well from 
various account already, Dr. Hashim Ning probably passed away 
earlier in that year or the latter part of the previous year. 
So the children had to go back to, you know, to--all the family 
had to get together so they all left. So at the time when they 
left, although they had already given that sum of money you 
just mentioned, but remaining commitment, they made a 
commitment, they gave me the checks. I had a control on all 
those checks. So I have discretion in, you know, allocate the 
money into various events. So I was using that.
    Mr. Souder. Why did you allocate it to this event?
    Mr. Huang. Because the whole event, the McFarland event 
apparently, based on my understanding, although that's the name 
for--you mentioned a number of $500,000, probably did not 
achieve the goal based on the best estimate. So they need a lot 
of people to help. So I was one of them to, you know, answer--
to come in with some contribution.
    Mr. Souder. So to some degree you were holding Arief's and 
Soraya's contributions to fill gaps whenever you felt there was 
a shortage and it might look bad. You'd just stick checks from 
them in and then say, hey, will you go to this event?
    Mr. Huang. It is exactly--you put it better words than I 
could find, yes.
    Mr. Souder. In the--on May 13, 1996, there was another 
event. They contributed $100,000 in four different checks of 
$25,000 each. That is this same----
    Mr. Huang. Same concept yes.
    Mr. Souder. On June 9th, the Feinstein dinner, that in 
addition to yourself, I may not pronounce this name X-I-A.
    Mr. Huang. Xia.
    Mr. Souder. Xiaoming attended this. He's the head of Asian 
securities, and a number--he's also listed as entering the 
White House on the 6th. Now, were you involved in this 
fundraiser at the home of Senator Feinstein?
    Mr. Huang. I was not involved in the organizing fundraiser. 
I was there just to have Mr. Dai join in--to participate in 
that event.
    Mr. Souder. And your testimony is that the same thing here 
where there were two contributions of $25,000 each and then 
another one from Arief attached to the Feinstein event, it was 
part of the filling in?
    Mr. Souder. Right.
    Mr. Souder. Why was Dai at this event?
    Mr. Huang. He was--I believe was a partner with the Lippo, 
and he happened to be in the United States, and I was referred 
there might be interest for him to join in on that.
    Mr. Burton. The gentleman's time has expired.
    Does anybody have any questions at this time?
    Mr. Shays. I am happy to yield to my colleague.
    Mr. Burton. If not, without objection, we will yield you 5 
additional minutes.
    Mr. Souder. Did--was $25,000 the amount of letting somebody 
in to the event?
    Mr. Huang. I believe that was. That's the ticket amount, 
yeah.
    Mr. Souder. And so the third ticket was for Mr. Dai?
    Mr. Huang. You talking about the June one?
    Mr. Souder. Yes, June 9th.
    Mr. Huang. I believe so, and myself I think.
    Mr. Souder. So he didn't give any money. He used one of 
their----
    Mr. Huang. That is correct.
    Mr. Souder [continuing]. In effect as a pass. The Asian 
Wall Street Journal reported in 1994 that the Bank of China 
bankrolled his purchase of the Lippo Group share of Asian 
securities. Do you know if that's true?
    Mr. Huang. I don't know about that.
    Mr. Souder. Did you ever discuss him with the Lippo Group?
    Mr. Huang. Except I mentioned to you he might have been a 
partner with the Lippo or purchased some interest from Lippo. 
That's about all to the extent I knew about that.
    Mr. Souder. Did you discuss his attendance at this event 
with anybody from Lippo? Did anybody from Lippo call you and 
say, hey, he's over in the country, we'd like him to come to 
this event?
    Mr. Huang. Mr. James Riady is indicating he might be in 
town, and that's why I commented on that.
    Mr. Souder. So Mr. Riady called you and said, we would like 
this gentleman.
    So did Mr. Riady feel that to some degree--in your opinion, 
were you doing this as a favor to Mr. Riady or do you believe 
Mr. Riady felt that to some degree, if the Wiriadinata's money 
was there, he could call to have it used for somebody with his 
organization?
    Mr. Huang. I was doing favor to Mr. Riady.
    Mr. Souder. And that--did you consider this unusual at all?
    Mr. Huang. No.
    Mr. Souder. And I know that you're almost a perfect 
practitioner of the administration. They have a frustration 
with this in other areas, but clearly, you're a perfect 
practitioner of don't ask, don't tell, but still I am going to 
ask you this question.
    Did you ask why he wanted him to come to this event?
    Mr. Huang. I suspect probably it's going to be good for Mr. 
Riady.
    Mr. Souder. But you don't know how it was going to be good 
for Mr. Riady?
    Mr. Huang. No.
    Mr. Souder. Because this person was bankrolled by the Bank 
of China to come into the Lippo Group for their share of Asian 
securities, but--OK, let me ask you one more.
    July 22, 1996, once again, Soraya contributed $25,000 to 
this event. I assume it's the same thing. Did you tell them 
when you were putting the money in for the different events or 
call and invite them to come? How did that pattern work?
    Mr. Huang. No. I had a full control over these checks 
anyway. As a situation arises, I just use my own discretion to 
utilize those funds.
    I don't know what the July 22nd event was about. 
Congressman, can you tell me what that would be?
    Mr. Souder. I don't know either. Let me ask. Mr. Riady was 
at the event apparently, and he sat at the head table on July 
22, 1996.
    Mr. Huang. That's the Los Angeles one?
    Mr. Souder. Yes.
    Mr. Huang. It was?
    Mr. Souder. Yes.
    Mr. Huang. In Century City?
    Mr. Souder. Yes, I assume.
    Mr. Huang. Yes.
    Mr. Souder. So, once again, because you had control of 
these contributions and you viewed--apparently you viewed these 
contributions as--it is hard for me to understand because they 
gave the money, in effect, after Dr. Ning passed away. You said 
they went back to Indonesia but they had given you the checks 
before they left the country.
    Mr. Huang. Right, with the intention to come back, though.
    Mr. Souder. Oh, with the intention to come back?
    Mr. Huang. Right.
    Mr. Souder. But you're under control of these to be used at 
your discretion in the way that you would feel that it would 
have the maximum influence for what--to influence the 
President, to benefit friends, to benefit Mr. Riady?
    Mr. Huang. The main purpose is because this--this was the 
first time I become a fundraiser in DNC; and also, I have 
personally set a mission of trying to do something for the 
Asian--Asian American community, but when I do event, there's 
no assurance that each event is going to be a successful one.
    For instance, there might being a shortfall situation. It 
is always nice to have some larger supporter's money sitting 
like a reserve type of thing just in case there's shortfall, so 
you can utilize the funds to come in to make up the numbers. 
That was a key intention on that. But along the lines, 
certainly it may come in and a certain person might be 
interested in coming; and I had the discretion to say, you'll 
become the number. The money is already there.
    Mr. Souder. I understand the concept that you're putting 
forth on the control of the money, but what it does appear to 
be a pattern of is not so much a pattern of just helping the 
Asian community, because the Asian--it appears to be a pattern 
of helping Mr. Riady, because we started with the tape where--
that Arief and Soraya are saying Mr. Riady sent us.
    Then the Vice President saying, show him the commercials.
    Then we have the gentleman from--Mr. Dai, who Bank of China 
bankrolled his share of Asian securities from Lippo Group, 
that--then we have Mr. Riady at a head table. So the continuity 
that we see through this is Mr. Riady. Is that because you 
believe Mr. Riady was the best way to influence the interests 
that you were advancing, because he didn't invite these kinds 
of random Asian Americans with the money.
    Mr. Huang. It's not--at least this is not the thoughts I 
have, he was not really the best person to influence the 
President. I would not question the Riadys probably getting the 
benefit out of that, but from very outset this person was 
referred by Mr. Riady. So in my mind, in that period of time, 
the situation arises it just happened that way.
    Mr. Souder. Thank you. But it does--the records, looking 
historically back now, do show that the money wasn't only that 
they were influenced through Mr. Riady. The fact is that the 
money to them that was then given for your control came from 
his partner, which you did not know at the time, according to 
your testimony; but in fact, it does look like money came 
through, and the way it followed through fits that.
    Mr. Huang. Congressman, in terms of money part, even at 
this stage, I still don't have any reason, you know, to believe 
that's not their money, even at this stage, but----
    Mr. Souder. We showed yesterday an exhibit that there was--
--
    Mr. Burton. Without objection, the gentleman will get 5 
additional minutes.
    Mr. Huang. I understand what you're saying.
    Mr. Souder. In your mind, it's their money and her father 
was just holding it, but that's not the law.
    Mr. Huang. I understand what you're saying. Maybe we're 
talking from different angle on that basis. At this moment, I 
did not know at that stage that was that way.
    Talking about the relationship for influencing by the 
Riady, Mr. Riady has already known Mr. President ever since the 
Arkansas time. So I don't think that every instance is 
influencing on that basis.
    Mr. Souder. So----
    Mr. Huang. They were friends already.
    Mr. Souder. But they were--so he was giving him these--
well, he--in other words, it doesn't particularly comfort me 
that he was influencing him from the time he was back in 
Arkansas, but that at the same time he rode in the limousine--
he wanted the time to give him $1 million.
    We went through with Mr. Hubbell, where he bailed out as a 
friend predominantly with some job attachments, that he had 
multiple meetings with Mark Middleton, several of which were 
social. But clearly by the third one where he was separate with 
more than just a social visit, because he had multiple visits 
the day that--some of it, there's no doubt that some of this, 
that anybody is attracted to kind of the power, prestige of an 
administration. You like to go visit, bring your family. That's 
fairly standard.
    But this is beyond that, and you acknowledged at the very 
beginning that he had a multiplicity of interests. I mean, Mr. 
Riady was China Energy at one point, that--when we talked 
yesterday briefly about the coal interest, the island where at 
least one--there's two companies there. We know he has interest 
in one. We don't know the other. Appears to be now since 
Escalante National Monument off from coal mining appears to be 
the largest coal reserves in the world of this nonpolluting 
coal or not as much polluting coal. So that's another interest.
    We are still sorting through what other kinds of banking 
interests there are. So while they are friends, you 
acknowledged at the beginning he has a multiplicity of 
interests here, it is not just a friendship.
    Mr. Huang. You're absolutely correct, yes.
    Mr. Burton. Would the gentleman yield briefly?
    Mr. Souder. Yes, I will yield.
    Mr. Burton. I don't think this ought to be fuzzied up. 
Yesterday you were asked a question by Eleanor Holmes Norton, 
and that question, she asked you whether or not there was 
influence being acquired, so to speak, from these--from these 
contributions, and you downplayed the benefits to the Lippo 
Group from the million dollars in contributions that were made 
after the limousine ride.
    We looked at your 302s, your FBI 302s. I want to read to 
you what the FBI said that your statement was. This is on page 
5, and it says,

    James Riady was more active than Huang in politics at the 
time Huang made his first contribution in approximately 1987. 
Huang advised that in the banking business it was necessary to 
establish numerous contacts. Such contacts were important in 
order to drum up business for the Lippo bank. The philosophy of 
the Riady family was that if people attended functions they 
would get to know more people, which would help them personally 
and in business.
    Huang explained that people who do business need political 
contacts. The U.S. was a very powerful country and other 
countries pay attention to what happens in the U.S. It is 
important for foreign businessmen to establish contacts or 
links in the U.S. Foreign businessmen who maintain political 
contacts in the U.S. are highly regarded in foreign countries. 
For instance, a foreign businessman would be highly regarded in 
his country if he is seen greeting a U.S. senator in a familiar 
manner.
    Although Huang doesn't recall a specific conversation with 
James Riady concerning the above, Huang was certain--certain 
that he had a conversation with James Riady at some point in 
time about this.

    Now, the impression that you're giving in the line of 
questioning is, you know, that there really weren't any ties to 
all of this. The fact of the matter is, Mr. Huang, they did 
expect that this was going to result in some positive results 
for them because they got to know great leaders like the 
President by giving them a lot of money. Now, isn't that the 
case?
    Mr. Huang. Mr. Chairman, I agree 100 percent what you just 
read out of the 302, the concept of benefit going to get, but I 
didn't believe what Mr. Souder was referring in the way, you 
know, you were characterizing that.
    Mr. Burton. Well, I think----
    Mr. Huang. They are going to get benefit, that's no doubt. 
It's also multiple interests on that, and they are going to 
benefit on that.
    Mr. Burton. So what Mr. Riady and you were trying to 
achieve through these large contributions were access, No. 1, 
and No. 2, to become very friendly so that if a decision needed 
to be made, you would have a very good connection with whoever 
it was?
    Mr. Huang. No. Through all these events, the other very 
major things which you just refer in the 302, by meeting with a 
lot of business people, you know, those people can become big 
donors. They are also some big businessmen that create 
opportunity for them and know them and probably will have joint 
ventures being made in the Asia. Those become business benefit, 
at least conceptually that was done on that.
    Mr. Burton. The philosophy of the Riady family was that if 
people attend functions, they would get to know more people, 
which would help themselves personally and in business.

    Huang explained that people who do business need political 
contacts. The U.S. was a very powerful country and other 
countries pay attention to what happens in the U.S. It's 
important for foreign businessmen to establish contacts or 
links in the U.S. Foreign businessmen who maintain political 
contacts in the U.S. are highly regarded in foreign countries.

    So you expected to benefit and the Riadys expected to 
benefit from these contacts?
    Mr. Huang. One of the things I need to--what you did not 
read probably is buried in what my thoughts was in what you 
just read out of the 302.
    The thing about it is, the Riady family, they are Chinese 
Indonesian, they're overseas Chinese. You know, looking back in 
the histories, many businessmen in those South Asian countries, 
because of the lack of political ties, whatever routine 
changes, whatever they have accomplished, however successful 
they were in the business side can turn around to nothing on 
that. So one way to--I assume they were trying to do, if they 
have some ties with the United States in a daunting way, that 
will portray them much better domestically in the various 
countries they resided in.
    That's the thoughts I really did not mention. That would be 
the benefit.
    Mr. Burton. If the gentleman will continue to yield, we 
will grant him 5 additional minutes, but let me go on to the 
next paragraph then.
    It says,

    The transition from Huang's first contribution to the time 
when he began making numerous contributions to various 
campaigns began when Huang became involved in the community and 
began working with community leaders. Huang began to receive 
telephone calls requesting that he raise money for various 
candidates.
    At the time, Huang's primary goal was to get the 1990 
immigration bill passed--to get the 1990 immigration bill 
passed. However, Huang's contributions were also intended to 
benefit Lippo Group in the long run. Huang used his own money 
to pay for the contributions because making such contributions 
was part of his job at Lippo Group due to his expected 
involvement in community relations.

    But you told us that you were reimbursed for those.
    Mr. Huang. Right.
    Mr. Burton. So that did come from the Lippo Group.

    There was an understanding that Huang would support Lippo 
Group by making contributions. This understanding was evidenced 
by the dollar amount Huang received for his bonuses. It was 
part of Huang's job performance to make these contributions.
    Huang submitted written reports to James Riady perhaps 
annually listing who Huang had contributed to and the dollar 
amounts of such contributions. Sometimes Huang had discussions 
with James Riady regarding the candidates who received 
contributions. Although Huang and James Riady did not 
explicitly discuss Huang being reimbursed for the contributions 
listed on the report, Huang knew that he would be taken care 
of, ``for doing such a good job which was reflected in Huang's 
bonuses.''

    So the fact of the matter is that you were trying to get 
the immigration bill passed and you felt like and I presume the 
Riadys felt like large contributions to the right people would 
help get this done.
    Mr. Huang. That's a part of the interests, you know, the 
multiple interests in that. That's one of the interests.
    Mr. Burton. I know, but the point is, I think what Mr. 
Souder was trying to make and I think he's made it very well is 
that there was a pattern here. You give money, you get access, 
you give money to the right people, and things start to move 
the way you want them to move, and that was what you were 
concerned about.
    Mr. Huang. There's--Mr. Chairman, what you said was true on 
that, but there's some distinction. Mr. Souder was talking 
about in 1996 that he related to Arief or Soraya.
    Mr. Burton. I understand.
    Mr. Huang. But what you're talking about was 1992 to 1994 
when I was at Lippo at the time. But conceptually, basically 
that's correct.
    Mr. Burton. Mr. Souder.
    Mr. Souder. I yield back.
    Mr. Burton. Mr. Souder yields back the balance of his time.
    Mr. Shays.
    Mr. Shays. Mr. Chairman, I'm happy to yield my time to Mr. 
LaTourette.
    Mr. LaTourette. Thank you very much, Mr. Shays.
    I only need about 5 minutes in this round, I think, to 
clear up, Mr. Huang, where we were yesterday and just to 
refresh your memory and sort of give myself a reprise, too. We 
were talking about the coffee at the White House that we now 
call the John Huang coffee at the White House on June 19, 1996; 
and I think where I left off and maybe where the hearing closed 
yesterday was, there were a few late invitees to the coffee. 
And specifically, let me read you again what one of them had to 
say after the Democratic National Committee chair, Mr. Fowler, 
indicated that the 1996 election was just as important as the 
1860 election wherein Abraham Lincoln became our 16th 
President, which--I think that came as a little surprise to me, 
and probably to most Americans, that the election, the re-
election of William Jefferson Clinton was as significant in 
history as the election of Abraham Lincoln.
    But be that as it may, they then indicated that you, as the 
DNC vice chair for finance, stood up and said, ``Elections cost 
money, lots and lots of money, and I'm sure that every person 
in this room will want to support the reelection of President 
Clinton.''
    Now, I understand that--and again I read you the names of 
not only Karl Jackson, Clarke Wallace, but also R. Roderick 
Porter and John Taylor indicate that that observation was made 
in the White House at the time of this function; and I think 
you understand what's troubling about the statement. There's 
two things: that there was nobody at that coffee except for 
people who worked for the DNC or people who were invited who 
you acknowledged yesterday weren't going to give donations. 
There was no one who could lawfully contribute to the President 
of the United States at that coffee. That's the first thing 
that's troubling.
    The second thing that's troubling is this whole notion of 
soliciting campaign cash at the White House, the White House 
owned by the people of the United States.
    But I would--you have had over night to think about it and 
I indicated to you that everybody has filed affidavits, 
testified under oath, and in fact, that's what you did at that 
occasion, and I ask you again if having reflected on it over 
the last 8 hours, is there anything you want to add to your 
statement?
    Mr. Huang. No, I do not.
    Mr. LaTourette. Now, we were talking about Pauline 
Kanchanalak, and one thing as I was reviewing notes last night, 
is apparently Ms. Kanchanalak, her checks say P. Kanchanalak, 
and somewhere she's made the allegation that that is really her 
mother whose initial--did you ever see her mother at any of 
these functions? Is her mother a donor to your knowledge?
    Mr. Huang. I might have been introduced on one occasion at 
a very large fundraising event, being introduced one Thai lady 
as her mother-in-law or something like that.
    Mr. LaTourette. OK. Well, understanding that you didn't say 
that campaigns cost lots and lots of money and everybody should 
support the President, regardless, the coffee on June 18th did 
raise lots and lots of money, at least lots and lots of money 
was credited as a result of that coffee, and Pauline 
Kanchanalak is credited with giving $135,000 to the DNC at that 
event, and her sister-in-law--is it Georgie Kronenberg, is that 
her name?
    Mr. Huang. Yes.
    Mr. LaTourette. All right. Gives $50,000 as a result of 
that coffee. Where did you--where and when did you receive 
their checks of $135,000 and $50,000 for the coffee?
    Mr. Huang. There was a series of checks coming in at a 
different time. I really could not put into sequence. I do know 
that some of the checks I went to the office, her office to 
pick it up.
    Mr. LaTourette. And do you know the original sources of 
where the funds for these contributions came from?
    Mr. Huang. I do not know.
    Mr. LaTourette. If you could look in your book, the other 
thing that was going on that I think bothers me just as much as 
this whole notion of illegal money coming to the Democratic 
National Committee is at the same time illegal money is going 
to Democratic party organizations in the various States, and 
directly following this--well, at about this time, Pauline 
Kanchanalak and her sister-in-law Georgie Kronenberg are also 
writing some checks to State Democratic organizations, are they 
not?
    Mr. Huang. That's correct.
    Mr. LaTourette. OK. If I could turn your attention to 
exhibits 446 through 450, I think you will find that these are 
checks made out by Pauline Kanchanalak to--the first one is to 
the Florida Democratic party for $35,000; the Illinois 
Democratic party for $25,000; one that I find particularly 
obnoxious, the Ohio Democratic party for $33,000; and the 
Pennsylvania Democratic party for $25,000. Now, do you know was 
Pauline Kanchanalak just a lover of the States or how did 
these--how is it that a major national donor, who is at a 
coffee at the White House and is contributing gobs of money 
illegally to the President of the United States' re-election, 
how does such a person become interested in making a donation 
of $33,000, for instance, to my home State and to the State of 
Ohio Democratic party to be used for--I mean, let's be clear 
about this. This money is to be used for Democratic party 
building activities within the State of Ohio, not tied directly 
to the elections or reelection of the President of the United 
States but to be used in races for State representative, 
Governor, Secretary of State, Ohio Attorney General. I mean 
this woman through these illegal contributions is not only 
tainting the reelection process of the President of the United 
States, but she wants to have a hand in the election of 
everything from President to dogcatcher. Now, how did these 
checks get written?
    [Exhibits 446, 447, 448, 449, and 450 follow:]
    [GRAPHIC] [TIFF OMITTED] T6496.326
    
    [GRAPHIC] [TIFF OMITTED] T6496.327
    
    [GRAPHIC] [TIFF OMITTED] T6496.328
    
    [GRAPHIC] [TIFF OMITTED] T6496.329
    
    [GRAPHIC] [TIFF OMITTED] T6496.330
    
    Mr. Huang. OK. First of all, Ms. Kanchanalak expressed to 
me she was a bit concerned because she was written in magazine 
called--that's called Mother Jones. There's a----
    Mr. LaTourette. I'm familiar with Mother Jones.
    Mr. Huang. So her name was mentioned over there. She did 
not--you know, she prefers to keep a little bit lower profile, 
and she suddenly have all the money, a very large sum of money 
appearing on the report. She felt less comfortable, is there 
any way, you know, can spread that things out, and I ventured 
to check with DNC and so have this money be reallocated to 
various State party.
    Mr. LaTourette. OK. So let me get this straight. So Mother 
Jones writes an article and Pauline Kanchanalak shows up as 
what, 1 of the top 10 givers to the Democratic party in the 
country on some list?
    Mr. Huang. Whatever the ranking will be, yeah, her name was 
on the list.
    Mr. LaTourette. She's a big player, and so she says how can 
I not be so obvious to Mother Jones and other people that are 
interested in this?
    Mr. Huang. She was concerned about that, yes.
    Mr. LaTourette. Could I ask unanimous consent for just 2 
more minutes, Mr. Chairman?
    Mr. Burton. The gentleman needs additional time?
    Mr. LaTourette. Just a couple of minutes.
    Mr. Burton. Without objection, the gentleman is yielded 5 
additional.
    Mr. LaTourette. Thank you, Mr. Chairman. So she comes to 
you with this problem, she says listen, I don't like being--I 
was in Mother Jones once and I didn't like it very much either, 
to tell you the truth--so she comes to you and says how can I 
get off this Mother Jones list?
    Mr. Huang. She expressed concern during conversation with 
me, yeah.
    Mr. LaTourette. And so you then go to the DNC and say 
Pauline Kanchanalak, who we know is high maintenance already 
based upon some things you said yesterday, wants to get off 
Mother Jones' contributor list and how does she do that, and 
someone says to you, well, rather than writing one big check 
for $1 million, she can write a bunch of little checks to State 
party organizations. Is that how that works?
    Mr. Huang. Well, I may even suggest, is there any other 
avenue we might be able to accommodate, for instance, the State 
party on that.
    Mr. LaTourette. How did the States get picked? I mean, for 
instance, did you tell her to write a $33,000 check to my home 
State of Ohio?
    Mr. Huang. No, I did not. The States name came out from 
DNC.
    Mr. LaTourette. How did she know how to make the check out?
    Mr. Huang. Through me. DNC sort of identified what--you can 
have a check issued to Florida State Democratic party for 
whatever amount, for the other State Democratic party for what 
amount.
    Mr. LaTourette. So the Democratic National Committee not 
only told you who should she write the check to but--because 
they are different amounts. I don't know whether, you know, she 
maybe doesn't like Illinois as much, they only got $25,000. 
Ohio got $33,0-00 and Florida gets $35,000, but all those 
numbers were supplied by the DNC as suggestions for Pauline 
Kanchanalak, who we now know is a Thai citizen, not eligible to 
participate in any election in this country, that she should 
write these checks to those organizations, right?
    Mr. Huang. I believe so, yes.
    Mr. LaTourette. Around likewise, her sister-in-law Georgie 
Kronenberg, the next set of exhibits I think run from 452 to 
456, are checks that Georgie Kronenberg writes to State 
organizations, and I think they are pretty much the same, and 
again, what I find particularly obnoxious is that among these 
is another illegal contribution of $20,000 to the Ohio 
Democratic party, and did that work the same way?
    [Exhibits 452, 453, 454, 455, and 456 follow:]
    [GRAPHIC] [TIFF OMITTED] T6496.331
    
    [GRAPHIC] [TIFF OMITTED] T6496.332
    
    [GRAPHIC] [TIFF OMITTED] T6496.333
    
    [GRAPHIC] [TIFF OMITTED] T6496.334
    
    [GRAPHIC] [TIFF OMITTED] T6496.335
    
    Mr. Huang. A similar way, yes.
    Mr. LaTourette. That you went to the DNC. Was Georgie 
Kronenberg somehow on the list of Mother Jones, too?
    Mr. Huang. I was not sure about her name though, sir.
    Mr. LaTourette. And this process isn't unusual, is it? I 
mean, this, this isn't--these aren't the only two people that 
this is done for? In other words, you would go and receive a 
list of State Democratic organizations and dollar amounts for 
other large donors, and the DNC would give you that?
    Mr. Huang. It happened to me a few times. As I report to 
you, Mr. Chairman, on Mr. Riady you brought up, remember Mr. 
Riady also in 1992 time wrote some checks to the State party. 
So we had some precedent. So personally I have some experience 
on that.
    Mr. LaTourette. OK. Based upon what we now know today and 
on the December whatever it is, 1999, about Pauline 
Kanchanalak's immigration status at the time that she was 
writing these checks, not only the $135,000 that she gave as a 
result of the coffee, the John Huang coffee on June 18th, but 
also these checks she wrote to State organizations, all of 
these contributions are illegal. You do know that, today, they 
are illegal?
    Mr. Huang. Assuming the reports are accurate. I did not 
really----
    Mr. LaTourette. Assuming the reports are that she isn't a 
citizen and was not a citizen?
    Mr. Huang. That's right.
    Mr. LaTourette. And I mean, is there some question in your 
mind about that?
    Mr. Huang. I don't know because from very outset I thought 
she had at least green card status.
    Mr. LaTourette. Thank you, Mr. Huang.
    Mr. Burton. Would the gentleman yield?
    Mr. LaTourette. Could I make a request of the Chair? I 
know, Mr. Chairman, during the course of this discussion there 
was some talk about the Democratic National Committee returning 
a million six or a million eight out of the $3.4 million, but 
this is a whole other layer to me of illegal activity that 
occurred as a result of this fundraising operation, and I would 
really appreciate if the counsel or someone on the committee 
could report back to the committee how much of the money that 
was raised illegally and sent directly to the State parties to 
beat Republican State representative candidates, Governor 
candidates, county commissioner candidates, Members of 
Congress, whether or not the Ohio Democratic party, for 
instance, returned these illegal contributions, whether or not 
the Pennsylvania Democratic party returned these illegal 
contributions, and I would hope that we could get to the bottom 
of that and have a report. I'm sorry, I have a little work but 
I had some friends lose in that election, and now we find out 
that they lost because people were cheating, and I think that 
that's unfortunate, and I'd be glad to yield to the Chair.
    Mr. Burton. I appreciate the gentleman yielding, and I will 
instruct the committee staff to look into that to find out if 
any of those contributions were returned. Could I ask that the 
gentleman be given an additional 5 minutes. Without objection, 
we will give the gentleman an additional 5 minutes and I 
appreciate your yielding to me.
    The reason I wanted you to yield to me is that Mr. Huang 
said that he did not know Pauline Kanchanalak was a U.S. 
citizen at the time and therefore it was illegal for her to 
give contributions to State parties. However, and I think you 
have already alluded to this, James Riady in 1992 had gone back 
to Indonesia. He did have a home here and he did have a green 
card, but he was living in Indonesia, and so it was not legal 
for him, according to the law, as far as we know, for him to 
give contributions to State parties or to candidates for 
Federal election, and in August 1992, he gave $5,000 to the 
California Democrat party. August 13th he gave to the DNC 
$15,000. September 30, 1992 he gave $75,000 to the Michigan 
Democrat party. October 5th he gave $75,000 to the Ohio 
Democrat party. He gave $5,000 to the Arkansas Democrat party 
on October 8th. He gave $75,000 again on October 8th to--maybe 
it was the 27th to the Arkansas Democrat party. He gave on 
October 12th $75,000 to the Louisiana Democrat party.
    His wife Aileen Riady on August 13th gave $5,000 to the 
California Democrat party, and on August 17th or 13th to the 
DNC $15,000. On August the--or October 8th she gave $5,000 to 
the Arkansas Democrat party. On October 12th she gave $50,000 
to the Georgia Democrat party, and on October 15th she gave 
$50,000 to the North Carolina Democrat party.
    Now, I assume, Mr. Huang, he didn't know which parties, 
State parties those money should go to. Whose idea was it to 
make contributions by Mr. Riady to these State parties?
    Mr. Huang. To the best of my knowledge, at the time I 
arranged through the DNC at that time.
    Mr. Burton. Were you involved in any way in that? I mean, 
were you helping him with that?
    Mr. Huang. Yeah, I would facilitate through giving the 
names of the State party.
    Mr. Burton. So you were talking to the national Democrat 
party saying where does he want the money to go?
    Mr. Huang. That's correct.
    Mr. Burton. Were you talking to the White House as well 
about that?
    Mr. Huang. No.
    Mr. Burton. Were you talking to the candidate for 
President, Mr. Clinton about that?
    Mr. Huang. No.
    Mr. Burton. You're sure about that?
    Mr. Huang. I'm sure about that.
    Mr. Burton. OK. Did you receive instructions directly from 
someone at the DNC or elsewhere on where you should direct the 
contributions?
    Mr. Huang. I was working with the lady called Mary Leslie 
at that time.
    Mr. Burton. Mary Leslie, so was she the one that was 
directing where these contributions were going?
    Mr. Huang. Yeah, but I don't know where she get that 
information from.
    Mr. Burton. But she was telling you where you ought to send 
the money?
    Mr. Huang. Yeah.
    Mr. Burton. Did she know that Mr. Riady was living in 
Indonesia?
    Mr. Huang. She might. I don't know.
    Mr. Burton. Well, if she knew that Mr. Riady was living in 
Indonesia then she must have known it was illegal. Did you tell 
her Mr. Riady was living in Indonesia?
    Mr. Huang. I suspect she might, might be knowing Mr. Riady 
was traveling back and forth, basically, the way I know that 
Mr. Riady and Mrs. Riady had the green card at that time.
    Mr. Burton. Did you--but he was living in Indonesia. I 
mean, it's pretty clear, we have checked the records. His 
permanent residence was Indonesia. He had a house in 
California, and he did travel back and forth, and he did have a 
green card, but the law is that he was living in Indonesia at 
the time.
    Mr. Huang. Mr. Chairman, that may be your conclusion or 
that you may be right on that, but I was operating under the 
situation is they both have a green card, they were able to 
give.
    Mr. Burton. Did you give instructions directly to James 
Riady after you talked to this lady Ms.--what's her name again?
    Mr. Huang. Mary Leslie.
    Mr. Burton. Mary Leslie--as to which States to direct the 
contributions to or did anyone else directly deal with him to 
tell him where to send the money?
    Mr. Huang. I did tell Mr. Riady and--about various entity 
of the checks to be written.
    Mr. Burton. Do you know where he was when he wrote the 
checks? When he wrote the checks where was he?
    Mr. Huang. It's very hard for me to pin down where--
sometimes he might be over the other side, sometime he might be 
here.
    Mr. Burton. So sometimes he was in Indonesia when he wrote 
the checks?
    Mr. Huang. It's very possible, yes.
    Mr. Burton. And then sometimes it was when he was here?
    Mr. Huang. That's correct.
    Mr. Burton. Did you or James Riady directly discuss these 
contributions or was someone else from the White House or the 
DNC involved?
    Mr. Huang. No, no.
    Mr. Burton. It was just between you and the DNC?
    Mr. Huang. That's correct.
    Mr. Burton. And Mr. Riady?
    Mr. Huang. That's correct.
    Mr. Burton. But to your knowledge, nobody from the DNC 
contacted Mr. Riady directly, it was you?
    Mr. Huang. That was, that was correct, sir.
    Mr. Burton. OK. Mr. Waxman.
    Mr. Waxman. Mr. Chairman, my colleagues and Mr. Huang, just 
on Mr. Riady, if he had a green card, that means he's, as I 
understand, legally able to give a contribution even if he 
travels and spends most of his time in another country. Was 
that your understanding?
    Mr. Huang. That was my understanding, yes.
    Mr. Waxman. And the chairman seems to think otherwise. I 
don't know, you say he may be right, I don't think he's 
correct, but since we all have a question of opinion on this 
matter, it's not hard for me to see how Mary Leslie--what was 
her position?
    Mr. Huang. I think she was the finance director at least 
for California at that time.
    Mr. Waxman. How she or you or some others might not know 
whether the contribution from Mr. Riady was illegal or not. You 
presume it's legal unless you have some indications otherwise.
    I was pleased that my colleague Mr. LaTourette raised the 
issue of contributions to State parties, and I think we ought 
to look at that, but I do want to point out, again, that the 
issue isn't just on the Democratic side. There was a 
contribution from a Thomas Kramer on July 18, 1997. He was a 
German national and he was fined $323,000 by the Federal 
Election Commission for making illegal foreign campaign 
contributions. This was the largest fine ever imposed by the 
FEC on an individual. Mr. Kramer contributed more than $400,000 
to Federal, State and local campaigns during the 1994 election 
cycle, including $205,000 to the Florida Republican party. The 
Florida Republicans were fined $82,000 by the FEC for accepting 
Mr. Kramer's contribution but still refused to return $95,000 
of the contribution.
    We have another instance of a Mr. Kojima, who was called 
America's worst deadbeat dad by the LA District attorney's 
office. He contributed $598,777 to the Republican party during 
the 1992 election cycle, including $500,000 to the President's 
dinner, which bought him a seat at President Bush's table, and 
there are a lot of instances--was he fined? The money for one 
$100,000 contribution was written on an account that would have 
had insufficient funds but for a wire transfer from a foreign 
corporation that was received before the check cleared. Mr. 
Kojima brought five Japanese businessmen to the dinner. It's 
been reported that these businessmen paid Mr. Kojima as much as 
$175,000 each to attend the event. In return for Mr. Kojima's 
contributions the RNC arranged for 10 meetings between Mr. 
Kojima and U.S. Embassy personnel in Asia and wrote at least 15 
letters on Mr. Kojima's behalf. At the time of the 
contribution, Mr. Kojima was almost $1 million in debt for 
failure to pay child support or his business creditors.
    That second example was not particularly an example of a 
State party contribution, but both of these are two examples of 
Republican party fundraising abuses and involved foreign 
contributions.
    Mr. Burton. Would the gentleman yield? Was he fined?
    Mr. Waxman. I don't think so. I don't know, but I don't 
think so.
    If I might continue what I have to say, this committee 
hasn't shown any interest in looking at these Republican 
foreign contributions into their party. They haven't shown any 
interest in looking at why the Florida Republican party didn't 
give back that $95,000. Mr. LaTourette suggested appropriately 
that we look at this matter, but if we're going to look at it, 
we ought to look at it in a clear, nonpartisan, fair manner. 
But this investigation has not been conducted on that basis. 
What we have today and yesterday and the day before, now that 
we have Mr. Huang here, is an interrogation that is really 
quite unprecedented, going over and over and over issues on 
what can't help but be described as a fishing expedition.
    I described a couple of days ago when we started this 
hearing the six phases of the investigation--because we settled 
into a pattern in this committee of six phases. Phase one is a 
false accusation and then there are headlines. And then the 
accusations are not supported by any facts. Then there's a 
claim that there's a cover-up. ``There's stonewalling. That's 
why we're not getting the facts.'' And, after that, we get 
information from those who are presumably stonewalling. They 
give the information and there's a clear indication that the 
facts weren't there to support the original allegation. And 
then we have the next phase which is a new accusation that's 
also false.
    I'd like to ask for 5 additional minutes.
    Mr. Burton. Without objection, so ordered.
    Mr. Waxman. Usually that plays out over a period of months. 
Well, I think we can see that having played out over the course 
of just 3 days.
    Mr. Huang was accused of being the linchpin of this whole 
conspiracy to sell United States confidential information to 
the People's Republic of China. He was accused of laundering 
money from China, and the President knew about it and was part 
of the conspiracy. The Vice President knew about it and was 
part of the conspiracy. Mr. Huang was asked these questions 
directly over the course of these last couple of days, and he's 
clearly said, no, the President didn't know anything about it. 
The Vice President didn't know anything about it. He was not an 
agent of the Chinese Government. He did not engage in any 
espionage. He didn't give any confidential classified 
information to either the Lippo Group or the Chinese 
Government. That meant those accusations turned out to be 
inaccurate.
    What do we have now? A new inquisition. Yesterday, Chairman 
Burton came in. Since the facts didn't support his original 
series of inflammatory allegations, he came back with a new 
one. The new one was that Janet Reno refused to ask the 
President questions about foreign contributions. And he said 
this is an outrage, that this didn't happen, and the press 
picked it up. Washington Post: ``Representative Burton 
criticizes Reno: fundraising probe not thorough on roles of 
Clinton and Gore.'' I don't criticize the Washington Post for 
reporting this story. When a Congressman, chairman of the 
committee, makes an accusation, it's picked up.
    And the story did report at the end how Mr. LaBella, who 
headed up the task force looking at foreign contributions for 
the Justice Department, said that Janet Reno acted 
appropriately; that in fact LaBella emphasized that, while he 
did not agree with Reno's conclusion about an independent 
counsel, he said the Attorney General does not deserve blame 
for the decision by prosecutors not to ask questions about 
foreign contributions prematurely. He said that they were not 
looking at foreign contributions. They were looking at two very 
specific issues, and they asked questions about those issues. 
They had no evidence that the President knew anything about 
foreign contributions. They didn't have it then, and they don't 
have it now.
    So LaBella said, ``I'm not here to defend her. I'm just not 
going to let her get beaten up unfairly.''
    And I can commend Mr. LaBella for that statement, but let's 
look at the rest of the press. Mr. Huang's been here. He's been 
accused for 3 years of all sorts of terrible things. This is 
the first chance he's had to publicly explain his side. The 
press didn't report what he had to say.
    Mr. Shays. Would the gentleman yield?
    Mr. Waxman. No, not yet. The press didn't report what he 
had to say that exonerated him from all those headlines of 
other Congressmen attacking him. They report the next charge.
    Now, I'm pleased to report that one newspaper in this 
country did give a report, and that was the L.A. Times. It 
makes me especially proud because it was the L.A. Times. The 
L.A. Times headline: ``FBI notes dispel `evidence' of security 
breach by Huang.'' They picked up what came out at yesterday's 
hearing, which was that Congressman Solomon made these false 
accusations about Mr. Huang turning over classified documents 
because Solomon said he had intercepts, confidential intercepts 
to prove it, and it turned out in the FBI interview with 
Solomon that it was all based on gossip.
    Well, at least one newspaper picked up a clarification of 
how an accusation that was made long ago has now been so 
clearly refuted. But we don't see the accusations that have 
been refuted. We only see the new ones made, which is a good 
strategy. And, again, it's the phases of this investigation. 
You make an accusation. You can't prove it. You come back and 
say somebody's not giving you the information. They give you 
the information and then the information doesn't substantiate 
your allegation so you come right back with another one.
    Now, the chairman's statement was picked up in another 
newspaper--this one you'd expect to have it as a screaming 
headline. This is the Washington Times. ``FBI never probed 
Clinton, Gore on key scandal figures. Burton wonders if 
investigators forgot.'' Full of sarcasm.
    Now, the charge is that Janet Reno didn't allow her Justice 
Department people to question the President about foreign 
contributions. But it was the FBI which was doing the 
investigation, and that wasn't the purpose of their 
investigation at that time. Their questions had to do with 
whether the President was making calls out of the office. They 
had to do with whether the President knew about the hard money 
versus the soft money. Those were the matters for which there 
had been some evidence of potential wrongdoing that the 
President might have been involved in. Unlike what we've had 
with Mr. Huang, Mr. LaBella and the FBI didn't feel that it was 
appropriate to go into a long dissertation, questioning a 
President of the United States on everything they might think 
that he might have done wrong when there's been no evidence 
that he ever did anything wrong.
    Let me just say this about Mr. LaBella. Dan Burton said

    He has run the task force investigation of foreign money in 
our elections for the last 10 months. Janet Reno handpicked Mr. 
LaBella for this job because of his sparkling credentials and 
his reputation as an outstanding prosecutor. I can't think of 
anyone in America who is in a better position to know the 
facts.

    That's what the chairman said about Mr. LaBella, and Mr. 
LaBella was quoted of course at the tail end of the article in 
the Post saying that ``I'm not here to defend'' Mrs. Reno, but 
``I'm just not going to let her get beaten up unfairly.''
    Mr. Burton. I'll take my time now, and I hope the gentleman 
will be equally generous as far as me getting additional time.
    Mr. Waxman. I've certainly been generous to you and to the 
members of this committee.
    Mr. Burton. I know you have, and I hope you will continue 
to be.
    Mr. Waxman. I hope you will also, Mr. Chairman.
    Mr. Burton. I will.
    First of all, let's start with the last thing first. I 
think what you read in the paper was all right, but you left a 
little bit out. Mr. LaBella also said, we always figured we'd 
have other chances to question the President about his 
relationship with key fundraisers after developing cases 
against him.
    They were never given that opportunity. The President and 
the Vice President were never asked about their connection to 
Mr. Huang, Mr. Trie, Mr. Riady; and Mr. LaBella felt like, as 
the head of the task force, that he would get another 
opportunity to do that; and he never did.
    That particular meeting you're talking about was limited, 
but the reason it was limited was because they thought they 
were going to go back and ask him again about these things, and 
the Justice Department and Janet Reno never allowed that to 
happen. That's the first thing.
    The second thing, you started talking--incidentally, the 
people who did the questioning at that meeting were not FBI 
agents. They were all Justice Department people. Robert Meyer, 
James Cooper, Lee Radek, and Charles LaBella and the FBI guys 
that were there, all they did was take notes. So the FBI didn't 
do any questioning. It was the Justice Department, and they 
were limited. They did not question him about his connection or 
possible connection with these people who were raising money 
illegally.
    Now let's talk about these people like Mr. Kramer and Mr. 
Kojima. The FEC found that the Republican party of Florida got 
this contribution from Mr. Kramer that you said was illegal. 
The Federal Election Commission said it was legal. The money 
that came from Mr. Kramer was legal. Now, I thought that was 
wrong, and I introduced a bill that was cosponsored by many of 
my colleagues, including Mr. Shays and Mr. Souder and Mr. 
LaTourette, which would say that any foreign contributions 
coming into this country would be illegal. And I asked you to 
be a co-sponsor, and you said no.
    Now Mr. Kramer, because of this loophole, the FEC said it 
was legal, but you didn't want to sponsor or co-sponsor a bill 
I did that would kill it and would make sure it would never 
happen again. I would like to once again extend my hand to you 
and say I hope you will sponsor that bill with me.
    Let's go back to some of these people who gave 
contributions. The Republicans that you mentioned, with the 
exception of Mr. Kramer, one was fined $325,000; one was fined 
$5 million; one was fined $8 million; one was fined $6 million; 
one was fined--I can't remember all of them. But the Democrats 
who have given money illegally have not been fined once that I 
know of by this Justice Department. Or at least if they have 
been fined, nobody's been fined as much. You show me some that 
have been fined $8 million, $5 million, $6 million and got time 
in jail.
    Now, there's a couple of other things I think that are 
important. I guess the thing that I want to make clear is that 
if a Republican breaks the law in giving campaign 
contributions, they should be penalized to the full extent of 
the law. If a Democrat breaks the law or a foreign entity 
breaks the law, they should be penalized to the full extent of 
the law. But the Justice Department should apply the law 
fairly, justly and equally.
    And the Republicans who have broken the law in the Dole 
campaign have been penalized as far as I know, some extremely 
severely, whereas people like the Riadys and Mr. Huang and Mr. 
Trie have gotten a slap on the wrist. Mr. Huang, who is 
responsible for over $3 million in illegal campaign 
contributions, $1.3 or $4 million that's been returned, got a 
$10,000 fine and some community service time. Mr. Trie was not 
even going to get a financial fine at all, and the judge 
thought that was wrong so he imposed a $5,000 fine himself, and 
he got community service time. $10,000, $5,000 for two of the 
major conduits of illegal contributions while people on the 
Republican side got an $8 million fine from the Justice 
Department, a $6 million fine, a $5 million fine and on and on.
    So what I'm saying is there ought to be fair application of 
the law, and that has not been done. And if you're going to 
quote Mr. LaBella, for whom I do have a great deal of respect, 
I hope you'll always tell the full story. And the full story 
is--and I'll reiterate this one more time--he said, we always 
figured we'd have other chances to question the President about 
his relationship with key fundraisers after developing cases 
against him. The cases were developed against Mr. Huang, Mr. 
Trie and a number of others, and they never--Janet Reno never 
sent anybody back over to question the President or the Vice 
President.
    I'll yield back my time.
    Mr. Waxman. Mr. Chairman, I ask unanimous consent to be 
recognized for 5 minutes.
    Mr. Shays. Could I have you yield to me, Mr. Chairman?
    Mr. Burton. I'll yield to Mr. Shays first and come back to 
you.
    Mr. Waxman. Just a minute, Mr. Chairman. I have let members 
on your side go 15, 20 minutes.
    Mr. Burton. Mr. Shays has the time.
    Mr. Waxman. Mr. Cummings is here, and he is seeking 
recognition and hasn't had an opportunity at all for his time.
    Mr. Shays. I just want to put on the record two points.
    Mr. Waxman. Mr. Chairman, I'm going to make a point of 
order. Point of order, Mr. Chairman.
    Mr. Burton. The gentleman will state his point of order.
    Mr. Waxman. The rules of this committee provide that 
members shall have 5-minute rounds each.
    Mr. Burton. Right.
    Mr. Waxman. And no member should be recognized for a second 
round until all members have been recognized for the first 
round.
    Mr. Shays. I'm not asking to be recognized. I'm asking for 
the gentleman's time.
    Mr. Waxman. Are you asking for my time?
    Mr. Shays. No, Mr. Burton's.
    Mr. Waxman. Mr. Burton's time has expired.
    Mr. Burton. I'll respond to his point of order. We're 
already into the second round. Mr. Cummings has just arrived. 
I'm going to yield to Mr. Shays.
    Mr. Waxman. Mr. Cummings is seeking recognition. He hasn't 
been recognized on the first or the second round.
    Mr. Burton. I will recognize Mr. Cummings as soon as I 
recognize Mr. Shays.
    Mr. Waxman. Point of order, Mr. Chairman. The rules 
provide----
    Mr. Burton. I have ruled on your point of order. Mr. Shays.
    Mr. Cummings. Mr. Chairman, point of order.
    Mr. Burton. The gentleman will state his point of order.
    Mr. Cummings. I was here before the first round ended. I'm 
just trying to figure, does that mean I am denied a right to 
ask questions in the first round?
    Mr. Burton. You will have----
    Mr. Cummings. Ten minutes?
    Mr. Burton. You will be recognized as soon as Mr. Shays 
completes his questioning.
    Mr. Cummings. You didn't answer my question, Mr. Chairman. 
I just asked you one simple question. Do I get to ask my 
questions in the first round because I'm going to ask them in 
the second round, too, where I'm limited to the second round or 
are you going to give me 10 minutes in the second round?
    Mr. Burton. We'll be liberal with the time. My staff has 
just apprised--made me aware----
    Mr. Shays. I'm just curious of one thing.
    Mr. Waxman. Mr. Chairman, on the point of order, I wish to 
be recognized.
    Mr. Shays. I want to know who has the time.
    Mr. Waxman. Mr. Chairman, I wish to be recognized on the 
point of order.
    Mr. Burton. I have ruled on the point of order.
    Mr. Waxman. The point of order is still pending, and I want 
to bring an argument to the chair.
    Mr. Burton. I have ruled on the point of order.
    Mr. Waxman. The chairman has not read the rules. The rules 
say that each member gets 5 minutes before others get it and we 
alternate, one side and then the other. Mr. Cummings has not 
been recognized at all.
    Mr. Shays. Would the gentleman just yield?
    Mr. Burton. You want to yield on his point of order?
    Mr. Shays. I'm just asking first--I'm not asking for my 5-
minute time, and I'm very happy to have Mr. Cummings have his 
time. I just want to know, do you still have the time left or 
had your time run out? If your time ran out, I'm not asking for 
you to yield.
    Mr. Burton. I did have some time left on the clock. 
According to the staff, I had 1 minute left on the clock.
    Mr. Shays. Mr. Waxman, if you don't agree, I'm happy to 
just drop it. Because, frankly, you want to make a circus out 
of this. I don't intend to. I just intend to ask some 
questions. I thought my chairman had the time. If he didn't 
have the time, I don't ask----
    Mr. Waxman. I don't think he did. He's now being told by 
this staff he has a minute left, but I looked at the clock, and 
the red light came up. I don't think he has the time.
    Mr. Shays. I totally withdraw any complaint. I'm happy--I'm 
going to be here all day.
    Mr. Burton. I'm the chairman of the committee, and I will 
say this. There was 1 minute left on the clock. We will take 
the 1 minute and I yield to Mr. Shays.
    Mr. Shays. Thank you. I'm happy to yield back.
    Mr. Burton. Mr. Cummings.
    Mr. Cummings. Thank you very much. We're certainly are not 
trying to make a circus here, Mr. Chairman. We're just trying 
to go by the rules as the ranking member has stated.
    Mr. Waxman. Would the gentleman yield to me?
    Mr. Cummings. I will certainly yield to Mr. Waxman.
    Mr. Waxman. Mr. LaBella said they would go in and ask the 
President questions if they developed a case that indicated 
that he in any way knew that foreign contributions were 
involved. The only way we could ever establish a case that Mr. 
Clinton knew was if someone said he knew. Mr. Huang indicated 
he was the one involved in raising this money, and that the 
President of the United States never knew about these foreign 
contributions.
    But I do want to point out somebody who did participate as 
an officeholder or has been accused of knowing as an 
officeholder by the person involved in giving a conduit 
contribution. There's a fellow named Cloeren in Texas. He 
admits giving a conduit contribution to a Republican House 
candidate. And then he not only admits having done it, he said 
he did it at the request of Congressman Tom DeLay, the 
Republican whip.
    Now, when you have the man who admitted to giving the 
conduit contribution say that the officeholder suggested he 
give it, you would think that ought to be investigated. The 
chairman talked about everybody being fair. This committee 
refused to even investigate that matter. Every Democrat wrote a 
letter to the chairman requesting an investigation of these 
very serious charges of campaign violations. To show how 
serious it is--it's as serious as Mr. Huang's violation of the 
law, because what Mr. Huang did was a conduit contribution and 
what Mr. DeLay is accused of doing is a conduit contribution as 
well.
    Mr. Chairman, I hope that you will now tell us you're going 
to investigate that clear indication where someone was 
involved. And the distinction again is there's evidence that 
Mr. DeLay was involved and knew--not only knew but orchestrated 
a conduit contribution. There has not been any evidence--a lot 
of headlines and charges, but there's never been any evidence--
to indicate the President of the United States knew of any 
foreign contributions. And the one that would have been able to 
give evidence to that effect and who you described as a 
linchpin of this whole campaign scandal is Mr. Huang, and he 
has told us explicitly that the President didn't know about it. 
So I would hope that the chairman will now tell us that he's 
going to investigate the charges by Mr. Cloeren who is an 
active Republican who gave a conduit contribution he says at 
the request of Mr. DeLay.
    Mr. Burton. If the gentleman would yield.
    Mr. Cummings. Thank you.
    Mr. Burton. Will the gentleman yield?
    Mr. Cummings. Yes, I'll yield.
    Mr. Burton. You keep talking about Mr. Cloeren, have been 
for some time. His allegations were investigated fully by your 
Justice Department, and they found that Mr. Cloeren's 
investigations were baseless, his allegations were baseless.
    Now, Mr. Cloeren was convicted of other crimes. He was 
convicted--he was convicted of other crimes, and it sounds like 
you're accusing Mrs. Reno's Justice Department of doing 
something wrong. The whip of the House, Mr.DeLay, has been 
exonerated in effect by the Justice Department.
    Now, for you who have complained about us wasting a ton of 
time at this committee to want to go back and investigate 
something that has been fully investigated by the Justice 
Department seems ludicrous. I mean, Mr. Cloeren was convicted 
himself. The Justice Department found no credence in what he 
said and they dropped that investigation.
    Mr. Waxman. Would the gentleman yield?
    Mr. Cummings. Yes.
    Mr. Waxman. That's an absolutely false statement that the 
chairman has made. There has not been a clearance of Mr. DeLay 
by the Justice Department. It is just absolutely incorrect. And 
isn't it pretty ironic that Mr. Burton would say we're not 
going to investigate a matter because the Justice Department--
he thinks--has already disposed of it. What are we doing here 
now? We're questioning Mr. Huang for 3 days and spending $7 
million in the last Congress on this investigation when the 
Justice Department has already investigated it and penalized 
Mr. Huang.
    It seems to me that you can't make these false statements, 
false accusations and figure it will never catch up with you. 
Except it looks like Mr. Burton is succeeding somewhat, 
although I don't think it has much credibility, because he's 
always got another charge, always another accusation, and then 
nothing substantiates his allegation. And that is a flat-out 
false statement about the DeLay-Cloeren business.
    Thank you for yielding.
    Mr. Cummings. Reclaiming my time, I think when we sit in 
this room, Mr. Huang--there are only a few people here as 
compared to some of our hearings, but the things that are 
stated here are certainly on the record and you are sworn. The 
things that you say can have a direct bearing on a lot of 
people's lives, including your own, and so I've been following 
the hearings. I had an opportunity to read the FBI 302s and 
just have a few questions, because I think in taking--in light 
of what I just said, I just want to make sure we are all clear 
because what happens is that you start, you have a question 
here, a question there, and it gets muddled. And sometimes we 
need to stop and pause to be clear, and so I would just ask you 
a few questions.
    Your FBI interviews indicate that you and Mr. Riady 
discussed soliciting contributions from the Lippo executives 
who had substantial means and could afford to make political 
contributions; is that correct?
    Mr. Huang. That is correct.
    Mr. Cummings. Now, by discussing who could give 
contributions, it seems that you and Mr. Riady were trying to 
make sure that you comply with the law in this regard; is that 
correct?
    Mr. Huang. That was an effort, yes.
    Mr. Cummings. You didn't believe that the plan to raise 
political contributions from Lippo executives, who were 
citizens or green card holders and who had means, was illegal? 
Did you believe that was illegal?
    Mr. Huang. No, sir.
    Mr. Cummings. Similarly, you did not believe that 
soliciting these people to make contributions was illegal; is 
that right?
    Mr. Huang. No, sir.
    Mr. Cummings. Now, when you had these discussions with Mr. 
Riady, you did not discuss with him the reimbursement of these 
Lippo executives for their contributions, did you?
    Did you understand the question?
    Mr. Huang. I understand. We did not explicit that 
information, no.
    Mr. Cummings. I'm sorry, I didn't hear you.
    Mr. Huang. We did not explicit mention about reimbursement, 
no.
    Mr. Cummings. So you did have a discussion, but you did not 
explicitly talk about reimbursement; is that what you're 
saying?
    Mr. Huang. I--basically I sensed that all the people 
probably will be taken care of.
    Mr. Waxman. Mr. Chairman, I ask unanimous consent the 
gentleman from Maryland be given 5 additional minutes.
    Mr. Burton. Without objection.
    Mr. Cummings. Thank you very much.
    Now, as to the $50,000 Hip Hing contribution, was it you or 
was it Mr. Riady who decided to make this contribution? Who 
made that decision?
    Mr. Huang. Congressman Cummings, I did.
    Mr. Cummings. You made that decision?
    Mr. Huang. Yes.
    Mr. Cummings. When you decided to do that, did you think 
that it was legal to do it?
    Mr. Huang. Yes.
    Mr. Cummings. What did you base that on?
    Mr. Huang. This is sub of either the U.S. corporation--at 
least the sub of--the U.S. corporation is a sub, or the foreign 
entity has to generate U.S. revenue.
    Mr. Cummings. So you felt comfortable that you were doing 
something legal?
    Mr. Huang. At that time, yes.
    Mr. Cummings. In one of your interview memos, I saw that 
you said that you first talked to Mr. Riady about the $50,000 
contribution only after the fact, after you had made it; is 
that correct?
    Mr. Huang. That is correct.
    Mr. Cummings. During that discussion, it was Mr. Riady who 
asked you if it was OK or legal for Hip Hing to make the 
contribution?
    Mr. Huang. That's correct.
    Mr. Cummings. And as I understand it, you told Mr. Riady 
that the contribution was legal because Hip Hing had revenues 
in the United States. That is what you told him and I guess 
based upon what you--a question that you answered a little bit 
earlier in this series of questions, is that accurate?
    Mr. Huang. That is accurate.
    Mr. Cummings. At that time, that's what you truly believed?
    Mr. Huang. That's what I truly believed, yes.
    Mr. Cummings. Had you talked to a lawyer about it at all?
    Mr. Huang. I did not, no.
    Mr. Cummings. So you believe that U.S. subsidiaries of 
foreign companies could legally make political contributions if 
they had revenues in the United States?
    Mr. Huang. That is correct.
    Mr. Cummings. Mr. Huang, it seems that the reason Mr. Riady 
asked you whether it was OK for Hip Hing to make the 
contribution, just like when he discussed whether citizens and 
green card holders could contribute, was that he wanted to make 
sure that the law was followed and complied with. Do you 
believe that?
    Mr. Huang. I do.
    Mr. Cummings. Why do you say that?
    Mr. Huang. You just want to make sure that the things was 
do right.
    Mr. Cummings. Now, as I understand it, going back to this 
$1 million contribution, Mr. Riady said that he wanted to raise 
the funds.
    I'm sorry. If you wanted to followup on that question, you 
are certainly welcome. Did you want to followup on the 
question?
    Mr. Huang. No, sir.
    Mr. Cummings. Now back to the $1 million contribution. As I 
understand it, Mr. Riady said he wanted to raise--he wanted to 
raise the funds and not give the funds; is that true?
    Mr. Huang. I wasn't sure exactly words, but to me at that 
time it was probably not that much difference anyway.
    Mr. Cummings. So----
    Mr. Huang. He had the means to give $1 million himself.
    Mr. Cummings. Did he have the means to raise it?
    Mr. Huang. To raise or give himself.
    Mr. Cummings. So you're not sure what he meant? Is that 
what you're saying when you first had your discussion with him 
about that?
    Mr. Huang. It did not really make that much difference to 
me, but the $1 million is the key.
    Mr. Cummings. After Mr. Riady told you that he told 
Governor Clinton that he would try to raise $1 million, you 
then talked to Mr. Riady about who could contribute to the 
campaign? Did you have a discussion?
    Mr. Huang. We did.
    Mr. Cummings. You did?
    Mr. Huang. Right.
    Mr. Cummings. About who could contribute?
    Mr. Huang. Right.
    Mr. Cummings. Mr. Riady discussed only U.S. citizens or 
green card holders could make legal contributions; is that 
correct?
    Mr. Huang. We identified the people with those kind of--in 
that category.
    Mr. Cummings. That fell into that category?
    Mr. Huang. Yes.
    Mr. Cummings. So you felt you all were doing something 
legal; is that correct?
    Mr. Huang. That's correct.
    Mr. Cummings. I will yield to Mr. Waxman.
    Mr. Waxman. I thank you for yielding.
    I just think some things ought to be straightened out on 
the record. We checked about this Cloeren-DeLay matter. The 
chairman is absolutely incorrect, as I pointed out, because we 
requested 302s' which are the reports of the FBI investigators, 
and they've told us it's an active investigation. It has not 
been concluded. There has been no letter to Mr. DeLay clearing 
him.
    Second, I want to put in the record a statement of the 
cases prosecuted by the U.S. Department of Justice and the 
Federal Election Commission. The chairman said Democrats have 
never been fined, everybody is going soft on these Democrats. 
Sun-Diamond, fined $1.5 million; Nicholas Rizzo, $1.499 
million; the Gephardt for President Committee had an $80,000 
fine; Jesse Jackson's campaign in 1988, $150,000 fine; 
Democratic Senatorial Campaign Committee was fined $75,000.
    Statements are made. There's just absolutely no basis for 
them, even the statement that was made about whether the time 
was there. On the timer it was incorrect.
    I know people may be watching this. It's just like you can 
say whatever you want, but no one ever catches up.
    Mr. Burton. Would the gentleman yield?
    Mr. Waxman. I don't have the time, but I would certainly 
urge the gentleman to yield.
    Mr. Cummings. I yield.
    Mr. Burton. How much were those fines you were talking 
about?
    Mr. Waxman. $1.5 million, $1.499 million.
    Mr. Burton. What were the dates on them?
    Mr. Waxman. There's a 1993, a 1997.
    Mr. Burton. May I see them.
    Mr. Waxman. Certainly you're welcome to see it. I would 
like to have unanimous consent to put it all in the record.
    Mr. Burton. Without objection. Without objection.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.336
    
    [GRAPHIC] [TIFF OMITTED] T6496.337
    
    [GRAPHIC] [TIFF OMITTED] T6496.338
    
    Mr. Burton. The fines that we see here are nowhere near the 
$6, $8, $5 million ones; they're much smaller. But I will 
accede to the gentleman's comments that there were some fines 
there that I was unaware of. But the fact is the vast majority 
of the fines and the huge amounts that have been levied have 
been levied against the Republicans.
    Mr. Waxman. You should have investigated why those fines 
were levied because there might have been problems there that 
were worthy of a legitimate campaign investigation.
    Mr. Burton. The gentleman's time has expired.
    Mr. Shays.
    Mr. Shays. Mr. Chairman, thank you.
    This is the first time I've spoken today, and I want to 
state that I'm not going to ask for additional 5 minutes, but 
I'm going to take my time as it comes. I'm not going to ask Mr. 
Waxman to yield to me. I asked him once today, and he said no. 
And when I asked you to yield me time, he objected.
    I just want to say I think Mr. Cummings asked more 
questions in his one visit than Mr. Waxman has in his 2 days. 
And for us to have the incredible amount of dialog about how 
much time it is taking to ask you questions, Mr. Huang, when we 
haven't even had the opportunity basically to ask questions 
because Mr. Waxman wants to talk about anything but you, and 
I'm just going to read the letter that was supposed to start 
the spirit of these hearings.
    And so, Mr. Huang, if you have to be here tomorrow, you 
have not me to blame. But in the letter that Mr. Waxman sent to 
this committee in denying us an opportunity to basically ask 
you questions privately so we wouldn't have to ask so many 
questions publicly, I will read you the full letter that we 
got.

    Thank you for your recent letter regarding immunity for 
John Huang. I am glad we were able to reach an agreement on 
this matter and I'm looking forward to his testimony.
    As you know, in the past, many members of our committee 
have expressed concerns about the practice of extensive 
questioning of witnesses in closed session. I share that 
concern and continue to believe that the committee and the 
American people will best be served by having Mr. Huang appear 
at a public hearing with no restrictions on the amount of 
questioning he would face.

    So I will strongly take exception to Mr. Waxman complaining 
to any question I ask and however long and if he gets tired at 
2 or 3 today and wants to leave, he may leave. I'm staying.
    Then he said, ``I appreciate you sharing a new proposal for 
dealing with Mr. Huang's testimony with me, but believe we 
should proceed as originally agreed and hold a public hearing 
with Mr. Huang.''
    Mr. Huang, I am sorry to say this, but I'm going to say it 
since he wants to rehabilitate you before I think you deserve 
to be. You are a convicted felon; is that not true?
    Mr. Huang. That's correct.
    Mr. Shays. You have acknowledged to this committee that in 
one way or the other you have been involved with almost $1 
million of illegal contributions with Mr. Riady; is that not 
true?
    Mr. Huang. That is true.
    Mr. Shays. OK. You are here only because you were given 
immunity; is that not true?
    Mr. Huang. That is true.
    Mr. Shays. You had an opportunity to come before this 
committee many years earlier and set the record straight; is 
that not true?
    Mr. Huang. Yes.
    Mr. Shays. So the fact that you're here today is basically 
a decision you made by deciding not to come earlier; is that 
not correct?
    Mr. Huang. Yes.
    Mr. Shays. Now, you know, I left last night having a lot of 
compassion for you. I think you're a good man. But I do think 
good men sometimes do illegal things. And the purpose of these 
questions is to find out what you did and what you didn't do.
    Now, I didn't make these accusations. Mr. Burton didn't 
make these accusations. And in fact I gave you yesterday a copy 
from the Cox report. I don't want to blind-side you. I want you 
to deal with it, and I would think you'd want to because it's 
really scary stuff dealing with you. And I was touched by your 
comments about your children and the concept that you could in 
fact have done something contrary to your own country's best 
interests and that potentially you could be involved with 
espionage. Pretty frightening stuff and something that, 
frankly, I don't have a sense that you are, except we have a 
report.
    Now, on this committee are Mr. Cox, a Republican; Norm 
Dicks, a Democrat; Porter Goss, a Republican; Doug Bereuter, a 
Republican; Mr. Hansen, a Republican; John Spratt, a Democrat; 
Curt Weldon, a Republican; Lucille Roybal-Allard, a Democrat; 
Robert ``Bobby'' Scott, a Democrat. They came out with a 
unanimous report and this unanimous report mentioned you. And 
it mentioned some very serious accusations about you, and I--
frankly if they were said about me, I would be horrified.
    Now, it basically says, Huang maintained contact with 
representatives of Lippo Group while he was at the Department 
of Commerce. During the 18 months that he was at Commerce, 
Huang called Lippo bank 232 times in addition to 29 calls or 
faxes to Lippo headquarters in Indonesia.
    Huang also contacted Lippo consultant Maeley Tom on 61 
occasions during the same period.
    Huang's record shows 72 calls to Lippo joint venture 
partner C. Joseph Giroir. During his tenure at the Commerce 
Department, Huang used a visitor's office across the street at 
the Washington, DC, branch of Stevens, Inc., an Arkansas based 
brokerage firm with significant business ties to the Lippo 
Group. Stevens employees indicated that these visits were short 
in duration. Huang used these offices two, three times a week, 
most weeks making telephone calls and regularly receiving faxes 
and packages addressed to him.
    Commerce Department approval--excuse me. No one at the 
Commerce Department, including Huang's secretary, knew of this 
additional office. Huang met with the PRC Embassy officials in 
Washington, DC, at least nine times--at least nine occasions. 
Six of these meetings were at the PRC Embassy, People's 
Republic of China. When informed of these contacts Jeffrey 
Garten, the Department of Justice Under Secretary for Trade 
Administration, was taken aback to learn that Huang ever dealt 
with anyone at the PRC Embassy. The proposal of these--the 
purpose of these contacts is unknown.
    My time is up. I don't choose the additional 5 minutes. 
I'll come back when my time is allowed.
    Mr. Burton. Mr. LaTourette.
    Mr. Waxman. I would like to ask unanimous consent that the 
gentleman, Mr. Huang, be able to respond to those statements.
    Mr. Shays. I'll go through. He'll have time. I'm going to 
have 5 minutes. I'm not going to ask you for 5 minutes and be 
at your mercy.
    Mr. Burton. Mr. LaTourette.
    Mr. LaTourette. Thank you, Mr. Chairman. I was going to say 
sadly I have to return to Ohio pretty directly. I am on very 
strict orders to pick up two Britney Spears Barbies and 
something called Wrestle Mania 2000.
    I was going to say--before this recent brouhaha, I was 
going to commend all of our colleagues for the last 2\1/2\ 
days. I've been on this committee since I was elected in 1994, 
and from my perspective--and maybe I'm just a dope, but from my 
perspective, I thought this was one of the best hearings we've 
ever had in this committee.
    I want to thank you, Mr. Chairman, and I want to thank Mr. 
Waxman for the courtesy he's extended to me and the Members on 
this side until, again, this recent brouhaha.
    I also want to make an observation about the staff, and 
this is the best prepared I've ever been for a hearing and the 
materials that the staff on the Republican side have prepared 
for this hearing are exceptional. And I hope you give them all 
raises and Christmas off and everything else.
    I'm sure--I've seen Mr. Waxman's staff run to him with 
notes and things too. I'm sure they've done an excellent job 
too.
    During the break, I was talking to some of the staff and 
some of your staff didn't get to go home for Thanksgiving 
because they were preparing for this hearing. I want to commend 
them publicly for the materials they put together because I 
think it's swell.
    Mr. Huang, it's a long time since anybody talked to you, 
and this will be the last opportunity I have to chat with you.
    Mr. Huang. Thank you.
    Mr. LaTourette. I want to tell you last night I couldn't 
sleep so I watched the replay of the hearing yesterday. That is 
one of the sad things about being in Congress. You like to 
watch C-SPAN more than most people. A couple of things occurred 
to me. It helped to refresh my memory of what happened at 
yesterday's hearing. I think--I'm not going to make a wild 
accusation but I come away from this hearing with a pretty 
clear indication that in the years 1992 and 1993 you were in 
essence a bag man for the Riady family to make illegal 
contributions to primarily Democratic campaigns. I know Mr. 
Waxman brought up the fact that you contributed to a couple of 
Republican Senators. Basically that's what you did. And you are 
asking us to believe that even though you weren't caught yet, 
even though you weren't prosecuted yet, in the 1996 cycle, the 
same kind of conduct was going on and I'll take you at your 
word that you were no longer knowingly engaged in the conduit 
contributions. I think the evidence before the committee is in 
1996 maybe Charlie Trie took your place as the bag man for the 
Riady family to give illegal contributions to Democratic 
candidates both nationally and locally.
    The one comment I would say to the distinguished ranking 
member, I think it's disgusting that either Republican or 
Democrat State parties would receive illegal campaign 
contributions. I don't know how it is in California. In Ohio we 
have county commissioners. I think you have county supervisors 
maybe. But we had a race in my home county. It was decided by 
80 votes and to think that Pauline Kanchanalak selected the 
county commissioner of the town where I live is disgusting to 
me. I would think it would bother Mr. Waxman if an illegal 
Republican contribution picked his county supervisor. I think 
that's disgusting and I think we have to do something to change 
it.
    I want to go through some matters after this scandal broke 
and talk to you about some entries in your diary and then, as I 
said, I'll be done and I thank you and your lawyers for the 
courtesies you've extended to me. If you could go to exhibit 
525, it is a page from your diary from early October 1996 and 
it is after the news stories about your fundraising had begun. 
On the left side of the page your notes say the way I'm able to 
decipher them, ``principal not to talk, President, First Lady, 
Vice President, call these people.'' Do you see that on the 
exhibit, sir? Do you find that on the exhibit?
    [Exhibit 525 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.339
    
    Mr. Huang. I do find it, Congressman.
    Mr. LaTourette. This is your diary and that's your 
handwriting and you wrote that sometime in 1996, right?
    Mr. Huang. It was my writing, yes.
    Mr. LaTourette. Could you tell us, what does that mean?
    Mr. Huang. Congressman, I don't at this moment.
    Mr. LaTourette. I want to make--does it mean, however--I 
understand you said you don't know what it means. When I saw 
it, to me it sounded like somebody told you not to talk or not 
to answer questions in response to inquiries on this particular 
matter, the fundraising scandal. Does it mean that or you just 
don't know?
    Mr. Huang. It well could be that way. The reason is because 
the media has been calling me, I recall, so I was not supposed 
to talk to media directly. That might be the case.
    Mr. LaTourette. Would that have been at the advice of your 
lawyers or at the advice of someone else?
    Mr. Huang. The advice of just basically DNC's policy, the 
person handling all the communications. I was not the person to 
do that.
    Mr. LaTourette. I'm wondering if I could ask unanimous 
consent for 5 more minutes, if anyone has a problem with that? 
Is that OK with you, Mr. Chairman?
    Mr. Burton. I'm next. What I would be happy to do is to 
yield to you my time.
    Mr. Waxman. I have no objection to giving the gentleman 5 
minutes.
    Mr. Burton. We're going to stay with the 5-minute rule from 
now on. I yield you my time, 5 minutes for right now.
    Mr. LaTourette. I thank you. I have two other exhibits I 
want to talk to you about. 532 is a page from your diary dated 
October 21, 1996, and it indicates that you received a call 
from an individual by the name of Ernie Green. Do you have any 
recollection today why Ernie Green contacted you by telephone 
on October 21?
    [Exhibit 532 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.340
    
    Mr. Huang. Is this on the left-hand side, sir or right-hand 
side? We found it. Basically that was a message, I think.
    Mr. LaTourette. Maybe. I'm asking you did Ernie Green call 
you on October 21 and did you know why and specifically----
    Mr. Huang. The note indicating I took the voice message. I 
just took it by time, who call me, say 6:22, 7:22 who called, 
what's the words. Basically the message, not necessarily a 
conversation I had with him.
    Mr. LaTourette. The last document I want to ask you about 
is exhibit 537 and it's a travel reimbursement that you 
submitted to the Democratic National Committee. And it has some 
words on it that intrigued me again. It says that you traveled 
between October 11th and October 15, 1996. Under purpose, the 
purpose of the travel it says stayed away from D.C. That's an 
interesting purpose. Were you directed by the Democratic 
National Committee to stay away from the District of Columbia 
in October 1996?
    [Exhibit 537 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.341
    
    Mr. Huang. Congressman, perhaps that was the situation, was 
to stay away from DC, because a lot of media is coming over. I 
don't specifically recall right now I returned home back to 
L.A. to do what and to get material. I don't know what kind of 
material I was getting.
    Mr. LaTourette. That's the second notation. Again this is a 
form that you would have submitted to the Democratic National 
Committee to be reimbursed for an E ticket to go to Los Angeles 
and the stated purpose that you put, you didn't say you were 
traveling to raise money, visit friends, do party building 
activities. You wrote that the purpose of this trip was to stay 
away from the District of Columbia and apparently folks at the 
Democratic--did you get reimbursed for this? Did they pay you 
for the E ticket that you took out to Los Angeles?
    Mr. Huang. The answer probably is no because I still have a 
lot of expenses being unpaid by DNC.
    Mr. LaTourette. But the fact of the matter is that you felt 
it was appropriate to request reimbursement when the stated 
purpose of a trip to Los Angeles was to stay out of Dodge, 
basically stay out of the District of Columbia after a series 
of stories had broken questioning your involvement of 
fundraising for the 1996 Presidential race. Is that a fair 
statement?
    Mr. Huang. That is a fair statement.
    Mr. LaTourette. Last thing and I truly promise I'll be 
done. You took a trip to Taiwan in 1996, did you not?
    Mr. Huang. Yes, during the--I believe May 1996.
    Mr. LaTourette. And in particular, if you want to look it 
up, it's exhibit 436, it indicates you were traveling between 
May 17th and 23, 1996. Did you ask permission from the 
Democratic National Committee before you traveled to Taiwan?
    Mr. Huang. I did.
    Mr. LaTourette. Did you indicate what the purpose of 
traveling to Taiwan on Democratic National Committee business 
was?
    Mr. Huang. Potential looking for--potential the donors.
    Mr. LaTourette. You went to a foreign country to look for 
donors to the Democratic National Committee?
    Mr. Huang. Let me explain to that.
    Mr. LaTourette. I'd like to know.
    Mr. Huang. There are a lot of people having various 
residencies although they have a legal status versus 
citizenships or green card holder. They're traveling back and 
forth. Their business over there, their business over here more 
or less is to see what is possibility on that. Now, this is 
basically spur out on the information that at that time the 
Republican side Mr. Barbour indicating he made trips over to 
Asia and some people mentioned to me he might have been 
receiving some contributions for the trips to raise a few 
hundred thousand dollars. So I was just making an attempt 
scouting around at that time.
    Mr. LaTourette. Are you saying someone mentioned to you 
that Haley Barbour might have gone over to Taiwan and was 
raising money so you thought you could go over to Taiwan and 
see if you could do the same thing for the Democrats.
    Mr. Huang. It was not Taiwan. He was making trips to Asia. 
There were a lot of Democrats living abroad or Republicans 
living abroad, things of that nature.
    Mr. LaTourette. I understand that. I think the only comment 
I would make because we are talking about Pauline Kanchanalak 
before. You thought in 1992 she could contribute and was a 
citizen but she wasn't. She wasn't. Her contributions were 
illegal. I'm just wondering about the propriety of going over 
to a foreign country. I mean, would you ask these people? I 
mean, OK, Mr. Jones, I'm meeting you in Taiwan. Do you have a 
green card? Are you temporarily----
    Mr. Huang. I would do that, yes. Those things I would do.
    Mr. LaTourette. I want to believe you but I doubt it.
    Mr. Huang. I also knew some of the people were U.S. 
citizens. Congressman, later on there was a fundraising event 
related to that fact, sir.
    Mr. Burton. The gentleman's time has expired.
    Mr. LaTourette. I thank you, Mr. Chairman.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. I'd be pleased to yield time to Mr. LaTourette 
if he has any other issues he wants to pursue.
    Mr. LaTourette. I'm done and I appreciate your courtesy.
    Mr. Burton. It's your time, Mr. Waxman.
    Mr. Waxman. I want to say to Mr. LaTourette, I want to 
express to him my appreciation for his professionalism and the 
way he's handled these hearings and since he's indicated to us 
he has to leave, I want to wish him a Merry Christmas.
    I want to just go back to these inflammatory allegations of 
espionage relating to Mr. Huang. Yesterday I played a videotape 
of Representative Solomon, who on national television stated 
that there were electronic intercepts showing that Mr. Huang 
passed classified information to Lippo. I then introduced the 
FBI 302s, which are the FBI interviews, with Mr. Solomon where 
he admitted that this sensational allegation was based on a 
piece of unsubstantiated gossip that he had heard from a 
stranger at a cocktail party. Some of my colleagues then 
suggested that even though Representative Solomon's accusation 
was baseless, there may still be grounds for suspecting that 
Mr. Huang was indeed a spy. The chairman indicated his belief 
that closed door hearings might turn up grounds for suspecting 
Mr. Huang engaged in espionage. And I gather, according to Mr. 
Shays, if we asked these questions of Mr. Huang in secret so 
the public couldn't see what was going on in this inquisition, 
that we could get statements from Mr. Huang that he wouldn't 
give in public. I find that hard to believe. I think the public 
ought to see what an American citizen such as Mr. Huang is 
being subjected to for 3 days.
    The record demonstrates, however, that these allegations 
that Mr. Huang committed espionage have been investigated. They 
have been investigated and they have been determined to be 
groundless. In its plea bargain agreement with Mr. Huang, the 
Justice Department stated, ``that it is not currently aware of 
evidence which would support any charges of violations of the 
national security or espionage statutes.'' David Vicinanzo, 
head of the campaign financing task force, reaffirmed in a May 
1999 letter to Mr. Huang's attorney ``the lack of evidence that 
Mr. Huang has engaged in other illegal conduct.''
    Treason is an incredibly serious charge and I'd like to 
politely suggest to my colleagues that unless and until we find 
evidence of espionage that is a little stronger than cocktail 
party gossip, that we ought not to be throwing them out there 
in the public domain. We ought to be treading carefully. Mr. 
Huang has suffered through enough, it seems to me, from 
unsubstantiated and sensational accusations.
    Mr. Huang, Mr. Shays made a whole big speech. He talked 
about this Cox report which I think you were questioned 
extensively about yesterday. You weren't even given a chance to 
make any comments. Do you want to say anything more to these 
people that are throwing these charges that maybe there is 
still some possibility that you've been engaged in espionage? 
And while you're talking to your attorneys, let me point out 
that what I just read was the conclusion of the Justice 
Department of the Government of the United States. They have 
all the facts. They've had all the evidence. They've been able 
to talk to all the relevant people and they've reached this 
conclusion that there's just no evidence to make this kind of 
accusation against Mr. Huang.
    It seems to me at some point the press ought to report that 
fact and that Members ought to finally accept it until they 
know something more to raise it again. Mr. Huang, do you want 
to say anything?
    Mr. Huang. First of all, let me say I'd like to thank 
Congressman Shays yesterday that passed along this copy to me. 
This is the first time I've had an opportunity to read that. 
Certainly I don't understand what Mr. Shays actually making an 
allegation against me yet, but certainly I'm here trying to 
help out clear it up. In the past apparently through my 
attorney and also reading certain things the law enforcement 
that made the investigation basically they find out--didn't 
find anything on me on that basis. But I'd like to--I didn't 
even ask my attorneys' consent. I'd really like to take an 
opportunity to say a few things on a general term basis. I am 
an immigrant like any other immigrant coming to this country to 
either suffer from political pressures from the overseas or the 
home country or they are seeking for a better economy 
opportunities here. Back to 1969 I came over here for graduate 
schools. At lowest point of time I only have about $20 in my 
pocket and I really appreciate the opportunity that this 
country has afforded me like many other immigrants in my 
category to be able to make something and have a family, a 
decent profession. Given the nature I understand about human 
being, we all want to be grateful trying to reciprocate certain 
things for whatever we got. So deep down in our heart we all 
want to have opportunity to reciprocate either to society to 
the degree of our ability. So we have large opportunities, 
large ability, we want to do more, the less we do less. It 
varies from people to people. So the last thing we want to hurt 
the country who offered the opportunity to us, will grant us 
the opportunity for us to prosper.
    I believe that's the same intention I have. As I grow, 
being prosper, I try to give a little more back. That was my 
full intention. So I just want to make the statement I really 
did not have any intention to be disloyal to somebody's been 
nice to me. I always want to reciprocate. I might have made 
mistakes along the way but that was never my intention.
    Mr. Burton. Mr. Shays.
    Mr. Shays. Thank you. Mr. Huang, Jerry Solomon isn't a 
member of this committee and he's no longer a Member of 
Congress and I am very uncomfortable with any of the 
allegations he made, especially given how they were made. As 
one Member of Congress, just as one Member of Congress, I 
really feel for you and as a Member of this institution, I 
would apologize to you for what Mr. Solomon said if it was 
based on the accusations that were made. But I wouldn't even 
think of asking questions based on what Mr. Solomon suggested. 
I want to ask questions but evidently my colleague on the other 
side of the aisle wants to give you that impression, and it's 
not and I thank you for pointing out that I did give you the 
report the day before. The Cox report was bipartisan. It wasn't 
partisan. In fact, they left things out of the report if they 
couldn't make it bipartisan. So everything in here was agreed 
to by my party and Mr. Waxman's party and these are honorable 
people on both sides.
    Now, I will say to you that I went up to look at anything 
else that might include you and I want to say to you there's 
not much more there than is here so in that part of it, I don't 
even want to give you the impression that I know something 
there that doesn't exist here, to be fair to you. But even here 
it's pretty significant and I think there can be answers to 
everyone and so I don't make the assumption because I ask these 
questions you're going to somehow be proven to have been a spy 
or in fact even been proven to have foolishly given information 
you shouldn't have.
    There may be some gray areas that you and I will have some 
disagreement on, but first I want to understand that you did 
work for the Riadys before you worked as--for the Commerce 
Department and you worked for them after you worked for the 
DNC--excuse me, you received some payments after you worked for 
the DNC but you have maintained a contact with the Riadys that 
starts in 1985 and continues to this day. You are friends. They 
are friends to you.
    This is true, is it not?
    Mr. Huang. Basically it's true but the contacts in the last 
few years are very, very sparse, but however there was 
contacts, as Mr. Chairman asked me yesterday.
    Mr. Shays. Thank you. Now, is there anything that you want 
to respond to based on what I read to start?
    Mr. Huang. Is it possible, Congressman Shays, yesterday 
Chairman Burton gave a copy of the various faxes, phone calls 
that I made in Steven's office, whether that can be put on the 
screen or something like that. Is it possible?
    Mr. Burton. Do we have copies of the faxes and the list of 
things? There we have it right there.
    Mr. Shays. It's not really going to help you much.
    Mr. Burton. Take a copy down to him, please.
    Mr. Huang. First of all, I can explain this fax first if I 
may. Looking at the fax it's very interesting on 10, 18, there 
are probably 18 other faxes showing on this sheet here and I 
sort of believe that was a bad transmission. It was relayed as 
only one. Couldn't get it through, getting, get it through, 
couldn't get it through, again, again, again, again. There was 
a similar situation it looks to me like October 5 there was 
about five of them also sent out on a similar pattern so that 
would not be treated, in my personal opinion should not be 
treated as how many transmission you send. It would be counted 
on how many faxes was sent on that basis. That was trying to 
explain.
    Now, my best recollection, those faxes sent over to Hong 
Kong, to Indonesia was not really my--was not mine. I will not 
deny the fact I used the office making phone calls to Lippo 
Bank, California, in Los Angeles. That one I definitely say yes 
on that. But certainly I don't recall I made--my understanding 
of the faxes is to Lippo Bank or not but certainly in more 
specific about those to Hong Kong, Indonesia, most likely is 
not related to me.
    Mr. Shays. I'll come back to you.
    Mr. Burton. Mr. Cummings.
    Mr. Cummings. Thank you very much. Let me ask you, going 
back for a moment to the $50,000 Hip Hing contribution, when 
you decided to make the Hip Hing $50,000 contribution, you 
thought that was legal?
    Mr. Huang. Yes.
    Mr. Cummings. What did you base that on?
    Mr. Huang. As I reported to you, Congressman, earlier, No. 
1 is U.S. entity, although it's a sub of the foreign entity, 
but the U.S. entity has a U.S. revenue that led me to make 
decision Hip Hing could make contribution.
    Mr. Cummings. Now, did you ever have a conversation with 
Mr. Riady where you discussed ways to violate campaign laws?
    Mr. Huang. Congressman, it was not in the terms that you 
raise, but we did talk about how to raise money, identify the 
people who are eligible, green card holder of citizenship among 
the executives, and also talked about being reimbursed later on 
by myself, myself as a contribution, and also I had occasion to 
obtain some bank accounts, at least one from the executives.
    Mr. Cummings. I am going to go back to one thing just very 
quickly. When you were discussing the $1 million commitment, 
the $1 million commitment now for contributions, did you ever 
discuss with Mr. Riady that the reimbursement for political 
contributions might be illegal?
    Mr. Huang. The reimbursement issue was never explicitly 
discussed. As I reported to you earlier in your earlier 
questions, I sort of sensed that whoever made it probably would 
be taken care of.
    Mr. Cummings. Is that what you told the FBI?
    Mr. Huang. I believe I did.
    Mr. Cummings. I was very moved by the comments that you 
made a little bit earlier about how you felt about this country 
and not wanting to do anything to hurt it. I notice that in the 
report, in the Cox report, it talks about how you did not want 
your clearance status increased. Was there a specific reason 
for that? In other words, your secret clearance, things 
classified so you could see certain types of classified 
information, you didn't seem to be too anxious to have it 
increased. Was there any reason for that?
    Mr. Huang. Congressman, as of this day, I don't even know 
what level is clearance. To be very truthful, I didn't know. In 
order to do my job, whether I had a clearance or not, it's not 
really that important to me. I was working for the Assistant 
Secretary in my job. I think it was basically through his 
efforts trying to get me the clearance. It really did not 
matter to me at all.
    Mr. Cummings. Looking back on your experience at Commerce 
and what you have been through so far, how do you feel today?
    Mr. Huang. When I was in Commerce?
    Mr. Cummings. Yes.
    Mr. Huang. I really underestimated the culture of this 
town. It is very political and very territorial, so it was 
constantly a battle trying to gain either more territory or 
gain more visibility maybe, responsibility toward that part.
    I really have misgivings about a lot of political 
appointees, because their staying in a job was only a short-
term basis. Maybe coming to work in Washington, DC, they are 
trying to gain as much as they can in a short period of time 
and they went on for the next level of career. So apparently 
the responsibility or the title which translated into the 
territory later on might be very, very important to some of 
these people. So without any doubt, during my tenure in the 
Commerce Department, and I got caught in between those kinds of 
conflicts.
    For instance, my Assistant Secretary would not refuse to 
attend somebody's briefing, somebody's meeting, but I was 
assistant to my Assistant Secretary, but my unit has to be 
represented. So most of the time I got that job. So whatever 
briefing, some of the articles talking about--I attended so 
many briefings or meetings relating to China or other places, 
that was through that kind of format. Because somebody had to 
be there to represent. Otherwise, nobody went over from my 
unit, then our unit would be criticized on that.
    Mr. Burton. The gentleman's time has expired. I will now 
take my time.
    Hip Hing Holdings contributed $50,000 in August 1992. The 
contribution was reimbursed by Lippo. Was that reimbursement 
legal?
    Mr. Huang. It was not.
    Mr. Burton. It was not legal. Were you aware of that?
    Mr. Huang. At that time, I was not.
    Mr. Burton. You were not aware of that?
    Mr. Huang. No, I was not--remember, Mr. Chairman, there was 
an exhibit showing me--there was a reimbursement request with 
my name on it, John Huang, and then another person's name. My 
name was there. I take responsibility on that, although the 
request for reimbursement----
    Mr. Burton. It was corporate money coming from the Lippo 
Group in Indonesia to reimburse the Hip Hing Holdings?
    Mr. Huang. For various expenses.
    Mr. Burton. I have the wire that you sent to Mrs. Ong Bwee 
Eng for the money.
    Mr. Huang. That's correct.
    Mr. Burton. All right. I just wanted to make sure that that 
was clear, that it was illegal. It did come from Indonesia. It 
was reimbursed to Hip Hing, which didn't have a great deal of 
money at that time as I understand it.
    Mr. Huang. Hip Hing was not--it was a relatively slow loan, 
yes.
    Mr. Burton. Mr. Shays, I yield to you.
    Mr. Shays. I thank you.
    Mr. Huang, we left with you having a number of phone calls 
to the Lippo Bank. We have down 232 while you were at Commerce. 
I'm unclear as to why you would be in contact with the Lippo 
Bank.
    Mr. Huang. First of all, Congressman Shays, I'm not sure I 
really had a contact with the Lippo Bank 232 times.
    Mr. Shays. We will stipulate that, but it was a large 
number of times. But you're not agreeing necessarily that it 
was all 232.
    Mr. Huang. I'm trying to explain to you how the number is 
coming up. Actually, in an ordinary situation, if I am going to 
call Congressman Shays, I guarantee you I would not get you the 
first time. Probably the call is going to come back to me, may 
not get to me, which likely happened in ordinary courses. 
That's why I'm saying the real conversation may not be that 
much.
    Mr. Shays. Fair enough.
    Mr. Huang. Now, I do not remember specifically each 
conversation, but I will give you roughly the categories what 
those conversations fall into, and I'm going to report to you 
on that basis.
    As you know very well, I left Lippo on July 14 or 15, that 
weekend, on Friday. I immediately came on board on the 18th, 
that Monday. As Mr. Chairman was mentioning yesterday, at the 
end of June, after the 26th, I traveled overseas, following my 
civic duty, and went to Taiwan. Also more importantly, on a 
personal basis, I even missed my nephew's wedding 1 day. By the 
time I came back, I really did not have the time to inform a 
lot of people that I was leaving.
    So category No. 1 is a lot of people would send messages to 
my old office. There was mail still coming over there. That is 
the category on that.
    The second thing is included in that category. People say, 
there's something coming in. I don't understand, John, how to 
handle those things. So that's one category.
    The second category would be I have been in that 
institution for a few years, so a lot of people were employed 
under me prior to that. They are still working over there, even 
though I was gone. A few of the people, they met with career 
problems because they were dealing with a new management, a 
different management. They were asking me what to do. They had 
frustration. That involved some career consultation on that 
basis. That's one category.
    It is interesting, the third category is the clients also 
come in. They were dealing with different people, saying we 
were doing things differently previously. Now everything is 
changing. What should I do? They thought I might be able to 
help on that basis. That is one.
    The fourth category was a situation, as you know, in 
running a financial institution. Today you have a loan 
situation, it doesn't guarantee the loan is going to stay 
forever good because economic conditions change, that loan 
becomes relatively slow being paid, becomes delinquent or 
sometimes you cannot even collect it, you want to look for 
somebody.
    So, basically, the bank was in the Chinese American 
community. A lot of them were Chinese. It might have been 
coming from Hong Kong or Taiwan. So the new CEO or new loan 
officer is going to ask me, do you know this person when you 
worked there before? Do you know how to handle this and what 
would be the proper way to handle that? If they are slow for 90 
days, should we take legal action against them or how do we 
handle that? Some were situations like that.
    The fifth category is the more personal one. There is a 
colleague of mine called Tanyu Yen, Y-e-n, who used to work 
with me in Hong Kong in the international department. When I 
came over to Lippo Los Angeles, I would sort of pull him in 
with me to establish all the rules and procedures of the 
international problem for the bank. He and his wife has one 
only daughter, has apparently Downs Syndrome status. By having 
him and his family come over to work in the United States, we 
sort of made a commitment to let him have immigration status in 
the United States done.
    Because of the Downs Syndrome situation for the daughter, 
she had already passed the age of 21--in fact, right now she is 
close to 30 something already--at that time, Mr. Yen and Mrs. 
Yen were able to get the green card status but the daughter 
could not because of the law saying you have not underage 
children, already over the time. At that period of time, the 
immigration law was in the midst of changing, at least there 
was some sentiment to change, because there were so many 
immigrants coming into the United States.
    They were very, very concerned, especially Mrs. Yen. She 
always has a little nervous--nervous breakdown type of 
situation, sometimes would be hyped up and very nervous, so 
worried about the daughter, in the event she could not get--
although the parents got it already--would be sent back to Hong 
Kong.
    I was in Hong Kong and also working with various Senators 
before. By making the contributions, I know some of the people. 
I took on the job and made quite a few phone calls. For 
instance, you might find my phone records, Ms. Nancy Chen, who 
used to be assistant to Senator Paul Simon, who has 
responsibility for immigration.
    Mr. Shays. In my next round, I'll ask you about the other 
calls. Thank you.
    Mr. Huang. Essentially, if I can summarize on that, I would 
not rule out a situation. Occasionally, I may call some people 
and say how you doing, things like that. Never the case of 
saying, today I got a briefing. Here is information on a past 
deal. Would you relay this to somebody? It never happened that 
way.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Mr. Chairman, I am going to yield my time to 
Mr. Shays, but before he starts with his questions, could we 
give Mr. Huang and his lawyers a break?
    Mr. Burton. I think it is close to lunchtime. Let's just 
break here for about 30 minutes, and that will give you time to 
grab a sandwich or something if you so choose. And we will be 
back here just about 5 after 12.
    The committee stands in recess.
    [Recess.]
    Mr. Burton. The committee will reconvene.
    Mr. Waxman.
    Mr. Waxman passes.
    Mr. Shays.
    Mr. Shays. Mr. Huang, I'm going to have a number of 
questions. I'm just going to kind of go through questions 
relating to your experience at Commerce. I don't know if they 
will require long responses. I will come back later to some of 
the security issues, so you will get a chance to kind of 
respond to everything that was in the report. But let me do 
that.
    Except, excuse me, we did need to just conclude the issue 
of--you had responded to Lippo, but would you respond to the--
and the 29 calls or faxes, your point to me is that some of 
those may have been resubmitted. You're trying to tell us--
you're not trying to tell us, you are telling us that some of 
the 29 calls or faxes to Lippo headquarters in Jakarta were 
potentially repeats.
    Mr. Huang. It could be.
    Mr. Shays. You had 61 contacts with a Lippo consultant 
Maeley Tom or 72 calls to Lippo joint venture partner Joseph 
Giroir. Can you explain your contacts with Maeley Tom and to 
Joseph Giroir?
    Mr. Huang. Yes. Maeley Tom, basically--she is a community 
leader based in California in our Asian American community. I 
respect her a lot. A lot of the political sites of wisdom or 
community affairs, I resort to her. She and I probably have a 
lot of phone calls basically on those subjects alone.
    Something again I will reiterate about the number of phone 
calls, Congressman Shays, you will understand may not be 
exactly equal to the number of actual conversations.
    Mr. Shays. I do understand that, and the record notes it.
    Let me ask you questions since it relates to your seeking 
employment at Commerce and we're going to kind of go through 
that.
    Mr. Huang. OK.
    Mr. Shays. Did James Riady urge you to work for the 
government?
    Mr. Huang. He did not. Virtually that was my initiation and 
with the urging of my community. Mr. Riady would not object 
that I would go.
    Mr. Shays. Could we be a little tighter on this? Could you 
think a second before you respond? Because it is our sense that 
the task force at Justice had the impression that he was 
encouraging you to apply to some government departments. I 
don't want to split hairs with you. I'm not saying just 
Commerce, but didn't he encourage you to work----
    Mr. Huang. In various areas. Various areas would be 
interesting.
    Again, I plead innocent to government-related jobs, never 
having worked in the American government before. You more or 
less just pull out the phone book, see what might be the area 
you might be able to fit.
    Mr. Shays. We've all done that for constituents. So you had 
dialog with Mr. Riady about that?
    Mr. Huang. Why?
    Mr. Shays. No. You did have dialog, conversation with Mr. 
Riady.
    Mr. Huang. Yes.
    Mr. Shays. Did Mr. James Riady encourage you to look into 
any jobs at certain agencies?
    Mr. Huang. Yes.
    Mr. Shays. What particular agencies did he encourage you to 
look into?
    Mr. Huang. If I remember, there are little notes I drafted, 
sent it to the State Department, relating to Asian affairs.
    Mr. Shays. Did James Riady suggest to you that you work at 
the National Security Council?
    Mr. Huang. That would be one of a list I was going to 
report to you, anyway.
    Mr. Shays. At that time did you know what the National 
Security Council was?
    Mr. Huang. It was not really that clear, but certainly I do 
now.
    Mr. Shays. Why didn't you ask Riady? Did you ask him what 
it was?
    Mr. Huang. I did not know exactly what he meant. He had an 
idea it was some policy-related stuff, advising the President.
    Mr. Shays. Did Riady explain why he thought you were 
qualified to work at the National Security Council?
    Mr. Huang. He didn't say that, but deep down in my heart, 
probably I would not get that kind of job anyway myself.
    Mr. Shays. Did Riady also suggest that you should apply to 
the Department of State and your answer was yes?
    Mr. Huang. That's right. That was one on the list, I 
believe.
    Mr. Shays. Did he explain why you should look at the 
Department of State?
    Mr. Huang. Basically because of my background in Asia.
    Mr. Shays. Did you keep James Riady updated on the progress 
of your appointment process?
    Mr. Huang. I could directly answer by saying yes, but it 
was not really with frequency. I think the memo indicated----
    Mr. Shays. So it wasn't a recurring update, but 
periodically you would update him?
    Mr. Huang. There was some conversation on that, yes.
    Mr. Shays. You stated in your task force interview, 
according to our information, that James Riady was a bit naive 
about any benefit that he might obtain by your working at the 
Department of Commerce.
    What benefit did Riady believe that he would get by your 
working at the Department of Commerce?
    Mr. Huang. Congressman, I think the focus may not even be 
narrowed to the Commerce, because our original intention was 
not only to go to Commerce or State or NSC.
    Mr. Shays. Then we won't limit it to Commerce. Your sense 
is that he thought it would be beneficial to him that you work 
in government. Explain to me what that would be.
    Mr. Huang. I believe what I was saying, the naive portion 
is in getting that kind of job.
    Mr. Shays. Mr. Chairman, can you yield me your time?
    Mr. Burton. I will yield you my time.
    Mr. Shays. Thank you. I will be a little clearer.
    He obviously thought it would be of benefit, and what do 
you think he thought the benefit would be?
    Mr. Huang. My thinking is that because Lippo's base is in 
Asia, because I can get those kind of jobs relating to Asia and 
Pacific affairs. So some of the things would be easier, he 
might be able to get some information on that.
    Mr. Shays. Fair enough.
    Why do you say that he was naive?
    Mr. Huang. No. 1, the information from me, it is going to 
be naive. I cannot really freely, if I took the job, I could 
not get the information.
    Mr. Shays. So your sense is he had a sense that you would 
be able to be helpful to him in a way that you felt you 
couldn't be?
    Mr. Huang. That's correct.
    Now, let me inject one more point that probably would be 
important. I would have to sense that he would have to tell 
people in that part of the world that there is somebody used to 
working with Lippo now is in the government. That would make 
him look different.
    Mr. Shays. Fair enough.
    I would like to have exhibit 153 put up. For the attorneys, 
it is exhibit 153.
    This is a letter from Maeley Tom to John Emerson who worked 
at the White House Office of Presidential Personnel that 
recommends you for an appointment.
    Now it is going to be not the first page, I'm going to ask 
you to turn to page 6. You will see it in the top right corner, 
page 6. That's where she talks about you. I will note, while it 
is still up there, and this may sound like a cheap shot, but we 
all in government have to be concerned about it.
    This is a letter from--the State of Connecticut stationery, 
State of California. It is the Senate. It's David Roberti who 
is President pro tem pore and Maeley Tom is his administrative 
director and she is talking blatant politics in her letter, 
recommending various people, why they would be good for the 
Democratic party and why it would be good to have Asians work. 
Not a letter that Republicans wouldn't write and I hope to gosh 
they would write, but on the President pro tem stationery.
    The first two sentences, ``John Huang, Executive Vice 
President of Lippo Bank, is the political power that advises 
the Riady family on issues and where to make contributions. 
They invested heavily in the Clinton campaign.''
    That again isn't a statement that you wouldn't see in some 
Republican letters, too, but ``invested heavily in the Clinton 
campaign'' is why I want to clean up campaign finance reform.
    And then it says, ``John is the Riady family's top priority 
for placement because he is like one of their own.'' Do you 
think this is an accurate description of you?
    [Exhibit 153 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.342
    
    [GRAPHIC] [TIFF OMITTED] T6496.343
    
    [GRAPHIC] [TIFF OMITTED] T6496.344
    
    [GRAPHIC] [TIFF OMITTED] T6496.345
    
    [GRAPHIC] [TIFF OMITTED] T6496.346
    
    [GRAPHIC] [TIFF OMITTED] T6496.347
    
    [GRAPHIC] [TIFF OMITTED] T6496.348
    
    Mr. Huang. I would reluctantly say yes. I would not really 
boast myself.
    Mr. Shays. You're not boasting. But that's your position 
and you are a political power. You do advise them on issues on 
where to make contributions, and that last line, ``John is the 
Riady family's top priority for placement because he is like 
one of their own,'' in other words, you are very close to the 
Riady family.
    Mr. Huang. That is correct, yes.
    Mr. Shays. Did you know that Ms. Tom was planning on 
encouraging your appointment?
    Mr. Huang. In a general sense, probably yes, because she 
was one of the more senior persons in our community.
    Mr. Shays. Ms. Tom is contacting James Riady about your 
interest in obtaining an appointment. Was she in contact with 
James Riady about your interest in this appointment?
    Mr. Huang. I really don't know exactly whether she did or 
she did not.
    Mr. Shays. But you stated in previous----
    Mr. Huang. I believe she probably did, yes.
    Mr. Shays. She's pretty close to the Riadys herself, 
correct?
    Mr. Huang. No, she is not.
    Mr. Burton. She doesn't work for the Riadys?
    Mr. Huang. She worked for Riady as a consultant at the 
Lippo Bank, but it was not very close though.
    Mr. Shays. I think it's a good distinction you're making. I 
want to make sure I don't put words in your mouth.
    She has a working relationship with the Riadys. She was 
employed by them through the Lippo Bank. So they know her and 
she knows them?
    Mr. Huang. Not Lippo Bank, but Lippo Group in the United 
States.
    Mr. Shays. The Lippo Group in the United States?
    Mr. Huang. That's correct.
    Mr. Shays. So they would know each other, but they aren't 
necessarily, say, as close as you would be with the family?
    Mr. Huang. That is correct, sir.
    Mr. Shays. But they have this working relationship?
    Mr. Huang. Congressman, apparently she misstated my 
position. I was not an executive vice president for Lippo Bank.
    Mr. Shays. What were you, just for the record?
    Mr. Huang. If I remember, based on that date I was the vice 
chairman and director of the Lippo Bank.
    Mr. Shays. Thank you for clarifying that.
    You would be pleased that I am going through many pages of 
questions that I'm not asking you, so if you see me doing this, 
be grateful.
    You got a job working for the Department of Commerce and 
you were principal Deputy Assistant Secretary for International 
Economic Policy at the International Trade Administration; is 
that correct?
    Mr. Huang. That was correct.
    Mr. Burton. Excuse me, Mr. Shays. Mr. Waxman is not here, 
we will go to the next round, and it is your time.
    Mr. Shays. Thank you. Would you please describe your 
responsibilities as the principal Deputy Assistant Secretary 
for International Economic Policy at the International Trade 
Administration?
    Mr. Huang. To put it very bluntly and directly, whatever 
the Assistant Secretary does not want to do. So most of the 
work is like organizational, personnel-related, budgetary and 
coordination among various units in the International Economic 
Policy.
    Mr. Shays. How large is IEP at ITA?
    Mr. Huang. It was one of the smallest units. I may misquote 
the number for you.
    Mr. Shays. Give me a range. I have no range. How many 
personnel might you be dealing with?
    Mr. Huang. Maybe a number like 100, something.
    Mr. Shays. That's still a lot of people.
    Mr. Huang. That's correct.
    Mr. Shays. When you worked in this position, were you ever 
told that you were specifically walled off from working on 
China issues?
    Mr. Huang. I was not. But I learned that later on. In 
reality, Congressman Shays, I knew I was not going to work on 
the China issues.
    Mr. Shays. You learned later on that you weren't to work on 
Chinese issues by whom? What did you learn later on? Was it 
through contacts or through the media?
    Mr. Huang. Through the media, I believe either Mr. Garten's 
testimony----
    Mr. Shays. He's the Under Secretary of Commerce?
    Mr. Huang. Under Secretary.
    Mr. Shays. Usually their responsibility is all the 
administration of the department and so on. But he seemed 
surprised that you were working on Chinese issues?
    Mr. Huang. That's what I heard, yes.
    Mr. Shays. In terms of policy areas, where do you get--did 
you get involved in Indonesia? Did you get involved in Taiwan? 
And did you get involved in China? Tell me in each of those 
areas, on policy.
    Mr. Huang. Basically IEP is involving territorial, which is 
in the whole world, divided into probably four or five areas. 
So whatever the commercial policies, generally is coming from 
the IEP. That's how it is. There is an area called Asia Pacific 
area which has its own Deputy Assistant Secretary.
    Mr. Shays. You worked for the Lippo Group, and I think you 
know there were some who were concerned that you had these ties 
to a fairly powerful family in Indonesia. Were you walled off 
from dealing with Indonesia?
    Mr. Huang. I did not have a direct responsibility for those 
areas anyway. I tried to stay away from it myself.
    Mr. Shays. You made a conscious effort to stay away?
    Mr. Huang. I did not think anybody would stop me from doing 
that. My concept for that is, if I had any knowledge, I could 
be helpful to everybody. Because of my past experience, I would 
be glad to help; that was my position. But nobody advised me in 
saying, John, don't touch Indonesia, don't touch China.
    Mr. Shays. There was no understanding when you worked with 
the department that, given your involvement with the Lippo 
Group, you needed to stay away from Indonesian issues?
    Mr. Huang. At least at that time I did not understand. But 
I'm trying to consciously stay away, yes, as much as I could.
    Mr. Shays. We need to nail this down a little better. Let 
me be clear on the question. I just need to know whether in 
your hiring you were told that certain areas were off bounds, 
given your relationships with a powerful economic and political 
family in Indonesia who also had significant relations to 
China.
    Mr. Huang. Not necessarily a geographic area, but I did 
discuss trying to stay away from the Lippo.
    Mr. Shays. Who was that discussion with?
    Mr. Huang. I think it was the general counsel of the 
Commerce Department, Ginger Lew. She was the person who advised 
me that, yes.
    Mr. Shays. It was her responsibility to give ethics advice, 
and she said not as much Indonesia, but in terms of the Lippo 
Group, you needed to stay away from that?
    Mr. Huang. Yes.
    If I could also expand, Lippo has interest in other areas, 
whatever Lippo's involvement was, to try to stay away.
    Mr. Shays. Your own calendar indicates that you had had 
several meetings with Indonesian officials. I'm not saying the 
Lippo Group. Your testimony is that Indonesia was not part of 
your responsibility. Was any country part of your 
responsibility? Is it your testimony that no country is part of 
your responsibility?
    Mr. Huang. That's not true. In the beginning it was that, 
but later on I was assigned to Taiwan. The reason is because of 
my background. I grew up in Taiwan and spent about 20 years 
there. I served in the Chinese Air Force in Taiwan as a reserve 
officer. The reason I got that area is, China was responsible, 
was taken over by another unit, somebody should be spearheading 
on Taiwan, so you have two separate teams.
    Mr. Shays. Thank you very much. Thank you, Mr. Chairman.
    Mr. Burton. Would you like me to do a little questioning 
here for a while?
    Mr. Shays. That would be fine.
    Mr. Burton. Let me followup, Mr. Huang, on Mr. LaTourette's 
questions. You went to Taiwan. Who did you meet with during 
that Taiwan trip?
    Mr. Huang. Basically private businessmen, in particular the 
person called--excuse me. It will come to me in a second. Mr. 
Kenneth Hsui.
    Mr. Burton. What was the purpose of that meeting?
    Mr. Huang. During my role for the Democratic party in 
trying to see whether it would be interesting, I understand he 
is an American citizen, although he lived in Taiwan; and he and 
I knew each other, and I was trying to see whether he would be 
interested in making a contribution to the Democratic party.
    Mr. Burton. Did you ask him to solicit other contributions?
    Mr. Huang. No. The reason is that he himself was very well 
off. He would be the only one I needed at that time.
    Mr. Burton. How much were you expecting him to give?
    Mr. Huang. Approximately half a million dollars.
    Mr. Burton. Half a million dollars?
    Mr. Huang. Right.
    Mr. Burton. Can you broaden your answer there to tell us, 
you were in Taiwan for some time. I have been over there myself 
many times, and there is a whole bunch of people that you meet 
with.
    Were there any other people that you met with that were 
interested in contributing and did you mention it to anybody 
else? And who all did you meet with? I know you probably won't 
recall all of them but you know the significant ones.
    Mr. Huang. Mr. Chairman, during that period of time, you 
know President Lee was first being elected as the President of 
Taiwan, and there was an inauguration event over there. A lot 
of people were coming from overseas there. A lot of people 
coming from Taiwan were there, also. For instance----
    Mr. Burton. You were interested in raising money for the 
Democrat party and so you talked to this one gentleman and were 
hoping that he would give a half a million dollars and you're 
saying he was a U.S. citizen so he would have been legally 
entitled to contribute?
    Mr. Huang. That's correct.
    Mr. Burton. Is he the only person you talked to about 
raising money over there?
    Mr. Huang. No. No, I was more or less exploring the 
opportunities through some friends who might be able to 
introduce me to more people.
    Mr. Burton. Those people that you talked to over there, 
were they American citizens?
    Mr. Huang. They were American citizens, yes.
    Mr. Burton. Did you talk to anybody that were not American 
citizens about contributing?
    Mr. Huang. No. If they were not an American, I did not ask 
for a contribution or a donation to the party.
    Mr. Burton. Did you talk to them in any way about giving 
money?
    Mr. Huang. No, sir.
    Mr. Burton. In late 1996 did you stay in Charlie Trie's 
Watergate apartment for a period of time?
    Mr. Huang. As I testified yesterday I believe----
    Mr. Burton. You did stay in his apartment?
    Mr. Huang. That's correct.
    Mr. Burton. How long did you stay there?
    Mr. Huang. Maybe around a week or two at the most.
    Mr. Burton. Do you know why you were staying there?
    Mr. Huang. I think the--during that period of time there 
was a subpoena being served on me by Judicial Watch in trying 
to find out the full situation for the Commerce Department, and 
I was really staying around different places.
    Mr. Burton. You didn't want to be served with a subpoena?
    Mr. Huang. No, I was really wondering why I was being 
served with a subpoena at the beginning and why I got involved.
    Mr. Burton. You were staying there in order to not be 
served?
    Mr. Huang. I was not trying to avoid being served. Actually 
my counsel, legal counsel had already received it, was doing 
that for me. But basically the media was hounding me. If I 
continued staying at my father-in-law's place in Silver Spring, 
people were going to continue to harass that place. Basically I 
was avoiding that part, not on the legal requirements.
    Mr. Burton. You weren't trying to hide out so you wouldn't 
get served?
    Mr. Huang. No, sir, I was not.
    Mr. Burton. Did you stay with any other friends or 
acquaintances during that period, during the finance scandal 
when it first became public?
    Mr. Huang. Yes, I also stayed with my brother-in-law for a 
few days.
    Mr. Burton. That was for the same reason, that you didn't 
want----
    Mr. Huang. That was the same reason and also my father's 
friends, in I think Potomac or Rockville, MD.
    Mr. Burton. You were moving around to different locations?
    Mr. Huang. A few days here, a few days there. I regret I 
did that but I really had no choice at that time. I did not 
want to have my family and relatives being harassed by the 
media. I did not really try to go around to avoid a subpoena, 
no.
    Mr. Burton. It was because of the media and not because you 
didn't want to be served?
    Mr. Huang. That is correct, sir, Mr. Chairman.
    Mr. Burton. In late October and early November, there is a 
large volume of telephone contact between you and Charlie Trie. 
At this point Trie had not been identified as a part of the 
campaign fundraising scandal. For example, on October 28, Trie 
called you five times. On the 29th, Trie called you twice. On 
the 30th, Trie called you once. On the 31st, he called you five 
times. On November 9, he called you. On December 24th he called 
you three times. Do you recall what you were talking to Mr. 
Trie about?
    Mr. Huang. Was that a call to my home in Los Angeles? I 
just want to be specific on that, sir.
    Mr. Burton. I'm not sure whether they were to your home but 
they were to you, wherever you were.
    Mr. Shays. Mr. Chairman, I'm happy to yield you my time if 
Mr. Waxman is passing.
    Mr. Burton. They were different phone numbers, I have been 
told by my staff.
    Mr. Huang. Mr. Chairman, I'm not sure I had that many 
conversations with him. Even though I had some conversations 
with him.
    Mr. Burton. Do you recall any of those conversations?
    Mr. Huang. It would not be any significant. Probably 
emphasizing my manners.
    Mr. Burton. That seems strange to me, Mr. Huang, because he 
called you 5, 7, 8, 13, 14, 17, 17 times in that timeframe; 17 
times. There must have been some reason for him to call you, 
and you don't recall at all?
    Mr. Huang. I really don't know. I can't give you any answer 
for that.
    Mr. Burton. What were you and Charlie Trie--what would you 
talk about? What were you talking about? Did you talk about 
friends or relatives? Campaign fundraising, what, when you did 
talk to him?
    Mr. Huang. I really need to look at those lists, maybe I 
can give you a better answer for that.
    Mr. Burton. I'm not even talking about those calls. When 
you did talk to Mr. Trie, you were not a close personal friend. 
You were an associate as far as raising campaign funds, were 
you not?
    Mr. Huang. That's correct. Also he subscribed to my idea, 
trying to work on something for the Asian American community as 
well. We had similar goals in helping Asia Pacific Americans.
    Mr. Burton. Were you in telephone contact with anyone from 
the Lippo Group during that period of time when these 17 phone 
calls took place?
    Mr. Huang. Mr. Chairman, it is possible. I don't recall at 
this time.
    Mr. Burton. You don't recall that, either? You don't recall 
any of these 17 phone calls, and you don't recall whether or 
not you talked about the Lippo Group.
    Mr. Huang. At this moment, no.
    Mr. Burton. Let me go on to the next question. We'll come 
back to that. Did you ever discuss with Charlie Trie whether 
you were going to mention his name to the media or to 
investigators? Did you ever talk to him about or did he ever 
ask you about, are you going to talk to the media about me or 
are you going to talk to the investigators about me?
    Mr. Huang. I don't think so, no. To mention about Mr. 
Trie's name.
    Mr. Burton. Did you ever talk about, did Charlie say, hey, 
John, don't mention me, or are you going to mention me to the 
media?
    Mr. Huang. That answer is no.
    Mr. Burton. You never talked to him about that.
    Mr. Huang. At that time, no.
    Mr. Burton. Well, at any time.
    Mr. Huang. No, not that I recall, no.
    Mr. Burton. Not that you recall?
    Mr. Huang. No.
    Mr. Burton. Did you discuss any contributions that Charlie 
Trie had made?
    Mr. Huang. At any time, Mr. Chairman?
    Mr. Burton. We're talking about after the campaign finance 
scandal started.
    Mr. Huang. I do remember there was one occasion he talked 
to me, more or less in a general sense trying to clarify the 
campaign contributions, the rule situation. More specifically, 
if I remember correctly, he said is the money coming from him 
go to a third party and then being given, was that OK or not.
    Mr. Burton. That's the only time that you can recall?
    Mr. Huang. That time, yes.
    Mr. Burton. Let me go back to the phone calls. On October 
10, you talked to Mr. Trie for 13 minutes. On October 10th, you 
talked to him again for 10 minutes. On October 28, you talked 
to him for 11 minutes twice. On October 29 you talked to him 
for 19 minutes. On October 30, you talked to him for 7 minutes. 
On October 31, you talked to him for 11 minutes, 15 minutes, 
both times. On October 31, you talked to him for 7 minutes and 
5 minutes. And on November 22, you talked to him for 9 minutes. 
And you don't remember any of those calls? These weren't just 
little bitty calls. They were pretty lengthy.
    Mr. Huang. Mr. Chairman, I did say I don't recall what I 
was talking to him. I did not say I did not talk to him on 
that. First of all, some of the conversation probably, I can 
respond to you. I was receiving the Judicial Watch subpoena. 
The media was trying to hound me. Maybe there was some 
conversation talking to him, can I stay there, when am I coming 
there, can he pick me up from certain places and come to his 
place. Actually he did take me from a certain area to a certain 
area. He was very helpful to me on that part. Within that 
timeframe, I'm pretty sure certain conversations that related 
to that direction.
    Mr. Burton. They are pretty lengthy phone conversations not 
to be more recalled. Let me ask you this. Did you ever talk to 
Charlie Trie about whether or not he should leave the country?
    Mr. Huang. That, I did not.
    Mr. Burton. You did not talk to him about that, in any of 
these phone calls?
    Mr. Huang. No, sir.
    Mr. Burton. Since there is no one here, I will yield myself 
5 more minutes. Since the meeting began and we started asking 
you questions, we were told that you weren't very close to 
Charlie Trie. I mean, if he was chauffeuring you around and you 
were on the phone with him this much, it sounds like you were 
pretty close, and you said he was very helpful to you and you 
appreciated that. What do you mean by you weren't very close to 
him and you weren't his friend?
    Mr. Huang. Relatively speaking compared to some of the 
friends. I'm not saying he was not my friend. He was my friend. 
I believe he would consider me as his friend, since 1994, June 
1994. But I knew him a little better because in 1996, my career 
with the DNC. I knew him much better that way, a little closer.
    Mr. Burton. When you would call him and talk to him for 15 
minutes and 15 more minutes, you can't recall what you talked 
to him about then but when he picked you up and drove you 
around to these different places, like your brother-in-law's, 
his apartment, your father-in-law's, whatever it was, what did 
you guys talk about? If you can give me a rough idea. How much 
time did you spend together?
    Mr. Huang. Mr. Chairman, if I can best recollect on this, 
the topic of conversation all centered, the event happened on 
me at that time.
    Mr. Burton. Let me go on to the Hsi Lai Temple. Did you see 
Don Fowler at the temple on the morning of the event?
    Mr. Huang. Yes, he was there.
    Mr. Burton. He was the head of the DNC at the time?
    Mr. Huang. At Hsi Lai Temple, yes.
    Mr. Burton. Did he express any concerns to you about the 
location of the event?
    Mr. Huang. He did not.
    Mr. Burton. He didn't say that he was concerned about it?
    Mr. Huang. Not that I remember on that.
    Mr. Burton. Please give me a general description of the 
event. What did it look like, how did it take place? When did 
Vice President Gore arrive? What did he do, what did he say and 
that sort of thing?
    Mr. Huang. I will try my best. Hopefully I don't omit a key 
part to you. The temple is quite large, as you might have known 
already. There were a lot of followers in that temple. There 
were welcoming teams right outside the front gate of the 
temple. A high school band was there also in welcoming the Vice 
President's entourage at that time. Once he was escorted in, 
they would go to a small room first, like a holding room, and 
would follow inside the courtyard, doing a hosting, a welcoming 
session. Then he was more or less touring the whole compound. 
The compound looks like at least a few basketball courtyards on 
that.
    Mr. Burton. Do you recall the remarks, what kind of remarks 
he gave, what he said?
    Mr. Huang. During that tour and welcoming session, he did 
not really make any comments. More or less people were 
welcoming him. He was going through the temple to pay respects 
to the temple.
    Mr. Burton. Did the meal take place right after the tour 
and then before he spoke?
    Mr. Huang. The lunch? The lunch was afterwards, yes. The 
luncheon place, which is in the underground of the main temple.
    Mr. Burton. After the meal in the temple dining hall, there 
were a number of people who said a few words, right?
    Mr. Huang. Are you talking about at the meal?
    Mr. Burton. Yes.
    Mr. Huang. Yes.
    Mr. Burton. Did Congressman Matsui speak at the event?
    Mr. Huang. He did.
    Mr. Burton. Did he make any mention of how much money was 
going to be raised or would be raised at the event?
    Mr. Huang. I don't recall him mentioning that, sir.
    Mr. Burton. You don't recall that?
    Mr. Huang. I don't recall that.
    Mr. Burton. Did he make any statement to the effect that 
they had checked with the lawyers and that it was OK to have 
the event at the temple?
    Mr. Huang. I certainly don't remember he said something 
like that.
    Mr. Burton. Are you aware that several of the attendees at 
the event said that one of the speakers made comments to the 
effect, a number of people who were there said that one of the 
speakers said it was OK to have it there and that a lot of 
money had been raised. You don't recall anybody saying that?
    Mr. Huang. Certainly I don't recall anybody saying that.
    Mr. Burton. If someone said that, would they be incorrect 
or you just don't recall?
    Mr. Huang. I didn't say they were. I just don't recall 
that, sir.
    Mr. Burton. Did the Hsi Lai Temple pay for all the costs of 
the event?
    Mr. Huang. My best recollection is they were paying for all 
the costs for the event. But they were supposed to submit a 
cost breakdown. But somehow that thing did not come through in 
time.
    Mr. Burton. They in effect did pay for all of it?
    Mr. Huang. That is correct.
    Mr. Burton. Did you arrange for the temple to be paid for 
their expenses? Were you trying to arrange for them to be 
repaid for the expenses?
    Mr. Huang. I cannot remember exactly what I did, but as I 
just said, there is communication with them saying come up with 
a cost of the event, but that cost somehow was never--never 
came through to us.
    Mr. Burton. I see my time is expired. Mr. Waxman.
    Mr. Waxman. Mr. Chairman, I will pass on this round of 
questions.
    Mr. Burton. The gentleman passes.
    Let me read this here.
    At the conclusion of the event on April 29, how much money 
had they raised?
    Mr. Huang. On that particular day, I do not really know.
    Mr. Burton. According to our records, it was around 
$45,000.
    Mr. Huang. It was a small amount, yes.
    Mr. Burton. After the event, did you talk to Richard 
Sullivan about how much the event had raised?
    Mr. Huang. I did not remember I talked to him for the exact 
amount that had been raised.
    Mr. Burton. You didn't talk to him about how much money had 
been raised?
    Mr. Huang. However, he did expect me to conclude that and 
bring some money back.
    Mr. Burton. What did Mr. Sullivan say?
    Mr. Huang. To try to wrap it up, he needed me to go back, 
bring some money back. There was no specific amount at that 
time.
    Mr. Burton. But he said he wanted more money than that?
    Mr. Huang. No, I did not even mention to him about $45,000 
yet at that moment, I don't believe.
    Mr. Burton. Did you talk to anybody about how much had been 
raised?
    Mr. Huang. Not to anybody in the DNC, no.
    Mr. Burton. Anybody at all? I mean, did you talk to anybody 
besides people at the DNC?
    Mr. Huang. I, sir, don't recall. However, Mr. Chairman, 
there is a target goal for the fundraising for Vice President 
Gore's visit in southern California, L.A.
    Mr. Burton. What was the target goal?
    Mr. Huang. Somewhere around $200,000, $250,000.
    Mr. Burton. Did Sullivan tell you he was disappointed with 
the amount that you had raised at that event?
    Mr. Huang. Certainly he did not tell me in person. If I 
remember he made--I said, that's all I raised. He said, that's 
OK, you know.
    Mr. Burton. He did not tell you that he was disappointed?
    Mr. Huang. Not that I recall he ever said that, sir, in 
that language.
    Mr. Burton. Mr. Sullivan gave us a deposition, and he 
says--did he tell you that he was disappointed? You just don't 
recall that?
    Mr. Huang. I just don't recall that, sir.
    Mr. Burton. That's strange. Because, I mean, you were in 
charge of the event, and he was one of the key people at the 
finance department there. If he said he was disappointed, he 
wouldn't want to lose face, wouldn't you say something to him? 
You just don't remember.
    Mr. Huang. I still don't remember that, yeah.
    Mr. Burton. Did Sullivan tell you that he had expected more 
money from the event considering the trouble that you had had 
in arranging it at the temple?
    Mr. Huang. No, as I indicated, Mr. Chairman, there's target 
goals set it up earlier about $200,000, $250,000.
    Mr. Burton. Did he tell you that he wanted to make the 
DNC's end-of-the-month fundraising numbers look good and he 
wanted more money out of the event? And did he tell you that he 
expected more money from the event?
    [Discussion off the record.]
    Mr. Huang. I sir, don't recall. I would assume I myself was 
not quite happy with the amount being raised.
    Mr. Burton. Mr. Sullivan said once again that he did tell 
you that. In his deposition he told us that. And he also said 
that in April he wanted to hit the ball out of the ballpark, so 
to speak, by raising a lot of money. Did Sullivan ask you if 
you had any contributions that had not yet come in that were 
outstanding and did he ask you to raise more? Did he say, is 
there more money coming in or----
    Mr. Huang. I believe I already raised--testified I would 
raise more money anyway.
    Mr. Burton. Did you do that at the temple? Did you tell him 
that at the temple?
    Mr. Huang. Not from the temple, no.
    Mr. Burton. So you didn't say anything to him at the temple 
about you would raise more money because it didn't reach what 
you wanted.
    Mr. Huang. Not that I recall. Mr. Sullivan was not there, 
by the way.
    Mr. Burton. Did you have a telephone conversation with him?
    Mr. Huang. I had a telephone conversation. That's 
afterwards, though.
    Mr. Burton. Was that from the temple?
    Mr. Huang. I don't believe so. It probably could have been 
from my home.
    Mr. Burton. As I understand it, according to Mr. Sullivan's 
testimony right after the event there was a telephone call and 
you two talked. You don't recall that?
    Mr. Huang. I do recall I talked to him, but I cannot place 
the time right at this moment, Mr. Chairman.
    Mr. Burton. You don't recall talking to him about the 
amount of money or the disappointment or any of that?
    Mr. Huang. Not in the exactly words you're saying, Mr. 
Chairman.
    Mr. Burton. Did Sullivan ask you to get some California 
money in and, if so, what did that mean to you? In other words, 
did he say get some money in from California? And, if he did, 
what did that mean to you?
    Mr. Huang. I don't know whether he did it or not, but what 
he means is try to bring as much money as possible back.
    Mr. Burton. Did he mean from Lippo connections in 
California or Asian Americans from California or do you know 
what he meant?
    Mr. Huang. Whatever the event I--transpired at that time, 
you know, whatever you can collect from the group over there.
    Mr. Burton. How did your discussion with Mr. Sullivan end 
on the telephone? Did you promise him on the telephone you 
would raise more money?
    Mr. Huang. I did say I'll bring a good sum of money back 
this time.
    Mr. Burton. Well, if you said that, why wouldn't you 
remember that he was disappointed in the amount of money that 
was raised?
    Mr. Huang. No, I just did not say--I didn't say that way, 
Mr. Chairman. I did not remember exactly what he was saying 
that way. But I do know all--for all intent and purpose we want 
to raise as much money as possible.
    Mr. Burton. OK. You'll have to excuse me. We have--I have 
to take about a 3-minute break here. I have to make an 
emergency phone call.
    Would you care to take the Chair?
    Mr. Shays. I would be happy to take the Chair.
    Mr. Burton. I'll let Mr. Shays take the Chair.
    Mr. Shays. Just give me the gavel.
    Mr. Burton. Mr. Shays, it's your round.
    Mr. Waxman. Mr. Chairman. I have a couple.
    Mr. Shays. It is Mr. Waxman's time. I would be happy to 
give him time.
    Mr. Burton. I thought he had passed, but Mr. Waxman.
    Mr. Waxman. At the previous round. I won't take much time. 
I'll let you get back to your questions. I want to clean up a 
few things.
    Mr. Shays [presiding]. Do you want to hit the clock?
    Mr. Waxman. Mr. Huang, on this Hsi Lai Temple event, did 
you look at it in terms of what's called a maintenance event? 
Have you ever heard that term, maintenance event? Community 
event to----
    Mr. Huang. The community event, yes.
    Mr. Waxman. By a community event--or I have even heard this 
term maintenance event. It's an event not to raise money but to 
develop good will and reach out to the community, maybe in the 
hopes later of raising money from members there by establishing 
some positive contacts. Is that an accurate statement?
    Mr. Huang. That's accurate, yes.
    Mr. Waxman. The other thing I wanted to mention, these 
conversations you had with Mr. Trie and Mr. Sullivan, those 
were over 3 years ago, weren't they?
    Mr. Huang. That's correct.
    Mr. Waxman. You were being asked to remember details of 
those conversations. Mr. Trie was not a social friend of yours, 
as I believe you testified, is that right?
    Mr. Huang. However, he was--that time in 1996, you know, I 
was in D.C. working for the DNC. Certainly I have some more 
contact with him occasionally, many, many years prior.
    Mr. Waxman. Thank you very much.
    I just wanted to get those clarifications in there. Yield 
back the balance of my time.
    Mr. Shays. Thank you.
    I recognize myself for 5 minutes.
    On September 26, 1994, you were working for the Commerce 
Department; and you were scheduled to meet with Miss Kristoff. 
Records indicate that you entered the White House compound at 
5:42. Does Kristoff refer to Sandy Kristoff at the NSC?
    Let me--maybe what we do is put up exhibit 174, which is 
just the White House visits. This would be 1 of the 43 times 
I'm assuming that you while employed with the Department of 
Commerce you met with the--in the White House. And it's on page 
4 I think we want to put up. Could you get that for me. The 
question is, who is Kristoff?
    [Exhibit 174 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.349
    
    [GRAPHIC] [TIFF OMITTED] T6496.350
    
    [GRAPHIC] [TIFF OMITTED] T6496.351
    
    [GRAPHIC] [TIFF OMITTED] T6496.352
    
    [GRAPHIC] [TIFF OMITTED] T6496.353
    
    [GRAPHIC] [TIFF OMITTED] T6496.354
    
    [GRAPHIC] [TIFF OMITTED] T6496.355
    
    [GRAPHIC] [TIFF OMITTED] T6496.356
    
    [GRAPHIC] [TIFF OMITTED] T6496.357
    
    [GRAPHIC] [TIFF OMITTED] T6496.358
    
    [GRAPHIC] [TIFF OMITTED] T6496.359
    
    Mr. Huang. That Kristoff could be Sandy Kristoff.
    Mr. Shays. OK. Now tell me, did you meet with Sandy 
Kristoff on or about September 26, 1994?
    Mr. Huang. I'm quite surprised that name was there. I'm 
trying to trace my memory. I certainly don't recall I met with 
her personally on that occasion. However, Congressman Shays----
    Mr. Shays. Let me just say that we can turn the chart over 
to the next page 5, and you are marked down at 2:00 and 5:00, 
but it looks like you didn't actually get there. But I would 
like to know if you did or not, whether the reports are not 
accurate or not.
    Mr. Huang. Before I answer this question, I'm trying to 
make a further explanations on that. There might be an 
interdepartment meeting with the White House during that period 
of time. The reason, if my name was mentioned over there, was 
because the person was in charge of the Asian Pacific affairs 
in IEP, namely Nancy Linn Patton, who is a director also, 
Deputy Assistant Secretary. She might not be able to go there.
    Mr. Shays. What we have is we have three meetings, two of 
which are not marked down as having attended. But the one on 
September 26th, you're marked down as attending. So I'm 
assuming you were there.
    Mr. Huang. I was there. I was trying to explain to you 
probably it related to the interdepartment meeting. I was late 
also one occasion.
    Mr. Shays. OK. OK. But, yeah, you were there. I just want 
to establish that. You're answering a question I haven't asked 
yet. You'll get a chance.
    What was the purpose of your meeting now?
    Mr. Huang. Again, it was interdepartment meeting. I could 
not specifically remember what was it about now.
    Mr. Shays. Did you discuss the United States-Thai Business 
Council with Miss Kristoff?
    Mr. Huang. Definitely not, no.
    Mr. Shays. Now, did you represent on what basis you were 
having--that you were there? Was it clear as to why you were 
there?
    Mr. Huang. Congressman Shays, the only thing--the only time 
I have very strong impression is that one time is rainy day in 
late afternoon I was there very late. That's related to the 
interdepartmental meeting. People was already at the meeting. I 
came in very late. Probably the meeting was over. I really did 
not have any recollection have any more than one occasion met 
with Ms. Sandy Kristoff except--except in the State Department.
    Mr. Shays. And when was that? Before or after?
    Mr. Huang. I couldn't specify. The reason I'm trying to say 
that is, at that time, the Assistant Secretary for the Asian 
Pacific Affairs for the State Department was--who was it? 
Sorry. He has regular meeting for interdepartment agencies. Any 
department has Asian Pacific Affairs units will have a 
routinely meeting with him.
    Mr. Shays. Did you tell Pauline Kanchanalak--let me ask 
you--she was organizing the United States-Thai Business Council 
meeting. There was some meeting that was going to take place. 
You want to talk about that at all?
    Mr. Huang. It was taking place in the White House I think.
    Mr. Shays. Now, Miss Kanchanalak was calling you at the 
Department of Commerce, but I want to focus the timeframe on 
September 1994. Around that time she was working on 
establishing the United States-Thai Business Council, is that 
correct?
    Mr. Huang. That is correct.
    Mr. Shays. Did she discuss with you her plan to hold an 
inaugural meeting with the United States-Thai Business Council 
on October 6, 1994?
    Mr. Huang. I believe all about that time, that period of 
time.
    Mr. Shays. But she talked to you about it.
    Mr. Huang. She did.
    Mr. Shays. Was she planning to have the Prime Minister of 
Thailand attend the inaugural meeting?
    Mr. Huang. She did indicate that.
    Mr. Shays. Was she also planning to have the President of 
the United States attend the meeting?
    Mr. Huang. She would like to have, yes.
    Mr. Shays. Did she express to you any problems she was 
having in organizing the meeting?
    Mr. Huang. She couldn't get things done.
    Mr. Shays. Pardon me?
    Mr. Huang. She could not get that done, at least at that 
period of time.
    Mr. Shays. Get what done?
    Mr. Huang. Get this meeting accomplished.
    Mr. Shays. OK. My time has run out.
    Mr. Burton [presiding]. Would you like some more time right 
now? I would be glad to yield to you 5 minutes.
    Mr. Shays. Thank you.
    I want you to be more specific as to what type of problems 
she had.
    Mr. Huang. She had some difficulty in getting things done. 
In other words, there's apparently political battles over 
there. I can only speak on the outside. I cannot really get 
into the detail for that.
    Mr. Shays. Yeah.
    Mr. Huang. I understood the--Sandy Kristoff was the 
opponent, would not agree to have such an arrangement.
    Mr. Shays. Arrangement meaning the President.
    Mr. Huang. That's right. To have in the White House.
    Mr. Shays. Did she ask your help?
    Mr. Huang. She did.
    Mr. Shays. What did she ask you to do?
    Mr. Huang. She expressed, you know, the dismay that this 
could not be done, you know. She asked me whether--anything I 
could do on that basis.
    Mr. Shays. OK.
    Mr. Huang. But I did not really promise her and say I will 
do one, two, three, four. I did not. But I believe I--
subsequently, I have a memo to Deputy Undersecretary Rothkopf.
    Mr. Shays. So you did do something, and you expressed it in 
a memo.
    Mr. Huang. That's right.
    Mr. Shays. Why don't we look at that? That's exhibit 192.
    Now, Mr. Rothkopf is the--was Deputy Undersecretary when 
you were there. He was your superior. That's correct?
    [Exhibit 192 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.360
    
    Mr. Huang. That is correct.
    Mr. Shays. Had you spoken with Mr. Rothkopf about the 
United States-Thai Business Council prior to writing this 
memorandum?
    Mr. Huang. I don't believe I spoke to him directly. I just 
have the memo to send it to him.
    Mr. Shays. Did Mr. Rothkopf express any concerns about this 
proposed United States-Thai Business Council event?
    Mr. Huang. I don't believe that I have a direct 
conversation on--face to face on these issues. I thought I 
would just send a memo. That was it.
    Mr. Shays. In the first paragraph of your memorandum to Ms. 
Rothkopf you suggest that you and Mr. Rothkopf contact Sandy 
Kristoff of NSC to find out what is going on before we do 
anything else. What did you mean by ``find out what is going 
on?''
    Mr. Huang. As I indicated to you, Congressman, earlier, 
apparently there was some battle going on as to this proposed 
meeting, whether it could take place or not. Now, when I say 
we, doesn't mean Mr. Rothkopf and myself. Because Mr. Rothkopf 
is in a higher level than I do. I did not have any direct 
contact with Ms. Kristoff in any level. And Mr. Rothkopf has. 
We meaning probably from the Department of Commerce point of 
view or ITA's point of view.
    Mr. Shays. In this memo, you expressed numerous concerns 
and troubles with hosting the launch to the United States-Thai 
Business Council. First, you stated a matter of this sort 
presents risks and opportunities. What were the risks and what 
were the opportunities?
    Mr. Huang. OK. Again, I want to thank you, Congressman 
Shays, to point out this thing in the memo. I have not read 
this, seen this.
    Mr. Shays. I am happy to have you read it and take your 
time.
    Mr. Huang. The risks in my mind--at that particular moment, 
the Prime Minister from Thailand was coming over. And also to 
find out this thing was not done it may endanger some of the 
business opportunity or future relationship between United 
States and Thailand. Now, there was if this can be done then it 
could be bring up more opportunity for both countries. I guess 
that that was basically what I meant.
    Mr. Shays. You also stated, we at the DOC, including the 
Secretary, can look good and gain benefits if we could get this 
matter squared away. But we may not want to risk relationship 
with Sandy slash NSC especially if she, Sandy, strongly objects 
doing the launch for this Council in the White House. How did 
you know that Sandy Kristoff would object to doing the 
inaugural meeting? Who spoke to her about it? Did Pauline 
Kanchanalak speak to her?
    Mr. Huang. This I learned from Ms. Kanchanalak.
    Mr. Shays. So you're getting this from Ms. Kanchanalak?
    Mr. Huang. That is correct.
    Mr. Shays. OK. What were the NSC objections?
    Mr. Huang. I learned again indirectly here.
    Mr. Shays. Her, from Ms. Kanchanalak.
    Mr. Huang. The basic objection is coming from Mr. Driscoll. 
Mr. Driscoll is executive director for U.S. ASEAN Council. Now 
here, as you know very well, Thailand is one of a member of 
ASEAN nations. So here is another person who coming out to set 
up United States-Thai Business Council. Apparently it's going 
to draw more members away. Maybe that was the politics behind 
that.
    Mr. Shays. Did you mean that the Commerce Department was a 
neutral party?
    Mr. Huang. We were not involved for these direct contact.
    Mr. Shays. Who were the parties involved?
    Mr. Huang. I believe it was NSC. Or Sandy Kristoff 
directly, yeah.
    Mr. Shays. You also stated, ``Quite a few members of this 
proposed council from Arkansas may want to utilize their 
contacts to get this matter squared away directly from the top 
even if they offend Sandy and the NSC.''
    What did you mean by getting this matter squared away 
directly from the top?
    Mr. Huang. The best I learned is that when the United 
States-Thai Business Council have some members, members coming 
from Arkansas, what I was trying to say--these people also was 
friends with Pauline Kanchanalak--maybe Pauline would be able 
to ask these people, go directly to the President to get that, 
that things done.
    Mr. Shays. Who has time now, Mr. Chairman?
    Mr. Burton. Mr. Waxman. He's not here. Would you care to go 
forward?
    Mr. Shays. A few more.
    Mr. Burton. We'll yield to the gentleman. It's your time.
    Mr. Shays. Thank you.
    ``Squared away at the top,'' does not mean the President of 
the United States?
    Mr. Huang. It could be directly with the President.
    Mr. Shays. Did you tell--did someone tell you that the 
United States-Thai Business Council members were planning on 
contacting Clinton, and did you speak with any of the members?
    Mr. Huang. I did not speak to any of the members, no.
    Mr. Shays. Let me just conclude by saying, just this area, 
you also stated, ``My personal observation is that President 
Clinton will be very upset if he finds out what's going on 
behind the scene.''
    Mr. Huang. I'm sorry, I need to correct the statement to 
say would I contact any member on that. Pauline definitely was 
the member. Excluding her, I did not speak to anyone else.
    Mr. Shays. Now, Pauline was the individual who gave 
$268,000 that was from foreign sources that was basically 
declared illegal?
    Mr. Huang. That was the same person, yes.
    Mr. Shays. Were you acting on her behalf because of the 
$268,000?
    Mr. Huang. I didn't believe at that time she was giving 
that much. I did not, even though she gave that kind of money. 
I thought you mentioned the figure; it was a much later date 
when I was at DNC.
    Mr. Shays. Thank you. Happy to have that clarified.
    Just to conclude here, how did you know the President might 
be upset? Or why did you think he might be?
    Mr. Huang. Just my personal judgment on that, because the 
turf battle underneath. And just in case it would ruin the 
relationship on the top, if that happen, I would assume the 
President might be upset. Still, I did not talk to President on 
this matter.
    Mr. Shays. OK.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Burton. If you don't mind, I'll use the rest of your 
time; then I'll use mine.
    I want to go back to these phone calls that you made. We've 
talked about them a number of times. These are calls to Lippo 
organizations either in Indonesia or Los Angeles. On the 17th--
or July 19th, you made two calls; the 27th, one; the 28th, one; 
August 8th, two; August 30th, one; October 4th, one; October 
5th, two; October 6th, you made five; the 11th, one; 12th, one.
    And then on the 18th you made 19 calls or 19 faxes, rather; 
19 times you faxed to Lippo Pacific. These are from the Stevens 
Co. across the street. But if you look at all these faxes, 
there were never over four or five sent except on 1 day, 
October 18th.
    Do you attach any significance to that?
    [Discussion off the record.]
    Mr. Burton. That was all the way to Lippo Pacific.
    Mr. Huang. First of all, Mr. Chairman, I don't believe that 
was sent by me, No. 1. No. 2----
    Mr. Burton. But you did go across the street to the Stevens 
office on a regular basis to make phone calls and things like 
that?
    Mr. Huang. Yeah, I do not deny that. Yes.
    Mr. Burton. But you don't believe these faxes are yours.
    Mr. Huang. By the way, the second answer is--let me finish, 
Mr. Chairman.
    I believe there was attempt to sending a fax did not go 
through, it just constantly resend and resend and resend.
    Mr. Burton. Nineteen times?
    Mr. Huang. Probably that was it. My personal experience in 
the past, the line to Indonesia may not be there as easily 
getting through.
    Mr. Burton. I know. That's why we go from July all the way 
through May of the next year. So for 10 months the most times 
they ever tried to fax something over there was five times; 
most of the time it was two or one. In fact, there were only 
two occasions when they tried five times.
    But this 1 day there were 19, and you don't recall anything 
about that?
    Mr. Huang. No. Not on this one, no.
    Mr. Burton. OK. Let me go back to the temple.
    Now, at the end of your conversation on the phone with Mr. 
Sullivan, you said you would raise more money.
    Mr. Huang. I try to bring more money, yes.
    Mr. Burton. Yeah. What did you do after your conversation 
with Mr. Sullivan? Did you speak to Maria Hsia?
    Mr. Huang. I did.
    Mr. Burton. What did you tell her?
    Mr. Huang. Basically I said I only get this much money, and 
then also Vice President were here in the event. I really need 
to bring back some money to Washington, DC, on this trip back.
    Mr. Burton. How much money did you tell her you needed to 
get?
    Mr. Huang. I needed to get about $100,000. At least this 
trip bring back $100,000.
    Mr. Burton. You raised $45,000, so you needed $55,000 more.
    Mr. Huang. In my mind was that--was that--my setting was 
that.
    Mr. Burton. Uh-huh.
    Mr. Huang. OK.
    Mr. Burton. According to the testimony from the monks who 
have been immunized and the nuns at the Buddhist temple, the 
day after the event Maria Hsia called Man Ho and told her that 
you needed $55,000 and needed it before you left for Washington 
that evening. Is that what you told Maria Hsia?
    Mr. Huang. That's her exact language, but the concept is 
the same, yes.
    Mr. Burton. Do you know if Maria Hsia told this to Hsing 
Yun?
    Mr. Huang. That I don't know. I left it to her.
    Mr. Burton. According to the testimony of the immunized 
monks and nuns from the temple, Man Ho then met with Yi Chu, 
the bookkeeper for the temple, and told her that they needed to 
make $55,000 in contributions very quickly. Yi Chu then asked 
the first 11 monks that she saw to write a $5,000 contribution 
to the DNC. All 11 of these monks were reimbursed for their 
contributions by the temple.
    Did you have any knowledge that Maria Hsia had asked the 
monks to make $55,000 in contributions by the time that you 
came to the temple on that evening?
    Mr. Huang. I did not, sir.
    Mr. Burton. She didn't mention anything to you about that?
    Mr. Huang. No.
    Mr. Burton. Did she give you the checks?
    Mr. Huang. She did.
    Mr. Burton. Didn't you ask her where those checks came 
from?
    Mr. Huang. I did not. I thanked her.
    Mr. Burton. She gave you $55,000 in $5,000 checks and you 
didn't ask her a thing?
    [Discussion off the record.]
    Mr. Huang. Mr. Chairman.
    Mr. Burton. It's my turn now, so I yield myself 5 minutes.
    Go ahead.
    Mr. Huang. Mr. Chairman, the step-by-step situation, I went 
to the temple on the way to airport. And Maria Hsia was there, 
she hand me an envelope indicating there was about 100,000 
there. And I thank her for it.
    Mr. Burton. I know. The night before or right after the 
temple event, you got $45,000. You were concerned about that. 
You talked to Mr. Sullivan. And you told him you would try to 
get more money.
    You then talked to Maria Hsia and said, hey, we're $55,000 
short, we ought to get $100,000 from this event. I'm not 
putting words in your mouth, but that's the gist of what you 
said. You leave.
    The next day she talks to the head of the monastery and 
says we've got to get $55,000 more. She's a member of the 
temple. She gets 11 monks or nuns to write checks for $5,000 
each, and they're reimbursed by the temple. You come back on 
your way to the airport to get the $100,000 which is in an 
envelope, and you don't even ask her where the extra $55,000 
came from?
    I mean, she got that in just a matter of hours. Weren't you 
even curious?
    Mr. Huang. No, I did not. Because she was the main person 
that maintain contact on the other side. And I just mentioned 
to her I would like to have a chance to bring back $100,000 
this trip with me in Washington, DC.
    I did not really ask her. I thank her for it. That's it.
    Mr. Burton. So you walked into the temple the day before it 
was $45,000, she gives you an envelope says here's $100,000 and 
you just say thanks.
    Mr. Huang. That is correct. I even thank--later on Man Ho 
came out; I said thank you very much.
    Mr. Burton. Why did you say thank you to Man Ho?
    Mr. Huang. For all the events this time she will put out, 
because she was handling general affairs.
    Mr. Burton. She was the one that was in charge of the 
finances for the temple, wasn't she?
    Mr. Huang. That I did not--didn't know. I do know she was 
in charge of the general affairs to arranging everything.
    Mr. Burton. Uh-huh.
    See, Man Ho met with Yi Chu, who was the bookkeeper, and 
asked her to get the $55,000 out through the monks. And so you 
said you thanked Man Ho for her help. But you didn't thank her 
for the $55,000.
    Mr. Huang. No. She came out; as a courtesy I say, thank 
you. I just say that.
    Mr. Burton. But you didn't know the money came from the 
temple?
    Mr. Huang. I did not.
    Mr. Burton. What time did you arrive at the temple on the 
evening of April 30th? Do you know what time it was? You said 
you were on the way to the airport.
    Mr. Huang. I normally take the red eye back, so must be 
around 7, 8, around that time, sir.
    Mr. Burton. Uh-huh. And the only two you met with were 
Maria Hsia and Man Ho? Did you meet with any of the monks?
    Mr. Huang. I couldn't quite recall it was additional 
persons in that room or not. There might be a person was there 
reading newspaper, I don't know who that person was.
    Mr. Burton. You didn't see other monks or nuns?
    Mr. Huang. I did not.
    Mr. Burton. So the only two that you recall are Man Ho and 
Maria Hsia?
    Mr. Huang. Right. In sequence, Maria came out first and 
then Man Ho later.
    Mr. Burton. Did someone give you the 11 checks that had 
been written--well, I've already asked you that and you said 
that was already in the envelope with the other, all the 
$100,000 was in one envelope.
    Mr. Huang. That's all combined.
    Mr. Burton. You didn't open the envelope or look in it at 
all?
    Mr. Huang. No, I just had to dash to the airport.
    Mr. Burton. Ten of the 11 checks are exhibits 403 to 412. 
Did you know that these checks were--you did not know, you 
said, that they were written by monks or nuns?
    [Exhibits 403, 404, 405, 406, 407, 408, 409, 410, 411, and 
412 follow:]
[GRAPHIC] [TIFF OMITTED] T6496.361

[GRAPHIC] [TIFF OMITTED] T6496.362

[GRAPHIC] [TIFF OMITTED] T6496.363

[GRAPHIC] [TIFF OMITTED] T6496.364

[GRAPHIC] [TIFF OMITTED] T6496.365

[GRAPHIC] [TIFF OMITTED] T6496.366

[GRAPHIC] [TIFF OMITTED] T6496.367

[GRAPHIC] [TIFF OMITTED] T6496.368

[GRAPHIC] [TIFF OMITTED] T6496.369

[GRAPHIC] [TIFF OMITTED] T6496.370

    Mr. Huang. I did not.
    Mr. Burton. And you never questioned where she got the 
extra $55,000 in a few short hours.
    Mr. Huang. I did not question that either, no.
    Mr. Burton. You didn't have any questions in your mind 
about where the money came from, you just took it and left.
    Mr. Huang. That is correct.
    Mr. Burton. You didn't question where the extra $55,000 
came from.
    Mr. Huang. No, I did not, sir.
    Mr. Burton. OK. Well, obviously this event you know has 
received a lot of public scrutiny. But now that you're 
cooperating, it's worth reviewing some of the public statements 
that you've made about the event. Right after news of this 
event became public, Maria Hsia's then-lawyer, Peter Kelly, 
stated that this event was a Huang show, and that all that 
Maria Hsia did was make a few phone calls.
    Is that right? He said it was your event and all Maria Hsia 
did was just make a few phone calls, but it was Huang's show.
    Mr. Huang. I was with the DNC, you know. I certainly work 
with Maria Hsia in getting things done. I did not have any 
direct contact with the temple. I'm not even a Buddhist 
follower.
    Mr. Burton. So that statement would not be true, then? It 
was totally your event?
    Mr. Huang. I was part of a coordination on the DNC side. 
The other side basically all through----
    Mr. Burton. But she's the one that did all the fundraising?
    Mr. Huang. No, no, I didn't say that she did the 
fundraising. I also did some too myself.
    Mr. Burton. For the event?
    Mr. Huang. For the event.
    Mr. Burton. For people other than members who were the 
temple?
    Mr. Huang. That is correct.
    Mr. Burton. All right. Another Vice President Gore aide is 
cited in the press as saying that the event was intended to 
raise the Vice President's profile in the Asian American 
community and not to raise money. Was that true? I mean, was 
this specifically supposed to be to raise his profile with 
Asian Americans or was it to raise money?
    [Discussion off the record.]
    Mr. Huang. I really need to spend a little time to explain 
to you, Mr. Chairman and also members of this committee, about 
these things. As I alluded yesterday, there was supposed to be 
two separate functions. One is really a fundraising at the 
Harbor Village Hotel in Monterey Park, originally set for that. 
And basically on the Hsi Lai Temple was really geared to the 
community function so people will come over--Vice President 
will come over to the largest Buddhist temple in the West 
Coast, and in fact the head of the temple, you know, whom he 
met prior in prior years. So basically that was supposed to be 
in the Hsi Lai Temple a community type of event. But due to the 
scheduling issues and also the distance between the Monterey 
Park and the Hacienda Heights, the schedule just basically 
would not allow to have a Vice President going from one place 
to the other. So the event of fundraising event was totally 
basically canceled in the Monterey Park, that restaurant. But 
however the motion in try to raising money started going. So 
some people were being contacted, so some people might be 
interested in coming in and knew about Vice President coming in 
over there. So in light of that situation, we were sort of more 
or less put both things together on that.
    So the whole thing, the community event was carried on as 
original planned as well, and people were welcoming the Vice 
President coming in. Afterwards then the luncheon will be 
follow on that.
    Mr. Burton. So you just added them together at the temple.
    Mr. Huang. All together in temple. You know to fit into 
that schedule. Now, during that luncheon event, I didn't 
believe anybody was speaking, say we're going to raise the 
money to do that. I didn't believe I collect any checks or 
anybody's sitting in the front collect the money. In terms of 
these participants quite a lot of people are just there as 
honored guests coming over. Without any doubt some people had 
made a commitment prior to that switching of the places. They 
were coming in, they were making certain kind of commitments. 
So some of the money might have been collected ahead of time, 
but some of the money probably being collected afterwards. So 
that's how they came about for this events, Mr. Chairman.
    Mr. Burton. I will come back to this in my next round 
because I want to ask you a couple questions about it.
    Mr. Waxman.
    Mr. Waxman. Mr. Huang, I asked you about--this seems like 
yesterday but it might have even been the day before--with 
regard to the Hsi Lai Temple. Vice President Gore has claimed 
that he didn't know this was a fundraising event. And in fact, 
as I understand it his speech was not a request for money but 
more of a generic speech about everybody being able to 
participate in government. You now know and had a chance to 
look at everything about the Hsi Lai Temple--things you knew 
about then, things you know about now. Do you have any 
information that would say that Vice President Gore did 
anything wrong?
    Mr. Huang. From my point of view, Asian American was very 
grateful, a person with that kind of status the first time 
coming over to our community, in particular coming to a 
religious group which is not a majority. Basically this country 
is a Christian basically. In fact, Mr. Waxman, I was asked by 
Vice President's staff members to the question is what Vice 
President should speak about during the luncheon. And I said 
well, maybe your Vice President was a major in religion in 
Harvard University, he will be very qualified to talk about 
religious tolerance and things in that direction. I believe 
most of the speech he was talking about is inclusiveness and 
the participation, about religious tolerance, things in that 
nature.
    Mr. Waxman. The other part of my question to you is not 
just what he had to say, but now that you know everything that 
he did--he said he was there, he didn't know it was a 
fundraiser, he gave a speech to reach out to the Asian American 
community--do you think that Vice President Gore did anything 
wrong?
    Mr. Huang. No, I didn't. Absolutely not, no.
    Mr. Waxman. Thank you. I yield back the balance of my time.
    Mr. Burton. Mr. Shays, do you want to go now or would you--
--
    Mr. Shays. Do you want to finish?
    Mr. Burton. If you wouldn't mind I would like to while I 
still have got this fresh in my mind.
    If you received checks in advance and I believe you did, 
and this was the only event, how could it not be called a 
fundraiser? Didn't you get checks in advance?
    Mr. Huang. I did receive checks in advance.
    Mr. Burton. So you knew that it was a fundraiser because 
you already had checks in your hand.
    [Discussion off the record.]
    Mr. Huang. As I report to you, Mr. Chairman, I had the plan 
as a fundraiser in the restaurant earlier. That motion was 
going. So any checks I had received--I didn't remember how many 
of them, very probably few. I did receive the checks.
    Mr. Burton. You knew the two were going to be consolidated 
into one event because of the timeframe so you knew there was 
going to be a fundraiser at the temple, is that not correct? I 
mean you've already said you knew they were going to be 
combined into one event.
    [Discussion off the record.]
    Mr. Huang. Mr. Chairman, as I stated, the original plan 
fundraising event was canceled. And I didn't recall anybody at 
that luncheon as raising money and collecting money. I do know 
with such opportunity later on I would be able to inspire more 
people to give me more money.
    Mr. Burton. Did any of the people that gave you money get 
special seating at the event? Did they sit up front?
    Mr. Huang. Some of the people willing to making a more 
commitment, yes, they were.
    Mr. Burton. So this definitely was known as a fundraiser 
because you were giving them preferential seating; you did not 
give the checks back so you knew this was what was going on.
    Now, the--after the meal in the temple dining hall I'm 
going back to that, there were some statements made by some 
people that there was actual discussion by some of the speakers 
about raising money. And we've got people who said, testified 
to that event, that, you know, there were there that said yeah 
we heard people say yeah we want to raise some money for the 
Vice President. You don't recall that?
    Mr. Huang. Mr. Chairman, you were saying right after that 
luncheon?
    Mr. Burton. That's what it says, yes.
    Mr. Huang. OK. The reason for that is my dash off to the 
airport to go to San Jose right away.
    Mr. Burton. You know, I know you know you're under oath and 
everything. But you said that this was not really a fundraiser. 
You did say that they were combined and then you said that 
these people got special treatment by sitting up in front where 
the Vice President was going to be. I mean you knew this was 
going to be a fundraiser at the temple.
    [Discussion off the record.]
    Mr. Huang. Mr. Chairman, I know your characterization about 
the event but I repeat I did plan the fundraising in different 
places. Some people did give money but people were invited for 
that event. But I did not really collect the money in that 
event.
    Mr. Burton. But they did get special seating and 
everything. OK. I see my time has expired. Let me take 5 
minutes since I'm next on the list. Mr. Waxman is not here. 
Then I'll yield to my colleague because I have to rush out and 
make a phone call and I'll be right back.
    Another Vice President Gore aide is cited in the press as 
saying that the event was intended to raise the Vice 
President's profile in the American community. I think I 
already asked that question. But was that the purpose at the 
temple originally just to raise his profile with the Asian 
American community?
    Mr. Huang. That's one of the purposes.
    Mr. Burton. What was the other purpose?
    Mr. Huang. As I indicate to you earlier, Mr. Chairman, this 
is the first time a very high ranking government official is 
Vice President coming to our community. And also can inspire a 
lot of religious following in the Buddhist sect, you know, to 
recognize the fact that somebody is really paying attention to 
us. Certainly that will raise the profile of Mr. Gore.
    Mr. Burton. In an interview the Vice President said, ``I 
did not know that the money was being contributed at the time. 
The people with me did not know. Obviously something, someone 
did not handle it right.'' Now, is that true? Did none of the 
people that were accompanying the President like Don Fowler or 
David Strauss, did--or yourself, I mean, did any of them know 
that money was being collected?
    [Discussion off the record.]
    Mr. Huang. To answer your question it's not true. I believe 
Mr. Fowler knows about that. And also Mr. Strauss probably knew 
about that as well.
    Mr. Burton. So they knew it was a fundraiser, you knew it 
was a fundraiser, Maria Hsia knew it was a fundraiser, Don 
Fowler knew it was a fundraiser, but the Vice President who was 
with all of you did not know it was a fundraiser.
    [Discussion off the record.]
    Mr. Huang. Mr. Chairman, I can only state that Mr. Fowler 
knows about it, knew about it and Mr. Strauss knew about it. I 
really can't say anything further about what more than that.
    Mr. Burton. When you talked to the Justice Department did 
they ask you if any of the contributors got special treatment 
at the temple? Did they ask you if they got special seating, 
did the Justice Department ask you that?
    [Discussion off the record.]
    Mr. Huang. Mr. Chairman, I do remember I went over the 
seating charts with the Justice Department for the detail.
    Mr. Burton. Did they ask you if the people who contributed 
got special seating?
    Mr. Huang. I think they asked everyone I could identify.
    Mr. Burton. But did they ask you if people who contributed 
got special seating?
    [Discussion off the record.]
    Mr. Huang. Some yes, but some of the people did not even 
contribute was also there.
    Mr. Burton. But the Justice Department did ask you if the 
people----
    [Discussion off the record.]
    Mr. Burton. But the Justice Department did ask you if there 
was special seating for the contributors?
    [Discussion off the record.]
    Mr. Huang. Mr. Chairman, might not be exactly words that 
you're saying but I was asked who are these people, why they 
were sitting there.
    Mr. Burton. What did you tell them? What did you tell the 
Justice Department?
    Mr. Huang. Whatever the truth was is--for instance some of 
the guests--all the guests is not necessarily sitting on the 
table were designated by me.
    Mr. Burton. What I want to ask you is this: When the 
Justice Department asked you who these people were there and 
why they were there, did you say these people in the front row 
or these people were contributors, did you tell them that? What 
did you tell the Justice Department?
    Mr. Huang. Not all of them. Some of them were.
    Mr. Burton. Did you tell the Justice Department that?
    Mr. Huang. I believe I did.
    Mr. Burton. You did tell the Justice Department that?
    Mr. Huang. I believe I did.
    Mr. Burton. That some of the people listed when they asked 
you about it were----
    Mr. Huang. Contributors or potential contributors.
    Mr. Burton. If I might ask one followup question real 
quickly.
    Was that in the 302's? We'll check that out. Thank you.
    Mr. Waxman.
    Mr. Waxman. Mr. Huang, you've been asked this over and over 
again. There was a fundraising event that was canceled and then 
there was the community event at the temple. And as much as the 
chairman would like to make you say it was a fundraising event, 
it's your testimony that it wasn't a fundraising event. He may 
not believe you, but it just seems to me to ask the question 
over and over again to try to make you say something that you 
don't want to say, is going too far. It's asking the question 
over and over and over again.
    Now, I don't know what to make of the fact that if people 
were going to contribute to go to a fundraiser that was 
canceled but they contributed for that fundraiser when they 
went to the community event--why they shouldn't be given any 
kind of prominent attention. Were people given prominent 
attention as you indicated who didn't give any money?
    Mr. Huang. I don't think Mr. Knabe, Don Knabe the 
supervisor, gave any money. He was a very prominent figure 
sitting on the head table as well.
    Mr. Waxman. He also happens to be a Republican as best I 
know.
    Mr. Huang. Right.
    Mr. Waxman. So I don't see what the--what we're getting 
into by having the chairman ask you this question over and over 
again. It seems to me almost to the point of--certainly 
redundancy but almost harassment. Your testimony is that there 
was a community event at the Hsi Lai Temple and there was 
another fundraising event but the fundraising event was 
canceled, is that an accurate statement?
    Mr. Huang. That is correct.
    [Discussion off the record.]
    Mr. Huang. Mr. Waxman, through all these exercises we just 
did a little bit earlier, to be fair, I would not deny there 
was some checks being collected, you know, through such a 
process there. I mean through this event I'm talking about 
afterwards or before event we certainly did not collect any 
money right at that site.
    Mr. Waxman. By the way, the chairman asked you about the 
questions from the Justice Department. These were FBI 
inquiries, weren't they?
    Mr. Huang. Yes. Largely related to that, yeah.
    Mr. Waxman. Because as I understand that you were 
interviewed by the FBI about all these questions and the 
chairman asked you were you asked by the Justice Department 
whether some of the contributors were at the head table, that 
question would have come from the FBI agents that interviewed 
you, wouldn't it?
    [Discussion off the record.]
    Mr. Huang. Not necessarily though.
    Mr. Waxman. Because you were interviewed by both FBI and 
Justice.
    Mr. Huang. That's correct, yes. Simultaneously.
    Mr. Waxman. Simultaneously. So different people at the 
questioning would be FBI and others were Justice and they would 
take turns asking you questions or they were all asking you 
questions at the same time.
    Mr. Huang. I think mostly they were coming from the FBI 
though.
    Mr. Waxman. It was one meeting.
    Mr. Huang. That's correct, all sitting at one table.
    Mr. Waxman. And different people there were asking 
questions.
    Mr. Huang. That's correct.
    Mr. Waxman. And you didn't ask now that question is from 
the man from the Justice Department or that question is from 
the employee of the FBI.
    Mr. Huang. No.
    Mr. Waxman. You responded to the question.
    Mr. Huang. That's right, sir.
    Mr. Waxman. Well, I just wanted to clarify that point. I 
have some time left over. I would be pleased to yield to Mr. 
Shays. He's here to pursue questions and he can add it on to 
his round.
    Mr. Shays [presiding]. Thank the gentleman. Actually I'll 
take my own time. I appreciate that. But I'll take my own 5 
minutes.
    Mr. Waxman. Then I yield back the balance of my time.
    Mr. Shays. Thank you. It's just that this way I control the 
time and I appreciate that. And it relates to this issue. I 
don't think the chairman was badgering you at all. I think he 
was trying to understand something. I learned something new 
that I didn't know before and I'm happy he asked the question. 
What I learned was that some money was collected before and 
some money was collected after. I also learned that you told 
Mr. Gore's people, the people that were with him, that there 
was going to be a certain area in which financial contributors 
or potential financial contributors were going to sit. Isn't 
that true?
    Mr. Huang. That's true.
    Mr. Shays. OK. So you weren't badgered, you told us 
something that I didn't know and I don't think the committee 
knew and maybe the public didn't know. See, I have two ways to 
view Mr. Gore's issue. I can view him that he is extrodinarily 
incompetent and so are his people to have him go to an event 
that's a major fundraising event and he didn't know it, or that 
he knew it and found himself in a very awkward situation, maybe 
he wasn't happy about it at the end but it was in fact an 
event.
    It's kind of like when Mr. Gore made calls from public 
buildings and he said well there's no controlling authority. It 
was an embarrassing event. He knew it shouldn't have happened. 
And by saying no controlling authority he was probably implying 
it was soft money, therefore it might be legal because soft 
money is not called campaign money. But then the DNC and others 
rerouted the funds to hard money contributions that then did 
make it illegal.
    Now, there was an article in the New York Times of June 
12th and the article, what I want to read to you says,

    And White House aides are now upset that the reimbursement 
scheme will be a central point of the prolonged criminal 
investigation and prevent Mr. Gore from putting the episode 
behind him. Officials at the Democrat National Committee said 
this week that they also felt betrayed by Mr. Huang's varying 
accounts of the event, especially after questions were first 
raised about its propriety last fall. He kept insisting it was 
just community outreach and that he had never ever billed it as 
a fundraiser, said one Democrat official who insisted on 
anonymity. And of course, that is far from the truth. We just 
feel completely mislead by him.

    Evidently Republicans aren't allowed to criticize you but 
Democrats are. Was this a fair criticism of you?
    Mr. Huang. The answer is no.
    Mr. Shays. Right. Because in fact if you had mislead them 
you would have been breaking the law and you would have been 
disagreeing with the very thing that you told us you hadn't. 
You had stopped breaking the law after 1994. So I'm going to--
as you know my distinguished ranking member is willing to give 
you the credibility to say you're under oath and you're telling 
us the truth. And you've told us the truth. They were informed. 
They knew it.
    Mr. Huang. [Witness nodded.]
    Mr. Shays. So the only thing we have going now is you 
didn't directly tell the President, Vice President, directly, 
is that true? You didn't speak to the Vice President?
    Mr. Huang. Absolutely not.
    Mr. Shays. So you didn't tell the Vice President but you 
told his people. Is that true?
    Mr. Huang. Or his people knew about it, yes. The same, 
yeah.
    Mr. Shays. OK.
    Mr. Waxman. Would the gentleman yield to me?
    Mr. Shays. Happy to yield.
    Mr. Waxman. The point that I think you're missing is Mr. 
Huang said the event was not a fundraising event. And I wanted 
to point that out to you. So I yield back.
    Mr. Shays. Is that what you said, it is not a fundraiser?
    [Discussion off the record.]
    Mr. Shays. Mr. Huang, I just want to say to you, I don't 
want to put words in your mouth. I don't want Mr. Waxman to put 
the words in your mouth. But I am going to demand that we be 
precise in this in every instance.
    Mr. Huang. I will try to say--thank you very much, Mr. 
Shays. At the time because I planned a fundraiser, the 
fundraising event was canceled. The place was canceled. So 
trying to--the event over there in my mind was not really a 
fundraiser. We did not really collect the money, did not even 
have people stay in the front to collect the money. However, 
with all these months, years going on, I was not really, you 
know, sure, you know, that----
    Mr. Shays. I'm uneasy by your response. I feel uneasy about 
your response. I feel you have given us two answers.
    I would ask the chairman, my time has run out. Could I have 
a little more time to pursue this?
    Mr. Burton. Am I next?
    Mr. Shays. Yes. When that's over with.
    Mr. Burton. I will yield to Mr. Shays. You may have my time 
when yours is over.
    Mr. Huang. You know, it is getting to a legal definition on 
that. At the time, it was not really my thinking. Right now, 
I'm not really sure how it's being categorized. It has to be 
done through legal terms.
    Mr. Shays. Let's be real clear. I was really eager to go on 
to something else, but you testified to the chairman that money 
was raised before the event and after the event, correct?
    Mr. Huang. That's correct.
    Mr. Shays. You also testified to the chairman that you let 
people know in the Vice President's entourage that there was a 
certain area where contributors were sitting, and both who had 
contributed and potential contributors, is that not correct?
    Mr. Huang. That's correct.
    Mr. Shays. And it would be unfair for anyone in the 
President's entourage--Vice President's entourage to 
mischaracterize that confusion. You did do that?
    Mr. Huang. That's correct, yes.
    Mr. Shays. And this in fact was a fundraising event? Money 
was raised?
    Mr. Huang. Well, I had difficulty, you know, in drawing 
lines, Mr. Shays, on that.
    Mr. Shays. But it in fact was a fundraising event; is that 
correct?
    Mr. Huang. There was money, whether before or after it, 
being raised, yes.
    Mr. Shays. I go to fundraising events. The money comes in 
before, it comes in after, but while I'm speaking they don't 
hand out the money.
    Before you answer, Mr. Huang, I also want to say, your job 
at the DNC was fundraising?
    Mr. Huang. Absolutely, yes.
    Mr. Shays. That was your job, and you were doing your job.
    Mr. Huang. Right.
    Mr. Shays. Some are criticizing you, Democrats, for this 
confusion. I think you might have been criticized unfairly. 
What is your answer?
    Mr. Huang. To your earlier questions?
    Mr. Shays. Yes. Was this a fundraiser event?
    Mr. Huang. I'm not really in a position try to argue with 
you, your points, Congressman Shays. I wanted to state there 
was some money being collected prior to the event and also the 
money being collected after the event, but there's no--based on 
my knowledge, there's no money collected at the event. At the 
time I think--the whole event, the--mostly happened was in the 
front part, a lot of people coming to welcome him. It was in my 
view it was a community, basically, event.
    Mr. Shays. Is it true that some people came to the event 
expecting that they should make a contribution?
    Mr. Huang. Yes, yes.
    Mr. Shays. Thank you very much.
    I want to ask you this. Has anyone prior to your testimony 
asked you to not characterize this as a campaign event or a 
fundraising event?
    Mr. Huang. Nobody, nobody.
    Mr. Shays. You know what I'm going to do? I have another 
line of questioning, but I'll yield back my time on this.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Just to put this whole thing to rest, there was 
a fundraising event scheduled. Money was being collected for 
that fundraising event. That fundraising event--without a doubt 
a fundraising event--it was an event to raise money 
exclusively--was canceled. And some of the people who were 
going to come to the first event joined with other people in 
the Hsi Lai Temple community event. Is that exactly where 
things are?
    Mr. Huang. That's correct, sir.
    Mr. Waxman. So now whether the Hsi Lai event was a 
fundraising event seems to me something that Mr. Shays and Mr. 
Burton are trying to put into your mouth. If an event is an 
event for the purposes of raising money, that's a fundraising 
event, as was the event that you were working on that was 
canceled. People can go to a community event and when they go 
to the community event you as a fundraiser or any of us as 
candidates trying to raise money might talk to people before 
the event and after the event and urge them to give money. But 
it doesn't make it an event, a community event--a community 
meeting doesn't become a fundraising event because there may be 
fundraising before and after that event.
    Mr. Huang. That is correct.
    Mr. Waxman. I just want to pin that down, and I hope we've 
put this issue to rest. I have no other questions so I'm going 
to yield back the balance of my time and maybe we can move on 
and get into other areas and complete this very, very lengthy 
interrogation of you.
    Mr. Shays. Mr. Chairman, could you just yield to me for a 
second?
    Mr. Burton. I would be glad to yield to my colleague.
    Mr. Shays. We want to put it to rest. I don't understand 
why you said yes. He said it doesn't make it a fundraising 
event. Doesn't the fact that you raise money at the event make 
it a fundraising event? It may mean that you for some reason 
didn't think of it as a fundraising event, but the dang thing 
was a fundraising event. He just didn't know--the President is 
saying he didn't know it was a fundraising event.
    Mr. Huang. Mr. Shays, it's very, very difficult for me to 
answer that.
    Mr. Shays. It wasn't difficult for you to answer Mr. 
Waxman. You seemed very quick to answer that. That's what 
concerned me. If you had hesitated and said, well, Mr. Waxman, 
this part is true, this isn't. But you were really willing to 
say yes to his entire statement, and that's what concerns me. 
It seems like you're--you have conflicting testimony before us.
    Mr. Huang. As the time goes on, you thinking back on the 
thing. I wasn't sure about my state of mind at that particular 
time. That's what I want--really want to stay.
    Mr. Shays. We weren't talking about your state of mind. He 
was talking about whether it was a fundraising event or not. It 
turned out it was. The question is, did he know it or not? Then 
Mr. Burton gave every indication that you should have known 
because you had people sitting at the event who had contributed 
for this event and others who were going to contribute because 
of the event. That's about as big an example of a fundraiser 
you can get.
    Mr. Huang. Congressman Shays, I can understand the 
different perspective people view this as a fundraiser or not 
fundraiser event on that. In my mind at that time basically it 
was a community event because Mr. Gore was so much welcomed by 
the community people and going in.
    Mr. Shays. I have this time, and I'll just say to you it is 
true you testified that you let the White House know you wanted 
a section of people to sit who were contributors and potential 
contributors to this event.
    Mr. Huang. That is correct, absolutely right, Mr. Shays.
    Mr. Burton. I don't want to prolong this. I think the 
record will speak for itself. But I want to make sure that we 
nail one point down and that is that the people with Vice 
President Gore clearly knew that money was being contributed. 
Mr. Fowler did, you said. Mr. Strauss did, you said. You did, 
and Maria Hsia did. And you stated that very clearly, and I 
just wanted to make sure that's clearly stated for the record.
    Mr. Huang. I believe they knew the money had been 
contributed prior to the event, and I also knew the money being 
collected after the event. That's the statement I want to 
address to Mr. Chairman on that.
    Mr. Burton. Now, during the Senate hearings on this matter 
there was testimony that a number of the temple nuns and monks 
destroyed and altered records once news stories about the event 
became public. Do you have any knowledge of this beyond the 
press reports? Did you--anybody talk to you about them 
destroying documents?
    Mr. Huang. No, Mr. Chairman.
    Mr. Burton. Had nothing to do----
    Mr. Huang. Nothing to do with this.
    Mr. Burton. Didn't know anything about it?
    Mr. Huang. I did not know anything about it, sir.
    Mr. Burton. Did you ever talk to Maria Hsia about that, 
about those documents being destroyed or should she talk to the 
people at the temple about having them destroyed?
    Mr. Huang. No, not on that subject, no.
    Mr. Burton. Were you ever in contact with Maria Hsia or 
staff on how to respond to press inquiries about the Hsi Lai 
Temple event?
    Mr. Huang. No, sir.
    Mr. Burton. Were you ever in contact with Maria Hsia's 
staff or anyone from the Hsi Lai Temple about destroying or 
altering evidence? I think you already answered that. You said 
no.
    Mr. Huang. No, sir.
    Mr. Burton. On June 10, 1996, there was a fundraiser at the 
home of Lew Wasserman in California. Did you help organize that 
event?
    Mr. Huang. June 10, 1996.
    Mr. Burton. Yes. It was at Lew Wasserman's home.
    Mr. Huang. I do know Mr. Wasserman, but I don't remember I 
ever set foot in that one.
    Mr. Burton. So you don't recall soliciting any money for 
that event?
    Mr. Huang. Let me see. I just need to have a little more 
information to make sure.
    Mr. Burton. Why don't you look at exhibit 439?
    [Exhibit 439 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.371
    
    [GRAPHIC] [TIFF OMITTED] T6496.372
    
    [GRAPHIC] [TIFF OMITTED] T6496.373
    
    [GRAPHIC] [TIFF OMITTED] T6496.374
    
    [GRAPHIC] [TIFF OMITTED] T6496.375
    
    [GRAPHIC] [TIFF OMITTED] T6496.376
    
    [GRAPHIC] [TIFF OMITTED] T6496.377
    
    [GRAPHIC] [TIFF OMITTED] T6496.378
    
    Mr. Huang. Thank you, Mr. Chairman.
    Mr. Burton. Exhibit 439.
    Mr. Huang. Thank you for allowing me to read the things.
    I did not plan that event. It was not hosted by me. I 
believe I was there.
    Mr. Burton. You were there?
    Mr. Huang. I was there, yes.
    Mr. Burton. Did you solicit any money for that event?
    Mr. Huang. I think there might be some checks being 
contributed to there. I think Congressman LaTourette or 
Congressman Souder was talking about a number of the several 
checks I had control in my hand. Some--part--might have a part 
of those money going to DNC.
    Mr. Burton. Did you solicit that money or were you just the 
recipient of it? Did you just receive it?
    Mr. Huang. No, the checks basically was in my control. 
Whoever went to that event, I just, you know, executed and give 
the money to the DNC.
    Mr. Burton. But did you solicit the money? Did you ask for 
the money?
    Mr. Huang. From other people?
    Mr. Burton. Uh-huh. Did you ask people to contribute to the 
event?
    Mr. Huang. Except that particular item, no.
    Mr. Burton. You and the Riadys were there; is that correct?
    Mr. Huang. That's correct.
    Mr. Burton. Why were the Riadys at that event in the United 
States and did they travel to the event with Xiaoming Dai?
    Mr. Huang. No.
    Mr. Burton. They came by themselves?
    Mr. Huang. They came by themselves, I believe.
    Mr. Burton. Exhibit 440, which is right next to that, is a 
commit list for the June 10 event. On page 2 of the exhibit, 
you're listed as pledging $10,000 for the event. Is that 
accurate? And if so, did you pledge to raise that or did you 
just contribute it yourself?
    [Exhibit 440 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.379
    
    [GRAPHIC] [TIFF OMITTED] T6496.380
    
    [GRAPHIC] [TIFF OMITTED] T6496.381
    
    [GRAPHIC] [TIFF OMITTED] T6496.382
    
    [GRAPHIC] [TIFF OMITTED] T6496.383
    
    Mr. Huang. I was not contributing myself. I just used the 
money that I had control--remember the checks I told you, used 
that as a contribution.
    Mr. Burton. I see.
    Mr. Waxman.
    Mr. Waxman passes.
    Let me go ahead and conclude, and then I'll come back to 
you, Mr. Shays.
    On page 4 of that exhibit, it lists the Riadys as having 
pledged $15,000 for that event. Did the Riadys pledge to give 
money to that event?
    Mr. Huang. No.
    Mr. Burton. They did not pledge to give money to that 
event?
    Mr. Huang. No.
    Mr. Burton. Why does it say that?
    Mr. Huang. I wouldn't know because the--Mr. Chairman, I 
mentioned to you there is a $25,000 check probably was given 
for that event. That probably explain to you one is $10,000 the 
other is $15,000. Total is $25,000.
    Mr. Burton. So $10,000 was coming from you and $15,000--but 
where did the $25,000 come from? Who did that come from?
    Mr. Huang. From Arief. Remember Arief, Soraya. Remember I 
have control of the checks in hand.
    Mr. Burton. So you attributed that to you and to the 
Riadys.
    Mr. Huang. That is correct.
    Mr. Burton. But you didn't give and the Riadys didn't give?
    Mr. Huang. That is correct.
    Mr. Burton. So it was somebody else's money, but it was 
given in their name?
    Mr. Huang. That's correct.
    Mr. Burton. Staff just informed me that the Wiriadinatas' 
money was pledged the day before at another event and not for 
this event. So where did the $10,000 and $15,000 come from if 
it was not from----
    Mr. Huang. My recollection is I did not have any other 
control of the money except the Soraya and Arief.
    Mr. Burton. We'll have to check that because----
    Mr. Huang. I'd like to know. I certainly would like to 
explain to your question as well and fully. If there is 
information I'd be glad to explain this.
    Mr. Burton. We'll look it up.
    So it's--well, I think----
    Mr. Huang. Mr. Chairman----
    Mr. Burton. Just 1 second, please.
    Here we have an event for Dianne Feinstein for Senator, and 
the check from the Wiriadinatas was June 15 for $25,000, and it 
shows that money going to the Diane Feinstein event. So the 
event at Lew Wasserman which was the next day or--this was--
this check was dated the 5th, and the event was the 9th, so the 
next day on the 10th there was another fundraiser at the home 
of Mr. Wasserman's. The $25,000 from the Wiriadinatas went to 
Diane Feinstein's event. So where did the $10,000 from you and 
the $15,000 from the Riadys come from at Wasserman's?
    Mr. Huang. My best recollection is I did not give the 
money, $10,000 or $15,000. Mr. Riady did not give that money 
either. My best recollection there was Wiriadinatas' money, 
whether Soraya or Arief's, because both of them were giving the 
checks in my control. Could be one from Arief, the other one 
coming from Soraya on that basis.
    Mr. Burton. So they each gave $25,000, and what you're 
saying is it may have been his money that was given at this 
other one instead of hers, right?
    Mr. Huang. My best recollection, that might have been the 
case right now.
    Mr. Burton. We'll check that. Why was Riady's name on 
anybody's list? Why did you show that the Riadys gave $15,000 
because they weren't eligible to give at all? Even if it wasn't 
their money, why would you put the money in their name if they 
were not eligible?
    Mr. Huang. I think the list is indicating is the Riadys 
attended. I don't know why you interpreted as that they were 
giving the money, though.
    Mr. Burton. I'll get back to that later. We're going to 
talk this over. I don't want to bother you with it at this 
point.
    Would you like to take a break for about 10 minutes? Would 
you feel that you need that?
    Mr. Huang. No, I'm OK, Mr. Chairman.
    Mr. Burton. Anybody else need a break? If not, we'll press 
ahead.
    Mr. Shays.
    Mr. Shays. I think it's Mr. Waxman.
    Mr. Burton. Mr. Shays, did you want to go ahead? I yield 
you the rest of my time, and then you can have yours.
    Mr. Shays. Thank you. We're not at the temple now. We're 
back at--we're back trying to understand the United States-Thai 
Business Council meeting. And Mr. Rothkopf, either in a 
deposition or testimony before the Thompson Committee, 
testified that neither he nor Under Secretary Garten nor Sandy 
Kristoff, who is national Security Council, supported launching 
the United States-Thai Business Council from the White House 
with the President attending. Yet the event did in fact take 
place in the White House and the President did attend; isn't 
that correct?
    Mr. Huang. My recollection, it probably happened just 
briefly, yes.
    Mr. Shays. And the President did attend that event?
    Mr. Huang. My recollection, yes.
    Mr. Shays. Do you attribute the success of that event, in 
part, to your efforts?
    Mr. Huang. I don't think so.
    Mr. Shays. I don't mean it sarcastically; I mean it 
sincerely.
    Mr. Huang. No, I don't think so.
    Mr. Shays. Did you keep Pauline Kanchanalak apprised of 
your efforts during that----
    Mr. Huang. If I did, the most I just sent a memo to Mr. 
Rothkopf. That's all I did.
    Mr. Shays. Right. But you were in contact with her. That 
part is true?
    Mr. Huang. Right.
    Mr. Shays. Do you know if Ms. Kanchanalak was in contact 
with anyone at the DNC regarding this event?
    Mr. Huang. She might have, but I don't know who she did.
    Mr. Shays. Now, the event took place on October 6. Do you 
think it's a coincidence----
    Mr. Burton. I yield you my time, Mr. Shays.
    Mr. Shays. Do you think it's a coincidence that Ms. 
Kanchanalak's sister-in-law, Georgie Kronenberg, contributed 
$12,500 to the DNC?
    Mr. Huang. I would have no knowledge on that.
    Mr. Shays. Do you think it would be a coincidence that 14 
days later Mrs. Kanchanalak contributed $32,500 to the DNC?
    Mr. Huang. Again, I would not know.
    Mr. Shays. Are you aware of any government official, beside 
yourself, who thought this was a smart thing for the President 
to do?
    Mr. Huang. I don't know about anybody else beside myself 
who wrote the memo.
    Mr. Shays. Let me get to questions on security which we 
kind of touched on. I'd asked you yesterday and I'm going to 
say to you again, I did go to the committee, the Cox committee, 
and I didn't find anything that would have been more damning 
than their statement; and frankly there wasn't a lot of support 
material as it relates to--everything is a coincidence.
    It's speculation on what--you had clearance, you were 
friends with the Riadys, and you had contacts; that's the 
extent of it. We have no damning memos there, nothing that 
would--could be used, to my knowledge. I didn't see any 
material.
    But what was of interest to me was that you had stated that 
you really didn't have any interest in having a clearance; is 
that correct?
    Mr. Huang. The clearance to get my job, that clearance has 
to be done, though.
    Mr. Shays. You had an interest because you had to do it for 
your job. So you got it because that's what the job required 
you to have. You needed the clearance to do your job; is that 
what your testimony is?
    Mr. Huang. That's what I understood, yes.
    Mr. Shays. You were given an interim Top Secret and then 
you were given a full Top Secret and you did not ask for the 
SCI, the compartmentalized aspect of security. It's of interest 
to me that you were briefed 37 times by Dickerson, and he 
estimates that you saw between 10 and 15 pieces of intelligence 
per briefing, or what he refers to as 370 to 500 separate 
pieces of intelligence, and we attributed--it's called--the 
great bulk of material that you saw was what we call ``field 
reporting,'' and I use the words ``raw intelligence,'' and this 
type of intelligence is considered extremely sensitive, mostly 
because it contains sources and methods.
    Now, the feeling I get, to date, is you had these 
briefings, but they didn't interest you all that much; is that 
correct?
    Mr. Huang. I shouldn't say I was not interested in it. 
That's part of my job and I have to read them.
    Mr. Shays. You got your Top Secret briefing on October 25, 
1994. You had been working there for how long by then?
    Mr. Huang. October 24, 1994, that would be around 3 months.
    Mr. Shays. It was the 25th. But October 1994?
    Mr. Huang. About 3 months, sir.
    Mr. Shays. You already testified before this committee the 
SCI clearance you declined. I speculated that you might have 
declined because there might have been further investigation of 
your background and you might have been concerned that they 
might look at the illegal contributions to the Riadys. Is that 
a fact, sir?
    Mr. Huang. That is not a fact, no.
    Mr. Shays. And you were briefed regularly? About every 2 
weeks you received a briefing? That's what it amounted to?
    Mr. Huang. Approximately. By--mainly by Mr. Dickerson, I 
believe.
    Mr. Shays. That's the Office of Intelligence Liaison?
    Mr. Huang. That is correct, sir.
    Mr. Shays. Did you ever sit down with Charles Meissner or 
any of your superiors at ITA and discuss what your intelligence 
briefings should cover?
    Mr. Huang. Commissioner Shays, basically the way it went 
Mr. Meissner would process the clearance for me, and later on 
Mr. Dickerson was asking me what area you'll be interested to 
know.
    Mr. Shays. Wouldn't he have tried to tell you the kind of 
areas that you should know, based on your job responsibilities?
    Mr. Huang. The areas I'd be interested in, yes. When I say 
the areas interested in, Mr. Meissner basically have some 
informal, not an assignment of division in certain territory 
with--his background basically was in Europe, South America, 
and particularly in Japan, and he was working with World Bank 
before working on Japan. He used to be a banker and also State 
Department official previously.
    He thought I have quite a few years in Asia and he and I 
will cover Asia so we both will be able to have a--cover most, 
if not all, the territory in the world. So the Asia basically, 
except probably Japan, was assigned to me.
    Mr. Shays. I'll go through these questions when my time 
comes back.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. Mr. Huang, did you have any ulterior motive in 
getting a clearance or not getting a clearance?
    Mr. Huang. No.
    Mr. Waxman. Did you do anything improper with any 
information you received as a result of getting it, because you 
had a clearance?
    Mr. Huang. No, sir.
    Mr. Waxman. That's really what we want to know. I asked and 
you answered it.
    Mr. Huang. That's right.
    Mr. Waxman. What we're doing now is going through a lot of 
elaboration.
    Mr. Shays. I'm sorry. I didn't hear the gentleman.
    Mr. Waxman. That's the essential question we want to know, 
and I've asked it and he's answered it, and everything else 
seems to be dancing around that issue.
    Mr. Shays. Would the gentleman yield?
    Mr. Waxman. You want me to yield to you? Sure.
    Mr. Shays. Are you suggesting I shouldn't be asking these 
questions?
    Mr. Waxman. I'm not making any suggestion. I wanted to get 
this on the record. That's my question of Mr. Huang.
    Mr. Shays. If the gentleman will further yield, I know a 
person can say yes or no. I just want to know the particulars 
to be able to judge the validity of his answer.
    He is a convicted felon in front of us. Just because he 
said he didn't do something illegal doesn't mean I should say 
OK.
    I happen to think you're a very good man, but I want to ask 
these particular questions, and I thank the gentleman for 
letting me make that point.
    Mr. Waxman. I want the gentleman from Connecticut to know 
I'm not questioning his motives. I wanted to get this question 
on the record and answered on the record. That's exactly what 
we've done, and I think that's the essential question that we 
need to know about, did he get a security clearance because of 
some ulterior motive? His answer is no.
    Mr. Huang. No.
    Mr. Waxman. And did he get some information because of the 
clearance that he acted improperly with, and his answer is no.
    Mr. Huang. No.
    Mr. Waxman. I yield back the balance of my time.
    Mr. Burton. Let me just followup on that real briefly.
    I think all of us have had staff members try to get 
clearances, because it's very important that we keep government 
secrets and classified information classified; and it takes 3, 
4, 5, 6 months. I've had some people go 7 months and longer 
because you have--the FBI has to question them. They have to go 
out in the hinterlands and ask their neighbors, find out what 
their background is, all kinds of things.
    Mr. Huang didn't go through any of that. Zippo. And I think 
that's why Mr. Shays is asking those questions, why was there 
special treatment given for the security clearance for Mr. 
Huang? Now, let me go on to this Riady thing real quickly. The 
Wiriadinatas who were not well off, at least from the 
appearances here in the United States, did have a wealthy 
father, at least Ms. Wiriadinata did, Hashim Ning.
    He wired illegally $450,000 to them to give to the DNC. 
They gave that money through you, Mr. Huang, much of it to the 
DNC.
    Now, in the DNC records, and I bring your attention--I'd 
like to call your attention to--what page is that? Exhibit 440, 
it says clearly that Aileen and James Riady pledged $15,000. 
Now, this was under your watch and you no longer were, you say, 
taking illegal contributions; but it does show that they made 
that kind of a pledge, and you're saying that the Wiriadinatas 
gave that money and you just divvied it up between the $10,000 
that was attributed to you and the $15,000 attributed to them.
    The records don't show that. The records show that the 
Riadys pledged and gave $15,000. Now, that needs to be 
clarified. That needs to be clarified because they were not 
legally entitled to give that money.
    So the burden of proof is on you to show that they didn't 
give that money. You said the money came from the Wiriadinatas, 
which is illegal in the first place.
    Mr. Huang. Again, the report, Mr. Chairman, was not my 
report, No. 1. And then the report, if I can read the report, 
it say they did not really give money, nothing being received 
by them, though.
    Mr. Burton. Yes, that's right. It says it was pledged.
    Mr. Huang. There's no money being received. They didn't 
contribute money, though.
    Mr. Burton. This document is dated June 3 before the event. 
We don't have the documents after that. We'll check that.
    Let me go on to another subject.
    Did you take part in a DNC trip to Asia and Hawaii in 
December 1991?
    Mr. Huang. I did go to Taiwan and Hong Kong, but I did not 
go to Hawaii.
    Mr. Burton. Did the Justice Department ask you any 
questions about that trip when they interviewed you?
    Mr. Huang. We're talking about 1991?
    Mr. Burton. Yes.
    Mr. Huang. No.
    Mr. Burton. They did not. Do you know who asked you to 
participate in that trip?
    Mr. Huang. I believe I was invited by--to come along by 
Melinda Yee at that time.
    Mr. Burton. She was over at the DNC?
    Mr. Huang. She was over at DNC.
    Mr. Burton. Do you remember what the purpose of that DNC 
trip was to Asia?
    Mr. Huang. I think it--Chairman Ron Brown was making a trip 
over to Taiwan and Hong Kong.
    Mr. Burton. Exhibit 11 shows the DNC's budget for the trip. 
It says the Lippo Bank is paying for the DNC's hotels, meals, 
and transportation in Hong Kong. Did you arrange for the Lippo 
Bank to pay for that?
    [Exhibit 11 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.384
    
    Mr. Huang. Mr. Chairman, the Lippo Group is not Lippo Bank 
by the way.
    Mr. Burton. It was the Lippo Group.
    Mr. Huang. Yes, I did arrange for that.
    Mr. Burton. You arranged for him to pay for that?
    Mr. Huang. To take care of the hotel, yeah, and 
transportation.
    Mr. Burton. Mr. Shays has the time now. He would like to 
take a 10 to 15-minute break, so we'll take a break now and be 
back in about 15 minutes.
    The Chair stands in recess.
    [Recess.]
    Mr. Burton. We'll recall the committee to order. Mr. Shays 
and, I'm sure, Mr. Waxman will be back shortly. Let me go ahead 
and start.
    When you went to Hong Kong, you said you arranged for the 
Lippo Bank to pay for the hotels and meals and transportation 
for the DNC's group, right?
    Mr. Huang. Lippo Group, yes, in 1991.
    Mr. Burton. Did you agree to raise money for the DNC while 
in Hong Kong?
    Mr. Huang. I did not promise that, no.
    Mr. Burton. You did not promise that. Were you asked about 
it?
    Mr. Huang. I would ask my colleague to, you know, invite 
some businessmen. I was not asked to--I did not promise that.
    Mr. Burton. Did you ask anybody to raise money?
    Mr. Huang. No.
    Mr. Burton. You didn't ask for any contributions?
    Mr. Huang. No.
    Mr. Burton. Exhibit No. 109. That exhibit is a memo from 
Melinda Yee to DNC Chairman Ron Brown. Ms. Yee said you offered 
to host an event in Hong Kong with a goal of $50,000; is that 
correct?
    [Exhibit 109 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.385
    
    Mr. Huang. The memo indicated that way. I did not really 
offer that $50,000.
    Mr. Burton. Why would she say that, I wonder?
    Mr. Huang. I don't know.
    Mr. Burton. She was an official at the DNC at the time, 
wasn't she?
    Mr. Huang. I believe she was working on Asian American--
Asian Pacific American affairs for DNC.
    Mr. Burton. For the DNC?
    Mr. Huang. That's correct.
    Mr. Burton. She was involved in fundraising?
    Mr. Huang. I'm not sure she was or not. At least on the 
political side she was.
    Mr. Burton. But that memo to Ron Brown from Melinda Yee 
says that you offered to host an event in Hong Kong for 
$50,000, and you're saying that's not true?
    Mr. Huang. I never promised that.
    Mr. Burton. You never promised that. Did you say that you 
would consider it? Did you say you would do it?
    Mr. Huang. She has proposed that I could do that.
    Mr. Burton. What did you say?
    Mr. Huang. I said, no, I could not promise you on that, and 
I would round up some businessmen to welcome Chairman Brown at 
that time to come over and have a lunch and dinner meeting with 
the people, having speak at this event. That's all. I could not 
promise----
    Mr. Burton. Did you say anything like, well, I can't 
promise I'll raise $50,000, but I'll get a group of men 
together that you can talk to?
    Mr. Huang. Something in that line, yes.
    Mr. Burton. But the indication was that you might be able 
to raise some money from them?
    Mr. Huang. I believe that's her interpretation, but deep 
down in my mind I was never, never committed.
    Mr. Burton. You did not commit, but you did get the people 
together?
    Mr. Huang. I did arrange it because the chairman of the 
Democratic party was there, yes.
    Mr. Burton. When you arranged it, did they raise any money 
at that event?
    Mr. Huang. Not that I know of, sir.
    Mr. Burton. Not what?
    Mr. Huang. Not that I know of. I don't think in Hong Kong 
they raised any money.
    Mr. Burton. So no money was raised. They got the people 
together that you said you would get together and she wanted to 
raise $50,000 but to your knowledge no money was raised?
    Mr. Huang. I didn't even think there was any words of 
raising money in Hong Kong that happened.
    Mr. Burton. But you did get them together?
    Mr. Huang. That's correct.
    Mr. Burton. Exhibit 13 is an itinerary for the DNC while in 
Hong Kong. Did the Lippo Group host a lunch and dinner for the 
DNC in Hong Kong?
    [Exhibit 13 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.386
    
    Mr. Huang. For lunch and dinner for Chairman Brown in Hong 
Kong, yes.
    Mr. Burton. Do you know why the lunch and dinner by the 
Lippo Group have money signs next to them? There's money signs 
next to them. What does that mean?
    Mr. Huang. I have no idea. That was not my memo at that 
time. If you want to ask what I mean, Mr. Chairman, is what I 
say.
    Mr. Burton. But it did have dollar signs by it, didn't it?
    Mr. Huang. It did. It did.
    Mr. Burton. I wonder why those were there.
    Mr. Burton. Were those lunches and dinners fundraisers?
    Mr. Huang. No.
    Mr. Burton. Even though there were dollar signs beside the 
notations?
    Mr. Huang. No, sir.
    Mr. Burton. How much money did you raise, if any, in Hong 
Kong?
    Mr. Huang. Zero.
    Mr. Burton. Did the Riadys give any money in Hong Kong?
    Mr. Huang. No.
    Mr. Burton. You're sure about that?
    Mr. Huang. I'm very sure about that.
    Mr. Burton. You're fairly sure of that.
    Mr. Huang. I'm very sure.
    Mr. Burton. Oh, you're very sure.
    Mr. Huang. I'm very sure on that.
    Mr. Burton. Did any Lippo employees or Lippo companies give 
any money?
    Mr. Huang. No, sir.
    Mr. Burton. So there was no money that was given that you 
know of?
    Mr. Huang. No.
    Mr. Burton. Did Maria Hsia raise any money while in Taiwan 
on that trip?
    Mr. Huang. I do not know for sure. At least she was trying 
to but I don't know whether she did or not.
    Mr. Burton. She was trying to?
    Mr. Huang. Right.
    Mr. Burton. How did you know that?
    Mr. Huang. She was getting a lot of businessmen together. I 
was with her on the trip. I don't know if she did anything or 
not.
    Mr. Burton. But you knew she was trying to raise money and 
she told you that?
    Mr. Huang. I believe she was asked by Melinda to do so.
    Mr. Burton. Were any funds--you weren't in Hawaii. You 
didn't go to the Hawaii part of that trip?
    Mr. Huang. Mr. Chairman, I did not go to Hawaii, no.
    Mr. Burton. Do you know if any money was raised during the 
Hawaii part of that trip?
    Mr. Huang. From the news account in recent years talking 
about that episode, the news accounts indicated it might be 
what; $100,000 being raised? That's to what extent I know.
    Mr. Burton. But you didn't know at that time?
    Mr. Huang. I did not know at that time, no.
    Mr. Burton. Mr. Waxman, I think I'll go ahead and yield to 
you if you're ready. You want to pass?
    Mr. Waxman. I'll pass.
    Mr. Burton. We'll go ahead. Did you attend a September 27, 
1993, fundraising event with Vice President Gore in Los 
Angeles?
    Mr. Huang. Yes, I did.
    Mr. Burton. Did you bring the chairman of China Resources 
Shen Jueren and his assistant to the Gore dinner?
    Mr. Huang. Yes, I did.
    Mr. Burton. Who is Shen Jueren?
    Mr. Huang. He was the chairman of the Chinese resources at 
that time in Hong Kong.
    Mr. Burton. Is China Resources an equal partner in the Hong 
Kong Chinese Bank with the Riady family?
    Mr. Huang. I'm not sure exactly percentage ownership when 
you say the----
    Mr. Burton. Very close though.
    Mr. Huang. Very close to 50--I don't know the detail at 
that time. Could be even less than that.
    Mr. Burton. But they both owned stock and owned part of the 
bank?
    Mr. Huang. The China Resources had invested in Hong Kong 
Chinese Bank, yes.
    Mr. Burton. Do you know if he Riadys are still partners 
with China Resources?
    Mr. Huang. Well, since they have a joint ownership in the 
bank, yes, the answer is yes.
    Mr. Burton. Were you aware that China Resources has been 
identified as an intelligence gathering operation with ties to 
the People's Liberation Army?
    Mr. Huang. Mr. Chairman, I was not aware then but in recent 
event of going through all these investigations being told by 
the authorities.
    Mr. Burton. You know that now but you didn't know it then?
    Mr. Huang. Right.
    Mr. Burton. Did you arrange any meetings for Mr. Shen while 
he was here in the United States?
    Mr. Huang. Yes.
    Mr. Burton. What kind of meetings were those?
    Mr. Huang. I think I brought him and his assistant visit 
the White House and tour the White House. I believe through Mr. 
Mark Grobmyer arranged a meeting for them to meet with Mr. Jack 
Quinn. I think he was the chief of staff there and was with the 
Vice President.
    Mr. Burton. Did you meet with the Vice President?
    Mr. Huang. Only in the fundraising event. No, excuse me. I 
take it back. During the meeting we had with Mr. Jack Quinn, 
apparently there was separate meeting that Mr. Ron Brown and 
also Mr. Gore was in another bigger room. They came out just to 
shake hand. That was the first encounters.
    Mr. Burton. So you met him in the White House with Jack 
Quinn and Ron Brown. Did you meet with him later that day?
    Mr. Huang. Not in that day. The second encounter will be in 
Los Angeles.
    Mr. Burton. Well, I guess the records must be incorrect. 
They said you met with Vice President Gore twice on September 
27. You don't recall that?
    Mr. Huang. Not separate occasions. Only in--the Vice 
President's office is one room. Jack Quinn. The other is bigger 
room. There's only once at that time.
    Mr. Burton. Now, you had a fundraiser. I guess there was a 
fundraiser that day for the Vice President; is that right?
    Mr. Huang. No. Mr. Chairman, let me come back a little bit. 
When the 27th--was the 27th the date in Los Angeles?
    Mr. Burton. The 27th of September.
    Mr. Huang. Was Los Angeles or in Washington, DC?
    Mr. Burton. In Los Angeles.
    Mr. Huang. Los Angeles two times.
    Mr. Burton. You did meet with him twice.
    Mr. Huang. But in Washington, DC, only once.
    Mr. Burton. How much money did you raise at that event in 
Los Angeles?
    Mr. Huang. The event was partially participated by my 
effort. In aggregate probably around $100,000, $105,000.
    Mr. Burton. Were all of these contributions from Lippo 
employees or Lippo companies?
    Mr. Huang. I believe so, yes.
    Mr. Burton. So this was money that came from Lippo 
employees that was ultimately reimbursed from the Lippo 
companies in Indonesia?
    Mr. Huang. I believe so, yes.
    Mr. Burton. You told the Justice Department that you were 
asked to help in a bigger way for that event; is that correct?
    Mr. Huang. As early stage, right.
    Mr. Burton. How much more did you raise after being asked 
to help in a bigger way?
    Mr. Burton. I was first being approached by the 
representative of DNC to raise something like $300,000.
    Mr. Burton. Did you make any extra contributions so Mr. 
Shen and his assistant could attend the event?
    Mr. Huang. No.
    Mr. Burton. Did Mr. Shen or China Resources pay or 
reimburse any of these contributions?
    Mr. Huang. No.
    Mr. Burton. You sure about that?
    Mr. Huang. At least not to me, no.
    Mr. Burton. You told the Justice Department that you did 
not discuss reimbursements for this event with Mr. Riady; is 
that correct?
    Mr. Huang. Mr. Chairman, may I trouble you to repeat it.
    Mr. Burton. Sure. You told the Justice Department that you 
did not discuss reimbursements for this event with Mr. Riady; 
is that right?
    Mr. Huang. I did not discuss with Mr. Riady on the 
reimbursement for that particular event, no.
    Mr. Burton. How did you get the money from the Lippo Group 
in Indonesia to come into the country to----
    Mr. Huang. Except the routine replenishment request which 
we do almost monthly or----
    Mr. Burton. So this was just a routine thing that would 
come in?
    Mr. Huang. Right. Whatever checks we pay went, sent it back 
as a report and then money coming in.
    Mr. Burton. You didn't have to talk to James or----
    Mr. Huang. We did not have to talk to them, no.
    Mr. Burton. Just the standard operating procedure.
    Mr. Huang. That's correct.
    Mr. Burton. Mr. Waxman.
    Mr. Waxman. I'll pass.
    Mr. Burton. Mr. Shays, would you like me to continue on 
this?
    Mr. Shays. Yes, please continue.
    Mr. Burton. How do you know that Mr. Shen did not reimburse 
or pay for any of the contributions?
    Mr. Huang. I said it did not go through me.
    Mr. Burton. But he could have through another source but 
you're not aware of it?
    Mr. Huang. I'm not aware of it, no.
    Mr. Burton. Let me make sure--I don't want you to make a 
misstatement here. It did not come through you. Do you know of 
any other source that money came through?
    Mr. Huang. I do not know.
    Mr. Burton. Any source?
    Mr. Huang. No.
    Mr. Burton. Did you serve as the head of a fundraising 
committee in Los Angeles in 1993?
    Mr. Huang. For that particular event?
    Mr. Burton. Yes, for that event.
    Mr. Huang. As I said, the DNC's representative earlier 
tried to do--asked me to host event to raise $300,000. I could 
not quite do that.
    Mr. Burton. But you were the head of the event there or you 
did not host an event?
    Mr. Huang. I was not really the main host of the event. 
There were some other mainstream people were host. I just join 
in.
    Mr. Burton. Can you look at exhibit No. 64. It's a memo 
from Vida Benavides to Laura Hartigan at the DNC.
    [Exhibit 64 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.387
    
    [GRAPHIC] [TIFF OMITTED] T6496.388
    
    [GRAPHIC] [TIFF OMITTED] T6496.389
    
    [GRAPHIC] [TIFF OMITTED] T6496.390
    
    [GRAPHIC] [TIFF OMITTED] T6496.391
    
    [GRAPHIC] [TIFF OMITTED] T6496.392
    
    [GRAPHIC] [TIFF OMITTED] T6496.393
    
    [GRAPHIC] [TIFF OMITTED] T6496.394
    
    Mr. Huang. Yes.
    Mr. Burton. On page 2 of that memo, if you'll read it, it 
says that you originally pledged to raise $200,000 for that 
event; is that correct?
    Mr. Huang. At least----
    Mr. Huang. Maybe that's the amount. I'm not sure about that 
amount. I reported to, Mr. Chairman, earlier their 
representative did come to me, ask me whether I could raise 
$300,000 and I could not really commit that.
    Mr. Burton. It says here on page 2 that you pledged to 
raise $200,000. Did you say you'd do that?
    Mr. Huang. I couldn't really be sure whether I did or did 
not to pledge that.
    Mr. Burton. Do you recall a second meeting with Darius 
Anderson on August 30, 1993.
    Mr. Huang. I don't know whether the second meeting but 
Darius Anderson was a person initially contacted me.
    Mr. Burton. Did you present Mr. Anderson with a list of 
demands at that meeting?
    Mr. Huang. A list of?
    Mr. Burton. Demands, asking him for something?
    Mr. Huang. I certainly don't recall that, no.
    Mr. Burton. You don't recall?
    Mr. Huang. I don't recall I gave him any demand on that.
    Mr. Burton. Exhibit No. 65, if you could look at that, is 
another memo from Vida Benavides. It says you committed 
$100,000 if Vice President Gore met with local business and 
political leaders. Is that true? Said if he would meet with 
local business and political leaders, that you would raise 
$100,000. Is that true?
    [Exhibit 65 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.395
    
    [GRAPHIC] [TIFF OMITTED] T6496.396
    
    Mr. Huang. Mr. Chairman, probably I made a commitment for 
that but this is tied in to the evening fundraising event 
together, this additional request I want to make on behalf of 
the community.
    Mr. Burton. So you said I think I can raise $100,000 if 
you'll meet with some business and political leaders.
    Mr. Huang. That is correct from our community.
    Mr. Burton. Did you get a small--did you get a small 
reception with the Vice President in addition to that 
fundraiser? Did you have a small reception in addition to the 
fundraiser?
    Mr. Huang. There was not a reception, just a group meeting 
in the round table, probably 30 or 35 of Asian Pacific American 
community business leaders was having opportunity to meet with 
Vice President Gore.
    Mr. Burton. Was Mr. Shen a part of that meeting?
    Mr. Huang. Yes.
    Mr. Burton. The memo also says you committed to raising 
$300,000 to $400,000 more for the DNC if significant 
appointments are made. Is that true?
    Mr. Huang. I cannot be very specific about a number but the 
general direction is I want to get message across from 
community point of view cannot really continuously give money 
without having anything coming back to the community.
    Mr. Burton. Well, that's pretty important. It sounds like 
there's a quid pro quo where you're saying look, if you'll give 
some appointments to some people and maybe you had some 
specific people in mind in the Asian American community, we'll 
raise $300,000 to $400,000. Is that about what it was?
    Mr. Huang. No, my--the concept basically is Asian community 
has been let down for so many years, just being constantly 
being tapped on the money. The community, political people, 
they have little concern about--one hand of the people, the 
business side continues giving money. Then political side will 
complain saying the issue is never addressed.
    Mr. Burton. You were not getting anything for the hard 
working money you were giving as a community.
    Mr. Huang. From community point of view, as a whole.
    Mr. Burton. The schedule says I'm next so I guess I'll go 
ahead.
    Were you talking about a possible appointment for yourself 
there?
    Mr. Huang. No, sir.
    Mr. Burton. But you were later appointed to the Department 
of Commerce.
    Mr. Huang. That is correct, yes.
    Mr. Burton. The memo says since John Huang himself is up 
for an appointment, his early commitment of $200,000 would be 
perceived as a buyoff. Did you tell the DNC that?
    Mr. Huang. Definitely not.
    Mr. Burton. But it does say that in the memo? You have the 
memo there in front of you?
    Mr. Huang. That's right.
    Mr. Burton. So they may have thought if the money was 
given, it might look like you were trying to buy a position?
    Mr. Huang. If what the memo says that way, they are totally 
misunderstood my intention.
    Mr. Burton. I see. The memo also says these fundraisers 
would look foolish if they themselves commit to give without a 
guarantee of a possible appointment. Let me go through that 
again. The memo also says these fundraisers would look foolish 
if they themselves commit to give money without a guarantee of 
a possible appointment. Did you say anything like that to the 
DNC?
    Mr. Huang. As I said already, something has to come to the 
community I believe I said along the line but I don't know 
exactly words what it says here.
    Mr. Burton. That was their interpretation evidently. 
Exhibit No. 67 if you could look at that. Do you have that in 
front of you, sir?
    [Exhibit 67 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.397
    
    Mr. Huang. Yes.
    Mr. Burton. It's a letter from March Fong Eu to you, John 
Huang. This letter is dated 4 days before the September 27 
fundraiser and it says, ``White House sources have confirmed 
that I will be nominated as United States Ambassador to 
Micronesia.'' Was this a type of action that you were expecting 
from the administration?
    Mr. Huang. I was hoping to at least something in that 
nature, yes.
    Mr. Burton. So that is accurate?
    Mr. Huang. In terms of getting appointment for Asian 
American community people, that was accurate.
    Mr. Burton. It's a letter from March Fong Eu to you saying 
this letter--it says the White House sources have confirmed I 
will be nominated. Ms. Eu will be nominated as Ambassador to 
Micronesia. That's essentially the kind of thing you were 
talking about. I'm sorry.
    Mr. Huang. Seems to be good news to me, yes.
    Mr. Burton. On the top of the letter it reads copy to JTR. 
Is that James Riady?
    Mr. Huang. That's correct.
    Mr. Burton. That is correct?
    Mr. Huang. Yes.
    Mr. Burton. Was James Riady getting his friends appointed 
to the administration in positions, was he involved in that in 
any way?
    Mr. Huang. My best recollection is probably Ambassador 
March Fong Eu was trying to lobby everybody possible to get 
things done. I would not be surprised that Mr. Riady was 
contacted as well.
    Mr. Burton. Now, James Riady met with then Governor of 
Arkansas in the back of the limousine in California when he 
pledged to give $1 million. We don't know what the conversation 
was but did you ever hear anything like that he was asking to 
get more appointments for people in the Asian American 
community appointed to positions if he was elected President?
    Mr. Huang. During 1992, sir?
    Mr. Burton. Yes.
    Mr. Huang. I did not, no.
    I did not.
    Mr. Burton. You don't know whether that was brought up or 
not?
    Mr. Huang. No, I don't.
    Mr. Burton. Was James Riady in any way involved in the two 
events with Vice President Gore on September 27?
    Mr. Huang. He was not. I was.
    Mr. Burton. You were involved in those?
    Mr. Huang. I was involved, yes.
    Mr. Burton. Let me come back to one other issue real quick. 
As I understood just a minute ago, you said that March Fong Eu 
kind of lobbied Riady for an appointment. You think he may have 
lobbied----
    Mr. Huang. He was trying to get everybody in the community, 
for instance, writing letters, making calls for that process.
    Mr. Burton. Do you know if James Riady did write a letter 
to the President trying to get him appointed?
    Mr. Huang. I would not know, sir. I would not know.
    Mr. Burton. Do you know if he talked to the President or 
the Vice President or anybody about getting Ms. Eu appointed?
    Mr. Huang. The reason I hesitate, I'm trying to search my 
long memory, Mr. Chairman.
    I'm not quite certain whether he did direct me to Mr. 
Clinton or not, but I do know he did not talk to Mr. Gore.
    Mr. Burton. He did not talk to Mr. Gore.
    Mr. Huang. Right.
    Mr. Burton. But he may have talked to the President?
    Mr. Huang. I'm saying it is possible he talked to Mr. 
Clinton but I'm more sure he might have talked to Mr. Clinton's 
staff member, if he talked to anybody.
    Mr. Burton. Are you talking about Mr. Riady now?
    Mr. Huang. Mr. Riady, yes.
    Mr. Burton. Mr. Riady at that time had been out of the 
country for 3 years. He wasn't a permanent resident, didn't 
even have a green card. But he may have talked to one of the 
assistants to the President. Do you have any idea who that 
assistant might have been?
    Mr. Huang. First of all, Mr. Riady did not really be out 
for 3 years. He was continually in and out, in and out for the 
latter part of 1992, beginning of 1993.
    Mr. Burton. I know we're splitting hairs here. He had a 
home in California but he was living, as you said before, 
almost entirely in Indonesia. Anyhow, go ahead.
    Mr. Huang. The reason why I'm hesitating was I believe I 
learned that Dr. March Fong Eu has asked probably Mr. James 
Riady to help out, like she would try to ask a lot of other 
people, including myself, to do that. I don't know where I get 
the information, Mr. Chairman, and I learned that Dr. March 
Fong Eu indicated she has talked to James Riady to solicit his 
help as well.
    Mr. Burton. I will come back to this in a minute. Mr. 
Waxman.
    Mr. Waxman. Mr. Chairman, maybe we can avoid having to come 
back to it. As I understand the testimony, and I want to have 
it clarified, you don't know whether March Fong Eu talked to 
Mr. Riady; you are speculating that she might have because she 
talked to a lot of other people?
    Mr. Huang. Right.
    Mr. Waxman. You don't know whether she talked to him and 
you don't know whether Mr. Riady actually talked to Mr. Clinton 
or Mr. Clinton's staff person about her appointment; is that 
accurate?
    Mr. Huang. That's basically a fair statement on that. I 
don't know for sure. But as I reported to Mr. Chairman earlier, 
from Dr. March Fong Eu, she indicated she has contacted Mr. 
Riady whether he might be able to help.
    Mr. Waxman. But to your knowledge--all you can do is 
testify about your knowledge--you don't know whether she talked 
to Mr. Riady or Mr. Riady talked to President Clinton or one of 
his staff?
    Mr. Huang. That is correct, basically.
    Mr. Waxman. I have known March Fong Eu for many, many years 
and I know that she was talking to a lot of people about her 
interest in that appointment which she eventually got. So I 
wouldn't be surprised if she talked to you or other people as 
well. But I don't know, and so I could not tell you that she 
did or didn't, and I gather what you're saying is you can't 
tell us whether she did or didn't.
    Mr. Huang. That's correct.
    Mr. Waxman. But we both know her well enough to speculate 
that she probably did because she was pretty thorough.
    Mr. Huang. That's right.
    Mr. Waxman. I yield back.
    Mr. Burton. If my colleague will bear with me, I just have 
a couple of more.
    Mr. Shays. Mr. Chairman, I'm happy to let you do what you 
need to and then I will do what I need to.
    Mr. Burton. Let me conclude with this. You talked to her 
and she talked to you about an appointment, a possible 
appointment. You think she talked to a lot of other people and 
she indicated that she had talked to Riady as well.
    Mr. Huang. I think so, yes.
    Mr. Burton. Did anybody, did she or James Riady or anybody 
that you know indicate that Mr. Riady contacted anybody at the 
White House about her appointment? Anybody?
    Mr. Huang. I really can't recall any specifics on that, 
sir.
    Mr. Burton. You don't know of anybody that Mr. Riady talked 
to by Mr. Riady about her appointment?
    Mr. Huang. I don't. By the way, Mr. Chairman, this is 
really a lower appointment.
    Mr. Burton. I understand.
    Mr. Huang. From a community point of view. Actually Dr. 
March Fong Eu would like to have a much higher regional place.
    Mr. Burton. We all would like to have higher appointments.
    Let's go back to these events. Was James Riady involved in 
getting any of his friends appointments to the administration 
that you know of, any appointments whatsoever?
    Mr. Huang. If there is any connection with myself and other 
persons from the Lippo Group----
    Mr. Burton. Or anybody.
    Mr. Huang. Possibly there was another person who asked me 
to submit certain things to the White House personnel but 
nothing ever materialized. If anything ever materialized 
related to the Lippo Group, it is myself and also the other 
person is called Charles De Queljoe who was appointed to an 
advisory committee in the U.S. Trade Representative, one of the 
advisory committees. Not on a full-time basis, on a regular 
meeting type.
    Mr. Burton. Was that along with Charlie Trie? Wasn't 
Charlie Trie appointed to that too?
    Mr. Huang. No, that's a separate committee, definitely 
separate and also at a different time, Mr. Chairman.
    Mr. Burton. Could you look at exhibit 68? On page 2, No. 
39. It says, James Riady working with John Huang on an Asian 
event. If that is not September 27, do you know what Asian 
event that refers to?
    [Exhibit 68 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.398
    
    [GRAPHIC] [TIFF OMITTED] T6496.399
    
    [GRAPHIC] [TIFF OMITTED] T6496.400
    
    Mr. Huang. There was no Asian events. The only Asian event 
around that time would probably be a September 1.
    Mr. Burton. Do you know if James Riady was involved in 
getting Charlie Trie appointed to the committee he served on?
    Mr. Huang. That would be a surprise to me.
    Mr. Burton. You don't know about that?
    Mr. Huang. No.
    Mr. Burton. Mr. Huang, I'm going to read to you some 
statements made in the Senate Governmental Affairs Committee 
campaign fundraising report. These statements are based on 
classified, secret information that we cannot talk about here. 
However, the information is a distillation or a condensation of 
a variety of sources that the committee was authorized to make 
public. The report states, ``A single piece of unverified 
information shared with the committee indicates that Huang 
himself may possibly have had a direct financial relationship 
with the PRC Government.''
    Is that true? Did you have a direct financial relationship 
with the PRC government?
    Mr. Huang. Absolutely not.
    Mr. Burton. Mr. Huang, you worked for the Riady family for 
nearly 10 years, right?
    Mr. Huang. That is correct, sir.
    Mr. Burton. Even after you stopped working for them, you 
have remained in contact with them, correct?
    Mr. Huang. That's correct.
    Mr. Burton. In fact, over the last several years while you 
have not been working, you haven't been working for them, they 
gave you close to $40,000, $18,000 one time and $20,000 another 
time as a gift?
    Mr. Huang. That is correct.
    Mr. Burton. So you would consider yourself a close friend 
of the Riady family?
    Mr. Huang. The friendship remains, yes.
    Mr. Burton. The Senate report stated the following relating 
to Mr. Riady. The committee has learned from recently acquired 
information that James and Mochtar Riady have had a long-term 
relationship with a Chinese intelligence agency. The 
relationship is based on mutual benefit, with the Riadys 
receiving assistance in finding business opportunities in 
exchange for large sums of money and other help. Although the 
relationship appears based on business interests, the committee 
understands that the Chinese intelligence agency seeks to 
locate and develop relationships with information collectors, 
particularly persons with close connections to the U.S. 
Government.
    Is that true?
    Mr. Huang. Mr. Chairman, despite the fact I implicated Mr. 
Riady during this process, I personally really have a very high 
regards for the Riady family, in particular Mr. Mochtar Riady. 
I have no reason to believe they would do things of that 
nature, sir.
    Mr. Burton. They do have very close ties with many entities 
within the Chinese Government.
    Mr. Huang. Yes. But for different reasons.
    Mr. Burton. Then you would say the findings of the Senate 
Governmental Affairs Committee would be incorrect? I will read 
to you again what it says.
    Mr. Huang. Mr. Chairman, based on my relationship or the 
working relationship with the Riady family, and also 
understanding the visionary philosophy of Mr. Mochtar Riady, 
the family has been so evangelical, I seriously doubt--I don't 
have any reason to believe that.
    Mr. Burton. Let me end up with this and then I will yield 
to my colleagues. Oh, I am next? Then I will go ahead. Here is 
a quote that I have used a couple of times in the hearings 
already by Senator Lieberman from the Democrat party. It says, 
``Nonpublic evidence presented to the committee demonstrates a 
continuing business intelligence relationship between the 
Riadys and the People's Republic of China Intelligence 
Service.''
    That is consistent with what they had in their report, but 
you still don't believe that is the case?
    Mr. Huang. Sir, I don't.
    Mr. Burton. Do you have any explanation of where this 
information could have come from? For instance, do the Riadys 
have business relationships with the Government of the People's 
Republic of China? They do have business relationships with the 
People's Republic of China, don't they?
    Mr. Huang. No, I don't know where the information is coming 
from, Mr. Chairman.
    Mr. Burton. China Resources Holding.
    Mr. Waxman. Mr. Chairman, could you yield to me?
    Mr. Burton. Sure I will yield to you.
    Mr. Waxman. We did go over all of this within the last 
several days. He has been asked and he has answered to his 
knowledge about all of these points. I don't know what interest 
it serves to go over them all again. You may not agree with his 
answers but those are his answers and they are on the record. 
We have already put them on the record.
    Mr. Burton. There is a reason why we're doing this, Mr. 
Waxman, I assure you.
    China Resources Holding associated with the Peoples 
Liberation Army owns a 50 percent interest in a Hong Kong 
Chinese bank with the Riadys. So there is a connection there 
financially with government entities. You worked closely with 
both the Riadys. Do you have any information that would show 
that the Riady family has any relationship with the PRC 
intelligence gathering agency?
    Mr. Huang. No.
    Mr. Burton. In any of the 232 phone call contacts that you 
had with the Lippo entities while you were working at the 
Department of Commerce, did you ever discuss your work at the 
Department of Commerce with them?
    Mr. Huang. Mr. Chairman, I don't believe I had 232 phone 
calls with the Lippo Group on that, but the number indicated 
from the report was, to answer your question, I don't believe I 
have anything to do with those things.
    Mr. Burton. If it is all right with you, Mr. Shays, I am 
going to yield the balance of my time and I will come back to 
this later in the day. I have an emergency phone call. I will 
yield to you.
    Mr. Huang. Thank you, Mr. Chairman.
    Mr. Shays [presiding]. I want to say where I come down on 
this issue and I realize we all can disagree. But when I read 
the Cox report, it is kind of guilt by association in one 
sense. Because whoever does business in China is going to deal 
with some government entity, and in order to do business in 
China, you have to participate with some business entity in 
China which in most cases is governmental. It could be they are 
security people, it could be they are military people, because 
they all seem to own businesses there. So I am just more 
comfortable being on the record by saying that it just suggests 
tremendous need for vigilance, but I probably could take almost 
any U.S. Government business that does something in China and 
then connect them somehow to the military or intelligence.
    I am not going to say that as a result of that, it means 
that we don't have to be concerned. I just want to say that I 
have made a determination that I can't on the face of it feel 
comfortable saying because there is this relationship, 
therefore, they are somehow tied with the military or the 
intelligence.
    Mr. Huang. Thank you, Congressman.
    Mr. Shays. But I do want to say, it requires tremendous 
vigilance, because the fact is those government--every 
business, almost every business has a government relation, and 
the government then gets involved in intelligence and military 
and so on.
    I want to get back to just concluding the issue of your 
security clearance, and I am going to introduce it by saying to 
you that Ike Skelton, probably one of the most respected, not 
probably, one of the most respected Members of Congress on the 
Armed Services Committee asked GAO to do a report. It was 
entitled Inadequate Personnel Security Investigations Pose 
National Security Risk. In this report to Mr. Skelton it says, 
at the end of fiscal year 1998, about 2.4 million DOD active 
duty military, civilian and contract employees held personnel 
security clearances; 96,000 employees held confidential 
clearances; 1.8 million held secret clearances; and 524,000 
held top secret clearances.
    From 1982 through September 1999, 80 Federal employee 
contract personnel, 68 of whom were employeed, were convicted 
of committing espionage against the United States. The point is 
a whole host of people have a security clearance. We have 
learned that there are approximately 700,000 people who have 
clearance who are past due for review that haven't been looked 
at. Over 700,000. In this report, we learned that duty 
personnel security investigations are incomplete and not 
conducted in a timely manner. As a result, they pose a risk to 
national security by making DOD--I'm sorry, the time has ended. 
Mr. Waxman, you have the floor.
    Mr. Waxman. Go ahead and complete your sentence.
    Mr. Shays. Thank you. Mr. Waxman passes and I'll take the 
time.
    Mr. Waxman. No, I'm yielding you----
    Mr. Shays. No, I don't want to be yielded.
    Mr. Waxman. Then I'll just pass.
    Mr. Shays. Thank you. I mean no disrespect, Mr. Waxman, it 
just means that you can reclaim the time if you don't like 
something I'm saying.
    Mr. Waxman. Mr. Shays, it is all yours.
    Mr. Shays. You're passing.
    Mr. Waxman. I'm giving it all to you.
    Mr. Shays. You're passing and I'm claiming the time, my 
time. Thank you.
    In the 530 cases we reviewed, DOD granted clearance 
notwithstanding that 92 percent of the 530 investigations were 
deficient in that they did not contain the information in at 
least one of the nine investigative areas required by the 
Federal standards for granting clearance, which include 
confirming that subjects' residency, birth, citizenship and 
employment records, check-in records for prior criminal 
history, divorce and financial problems, and interviewing 
character references. Seventy-seven percent of the 
investigations were deficient in meeting Federal standards in 
two or more areas and 16 percent of the investigations 
identified issues that the Defense Security Service did not 
pursue pertaining to individuals' prior criminal history, 
alcohol and drug use, financial difficulties and other problems 
that could be cause to deny a security clearance.
    You were given an interim clearance, and we learned from--
and this isn't a complaint against you, it is a complaint 
against the system, but I want to understand why you--I want to 
understand your view of your responsibilities. Scott Kaminsky, 
a former investigator reviewer at OPM looked at your case, 
before the committee. It says Kaminsky told the committee that 
when he learned Huang still traveled frequently to Asia and had 
a number of contacts there, including at least one bank 
account, he made a character level E notation on his reviewer 
action sheet for Huang. The E notation signified a potential 
security problem and was used to alert Commerce OS officials 
who nevertheless failed to act upon it. After the OPM report 
was forwarded to Congress, neither Burns nor Busker returned 
the file to OPM to request an overseas check. Hence the 
overseas check did not happen and Huang was granted a final top 
secret clearance on October 25, 1994.
    Based on records of your travel overseas, not any potential 
national background but your travel overseas, that notation was 
not followed through.
    I would like to just know some questions in regards to 
classification. Without going into any classified information, 
would you tell us what types of information you were briefed 
on?
    Mr. Huang. Congressman Shays, I hope you can appreciate a 
lot of these things probably I cannot disclose on that. But the 
only general direction basically will be largely public 
involving economics or some of the potential business projects 
on that basis, sir.
    Mr. Shays. What regional areas were you briefed on?
    Mr. Huang. Basically I was briefed on Taiwan, the big China 
region, which is including Taiwan, Hong Kong and China.
    Mr. Shays. It has been suggested in some of the documents I 
have looked at that you had a particular interest in China. Can 
you explain your particular interest in China?
    Mr. Huang. I haven't finished that. Also maybe some of the 
material relating to South Korea and also maybe Southeast Asia 
on that.
    Now I am going to answer the question of particular reasons 
on China. It may take a few minutes to do that. Am I OK?
    Mr. Shays. You have the time.
    Mr. Huang. The knowledge I learned from the schooling and 
all the experience is that the whole world is based on the 
division of labor concept. In other words, in the free 
enterprise system, whoever has ability to do a certain thing 
the best should be able to do that, or should be allowed to do 
that. It should not be a person, say, like a jack of all 
trades. You have got to be a barber, a banker, a doctor or be a 
seamstress. If any person starts doing that, nothing is going 
to be done right.
    So the situation is, you will find out after the Second 
World War, maybe around 50 percent of the manufacturing, the 
goods certainly around the world were made in the U.S.A. And 
nowadays probably it is around 15 percent. That doesn't mean 
the United States is going backward, it is just a matter of the 
pie is becoming larger. I'm not talking about geographic area 
is larger, but the economy, the size is becoming bigger, the 
GNP of various countries becomes larger, and the back world 
countries become more prosperous and moving forward on that 
basis.
    Over that process, some of the things, for instance, we did 
in the 1960's, in the textile industries, we gradually had to 
give it up. So Japan started picking it up. Gradually you find 
our steel industry, they are going to pick it up. Then 
gradually going downwards, Japan could not hold onto the 
textile and steel industries, it has gradually gone to 
Southeast Asia, Taiwan, Hong Kong, and gradually gone to 
Southeast Asia, Sri Lanka, Vietnam, Burma, all these. Do you 
want to switch your light off first?
    Mr. Shays. Who has the time? Mr. Burton. He passes. Mr. 
Waxman?
    Mr. Waxman. Let him finish his sentence.
    Mr. Huang. May I?
    Mr. Shays. Yes.
    Mr. Huang. During this transition, it becomes a challenging 
situation for the country or region holding on the top 
position. You are facing a country with a top-notch position, 
facing are we going to carry off the textile industry and how 
are we going to replace that with something better that the 
other people did not do in order to maintain No. 1 in the 
world. This is my concept behind this thing. However, during 
the process in giving up, how do you handle with the people in 
those kind of industries, so-called gradually going to sunset 
an industry, you cannot have people say, here are the pink 
slips, go home and--because you are dealing with a social 
issue. Afterwards if they go home, they don't find a job, they 
don't get skilled, who is paying for it? The taxpayer is still 
going to pay for it. The government is going to give them 
unemployment compensation. They are going to fall into the 
welfare line. All these things are going to happen.
    My concept was Americans should identify a certain industry 
we can do best and always trying to do the best so the rest of 
the world is always going to come to us. If they want that kind 
of thing, they have to buy from us or secure from us or they 
have to pay a good, decent price, a value for those things. But 
in the meantime, whatever we can produce, invent it, our 
ingenuity----
    Mr. Shays. Whatever we can produce?
    Mr. Huang. Whatever we do best, the product we command at 
the top, very soon can be duplicated by the other people.
    Mr. Shays. Overseas?
    Mr. Huang. Overseas, or the other economies. For instance, 
as I have said, the steel industry was No. 1 and gradually 
shifting over to the developing country, go to South Korea, go 
to Korea, South Korea, in Brazil. Right now Russia and China 
are going over there. Now, as you know very well, in light of 
that sector, despite we are developing new things, trying to be 
No. 1, for instance right now we go to high tech, if we go to 
the film industry, not necessarily has to be high tech in the 
film industry, nobody is making the best film as we do here in 
the United States. If you want to enjoy a movie, they have to 
get it from the United States. For those industries being 
imitated or duplicated from us, that becomes the biggest threat 
to us because they are going to take that business away from 
us.
    Then how do we handle that, especially on those industries 
has a tremendous amount of employment impact to our economy. 
For instance, let me mention the automobile industry. I think 
virtually it is about 20 percent of our economy, I hope I am 
right, is tied in somewhat with the automobile industry. 
Assuming this automobile industry being totally shifting over 
to a foreign nation, how do we handle the employment situation 
here in this country? On one hand, you have capital investment 
into this industry already which is set, and then you have a 
labor industry. You cannot have the labor and say in order for 
all of us to compete with Japan making automobiles, Koreans 
making automobiles, you guys have to lower your wages.
    Mr. Shays. Tell me what you are attempting to ultimately 
answer in my question.
    Mr. Huang. What I am trying to say is in order to continue, 
maintain this very large sector of the people continuing to 
enjoy a high standard of living, the only way is to expand your 
market shares overseas. Because your unit cost for your 
investment for that kind of industry, by selling more cars 
overseas will gradually go down. So people in the United States 
can continue to enjoy the continued high wages, high living 
standard. So China becomes one of the emerging markets, which 
is the Asia Pacific American region. India is another one. 
Korea is another one. These are the markets I would be very 
interested in seeing what they would do.
    Mr. Shays. You were responding to the question, why was 
your focus more on China?
    Mr. Huang. China is one of the potential largest markets. I 
like to see any projects being given by China to somebody, a 
joint venture--I like to see there is a chance of giving it to 
the Americans.
    Mr. Shays. Mr. Waxman, you have the floor.
    Mr. Waxman. I'm going to pass, because I want those who are 
holding this hearing to complete their interrogation because we 
have been here a long time. But I thought that was an excellent 
statement of free trade as a way to improve the economy not 
only of the United States but other places in the world. I was 
going to suggest you should go to the Department of Commerce, 
but you have already worked there and it looks like you have a 
pretty solid grasp of what you think our international 
interests are in terms of trade as it relates to us and other 
places in the world as well. I thank you for that response.
    I don't want us to get into a philosophical discussion 
because this interrogation ought to be about whatever the 
Republicans want to ask you, I hope not more than five or six 
times--get it pinned down, get your answers, get the record--
and then we should let you go home, because you have been here 
an extraordinary, almost 20 hours. I don't think I have ever in 
25 years in the U.S. Congress sat through a hearing with one 
person being put thorugh so many detailed questions and answers 
for this long a period of time. I commend you for your stamina. 
I yield back the balance of my time.
    Mr. Shays. If the gentleman yields back the balance of the 
time, I claim 5 minutes. Interrogation is a strong word. I 
think we have been very respectful of you. We will be here 
tomorrow if we don't finish tonight, so we hope we finish 
tonight, but we don't want you to go longer than you want to 
and you will need to let us know when that time comes.
    Mr. Waxman. Mr. Chairman, I assume you're acting as the 
chairman at the moment. Why don't we narrow the questions down 
and get to new areas instead of repeating old areas, rather 
than threatening this witness that he is going to be here 
tomorrow, because I don't think it would be fair to ask him to 
be here tomorrow and have to answer over and over and over 
again questions that have already been asked, and questions--
maybe you believe it is respectful, I don't think it has been 
disrespectful, but these are certainly questions that I would 
call a fishing expedition, over and over and over again.
    Mr. Shays. Does the gentleman yield back his time? Can we 
start over again?
    I will take the time. That is the fact, we will be here and 
we will try to be very respectful of your time. I just would 
love that we had been able to do this, ask all our questions 
after our committee had asked you questions and then we could 
have asked more targeted, but that is not the way it is so 
we'll just deal with it and we will go on with it.
    The question I had is Ronald Reagan would have been proud 
of that answer and I mean that sincerely, but it doesn't 
explain why you were focused on China when your superiors 
didn't believe China was your area of attention.
    Mr. Huang. Congressman Shays, as I alluded to here this 
morning or yesterday, there are some political turf battles 
going on in the Commerce Department. My direct superior was Mr. 
Meissner, the Assistant Secretary who has all the 
responsibility for the geographic areas for the whole Commerce 
Department in the historical sense. But his territory was taken 
away. Under his guidance, he is trying very hard to gain those 
things back. So he has asked me to look into these areas. 
That's what I fulfilled my duty to do that.
    Mr. Shays. The sad thing is we have 1.8 million who hold 
secret clearance and a half a million who hold top secret 
clearance. That is a lot of people. And to justify your 
basically getting involved over a turf battle to make sure--it 
is not a complaint on you, Mr. Huang, but it sure is a 
complaint of the system. I think your answer to the question 
what type of information you requested was basically economic. 
Once you signed--my understanding is that besides having 34 
briefings, that you received cables from 25 to 100 that were 
delivered daily to you. Is that correct?
    Mr. Huang. Congressman Shays, I think by the notes here, I 
received 37 briefings. It is not by my recollection.
    Mr. Shays. Thirty-seven. You are right. Thank you.
    Mr. Huang. And also from the report indicating I had access 
to 25 to 100 classified cables on a daily basis. That doesn't 
mean I would go into the 100. I don't know exactly how I did.
    Mr. Shays. When you got secret classified documents, did 
you sign for them?
    Mr. Huang. I did.
    Mr. Shays. Where did you keep these documents?
    Mr. Huang. If I had to keep it over, then there is a safe 
in the office that has a combination. I only had it.
    Mr. Shays. Were you the only one with that combination?
    Mr. Huang. I was the only one who had a combination. If I 
turn it back, I would give it to the Secretary. The Secretary 
would handle those things.
    Mr. Shays. Did you ever take classified documents out of 
the Department of Commerce?
    Mr. Huang. No, sir.
    Mr. Shays. I don't mean--and I want to be clear on this--I 
don't mean because you had some grand design to take them out, 
I don't mean because you were a spy. I'm not suggesting that. 
I'm just asking if as an employee you ever took these out. I 
see your counsel saying no, but I want to know what you know.
    Mr. Cobb. Actually I was asking him whether he ever took 
them on a trip.
    Mr. Huang. I definitely don't recall on that. The only 
thing I want to qualify for that it might be one of the very 
rare occasions I had to go to the State Department for the 
meeting with Secretary Winston Lor--remember I alluded to 
earlier, he has an interdepartmental meeting, whoever has 
responsibility for Asian American--I might have had a chance to 
put it in the special envelope, to carry it with me and then 
bring it back. That's about all.
    Mr. Shays. And you didn't take it out and you were allowed 
to take it out of the Department of Commerce; that was allowed 
or not? Were you in that instance doing something you shouldn't 
have done?
    Mr. Huang. I don't recall exactly what the rule was. I 
vaguely remember it might have been a situation, a special 
situation. You're testing my memory. I really don't remember.
    Mr. Shays. Your testimony, though, under oath is that you 
only took one document out and you took it to the State 
Department?
    Mr. Huang. I might have had one chance in doing that. I 
don't know for sure at this moment even. I'm not even sure I 
did it even on that one occasion or not.
    Mr. Shays. Thank you.
    I have one last area, and I want to make sure that I'm not 
being redundant to the chairman, but let me go and ask these 
questions and say, I am convinced that the Riadys are your 
friends and you are their friends and James Riady, the son of 
Mochtar?
    Mr. Huang. That is correct, sir.
    Mr. Shays. But you were friends with both. And you maintain 
that friendship. So I am going to tell you, it is very 
plausible to me that you will maintain close relationships 
while you were at the Department of Commerce.
    My time has expired. Mr. Chairman, I would love--it is your 
turn now, but if you would yield to me.
    Mr. Burton. Are you finished?
    Mr. Shays. I would love to ask some more questions just to 
finish up. I am getting toward the end.
    Mr. Burton. Without objection, go ahead.
    Mr. Shays. So I am using your time, Mr. Burton. Thank you.
    I would like to know how often you met with the Riadys 
during your stint between July 1994 and December 1995, 
basically 18 months. These I would think would be fairly 
memorable events because they are close friends and kind of 
your patrons.
    Mr. Huang. The more exact number is the number of times 
they visited the United States, Mr. Riady visited the United 
States, Washington, normally as a courtesy basically just to 
meet with him. It would be safe to say, probably four or five.
    Mr. Shays. Four or five only?
    Mr. Huang. Approximately like that.
    Mr. Shays. It wouldn't be something like 10 or 15? It 
wouldn't be that number?
    Mr. Huang. In that 18 months' time?
    Mr. Shays. Yes. You are more comfortable with that four or 
five?
    Mr. Huang. It probably would be every time that he was in 
the United States, to be safe. So I don't know how many.
    Mr. Shays. Your recollection is it was only four or five 
times?
    Mr. Huang. The number probably would be increased a little 
more because we are covering 18 months' time now. The original 
four or five times, maybe within a year or so.
    Mr. Shays. Did you accompany James Riady to any meetings 
during his stay in Washington?
    Mr. Huang. Yes, there is one I can distinctly remember.
    Mr. Shays. Was it only one?
    Mr. Huang. Probably more. I can only remember one 
distinctly right now.
    Mr. Shays. What was that meeting regarding?
    Mr. Huang. The one I distinctly remember is the one we 
visited the White House.
    Mr. Shays. Which you have talked about. This is the one 
where you went to the radio? Another one. I'm sorry. What was 
that one, then? Tell me what it was.
    Mr. Huang. The one I distinctly remember was in around 
September 1995. We visited the White House and had a chance to 
meet with Mr. Clinton.
    Mr. Shays. In September 1995?
    Mr. Huang. Yes.
    Mr. Shays. While you were employed at the Department of 
Commerce, did you continue to arrange things for Mr. Riady when 
he came to town? Whether or not you met with him, were you a 
facilitator for him in any way? Did you call up people? You get 
the gist of my question. Did you continue to be--and I'm not 
suggesting that that is illegal--I'm just wanting to know what 
happened.
    Mr. Huang. It may have happened. The most likely, probably, 
is if it happened, probably it is a hotel or the limousine 
situation.
    Mr. Shays, there might be another case I just thought of 
involving a radio address situation, I also went with.
    Mr. Shays. That was the second time, when you were in the 
White House when he was there for the President's address?
    Mr. Huang. Right. But I don't know whether it was that or 
not. I can't remember.
    Mr. Shays. I would like to just conclude by asking, on 
September 9, 1994, James Riady entered the White House at 9:38 
a.m., and did not leave until 2:30 p.m. He was scheduled to 
visit with Mark Middleton. Were you at the White House with Mr. 
Riady at all on Friday, September 9, 1994? It was a 4\1/2\ hour 
meeting.
    Mr. Huang. Mr. Shays, I don't recall. One of the ways to 
look at would be my Commerce diary. On the diary, whether I was 
there or not.
    Mr. Shays. The thing that I feel pretty comfortable having 
this conviction is that you had phenomenal relations at the 
White House. You were there, I am impressed that you were there 
a lot. You had contacts. It would seem to me that it is very 
plausible that if Mr. Riady had an opportunity to be at the 
White House, one, you would have known about it and two, you 
would have probably been helpful, and that is not illegal.
    Mr. Huang. I basically agree with that, sir, yes.
    Mr. Shays. Given that, can you tell me why Mr. Riady would 
be at the White House for 4\1/2\ hours?
    Mr. Huang. At this moment, Mr. Shays, I really don't have 
any recollection about these events at this time.
    Mr. Shays. I may try to refresh your memory later on, but I 
would yield back my time. Thank you.
    Mr. Burton [presiding]. Mr. Waxman is not here. Mr. Shays, 
do you want to go ahead?
    Let me continue my questioning, then. We are moving along 
fairly well, finally. Hopefully we will be able to conclude 
today. If not, we will be awfully close. I don't want to 
denigrate you, Mr. Huang, but I understand Mr. Waxman, while I 
was gone, was saying that you're the kind of person that ought 
to be at the Department of Commerce. And this isn't my opinion, 
but Jeffrey Garten who was the Under Secretary of Commerce over 
there after all this came out, said he wasn't the kind of 
person who ought to represent the American government. The only 
reason I say that is because of the problems that you have had. 
I think it is important that on the record and before this body 
that both sides and both opinions be expressed very clearly. 
That is why I put that in the record.
    Earlier I asked you some questions about Maria Hsia. You 
worked with her on fundraising events, isn't that correct?
    Mr. Huang. Yes.
    Mr. Burton. I'm going to read you a passage from the Senate 
Governmental Affairs report that relates to Ms. Hsia:
    ``The committee has learned that Maria Hsia has been an 
agent of the Chinese Government, that she has acted knowingly 
in support of the Chinese Government, and that she has 
attempted to conceal her relationship with the Chinese 
Government.'' We're talking about the Chinese Government in 
Beijing, the PRC. ``The committee has also learned that Maria 
Hsia has worked in direct support of a PRC diplomatic post in 
the U.S.,'' i.e., she was spying. A diplomatic post here in the 
United States and she was working for the PRC.
    Did you know that?
    Mr. Huang. I don't even believe that.
    Mr. Burton. You don't believe that?
    Mr. Huang. Right. I have no reason to believe that.
    Mr. Burton. They got this from intelligence sources.
    Mr. Huang. Based on the dealing, my knowing Maria Hsia, she 
might have tried to get the business, but I don't know whether 
it is going to go to the intelligence side and acting as a spy 
or not.
    Mr. Burton. Let me read this one more time: The committee 
has learned that Maria Hsia has been an agent of the Chinese 
Government, that she acted knowingly in support of the Chinese 
Government, that she attempted to conceal her relationship with 
the Chinese Government, and the committee has also learned that 
Hsia has worked in direct support of a PRC diplomatic post in 
the United States.
    You didn't know any of this?
    Mr. Huang. I don't.
    Mr. Burton. And you don't believe it?
    Mr. Huang. I don't.
    Mr. Burton. Are you aware of any contacts that Maria Hsia 
had with officials from the Government of the People's Republic 
of China? Are you aware of any contacts she had with them?
    Mr. Huang. I don't know openly, but I can imagine the most 
things that she made a contact is just for her immigration 
business, occasionally had to go to the Chinese consulate. That 
is to the extent I know.
    Mr. Burton. Based on classified information, this is secret 
information, some of it I cannot give out but I will read to 
you what the committee said: The committee has received 
information that Hsia worked with Ted Sioeng and John Huang to 
solicit contributions from Chinese nationals in the United 
States and abroad for Democratic causes. Hsia and Huang in 
particular worked together to identify non-U.S. citizens 
overseas who might contribute money to Democratic causes.
    Is that correct?
    Mr. Huang. I don't believe it would be non-U.S. citizens. 
But if it was a non-U.S. citizen, if there is any money being 
raised, probably at least the party has a green card, to the 
extent I know, Mr. Chairman.
    Mr. Burton. I don't know if the committee ever came to that 
conclusion. That you and Maria Hsia worked together to identify 
non-U.S. citizens overseas who might contribute money to 
Democratic causes, you say you----
    Mr. Huang. You are saying non-U.S. citizen. I am not 
disputing on that part, if they have a green card but is still 
a non-U.S. citizen. That is to the extent she might have, she 
probably has.
    Mr. Burton. Like the Riadys?
    Mr. Huang. Not right now.
    Mr. Burton. But like the Riadys back then.
    Mr. Huang. Before, yes.
    Mr. Burton. Let's go on to another subject here.
    Did you discuss the February 19 event with Mark Middleton 
before it took place? This is February 19, 1996. It was a 
breakfast event with the Vice President.
    Mr. Huang. Probably I did, yes.
    Mr. Burton. You did.
    Mr. Huang. Yes.
    Mr. Burton. Did Mark Middleton attend the dinner on 
February 19, 1996?
    Mr. Huang. I didn't think he attended. He probably stayed 
in the back probably the most, I can remember now.
    Mr. Burton. He stayed in the back?
    Mr. Huang. In the dining room.
    Mr. Burton. But he didn't go to the dinner himself? He just 
watched?
    Mr. Huang. He stayed in the back and just watched.
    Mr. Burton. I wonder why he didn't attend the dinner. Do 
you know?
    Mr. Huang. Basically it was an Asia Pacific American as a 
focus at that time.
    Mr. Burton. He just didn't think he should be involved?
    Mr. Huang. I don't know what was the reason, but basically 
it was an Asian Pacific American dinner.
    Mr. Burton. Middleton did attend the breakfast on February 
20 as shown in exhibit 324, if we can put that up. It is a 
photograph of him with Vice President Gore. Can you tell why he 
attended--do we have that picture?
    In any event----
    [Exhibit 324 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.401
    
    Mr. Cobb. He has the picture, Mr. Chairman.
    Mr. Huang. I have the picture.
    Mr. Burton. Do you know why he did attend that event?
    Mr. Huang. I believe one of the participants during the 
dinner and breakfast was a lady called Nina Wang.
    Mr. Burton. Nita Wang?
    Mr. Huang. No, Nina. Nina Wang. I think Congressman 
LaTourette yesterday was referring to the head table. That was 
one of the persons sitting at the table, Nina Wang. Mr. 
Middleton is apparently friends. Maybe he was just being 
concerned, trying to be more courteous, to say Nina Wang was 
there, he just wanted to tag along. I didn't remember he was 
sitting at the table, though.
    Mr. Burton. Do you know if he contributed to that event? I 
will yield myself 5 more minutes here.
    Mr. Huang. To the best of my knowledge, no, he did not.
    Mr. Burton. Did he solicit any money for that event?
    Mr. Huang. No, he did not.
    Mr. Burton. And he did bring a guest?
    Mr. Huang. That's correct.
    Mr. Burton. And her name is Nina?
    Mr. Huang. Nina Wang.
    Mr. Burton. Did you discuss any of the contributions that 
were made for that event with Mr. Middleton? Did you talk about 
any of the contributions that were given at that event? Did you 
talk to Mr. Middleton about them?
    Mr. Huang. I don't specifically remember I talked to him 
about the money, but he can view the situation over there, 
roughly how many people coming in. I'm pretty sure he was aware 
how much per ticket.
    Mr. Burton. But you didn't go into any detail on that?
    Mr. Huang. No detail on that, no.
    Mr. Burton. On February 19, 1996, there was an event and 
Ernie Green gave $6,000 to this event in a check dated March 8, 
1996. This event took place on February 19, 1996 but the check 
was dated, postdated to March 8. Trie is listed as the 
solicitor on that check. Several days before the $6,000 
contribution was made, Green deposited $2,500 and $3,500 cash 
into a Riggs Bank account.
    Do you know Ernie Green?
    Mr. Huang. I met him before, yes.
    Mr. Burton. How do you know him?
    Mr. Huang. I believe it is through some function through 
Charlie Trie.
    Mr. Burton. Mr. Green was present at the February 19, 1996 
event. Can you tell me why he was there and who invited him?
    Mr. Huang. He just came by himself. He came alone. As a 
friend of Mr. Trie.
    Mr. Burton. Nobody invited him?
    Mr. Huang. He knew of the event. I did not really--
basically I did not invite him on that.
    Mr. Burton. Do you know who did invite him? Was it Charlie 
Trie or Mark Middleton or who?
    Mr. Huang. The best I can guess, probably through Charlie 
Trie.
    Mr. Burton. Charlie Trie.
    Exhibit 328, if you could take a look at that, sir. It is 
titled Comm 0326. Do you see that?
    [Exhibit 328 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.402
    
    Mr. Huang. Yes.
    Mr. Burton. It is a page from your diary, from shortly 
before the February 19 event. You have a reference to Chu-Lei, 
Mark Middleton, and Ernie Green and Hong China Limited. What do 
those notes refer to?
    Mr. Huang. The Hong Kong China Limited related to Nina 
Wang. Nina Wang right after the Hong Kong China Limited, there 
is a Chinese connector. That is Nina Wang's Chinese name.
    Mr. Burton. Were you ever in contact with Green about that 
event?
    Mr. Huang. I certainly don't recall contacting him about 
it. I'm pretty sure he knew about that event because it was the 
first Asian Pacific American fundraising event ever.
    Mr. Burton. On the bottom left of that page, there is a 
reference to another company. Can you read your note and does 
it refer to a China Hughes or what does it say?
    Mr. Huang. No. Remember you read, Mr. Chairman, read the 
Hong Kong China. There is confusion. Could be China Hong Kong, 
the name for Ms. Nina Wang's company. In other words, it could 
be a mistake, it could be Hong Kong China or China Hong Kong. I 
wasn't sure at that time.
    Mr. Burton. I see. On March 8, which was several weeks 
after the event, Mr. Green wrote a check for $6,000 to the DNC. 
It was credited to the February 19 event. Why did Mr. Green 
contribute that $6,000?
    Mr. Huang. If I remember correctly, at the end of the 
event, he told me he was going to give some money since he was 
attending.
    Mr. Burton. The event cost $12,500, didn't it?
    Mr. Huang. That is correct.
    Mr. Burton. Why did he only give $6,000?
    Mr. Huang. It was not unusual. Some of the people did not 
give money at a particular time or give less money. That was 
their intention. There is different consideration. Some of the 
people might have been giving money way ahead of time; 
historically it has been known. I would not really in that 
urgency say you come to this event, give me the money. And I 
was quite lenient because of that relationship basis. If I knew 
some people were going to give more money, I was very much 
willing to wait.
    Mr. Burton. So you let some people in for less money 
because you were trying to raise as much as possible.
    Mr. Huang. That is correct, sir.
    Mr. Burton. That's what I thought. Who gave you that check? 
Did Charlie Trie give it to you?
    Mr. Huang. I thought----
    Mr. Burton. Excuse me just 1 minute.
    Mr. Huang. I don't recall exactly.
    Mr. Shays [presiding]. If you would continue.
    Mr. Huang. I have a vague memory it might have been sent in 
by mail. Sent in by mail.
    Mr. Shays. Would you tell me why this check came in so long 
after the event? It was because it was sent in by mail?
    Mr. Huang. No, no, no. He was delaying writing checks, I 
believe.
    Mr. Shays. Did you discuss this contribution with anyone, 
whether it was Charlie Trie or Ernie Green?
    Does Mr. Waxman want the floor because my time is out?
    Thank you.
    Mr. Huang. Congressman, let me proceed to answer your 
question. As I just reported to Chairman Burton, Mr. Green was 
in the event. At the end of the event, he said, I'll give you 
some money. I'll send you some money.
    Mr. Shays. Mr. Green's bank records indicate that on 
February 21st and 23rd, Mr. Green deposited $2,500 and $3,500 
respectively in cash into his bank account. Do you have any 
knowledge of these cash deposits by Mr. Green?
    Mr. Huang. No, I don't.
    Mr. Shays. Do you have any knowledge whether Mr. Green was 
reimbursed for this contribution by Charlie Trie?
    Mr. Huang. I do not know.
    Mr. Shays. Why was the $6,000 Green contribution credited 
to this event?
    Mr. Huang. Because he attended that event. And I got the 
check later on.
    Mr. Shays. Nina Wang made contributions to this event as 
well. Do you know Nina Wang?
    Mr. Huang. I didn't think she made a contribution to this 
event, sir.
    Mr. Shays. Excuse me, I misspoke. She did not make any 
contribution for the event due to her immigration status. Let 
me further ask, she is not a U.S. citizen?
    Mr. Huang. That is correct.
    Mr. Shays. Nor does she hold a green card? She does not 
hold a green card?
    Mr. Huang. No. To the best of my knowledge, sir.
    Mr. Shays. In one interview, I think with the FBI, you 
indicated that you knew that Nina Wang's company had been the 
target of a takeover attempt by the Lippo Group. Which company 
was this? Did you ever have any dealings with Nina Wang 
regarding this takeover?
    Mr. Huang. I think it was relating to Hong Kong China or 
China Hong Kong, which I always flip up. It may be Hong Kong 
China Limited.
    Mr. Shays. Did you ever have any dealings with Nina Wang 
regarding this takeover?
    Mr. Huang. No, I did not.
    Mr. Shays. Did you ever discuss Nina Wang with the Riadys 
or other Lippo Group personnel?
    Mr. Huang. I personally did not discuss on that. I would 
not--I take it back. The Lippo Group people might have known 
that Nina Wang attended that event.
    Mr. Shays. Who, therefore, invited her to the event?
    Mr. Huang. I believe she came in because of Mark Middleton.
    Mr. Shays. Evidently we have an exhibit that indicates that 
Nina Wang was seated at the head table. Do you know why she 
would have been? Did Charlie Trie or Mark Middleton request 
that she be seated at the head table?
    Mr. Huang. I believe that Mark Middleton requested that.
    Mr. Shays. Again she did not give any money for this event?
    Mr. Huang. That is correct.
    Mr. Shays. Did anyone affiliated with Ms. Wang give any 
money to this event?
    Mr. Huang. Not that I know of, sir.
    Mr. Shays. Why would Ms. Wang be seated at the head table 
if she did not give any money for the event? What made her so 
important?
    Mr. Huang. No. 1, she is probably the wealthiest persons in 
the world, the woman in the world. That I learned. And also the 
reason I knew that reputation is because--my knowledge from 
previous employment with the Lippo involving the takeover 
battle. She did not relinquish. She was very tough lady. She 
was giving money to a lot of charitable organization, a lot of 
school is what I understood. One of the conservation I believe 
she has done something for--just 1 second, Mr. Shays.
    [Discussion off the record.]
    Mr. Huang. I have learned--sorry. I have learned through 
Mr. Middleton she probably did already giving some money to 
the--Clinton's birthplace, some foundation or library of that 
sort. In other words, from her what was quite, quite big.
    Mr. Shays. It's our indication that you indicated to the 
FBI that you found out after the event that Wang had given 
$50,000 to the Clinton Birthplace Foundation. First off, what 
is the Clinton Birthplace Foundation?
    Mr. Huang. The best I know is it might be doing something 
for Clinton's birthplace. They're trying to buildup something 
over there.
    Mr. Shays. So there's lots of ways for people to contribute 
even if they can't contribute to campaigns, it appears. How did 
you find out that she had contributed this $50,000?
    Mr. Huang. I believe through Mr. Middleton.
    Mr. Shays. Did you have any idea at the time of that that 
Wang was giving funds to the Birthplace Foundation or any other 
group?
    Mr. Huang. That I do not know of, sir.
    Mr. Shays. Did you ask Trie to take Wang to her hotel after 
the event and did you ask Trie to do anything else special for 
Wang?
    Mr. Huang. I didn't hear the first part.
    Mr. Shays. I'm sorry. I'm going too quickly.
    Mr. Huang. I'm sorry.
    Mr. Shays. No, you do not need to apologize. You've had a 
long day.
    Did you ask Trie to take Wang to her hotel after the event?
    Mr. Huang. I did not do that, no.
    Mr. Shays. OK. Did you ask Trie to do anything else for her 
if not that?
    Mr. Huang. No, not through me, no.
    Mr. Shays. Now Miss Wang also attended an event on May 13, 
1996. We had just been talking about an event in February 1996. 
You--evidently, you had some notes about this May 13th event in 
your diary. You kept a diary--just a calendar.
    Mr. Huang. Yes, I did.
    Mr. Shays. Do I start my new time? Yeah, OK.
    This is exhibit 417, and it's a listing of the head table 
for the May 13th event. It indicates Nina Wang sat at the head 
table. Is that accurate as far as you're concerned? This is 
exhibit 417.
    [Exhibit 417 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.403
    
    Mr. Huang. Yes, I did.
    Mr. Shays. Yes, you did what?
    Mr. Huang. I did know. She was arranged at the head table.
    Mr. Shays. And the question is, did--do you know if Wang 
contributed any money to this event?
    Mr. Huang. No.
    Mr. Shays. Again, if not, why was she at the head table?
    Mr. Huang. This time--it's different now. This time was 
recommended by Mark Jiminez.
    Mr. Shays. Mark who? I'm sorry.
    Mr. Huang. Mark Jiminez. J-I-M-E-N-E-Z, something like 
that--E-Z, E-Z. I'm sorry. Jiminez.
    Mr. Shays. Exhibit 432 is a page from your diary. We call 
it a diary, but is that your calendar?
    [Exhibit 432 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.404
    
    Mr. Huang. It's sort of notebook because I did not have any 
secretary.
    Mr. Shays. OK.
    Mr. Huang. So I was trying to----
    Mr. Shays. OK. Fair enough. From your notebook from the 
period around May 13th it states, Nina Wang, quote, public and, 
quote, 100 Nina, end of quote. Did you solicit Nina Wang to 
contribute for this event?
    Mr. Huang. No, I did not.
    Mr. Shays. Do you know if anyone else asked her to give to 
this event?
    Mr. Huang. Not to my knowledge.
    Mr. Shays. Are you aware of any contributions that Wang may 
have made to any other entities in order to attend this event?
    Mr. Huang. That I don't know either.
    Mr. Shays. OK. Now, let me get back to James Riady. I think 
I've been--I have been candid with you, and I think you've been 
candid with me, but I'm left a little uncomfortable with your 
response about the number of times you might have remembered 
the Riadys. These are two important players. I do realize this: 
If you ask me what I did upteen years ago and over what span--
so I want to take it slow enough. But during the time you were 
in Commerce that's what I'm interested in. And it may be that 
by the time we're finished with these questions you will have a 
number of events with them, and we'll just say they happened. 
Or I might draw some other conclusions. But I at least want to 
know what the facts are.
    My sense is that you really were at the White House with 
Mr. Riady, James Riady, more than once or twice during this 
period. And this is a longer video than I'm particularly happy 
about, but would you put that video in?
    [Video played.]
    Mr. Shays. This is--the event is September 10th White House 
radio address. And if you don't mind I'm going to want you to 
identify the people. There are just a few people that I think--
and we can fast forward it after--these are people that you 
don't really know right now.
    Mr. Huang. OK.
    Mr. Shays. These are not your guests, correct?
    Mr. Huang. No.
    Mr. Shays. They're not a lot of American people who get to 
participate in this. This is a big deal. Now are these your 
guests?
    Mr. Huang. That's James and Aileen Riady.
    Mr. Shays. And that's his wife.
    Mr. Huang. Right.
    Mr. Shays. Right. Yes.
    Mr. Huang. Yes.
    Mr. Shays. So they're going to talk for awhile. If you 
don't mind, we can just speed it up. No, I don't want you to do 
it that way. I'm sorry.
    They have a conversation. Now--and this is who?
    Mr. Huang. That's Mr. Riady's guest.
    Mr. Shays. Who is Mr. Riady's guest?
    Mr. Huang. I can't spell his name. I believe he was 
minister of education of Indonesia.
    Mr. Shays. And this looks like his daughter.
    Mr. Huang. The family, probably.
    Mr. Shays. Yeah, and his wife. And that's James Riady.
    Mr. Huang. I remember that the name is Kowodiman or 
something.
    Mr. Shays. There was a part of me that didn't want to show 
it because it's a very touching interaction of family with the 
President and that happens all the time. But I thought, you 
know, there are not many of my constituents who have this 
privilege.
    Now this is a gift. What is the gift? It's a knife or some 
kind of ceremonial----
    Mr. Huang. Something like that, ceremonial style gift.
    Mr. Shays. Is that you with your back to us?
    Mr. Huang. Yes.
    Mr. Shays. OK. You had a suit on. They didn't.
    Mr. Huang. Thank you. I shouldn't be, right?
    Mr. Shays. Is the sound purposely off? OK. Right. While I 
was talking. Thank you. You can put it back on.
    In a second we're going to have the next people come up.
    I have constituents, if they get to look at the White House 
it's exciting. If they get to go in for a visit, it's a thrill. 
But they don't get to meet the President and go to the Oval 
Office. And this is kind of a special opportunity.
    Now we're going to have some people come up, and I would 
like you to tell me who the others are.
    Mr. Huang. That is the Ambassador.
    Mr. Shays. Turn the sound down.
    Mr. Huang. That is Ambassador of Indonesia to the United 
States and his wife.
    Mr. Shays. OK.
    Mr. Huang. At that time.
    Mr. Shays. Mr. Riady has come with a minister.
    Mr. Huang. Ambassador at that time, sorry.
    Mr. Shays. Ambassador. And he--also, the gentleman before I 
believe was a government official. Who is this again? That is 
right now?
    Mr. Huang. This is my successor, Lippo successor, Joe 
Hanna.
    Mr. Shays. So he works for the Riadys.
    Mr. Huang. That is correct.
    Mr. Shays. And that's Mark Middleton.
    Mr. Huang. Yes. Then that's me. I have a coat on. I didn't 
have a tie on.
    Mr. Shays. He put his arm around you and not Mr. Riady. You 
are good friends, and you should be proud of that. You have a 
long-term relationship with the President.
    Now is there anyone else?
    Mr. Huang. To the extent probably that was it, Mr. Shays. 
That's probably all the people, yeah.
    Mr. Shays. Now, the reason I'm showing this is--the reason 
I'm showing this to you is this really should bring back the 
recollection of the meeting the day before. Because the day 
before Mr. Riady was in the White House at 9:38 a.m., and 
didn't leave until 2:30. And whether or not--I want to be very 
clear with you, Mr. Huang. I want to be very clear with you on 
this point. Whether or not there is a White House document that 
says you were there, it is important for you to recall whether 
or not you were there. And it is not going to be difficult for 
you to remember. Because this is a very memorable event.
    [Discussion off the record.]
    Mr. Huang. Mr. Shays, thank you for bringing this tape in. 
You know, I'm also getting the age and going around so many 
things at a time, some things I remember more, much better than 
the other. But this will help me on this.
    Mr. Shays. I'm going to concur. I say it for the record. I 
pass no judgment. But now, having seen this, can you provide us 
any information?
    Mr. Huang. I tell you I did not attend the so-called--that 
few hours that you talking about the----
    Mr. Shays. You weren't in the White House.
    Mr. Huang. I was not in the White House.
    Mr. Shays. Do you know what they talked about?
    Mr. Huang. That I don't know.
    Mr. Shays. OK. You didn't talk to Mr. Riady at all about 
this event?
    Mr. Huang. I should not say I did not talk to Mr. Riady on 
that, because you saw my pictures were there, and I was with 
him.
    Mr. Shays. I mean about the event the day before. It's hard 
for me to imagine that as close as you are to the President and 
to Mr. Riady that you would not have had some conversation 
about that event.
    [Discussion off the record.]
    Mr. Huang. No, I had a conversation. I was not there during 
the day.
    Mr. Shays. I am clear on that. You were not there at the 
event. I want to know if you talked to Mr. Riady at all about 
the event.
    [Discussion off the record.]
    Mr. Huang. Please, go ahead.
    Mr. Shays. No, that's fine.
    Mr. Huang. Congressman, the best I can recollect, and this 
is the time, this few days you were talking about, the $100,000 
to Mr. Hubbell. Remember? We're talking about that. This is 
probably some people saw that as a help situation, helping him 
totally. It's not really a job arrangement. I believe these 
things is done through Mr. Hubbell. It's not through me.
    Mr. Shays. You think the visit to the White House was 
done----
    Mr. Huang. The arrangements through Mr. Hubbell. And if 
there is any meeting--because I indicated to you earlier I did 
not--I was not in the White House. I don't know whether the 
White House visit was also arranged by Mr. Hubbell or not, 
which I wouldn't be able to speculate on that.
    Mr. Shays. But the bottom line is you didn't arrange the 
Friday meeting, but somebody did.
    Mr. Huang. That's correct.
    Mr. Shays. And we know that he went in to see Mark 
Middleton. Do you know--did he talk to you at all to tell you 
if he met with Bruce Lindsey or do you know if--in fact if he 
met with Bruce Lindsey?
    Mr. Huang. I really cannot rule out any of your 
possibilities, because I don't know.
    Mr. Shays. Your testimony is you can't rule it out, but you 
don't know.
    Mr. Huang. That's correct.
    Mr. Shays. That was a memorable event that Sunday which you 
mentioned. There was the event before which you now recall and 
know that you did not arrange, according to your testimony, nor 
did you have much of a dialog with Mr. Riady about it. You 
speculate that it might have been involved with the Hubbell--
that Mr. Hubbell may in fact have provided this opportunity. 
And it was during the time of the $100,000 payment by Mr. Riady 
to Mr. Hubbell. That's a speculation on your part that he 
arranged that but you didn't.
    Mr. Huang. I didn't. That's correct, sir.
    Mr. Shays. It had to be arranged----
    [Discussion off the record.]
    Mr. Huang. I shouldn't use the word speculate. I'm pretty 
sure I know that Mr. Hubbell made the arrangement on that.
    Mr. Shays. Thank you.
    Mr. Huang. Right.
    Mr. Shays. Thank you. How did you know that?
    [Discussion off the record.]
    Mr. Huang. Probably Mr. Riady mentioned about that to me.
    Mr. Shays. OK. I yield back the time. Thank you. Mr. 
Chairman, I yield back the time.
    Mr. Burton [presiding]. The gentelman yields back the 
balance of his time.
    I think what we'll do now is go to the counsel. Each 
counsel member has 30 minutes. I'm not sure they're going to 
use all of that. They have some questions that they feel need 
to be asked that Mr. Shays and I haven't asked or Mr. Waxman. 
So we will now yield 30 minutes.
    Mr. Shays. Could I ask a question before, Mr. Chairman? I 
have no other questions. I just want to ask, in terms of the 
process, both sides will ask questions and then will we be 
given just a short opportunity to make a comment?
    Mr. Burton. Yes. In fact, if Mr. Waxman is here or you or 
I, we'll have closing comments. Then we'll be through. I don't 
think----
    Mr. Shays. I have no other questions to ask. That's 
correct.
    Mr. Burton. Yield to the minority counsel.
    Mr. Schiliro. Thank you.
    Mr. Chairman, this is just a point of clarification. 
Earlier when we talked about Maria Hsia, Mr. Huang was asked a 
question about that. The chairman read to you the majority 
report. There is also a minority report on Maria Hsia. Just to 
make it part of the record we ask unanimous consent----
    Mr. Burton. Without objection, so ordered.
    Mr. Schiliro [continuing]. Just to read a short excerpt.
    Mr. Burton. That's fine.
    Mr. Schiliro. The minority report said of Maria Hsia that,

    The committee received nonpublic information connecting 
some activities she undertook while an immigration consultant 
in the State of California in the early to mid-1990's to 
Chinese government officials. This information did not involve 
her activities with respect to fundraising, and there was no 
information presented to the committee during its investigation 
that connected Hsia's fundraising activities to the Chinese 
government. In an affidavit submitted to the committee, Hsia 
strongly objects to this allegation, outlines her ties to 
Taiwan and the U.S., and describes her activities while an 
immigration consultant in California. In light of the 
incomplete investigation of the committee on this issue, the 
minority believes that the committee lacks sufficient 
information about Hsia to endorse or rebut these serious 
allegations. The fact that the majority emphasizes these 
allegations throughout its report without putting the 
allegations in context or addressing this information is 
troubling.

    I only put that in the record, Mr. Chairman, because the 
witness before had a different view of Maria Hsia. I don't know 
if he has any response in light of this information.
    Mr. Huang. No, my response to Mr. Chairman stands. At least 
still I didn't have any reason to believe she was conducting 
that kind of activity as indicated by the report I'm talking 
about.
    Mr. Schiliro. Thank you. We yield back.
    Mr. Burton. The gentleman yields back his time.
    The majority counsel now has 30 minutes.
    Mr. Wilson. Mr. Huang, how are you sir?
    Mr. Huang. Good afternoon.
    Mr. Wilson. It's been a very long day for you. I realize 
that. I'll try and be as quick as I can.
    Obviously, one of the reasons we have hearings like this is 
because we want to learn things. One of the things we are very 
interested in was the relationship between Mr. Charlie Trie and 
James Riady, and I think before the hearing began we had an 
impression that there wasn't much or any of a relationship 
between Mr. Trie and Mr. Riady. And I wanted to followup and 
ask you a few questions about Mr. Trie and Mr. Riady.
    Mr. LaTourette asked you questions, I believe it was the 
day before yesterday, and he asked at any time during your 
acquaintance with Charlie Trie did you ever discuss with him 
any travel that you might have made to Jakarta, and you 
answered that he had some business contact in Jakarta.
    And Mr. LaTourette then asked was that the subject of 
conversations that you and he might have had, and you said he 
was talking about business contacts, businessmen he knew in 
Indonesia.
    And then later on we learned that Mr. Trie actually went 
over and had a meeting with Mr. Riady in Jakarta. If you could 
please tell us as much as you can about that meeting.
    Mr. Huang. I did not know that, the detail of the meeting. 
Basically, the best I learn is he visited Mr. Riady. Mr. Riady 
had made a comment to me and said, despite the fact that both 
were in Little Rock earlier--as you know, Mr. Trie's 
background, he owned the restaurants in Little Rock. And Mr. 
Riady also runs a daily banking business, the Worthen Bank in 
Little Rock. They hardly had a chance to meet, but although 
they knew sort of each other they knew the existence of the 
persons. He made a comment to me. He said, well, Charlie Trie 
is not a bad guy, you know, and--but he indicating certainly in 
his words denied a lot of resources, relative speaking, 
compared to the Riadys.
    Mr. Wilson. Did you have any part in arranging the meeting 
between Mr. Trie and Mr. Riady?
    Mr. Huang. No, sir, I did not.
    Mr. Wilson. No? Just following up on that one exchange you 
had with Mr. LaTourette, Mr. LaTourette said specifically, are 
you aware of any relationship between the Trie family and the 
Riady family. And your answer to Mr. LaTourette was, no, he 
had--to the best of my knowledge, he had no relationship with 
the Riady family. And I wanted to followup and ask you whether 
you thought that was an accurate characterization.
    Mr. Huang. That depends on the period of time. Are you 
talking about business relationship? The most closest one we 
can talk about is that meeting and also probably something Mr. 
Trie might be able to work something in China because he, Mr. 
Trie, has some extensive--at least appear to have extensive 
relationship or contacts in China. And at that time Lippo also 
developing something in China. And in light of overall 
situation as I just made a comment that Riady and Trie's 
meeting, maybe Trie might be helpful in helping with his 
service to the Riady family on Lippo in some projects in China.
    In terms of that relationship, that's--at that point, all 
words, if talking about the relationship, that's the first time 
I knew there was a relationship. Prior to that, I really did 
not have any knowledge that they had any relationship.
    Mr. Wilson. What I'm trying to get at here is you were 
asked if there was any relationship and you said, no, to the 
best of my knowledge, he had no relationship with the Riady 
family.
    After that, we showed you a copy of a receipt from a 
limousine ride, and it became clear that--at least you told us 
that you had a limousine go to Dulles Airport and pick up Mr. 
Riady. And then there was a little bit of skirmishing over 
details, and then it became clear that later that night after a 
fundraiser Mr. Riady actually stayed and, as did you, with Mr. 
Trie in an apartment at Mr. Trie's place. And the concern that 
when Mr. LaTourette asked you whether there was any 
relationship at all, and your answer was no. I wanted to 
followup on that.
    Mr. Huang. I like to clarify that. My interpretation is, 
family relationship I says no. Now, I took it as that way.
    Mr. Wilson. And if you could briefly explain that. Because 
I don't understand that, the family relationship.
    Mr. Huang. The family relation like a blood tie or brother-
in-law or that kind of situation, sir.
    Mr. Wilson. OK. Well, following up on the time that you and 
Mr. Riady stayed with Mr. Trie in the apartment, who arranged 
that?
    Mr. Huang. I did not arrange that. I have learned from Mr. 
Riady at that time, Mr. Riady indicating that Mr. Trie invited 
him to stay there. He said he decided to stay there instead of 
staying at a hotel. He told me that. I did not arrange that, 
the arrangement--accommodation arrangement on that, no.
    Mr. Wilson. So it's fair to say, then, that Mr. Trie 
arranged this independently with Mr. Riady.
    Mr. Huang. That's my belief, yes.
    Mr. Wilson. And do you know how he did that? Was it a 
meeting or a telephone call?
    Mr. Huang. That I would not know, sir, Mr. Wilson.
    Mr. Wilson. Did you know that before you picked up Mr. 
Riady in the limousine? Did you know that Mr. Riady and 
yourself would be staying with Mr. Trie at Mr. Trie's 
apartment?
    [Discussion off the record.]
    Mr. Huang. The best of my recollection is Mr. Riady 
mentioned to me he also made the hotel reservation but he also 
was invited by Mr. Trie and he was indicating he decided to 
stay with Mr. Trie.
    Mr. Wilson. OK. Now, following up, we had a very brief 
discussion about after the campaign finance matters became very 
public and you were receiving a great deal of media attention, 
you ended up staying at Mr. Trie's apartment for a period of 
time. And you indicated it was 1 to 2 weeks that you stayed at 
Mr. Trie's apartment. Can you recall with any more specificity 
how long you actually stayed at Mr. Trie's apartment?
    Mr. Huang. I cannot give you the exact time. I think during 
my----
    [Discussion off the record.]
    Mr. Huang. Mr. Wilson, I distinctly remember during the, 
you know, Judicial Watch, the deposition period of time and I 
reported, Mr. Chairman, I was move around from places to 
places. And final night I went in to Mr. Trie's apartment in 
Watergate. And during that deposition period of time, I was 
staying with Mr. Trie's apartment.
    Mr. Wilson. How did you arrange that? Did he call you and 
make the offer or did you call him and ask him if you could 
stay at his apartment?
    Mr. Huang. I believe I initiated that. I was wondering if I 
could stay there because the Watergate apartment was relatively 
secure. You know, media cannot really just knock on your door 
and go in to film you. He also recommend--you know that's not--
and maybe it's a mutual situation. But I believe I initiated 
that, whether I could stay there, sir.
    Mr. Wilson. Have you ever stayed there before, apart from 
the time with Mr. Riady?
    Mr. Huang. I'm not certain right now. I--definitely I 
visited that apartment before. Whether I stay overnight or not, 
if--I cannot recall. In the event--I really cannot recall ever 
staying there. I did visit that apartment a few times before, 
yes.
    Mr. Wilson. Now, I would like to move along just a little 
bit to another subject. You had mentioned that you heard that 
Mr. Trie might be helpful with ventures in China, and I wanted 
to know whether you ever communicated that to Mr. Riady.
    Mr. Huang. No, that--I learned that in information from Mr. 
Riady when he--after the meeting between Mr. Riady and Trie in 
Jakarta he briefly he mentioned he might have Mr. Trie to do so 
in China, something of that nature. But was not really in the 
specific form as I was shown on that translated report 
yesterday.
    Mr. Wilson. When did Mr. Riady tell you that Mr. Trie might 
be helpful in Chinese ventures?
    Mr. Huang. I believe it was around that period of time, 
September, you know, around September, maybe--in that period of 
time, yeah.
    Mr. Wilson. Before that, had Mr. Riady ever asked you any 
questions about Charlie Trie?
    Mr. Huang. I simply did not recall that, as I made a 
comment to you earlier, just now. Mr. Riady had made a comment 
after the joint meeting in Indonesia. He said he's basically 
not really a bad guy on that.
    Mr. Wilson. Did--have you ever had any--have you had any, 
in the last couple of years, any discussions with Mr. Riady 
about Antonio Pan?
    Mr. Huang. Not with Mr. Riady on Antonio Pan at all.
    Mr. Wilson. Do you know where Mr. Pan is right now?
    Mr. Huang. To answer your question, no, I don't know. But I 
can tell you what I knew before, what is his background. He 
came from----
    Mr. Wilson. Just for the last couple of years. I'm not 
interested before that.
    Mr. Huang. Right. That's what I'm trying to say. He came 
from Taiwan. Maybe he set foot in Hong Kong sometimes, could be 
in China. But I understand he migrate his family to New 
Zealand. So he might have a status in New Zealand. That is the 
extent I know. Certainly some time he was traveling to the 
United States during that period of time, sir.
    Mr. Wilson. Have you had any conversations with Mr. Pan in 
the last 2 years?
    Mr. Huang. No, sir.
    Mr. Wilson. Apart from Mr. Trie and you discussing how Mr. 
Trie visited Mr. Riady in Jakarta, do you know--did you 
participate in setting up any visits for other government 
officials or former government officials with Mr. Riady in 
Jakarta?
    Mr. Huang. You talking about government official of the 
United States?
    Mr. Wilson. Yes.
    Mr. Huang. During my DNC time or Commerce time or when? 
Prior to that?
    Mr. Wilson. We can take both. During the time that you were 
at the Department of Commerce.
    Mr. Huang. Sir, I don't believe so. In the Commerce 
Department I'm trying to stay away anything from the Lippo, so 
I wouldn't be able to do that. DNC, I made arrangement not for 
official, for the daughter of the Chairman Fowler. She was 
traveling over to the--the first time as a student I think from 
Hawaii. Being a father was a little concerned, coming to the 
foreign land. He came to me. He said, I understand you have 
some friends in Indonesia, somebody who can take care of my 
daughter. I said, I'll be glad to do that. Which I did. Again, 
she is not official, but as a tie with some official, title at 
least the chairman of DNC.
    Mr. Wilson. But you didn't--as far as you recall--you 
didn't set up any other meetings with----
    Mr. Huang. I don't--I'm trying to search my memory whether 
I did or did not. I want to be very careful on that.
    Mr. Wilson. That's understood.
    Just moving to something else. We've had a little bit of 
difficulty coming to a conclusion as to when Mr. Riady left the 
United States. And there have been a few exchanges about this 
subject, and you've told us that Mr. Riady traveled--he had a 
house in California. He obviously has at least one premises 
overseas, at least one house overseas, and it's a little 
difficult to come to a full understanding of that. You were 
living in California in the early 1990's, correct?
    Mr. Huang. That is correct, sir.
    Mr. Wilson. And Mr. Riady also had a house in California in 
the early 1990's?
    Mr. Huang. In Brentwood, yes. Brentwood.
    Mr. Wilson. You were working for one of Mr. Riady's 
companies in California.
    Mr. Huang. That is correct.
    Mr. Wilson. And I know it's been--we're sort of going back 
and forth on this, but are you able to pin down with any 
specificity when Mr. Riady actually moved away from the United 
States and set up his principal residence in Indonesia?
    [Discussion off the record.]
    Mr. Huang. Mr. Wilson, the definition of a moving away--
it's very, very difficult for me to do. You know, if it's 
talking about a totally moving out and places, the furniture 
and everything was packed everything like that, if that's the 
definition, probably was not done until fairly, fairly--was not 
too long ago from here.
    Mr. Wilson. Was his family in the United States in the 
early 1990's?
    Mr. Huang. Let me put it this way: The family enjoyed the 
United States. The kids would love to stay in the United 
States. Apparently, there was a business situation. They had to 
spend a lot of time over there to develop the business.
    Mr. Burton. Excuse me. Let me interrupt. What percentage of 
the time did the family spend in the United States?
    Mr. Huang. OK. I'll be very honest on that part.
    Mr. Burton. I hope so.
    Mr. Huang. Around that period of time, approximately--most 
about 3 to 4 months a year.
    Mr. Burton. So 8 months of the year, the majority of the 
time, they were living in Indonesia.
    Mr. Huang. Starting from--conservatively saying probably 
starting from 1990.
    Mr. Burton. 1990. So from 1990 on, the vast majority of his 
time was spent in Indonesia.
    Mr. Huang. That's fair.
    Mr. Burton. That's how you determine a permanent residence. 
So his permanent residence then was----
    Mr. Huang. Oh, no, Mr. Chairman, maybe you have a different 
way of looking.
    Mr. Burton. Talking about, you know, here in the United 
States we decide I think for the most part people's permanent 
residence is where they spend the majority of their time. 
You're saying that his family was over there probably three-
fourths of the time.
    Mr. Huang. No, what I'm--the two-thirds of time is staying 
over there physically. When I say the permanent residence--in 
other words, you get green card holder is supposedly you have a 
permanent residency. That's why I said the permanent residency. 
I'm not saying the definition of the----
    Mr. Burton. I know he had a green card, but you said that 
he spent 8 months of the year, his family did, over in 
Indonesia.
    Mr. Huang. That sounds right, and family.
    Mr. Burton. Thank you.
    Mr. Wilson. Just to followup on this, because we keep 
getting it pinned down to a sort of about 1990, what was 
different between 1990 and 1989? I mean, what change did you 
notice? Why are you saying 1990 and not 1989 or 1988?
    Mr. Huang. The reason I'm saying this way is probably at 
the beginning of a period of time, although he still maintain 
very heavy travel schedule, but family probably was still 
staying here. And Mr. Riady himself just going back and forth 
until later date which I was saying, conservatively saying, is 
around 1990 of that time.
    Mr. Wilson. You're telling us today that the family--there 
was a change of the family status in 1990?
    Mr. Huang. I believe that's the situation, yes.
    Mr. Wilson. Just shifting a little bit to illegal conduct. 
We discussed extensively 1992 and 1993 and a number of 
contributions that were reimbursed by Lippo organizations, and 
you told us very clearly that after that conduct, after the 
1993 contributions, you didn't do anything else that you 
thought was illegal. Is that correct?
    Mr. Huang. With the Lippo?
    Mr. Wilson. At all.
    [Discussion off the record.]
    Mr. Huang. I think, Mr. Wilson, you will recall I said 
there is one contribution in 1995, came in--I think yesterday 
one of the Congresses mentioned it was about $12,000.
    Mr. Wilson. Right. I wanted to sort of hone down on that 
subject. After 1993, could you list all the activities that you 
were engaged in that you think might have been illegal, if any?
    Mr. Huang. OK. 1993, for instance, on the Gore event we're 
talking about, Chairman Burton was asking me about the 
September event of Gore in southern California. There might be 
another event around December. There was some contribution 
being made. There were some checks with the Lippo employees. As 
Chairman Burton mentioned, he showed me the list yesterday was 
that all the list you have, I said there may be a few more 
names that's on that. That's what I'm referring to. I did say 
the period covers 1992, 1993, 1994. Possibly there is another 
check of May 1995.
    Mr. Wilson. OK. Then let's try and be very specific. After 
1994, did you do anything that you now think was illegal?
    [Discussion off the record.]
    Mr. Huang. Except, Mr. Wilson, with the exception of that 
$12,000 check to the best of my knowledge after the 1994 I left 
the Lippo, yeah. That would be it.
    Mr. Wilson. I guess one reason we're interested is the 
underlying facts and the other is in your statement yesterday 
you talked about how the Department of Justice thought you had 
been candid with them, and we're trying to determine whether 
you've been honest with us. And I wanted to ask you about the 
contributions that were--about the exchange you had with Mr. 
Ickes who was in the White House.
    Mr. Huang. Right.
    Mr. Wilson. He had asked you to round up $10,000 to $15,000 
for a congressional campaign. And you were at the Department of 
Commerce, and you told us that you did contact people and that 
what you did benefit the Congressman who was asked, you know, 
asked to be benefited. And am I right in remembering that you 
personally collected $7,000 in checks?
    [Discussion off the record.]
    Mr. Huang. Mr. Wilson, I did testify I did collect $7,000 
to Mr. Chairman, and to this day I'm not--I'm--I feel very 
uncomfortable in collecting in that capacity to collect the 
money.
    Mr. Wilson. I thought I was right in remembering that you 
said you collected $7,000 in checks. And after you collected 
the checks you dropped them off personally at the DNC.
    Mr. Huang. It was not DNC.
    Mr. Wilson. Who did you drop them off with?
    Mr. Huang. No, I believe in the address--I thought it was 
Jesse Jackson, Jr.'s, one of the offices over there.
    Mr. Wilson. That's my error. So you actually collected the 
money, after somebody in the White House had asked you to round 
up money, and then you took the money to a congressional 
campaign office and you gave them the money, is that correct?
    Mr. Huang. I drop off with the receptionist in that office, 
yes.
    Mr. Wilson. And at that time you were working at the 
Department of Commerce, correct?
    Mr. Huang. That is correct, sir.
    Mr. Wilson. Do you feel that there is a possible violation 
of law in that?
    [Discussion off the record.]
    Mr. Huang. As I testified yesterday, I did collect the 
money. I did not feel comfortable--as of this stage I really 
don't know, you know, about legality.
    Mr. Wilson. OK. And just one last area in this basic 
subject, the Wiriadinata contributions. I think you've said on 
the record that the Wiriadinatas came to your attention through 
a recommendation of Mr. Riady, is that correct?
    Mr. Huang. That is correct.
    Mr. Wilson. Now, tell us what you meant by ``came to your 
attention?'' Did Mr. Riady call you up and say there are some 
people in Arlington or Alexandria or northern Virginia that can 
give money?
    Mr. Huang. Mr. Riady was also in town when Dr. Nashim Ning 
was very sick in the hospital. Remember--I try to explain.
    Mr. Wilson. Right. I do remember that. But did Mr. Riady 
say to you there are some people that can contribute money and 
he told you their names and arranged something with you?
    Mr. Huang. Yes. He was saying these people can be very 
helpful to you.
    Mr. Wilson. What precisely did he tell you?
    Mr. Huang. The words I remember is that these people have a 
legal status, can give--they are able to give.
    Mr. Wilson. Now, one of the most peculiar things about the 
$450,000 that Soraya Wiriadinata contributed is the fact--and 
we discussed this yesterday, but there's ultimately a question 
you've not been asked, the fact that your wife was listed as 
the solicitor for the money. And we could look at the exhibits 
again, but----
    Mr. Huang. No, I remember that.
    Mr. Wilson [continuing]. You recall that your wife was----
    [Discussion off the record.]
    Mr. Huang. If I remember correctly, the only time that my 
wife's name was related to those was--Wiriadinata 
contribution--was the first couple checks maybe during that 
period of time. The rest of the times since I joined the DNC my 
wife's name was no longer there.
    Mr. Wilson. But you do recall, and I may be wrong on the 
complete number, but on some of the DNC check tracking forms 
your wife was listed as the solicitor of contributions from the 
Wiriadinatas.
    Mr. Huang. I've learned that since I saw the documents, 
yes.
    Mr. Wilson. Now, you've testified that was not correct, is 
that right?
    Mr. Huang. That was not correct. My wife did not solicit 
those contributions, no.
    Mr. Wilson. OK. I guess the simple question is, at that 
time you were working at the Department of Commerce, and if the 
Wiriadinatas had the money to give and if they were legally 
entitled to give money, then why would anybody decide to put 
your wife's name on a check tracking form?
    [Discussion off the record.]
    Mr. Huang. The only thing I know is that I believe that Mr. 
Mercer testified that, you know, that my wife's name was there.
    Mr. Wilson. Right. But the question was, if everybody 
thought that they were entitled to give the money and they had 
the money, and--and I am asking for your speculation here, but 
if they thought it was their money and they were allowed to 
give the money, then why wouldn't somebody just put down an 
honest answer on the DNC tracking form?
    [Discussion off the record.]
    Mr. Huang. Mr. Wilson, I don't know what was the nature of 
that. I did not fill out the form. You know, I was not at the 
DNC. So----
    Mr. Wilson. Did you ever have--did you ever have any 
conversations with David Mercer about the Wiriadinata 
contributions?
    [Discussion off the record.]
    Mr. Huang. They are in the fundraisers. I introduced them 
together, yes.
    Mr. Wilson. And, subsequently, has Mr. Mercer ever 
discussed this subject with you?
    Mr. Huang. That's after when?
    Mr. Wilson. After--well, after your wife's name was put on 
the check tracking form, did you ever ask him why did you get 
my wife involved in this? She didn't do anything. That's not 
fair to me.
    Mr. Huang. I did not know my wife's name was on the 
tracking form until later I learned from all the news accounts.
    Mr. Wilson. OK. Just a couple of final questions here.
    Did you ever seek any action at the Federal level on issues 
regarding the U.S. banking industry? And I'll limit that to 
after 1990.
    Mr. Huang. After 1990? If possible, can you repeat the 
question? You're shifting the subject to the banking side right 
now.
    Mr. Wilson. That was a very quick----
    Mr. Huang. Very quick shift.
    Mr. Wilson [continuing]. Quick shift. I'm sorry for the 
abrupt nature.
    Shifting to banking, you were involved in the banking 
industry for a long time. Did you ever seek any type of Federal 
action on issues regarding U.S. banking?
    Mr. Huang. Could you be a little bit more specific? What do 
you mean, the Federal actions mean? For buying or selling or 
whatever?
    Mr. Wilson. Did you ever seek any legislative change to any 
banking provisions after 1990?
    [Discussion off the record.]
    Mr. Huang. The only thing I can think of is hopefully the 
banking legislation will pay attention to one of the issues on 
the Community Reinvestment Act, i.e., the CRA. I think that 
basically, as I testified, you might have found out I was the 
President of the National Association of Chinese American 
Bankers. The Chinese American Bankers was totally ignorant by 
these issues. I don't know I should go into the detail or not 
to you. I think that's one--I spent most of the time on that, 
if you're talking about the legislative issues on that.
    Mr. Wilson. And does that--did what you were trying to do 
have any impact on the Riadys or the Lippo Bank or Worthen bank 
or any of the Riady banking interests?
    Mr. Huang. I don't know there's any impact.
    Let me say this: The Lippo Bank of California or formerly 
Bank of Trade was a member of National Association of Chinese 
American Bankers. The thing I was doing is more or less for the 
overall umbrella for the other member banks.
    I was not the only one who was doing that. Whoever was the 
member banks, they were trying to do it collectively. And also 
teaming up with the--teaming up with the Independent Bankers 
Association as well.
    Mr. Wilson, as you know, most of the Chinese American 
bankers are not large in size. They are relatively small. But 
there are roughly 6,000 to 7,000 independent bankers in the 
country. They are also facing a similar issue on the CRA. So at 
some point there's collective efforts for the National 
Association of Chinese American Bankers. Where there was an 
Independent Bankers Association in some form we did 
independently on our own for the Chinese American bankers.
    Mr. Burton. Let me ask counsel, how much more time are you 
going to need?
    I will ask unanimous consent that we give the counsel 5 
more minutes to wrap up. Without objection, so ordered.
    Mr. Wilson. This time I'll tell you I'm going to change 
focus fairly quickly here. If somebody could find exhibit 354, 
please. I know I'm shifting focus for you, too.
    We're going to put up on the projectors, and if you can 
look in your books, a wire transfer of $1 million which is 
dated September 18, 1996, from a Tahir account in Jakarta to an 
account under the name of Tahir Lippo Bank in California.
    [Exhibit 354 follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.405
    
    [GRAPHIC] [TIFF OMITTED] T6496.406
    
    [GRAPHIC] [TIFF OMITTED] T6496.407
    
    [GRAPHIC] [TIFF OMITTED] T6496.408
    
    Mr. Huang. Sorry. I was distracted. We were looking for the 
exhibit.
    Mr. Wilson. Exhibit 354.
    [Discussion off the record.]
    Mr. Wilson. I know it's not a very good copy, but if you 
could take a look at that, please. And there's a second page as 
well, so it's not just a single-page exhibit.
    Mr. Huang. Yes, I have those pages.
    Mr. Wilson. Do you have any knowledge of this wire 
transfer?
    Mr. Huang. September, 1994?
    Mr. Wilson. 1996.
    [Discussion off the record.]
    Mr. Wilson. I guess the simple question is, did you know 
about $1 million transfer to the account?
    Mr. Huang. No, I do not.
    Mr. Wilson. On the exhibit the payable line on the wire 
transfer says, ``your good selves.'' Do you have any idea what 
this means?
    [Discussion off the record.]
    Mr. Huang. Which pages is that, Mr. Wilson? There are three 
pages.
    Mr. Wilson. Yes. It's on page 2 of the exhibit.
    Mr. Huang. OK.
    Mr. Wilson. And it should be on the middle of the page.
    Mr. Wilson. Do you have any idea what this----
    Mr. Huang. Just like yourself, I think.
    Mr. Wilson. All right. Now, do you know why Mr. Tahir would 
transfer $1 million to the United States in September 1996?
    Mr. Huang. I don't know.
    Mr. Wilson. Did you have any discussions with Mr. Tahir 
about political contributions that he was going to give in the 
fall of 1996?
    Mr. Huang. No. I did not.
    Mr. Wilson. Did you discuss with James Riady any political 
contributions he was going to give in the fall of 1996?
    Mr. Huang. I did not. But the only conversation I had with 
Mr. Riady was that Mr. Tahir's daughter has a green card, was 
able to give--you know, can invite her for some of the function 
and--in fact, in early 1996, she gave, but not related to this 
transaction.
    Mr. Wilson. So just let me try and get this as accurate as 
possible. You had a conversation with Mr. Riady during which 
you suggested to Mr. Riady that there was a Tahir child who had 
a green card in the United States?
    Mr. Huang. I did not suggest it. He mentioned to me.
    Mr. Wilson. He mentioned that to you.
    Mr. Huang. Right. That's earlier though, early 1996. 
Remember I did the fundraising on February 1996? I believe for 
that event Mr. Tahir's daughter was--or daughters came over for 
that event. So there was contribution of that sort. Now that's 
way earlier than September----
    Mr. Wilson. Right.
    Mr. Huang [continuing]. So I have no knowledge about what's 
going on in September with that million dollar stuff.
    Mr. Wilson. But just cutting down to the basic line here, 
Mr. Riady suggested to you that there was somebody with a green 
card in the United States who might be able to give money to 
political campaigns.
    Mr. Wilson. More specifically, it would be the daughter, 
Jane Tahir.
    Mr. Wilson. So he specifically said Jane Tahir had a green 
card and could give money.
    Mr. Huang. That's correct, yes.
    Mr. Wilson. OK. Now, if you would look at the--if you would 
look at the last page of exhibit 354, please, it's the 
signature card for the account receiving the $1 million wire 
transfer from Indonesia. Do you recognize either of those 
signatures?
    Mr. Cobb. The last page of 354?
    Mr. Wilson. Correct.
    Mr. Huang. Mr. Wilson, I could not be sure about the 
signature. There are only about two signatures there. Am I 
correct? Are you with me on that?
    Mr. Wilson. Yes. Correct.
    Mr. Huang. I definitely don't recognize the first one, No. 
1.
    Mr. Wilson. Yes.
    Mr. Huang. The handwriting on No. 2 looks somewhat 
familiar. I don't know whether that's Mr. Setiawan or not.
    Mr. Wilson. Surprisingly, I was going to suggest whether 
that was Mr. Setiawan. Now, you worked with Mr. Setiawan?
    Mr. Huang. That's correct. Because the committee also 
refreshed my memory yesterday. They showed me one of the Hip 
Hing Holdings--the things. So it just sort of reminded me on 
that.
    Mr. Wilson. So it looks to you, based on what you recollect 
and what you saw recently, that that might be Mr. Setiawan's 
signature.
    Mr. Huang. Possibly, yeah, on that.
    Mr. Wilson. Mr. Huang, thank you very much.
    Mr. Huang. Thank you. Thank you.
    Mr. Burton. Would you like to sum up, Mr. Shays, for we're 
about to end our hearing?
    Mr. Shays. Thank you, Mr. Chairman. Mr. Chairman, I just 
want to thank our witness and I want to thank his two 
attorneys. They enabled us to ask our questions and I 
appreciate that. I appreciate the candor I think we got. I 
would say to you, Mr. Huang, you are unfortunately living proof 
of the need for campaign finance reform. For you, that proof 
came in the form of a felony conviction. For this committee, it 
comes as a confirmation of the conduit schemes and influence 
peddling that threaten both our political integrity and, 
frankly, our national security.
    For me, your testimony sheds just a little more light into 
the dark corners of the incessant corrupting quest for money 
that pervades every event and all other elements of political 
campaigns today.
    The public record is now more complete. It remains my hope 
that record will serve as the basis for holding offenders 
accountable and serve as the basis for real campaign finance 
reform. And I make these comments because I really believe that 
besides holding people accountable, Mr. Chairman, we have got 
to reform the system. And I know that you have put forward a 
bill on conduit payments that I think we need to move forward. 
And I want to say for the record that I know abuses take place 
in both parties and local governments and State and Federal, 
but I really think the administration brought campaign finance 
abuses to a new art form, frankly, and they haven't wanted to 
face up to it, but I think Congress needs to step up to the 
plate and pass meaningful campaign finance reform legislation. 
And I thank you very much.
    Mr. Burton. Thank you, Mr. Shays. Let me just end by saying 
I want to ask unanimous consent to enter an exhibit analyzing 
the list of fines given out by the Justice Department which was 
entered into the record previously by Mr. Waxman. Without 
objection, so ordered. Just expanding on that.
    Let me say I appreciate your patience. And I appreciate Mr. 
Keeney and Mr. Cobb being so helpful to you in expediting the 
answers to the questions. I do want to say, though, that it's 
still very murky. Millions of dollars in campaign contributions 
came in from foreign sources. We've gotten some information 
from your 3 days of testimony, Mr. Huang, but there's still a 
lot of questions unanswered. We will continue to try to get to 
the bottom of all this so that 1 day we can make sure that no 
foreign contributions, conduit contributions, are allowed, and 
that those who do that will be prosecuted to the full extent of 
the law.
    The campaigns of the United States of America and the 
candidates elected in the United States of America should be 
elected by the people of this country, and their campaigns 
should be funded by the people of this country. Mr. Shays has 
one opinion on campaign finance laws. I have a little different 
opinion. I believe there should be full disclosure and 
hopefully we can get the legislation he just talked about 
passed, which will eliminate foreign contributions.
    But in any event, we appreciate your being here. I'm sorry 
it took 3 years to get you here. I hope we don't have to talk 
to you again. I think we've pretty much completed all the 
questions we need. But as I said, we will continue to try to 
get to the bottom of all the campaign finance scandal. Once 
again, thank you.
    Mr. Shays. Mr. Chairman, before you hit the gavel, could we 
just compliment the staff on both sides?
    Mr. Burton. Yes. I'm glad you said that. I wish my staff a 
very Merry Christmas and a Happy New Year. I know that you've 
worked very, very hard and Mr. Shays knows the staff has worked 
very, very hard. You didn't go home, some of you, for 
Thanksgiving because you were working. And I know the Democrat 
side has worked hard as well, so thank you very much. You don't 
get a pay raise but you do get my congratulations for a job 
well done.
    Mr. Shays. I would just like to say I'm very impressed with 
the staff quality on both sides. This was excellent 
preparation. Thank you.
    Mr. Burton. Merry Christmas to all. We stand adjourned.
    [Whereupon, at 5:14 p.m., the committee was adjourned.]
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6496.412
    
    [GRAPHIC] [TIFF OMITTED] T6496.413
    
    [GRAPHIC] [TIFF OMITTED] T6496.414
    
    [GRAPHIC] [TIFF OMITTED] T6496.415
    
    [GRAPHIC] [TIFF OMITTED] T6496.416
    
    [GRAPHIC] [TIFF OMITTED] T6496.417
    
    [GRAPHIC] [TIFF OMITTED] T6496.418
    
    [GRAPHIC] [TIFF OMITTED] T6496.419
    
    [GRAPHIC] [TIFF OMITTED] T6496.420
    
    [GRAPHIC] [TIFF OMITTED] T6496.421
    
    [GRAPHIC] [TIFF OMITTED] T6496.422
    
    [GRAPHIC] [TIFF OMITTED] T6496.423
    
    [GRAPHIC] [TIFF OMITTED] T6496.424
    
    [GRAPHIC] [TIFF OMITTED] T6496.425
    
    [GRAPHIC] [TIFF OMITTED] T6496.426
    
    [GRAPHIC] [TIFF OMITTED] T6496.427
    
    [GRAPHIC] [TIFF OMITTED] T6496.428
    
    [GRAPHIC] [TIFF OMITTED] T6496.429
    
    [GRAPHIC] [TIFF OMITTED] T6496.430
    
    [GRAPHIC] [TIFF OMITTED] T6496.431
    
    [GRAPHIC] [TIFF OMITTED] T6496.432
    
    [GRAPHIC] [TIFF OMITTED] T6496.433
    
    [GRAPHIC] [TIFF OMITTED] T6496.434
    
    [GRAPHIC] [TIFF OMITTED] T6496.435
    
    [GRAPHIC] [TIFF OMITTED] T6496.436
    
    [GRAPHIC] [TIFF OMITTED] T6496.437
    
    [GRAPHIC] [TIFF OMITTED] T6496.438
    
    [GRAPHIC] [TIFF OMITTED] T6496.439
    
    [GRAPHIC] [TIFF OMITTED] T6496.440
    
    [GRAPHIC] [TIFF OMITTED] T6496.441
    
    [GRAPHIC] [TIFF OMITTED] T6496.442
    
    [GRAPHIC] [TIFF OMITTED] T6496.443
    
    [GRAPHIC] [TIFF OMITTED] T6496.444
    
    [GRAPHIC] [TIFF OMITTED] T6496.445
    
    [GRAPHIC] [TIFF OMITTED] T6496.446
    
    [GRAPHIC] [TIFF OMITTED] T6496.447
    
    [GRAPHIC] [TIFF OMITTED] T6496.448
    
    [GRAPHIC] [TIFF OMITTED] T6496.449
    
    [GRAPHIC] [TIFF OMITTED] T6496.450
    
    [GRAPHIC] [TIFF OMITTED] T6496.451
    
    [GRAPHIC] [TIFF OMITTED] T6496.452
    
    [GRAPHIC] [TIFF OMITTED] T6496.453
    
    [GRAPHIC] [TIFF OMITTED] T6496.454
    
    [GRAPHIC] [TIFF OMITTED] T6496.455
    
    [GRAPHIC] [TIFF OMITTED] T6496.456
    
    [GRAPHIC] [TIFF OMITTED] T6496.457
    
    [GRAPHIC] [TIFF OMITTED] T6496.458
    
    [GRAPHIC] [TIFF OMITTED] T6496.459
    
    [GRAPHIC] [TIFF OMITTED] T6496.460
    
    [GRAPHIC] [TIFF OMITTED] T6496.461
    
    [GRAPHIC] [TIFF OMITTED] T6496.462
    
    [GRAPHIC] [TIFF OMITTED] T6496.463
    
    [GRAPHIC] [TIFF OMITTED] T6496.464
    
    [GRAPHIC] [TIFF OMITTED] T6496.465
    
    [GRAPHIC] [TIFF OMITTED] T6496.466
    
    [GRAPHIC] [TIFF OMITTED] T6496.467
    
    [GRAPHIC] [TIFF OMITTED] T6496.468
    
    [GRAPHIC] [TIFF OMITTED] T6496.469
    
    [GRAPHIC] [TIFF OMITTED] T6496.470
    
    [GRAPHIC] [TIFF OMITTED] T6496.471
    
    [GRAPHIC] [TIFF OMITTED] T6496.472
    
    [GRAPHIC] [TIFF OMITTED] T6496.473
    
    [GRAPHIC] [TIFF OMITTED] T6496.474
    
    [GRAPHIC] [TIFF OMITTED] T6496.475
    
    [GRAPHIC] [TIFF OMITTED] T6496.476
    
    [GRAPHIC] [TIFF OMITTED] T6496.477
    
    [GRAPHIC] [TIFF OMITTED] T6496.478
    
    [GRAPHIC] [TIFF OMITTED] T6496.479
    
    [GRAPHIC] [TIFF OMITTED] T6496.480
    
    [GRAPHIC] [TIFF OMITTED] T6496.481
    
    [GRAPHIC] [TIFF OMITTED] T6496.482
    
    [GRAPHIC] [TIFF OMITTED] T6496.483
    
    [GRAPHIC] [TIFF OMITTED] T6496.484
    
    [GRAPHIC] [TIFF OMITTED] T6496.485
    
    [GRAPHIC] [TIFF OMITTED] T6496.486
    
    [GRAPHIC] [TIFF OMITTED] T6496.487
    
    [GRAPHIC] [TIFF OMITTED] T6496.488
    
    [GRAPHIC] [TIFF OMITTED] T6496.489
    
    [GRAPHIC] [TIFF OMITTED] T6496.490
    
    [GRAPHIC] [TIFF OMITTED] T6496.491
    
    [GRAPHIC] [TIFF OMITTED] T6496.492
    
    [GRAPHIC] [TIFF OMITTED] T6496.493
    
    [GRAPHIC] [TIFF OMITTED] T6496.494
    
    [GRAPHIC] [TIFF OMITTED] T6496.495
    
    [GRAPHIC] [TIFF OMITTED] T6496.496
    
    [GRAPHIC] [TIFF OMITTED] T6496.497
    
    [GRAPHIC] [TIFF OMITTED] T6496.498
    
    [GRAPHIC] [TIFF OMITTED] T6496.499
    
    [GRAPHIC] [TIFF OMITTED] T6496.500
    
    [GRAPHIC] [TIFF OMITTED] T6496.501
    
    [GRAPHIC] [TIFF OMITTED] T6496.502
    
    [GRAPHIC] [TIFF OMITTED] T6496.503
    
    [GRAPHIC] [TIFF OMITTED] T6496.504
    
    [GRAPHIC] [TIFF OMITTED] T6496.505
    
    [GRAPHIC] [TIFF OMITTED] T6496.506
    
    [GRAPHIC] [TIFF OMITTED] T6496.507
    
    [GRAPHIC] [TIFF OMITTED] T6496.508
    
    [GRAPHIC] [TIFF OMITTED] T6496.509
    
    [GRAPHIC] [TIFF OMITTED] T6496.510
    
    [GRAPHIC] [TIFF OMITTED] T6496.511
    
    [GRAPHIC] [TIFF OMITTED] T6496.512
    
    [GRAPHIC] [TIFF OMITTED] T6496.513
    
    [GRAPHIC] [TIFF OMITTED] T6496.514
    
    [GRAPHIC] [TIFF OMITTED] T6496.515
    
    [GRAPHIC] [TIFF OMITTED] T6496.516
    
    [GRAPHIC] [TIFF OMITTED] T6496.517
    
    [GRAPHIC] [TIFF OMITTED] T6496.518
    
    [GRAPHIC] [TIFF OMITTED] T6496.519
    
    [GRAPHIC] [TIFF OMITTED] T6496.520
    
    [GRAPHIC] [TIFF OMITTED] T6496.521
    
    [GRAPHIC] [TIFF OMITTED] T6496.522
    
    [GRAPHIC] [TIFF OMITTED] T6496.523
    
    [GRAPHIC] [TIFF OMITTED] T6496.524
    
    [GRAPHIC] [TIFF OMITTED] T6496.525
    
    [GRAPHIC] [TIFF OMITTED] T6496.526
    
    [GRAPHIC] [TIFF OMITTED] T6496.527
    
    [GRAPHIC] [TIFF OMITTED] T6496.528
    
    [GRAPHIC] [TIFF OMITTED] T6496.529
    
    [GRAPHIC] [TIFF OMITTED] T6496.530
    
    [GRAPHIC] [TIFF OMITTED] T6496.531
    
    [GRAPHIC] [TIFF OMITTED] T6496.532
    
    [GRAPHIC] [TIFF OMITTED] T6496.533
    
    [GRAPHIC] [TIFF OMITTED] T6496.534
    
    [GRAPHIC] [TIFF OMITTED] T6496.535
    
    [GRAPHIC] [TIFF OMITTED] T6496.536
    
    [GRAPHIC] [TIFF OMITTED] T6496.537
    
    [GRAPHIC] [TIFF OMITTED] T6496.538
    
    [GRAPHIC] [TIFF OMITTED] T6496.539
    
    [GRAPHIC] [TIFF OMITTED] T6496.540
    
    [GRAPHIC] [TIFF OMITTED] T6496.541
    
    [GRAPHIC] [TIFF OMITTED] T6496.542
    
    [GRAPHIC] [TIFF OMITTED] T6496.543
    
    [GRAPHIC] [TIFF OMITTED] T6496.544
    
    [GRAPHIC] [TIFF OMITTED] T6496.545
    
    [GRAPHIC] [TIFF OMITTED] T6496.546
    
    [GRAPHIC] [TIFF OMITTED] T6496.547
    
    [GRAPHIC] [TIFF OMITTED] T6496.548
    
    [GRAPHIC] [TIFF OMITTED] T6496.549
    
    [GRAPHIC] [TIFF OMITTED] T6496.550
    
    [GRAPHIC] [TIFF OMITTED] T6496.551
    
    [GRAPHIC] [TIFF OMITTED] T6496.552
    
    [GRAPHIC] [TIFF OMITTED] T6496.553
    
    [GRAPHIC] [TIFF OMITTED] T6496.554
    
    [GRAPHIC] [TIFF OMITTED] T6496.555
    
    [GRAPHIC] [TIFF OMITTED] T6496.556
    
    [GRAPHIC] [TIFF OMITTED] T6496.557
    
    [GRAPHIC] [TIFF OMITTED] T6496.558
    
    [GRAPHIC] [TIFF OMITTED] T6496.559
    
    [GRAPHIC] [TIFF OMITTED] T6496.560
    
    [GRAPHIC] [TIFF OMITTED] T6496.561
    
    [GRAPHIC] [TIFF OMITTED] T6496.562
    
    [GRAPHIC] [TIFF OMITTED] T6496.563
    
    [GRAPHIC] [TIFF OMITTED] T6496.564
    
    [GRAPHIC] [TIFF OMITTED] T6496.565
    
    [GRAPHIC] [TIFF OMITTED] T6496.566
    
    [GRAPHIC] [TIFF OMITTED] T6496.567
    
    [GRAPHIC] [TIFF OMITTED] T6496.568
    
    [GRAPHIC] [TIFF OMITTED] T6496.569
    
    [GRAPHIC] [TIFF OMITTED] T6496.570
    
    [GRAPHIC] [TIFF OMITTED] T6496.571
    
    [GRAPHIC] [TIFF OMITTED] T6496.572
    
    [GRAPHIC] [TIFF OMITTED] T6496.573
    
    [GRAPHIC] [TIFF OMITTED] T6496.574
    
    [GRAPHIC] [TIFF OMITTED] T6496.575
    
    [GRAPHIC] [TIFF OMITTED] T6496.576
    
    [GRAPHIC] [TIFF OMITTED] T6496.577
    
    [GRAPHIC] [TIFF OMITTED] T6496.578
    
    [GRAPHIC] [TIFF OMITTED] T6496.579
    
    [GRAPHIC] [TIFF OMITTED] T6496.580
    
    [GRAPHIC] [TIFF OMITTED] T6496.581
    
    [GRAPHIC] [TIFF OMITTED] T6496.582
    
    [GRAPHIC] [TIFF OMITTED] T6496.583
    
    [GRAPHIC] [TIFF OMITTED] T6496.584
    
    [GRAPHIC] [TIFF OMITTED] T6496.585
    
    [GRAPHIC] [TIFF OMITTED] T6496.586
    
    [GRAPHIC] [TIFF OMITTED] T6496.587
    
    [GRAPHIC] [TIFF OMITTED] T6496.588
    
    [GRAPHIC] [TIFF OMITTED] T6496.589
    
    [GRAPHIC] [TIFF OMITTED] T6496.590
    
    [GRAPHIC] [TIFF OMITTED] T6496.591
    
    [GRAPHIC] [TIFF OMITTED] T6496.592
    
    [GRAPHIC] [TIFF OMITTED] T6496.593
    
    [GRAPHIC] [TIFF OMITTED] T6496.594
    
    [GRAPHIC] [TIFF OMITTED] T6496.595
    
    [GRAPHIC] [TIFF OMITTED] T6496.596
    
    [GRAPHIC] [TIFF OMITTED] T6496.597
    
    [GRAPHIC] [TIFF OMITTED] T6496.598
    
    [GRAPHIC] [TIFF OMITTED] T6496.599
    
    [GRAPHIC] [TIFF OMITTED] T6496.600
    
    [GRAPHIC] [TIFF OMITTED] T6496.601
    
    [GRAPHIC] [TIFF OMITTED] T6496.602
    
    [GRAPHIC] [TIFF OMITTED] T6496.603
    
    [GRAPHIC] [TIFF OMITTED] T6496.604
    
    [GRAPHIC] [TIFF OMITTED] T6496.605
    
    [GRAPHIC] [TIFF OMITTED] T6496.606
    
    [GRAPHIC] [TIFF OMITTED] T6496.607
    
    [GRAPHIC] [TIFF OMITTED] T6496.608
    
    [GRAPHIC] [TIFF OMITTED] T6496.609
    
    [GRAPHIC] [TIFF OMITTED] T6496.610
    
    [GRAPHIC] [TIFF OMITTED] T6496.611
    
    [GRAPHIC] [TIFF OMITTED] T6496.612
    
    [GRAPHIC] [TIFF OMITTED] T6496.613
    
    [GRAPHIC] [TIFF OMITTED] T6496.614
    
    [GRAPHIC] [TIFF OMITTED] T6496.615
    
    [GRAPHIC] [TIFF OMITTED] T6496.616
    
    [GRAPHIC] [TIFF OMITTED] T6496.617
    
    [GRAPHIC] [TIFF OMITTED] T6496.618
    
    [GRAPHIC] [TIFF OMITTED] T6496.619
    
    [GRAPHIC] [TIFF OMITTED] T6496.620
    
    [GRAPHIC] [TIFF OMITTED] T6496.621
    
    [GRAPHIC] [TIFF OMITTED] T6496.622
    
    [GRAPHIC] [TIFF OMITTED] T6496.623
    
    [GRAPHIC] [TIFF OMITTED] T6496.624
    
    [GRAPHIC] [TIFF OMITTED] T6496.625
    
    [GRAPHIC] [TIFF OMITTED] T6496.626
    
    [GRAPHIC] [TIFF OMITTED] T6496.627
    
    [GRAPHIC] [TIFF OMITTED] T6496.628
    
    [GRAPHIC] [TIFF OMITTED] T6496.629
    
    [GRAPHIC] [TIFF OMITTED] T6496.630
    
    [GRAPHIC] [TIFF OMITTED] T6496.631
    
    [GRAPHIC] [TIFF OMITTED] T6496.632
    
    [GRAPHIC] [TIFF OMITTED] T6496.633
    
    [GRAPHIC] [TIFF OMITTED] T6496.634
    
    [GRAPHIC] [TIFF OMITTED] T6496.635
    
    [GRAPHIC] [TIFF OMITTED] T6496.636
    
    [GRAPHIC] [TIFF OMITTED] T6496.637
    
    [GRAPHIC] [TIFF OMITTED] T6496.638
    
    [GRAPHIC] [TIFF OMITTED] T6496.639
    
    [GRAPHIC] [TIFF OMITTED] T6496.640
    
    [GRAPHIC] [TIFF OMITTED] T6496.641
    
    [GRAPHIC] [TIFF OMITTED] T6496.642
    
    [GRAPHIC] [TIFF OMITTED] T6496.643
    
    [GRAPHIC] [TIFF OMITTED] T6496.644
    
    [GRAPHIC] [TIFF OMITTED] T6496.645
    
    [GRAPHIC] [TIFF OMITTED] T6496.646
    
    [GRAPHIC] [TIFF OMITTED] T6496.647
    
    [GRAPHIC] [TIFF OMITTED] T6496.648
    
    [GRAPHIC] [TIFF OMITTED] T6496.649
    
    [GRAPHIC] [TIFF OMITTED] T6496.650
    
    [GRAPHIC] [TIFF OMITTED] T6496.651
    
    [GRAPHIC] [TIFF OMITTED] T6496.652
    
    [GRAPHIC] [TIFF OMITTED] T6496.653
    
    [GRAPHIC] [TIFF OMITTED] T6496.654
    
    [GRAPHIC] [TIFF OMITTED] T6496.655
    
    [GRAPHIC] [TIFF OMITTED] T6496.656
    
    [GRAPHIC] [TIFF OMITTED] T6496.657
    
    [GRAPHIC] [TIFF OMITTED] T6496.658
    
    [GRAPHIC] [TIFF OMITTED] T6496.659
    
    [GRAPHIC] [TIFF OMITTED] T6496.660
    
    [GRAPHIC] [TIFF OMITTED] T6496.661
    
    [GRAPHIC] [TIFF OMITTED] T6496.662
    
    [GRAPHIC] [TIFF OMITTED] T6496.663
    
    [GRAPHIC] [TIFF OMITTED] T6496.664
    
    [GRAPHIC] [TIFF OMITTED] T6496.665
    
    [GRAPHIC] [TIFF OMITTED] T6496.666
    
    [GRAPHIC] [TIFF OMITTED] T6496.667
    
    [GRAPHIC] [TIFF OMITTED] T6496.668
    
    [GRAPHIC] [TIFF OMITTED] T6496.669
    
    [GRAPHIC] [TIFF OMITTED] T6496.670
    
    [GRAPHIC] [TIFF OMITTED] T6496.671
    
    [GRAPHIC] [TIFF OMITTED] T6496.672
    
    [GRAPHIC] [TIFF OMITTED] T6496.673
    
    [GRAPHIC] [TIFF OMITTED] T6496.674
    
    [GRAPHIC] [TIFF OMITTED] T6496.675
    
    [GRAPHIC] [TIFF OMITTED] T6496.676
    
    [GRAPHIC] [TIFF OMITTED] T6496.677
    
    [GRAPHIC] [TIFF OMITTED] T6496.678
    
    [GRAPHIC] [TIFF OMITTED] T6496.679
    
    [GRAPHIC] [TIFF OMITTED] T6496.680
    
    [GRAPHIC] [TIFF OMITTED] T6496.681
    
    [GRAPHIC] [TIFF OMITTED] T6496.682
    
    [GRAPHIC] [TIFF OMITTED] T6496.683
    
    [GRAPHIC] [TIFF OMITTED] T6496.684
    
    [GRAPHIC] [TIFF OMITTED] T6496.685
    
    [GRAPHIC] [TIFF OMITTED] T6496.686
    
    [GRAPHIC] [TIFF OMITTED] T6496.687
    
    [GRAPHIC] [TIFF OMITTED] T6496.688
    
    [GRAPHIC] [TIFF OMITTED] T6496.689
    
    [GRAPHIC] [TIFF OMITTED] T6496.690
    
    [GRAPHIC] [TIFF OMITTED] T6496.691
    
    [GRAPHIC] [TIFF OMITTED] T6496.692
    
    [GRAPHIC] [TIFF OMITTED] T6496.693
    
    [GRAPHIC] [TIFF OMITTED] T6496.694
    
    [GRAPHIC] [TIFF OMITTED] T6496.695
    
    [GRAPHIC] [TIFF OMITTED] T6496.696
    
    [GRAPHIC] [TIFF OMITTED] T6496.697
    
    [GRAPHIC] [TIFF OMITTED] T6496.698
    
    [GRAPHIC] [TIFF OMITTED] T6496.699
    
    [GRAPHIC] [TIFF OMITTED] T6496.700
    
    [GRAPHIC] [TIFF OMITTED] T6496.701
    
    [GRAPHIC] [TIFF OMITTED] T6496.702
    
    [GRAPHIC] [TIFF OMITTED] T6496.703
    
    [GRAPHIC] [TIFF OMITTED] T6496.704
    
    [GRAPHIC] [TIFF OMITTED] T6496.705
    
    [GRAPHIC] [TIFF OMITTED] T6496.706
    
    [GRAPHIC] [TIFF OMITTED] T6496.707
    
    [GRAPHIC] [TIFF OMITTED] T6496.708
    
    [GRAPHIC] [TIFF OMITTED] T6496.709
    
    [GRAPHIC] [TIFF OMITTED] T6496.710
    
    [GRAPHIC] [TIFF OMITTED] T6496.711
    
    [GRAPHIC] [TIFF OMITTED] T6496.712
    
    [GRAPHIC] [TIFF OMITTED] T6496.713
    
    [GRAPHIC] [TIFF OMITTED] T6496.714
    
    [GRAPHIC] [TIFF OMITTED] T6496.715
    
    [GRAPHIC] [TIFF OMITTED] T6496.716
    
    [GRAPHIC] [TIFF OMITTED] T6496.717
    
    [GRAPHIC] [TIFF OMITTED] T6496.718
    
    [GRAPHIC] [TIFF OMITTED] T6496.719
    
    [GRAPHIC] [TIFF OMITTED] T6496.720
    
    [GRAPHIC] [TIFF OMITTED] T6496.721
    
    [GRAPHIC] [TIFF OMITTED] T6496.722
    
    [GRAPHIC] [TIFF OMITTED] T6496.723
    
    [GRAPHIC] [TIFF OMITTED] T6496.724
    
    [GRAPHIC] [TIFF OMITTED] T6496.725
    
    [GRAPHIC] [TIFF OMITTED] T6496.726
    
    [GRAPHIC] [TIFF OMITTED] T6496.727
    
    [GRAPHIC] [TIFF OMITTED] T6496.728
    
    [GRAPHIC] [TIFF OMITTED] T6496.729
    
    [GRAPHIC] [TIFF OMITTED] T6496.730
    
    [GRAPHIC] [TIFF OMITTED] T6496.731
    
    [GRAPHIC] [TIFF OMITTED] T6496.732
    
    [GRAPHIC] [TIFF OMITTED] T6496.733
    
    [GRAPHIC] [TIFF OMITTED] T6496.734
    
    [GRAPHIC] [TIFF OMITTED] T6496.735
    
    [GRAPHIC] [TIFF OMITTED] T6496.736
    
    [GRAPHIC] [TIFF OMITTED] T6496.737
    
    [GRAPHIC] [TIFF OMITTED] T6496.738
    
    [GRAPHIC] [TIFF OMITTED] T6496.739
    
    [GRAPHIC] [TIFF OMITTED] T6496.740
    
    [GRAPHIC] [TIFF OMITTED] T6496.741
    
    [GRAPHIC] [TIFF OMITTED] T6496.742
    
    [GRAPHIC] [TIFF OMITTED] T6496.743
    
    [GRAPHIC] [TIFF OMITTED] T6496.744
    
    [GRAPHIC] [TIFF OMITTED] T6496.745
    
    [GRAPHIC] [TIFF OMITTED] T6496.746
    
    [GRAPHIC] [TIFF OMITTED] T6496.747
    
    [GRAPHIC] [TIFF OMITTED] T6496.748
    
    [GRAPHIC] [TIFF OMITTED] T6496.749
    
    [GRAPHIC] [TIFF OMITTED] T6496.750
    
    [GRAPHIC] [TIFF OMITTED] T6496.751
    
    [GRAPHIC] [TIFF OMITTED] T6496.752
    
    [GRAPHIC] [TIFF OMITTED] T6496.753
    
    [GRAPHIC] [TIFF OMITTED] T6496.754
    
    [GRAPHIC] [TIFF OMITTED] T6496.755
    
    [GRAPHIC] [TIFF OMITTED] T6496.756
    
    [GRAPHIC] [TIFF OMITTED] T6496.757
    
    [GRAPHIC] [TIFF OMITTED] T6496.758
    
    [GRAPHIC] [TIFF OMITTED] T6496.759
    
    [GRAPHIC] [TIFF OMITTED] T6496.760
    
    [GRAPHIC] [TIFF OMITTED] T6496.761
    
    [GRAPHIC] [TIFF OMITTED] T6496.762
    
    [GRAPHIC] [TIFF OMITTED] T6496.763
    
    [GRAPHIC] [TIFF OMITTED] T6496.764
    
    [GRAPHIC] [TIFF OMITTED] T6496.765
    
    [GRAPHIC] [TIFF OMITTED] T6496.766
    
    [GRAPHIC] [TIFF OMITTED] T6496.767
    
    [GRAPHIC] [TIFF OMITTED] T6496.768
    
    [GRAPHIC] [TIFF OMITTED] T6496.769
    
    [GRAPHIC] [TIFF OMITTED] T6496.770
    
    [GRAPHIC] [TIFF OMITTED] T6496.771
    
    [GRAPHIC] [TIFF OMITTED] T6496.772
    
    [GRAPHIC] [TIFF OMITTED] T6496.773
    
    [GRAPHIC] [TIFF OMITTED] T6496.774
    
    [GRAPHIC] [TIFF OMITTED] T6496.775
    
    [GRAPHIC] [TIFF OMITTED] T6496.776
    
    [GRAPHIC] [TIFF OMITTED] T6496.777
    
    [GRAPHIC] [TIFF OMITTED] T6496.778
    
    [GRAPHIC] [TIFF OMITTED] T6496.779
    
    [GRAPHIC] [TIFF OMITTED] T6496.780
    
    [GRAPHIC] [TIFF OMITTED] T6496.781
    
    [GRAPHIC] [TIFF OMITTED] T6496.782
    
    [GRAPHIC] [TIFF OMITTED] T6496.783
    
    [GRAPHIC] [TIFF OMITTED] T6496.784
    
    [GRAPHIC] [TIFF OMITTED] T6496.785
    
    [GRAPHIC] [TIFF OMITTED] T6496.786
    
    [GRAPHIC] [TIFF OMITTED] T6496.787
    
    [GRAPHIC] [TIFF OMITTED] T6496.788
    
    [GRAPHIC] [TIFF OMITTED] T6496.789
    
    [GRAPHIC] [TIFF OMITTED] T6496.790
    
    [GRAPHIC] [TIFF OMITTED] T6496.791
    
    [GRAPHIC] [TIFF OMITTED] T6496.792
    
    [GRAPHIC] [TIFF OMITTED] T6496.793
    
    [GRAPHIC] [TIFF OMITTED] T6496.794
    
    [GRAPHIC] [TIFF OMITTED] T6496.795
    
    [GRAPHIC] [TIFF OMITTED] T6496.796
    
    [GRAPHIC] [TIFF OMITTED] T6496.797
    
    [GRAPHIC] [TIFF OMITTED] T6496.798
    
    [GRAPHIC] [TIFF OMITTED] T6496.799
    
    [GRAPHIC] [TIFF OMITTED] T6496.800
    
    [GRAPHIC] [TIFF OMITTED] T6496.801
    
    [GRAPHIC] [TIFF OMITTED] T6496.802
    
    [GRAPHIC] [TIFF OMITTED] T6496.803
    
    [GRAPHIC] [TIFF OMITTED] T6496.804
    
    [GRAPHIC] [TIFF OMITTED] T6496.805
    
    [GRAPHIC] [TIFF OMITTED] T6496.806
    
    [GRAPHIC] [TIFF OMITTED] T6496.807
    
    [GRAPHIC] [TIFF OMITTED] T6496.808
    
    [GRAPHIC] [TIFF OMITTED] T6496.809
    
    [GRAPHIC] [TIFF OMITTED] T6496.810
    
    [GRAPHIC] [TIFF OMITTED] T6496.811
    
    [GRAPHIC] [TIFF OMITTED] T6496.812
    
    [GRAPHIC] [TIFF OMITTED] T6496.813
    
    [GRAPHIC] [TIFF OMITTED] T6496.814
    
    [GRAPHIC] [TIFF OMITTED] T6496.815
    
    [GRAPHIC] [TIFF OMITTED] T6496.816
    
    [GRAPHIC] [TIFF OMITTED] T6496.817
    
    [GRAPHIC] [TIFF OMITTED] T6496.818
    
    [GRAPHIC] [TIFF OMITTED] T6496.819
    
    [GRAPHIC] [TIFF OMITTED] T6496.820
    
    [GRAPHIC] [TIFF OMITTED] T6496.821
    
    [GRAPHIC] [TIFF OMITTED] T6496.822
    
    [GRAPHIC] [TIFF OMITTED] T6496.823
    
    [GRAPHIC] [TIFF OMITTED] T6496.824
    
    [GRAPHIC] [TIFF OMITTED] T6496.825
    
    [GRAPHIC] [TIFF OMITTED] T6496.826
    
    [GRAPHIC] [TIFF OMITTED] T6496.827
    
    [GRAPHIC] [TIFF OMITTED] T6496.828
    
    [GRAPHIC] [TIFF OMITTED] T6496.829
    
    [GRAPHIC] [TIFF OMITTED] T6496.830
    
    [GRAPHIC] [TIFF OMITTED] T6496.831
    
    [GRAPHIC] [TIFF OMITTED] T6496.832
    
    [GRAPHIC] [TIFF OMITTED] T6496.833
    
    [GRAPHIC] [TIFF OMITTED] T6496.834
    
    [GRAPHIC] [TIFF OMITTED] T6496.835
    
    [GRAPHIC] [TIFF OMITTED] T6496.836
    
    [GRAPHIC] [TIFF OMITTED] T6496.837
    
    [GRAPHIC] [TIFF OMITTED] T6496.838
    
    [GRAPHIC] [TIFF OMITTED] T6496.839
    
    [GRAPHIC] [TIFF OMITTED] T6496.840
    
    [GRAPHIC] [TIFF OMITTED] T6496.841
    
    [GRAPHIC] [TIFF OMITTED] T6496.842
    
    [GRAPHIC] [TIFF OMITTED] T6496.843
    
    [GRAPHIC] [TIFF OMITTED] T6496.844
    
    [GRAPHIC] [TIFF OMITTED] T6496.845
    
    [GRAPHIC] [TIFF OMITTED] T6496.846
    
    [GRAPHIC] [TIFF OMITTED] T6496.847
    
    [GRAPHIC] [TIFF OMITTED] T6496.848
    
    [GRAPHIC] [TIFF OMITTED] T6496.849
    
    [GRAPHIC] [TIFF OMITTED] T6496.850
    
    [GRAPHIC] [TIFF OMITTED] T6496.851
    
    [GRAPHIC] [TIFF OMITTED] T6496.852
    
    [GRAPHIC] [TIFF OMITTED] T6496.853
    
    [GRAPHIC] [TIFF OMITTED] T6496.854
    
    [GRAPHIC] [TIFF OMITTED] T6496.855
    
    [GRAPHIC] [TIFF OMITTED] T6496.856
    
    [GRAPHIC] [TIFF OMITTED] T6496.857
    
    [GRAPHIC] [TIFF OMITTED] T6496.858
    
    [GRAPHIC] [TIFF OMITTED] T6496.859
    
    [GRAPHIC] [TIFF OMITTED] T6496.860
    
    [GRAPHIC] [TIFF OMITTED] T6496.861
    
    [GRAPHIC] [TIFF OMITTED] T6496.862
    
    [GRAPHIC] [TIFF OMITTED] T6496.863
    
    [GRAPHIC] [TIFF OMITTED] T6496.864
    
    [GRAPHIC] [TIFF OMITTED] T6496.865
    
    [GRAPHIC] [TIFF OMITTED] T6496.866
    
    [GRAPHIC] [TIFF OMITTED] T6496.867
    
    [GRAPHIC] [TIFF OMITTED] T6496.868
    
    [GRAPHIC] [TIFF OMITTED] T6496.869
    
    [GRAPHIC] [TIFF OMITTED] T6496.870
    
    [GRAPHIC] [TIFF OMITTED] T6496.871
    
    [GRAPHIC] [TIFF OMITTED] T6496.872
    
    [GRAPHIC] [TIFF OMITTED] T6496.873
    
    [GRAPHIC] [TIFF OMITTED] T6496.874
    
    [GRAPHIC] [TIFF OMITTED] T6496.875
    
    [GRAPHIC] [TIFF OMITTED] T6496.876
    
    [GRAPHIC] [TIFF OMITTED] T6496.877
    
    [GRAPHIC] [TIFF OMITTED] T6496.878
    
    [GRAPHIC] [TIFF OMITTED] T6496.879
    
    [GRAPHIC] [TIFF OMITTED] T6496.880
    
    [GRAPHIC] [TIFF OMITTED] T6496.881
    
    [GRAPHIC] [TIFF OMITTED] T6496.882
    
    [GRAPHIC] [TIFF OMITTED] T6496.883
    
    [GRAPHIC] [TIFF OMITTED] T6496.884
    
    [GRAPHIC] [TIFF OMITTED] T6496.885
    
    [GRAPHIC] [TIFF OMITTED] T6496.886
    
    [GRAPHIC] [TIFF OMITTED] T6496.887
    
    [GRAPHIC] [TIFF OMITTED] T6496.888
    
    [GRAPHIC] [TIFF OMITTED] T6496.889
    
    [GRAPHIC] [TIFF OMITTED] T6496.890
    
    [GRAPHIC] [TIFF OMITTED] T6496.891
    
    [GRAPHIC] [TIFF OMITTED] T6496.892
    
    [GRAPHIC] [TIFF OMITTED] T6496.893
    
    [GRAPHIC] [TIFF OMITTED] T6496.894
    
    [GRAPHIC] [TIFF OMITTED] T6496.895
    
    [GRAPHIC] [TIFF OMITTED] T6496.896
    
    [GRAPHIC] [TIFF OMITTED] T6496.897
    
    [GRAPHIC] [TIFF OMITTED] T6496.898
    
    [GRAPHIC] [TIFF OMITTED] T6496.899
    
    [GRAPHIC] [TIFF OMITTED] T6496.900
    
    [GRAPHIC] [TIFF OMITTED] T6496.901
    
    [GRAPHIC] [TIFF OMITTED] T6496.902
    
    [GRAPHIC] [TIFF OMITTED] T6496.903
    
    [GRAPHIC] [TIFF OMITTED] T6496.904
    
    [GRAPHIC] [TIFF OMITTED] T6496.905
    
    [GRAPHIC] [TIFF OMITTED] T6496.906
    
    [GRAPHIC] [TIFF OMITTED] T6496.907
    
    [GRAPHIC] [TIFF OMITTED] T6496.908
    
    [GRAPHIC] [TIFF OMITTED] T6496.909
    
    [GRAPHIC] [TIFF OMITTED] T6496.910
    
    [GRAPHIC] [TIFF OMITTED] T6496.911
    
    [GRAPHIC] [TIFF OMITTED] T6496.912
    
    [GRAPHIC] [TIFF OMITTED] T6496.913
    
    [GRAPHIC] [TIFF OMITTED] T6496.914
    
    [GRAPHIC] [TIFF OMITTED] T6496.915
    
    [GRAPHIC] [TIFF OMITTED] T6496.916
    
    [GRAPHIC] [TIFF OMITTED] T6496.917
    
    [GRAPHIC] [TIFF OMITTED] T6496.918
    
    [GRAPHIC] [TIFF OMITTED] T6496.919
    
    [GRAPHIC] [TIFF OMITTED] T6496.920
    
    [GRAPHIC] [TIFF OMITTED] T6496.921
    
    [GRAPHIC] [TIFF OMITTED] T6496.922
    
    [GRAPHIC] [TIFF OMITTED] T6496.923
    
    [GRAPHIC] [TIFF OMITTED] T6496.924
    
    [GRAPHIC] [TIFF OMITTED] T6496.925
    
    [GRAPHIC] [TIFF OMITTED] T6496.926
    
    [GRAPHIC] [TIFF OMITTED] T6496.927
    
    [GRAPHIC] [TIFF OMITTED] T6496.928
    
    [GRAPHIC] [TIFF OMITTED] T6496.929
    
    [GRAPHIC] [TIFF OMITTED] T6496.930
    
    [GRAPHIC] [TIFF OMITTED] T6496.931
    
    [GRAPHIC] [TIFF OMITTED] T6496.932
    
    [GRAPHIC] [TIFF OMITTED] T6496.933
    
    [GRAPHIC] [TIFF OMITTED] T6496.934
    
    [GRAPHIC] [TIFF OMITTED] T6496.935
    
    [GRAPHIC] [TIFF OMITTED] T6496.936
    
    [GRAPHIC] [TIFF OMITTED] T6496.937
    
    [GRAPHIC] [TIFF OMITTED] T6496.938
    
    [GRAPHIC] [TIFF OMITTED] T6496.939
    
    [GRAPHIC] [TIFF OMITTED] T6496.940
    
    [GRAPHIC] [TIFF OMITTED] T6496.941
    
    [GRAPHIC] [TIFF OMITTED] T6496.942
    
    [GRAPHIC] [TIFF OMITTED] T6496.943
    
    [GRAPHIC] [TIFF OMITTED] T6496.944
    
    [GRAPHIC] [TIFF OMITTED] T6496.945
    
    [GRAPHIC] [TIFF OMITTED] T6496.946
    
    [GRAPHIC] [TIFF OMITTED] T6496.947
    
    [GRAPHIC] [TIFF OMITTED] T6496.948
    
    [GRAPHIC] [TIFF OMITTED] T6496.949
    
    [GRAPHIC] [TIFF OMITTED] T6496.950
    
    [GRAPHIC] [TIFF OMITTED] T6496.951
    
    [GRAPHIC] [TIFF OMITTED] T6496.952
    
    [GRAPHIC] [TIFF OMITTED] T6496.953
    
    [GRAPHIC] [TIFF OMITTED] T6496.954
    
    [GRAPHIC] [TIFF OMITTED] T6496.955
    
    [GRAPHIC] [TIFF OMITTED] T6496.956
    
    [GRAPHIC] [TIFF OMITTED] T6496.957
    
    [GRAPHIC] [TIFF OMITTED] T6496.958
    
    [GRAPHIC] [TIFF OMITTED] T6496.959
    
    [GRAPHIC] [TIFF OMITTED] T6496.960
    
    [GRAPHIC] [TIFF OMITTED] T6496.961
    
    [GRAPHIC] [TIFF OMITTED] T6496.962
    
    [GRAPHIC] [TIFF OMITTED] T6496.963
    
    [GRAPHIC] [TIFF OMITTED] T6496.964
    
    [GRAPHIC] [TIFF OMITTED] T6496.965
    
    [GRAPHIC] [TIFF OMITTED] T6496.966
    
    [GRAPHIC] [TIFF OMITTED] T6496.967
    
    [GRAPHIC] [TIFF OMITTED] T6496.968
    
    [GRAPHIC] [TIFF OMITTED] T6496.969
    
    [GRAPHIC] [TIFF OMITTED] T6496.970
    
    [GRAPHIC] [TIFF OMITTED] T6496.971
    
    [GRAPHIC] [TIFF OMITTED] T6496.972
    
    [GRAPHIC] [TIFF OMITTED] T6496.973
    
    [GRAPHIC] [TIFF OMITTED] T6496.974
    
    [GRAPHIC] [TIFF OMITTED] T6496.975
    
    [GRAPHIC] [TIFF OMITTED] T6496.976
    
    [GRAPHIC] [TIFF OMITTED] T6496.977
    
    [GRAPHIC] [TIFF OMITTED] T6496.023
    
    [GRAPHIC] [TIFF OMITTED] T6496.024
    
    [GRAPHIC] [TIFF OMITTED] T6496.025
    
    [GRAPHIC] [TIFF OMITTED] T6496.026
    
    [GRAPHIC] [TIFF OMITTED] T6496.027
    
    [GRAPHIC] [TIFF OMITTED] T6496.028
    
    [GRAPHIC] [TIFF OMITTED] T6496.029
    
    [GRAPHIC] [TIFF OMITTED] T6496.030
    
    [GRAPHIC] [TIFF OMITTED] T6496.031
    
    [GRAPHIC] [TIFF OMITTED] T6496.032
    
    [GRAPHIC] [TIFF OMITTED] T6496.033
    
    [GRAPHIC] [TIFF OMITTED] T6496.034
    
    [GRAPHIC] [TIFF OMITTED] T6496.035
    
    [GRAPHIC] [TIFF OMITTED] T6496.036
    
    [GRAPHIC] [TIFF OMITTED] T6496.037
    
    [GRAPHIC] [TIFF OMITTED] T6496.038
    
    [GRAPHIC] [TIFF OMITTED] T6496.039
    
    [GRAPHIC] [TIFF OMITTED] T6496.040
    
    [GRAPHIC] [TIFF OMITTED] T6496.041
    
    [GRAPHIC] [TIFF OMITTED] T6496.042
    
    [GRAPHIC] [TIFF OMITTED] T6496.043
    
    [GRAPHIC] [TIFF OMITTED] T6496.044
    
    [GRAPHIC] [TIFF OMITTED] T6496.045
    
    [GRAPHIC] [TIFF OMITTED] T6496.046
    
    [GRAPHIC] [TIFF OMITTED] T6496.047
    
    [GRAPHIC] [TIFF OMITTED] T6496.048
    
    [GRAPHIC] [TIFF OMITTED] T6496.049
    
    [GRAPHIC] [TIFF OMITTED] T6496.050
    
    [GRAPHIC] [TIFF OMITTED] T6496.051
    
    [GRAPHIC] [TIFF OMITTED] T6496.052
    
    [GRAPHIC] [TIFF OMITTED] T6496.053
    
    [GRAPHIC] [TIFF OMITTED] T6496.054
    
    [GRAPHIC] [TIFF OMITTED] T6496.055
    
    [GRAPHIC] [TIFF OMITTED] T6496.056
    
    [GRAPHIC] [TIFF OMITTED] T6496.057
    
    [GRAPHIC] [TIFF OMITTED] T6496.058
    
    [GRAPHIC] [TIFF OMITTED] T6496.059
    
    [GRAPHIC] [TIFF OMITTED] T6496.060
    
    [GRAPHIC] [TIFF OMITTED] T6496.061
    
    [GRAPHIC] [TIFF OMITTED] T6496.062
    
    [GRAPHIC] [TIFF OMITTED] T6496.063
    
    [GRAPHIC] [TIFF OMITTED] T6496.064
    
    [GRAPHIC] [TIFF OMITTED] T6496.065
    
    [GRAPHIC] [TIFF OMITTED] T6496.066
    
    [GRAPHIC] [TIFF OMITTED] T6496.067
    
    [GRAPHIC] [TIFF OMITTED] T6496.068
    
    [GRAPHIC] [TIFF OMITTED] T6496.069
    
    [GRAPHIC] [TIFF OMITTED] T6496.070
    
    [GRAPHIC] [TIFF OMITTED] T6496.071
    
    [GRAPHIC] [TIFF OMITTED] T6496.072
    
    [GRAPHIC] [TIFF OMITTED] T6496.073
    
    [GRAPHIC] [TIFF OMITTED] T6496.074
    
    [GRAPHIC] [TIFF OMITTED] T6496.075
    
    [GRAPHIC] [TIFF OMITTED] T6496.076
    
    [GRAPHIC] [TIFF OMITTED] T6496.077
    
    [GRAPHIC] [TIFF OMITTED] T6496.078
    
    [GRAPHIC] [TIFF OMITTED] T6496.079
    
    [GRAPHIC] [TIFF OMITTED] T6496.080
    
    [GRAPHIC] [TIFF OMITTED] T6496.081
    
    [GRAPHIC] [TIFF OMITTED] T6496.082
    
    [GRAPHIC] [TIFF OMITTED] T6496.083
    
    [GRAPHIC] [TIFF OMITTED] T6496.084
    
    [GRAPHIC] [TIFF OMITTED] T6496.085
    
    [GRAPHIC] [TIFF OMITTED] T6496.086
    
    [GRAPHIC] [TIFF OMITTED] T6496.087
    
    [GRAPHIC] [TIFF OMITTED] T6496.088
    
    [GRAPHIC] [TIFF OMITTED] T6496.089
    
    [GRAPHIC] [TIFF OMITTED] T6496.090
    
    [GRAPHIC] [TIFF OMITTED] T6496.091
    
    [GRAPHIC] [TIFF OMITTED] T6496.092
    
    [GRAPHIC] [TIFF OMITTED] T6496.093
    
    [GRAPHIC] [TIFF OMITTED] T6496.094
    
    [GRAPHIC] [TIFF OMITTED] T6496.095
    
    [GRAPHIC] [TIFF OMITTED] T6496.096
    
    [GRAPHIC] [TIFF OMITTED] T6496.097
    
    [GRAPHIC] [TIFF OMITTED] T6496.098
    
    [GRAPHIC] [TIFF OMITTED] T6496.099
    
    [GRAPHIC] [TIFF OMITTED] T6496.100
    
    [GRAPHIC] [TIFF OMITTED] T6496.101
    
    [GRAPHIC] [TIFF OMITTED] T6496.102
    
    [GRAPHIC] [TIFF OMITTED] T6496.103
    
    [GRAPHIC] [TIFF OMITTED] T6496.104
    
    [GRAPHIC] [TIFF OMITTED] T6496.105
    
    [GRAPHIC] [TIFF OMITTED] T6496.106
    
    [GRAPHIC] [TIFF OMITTED] T6496.107
    
    [GRAPHIC] [TIFF OMITTED] T6496.108
    
    [GRAPHIC] [TIFF OMITTED] T6496.109
    
    [GRAPHIC] [TIFF OMITTED] T6496.110
    
    [GRAPHIC] [TIFF OMITTED] T6496.111
    
    [GRAPHIC] [TIFF OMITTED] T6496.112
    
    [GRAPHIC] [TIFF OMITTED] T6496.113
    
    [GRAPHIC] [TIFF OMITTED] T6496.114
    
    [GRAPHIC] [TIFF OMITTED] T6496.115
    
    [GRAPHIC] [TIFF OMITTED] T6496.116
    
    [GRAPHIC] [TIFF OMITTED] T6496.117
    
    [GRAPHIC] [TIFF OMITTED] T6496.118
    
    [GRAPHIC] [TIFF OMITTED] T6496.119
    
    [GRAPHIC] [TIFF OMITTED] T6496.120
    
    [GRAPHIC] [TIFF OMITTED] T6496.121
    
    [GRAPHIC] [TIFF OMITTED] T6496.122
    
    [GRAPHIC] [TIFF OMITTED] T6496.123
    
    [GRAPHIC] [TIFF OMITTED] T6496.124
    
    [GRAPHIC] [TIFF OMITTED] T6496.125
    
    [GRAPHIC] [TIFF OMITTED] T6496.126
    
    [GRAPHIC] [TIFF OMITTED] T6496.127
    
    [GRAPHIC] [TIFF OMITTED] T6496.128
    
    [GRAPHIC] [TIFF OMITTED] T6496.129
    
    [GRAPHIC] [TIFF OMITTED] T6496.130
    
    [GRAPHIC] [TIFF OMITTED] T6496.131
    
    [GRAPHIC] [TIFF OMITTED] T6496.132
    
    [GRAPHIC] [TIFF OMITTED] T6496.133
    
    [GRAPHIC] [TIFF OMITTED] T6496.134
    
    [GRAPHIC] [TIFF OMITTED] T6496.135
    
    [GRAPHIC] [TIFF OMITTED] T6496.136
    
    [GRAPHIC] [TIFF OMITTED] T6496.137
    
    [GRAPHIC] [TIFF OMITTED] T6496.138
    
    [GRAPHIC] [TIFF OMITTED] T6496.139
    
    [GRAPHIC] [TIFF OMITTED] T6496.140
    
    [GRAPHIC] [TIFF OMITTED] T6496.141
    
    [GRAPHIC] [TIFF OMITTED] T6496.142
    
    [GRAPHIC] [TIFF OMITTED] T6496.143
    
    [GRAPHIC] [TIFF OMITTED] T6496.144
    
    [GRAPHIC] [TIFF OMITTED] T6496.145
    
    [GRAPHIC] [TIFF OMITTED] T6496.146
    
    [GRAPHIC] [TIFF OMITTED] T6496.147
    

</pre></body></html>
